<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-701, Part 6]
[From the U.S. Government Publishing Office]



                                                   S. Hrg. 111-701 Pt. 6
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

=======================================================================


                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3454

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2011 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               __________

                                 PART 6

                               PERSONNEL

                               __________

                  MARCH 10, 24; APRIL 28; MAY 12, 2010

                               __________

         Printed for the use of the Committee on Armed Services


        Available via the World Wide Web: http://www.fdsys.gov/




                  U.S. GOVERNMENT PRINTING OFFICE
62-159                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 RICHARD BURR, North Carolina
KAY R. HAGAN, North Carolina         DAVID VITTER, Louisiana
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
ROLAND W. BURRIS, Illinois
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                 ______

                       Subcommittee on Personnel

                      JIM WEBB, Virginia, Chairman

JOSEPH I. LIEBERMAN, Connecticut     LINDSEY GRAHAM, South Carolina
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
KAY R. HAGAN, North Carolina         GEORGE S. LeMIEUX, Florida
MARK BEGICH, Alaska                  DAVID VITTER, Louisiana
ROLAND W. BURRIS, Illinois           SUSAN M. COLLINS, Maine
JEFF BINGAMAN, New Mexico

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
        Active, Guard, Reserve, and Civilian Personnel Programs
                             march 10, 2010

                                                                   Page

Stanley, Hon. Clifford L., Under Secretary of Defense for 
  Personnel and Readiness........................................     6
Lamont, Hon. Thomas R., Assistant Secretary of the Army for 
  Manpower and Reserve Affairs...................................    30
Garcia, Hon. Juan M., III, Assistant Secretary of the Navy for 
  Manpower and Reserve Affairs...................................    38
Ginsberg, Hon. Daniel B., Assistant Secretary of the Air Force 
  for Manpower and Reserve Affairs...............................    42
Barnes, Master Chief Joseph L., USN (Ret.), National Executive 
  Director, Fleet Reservse Association...........................    71
Moakler, Kathleen B., Government Relations Director, National 
  Military Family Association....................................    77
Cline, Master Sergeant Michael, USA (Ret.), Executive Director, 
  Enlisted Association of the National Guard of the United States    96
Holleman, Deirdre Parke, Executive Director, The Retired Enlisted 
  Association....................................................    98
Strobridge, Steven P., USAF (Ret.), Director of Government 
  Relations, Military Officers Association of America............   100

       Military Health System Programs, Policies, and Initiatives
                             march 24, 2010

Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland   181
Rice, Charles L., M.D., Performing the Duties of the Assistant 
  Secretary of Defense for Health Affairs, and Acting Director, 
  Tricare Management Activity....................................   185
Hunter, RADM Christine S., USN, Deputy Director, Tricare 
  Management Activity............................................   192
Schoomaker, LTG Eric B., USA, Surgeon General of the U.S. Army, 
  and Commander, U.S. Army Medical Command.......................   194
Robinson, VADM Adam M., Jr., USN, Surgeon General of the U.S. 
  Navy, and Chief, Navy Bureau of Medicine and Surgery...........   218
Green, Lt. Gen. Charles B., USAF, Surgeon General of the U.S. Air 
  Force..........................................................   227
Jeffries, RADM Richard R., USN, Medical Officer of the U.S. 
  Marine Corps...................................................   235

  Military Compensation and Benefits, Including Special and Incentive 
                                  Pays
                             april 28, 2010

Carr, William J., Deputy Under Secretary of Defense for Military 
  Personnel Policy...............................................   313
Farrell, Brenda S., Director, Defense Capabilities and 
  Management, Government Accountability Office...................   317

                                 (iii)

Murray, Carla Tighe, Senior Analyst, National Security Division, 
  Congressional Budget Office....................................   323
Hosek, James R., Director, Forces and Resources Policy Center, 
  RAND National Security Research Division.......................   330

                       Reserve Component Programs
                              may 12, 2010

McCarthy, Hon. Dennis M., Assistant Secretary of Defense for 
  Reserve Affairs................................................   369
McKinley, Gen. Craig R., USAF, Chief, National Guard Bureau......   378
Wyatt, Lt. Gen. Harry M., III, USAF, Director, Air National Guard   379
Carpenter, MG Raymond W., ARNG, Acting Director, Army National 
  Guard..........................................................   380
Stultz, LTG Jack C., USAR, Chief of Army Reserve; and Commanding 
  General, U.S. Army Reserve Command.............................   396
Debbink, VADM Dirk J., USN, Chief of Navy Reserve; and Commander, 
  Navy Reserve Force.............................................   401
Kelly, Lt. Gen. John F., USMC, Commander, Marine Forces Reserve; 
  and Commander, Marine Forces North.............................   409
Stenner, Lt. Gen. Charles E., Jr., USAF, Chief of Air Force 
  Reserve; and Commander, Air Force Reserve Command..............   419
Stosz, RADM Sandra L., USCG, Acting Director of Reserve and 
  Training, U.S. Coast Guard.....................................   428


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                       WEDNESDAY, MARCH 10, 2010

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.

        ACTIVE, GUARD, RESERVE, AND CIVILIAN PERSONNEL PROGRAMS

    The subcommittee met, pursuant to notice, at 10:33 a.m. in 
room SR-232A, Russell Senate Office Building, Senator Jim Webb 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Webb, Hagan, Begich, 
Graham, and Chambliss.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella Eisen, counsel; and Gerald J. Leeling, counsel.
    Minority staff members present: Diana G. Tabler, 
professional staff member; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Jennifer R. Knowles and Brian F. 
Sebold.
    Committee members' assistants present: Juliet Beyler and 
Gordon Peterson, assistants to Senator Webb, Lindsay Kavanaugh, 
assistant to Senator Begich; Clyde Taylor IV, assistant to 
Senator Chambliss; and Adam Brake, assistant to Senator Graham.

        OPENING STATEMENT OF SENATOR JIM WEBB, CHAIRMAN

    Senator Webb. Good morning. The subcommittee will come to 
order.
    The subcommittee meets today to receive testimony on the 
Active, Guard, Reserve, and civilian personnel programs in 
review of the National Defense Authorization Request for Fiscal 
Year 2011 and the Future Years Defense Program.
    We will have two panels today. The first panel's witnesses 
are the senior civilian officials in the Department of Defense 
(DOD) and the military departments who are responsible for 
personnel matters. I welcome The Honorable Clifford Stanley, 
Under Secretary of Defense for Personnel and Readiness; The 
Honorable Thomas Lamont, Assistant Secretary of the Army for 
Manpower and Reserve Affairs; The Honorable Juan Garcia, 
Assistant Secretary of the Navy for Manpower and Reserve 
Affairs; and The Honorable Daniel Ginsberg, Assistant Secretary 
of the Air Force for Manpower and Reserve Affairs.
    Nobody wants to sit in this center seat, here? [Laughter.]
    Dr. Stanley, feel free to be the major focal point of the 
room. [Laughter.]
    Our second panel will include witnesses drawn from 
associations that represent and advance the interests of Active 
Duty, Reserve, and retired servicemembers and their families. 
I'll introduce our second panel when it convenes, but I wish to 
express my appreciation to all our witnesses for joining us 
this morning.
    This is my first hearing as chairman of this subcommittee. 
The subcommittee's jurisdiction extends to virtually all 
matters of personnel policy--compensation, military healthcare, 
military nominations, civilian personnel. I'd like to say, at 
this point, that I intend for this subcommittee to exercise 
continuous and active oversight of all our military personnel 
matters, through hearings, through consideration of the 
Department's budget and legislative proposals, and also through 
day-to-day interaction with you and people who work with you, 
and with our committee staff, as well. This hearing is one 
part, and one part only, of that process.
    There's no greater responsibility for Congress and military 
leaders, as our witnesses all know, than to care and provide 
for our servicemembers and for their families. This is a 
concept of stewardship that I, and I think all of my 
compatriots up here, feel about very strongly.
    I grew up in the military, as many of you know. I know what 
it's like to have a parent deployed. I also know what that 
means, in terms of the responsibilities and the challenges of 
family members. I can remember, at one point, when--my father 
was career Air Force--I went to a different school in the fifth 
grade, sixth grade, seventh grade, three different schools in 
the eighth grade, the ninth grade, two different schools in the 
tenth grade, from England to Missouri to Texas to Alabama to 
California to Nebraska, and I know how that stresses the 
families, and I know how important it is for us to always keep 
that in mind.
    I had the honor of serving with the Marine Corps infantry 
in Vietnam. I understand a lot of the stresses of what it means 
to be deployed in combat. I'm a father of a Marine NCO who had 
some hard time in Iraq, and also the father-in-law of a Marine 
infantry sergeant, who is now, at the age of 24, looking to be 
deployed for the fourth time, coming this July.
    That, coupled with the experience that I was able to gain 
through 5 years in the Pentagon--one as a Marine officer, three 
having responsibility for our Guard and Reserve programs, about 
which I feel very strongly, and the other as Secretary of the 
Navy--we got a very good look, in the 1980s, at the evolution 
of the total-force concept, where the manpower challenges came 
from, force-structure issues, and those sorts of things, and 
they will come to play here, in this subcommittee, as we move 
forward.
    We're very cognizant of the fact DOD, supported by this 
committee, has instituted many innovative programs over the 
past several years in order to deal with the challenges that 
have occurred since September 11, 2001.
    I would mention, briefly, since this is my first hearing as 
chairman of this subcommittee, that the Commonwealth of 
Virginia has a long history, in terms of taking care of, and 
being host to, one of the largest Active Duty and retired 
military populations in our country, and I'm honored to serve 
in the tradition of John Warner, who is no longer in the 
Senate, but gave tremendous service to this committee and also 
to the people of Virginia, in this area.
    Our military is now engaged in its 9th year of combat 
operations since September 11. Our Guard and Reserve components 
have played critical roles during this period, in ways that 
were not envisioned at the inception of the All-Volunteer Force 
and, quite frankly, were not envisioned when I was Assistant 
Secretary of Defense for Reserve Affairs.
    It's also important for us to remember that the All-
Volunteer Force is not an all-career force. Sometimes we lose 
that focus when we have people from the Pentagon coming over 
here talking to us about programs. The Services do a very fine 
job of attending to the needs of its career force, but we 
should always keep in mind our stewardship to those who feel, 
in the citizen-soldier tradition of this country, that they 
should come in and obligate themselves for one enlistment, and 
return to their communities.
    The data that we received when we were formulating the GI 
Bill was that 75 percent of the Army enlisted folks, and 70 
percent of the Marine Corps, and roughly half of the other two 
Services, leave the military on or before the end of their 
first enlistment. Those numbers may have varied a bit with the 
economic conditions right now, but those are the people that we 
should never forget when we come up--in talking about these 
other programs.
    I'm look forward, greatly, to serving with our 
subcommittee's ranking member, Senator Graham, in addressing 
these challenges, and to ensure the long-term viability of the 
All-Volunteer Force, not simply in numbers, but also in 
quality. Everyone in this room is very familiar with Senator 
Graham's service, not only on this committee, but also to our 
country, continuing to serve as a colonel in the Air Force 
Reserve. He brings valuable perspective, I think, as everyone 
has seen, as we've attempted to work through the issues of the 
Guantanamo Bay detainees and many other areas. He's served 
regularly on Active Duty, and his duties have allowed him to 
keep his finger on the pulse of the men and women in our 
military today. He and I have collaborated on a number of 
important issues over the past 3 years, and I welcome this 
opportunity to work with him even more closely during the 
months and years ahead.
    The All-Volunteer Force is stressed by the past 9 years of 
conflict. Having experienced multiple deployments, extended 
deployments to Afghanistan, Iraq, this is especially true of 
our ground forces. We're entering uncharted territory, in terms 
of the long-term consequences of past rotation cycles and an 
unsatisfactory deployment-to-dwell ratio that is only now 
beginning to be corrected. Despite authorizing more than 55,000 
additional Active-Duty servicemembers in the last year, today's 
dwell times are still inadequate to ensuring the vital 
recuperation, revitalization, and reset of the force and their 
families. I'm concerned about that impact on the resilience of 
the force, and we'll have some questions, during your 
testimony, with respect to those issues.
    This subcommittee faces a very clear and immediate 
challenge, and that is in addressing the rising costs of 
personnel. The combination of rising end strengths and an 
increasing compensation package continues to send personnel-
related costs soaring. As Secretary Gates recently said, ``The 
costs of healthcare are eating the Department alive.'' The 
total personnel-related budget in the Department's fiscal year 
2011 request, including the cost of providing healthcare to 
servicemembers, their families, and retirees, amounts to $178 
billion, or 32 percent of the overall DOD base budget. By 
contrast, when I was Secretary of the Navy in 1987, I think the 
entire Navy budget was right about $100 billion. Compare that 
with the fiscal year 2003 total personnel-related spending, 
including healthcare, amounted to $114 billion. That's an 
increase of 56 percent from fiscal year 2003 to fiscal year 
2011. By all accounts, that growth is going to continue.
    Though these challenges are steep, we should also be 
thankful for the successes that the Department and our Services 
have enjoyed. The combination of patriotism, a stagnant 
economy, a robust compensation package, including retirement, 
healthcare, and education benefits, have allowed the Services 
to achieve historic highs in recruiting and retention.
    The quality of our people has also been sustained. Waivers 
are down across the Services, test scores are up, and the vast 
majority of new recruits are high school graduates, a higher 
percentage than just a couple of years ago. These are all 
strong indicators of the quality of character and service that 
our people in uniform exhibit, across the board, day after day.
    I look forward to hearing from both panels this morning. I 
would encourage you to express your views candidly and, in 
addition relating to what you see going well, to address your 
concerns in those issues that you believe this subcommittee 
needs to pay attention to. I, along with Senator Graham and our 
colleagues, are dedicated to the prospect of ensuring that our 
military remains the very best in the world.
    Senator Graham.

              STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. Thank you, Mr. Chairman.
    As I listened to your opening statement, it really struck 
me that, of all of the people in the Senate, you're clearly, I 
think, the most qualified person to lead this subcommittee 
right now, in the sense of your understanding the personnel 
issues and just your personal history.
    I want to also acknowledge that Senator Nelson was a 
complete joy to work with, and he's gone to another 
subcommittee. But, Mr. Chairman, I promise, when it comes to 
the troops, we'll be as bipartisan as possible. I think we've 
proven, between the two of us, that we can disagree, but also 
find common ground on things that really do matter.
    I was on a plane not long ago, and on that one plane I had 
a young man come up to me who had just gotten out of the 
military, he's going to Harvard, and he mentioned the GI bill 
that you authored and we worked together to pass. It really is 
working. There's a lot of implementation problems, but the fact 
that this young man is able to get most of his college 
education paid for, if not all, for serving 4 years, going to 
Harvard, I think, is a testament to that bill. The guy sitting 
right by me was a 28-year service Air Force colonel who is 
going to transfer his benefits to his youngest daughter going 
to college, and he was just telling me how much that meant to 
his family. So, what we're able to accomplish there, with your 
leadership, is really helping people.
    The one thing I would suggest is, the President's budget--
I'm going to try to support as much as possible. The 1.4-
percent pay raise is the least we can do. We all wish it would 
be more, but we do have budget problems up here. The 
sustainability of healthcare is the issue, I think, for us on 
this committee, and maybe the Congress as a whole, because, as 
you talked about your time with the Navy, the budgets have 
grown, the obligations are great, so few people are doing so 
much for so long. Here we are, 9 years almost into this war, 
and we're growing the military. I think that's a wise thing to 
do. Personnel costs are 30-something percent of the budget, but 
the healthcare component is 8 percent of the budget, growing, 
it's going to be hard to sustain that. We haven't had a premium 
increase in TRICARE since 1995. I want to do everything I can 
to help the families and retirees and military members, but 
eventually we're going to have to deal with that problem: How 
do you sustain the growth of TRICARE and other medical benefits 
within the budget before you start taking away from the 
warfighter? That means some hard decisions are to come.
    When it comes to ``Don't Ask, Don't Tell,'' I think we all 
are waiting to see what this survey shows, and try to make an 
intelligent decision based on input from the military, and I 
would just urge my colleagues to let that run its course.
    With that, Mr. Chairman, I will listen to the witnesses and 
look forward to working with you. Again, I think, between the 
two of us and the members of this committee, we can do some 
good things for our men and women in uniform.
    One last thought. Senator Chambliss has a bill that I've 
been working with to lower retirement age for Guard and Reserve 
members who have served on Active Duty since September 11, 
2001. For every year they would serve, or 90 days they would 
serve, they could retire a bit earlier, all the way down to 55. 
That has a cost associated with it, but I think it's an idea 
whose time has come, and I look forward to working with you to 
see if we can make that possible.
    Mr. Chairman, I look forward to being your ally and 
colleague on this. Now is the time for me to shut up and let 
the people who are in charge talk.
    Senator Webb. Let me say that I can't think of a better 
person to be working with than Senator Graham on these issues, 
as well.
    Senator Graham. Thank you.
    Senator Webb. We've received statements for the record from 
the Fleet Reserve Association, the Reserve Officer Association, 
and, without objection they will be included in the record at 
this point.
    We've also received a statement for the record from Senator 
Bill Nelson, who could not be here, and, without objection, 
that will be included in the record after the principal 
statements of our witnesses.
    [The prepared statement of Senator Bill Nelson follows:]
               Prepared Statement by Senator Bill Nelson
    Mr. Chairman, thank you for allowing me to speak about one of the 
last injustices plaguing the veterans' benefits system. I am talking 
about the offset between the Department of Defense (DOD) Survivor 
Benefit Plan (SBP) annuity and the Department of Veterans Affairs (VA) 
Dependency and Indemnity Compensation (DIC) benefit.
    SBP is an annuity paid by the DOD to survivors when either a 
military retiree pays a premium as income insurance for their survivors 
or when a servicemember dies on active duty. DIC is a survivor benefit 
paid by the Veterans Administration. Survivors receive DIC when 
military service caused the servicemember's death.
    There is a longstanding problem in our military survivor benefits 
system, the requirement for a dollar-for-dollar reduction of survivor 
benefits from the SBP paid by DOD by the amount of DIC received from 
the VA. I have fought for 9 years to eliminate the offset for SBP 
beneficiaries whose loved ones purchased or earned this annuity.
    Following the bloodiest of America's wars, President Abraham 
Lincoln, in his second inaugural address, said that one of the greatest 
obligations in war is to ``finish the work we are in; to bind up the 
Nation's wounds; to care for him who shall have borne the battle, and 
for his widow, and his orphan.''
    To truly honor our servicemembers, we all agree that the U.S. 
Government must take care of our veterans, their widows and orphans. In 
keeping with that moral principle, we must repeal the unjust offset 
that denies widows and orphans the annuity their deceased loved ones 
have earned on active duty or purchased for them.
    In the 2008 National Defense Authorization Act, we cracked the door 
to eliminating the offset. In conference negotiations with the House, 
we made some progress when we got a ``special payment'' of $50 per 
month, which will increase to $310 per month by 2017 because of money 
savings found in Tobacco Legislation passed last year.
    Our efforts have been important steps in the right direction, but 
they are not enough. We must meet our obligation to the widow and 
orphan with the same sense of honor as was the service their loved one 
had rendered. We must completely eliminate the SBP-DIC offset.
    I commend many of the organizations represented by the witnesses 
today for the support they have shown and hard work put in for full 
repeal of the offset. I ask DOD to work with Congress to honor the 
retirees, the fallen, and their families, and budget for full repeal of 
the SBP-DIC offset.
    Thank you, Mr. Chairman.

    Senator Webb. With that, we would begin with Dr. Stanley, 
and then move to Mr. Lamont, Mr. Garcia, and Mr. Ginsberg, in 
that order.
    Dr. Stanley, welcome.

   STATEMENT OF HON. CLIFFORD L. STANLEY, UNDER SECRETARY OF 
              DEFENSE FOR PERSONNEL AND READINESS

    Dr. Stanley. Good morning, Senator Webb and Senator Graham 
and other distinguished members of the subcommittee.
    First of all, let me just say I'm honored to be here, and 
particularly with colleagues and, in some cases, just meeting 
today.
    As I speak to you concerning DOD's personnel programs and 
readiness, for the past 3 weeks, as the Under Secretary of 
Defense, I've had the honor of working and interacting with 
some of the greatest men and women in uniform, DOD civilians, 
contractors, and their great families. It is truly a privilege 
to serve them in this position.
    I first want to thank you for your support of these men and 
women over the years. They have fought our wars, protected our 
interests and our allies around the globe. I look forward to 
working closely with this committee to improve support for 
those in uniform, the civilian employees of the Department, and 
their families.
    Just a few short months ago, I appeared before you as 
President Obama's nominee to be the Under Secretary of Defense 
for Personnel and Readiness. At that time, I emphasized several 
top priorities: the All-Volunteer Force, support to wounded 
warriors, personnel readiness, family programs, and the stress 
that is affecting our military today.
    In terms of military personnel, the Services are 
experiencing historic success in recruiting and retention. It 
is a tribute to both the dedication of our military personnel 
and to the patriotism of our Nation's citizens that we continue 
to maintain an All-Volunteer Force of unprecedented quality 
after more than 8 years in active combat operations.
    I am happy to report that in fiscal year 2009, the Services 
have had the most successful recruiting year of all the All-
Volunteer Force era. All four Active Services and all six 
elements of the Reserve component achieved both numerical and 
recruit quality targets for the first time, which is a banner 
year. To continue to secure sufficient personnel for the Armed 
Forces, the Department must provide a compensation package 
comparable and competitive to the private sector at the same 
time we balance the demands of an All-Volunteer Force in the 
context of growing equipment and operational costs.
    The Department continues this commitment through the 
President's request for a 1.4-percent increase in military pay 
for all servicemembers in the fiscal year 2011 budget, an 
amount that equals earning increases in the private sector, as 
measured by the Employment Cost Index. Of note, from the 
January 1, 2002, through the January 1, 2010, pay raises, 
military pay rose about 42 percent, and the housing allowance 
rose by 83 percent. During the same period, private-sector 
wages and salaries rose only 32 percent.
    While there is little question that those increases were 
necessary in the past, rising personnel costs could 
dramatically affect the readiness of the Department. We are at 
a point where discretionary spending offers the best ability to 
target specific skills, and the quality and quantity of those 
filling such positions. I believe the Services still require 
the use of special pay and bonuses to ensure sufficient 
operational readiness and our mission.
    Our military forces maintain an exceptionally high level of 
readiness, but multiple deployments to Iraq and Afghanistan 
have certainly increased the stress on our servicemembers and 
their families. We have a number of initiatives underway to 
address this stress, and have set clear limits and goals for 
the deployment lengths and the amount of time, or ``dwell,'' 
between deployments.
    To that end, we have limited our unit deployments to 1 year 
in theater, a minimum of 1 year between deployments for our 
Active component. Our goal is to increase the time between 
deployments to 2 years for every year deployed, commonly called 
a 1-to-2 dwell ratio. For the Reserve component, we have 
limited the mobilization period to 1 year, and we strive to 
have a minimum 3-year break between mobilizations. The goal of 
the Reserve component dwell ratio is 1 year mobilized, with a 
5-year break between mobilizations, or a 1-to-5 dwell ratio. 
Although we are not there yet, we are making progress toward 
those goals.
    The Department is focused on care for our wounded, ill, and 
injured military members. As Secretary Gates stated last month, 
aside from winning the wars themselves, this is the 
Department's highest priority. Initiatives are currently 
underway to achieve a seamless transition from Active Duty to 
veteran status, and to increase cooperation between DOD and the 
Department of Veterans Affairs (VA). In addition, efforts to 
create a Disability Evaluation System that is simpler, faster, 
fairer, and more consistent are underway.
    Finally, in support of President Obama's commitment, the 
Department is partnering with the VA to establish Virtual 
Lifetime Electronic Records that will improve veteran care and 
services through increased availability and administrative and 
health information.
    We are also committed to further improving support to our 
military families. For fiscal year 2011, we have requested for 
a 41-percent increase in family assistance baseline funding 
across the Department to ensure that we are on target, in the 
sense of investing in programs that are needed by 
servicemembers and their families. We have initiated an 
extensive strategic planning process to address the current 
issues facing family readiness programs. This begins with a 
thorough assessment of existing needs, programs, and related 
issues.
    Unfortunately, we have had stumbles in this area. As I'm 
sure you're aware, we announced a temporary pause to the My 
Career Advancement Account (MyCAA) program on February 16, 
2010. Due to unforeseen, unprecedented, but welcome, demand in 
enrollments that overwhelmed the infrastructure, we nearly 
reached the budget threshold. While it was necessary to pause 
the program immediately, we failed to communicate properly the 
reasons for the pause. Over the past few weeks, DOD has worked 
tirelessly on mapping out solutions, for both the short and 
long term, that honors our commitment to our military spouses 
while accounting for fiscal realities.
    Our proposals are in the final stage of approval and we 
hope to restart the program very soon. We know we must make a 
concerted effort to restore our credibility and confidence with 
our military spouses, servicemembers, and the American public.
    Our military has proven its resilience during the most 
challenging of times, but the stress on the force is obvious. 
The Department's civilian and military leadership remain 
focused on employing numerous strategies to reduce the 
incidence of suicide in the Armed Forces. In calendar year 
2009, there were a total of 312 suicides, 285 Active component 
and 26 in the Reserve component, marking an increase, up from 
268 in 2008. I know this committee shares our belief that even 
one suicide is too many.
    There are many other critical issues facing the Department 
and this Nation, and I am exceedingly grateful to this Congress 
and this committee for their continuous commitment to 
supporting our men and women in DOD.
    I look forward to your questions and thank you for your 
time.
    [The prepared statement of Dr. Stanley follows:]
             Prepared Statement by Hon. Clifford L. Stanley
    Mr. Chairman and members of this distinguished subcommittee, thank 
you for inviting us to testify before you.
    As I humbly assume my role as the new Under Secretary of Defense 
for Personnel and Readiness, I am resolute in my determination to 
honor, protect and improve the lives of U.S. airmen, soldiers, sailors, 
and marines. I am here today to describe our mission as I see it and 
share my thoughts on how compassion, excellence and heightened sense of 
urgency will help me and my organization fulfill our duty.
    I am mindful we are at war and we must prevail. We win when we help 
our troops succeed in combat, and be healthy and happy with their 
families when at ease. We win when our troops can be confident their 
families have easy access to the resources and support they need while 
their loved ones are deployed. Maintaining our incredible All-Volunteer 
Force is our highest priority as we strive to recruit, attract, retain, 
and reward American's best and brightest, and their families.
                              active duty
Recruiting
    After more than 5 years of the most challenging recruiting 
environment since the inception of the All-Volunteer Force (AVF) in 
1973, the Services emerged in fiscal year 2009 with the most successful 
recruiting year of the AVF era--all four Active Services and all six 
Reserve components achieved both numerical and recruit quality targets 
for the first time, a banner year. Previous years were marked by a 
growing economy, low unemployment, reluctance of influencers of youth 
to recommend military service, propensity among youth themselves at an 
all-time low, and recruiting goals of the Army and Marine Corps 
increasing. Yet since 2005, the Services met or exceeded recruiting 
goals--the AVF concept has proven itself amidst some of the greatest 
stressors it could face.
    The recruiting environment has now changed. Unemployment has risen 
considerably. Generally, times like this make recruiting less 
challenging, and a regrettable trend in national unemployment operates 
to the advantage of those who are hiring, including the U.S. military. 
In addition, interest in the military among young people has increased.
    On the other hand, challenges remain--the lower likelihood of 
influencers of youth (e.g., parents and teachers) to recommend service, 
a large and growing proportion of youth population who are ineligible 
to serve in the military principally as a consequence of rising 
obesity, high numbers of youth going to college directly from high 
school, and the continuing concerns about overseas contingency 
operations with its concomitant high operations tempo, particularly the 
announced increases in force levels in Afghanistan. Therefore, we are 
in uncharted waters--with significant factors, both negative and 
positive, directly affecting military recruiting efforts.
    As a result, we continually review our recruiting programs to align 
funding and policies with current realities, recognizing that stable 
and adequate investments in recruiting resources are necessary to 
maintain success, especially in the long term. These reviews have 
allowed the Services to reduce recruiting resources in fiscal year 2010 
and 2011. While this results in a decreasing reliance on bonus 
incentives to meet recruiting goals, each Service knows it must be 
judicious in its cuts--reducing budgets gradually, and in the right 
places--using those targeted incentives to ensure we attract high 
quality youth into our most critical skills. We are mindful of the 
past, when fluctuating resources--up in tough recruiting environments, 
down in favorable ones--jeopardized recruiting missions, often 
resulting in sporadic failures.
    The recruiting environment is less challenging today, but we know 
that a tough recruiting environment will return. If we enter those 
difficult recruiting periods with insufficient resources and 
inexperienced recruiters, it will only exacerbate the problem and 
contribute to the ``boom and bust'' recruiting cycle which has 
characterized the past. Such a cyclical resourcing strategy also 
ignores the ongoing and significant role recruiting resources--
particularly advertising--have on both youth and influencer awareness, 
attitudes, and propensity. Therefore, it is imperative that we 
stabilize necessary recruiting resources. We appreciate this 
committee's untiring support of our recruiting programs and look 
forward to working together to ensure future success.
    As previously stated, fiscal year 2009 was a banner year for active 
duty recruiting. Altogether, the Services exceeded their goal of 
163,880 accessions by 5,088, accessing 159,374 first-term enlistees and 
an additional 9,594 individuals with previous military service.
    Fiscal year 2010 active duty recruiting efforts, to date, are even 
better. Through December, all Services met or exceeded both quantity 
and recruit quality objectives for the active force, with the Army 
achieving 13,977 of its 13,716 recruiting goal, for a 102 percent year-
to-date accomplishment (Table 1). Especially notable is the fact that 
for the second year in a row, after 4 years of falling below the 90 
percent DOD Benchmark for High School Diploma Graduates, the Army is 
now exceeding that measure, with an impressive 99.9 percent of new 
recruits holding that credential.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    We should not lose sight of the fact that, although the overall 
youth population is large, only a relatively small proportion of 
American youth is qualified to enlist. It is an unfortunate fact that 
much of the contemporary youth population is currently ineligible to 
serve. Medical disqualification, with obesity a large contributing 
factor, removes 35 percent, drug or alcohol abuse removes 18 percent, 
and another 23 percent do not meet our standards for reasons such as 
criminal misbehavior, have more dependents than can reliably be 
accommodated in the early career, or low aptitude scores. Another 
estimated 10 percent are qualified, but are attending college.
    To expand the recruiting pool and assist the Services in meeting a 
special category of critical readiness needs, the Department initiated 
a 1-year pilot program, Military Accessions Vital to National Interest 
(MAVNI), allowing the enlistment of up to 1,000 of a select group of 
non-U.S. citizens who had been in the United States for at least 2 
years. Enlistments under this pilot are open only to health care 
professionals in critically short specialties and individuals with 
language skills and cultural backgrounds in a limited list of 
languages. We are currently reviewing results of this pilot program.
    But, given the overall limited pool of eligible youth, our 
continuing recruiting success does not come easily. It remains the 
result of long hours and hard work by the 15,100 dedicated and 
professional, active-duty military recruiters. These recruiters often 
are the sole representative of our military forces in local 
communities, and they have both my and the Department's most sincere 
respect and gratitude.
    This past August, we implemented the post-September 11 GI Bill--the 
most extensive restructuring of post-service education benefits since 
the introduction of the original World War II GI Bill. As I am sure you 
are aware, the Montgomery GI Bill (MGIB) has been a cornerstone of our 
active-duty military recruiting efforts since 1985. There is little 
doubt that the MGIB has met or even exceeded the expectations of its 
sponsors when it was enacted, and has been a major contributor to the 
success of the All-Volunteer Force.
    This new post-September 11 GI Bill should enhance our recruiting 
efforts even more. However, we remain cautious about the impact of such 
a major, new benefit on retention, particularly first-term retention. 
We hope that the provision in the new program that allows career 
servicemembers to share or transfer their GI Bill with immediate family 
members, long requested by both members and their families, will 
mitigate negative retention impacts. Early results look favorable, with 
over 100,000 career servicemembers already requesting authority to 
share their earned educational benefits with their family members. We 
are monitoring the effects of this implementation very closely.
Military Decorations and Awards
    The Department continues to work in concert with the Services to 
appropriately recognize and laud the accomplishments, both valorous and 
non-valorous, of our soldiers, sailors, marines, and airmen. In the 
AVF, appropriately recognizing the accomplishments of our 
servicemembers is fundamental to maintaining esprit-de-corps and a 
motivated force. It is most important that the Services recognize the 
significant acts and achievements of our servicemembers while 
simultaneously maintaining the time-honored prestige of our most 
revered military decorations such as the Medal of Honor, Distinguished 
Service Cross, Navy Cross, Air Force Cross, and Silver Star. I am aware 
of the concern from some Members of Congress in regard to the award of 
valor decorations and will closely examine the results of the ongoing 
review and report on the Medal of Honor awards process as requested in 
the House Armed Services Committee report language that accompanied the 
National Defense Authorization Act of Fiscal Year 2010.
Leave and Liberty Enhancements
    Given the ongoing operations tempo associated with Operations Iraqi 
Freedom and Enduring Freedom, the Department is acutely aware of the 
need to provide all soldiers, sailors, marines, and airmen with 
adequate leave and liberty opportunities, especially during and after 
deployments, for respite and reintegration, respectively. 
servicemembers serving in Iraq and Afghanistan are provided a much 
needed break from combat through the Rest and Recuperation (R&R) leave 
program. This vital program provides servicemembers, who are on long 
deployments, government funded transportation to the airport closest to 
their leave destination, and allows them to take 15 days of respite 
leave in an area of their choosing. For those servicemembers serving in 
the most dangerous and arduous areas of the combat zone, the R&R leave 
is not chargeable which not only recognizes their stressful duty but 
also provides more accrued leave to utilize upon redeployment for 
reintegration into their family and community. Additionally, the Post 
Deployment/Mobilization Respite Absence (PDMRA) program provides Active 
and Reserve component members who are deployed or mobilized above and 
beyond the Secretary of Defense's established deployment--dwell time 
ratios with respite nonchargeable administrative absence upon return 
from deployment or mobilization.
    I thank Congress for passing legislation, through the NDAA for 
Fiscal Year 2010, which allows our servicemembers to temporarily 
increase, from 60 to 75, the number of leave days authorized for carry 
over from 1 fiscal year to the next. This provision will reduce the 
frequency of lost leave for those servicemembers who have fewer 
opportunities to take longer leaves due to the persistent operational 
demands. The Department continues to monitor leave balances and lost 
leave to preclude avoidable loss of the benefit.
Retention
    For fiscal year 2009, the Department was very successful in 
attaining enlisted retention goals. All Active components met or 
exceeded their respective retention goals in every measurable category. 
The Services and the Department anticipate continued success in the 
upcoming year and are already meeting or exceeding the monthly goals 
for early fiscal year 2010.
    Despite the overall strength of enlisted retention over the last 
few years, there remain critical shortages in many low density/high 
demand skills and other ``hard-to-retain'' skills, such as explosive 
ordnance disposal specialists, linguists, intelligence and 
counterintelligence analysts, and pararescue operators, that justify 
the continuation and application of the statutory bonus authorities. 
The Selective Reenlistment Bonus (SRB) and the Critical Skills 
Retention Bonus (CSRB) are among the most effective and are authorized 
by 37 U.S.C. 308 and 37 U.S.C. 355, respectively, as incentives to 
attract/retain qualified personnel in critical military specialties.
    The Department's process to manage bonuses is very well defined. A 
skill is critical if it meets one or more of the following: (a) 
technical skills requiring high training and/or replacement costs; (b) 
skills in high demand in the civilian sector; (c) challenging to 
recruit into; (d) crucial to combat readiness or capabilities; and (e) 
low density/high demand (those skills that are in high demand for 
current operations yet are low density due to less requirements during 
peacetime). All requests from the Services must have a rigorous 
business case that clearly outlines the need for the bonus for that 
skill, payment amount and method, and expected retention results. 
Designations do not exceed 3 years, subject to congressional extension 
of the statutory bonus authority. The complementary authority of the 
CSRB is the Selective Reenlistment Bonus (SRB). The SRB is under the 
authority of the Service Secretaries and is not centrally managed by 
the Department. However, applications of the bonus authorities are 
reviewed at the Department and sent as an annual report to Congress.
Stop Loss
    The Army is the only Service with members currently extended under 
the Stop Loss authority. From a peak of 15,758 in 2005, the Army 
reduced the number of soldiers affected by Stop Loss to approximately 
8,000 at the end of December 2009. The Department is progressing as 
planned to completely end the use of the Stop Loss authority. Army 
units deploying after January 1, 2010, are no longer using the Stop 
Loss authority. The Department further expects to reduce the number of 
servicemembers on Stop Loss to less than 6,600 by June 2010. This is a 
50 percent reduction from February 2009 (date that the Secretary of 
Defense announced the milestones to end Stop Loss). All use of the Stop 
Loss authority will end by March 2011.
    Two Stop Loss Special Pays have been enacted which allow a payment 
of up to $500 per month for members whose active duty (retroactive to 
September 11, 2001) is or was extended by use of the Stop Loss 
authority. These pays were appropriated and authorized by the Congress, 
with the Department's support, to mitigate the impact and disruption 
that extensive use of Stop Loss had and has on the lives of 
servicemembers and their families. The Department implemented both 
pays, active and retroactive, and appreciates the support of Congress 
to compensate members for the unique circumstances presented by the use 
of this policy, while still preserving our ability to react with 
discretionary authority as dictated by future circumstances.
Separation Policy
    The Department continues to improve military discharge policies in 
response to conditions of the current war and its effects on those who 
serve. As we reported to Congress earlier, one such improvement is the 
addition of increased rigor when using a personality disorder as the 
basis for administratively separating servicemembers who had deployed 
to imminent danger areas. This more rigorous process now includes a 
review by the Surgeon General of the Military Department concerned, 
yielding greater confidence that servicemembers who should be separated 
due to post-traumatic stress disorder (PTSD) or traumatic brain injury 
(TBI) are appropriately processed for disability separation as opposed 
to personality disorder. The immediate evidence of the positive effect 
of the increased rigor is that the number of personality discharges has 
decreased from 81 at the policy's promulgation in September 2008 to an 
average of 16 per month in 2009. Also, in response to section 512 of 
the NDAA for Fiscal Year 2010, the Department is prescribing policy 
regarding a more in-depth medical examination to assess whether the 
effects of PTSD or TBI relate to the basis for an administrative 
separation for those servicemembers who are pending discharge or who 
were discharged under conditions other than honorable.
End Strength Management
    Meeting end strength is a priority of the Department. The table 
below depicts the fiscal year 2009 Active Duty authorizations 
(prescribed and actual) and fiscal year 2010 authorized levels which 
the Department intends to achieve. The Secretary of Defense has 
authority granted under the terms of the President's national emergency 
declaration to increase statutory strength levels prescribed by the 
National Defense Authorization Act if needed. The Services have 
implemented recruiting, retention, and force shaping policies and 
programs to achieve end strengths for fiscal year 2010. The Department 
appreciates the congressional support of the fiscal year 2010 end 
strength levels. These end strengths will provide the ground forces to 
meet strategic demands, eliminate the need for the use of Stop Loss, 
and mitigate persistent capability shortfalls which will reduce stress 
and demands on servicemembers and families by increasing dwell time.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Force Development
    The Department continues to emphasize joint officer development and 
has made great strides in implementing the extraordinary authorities 
authorized in the 2007 NDAA. Active and Reserve component participation 
continues to grow, and the adjudication of over 3,200 joint experiences 
from nontraditional joint duty assignments attests to the Department's 
ability to recognize joint experiences whenever and wherever they 
occur.
    Joint officer management is not the only area of significant 
improvement for the officer corps. We appreciate the authorities 
provided by Congress in the fiscal year 2009 and 2010 NDAAs that allow 
the development of general and flag officers with the joint knowledge 
and skills necessary to lead and counter emerging threats. This 
landmark general and flag officer management legislation apportioned 
general and flag officer authorizations between internal and external 
Military Service requirements, ensuring the statutory responsibilities 
of the military departments and the joint warfighter can be met.
    The enactment of conforming legislation from the Department's 2010 
legislative package is also serving to dramatically accelerate the 
development of joint experience in the Reserve components. The 
legislation expanded on the previously enacted statutory framework 
affording the Military Departments the opportunities to purposefully 
develop officers from the Reserve components for senior posts in joint 
warfighting organizations. This delivered on the promise of the charter 
Goldwater-Nichols legislation by institutionalizing joint officer 
development through the senior officer grades regardless of component.
Compensation
    The Department and Congress continue their strong commitment to 
provide a secure standard of living and quality of life to those who 
serve in uniform. Today, we find ourselves empowered with a never 
before seen set of flexible and targetable pay authorities which enable 
the Department to dynamically address recruiting and retention and 
achieve specific and desirable effects. We also find ourselves with 
large fixed costs encompassed in our entitlements, and the prospect of 
continued growth in that area. To secure sufficient personnel for the 
Armed Forces, the Department must provide a compensation package 
comparable and competitive in the private sector while at the same time 
balancing the demands of an All-Volunteer Force in the context of 
growing equipment and operations costs.
    The Department continues this commitment through the President's 
request for a 1.4 percent increase in military pay for all 
servicemembers in the fiscal year 2011 budget--an amount that equals 
earnings increases in the private sector as measured by the Employment 
Cost Index. Of note, since January 1, 2002 through the January 1, 2010 
pay raise, military pay has risen by 42 percent, the housing allowance 
has risen by 83 percent, and the subsistence allowance has risen by 40 
percent. During this same period, private sector wages and salaries 
have only risen by 32 percent. Government Accountability Office (GAO) 
is currently auditing the overall adequacy of military pay, as well as 
the appropriateness of the benchmarks used to measure any gaps relative 
to the private sector and its report is due April 2010. We are 
confident regular military compensation will compare favorably with pay 
in the private sector. While there is little question that those levels 
of increase were necessary in the past, the Department now finds itself 
at a point where discretionary spending offers the best ability to 
target specific skills, and the quantity and quality of those filling 
such positions.
    Collateral to the GAO review, the President recently commissioned 
the eleventh Quadrennial Review of Military Compensation. The four 
themes he has asked the panel to focus on continue the thesis of 
tailoring pays beyond entitlements to target groups and behaviors. This 
review, in general terms, will be looking at the compensation package 
for service performed in combat of hostile areas; compensation for our 
Reserve components in light of current and planned utilization; 
compensation benefits available to our wounded, those who care for them 
and the survivors of those fallen; and the pay and incentives for some 
of our most critical fields, including mental health professionals, 
special operators, operators of remote systems and those with 
specialized linguistic skills. With the recently consolidated pay 
authorities, I am confident in saying Congress has given us the tools 
we need to address each of these areas; what remains is identifying the 
best combination of the pays to achieve the ideal combination of outlay 
to impact. The Department, as always, welcomes the continuance of these 
authorities, but would be generally opposed to continued entitlement 
growth beyond indexed levels in the absence of specific goals and 
outcomes supported by studies such as those just discussed.
    Similar to our efforts to target and define the impacts of each pay 
with our active personnel, we must continue to ensure we support those 
who have already served, but again, we must do so in an equitable 
manner and one that is consistent with the overall demands of the 
Department. As an example, the Department continues to oppose efforts 
to eliminate the offset between the Survivor Benefit Plan (SBP) and 
Dependency Indemnity Compensation (DIC) programs. Allowing concurrent 
receipt of SBP and DIC without offset would create an inequity with one 
select group receiving two survivor annuities, while survivors of most 
military retirees and survivors of veterans who died of service 
connected cause, but were not retired, would receive only one or the 
other. At the same time, in seeking that broader equity and Department-
wide impact, we see a win-win opportunity in expanding the concurrent 
receipt program to include military disability retirees with less than 
20 years of service regardless of disability rating. This expansion 
would cover our most challenged retirees by allowing them to receive 
retired pay for their years of service performed and VA disability 
compensation for their future reduced earning capability.
    Overall, the state of military compensation is healthy. We have 
improved our overall entitlements to the point that all of our 
personnel are paid at or above the 70th percentile of their civilian 
counterparts. We have eliminated out-of-pocket expenses for housing to 
fully cover, on average, the costs of comparable civilian housing.. We 
have gained a new and dynamic set of authorities which we are in the 
midst of implementing. For the first time, we truly have the ability to 
target pay with pinpoint accuracy to achieve desired aims and maximize 
effects of dollars spent. Our challenge today is to maintain this 
position without imposing greater long term bills, while using our 
targetable tools to shape and manage our force.
Legislative Fellowship Program:
    The Legislative fellowship program is a unique and excellent 
opportunity for members with great potential to serve to learn the day-
to-day functions of the Legislative Branch of Government and is a 
valuable experience in the professional development of career military 
members or civilian employees in the Department. The Services and 
Components assign their Legislative Fellows to appropriate follow-on 
tours, which the Department monitors for each Fellowship cycle. Typical 
of the follow-on assignments are positions in: the House and Senate 
Liaison Divisions of the Services; the Office of the Secretary of 
Defense (Legislative Affairs); the Combatant Command Headquarters with 
duties associated with interacting with Congress; Service primary 
staffs responsible for legislation development and interaction with 
Congress; and the Staffs of senior leaders. The Secretary of Defense 
established the maximum number of Legislative Fellows at 100. The 100 
Legislative Fellowships are broken out in calendar year 2011 as 
follows: 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    Legislative Fellows serve no more than 12 months in the House or 
Senate. The Legislative Fellowship Program is the only program that 
authorizes Department of Defense personnel to work in Congress on a 
more than temporary basis and the program and policies are clearly 
promulgated in a DOD Instruction. Legislative Fellows are selected 
under Service competitive selection process and approved by the OUSD 
(P&R).
                           reserve component
    Achieving the defense strategy articulated in the Quadrennial 
Defense Review (QDR) requires a vibrant National Guard and Reserve 
seamlessly integrated into the Total Force. National Guard and Reserve 
units and individual members are heavily utilized across the full 
spectrum of current military operations, ranging from combat missions 
in support of the global war on terror to homeland emergencies. The 
Guard and Reserve have demonstrated their readiness and ability to make 
sustained contributions, and to prevail in today's wars, the Reserve 
components must serve in an operational capacity--available, trained, 
and equipped for predictable routine deployment--as well as a strategic 
capacity. Preventing and deterring conflict will likely necessitate the 
continued use of some elements of the Reserve Component (RC) in an 
operational capacity well into the future, especially in high-demand 
skill sets. Accordingly, the Department will use the Guard and Reserve 
where needed as an operational Reserve, rather than the ``force of last 
resort,'' to fulfill requirements for which they are well suited in the 
United States and overseas. Today's Citizen Warriors have made a 
conscious decision to serve, with full knowledge that their decision 
means periodic recalls to active duty under arduous and hazardous 
conditions.
    Consistently averaging about 140,000 National Guard and Reserve 
members mobilized to support ongoing operations on a daily basis, the 
Reserve components continue to make significant contributions to the 
national defense. The fiscal year 2011 budget provides about $50 
billion for pay, training, equipping, and facilities to support the 
Reserve components of the Army, Navy, and Air Force in their respective 
Reserve components as operational Reserve Forces. The budget includes 
an across-the-board pay raise of 1.4 percent, along with pay and 
allowances for over 1 million personnel. Operating funds support 
necessary training requirements to ensure deploying personnel are fully 
mission-ready.
    The fiscal year 2011 budget request supports the Department's Ready 
Reserve totaling about 1.1 million members contributing about 43 
percent of the total military end strength at a cost of about 9 percent 
of the total base budget. The Ready Reserve consists of the Selected 
Reserve (about 838,300), the Individual Ready Reserve (IRR) about 
(250,000), and the Inactive National Guard (ING) (about 2,000). This 
budget request includes about $53.3 billion to fund pay and allowances 
and costs of Reserve component training, incentives, equipment 
operation and maintenance costs, and readiness training costs for 
eligible military personnel. This amount includes $5.5 billion for 
Reserve component equipment procurement, which is funded by the 
military departments as a subset of their Active component procurement 
budget.
    Managed as strategic and operational forces, the total Reserve 
component structure operates across the continuum of military missions 
performing both strategic and operational roles in peacetime, wartime, 
contingency, domestic emergencies and homeland defense operations. As 
such, the Services organize, resource, equip, train, and utilize their 
Guard and Reserve components to support mission requirements to the 
same standards as their Active components. The budget supports 
preparation of both units and individuals to participate in missions, 
across the full spectrum of military operations, in a cyclic or 
periodic manner that provides predictability for the combatant 
commands, the Services, servicemembers, their families, and civilian 
employers, while potentially increasing the Department's overall 
capacity and reducing costs.
    To help reduce Active component ``dwell to deployment'' ratio, all 
Reserve components are moving towards a more rotational process, 
characterized by a period of active service thereby relieving active 
force burden, and then followed by an extended period at home. The 
current mobilization policy issued in January 2007 by the Secretary of 
Defense mandated involuntary mobilizations be limited to no more than 
12 months, which does not include individual skill training days 
required for mobilization or deployment or terminal leave. The 
Secretary of Defense also set a goal of not more than 1 year mobilized 
in any 6 year period for the Reserve components. The Services are 
moving toward this goal as quickly as possible given current 
operational requirements. Unlike before, when the RCs were usually 
funded at less than full readiness because they were not first to 
fight, specific units now must be fully resourced in any given year. 
This new train-mobilize-deploy construct means that the RCs must be 
ready, manned, trained, medically and dentally prepared, and equipped 
when their scheduled availability comes up, and they must be funded 
accordingly.
Resourcing Operational Reserve Forces
    Managing the Reserve components as operational forces affects 
training schedules and funding requirements, including medical 
readiness. In the past, normal training profiles meant training about 2 
days per month plus 14 to 15 days of active duty for training annually, 
during which time Reserve component personnel were required to train to 
the same standards as their Active counterparts. While that training 
profile remains for some units, current Department policy states that 
for those with planned deployments, training days prior to mobilization 
must increase. This training profile, with more training pre-deployment 
and less post-deployment, minimizes mobilized time away from families 
and civilian jobs and will require a different resourcing approach. In 
general, the land based (Army and Marine Corps) Reserve components 
train according to this new profile, meaning that funds which had been 
consumed after mobilization from the active accounts are now required 
and expended prior to mobilization from the Reserve accounts. This 
change in training profiles means a simple comparison to prior year 
execution funding models can be misleading. For fiscal year 2011, 
Congress has authorized Reserve component military personnel budgets to 
be consolidated into a single budget activity, allowing much improved 
management of Reserve component assets and more agile fund allocation. 
This flexibility is especially crucial for managing funds for the new 
operational Reserve, and the Department greatly appreciates this 
Congressional approval.
Equipping and Basing Operational Reserve Forces
    The fiscal year 2011 budget requests $5.5 billion for Reserve 
component equipment, and provides greater transparency and more robust 
funding for vital equipment needs as the Department continues to ensure 
that deployed and next-to-deploy units, whether in the active or 
Reserve component, receive the highest equipping priority. Effective 
and realistic readiness training at home requires that the National 
Guard and Reserve have access to equipment compatible with the active 
components and used in the assigned operational environment. 
Modernization, mission transformation, equipment replacement due to the 
war losses, and homeland defense are all catalysts for a new approach 
to equip the Reserve components.
    In the past, the Reserve components often relied on cascaded or 
``hand-me-down'' equipment from the Active components and they often 
were short in their equipment inventories. The fiscal year 2011 budget 
contains funds needed for Reserve component equipment procurement to 
continue that transition, repair and replace war-damaged equipment, and 
to correct longstanding deficiencies. The budget request includes funds 
for equipment that will not only improve combat readiness but will also 
allow the National Guard to further improve its ability to respond to 
local domestic emergencies.
    Additionally, the Guard and Reserves previously have been a low 
priority for receiving new equipment. But today that standard has 
changed and these Forces receive the same equipment as their Active 
counterparts. We have achieved major progress in programming funds and 
equipping our Reserve components for an operational role. With this 
operational role comes the requirement for equipment transparency in 
form of increased visibility and accountability for the National Guard 
and Reserve in the programming and budgeting process. 
Institutionalizing this process will ensure an adequate mission 
capability for foreign and domestics responses and we are proceeding in 
that direction.
    The Reserve components request $1.4 billion for military 
construction (MILCON) projects. These projects will meet both current 
and new mission requirements for RC operations, readiness, and training 
facilities.
                         readiness and training
Deployment and Dwell
    Multiple deployments to Iraq and Afghanistan have certainly 
increased the stress on our servicemembers and their families. We have 
a number of initiatives underway to address this stress, and have set 
clear limits and goals for deployment lengths and the amount of time or 
``dwell'' between deployments.
    To that end, we have limited unit deployments to 1 year in theater, 
with a minimum of 1 year between deployments for our Active component. 
Our goal is to increase the time between deployments to 2 years for 
every year deployed, commonly called a 1:2 ``dwell'' ratio. For the 
Reserve component, we have limited the mobilization period to 1 year, 
and strive to have a minimum 3 year break between mobilizations. The 
goal for Reserve component dwell ratio is 1 year mobilized with a 5 
year break between mobilizations, or a 1:5 dwell ratio.
    Dwell time is driven by the number of forces deployed for missions 
around the world against the supply of available forces. We have 
increased the supply of forces by increasing the end strength for the 
Army, the Marine Corps, and Special Operations Forces. We also expect 
to make progress toward meeting the dwell goals as we drawdown forces 
in Iraq.
Defense Mishap Reduction Initiative.
    As Chair of the Defense Safety Oversight Council (DSOC), I have 
been chartered to ensure that the Department is making steady progress 
toward the Secretary's goal of a 75 percent reduction in all accidents. 
The Department has made considerable progress to date due to the 
tremendous effort of our military and civilian leaders. From our 2002 
baseline, we have reduced our civilian lost workday rate 41 percent, 
are down 31 percent in our private motor vehicle fatality rate, and 
dropped our Class A aviation accident rate 56 percent.
    The DSOC is supporting the Military Departments' pursuit of the 
Occupational Safety and Health Administration's (OSHA) Voluntary 
Protection Program (VPP) at more than 200 DOD installations and sites. 
We have 30 sites that have already attained OSHA's Star recognition and 
we expect 17 more sites by the end of 2010. Their OSHA Star status 
designates them as exemplary worksites with comprehensive, successful 
safety and health management systems, and improved labor/management 
relations.
    We recently completed a comprehensive, data driven assessment to 
further prevent aircraft crashes, save military lives, and reduce the 
need for replacement aircraft. The task force, consisting of a variety 
of experts from across the Department, recommended that the military 
aviation communities acquire technologies for collision awareness, 
crash survivability, and risk management. As a result of this important 
work, the military departments are making further investments in 
hardware and software that will avert aircraft crashes. With your 
continued support, we can make further progress in preventing injuries, 
fatalities, and aircraft crashes; and be well on our way towards 
attaining the Secretary's accident reduction goal.
                         military health system
Health Budgets and Financial Policy
    The fiscal year 2011 budget reflects several areas of continued 
emphasis, including the modernization of our medical infrastructure and 
full funding and support of our Wounded, Ill and Injured programs. The 
Unified Medical Budget, the Department's total request for health care 
in fiscal year 2011, is $50.7 billion. This includes the Defense Health 
Program, Military Personnel, Military Construction, and Medicare-
Eligible Retiree Healthcare. Major increases in the budget request 
include $0.8 billion for medical and general inflation; $1.2 billion 
for private sector care costs due to an increase in users of TRICARE 
and an increase in utilization of the TRICARE benefit; $0.6 billion for 
enhancements for the Direct Care system; and $0.3 billion for 
modernizing the Department's electronic health record to enable data 
compatibility for the Virtual Lifetime Electronic Record, and 
correcting critical system problems, increasing user satisfaction, and 
improving system reliability and availability.
    Our primary and enduring responsibility is to provide the highest 
quality care to our beneficiaries, using the most current medical 
evidence to drive our clinical decisionmaking; and one of our 
fundamental tenets is that quality of care is also cost-effective. In 
addition, there are a number of actions we have undertaken and will 
continue in fiscal year 2011 to continue to provide value to the 
Department and the taxpayer. The ways we are addressing cost 
effectiveness in fiscal year 2011 include:

        <bullet> continued implementation of Federal Ceiling Pricing of 
        retail pharmaceuticals ($842 million savings);
        <bullet> continued implementation of the Outpatient Prospective 
        Payment System, which reduces the reimbursement paid for 
        outpatient care at inpatient private sector care facilities 
        ($366 million savings)
        <bullet> standardization of medical supply chain management 
        across the full range of military health care operations ($27 
        million savings);
        <bullet> increasing efforts to identify and detect fraud, 
        waste, abuse, and overpayments to civilian medical providers 
        ($68 million savings); and
        <bullet> additional VA and DOD facilities sharing--most notably 
        the first fully integrated Joint DOD/DVA healthcare 
        collaboration consisting of the North Chicago Veterans Affairs 
        Medical Center and the Navy Ambulatory Care Center, Great 
        Lakes, IL.
Health Affairs/TRICARE Management Activity Strategic Direction
    In 2002, the assistant Secretary of Defense for Health Affairs 
(ASD/HA) aligned policy and program execution strategies under Health 
Affairs/TRICARE Management Activity (HA/TMA). In HA/TMA, as in most 
organizations, the bridge from strategy to execution was challenging, 
and the organizational alignment, still in effect today, was intended 
to streamline processes for faster and more effective execution of 
policies and programs. Under this arrangement, HA is setting clear 
strategic direction for the Military Health System (MHS) in partnership 
with the Services.
    For the past 12 months, HA/TMA has worked closely with the Service 
Surgeons General on initiatives that have coalesced around a strategic 
initiative known as the ``Quadruple Aim.'' Borrowing liberally (and 
with permission) from the nonprofit Institute for Healthcare 
Improvement's (IHI) ``Triple Aim,'' the Department is focusing on four 
strategic imperatives:

        <bullet> Readiness - Ensuring that the total military force is 
        medically ready to deploy and that the medical force is ready 
        to deliver health care anytime, anywhere in support of the full 
        range of military operations, including humanitarian missions.
        <bullet> Population Health - Improving the health of a 
        population by encouraging healthy behaviors and reducing the 
        likelihood of illness through focused prevention and the 
        development of increased resilience.
        <bullet> Experience of Care - Providing a care experience that 
        is patient and family centered, compassionate, convenient, 
        equitable, safe, and always of the highest quality.
        <bullet> Responsibly managing the total health care costs - 
        Creating value by focusing on measuring and enhancing quality 
        healthcare; eliminating inefficiencies; reducing unwarranted 
        variation; and emphasizing investments in health that reduce 
        the burden and associated cost of preventable disease in the 
        long term.

    There are many important initiatives that will emerge from this 
strategic direction. One of the most vital, because it will have 
effects across all four components of the Quadruple Aim, is the 
``medical home'' concept being piloted by all three Services. This 
approach takes the existing construct of a primary care manager and 
enhances it through improved access to care. Features will include 24/7 
access to a provider through multiple avenues--that will include 
leveraging technology to avoid unnecessary visits or emergency room 
visits. More importantly, it will enhance continuity of care and 
greatly improve satisfaction with service. The early results from pilot 
sites are very encouraging, and we are applying lessons learned from 
these sites to improve the program as we proliferate it across the 
Department.
    With the shared vision of the Quadruple Aim and a revised decision-
making process, the MHS is laying the groundwork for a smooth 
transition under the BRAC-directed co-located medical headquarters in 
the National Capital Area (affecting HA/TMA and the Services' Surgeons 
General staffs). The co-location initiative offers significant 
opportunities to achieve even greater unity of effort.
Mental Health Professionals
    Significant effort has been made to recruit additional mental 
health personnel in order to meet the growing demand for behavioral 
health services in the Department. Since 2007, the number of active-
duty mental health providers has remained relatively constant, yet we 
expect the Consolidation of Special Pay language (10 U.S.C. Sec. 335) 
recently implemented will have a significant effect on retention of 
psychologists and social workers.
    Our work to recruit civilian mental health providers has been very 
effective. Table 3 shows the Services total mental health needs/
requirements as compared to the number of providers on-hand as of the 
third quarter of fiscal year 2009. The Navy and the Air Force compare 
assigned personnel versus requirements. The Army's growing needs are 
not completely reflected by official requirement documents yet, and 
thus they are identified as ``needs.'' Table 4 shows the significant 
improvements in total Mental Health personnel that have been made since 
2007, including in the TRICARE Network.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Suicide Prevention
    The Department's civilian and military leadership remain focused on 
employing numerous strategies to reduce the incidence of suicide in the 
Armed Forces. In calendar year 2009, there were a total of 312 
suicides--285 in regular components and 26 in Reserve Components--
marking an increase from 268 in calendar year 2008. Suicides within the 
Regular Components increased from 235 in calendar year 2008 to 285 in 
calendar year 2009. Demographic risk factors are: male, Caucasian, E-1 
to E-2, younger than 25 years old, GED/less than high school education, 
divorced, and in the Active Duty component. Other factors associated 
with suicide, which are consistent with data from the civilian 
population, are: substance abuse, relationship problems, legal, 
administrative (article 15), and financial problems. Although the 
impact of role of deployment on suicide risk is still under 
investigation, a majority of suicides do not occur in the theaters of 
operation.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    When a servicemember has a problem, he or she can, in most cases, 
receive confidential help from military and other mental health 
providers. However, if the individual is unable to perform his/her 
duties, is homicidal or suicidal, or is in a sensitive duty, the 
commander will be notified for safety reasons. Resources available to 
servicemembers and their families include: confidential problemsolving 
counseling through Military OneSource, online information and tools at 
militarymentalhealth.org and afterdeployment.org, confidential pastoral 
counseling with chaplains, Military Family Life Consultants (active 
duty and families), military mental health providers, Service-level 
counseling centers, and access to information and referral to mental 
health professionals through the Defense Centers of Excellence for 
Psychological Health and Traumatic Brain Injury (DCoE) Outreach Center.
    The Department and Services recognize suicide prevention begins 
long before an individual exhibits suicidal ideation. Comprehensive 
programs focus on enhancing resilience and early identification 
designed to reduce psychological health issues or disorders that may 
contribute to suicide risk. Leadership at every level receives training 
on warning signs, resources, healthy lifestyle choices, and actions to 
take if an intervention is deemed necessary. The Suicide Prevention and 
Risk Reduction Committee (SPARRC) is a forum for developing/expanding 
partnerships among the Services, VA, Federal and civilian partners. The 
SPARRC's goal is to improve policies, programs and systems across the 
Department while providing support for medical, line, and community 
leaders. Chaired by DCoE, the SPARRC includes representatives from all 
Services, VA, SAMHSA, Center for Disease Control, Medical Examiners, 
Chaplains, Telehealth/Technology and National Guard/Reserves.
    The Department also collaborates with VA and the Substance Abuse 
and Mental Health Services Administration (SAMHSA) on suicide 
prevention efforts. This includes an annual joint DOD/VA conference on 
reducing the rate of suicides in the Active Duty components, Reserve 
components, and veteran populations. The January 2010 DOD/VA Suicide 
Prevention Conference, ``Building Strong and Resilient Communities,'' 
brought together over 900 servicemembers, family members, and mental 
health professionals throughout DOD, VA, and other Federal agencies. 
The conference highlighted practical tools, personal stories, and 
ongoing efforts in supporting the community.
    The Department's mental health initiatives dovetail with both the 
Readiness and Population Health components of the Quadruple Aim. We 
have developed metrics that we closely monitor to determine if our 
programs are effective and if our policies are being effectively 
implemented. We are also broadening our view of readiness, to include 
perspective on the ``readiness'' of an entire family for a 
servicemember's deployment. In 2010, we will expand our measures to 
include this more expansive view of readiness--and consequently, better 
manage pre-deployment, deployment, and post-deployment activities for 
the Total Force.
    We recognize the number of suicides continues to increase and 
suicide has a multitude of causes, and no simple solution. There are 
many potential areas for intervention, and it is difficult to pinpoint 
the best approach because each suicide is unique. Recognizing this, DOD 
is tackling the challenge using a multi-pronged strategy involving 
comprehensive prevention education, research, and outreach. We believe 
in fostering a holistic approach to treatment, leveraging primary care 
for early recognition and intervention, and when needed, providing 
innovative specialty care. The areas of focus to reduce risk include: 
(1) conducting data collection and analysis to detect contributing risk 
factors; (2) facilitating partnerships across DOD, Federal, and 
civilian organizations to increase collaboration and communication; (3) 
reducing stigma and increasing access to resources to provide needed 
care; and (4) using research to close gaps and identify best practices.
Health Informatics
    The DOD's Electronic Health Record (EHR) continues to be a key 
enabler of military medical readiness; giving healthcare providers 
secure, 24/7, worldwide access to medical records of our highly mobile 
patient population. Across the enterprise, the EHR supports uniform, 
high-quality health promotion and healthcare to more than 9.5 million 
MHS beneficiaries. Using the EHR, our healthcare providers access the 
electronic medical records of MHS beneficiaries from any point of care 
throughout the direct care system.
    The MHS Information Management/Information Technology Strategic 
Plan for 2010--2015 provides the roadmap for improving the EHR, and 
lists EHR improvement as a top IM/IT priority. Using this roadmap, MHS 
will effectively execute its action plan to stabilize the current 
system while transitioning to a suite of EHR applications and 
supporting infrastructure that will improve reliability, speed, user 
interface and data integrity, and achieve higher satisfaction from all 
users. These improvements will enhance IT interoperability within the 
MHS and support planned improvements in electronic health data sharing 
with VA and our private sector care partners.
    For future years, ICIB will prioritize additional health related 
sharing capabilities or usability enhancements to continue the 
advancement of DOD/VA interoperability in a manner that supports 
clinicians in healthcare delivery. The Departments will continue to 
work together to improve and expand upon the interoperability of 
appropriate healthcare data as appropriate and necessary.
Virtual Lifetime Electronic Record (VLER)
    On April 9, 2009, President Obama announced that DOD and VA would 
work together to create of a ``virtual lifetime electronic record'' 
(VLER) for servicemembers and veterans. While the Department and VA 
already share an unprecedented amount of health care information 
between the two systems, a very large portion of health care to our 
beneficiaries comes from private sector contract providers. The DOD, 
VA, and the Department of Health and Human Services are working 
together to promote access of electronic health care information for 
care provided in DOD, VA, and private sector facilities while DOD and 
VA continue to leverage work already done to improve our capabilities 
for sharing information.
    VLER will rely on the Nationwide Health Information Network (NHIN) 
as the mechanism to share standards-based health data between DOD, VA, 
and private sector partners. Well-defined standards are the essential 
foundation for interoperability among systems. These standards will be 
guided by the Department of Health and Human Services (HHS) and will be 
consistent with the NHIN model based on the Federal Health 
Architecture.
    DOD and VA have been active participants and among the leaders in 
the development of the NHIN working with the HHS Office of the National 
Coordinator for Health Information Technology. The NHIN will tie 
together health information exchanges, integrated delivery networks, 
pharmacies, government health facilities and payers, diagnostic 
laboratories, providers, private payers, and other stakeholders into a 
``network of networks.'' The NHIN provides a national standards-based 
mechanism for previously unconnected electronic health records and 
other sources of healthcare information to share information securely 
while respecting and enforcing mandates for guarding patient privacy.
    Working together with HHS and private health care providers, DOD 
and VA are creating a capability that will take a huge step towards 
modernizing the way health care is delivered and services are 
administered for our Nation. VLER will allow health care providers 
access to servicemembers' and veterans' military medical records, 
providing the information needed to deliver high-quality care. VLER 
will do all of this with the strictest and most rigorous standards of 
privacy and security, so that our servicemembers and veterans can have 
confidence that their medical records can only be shared at their 
direction.
    VLER is not a large acquisition program nor will VLER result in one 
single DOD/VA Information Technology (IT) system. Rather, VLER builds 
on the electronic health care systems already in place in DOD, VA and 
the private sector. Even if DOD and VA were to embark on a huge 
acquisition program to implement a single system, they would still not 
be able to access the critical information captured by the private 
sector. The VLER solution is viable for the entire health care 
community and enables each individual entity to develop and maintain 
their own internal systems. It creates an opportunity for competition 
since it uses well-documented standards that can be implemented through 
a variety of electronic health initiatives that can be linked to the 
NHIN.
            military family support and wounded warrior care
    This past year, due to the high level interest in supporting 
military families, resources were increased to institutionalize 
servicemember and family support programs across the Department. A 41 
percent increase in the Defense-wide family assistance baseline funding 
in fiscal year 2011 from fiscal year 2010 will provide lifelines of 
support for servicemembers and their families through outreach to Guard 
and Reserve members and families, Military OneSource 24/7 accessible 
family support assistance, referrals for counseling, financial 
education and training, and access to education, training certification 
opportunities leading to a portable career for spouses.
    To ensure we are on-target in investing in programs needed by 
servicemembers and their families, we initiated an extensive strategic 
planning process to address the current issues facing family readiness 
programs, beginning with a thorough assessment of existing needs, 
programs, and related issues. A variety of methods were used to gain 
input from key players across the system, including family members, 
support professionals, non-governmental organizations, land-grant 
universities, and senior DOD leadership.
Child Care
    Access to child care remains a top priority for the Department. 
Efforts are ongoing to meet the needs of our deployed families, 
including National Guard and Reserve families. We have expanded respite 
child care options through the YMCA program, offering opportunities for 
geographically isolated families to help mitigate the stress 
experienced by the parent at home. These efforts augment the respite 
child care provided by the Military Services.
    We continue to reduce the unmet need for child care, yet are 
cognizant of the ongoing need to recapitalize our aging child and youth 
facilities. We need to eliminate barriers to hiring practices key to 
expanding our partnerships with community child care providers. The 
temporary program to use minor military construction authority for the 
construction of child development centers provided a means to increase 
the availability of quality, affordable child care for servicemembers 
and their families. This authority expired at the end of fiscal year 
2009, and we have proposed legislation to reinstate the authority. The 
legislation would also expand age limit requirements from 5 years old 
to 12 years old to include children in school age care programs, 
broaden the authority to include other family support initiatives 
(e.g., family center, fitness facilities, etc.), and increase the 
funding authority to $15 million for all projects.
Youth Programs
    We are also deeply committed to addressing the needs of our 
military youth. More than 350 dynamic, innovative and successful youth 
programs serve more than 500,000 military connected children and youth 
between the age of 6-18 worldwide. Programs promote positive youth 
development and prepare pre-teens and teenagers to meet the challenges 
of military life, adolescence, and adulthood. Partnerships with other 
youth-serving organizations enable the Department to offer resources in 
a variety of domains, including physical fitness and sports; arts and 
recreation; training in leadership; life skills; career/volunteer 
opportunities; mentoring; intervention; and support services. 
Programming supports character and leadership development, sound 
education choices, healthy life skills, the arts, and sports and 
recreation. Many programs offer summer day camp and youth employment 
opportunities. Twenty-two youth facilities were funded in 2008 and 
2009, totaling $145.6 million in non-appropriated funds; this support 
constitutes a critical aspect of family support. Six youth facilities 
are funded for fiscal year 2010 and fiscal year 2011, totaling $49.7 
million.
Family Advocacy Programs
    The DOD Family Advocacy Program (FAP) plays a key role in 
addressing familial physical, sexual, and emotional abuse and neglect 
involving military personnel in the active component as victims and 
abusers. On each military installation with command-sponsored families, 
there is a FAP that provides services in prevention, identification, 
intervention and treatment of child abuse and neglect and domestic 
abuse. Two key programs, the New Parent Support Program and treatment 
programs for substantiated spouse abusers have been tied to outcomes 
for prevention.
Casualty and Mortuary Affairs Programs
    The Department remains committed to providing the highest quality 
of compassionate and caring assistance to families of fallen 
servicemembers for as long as they determine assistance is needed. 
After which, additional assistance can be obtained by a simple phone 
call or letter written to the appropriate Service Casualty Office. 
Since early 2006, the Department has worked extensively with the 
Military Services; the Department of Veterans Affairs; the Social 
Security Administration; family support organizations; nonprofits 
groups, and more importantly, survivors, to ensure our policies and 
procedures are standardized to the maximum extent possible, more 
customer focused, and flexible enough to address unique situations.
    While the Department has made many enhancements to the Casualty 
Assistance Program, we recognize there is always room for improvement 
and therefore we strive every day to make it better, simpler, more 
respectful, and more compassionate. As the Secretary stated, ``When 
young Americans step forward of their own free will to serve, they do 
so with the expectation that they and their families will be properly 
taken care of should anything happen to them.'' We listen to those we 
serve and to those organizations who have dedicated their existence to 
providing valuable support and services to survivors of the fallen. 
Together, our collaborative efforts will ensure our program will 
continue to be enhanced and our families provided the very best 
assistance possible.
Military OneSource
    Military OneSource (MOS) continues to have a positive impact on 
servicemembers and their families. OneSource offers a 24-hour/365-day 
centralized assistance program to provide diverse information and 
referral services by credentialed counselors to Active Duty, Guard, 
Reserves and their family members, regardless of physical location or 
activation status. Assistance can be provided in many languages. Since 
inception, Military OneSource has experienced exponential expansion. 
Over 739,000 telephone calls were received in fiscal year 2009, more 
than doubling the number of calls received in fiscal year 2008. The 
website received over 4 million visits, almost doubling the number of 
visits received during the prior year. Nearly one in three 
servicemembers uses Military OneSource.
    In general, the most common reasons for which a person sought MOS 
counseling were marital and intimate relationships, stress management, 
family relationships, and anger management. In addition, MOS financial 
counseling support is offered in-person and telephonically. In fiscal 
year 2009, MOS conducted 4,501 financial counseling sessions. The most 
common reasons for which a person sought financial counseling support 
from MOS were budgeting and money management, overextension with bills, 
credit management, loans and consolidating loans, and mortgages and 
refinancing. In fiscal year 2009, OneSource assisted members and 
families with almost 600,000 tax filings at no cost to the family.
    The Wounded Warrior Resource Center (WWRC), accessed via Military 
OneSource, provides immediate assistance to the wounded and their 
families with issues related to health care, facilities, or benefits. 
The WWRC works collaboratively with the Military Services' wounded 
warrior programs and the Department of Veterans Affairs to ensure 
callers are promptly connected to the resources that can help address 
their needs. In fiscal year 2009, 1,200 cases for wounded warriors were 
handled.
Dependents' Education Programs
    A key quality of life issue is the education of military children. 
Servicemembers often make decisions about assignments based on the 
availability of quality educational opportunities for their children. 
The Department of Defense Education Activity (DODEA) provides quality 
pre-kindergarten through 12th grade educational opportunities and 
services to eligible military dependents around the globe where DODEA 
schools are located. Of the approximately 1.2 million military 
dependent children, DODEA educates nearly 85,000 in 192 schools in 12 
foreign countries, 7 States, Guam, and Puerto Rico with 8,700 
educators. DODEA also assists eligible military dependent students 
through a tuition reimbursement program for military assigned to 
overseas locations without a DODEA school.
    The ongoing relocation of military dependent students through force 
structure changes created a need to enrich and expand partnerships with 
military-connected communities to ensure the best possible educational 
opportunities for military dependent children. Through its Educational 
Partnership Initiative, DODEA was given expanded authority to assist 
local education agencies (LEA's) who educate military dependent 
students through efforts focused on highest student achievement. DODEA 
works collaboratively with the Department of Education to ease the 
transition of military students by sharing experience and expertise 
with LEAs who educate larger populations of military dependent 
students.
    Data from the Department of Education reports that there are 300 
LEAs with a military child enrollment of 5 percent or more. Of the 300 
LEAs with 5 percent military child enrollment, 153 of the LEAs are not 
meeting the State academic standards in reading/language arts and/or 
math using annual tests aligned to academic indicators. In addition, 
there is significant research surrounding the psychosocial effects of 
multiple deployments on school performance and student behavior. In 
fiscal year 2009, DODEA extended support through grants focusing on 
enhancing student learning opportunities to 44 school districts serving 
approximately 77,000 military children in over 284 schools.
    Through new technologies, DODEA is developing additional academic 
opportunities for its students. The focused efforts are to expand 
access to education and provide curricular options to eligible students 
within DODEA through the expanded use of distance learning. DODEA plans 
to transition its distance learning program into a virtual school 
program beginning with the implementation of fully accredited virtual 
high school in School Year in 2010-2011. These tools include real-time 
audio and video, document sharing, screen sharing and web collaboration 
to stimulate active teacher-student, student-student and student-
content interaction. A ``virtual hub'' model has been put into place 
that puts the teachers in locations closer to the students to 
facilitate interaction that simulate traditional classroom discussion 
and one-on-one tutoring.
    Beginning in 2008, DODEA implemented a new process for advising 
decision-making that focuses on highest student achievement and a 
thorough review of data, implementation, and effectiveness of programs. 
Part of the advisory process includes educator-led task groups which 
review and analyze data. DODEA task groups are convened for various 
reasons such as instructional and curricular topics, issues of interest 
from the field, or management needs. All task groups spend considerable 
time reviewing and analyzing information and data on a specific issue 
and then, through consensus, developing systemic recommendations sent 
to the Director to guide future educational actions. Currently, DODEA 
has seven on-going task groups.
Korea Tour Normalization
    United States Forces Korea (USFK), through the Tour Normalization 
Program, is aggressively increasing command-sponsored military families 
on the Korean peninsula for the primary purpose of establishing a 
higher quality of life for military families. In addition to the 
housing needs, this impacts educational needs. DODEA anticipates adding 
25 schools in Korea over the next 10 years, providing an end state 
program by 2020 of 31 DODEA schools in Korea. Student growth is 
expected to grow from 4,422 DODEA students currently in the Republic of 
Korea to 21,758 at the end state. This is approximately a 500 percent 
increase in the student population. DODEA is actively working 
programmatic details with USFK and local Military Service communities 
to support this effort.
MWR Support to Troops in Combat
    The ability to communicate with family and friends is the number 
one factor in being able to cope with longer and more frequent 
deployments. We continue to balance the most effective use of available 
bandwidth between mission and personal requirements, including wireless 
access. Currently, servicemembers have free access to the non-secure 
military Internet by using their military e-mail address, including 
aboard ships. They also have free Internet access at over 1,008 MWR 
Internet Cafes in Iraq and Afghanistan with 9,241 computers and 4,101 
Voice Over IP phones (with call rates of less than 4 cents a minute). 
Another 197 cafes, 2,191 computers and 1,154 phones have been funded 
for fiscal year 2010 for use in Afghanistan. To enhance MWR provided 
services, the Exchanges provide personal information services for a 
usage fee for this customer convenience. Back home, computers and 
Internet service located in our family support centers, recreation 
centers, libraries, and youth centers help ensure families can connect.
DOD-State Initiatives
    The Department continues to work with State governments to educate 
their policymakers on the life-challenges faced by servicemembers and 
their families and to ensure that state-level policies do not 
disadvantage military families' transient life style. States have 
addressed several key quality of life issues, to include the impact of 
frequent school transitions experienced by military children, the loss 
income by military spouses as a result of military moves, and the 
enforcement of the congressionally-mandated DOD predatory lending 
regulation. The response from states has affirmed their commitment to 
supporting the well-being of the Nation's fighting force. For example, 
27 States have joined the Interstate Compact on Educational Opportunity 
for Military Children, 36 States now provide eligibility for 
unemployment compensation to military spouses, and 30 States enforce 
the DOD predatory lending regulation. The Department is continuing this 
effort in the 2010 session and has added child custody to the slate of 
issues. In this regard, the Department is asking States to 
appropriately balance the interests of servicemembers who are absent 
due to military service with the best interests of the child by 
ensuring absences caused by military deployments are not the sole basis 
for permanent custody decisions and addressing delegation of visitation 
rights while the servicemember is deployed.
Special Needs
    The establishment of the Office of Community Support for Military 
Families with Special Needs was mandated by NDAA 2010. The purpose of 
the Office is to enhance and support Department of Defense support for 
military families with special needs to ensure parity across the 
Services. The Office will be headed by a member of the Senior Executive 
Services. It will be staffed with personnel in the fields of medicine, 
education, early intervention, social work, personnel and information 
technology, as well as members of the armed services to ensure 
appropriate representation by the military departments. Currently, 
plans are underway to identify the specific mix of staff and to create 
an umbrella Office of Community and Family Support with an emphasis on 
special needs, which will synchronize all family support needs with 
those of families with special needs.
Disability Evaluation System
    The Disability Evaluation System (DES) Pilot simplifies and 
restructures how servicemembers are evaluated for continued service and 
compensation as a result of a wound, injury, or illness. Based on the 
recommendations of several commissions and task forces, DOD and VA 
implemented the DES Pilot on November 26, 2007, at three National 
Capital Region (NCR) locations (Walter Reed, Bethesda, and Malcolm 
Grow). Since November 2007, this program has been administered jointly 
by the DOD and VA. The Pilot eliminates duplicate disability 
examinations and disability ratings by the Departments. The DOD 
determines fitness for duty; the VA examines and rates for disability. 
The rating is used by DOD for unfitting conditions and by VA for all 
service-connected or aggravated conditions. After March 2010, the DES 
Pilot will operate at 27 locations across the continental United States 
and Alaska and encompass 47 percent of all potential servicemembers' 
cases. Compared to the legacy system, case processing time has been 
nearly cut in half (46 percent decrease) for Active and Reserve 
component servicemembers. The Pilot will be expanded to encompass 100 
percent of the DES by December 2012. The DES Pilot Final Report which 
includes the results and recommendations for the DES Pilot-model 
worldwide implementation will be forwarded to Congress by May 31, 2010.
Transition Initiatives
    The Department has several initiatives relating to the Department 
of Defense (DOD) Transition Assistance Program (TAP). We began this 
fiscal year by convening the first Joint Interagency Strategic Working 
Group on the Transition Assistance Program in November 2009. We are 
also working on several employment initiatives with our partners at the 
Department of Labor. As an ex-officio member of the Secretary of 
Labor's Advisory Committee on Veterans Employment, Training and 
Employer Outreach (ACVETEO), the Department is looking at more 
efficient ways to connect employers with transitioning Services 
members, veterans and their spouses. We are also looking at revamping 
the Department of Labor (DOL) TAP Employer Workshop to make it more 
dynamic and ensure it is meeting the needs of our warriors. Finally, we 
continue to collaborate with DOL on how to ensure our wounded, ill and 
injured are being prepared for and get meaningful jobs.
    In addition to our work with DOL, this office assisted with the 
Office of Personnel Management (OPM) strategic plan as well as an 
executive order signed by the President in November 2009, which 
directed all Executive Branch Federal Agencies to increase the hiring 
of veterans. We are pursuing other initiatives like our work with the 
U.S. Interagency Council on Homelessness. The Department is assisting 
the council in developing a Federal Strategic Plan on Homeless. The 
plan will address ideas and ways to end homeless for our veterans, 
families, and youth.
    One of our most exciting initiatives was joining the social network 
community with the launching of the DOD TAP Facebook. We are taking 
advantage of the popularity of social media as another communication 
resource to promote transition services and benefits to military 
personnel and their families.
    Finally, we are working to improve outreach and education to all 
servicemembers to increase their participation in the Benefits Delivery 
at Discharge and Quick Start Programs. These programs allow eligible 
servicemembers to submit their application for disability compensation 
prior to separation or retirement.
                           civilian personnel
National Security Personnel System Transition
    The National Defense Authorization Act for Fiscal Year 2010 (NDAA 
2010) repealed the authority for the National Security Personnel System 
(NSPS) and requires the Department to transition out all employees and 
positions from NSPS to the appropriate non-NSPS personnel and pay 
system no later than January 1, 2012. The law provides no employee will 
suffer any loss of or decrease in pay upon conversion from NSPS.
    Planning for terminating NSPS is well under way with the goal of 
transitioning employees and organizations from NSPS back into their 
pre-NSPS personnel and pay system during fiscal year 2010. The rules of 
the gaining pay and personnel system will be followed in determining 
placement of NSPS employees. Since the majority of the 226,000 
employees covered by NSPS will transition to the General Schedule 
system, government-wide rules issued by the Office of Personnel 
Management (consistent with title 5, U.S.C.) are applicable. Until the 
transition takes place, organizations and employees currently covered 
by NSPS will continue to follow NSPS regulations, policies, and 
procedures. While the Department did not transition any bargaining unit 
employees into NSPS, approximately 900 employees organized after their 
organizations moved into the system. The Department plans to meet with 
representatives of national unions representing these NSPS bargaining 
unit employees to discuss transition issues and will ensure that local 
collective bargaining obligations are fully satisfied as these 
employees transition from NSPS back to the General Schedule. Transition 
timelines are being determined based on organizational readiness as 
evidenced by avoidance of undue interruption to mission and hardship to 
employees; established processes to classify NSPS positions into the 
appropriate non-NSPS personnel system; existence of an appropriate 
performance management system; and information technology capability. 
Prior to their transition out of NSPS, employees will be informed of 
their position classification under the non-NSPS personnel system. With 
limited, approved exceptions, no new appointments to NSPS will be made 
after March 1, 2010. The Department is tracking transition costs as it 
did with NSPS implementation costs. The organization that is guiding 
and directing transition planning and execution is the National 
Security Personnel System Transition Office (NSPSTO). The Director, 
NSPSTO is responsible for the development, coordination, and 
dissemination of supporting procedures, policies, and tools; and for 
developing training products and services for use by the Components in 
training employees and supervisors on all aspects of the transition. In 
addition, the Department is committed to providing open and frequent 
communications during the transition. The NSPSTO has redesigned its Web 
site to publicize up-to-date information on the transition, including 
transition toolkits that contain a variety of products such as 
conversion guides, fact sheets, brochures, articles, frequently asked 
questions, performance management guidance, timelines, and town hall 
briefings on the transition. The website and communications will be 
updated periodically as new information becomes available and new 
products are developed. In addition, the Department will deliver a 
report to Congress at the end of April 2010, as required by NDAA 2010, 
that covers the steps taken for the reclassification of NSPS positions 
and the initial plan for transitioning employees and organizations from 
NSPS; semiannual reports that cover transition progress will also be 
provided until all organizations and employees are out of NSPS.
Civilian Strategic Human Capital Planning and Forecasting
    With over 760,000 civilian employees, in over 600 occupations, 
supporting a myriad of critical missions, it is essential the 
Department have a structured plan to ensure civilian talent is in place 
to meet current and future mission requirements. To meet this demand, 
the Department is leading an enterprise-wide effort to establish a more 
structured, standard approach to Strategic Human Capital Management 
(SHCM), based on a combined effort of competency assessment and 
workforce analysis trending. The Department recognizes the need for a 
civilian workforce with the attributes and capabilities to perform 
seamlessly in an environment of uncertainty and surprise, execute with 
a wartime sense of urgency, and create tailored solutions to multiple 
complex challenges. We are institutionalizing an updated, integrated 
human capital strategy for the development of talent, that is 
consistent with 21st century workforce demands and a new generation of 
workers, and that is competency-focused, performance-based, agile, 
responsive to mission impacts, and focused on employee engagement and 
respect.
Civilian Expeditionary Workforce
    The Department is working to better employ the talents of our 
civilian workforce to meet expeditionary mission challenges, especially 
those not directly related to warfighting. Global security challenges 
require adequate civilian capacity to conduct complex operations, 
including those missions that require close military-civilian planning 
and cooperation in theater. Since 2001, more than 43,000 Department 
civilians have been involved in contingency operations around the 
globe. Currently, approximately 5,100 civilian employees are serving in 
theater. In response to these imperatives, the Department 
institutionalized the Civilian Expeditionary Workforce (CEW) to provide 
deployable civilian experts to support military operations, 
contingencies, emergency operations, humanitarian missions, disaster 
relief, and stabilization and reconstruction operations. The CEW is 
designed to enhance the Department's ability to work alongside and help 
build the capacity of partner defense ministries and provide surge 
support where needed. The CEW encompasses a pre-identified subset of 
the Department's emergency essential and volunteer civilian workforce 
by skill sets and capabilities, who are trained, ready, cleared, and 
equipped for rapid response and quick assimilation into new 
environments.
    Civilians deployed under the CEW receive general and theatre-
specific, urban training, and are eligible for the same health care 
benefits as deployed military personnel, including medical evacuation 
and access to hospital services in-theatre. With the support of 
Congress, the Department has obtained important incentives and benefits 
to help compensate for the inherent risks of deployment. The Department 
continues to identify pertinent issues and propose fully integrated 
solutions to ensure force health protection, surveillance, deployment 
benefits, and medical care for civilians who have been injured, 
wounded, or have contracted diseases while deployed in support of 
contingency operations. We have worked in partnership with the Office 
of Personnel Management, the Department of State, and the Department of 
Labor to ensure all similarly-situated Federal civilians receive 
consistent and equitable benefits commensurate with the risks of 
deployment.
Civilian Leadership Development
    The Department is currently working on the recruitment and 
development of entry-level leaders in conjunction with Section 1112 of 
the NDAA for Fiscal Year 2010, which requires the establishment of a 
DOD Civilian Leadership Program. The Department recognizes the need for 
an improved model to attract, retain, and deliberately develop civilian 
leaders to support pipeline readiness and enhance bench strength. In 
fiscal year 2010, the Department will fully develop the entry-level 
program to grow emerging leaders. We will launch an initial program 
pilot in fiscal year 2011 and expand the pilot and implementation in 
fiscal year 2012. Our communities of initial focus for this effort 
include acquisition and finance specialists to meet the Department's 
needs.
Recruitment for Critical Positions and Competencies
    The Department has an aggressive approach for identifying mission 
critical recruitment requirements, to include health, acquisition, 
linguists and emerging mission-essentials such as IT specialists in 
cyber warfare. We have a plan in place and a robust forecasting model 
that indicates those areas where recruitment surges may be needed. 
Where such surges are indentified, we craft staffing strategies, such 
as expedited hiring authority and scholarship programs, to meet those 
needs. Our integrated approach to Strategic Human Capital Management 
(SHCM) will prove to enhance our ability to analyze demographic trends, 
forecast requirements, assess gaps, and further define recruitment and 
hiring strategies.
Increasing Veterans Opportunities
    The Department values the experience and commitment of our 
servicemembers and places special emphasis on supporting transitioning 
servicemembers, wounded warriors, and veterans in their search for 
employment. We continue our efforts to actively reach out to our 
veterans to assist them in their civilian employment search with 
aggressive outreach programs, transition assistance programs, career 
and job fairs, and benefits counseling and assistance.
    The Department continues this tradition in support of Executive 
Order 13518, the Veterans Employment Initiative. In January 2010, the 
Department stood up the DOD Veterans Employment Program Office to 
promote veterans recruitment, training and development throughout the 
Department. We are promoting the Veterans Initiative through DOD's 
Hiring Heroes Program, through which we conduct eight to ten Hiring 
Heroes Career Fairs throughout the U.S. for wounded, ill and injured 
servicemembers, transitioning military, veterans, and their families.
In-sourcing
    The Department is on track to reduce the level of contracted 
support service from the current 39 percent of our workforce to the 
pre-2001 level of 26 percent, and perform those services with full-time 
government employees. Over the next 5 years, DOD expects to hire up to 
33,400 new civil servants to fill positions established as a result of 
insourcing contracted services. This includes 5,000 acquisition 
personnel over fiscal year 2010/2011 and 10,000 through fiscal year 
2014. On January 4, 2010, the Department submitted to Congress a report 
on ``fiscal year 2010 Insourcing Initiative and Plans.'' DOD Components 
estimated they would establish nearly 17,000 new civilian 
authorizations in fiscal year 2010 to perform currently contracted 
work.
    There are no artificial limits placed on DOD Components' 
identification of in-sourcing candidates (i.e., contracted services 
that would more appropriately be performed by government employees). 
The Department considers insourcing as a well-reasoned part of Total 
Force management that:

        <bullet> Rebalances the workforce and rebuilds organic 
        capabilities.
        <bullet> Ensures that inherently governmental functions that 
        support the readiness/management needs of the Department are 
        performed by government employees.
        <bullet> Implements Congressional direction on in-sourcing 
        (NDAA for Fiscal Year 2008).

    Contractors remain a vital part of the Department's Total Force. 
The Department is not ``replacing'' or ``converting'' contractors but 
rather in-sourcing contracted services--contractors remain a vital 
source of expertise to the Department and are an integral part of our 
Total Force.
                        other personnel concerns
Foreign Language, Regional, and Cultural Capabilities
    The Department is continuing its work to ensure our commissioned 
and noncommissioned officers are prepared for a full range of varying 
and complex missions that our current and future security environment 
requires which includes building expertise in foreign languages, 
regional and cultural skills. The fiscal year 2011 budget focuses on 
sustaining gains achieved in previous years and continuing to build a 
solid infrastructure in which to meet future demands. Baseline funding 
of $793 million in fiscal year 2011 supports redirected language and 
culture instruction to achieve higher proficiencies for the Total Force 
in these skills. During the most recent programming cycle, the 
Department committed an additional $29 million in fiscal year 2011 to 
establish Language Training Detachments to provide and sustain 
commanders' needs, support the Afghanistan/Pakistan Hands program, and 
expand the role of English language training for partner nation 
personnel. The Department's continuing efforts feature the following 
significant initiatives and accomplishments.
Military Leadership Diversity Commission
    As mandated by NDAA 2009, the Department established the Military 
Leadership Diversity Commission (MLDC) to conduct an independent review 
and comprehensive evaluation and assessment of policies that provide 
opportunities for the promotion and advancement of minority members of 
the Armed Forces, including minority members who are senior officers. 
Led by General Lester Lyles (ret.), the Commission consists of 26 
appointed members to include retired and active duty officers, 
enlisted, and civilian representation from all the Service components 
and the Coast Guard. The Commission will expand to 32 members.
    The Commission conducted its first meeting in Washington, DC in 
September 2009. Several monthly meetings are planned throughout the 
country during the independent review, culminating with a written 
report to the President and Congress no later than September 2010. The 
report shall include the Commission's findings and conclusions, 
recommendations for improving diversity within the Armed Forces, and 
other relevant information and proposals considered appropriate.
Sexual Assault Prevention and Response
    The Department's position on sexual assault is a simple one: Sexual 
assault is a crime that is incompatible with service in the U.S. Armed 
Forces. It undermines core values, degrades military readiness, 
subverts strategic goodwill, and forever changes the lives of victims 
and their families. To address this crime, the Department has put 
numerous broad-based programs in place to achieve our vision of 
enhancing military readiness by establishing a culture free from sexual 
violence.
    The Department's goal is to prevent sexual assault through 
institutionalized prevention efforts that influence the knowledge, 
skills, and behaviors of servicemembers to stop a sexual assault before 
it occurs. We have developed a comprehensive prevention strategy built 
around the concept of bystander intervention. Throughout the 
Department--from the newest recruits to the most senior leaders--
servicemembers are getting educated on the role they can play as 
individuals in preventing this crime.
    In conjunction with prevention, we are working to increase 
awareness so when a crime does occur, it is reported. We want any 
victims within the military to come forward, first and foremost, to get 
treatment, and if so desired, provide details of the crime so the 
perpetrator can be held accountable.
    The Department is committed to ensuring the sexual assault 
prevention and response program works as intended. This ``system 
accountability'' is achieved through data collection, analysis, and 
reporting of case outcomes. In order to improve data collection, 
analysis, and case management, the Department initiated the development 
of the Defense Sexual Assault Incident Database (DSAID). In January 
2010, a Request for Proposal was issued to identify a vendor for the 
database, with selection expected by the fall.
    The Department has participated in several external reviews in 
recent years, most recently by the Government Accountability Office 
(GAO) and the Defense Task Force on Sexual Assault in the Military 
Services (DTF-SAMS). DTF-SAMS released their report in December 2009 
and GAO released their report in February 2010. We are currently 
reviewing and responding to their recommendations.
Child Custody
    The Department believes the States are in the best position to 
balance the competing interests within the context of their own 
domestic relations laws. Approximately 30 States have passed 
legislation that addresses the special circumstances facing military 
parents who have custody of children but who are not married to the 
other parent.
    The American Bar Association, National Military Family Association, 
and the Senate support the Department's position. Although the Senate 
has continued to reject Federal child custody legislation, it did 
include language in the NDAA for Fiscal Year 2010 that requires a 
report to Congress on military child custody issues by March 31, 2010. 
Senate Armed Services Committee staff indicate this report will form 
the basis for hearings anticipated in April 2010.
    The Department has committed to several efforts to address the 
unique challenges facing military members who have custody of a child 
but are not married to the other parent. The Department is working with 
its State liaisons to encourage those 20 States who have not addressed 
military child custody issues in their domestic relations laws to do 
so. The Department is also looking for opportunities to increase 
participation in and support of the American Bar Association's Military 
Pro Bono project, which provides free in-court representation to 
military members for domestic relations cases (and other cases). 
Finally, the Department is updating and reissuing its Family Care Plan 
instruction, which can, if used properly, significantly reduce custody 
problems without the detrimental effects of the proposed Federal law.
Federal Voting
    The Department vigorously assists our men and women in uniform, 
their voting-age dependents and U.S. citizens residing overseas to 
successfully participate in the 2010 primary and general elections. 
Initial indications are that the Department's programs are having a 
significant impact: for the 2008 general election, the active duty 
military voter registration rate exceeded that of the general 
population's: 77 percent for the military as compared to 71 percent for 
the general population.
    Unfortunately, while more than 91 percent of absentee ballots were 
successfully returned by general electorate voters in the 2008 general 
election, only 67 percent of uniformed services and overseas voter 
absentee ballots were successfully returned. Unsuccessful return of 
ballots represents the single greatest point of failure for military 
and overseas voters, and is largely due to absentee ballots being sent 
out too close to the election, with insufficient time for the voter to 
successfully receive, vote and return the ballot by the States' 
mandated deadlines. In fact, more than 81 percent of all the voting 
failure suffered by military and overseas voters was because of ballots 
transmitted to them, but never returned.
    The Department is focusing its voting assistance programs to 
address the overwhelming point of failure by focusing on those programs 
that will expedite both the delivery and return of ballots from 
military and overseas voters. First, the Federal Voting Assistance 
Program is developing an online wizard that will allow military and 
overseas voters to receive and mark their complete Federal, State, and 
local ballot online, and then print it out for voter verification, 
signature of the voter's oath, and postal mail return of the paper 
ballot. Second, the Military Postal System is also preparing an 
expedited ballot return system which will return ballots by Express 
Mail, as well as provide the voter with an online tracking system all 
the way to delivery to the local election official. The Military Postal 
System's desired delivery time is no more than 7 days from receipt of 
the ballot from the voter to delivery to the local election official.
    The Department is also taking full advantage of the authority 
granted it under the Military and Overseas Voter Empowerment (MOVE) Act 
of 2009 to designate all military installation voting assistance 
offices as National Voter Registration Act voter registration agencies. 
This will allow the Department to also collect from and mail in for 
those voters (who desire the assistance), the FPCAs or other 
registration forms completed by those voters.
    The Department has been working closely with States to identify 
those changes in State law necessary to achieve the requirements of the 
MOVE Act, and to provide sufficient opportunity for military and 
overseas voters to successfully complete the absentee voting process.
                               conclusion
    We face two fundamental, and related, challenges. First, we must 
continue to attract and retain high quality, motivated individuals for 
Active and Reserve military service and we must maintain an 
enthusiastic and skilled civilian workforce. Second, we must weigh 
sufficiency against the risks of an uncertain future. As we invest in 
our human capital, we must do so judiciously. While our future 
challenges may often seem without bounds, our resources are not. We 
must make hard choices, as a Department and as a Nation, of allocating 
our resources the best we can to win the war at hand while taking care 
of our most valuable asset--our men and women in uniform. I look 
forward to working with this Congress in this effort.

    Senator Webb. Thank you very much, Secretary Stanley.
    Secretary Lamont.

STATEMENT OF HON. THOMAS R. LAMONT, ASSISTANT SECRETARY OF THE 
             ARMY FOR MANPOWER AND RESERVE AFFAIRS

    Mr. Lamont. Chairman Webb, Senator Graham, distinguished 
members of the committee, thank you for the opportunity to 
appear before you today.
    I appear before you on behalf of 1.1 million men and women 
serving here and abroad in peaceful, as well as hostile, 
environments. This combat-seasoned force is resilient and 
professional, yet strained and out of balance. More than 1 
million of this Nation's finest citizens have deployed, over 
the past 8 years, into harm's way. We realize, very well, that 
there are costs associated with this conflict, both visible and 
invisible.
    Our current programs to relieve stress on the force are 
critical to maintaining a healthy, balanced, and prepared 
force. These programs help us defend our country against some 
of the most persistent and wide-ranging threats in our Nation's 
history. The success of these programs is due, in large part, 
to the support Congress has given us since this Army went to 
war in 2001.
    First and foremost, you have enabled us, through 
appropriate resources, to meet a temporary end-strength 
increase for our agile Army. As a result, this will, in part, 
alleviate the stress and strain on the total Army. This is a 
step in the right direction to get our personnel structure back 
in balance.
    Congress has also given us the means to improve the quality 
of life for our soldiers and their families. Soldiers remain in 
the Army based on the established incentive programs, such as 
an excellent healthcare system, educational opportunities, 
financial stability with sufficient bonuses, general vacation 
time, soldier and family services, and frankly, out of a true 
sense of duty to our country. This Congress has embraced our 
needs, and for that, we are very grateful.
    The Army continues to face challenges, which we will 
encounter today and well into the future. Armed with lessons 
learned, it is our intent to stay in front of those challenges, 
anticipate them, develop strategies and programs to address 
them, and hopefully, keep them from becoming problems in the 
future.
    Specifically, one of the challenges that we are addressing 
is the concept of the Operational Reserve. The Army's Reserve 
component continues to transition from a strategic Reserve to 
an operational force. The Army will require recurrent, assured, 
and predictable access to the Reserve component to meet 
operational requirements. This transformation of the Reserve 
component into an operational force will provide an opportunity 
for the Army to provide the most cost-effective total force by 
investing resources in the most cost-efficient portion of the 
Army's total force.
    Our focus this year centers on restoring the balance, 
resilience, and sustainment of the force, growth in talent, and 
our ability to meet the Nation's needs with the highest-quality 
force available. The Army will continue to work hard to attract 
and retain the best, but we need your help in taking on this 
larger problem. The challenging environments that our soldier's 
serve in demand that we maintain the standards as set, and we 
must remain ever-vigilant that our force is manned with both 
physically and mentally qualified soldiers, as it is today.
    As you are well aware, we have some tough challenges ahead 
of us. I'm confident, however, that with the operational and 
institutional agility this Army has developed over the past 9 
years, we will meet all the challenges that will come our way. 
It is always easy to commit to a plan of action when we know 
that Congress supports us. Your leadership and your support 
have been unwavering.
    I appreciate this opportunity to come before the committee, 
both now and in the future, and I look forward to your 
questions.
    Senator Webb. Thank you very much, Secretary Lamont.
    [The prepared statement of Mr. Lamont follows:]
              Prepared Statement by Hon. Thomas R. Lamont
                              introduction
    Chairman Webb, Senator Graham, distinguished members of this 
subcommittee, thank you for the opportunity to appear before you on 
behalf of America's Army. Our greatest heroes are America's most 
precious resource--our soldiers. These soldiers and their families, 
backed by our civilian workforce, represent the very best of America's 
values and ideals and faithfully shoulder the load that our Nation asks 
of them. This fighting force of 1.1 million soldiers is continually 
tested at home and abroad. Repeatedly our Nation's men and women step 
forward and pledge to serve. They recognize the challenges facing our 
Nation, answer the call, and become part of something larger than 
themselves. Their dedicated service and sacrifice are deserving of the 
very best services, programs, equipment, training, benefits, lifestyle, 
and leadership available. Our focus this year centers on restoring the 
balance, resilience, and sustainment of the force, growth in talent, 
our ability to meet the national challenges, and the importance of 
maintaining this strength to meet the demands now and for the future. 
Thank you for your steadfast commitment to ensuring our soldiers, their 
families, and our civilian workforce by supporting our personnel 
initiatives to ensure growth, sustainment and well being of our All-
Volunteer Force.
                           strategic overview
    America's Army, strained by over 8 years of persistent conflict, 
remains a resilient force. Our Army, however, is also stretched and out 
of balance while demand has continued to grow. The Army has added 
nearly 100,000 more soldiers since 2004. More than one million of our 
country's finest men and women have deployed to combat, with over 5,000 
lives sacrificed in the line of duty. The Army appreciates your recent 
support in providing the Army with temporary end strength increase of 
22,000 to provide some relief to our stressed force. We will complete 
the initial ramp of 15,000 by the end of fiscal year 2010 and will 
evaluate the need to complete the remaining amount later this year. 
Even with this temporary increase, we face many challenges ahead, but 
must remain vigilant and supportive to the needs of our people. We must 
continue to address these needs and find a way to get our Army back to 
a balanced force.
                              end strength
    To alleviate the stress and strain on the force, the Department of 
Defense authorized the Army a Temporary End Strength Increase (TESI) of 
up to 22,000 Active Duty soldiers. Currently the plan is to use 15,000 
of the 22,000 with a decision on the remaining 7,000 expected at the 
end of the second quarter, fiscal year 2010. This temporary increase 
provides additional, primarily skill level one, soldiers within highly 
deployed Military Occupational Specialties (MOSs) to combatant 
commanders. TESI has already increased unit readiness and will provide 
increased manning and readiness until fiscal year 2013 when the Army 
returns to its base end strength level of 547,400 in the Active 
component. While the majority of these additional soldiers are 
enlisted, the officer ranks will also experience a slight increase.
    Another advantage of TESI is a reduction in the use of Stop Loss. 
The Army expects to achieve a 50 percent reduction in the number of 
soldiers affected by Stop Loss by June 2010. As of January 2010, 7,861 
soldiers were affected by Stop Loss, a 41 percent reduction from the 
January 2009 baseline of 13,217. By January 2011, the Army will have no 
soldiers deployed under Stop Loss. However, soldiers in post-deployment 
reintegration or demobilization may still be in Stop Loss until early 
spring 2011. TESI and the implementation of voluntary stabilization 
programs for each component have made significant contributions to the 
Army's ability to eliminate Stop Loss, while minimizing the potentially 
detrimental impact to unit readiness.
    We continue to make significant progress in our efforts to restore 
balance. Increasing time between deployments for our soldiers and 
building greater predictability for soldiers and families continues to 
be one of our key concerns. Despite the short term impact of the recent 
surge of troops to Afghanistan, we expect the ratio of Boots on Ground 
(BOG) time to dwell time at 1:2 for the Active Force and 1:4 for the 
Reserve component to improve as demand decreases. Eventually, increased 
dwell time will be achieved by lowering the demand on our forces while 
increasing the size of the active Army. This will ease the constant 
pressures on our forces as we move into the rotational cycle of the 
Army Forces Generation (ARFORGEN) model. The Army Senior Leadership 
remains committed to meet these deployment goals while eliminating Stop 
Loss, and without any increase in tour length for our soldiers.
            recruiting and retention (officer and enlisted)
    Our soldiers are the Army's most important resources, and our 
ability to meet the challenges of the current and future operational 
environments depends on our ability to sustain the All-Volunteer Force. 
The pace and demand of the operational environment over the last 
several years has caused us to dedicate our focus to reaching a high 
volume of recruits. The shift in the economy, however, has allowed us 
to demand even higher quality recruits. Despite the challenges of an 
Army engaged in two protracted conflicts, the Army exceeded its 
enlisted recruiting and retention missions for fiscal year 2009 and is 
confident it will meet its goals for fiscal year 2010. The Army met 104 
percent of its recruiting goals for fiscal year 2009, while at the same 
time, meeting its quality benchmarks for new recruits. Successfully 
meeting these critical benchmarks moves us closer to restoring balance. 
As we dedicate ourselves to the fiscal year 2010 recruiting mission, we 
will continue to monitor trends and make adjustments as required.
    In fiscal year 2009, with congressional support, the total Army 
spent $4.9 billion on recruiting and retention. In fiscal year 2010, 
these programs received $4.4 billion due to a more favorable recruiting 
and retention environment. Our $4.6 billion, fiscal year 2011 request 
is based on the need to continue funding for contracts written between 
fiscal year 2006 and fiscal year 2009 and to ensure the success of the 
total Army's recruiting and retention missions. The amount budgeted for 
contractual payments is anticipated to decrease in fiscal year 2012 and 
subsequent years.
    Because of this funding, the Army is now a higher quality All-
Volunteer Force. For example, the Army's percentage of ``high quality'' 
enlisted soldiers with a high school diploma have increased by 2.1 
percent since the end of fiscal year 2009. Additionally, recruits 
scoring in the upper range (50-99 percent) on the Armed Forces 
Qualification Test (AFQT) increased 2.0 percent; and recruits who 
scored poorly (30 percent and below) on the AFQT decreased 0.4 percent. 
The Army was able to decrease the amount of ineligibility waivers 
previously provided for enlistments and appointments. Also, the Army 
was able to repair mid-grade officer shortages in the Regular Army, 
which provided the opportunity to aggressively target mid-grade 
shortages in the Reserve components.
    Overall, the Army's programs are effective in recruiting and 
retaining both officers and enlisted soldiers with critical skills. For 
enlisted soldiers, the Enlistment Bonus (EB), the Selective 
Reenlistment Bonus (SRB), Critical Skills Retention Bonus (CSRB), Army 
College Fund (ACF), and the Student Loan Repayment Program (SLRP) 
remain as proven and effective tools for filling critical skills. The 
ACF and SLRP are especially effective in attracting quality recruits 
who have some college experience or plan to attend college after the 
Army.
    To assist in recruiting critical skills, the Army launched the 
``Military Accessions Vital to the National Interest'' (MAVNI) Pilot 
Program which the Secretary of Defense authorized on November 25, 2008 
and Army launched on February 23, 2009. The purpose was to attract high 
quality individuals with exceptional skills in health care professions 
or native speaking skills in at least 1 of 35 critical foreign 
languages. MAVNI recruits are non-U.S. citizens who have been legally 
present in the United States for 2 or more years and speak a critically 
needed foreign language or are U.S. licensed health care professionals 
who meet or exceed all requirements for military service but for U.S. 
citizenship. They do not have permanent residency (i.e. Green Cards). 
We recruited 788 MAVNI with language skills and 143 health care 
professionals during the 12 months since the program launched. Without 
spending a single dollar on marketing or advertising, Army received 
over 12,000 leads for the MAVNI program and positive media coverage. Of 
the foreign language speakers recruited, 66 percent have a bachelor's 
degree or higher, and 30 percent have at least a master's degree. Half 
the MAVNI recruits speak and comprehend the foreign language for which 
they were recruited at the 3/3 level or higher which is akin to a 
college graduate. Their loss from the Delayed Entry Program (DEP) is 
one-third that of non-MAVNI recruits and their attrition rate once in 
the Service is virtually nil. We reached the cap for this program 
established by the Secretary of Defense so until the program is 
extended we are unable to recruit the many applicants waiting to be 
processed.
    Through a separate program, the Army has recruited more than 1,600 
soldiers as military interpreters and translators under the MOS O9L 
Program. This MOS enlists native speakers of Arabic, Pashtu, Dari, 
Farsi, and Kurdish into all components of the Army to serve as 
interpreters in uniform. Combatant Commanders have found them to be 
force multipliers as they bring high levels of proficiency in these 
languages as well as firsthand cultural knowledge.
    In fiscal year 2009, all components exceeded the annual retention 
goal. The Active Army achieved 124 percent of the annual goal, the Army 
Reserve achieved 105 percent, of the annual goal, and the Army National 
Guard achieved 106 percent of the annual goal. During fiscal year 2009, 
retention bonuses were carefully monitored and adjusted to achieve the 
maximum result, ensuring the Army met its retention goals while 
remaining fiscally responsible. The economic environment allowed the 
Army to reduce incentive levels as well as the number of occupations 
offering bonuses, while focusing on our most critical skills. In 
addition, use of the Army's Critical Skills Retention Bonus greatly 
assisted in retaining very experienced senior enlisted soldiers with 
invaluable leadership and combat experience. Retention of combat 
experienced veterans remains critical to current and future readiness. 
In fact, 39 percent of all reenlistments occurred while soldiers were 
deployed. The Active Army also continued to support and encourage 
Active Duty soldiers who elected not to reenlist to transfer to the 
Reserve component upon completion of their Active Duty tour.
    The Army retention mission is also on track to meet the goals set 
for fiscal year 2010. The Active Army has reenlisted 41,262 soldiers 
for 68 percent of the annual goal, the Army Reserve has reenlisted 
4,291 for 42 percent of the annual goal, and the Army National Guard 
has reenlisted 10,771 soldiers for 35 percent of the annual goal. In 
all components, the Army expects to finish successfully in every 
category.
    The Post-September 11 GI Bill, which took effect August 1, 2009, 
provides a significantly enhanced level of educational benefits for 
Active Duty servicemembers. Additionally, it serves as a valuable 
incentive to attract and retain quality soldiers of all ranks. The Army 
expects the Post-September 11 GI Bill to serve as an inducement for 
college oriented teens to join the Army, while transferability should 
increase retention within our mid-career (6-10 years of service), 
category of soldiers. Although it is too early to fully determine the 
impact of the Post-September 11 GI Bill on both recruiting and 
retention, initial signs are positive. In particular, we've kept a 
watchful eye on the retention of our initial term soldiers who some 
feared might separate under expiration of their term of service in 
order to use their educational benefits. However, the Army exceeded its 
retention goals for first-term soldiers in fiscal year 2009 and 
continues to do so in fiscal year 2010.
    Shortages remain within our officer corps due to overall structural 
growth of the Army. To correct this, the Army initiated the Captains' 
Retention Incentive Menu in September 2007. The Army spent $443.6 
million from fiscal year 2007 to present on this incentive program. The 
goal of the program was to recruit, retain, and manage critical skills 
to increase the retention of lieutenants and captains for 3 years. The 
Captains' Retention Incentives Menu program included a cash option 
based on the officer's branch, resident graduate school attendance for 
up to 18 months, or attendance at the Defense Language Institute for 1 
year. As a result, the Army's retention rate for Captains increased in 
fiscal year 2008 to 89.1 percent and again in fiscal year 2009 to 89.9 
percent over the 10-year average of 88 percent. The program guaranteed 
retention through fiscal year 2011 for over 16,000 of the 23,000 
captains who were eligible to participate. The timing of our Captains' 
Retention Incentives Menu program, concurrent with the dramatic 
downturn of the economy and job market, helped support our retention 
goals. The cash and Defense Language Institute options ended in 
November 2008. The remaining retention incentive, the Expanded Graduate 
School Program, has been funded at $7.5 million in fiscal year 2010. 
Overall, the single most effective retention incentive for junior 
officers was the cash bonus. Over 94 percent of the more than 16,000 
officers who took incentives in fiscal year 2008 elected to take the 
cash bonus. Department of Defense survey data analysis showed that most 
officers who intended to separate or were undecided, took the incentive 
and committed to further obligated Army service.
    The U.S. Military Academy (USMA) and ROTC both continue to offer 
pre-commissioning incentives. These consist of offering new officers 
their Post or Branch of Choice or Graduate Schooling. In fiscal year 
2006 through fiscal year 2009 there were approximately 6,000 
participants. These incentives have increased longevity by 40 percent 
for newly-commissioned, high-performing USMA and ROTC officers.
    In spite of a dramatically changed recruiting climate, based on the 
economy, our message to our soldiers and their families must resound 
with assurance that they will be cared for in a manner commensurate 
with their service and sacrifice. Incentives, bonuses, and pay are only 
part of the equation in creating balance in our soldiers and families 
lives. In the event of a life changing injury or the loss of life, our 
soldiers are assured that their families will receive financial and 
programmatic support for their loss and sacrifice. This support 
includes full-earned benefits and disability compensation. The Army is 
working closely and aggressively with soldiers and their families to 
streamline access to assistance from other Federal agencies, such as 
the Social Security Administration, Department of Labor, and Department 
of Veterans Affairs.
    In direct support of President Obama's Veteran's Day Executive 
Order on employment of veterans in the Federal Government, we have 
begun a Veterans Employment Transition Initiative to streamline, 
synchronize, and integrate existing policies, programs, and initiatives 
to assist soldiers and their families as they transition out of the 
military. The intent is to ensure that they have timely visibility of 
every opportunity available to them as they transition to civilian 
life, whether as Federal workers or as contributing members of the 
private sector.
    The Army carefully manages its resources, reviewing and adjusting 
incentives at least quarterly to ensure we attract and retain quality 
individuals in needed occupations, while remaining fiscally responsible 
to avoid excessive payments. The economic environment has allowed us to 
reduce incentive amounts and the number of occupations offered bonuses 
or education incentives. Enlistment Bonuses are at the lowest levels 
since the 1990s drawdown. However, we must retain the flexibility to 
apply incentives as necessary to retain soldiers with critical or 
specialized skills. The continued authorities and funding of these 
programs by Congress remain critical to the sustainment of the Army.
                 individual ready reserve mobilization
    The Individual Ready Reserve (IRR) is a category of the Ready 
Reserve, and is composed of those members of the Ready Reserve who are 
not serving in Selected Reserve units or assignments, or in the 
Inactive National Guard. The availability of IRR soldiers is critical 
to the Army's mission of providing properly trained and equipped units 
of sufficient strength to meet contingency operation or mobilization 
requirements. As of February 28, 2010, there are 59,413 soldiers in the 
IRR. Since September 11, 2001, a total of 29,997 soldiers received 
mobilization orders and a total of 12,018 soldiers deployed to the 
CENTCOM Area of Responsibility. The Army applies specific screening 
criteria and a tiered systemic approach regarding involuntary 
mobilization of the IRR. These actions align with the January 2007 DOD 
policy on Utilization of the Total Force and take into account a 
soldier's dwell time, Military Service Obligation (MSO), and previous 
deployments in support of OCONUS Contingency Operations (OCO).
    An effective IRR program is based on several factors, including the 
soldiers' understanding of their obligations, access to benefits and 
support, and time to adjust personal affairs prior to mobilizations. In 
an ongoing effort to validate the readiness of the IRR, the Army 
continues to implement the IRR Muster program. Approximately 5 months 
after entering the IRR program, soldiers will be ordered to muster 
duty. Afterward, soldiers are required to muster each year they remain 
in the IRR. Through the muster program, the Army established a 
partnership with the Department of Veterans Affairs to use VA medical 
centers as muster sites for the added opportunity of connecting 
soldiers to VA services. During fiscal year 2009, the Army spent 
approximately $3.6 million to muster 13,500 soldiers, contributing to 
3,300 soldiers returning to Army Reserve formations. The Army plans to 
muster 14,000 IRR soldiers at an estimated cost of $4.2 million in 
fiscal year 2010 and expect to impact 3,500 soldiers returning to Army 
Reserve Formations.
                          operational reserve
    As the Army continues to institutionalize the Operational Reserve, 
our first and greatest challenge is to effectively and efficiently 
deliver ready and trained soldiers. Transforming the Reserve components 
(RC) into an operational force in the near-term (fiscal year 2012-2014) 
will provide a means for RC forces to provide proportional support to 
the Army's Force Supply model of a Corps Headquarters, 5 division 
headquarters (4 Active component (AC), 1 RC), 20 Brigade Combat Teams 
(15 AC, 5 RC), and 90,000 enablers (41,000 AC, 49,000 RC) to support 
combatant command requirements through 2014 time period. It is 
important to note that programming decisions are required in the near 
term to ensure RC forces are sufficiently ready to support the Army's 
force generation plans. Without sufficient resources in unit 
management, collective training and medical/dental readiness, the RC 
will not be ready to support the planned 1/5/20/90 force supply 
construct.
    The Army will require recurrent, assured and predictable access to 
the RC to meet operational requirements as requirements increase for 
Army forces to conduct overseas engagement activities over the 
remaining years of the program period (fiscal year 2015-2017). During 
this period, RC forces will be mobilized and employed in full spectrum 
operations at rates proportional to AC forces within force utilization 
goals of 1:3 (AC) and 1:5 (RC). Continued investments in RC unit 
management, collective training and medical/dental readiness are 
required to achieve required readiness levels in accordance with these 
ARFORGEN goals. Moreover, these investments are required within the 
base funding to ensure the RC achieves a level of institutional 
transformation that cannot be achieved through the year-by-year 
allocation of resources from overseas contingency operations funds.
    Finally, transforming the RC into an operational force provides an 
opportunity for the Army to provide the most cost-effective Total Force 
and mitigate any decline in resources by investing now in the most 
cost-efficient portion of the Army's Total Force. The Army National 
Guard (ARNG) and the U.S. Army Reserve account for 51 percent of the 
Army's military end strength for 16 percent of the base budget. When 
comparing the cost per soldier, the relative value of the RC is even 
greater. A 2008 comparison of AC/RC manpower by HQDA G-8 identified the 
approximate total costs per Regular Army soldier in manpower, training, 
equipping, organization costs and operating costs as $135,000, compared 
to $36,000 for ARNG soldiers and $35,000 for Army Reserve soldiers. 
Given the relative value is a reasoned investment for the Army's Total 
Force, this will make targeted investments improve RC readiness. 
Moreover, such investments in the near-term (POM 2012-2017) will 
position the Army to better manage the risks of declining resources for 
the Army, should such a reduction be required in the next 2 to 5 years. 
However, delays in these investment decisions reduce the Army's 
flexibility to consider strategic alternatives to a larger Active Force 
structure model in the long-term.
                            quality of life
    Recognizing that the strength of our Army comes from the strength 
of our Army families, the Secretary of the Army and Chief of Staff of 
the Army initiated the Army Family Covenant in October 2007 and 
reaffirmed this commitment by resigning the Covenant this past October. 
The Covenant institutionalizes the Army's commitment to provide 
soldiers and families a quality of life commensurate with the quality 
of service they provide our Nation. The Army Family Covenant 
incorporates programs designed to build strength and resilience in our 
families. These improved services and programs help to mitigate the 
stress from mutiple deployments and frequent military moves.
    The Covenant focuses on the following: standardizing soldier and 
family programs; increasing access and quality of health care; 
improving soldier and family housing; ensuring excellence in our 
schools, youth and child care services; expanding the education and 
employment opportunities for family members; improving soldier quality 
of life in recreation, travel, and the Better Opportunities for Single 
Soldiers program; and improving relationships with local communities 
and marketplaces.
    From fiscal year 2007 to fiscal year 2010, the Army more than 
doubled its investment in family programs. To ensure they remain 
enduring, these increases have been included in the fiscal year 2010 
base budget. Furthermore, this funding will increase from $1.7 billion 
in fiscal year 2010 to $1.9 billion in fiscal year 2015.
    We must never forget that we are one Army made up of Active Duty, 
National Guard, and Army Reserve components and must often reach 
``beyond the gates of the garrison'' to ensure we support our 
geographically dispersed families. We are thankful for all the citizens 
and community based organizations that have stepped up to support our 
soldiers and their families, regardless of their location.
              civilian personnel and workforce development
    Department of the Army civilian employees provide vital support to 
soldiers and families in this era of persistent conflict. They share 
responsibility for mission accomplishment by delivering combat support 
and combat service support--at home and abroad. More than ever, Army 
civilians are an absolutely essential component of readiness and a key 
element in restoring balance. Today, the Army Civilian Corps has nearly 
300,000 employees with 3,832 currently serving in harm's way in the 
U.S. Central Command area of operations.
    Since September 11, 2001, we increased the civilian workforce from 
222,000 to 263,169 (plus 24,357 Civil Works) due to overseas 
contingency operations, Defense Health Program increases, Family and 
Soldier Support initiatives, acquisition workforce growth, in-sourcing 
contracts associated with inherently governmental functions, military 
technician increases, and military-to-civilian conversions. Future 
Civilian employee growth is critical to supporting current plans to 
rebalance the Army to 73 brigade combat teams and associated combat 
support/combat service support units by fiscal year 2011.
    In fiscal year 2009, the Army saved significant resources by in-
souring more than 900 core governmental functions to Army civilians. We 
plan to in-source 7,162 positions in fiscal year 2010, and are 
programmed to in-source 11,084 positions during fiscal year 2011-2015, 
of which 3,988 are acquisition positions. These positions were 
identified in the Army's on-going contractor inventory review process.
    Current workforce development programs, such as the Army Intern 
Program; the Army Fellows Program; the Presidential Management Fellows 
Program; the Senior Fellows Program, and the Army Senior Leader 
Development Program, to name a few, are helping the Army to ``build a 
bench'', of future Army leaders. In an era of persistent conflict, 
however, the operational and budgetary realities of fighting terrorism 
on multiple fronts have simultaneously increased the requirements for 
development and decreased the available funding. Simply put, the Army's 
resources to develop our Civilians have not kept pace with the need. 
While current training and development programs provide highly 
competitive growth opportunities, better incentives for self-
development and professional development are needed to ensure the 
Civilian cohort is as prepared to meet future missions as their 
military counterparts. The Department of the Army also has several 
initiatives to focus and invigorate development of the civilian 
workforce, which complement the strategic workforce plan requirements 
outlined in the National Defense Authorization Act for Fiscal Year 
2010.
    The Army is developing a Civilian Human Capital Strategy to better 
focus on the full life-cycle needs of Civilian Workforce, from 
recruitment to replacement. Because of the increasing complexity of 
today's operational environment, the Army must invest more resources 
into recruiting, sustaining, and developing its Civilian workforce. The 
Initial emphasis of our Civilian Human Capital Strategy will be on 
identification of the competencies needed by employees in mission 
critical occupations, assessment of the current competency levels of 
the workforce, and strategies for closing the gaps. This focus will 
enable the Army to develop competency-based civilian recruiting and 
hiring strategies as well. This approach will help ease the transition 
from one generation to the next as we implement Base Realignment and 
Closure and begin to experience the next wave of baby boomer 
retirements.
                     army equal opportunity policy
    The Army leads the Nation in Equal Opportunity (EO) policy and 
practice. Commanders at all levels are responsible for sustaining 
positive EO climates within their organizations to enhance Army 
Readiness. Remaining applicable and relevant within the ever-changing 
environment in which we operate, the Army is transforming EO policy/
program by integrating and institutionalizing equal opportunity and 
diversity goals, objectives and training practices. This effort will 
strengthen the foundation of the Army's Human Capital Strategy. Since 
fiscal year 2008, the Army has invested $3.4 million and expects to 
invest another $0.9 million in fiscal year 2010 for EO personnel and 
services support, database and survey systems, outreach support, and 
training contracts.
                sexual assault and harassment prevention
    The Army's goal is to eliminate sexual assault and harassment by 
creating a climate that respects the dignity of every member of the 
esteemed band of brothers and sisters. The Secretary of the Army 
(SECARMY) and the Chief of Staff (CSA) remain personally involved in 
reinforcing to all soldiers and leaders the importance of preventing 
sexual assault and harassment. Under their guidance and leadership, the 
Army launched a comprehensive sexual assault prevention strategy that 
requires leaders to establish a positive command climate where sexual 
assault is clearly not acceptable. The strategy further encourages 
soldiers to execute peer-to-peer intervention personally, and to not 
tolerate behavior that could lead to sexual assault.
    The cornerstone of the Army's prevention strategy is the ``I. A.M. 
Strong'' campaign, where the letters I, A, and M stand for Intervene--
Act--Motivate. The ``I. A.M. Strong'' campaign features soldiers as 
influential role models and provides peer-to-peer messages outlining 
the Army's intent for all its members to personally take action in the 
effort to protect our communities. Leaders have embraced ``I. A.M. 
Strong'' initiatives and are motivating soldiers to engage proactively 
and prevent sexual assault.
    The Army's sexual assault prevention strategy consists of four 
integrated phases and extends through calendar year 2014 as we work to 
be the Nation's leader in sexual harassment and sexual assault 
prevention.
    The SECARMY introduced the ``I. A.M. Strong'' campaign at the 
Sexual Assault Prevention Summit in September 2008. The Summit served 
as a platform to launch Phase I (Committed Army Leadership) by 
providing training on best practices and allowing commands the 
opportunity to develop prevention plans to support the Army strategy.
    Phase II of the prevention strategy (Army-wide Conviction) includes 
educating soldiers to understand their moral responsibility to 
intervene and stop sexual assault and harassment. Phase II began at the 
2009 Sexual Assault Prevention Summit (6-10 Apr 09) during which the 
SECARMY, CSA, and Sergeant Major of the Army addressed attendees, which 
included over 100 sergeants major and 50 general officers.
    Phase III culminates the dedicated effort of leaders and soldiers 
under Phase I and Phase II by ``Achieving Cultural Change'' that truly 
reflects Army values and fosters an environment free from sexual 
harassment and sexual assault.
    The final phase is ``Sustainment, Refinement, and Sharing,'' during 
which the prevention program continues to grow while motivating 
national partners to support our efforts to change generally accepted 
negative social behaviors; thus eliminating the crime of sexual 
assault.
    With the implementation of the strategy, a likely near-term 
consequence will be an increase in the number of reported cases as 
soldiers' and other victims' propensity to report increases. This 
increase in cases will require more sexual assault responder support, 
specifically: victim advocates, healthcare personnel, investigators, 
and prosecutors.
                       suicide prevention program
    The loss of any soldier is a tragedy, particularly when it could 
have been prevented. There were 160 suicides by active-duty soldiers 
during 2009, continuing the 5-year trend of increased suicides within 
the Army. As a result, we have instituted a multi-level, holistic 
approach to health promotion, risk reduction and suicide prevention. 
Although the total number and rate of suicides in the Army remains of 
deep concern, we should remember each of these suicides represents an 
individual and a family that has suffered an irreparable loss---and, as 
a result, our suicide prevention efforts are focused on directly 
assisting soldiers, their families, and our Army civilians.
    On 16 April 2009, the Vice Chief of Staff of the Army (VCSA) signed 
the Army Campaign Plan for Health Promotion, Risk Reduction, and 
Suicide Prevention, a comprehensive plan setting in motion 
unprecedented changes in Army doctrine, policy, and resource 
allocation, as well as immediate guidance to commanders, in order to 
address the problem of suicides in the overall context of risk 
reduction and health promotion.
    The Army Suicide Prevention Task Force has addressed more than 240 
different tasks related to suicide prevention doctrine, organization, 
training, materiel, leadership, personnel, and facilities. Over 90 
percent of these tasks have been implemented.
    To build on the Army Campaign Plan's accomplishments during 
calendar year 2009, the Army Suicide Prevention Task Force is leading 
an effort to review and assess the effectiveness of Army Health 
Promotion, Risk Reduction and Suicide Prevention programs at all 
levels. Army has partnered with National Institute of Mental Health to 
conduct a long-term study (Army Study to Assess Risk and Resilience on 
Servicemembers) of risk and protective factors to inform health 
promotion and suicide prevention efforts. The VCSA Task Force is also 
reviewing all Army programs at all levels that are related to health 
promotion, risk reduction, suicide prevention, or were implemented to 
address soldier, family, or DA civilian stressors to ensure that the 
programs provide appropriate levels of support and address current 
problems, risk factors, and are relevant to today's soldiers' families' 
and DA civilians needs.
                 comprehensive soldier fitness program
    The Army's Comprehensive Soldier Fitness (CSF) program is a 
structured, long-term assessment and development program designed to 
build the resilience and enhance the performance of the Army's 
soldiers, families, and civilian personnel. The CSF program uses 
individual assessments, tailored virtual training, classroom training 
and embedded resilience experts to provide soldiers with the critical 
skills needed to take care of themselves, their families and their 
teammates in this era of persistent conflict. By developing the five 
dimensions of strength--physical, emotional, social, spiritual, and 
family--CSF equips soldiers with the skills to become more self-aware, 
fit, balanced, confident, and competent, and ultimately better prepared 
to face the physical and psychological challenges of sustained 
operations.
                      army substance abuse program
    The Nation's persistent conflict has created symptoms of stress for 
our soldiers, including an increase in alcohol and drug abuse. This 
commander's program uses prevention, education, deterrence, detection, 
and rehabilitation, to reduce and eliminate alcohol and drug abuse. It 
is based on the expectations of readiness and personal responsibility.
    A team recently returned from deployment to U.S. Army Forces, U.S. 
Central Command. To support our commanders, clear and effective 
procedures for random drug testing in theater are under development, 
such as the implementation of online tools to train unit prevention 
leaders and to quickly inform commanders of test results. Another area 
under development is the review of portable prevention education 
packages for deployed soldiers, soldiers at home, and soldiers in the 
RC. Additionally, the Army is conducting a pilot program that provides 
confidential education and treatment to soldiers who self-refer to the 
Army substance abuse program for assistance with alcohol issues. In 
addition to the pilot program, we are conducting a broader, more 
detailed study to determine the exact nature and extent of any stigma 
in the Army associated with substance abuse treatment. This study will 
run concurrently with the pilot program. The pilot program and detailed 
study were concluded on March 1, 2010 and we expect to report to 
Congress in April 2010. We want to ensure that all soldiers who may 
need assistance can get assistance without the barrier of stigma.
                        congressional assistance
    Recruiting, retention, and providing for the well-being of the best 
Army in the world requires a significant commitment by the American 
people. The Army is grateful for the continued support of Congress for 
competitive military benefits and compensation, along with incentives 
and bonuses for soldiers and their families and for the civilian 
workforce. These are critical in helping the Army be the employer of 
choice.
                               conclusion
    We must maintain an appropriate level of investment to ensure a 
robust and high-quality force. The well-being and balance of our force 
are absolutely dependent upon your tremendous support. The Army is 
growing and transforming in a period of persistent conflict. We will do 
so with men and women of the highest caliber whose willingness to 
serve, is a credit to this great Nation.

    Senator Webb. Secretary Garcia.

 STATEMENT OF HON. JUAN M. GARCIA III, ASSISTANT SECRETARY OF 
           THE NAVY FOR MANPOWER AND RESERVE AFFAIRS

    Mr. Garcia. Chairman Webb, Senator Graham, distinguished 
members of the committee, it's my pleasure to be here today to 
testify on behalf of our Navy and Marine Corps personnel.
    For the past 5 months as an Assistant Secretary of the 
Navy, I've had the honor of representing and advocating for the 
nearly 650,000 sailors and marines, both Active Duty and 
Reserve, and 180,000 civilian employees who, together, are 
globally engaged across a spectrum of operations ranging from 
major combat to humanitarian assistance.
    Across the Department of the Navy, we are asking our 
sailors, marines, and civilians to take on extraordinary tasks 
ranging from combat operations in Afghanistan to unplanned 
disaster relief in Haiti. The men and women who comprise the 
Navy and Marine Corps have invariably risen to meet the 
challenge presented.
    Our leadership team--Secretary Mabus, Under Secretary Work, 
Admiral Roughead, and General Conway--have set a course for the 
Department of the Navy that drives our human capital strategy, 
focusing on our greatest asset: our people. In order to achieve 
our best, we promote an environment in which every person can 
excel, where each person is treated with dignity and respect, 
and where all are recognized for the contributions they make.
    Both the Navy and Marine Corps are experiencing historic 
success in recruiting and retention of Active Duty 
servicemembers. I assess that both Services will continue 
meeting their recruiting and end-strength goals for the 
foreseeable future. It's a tribute to both the dedication of 
our military personnel communities and to the patriotism of our 
Nation's young men and women that we are able to maintain an 
All-Volunteer Force of unprecedented quality through more than 
8 years of active combat operations.
    Recruiting and retention in certain fields--healthcare, 
Special Forces, nuclear power--continue to pose challenges and 
will require the use of special pays and bonuses to ensure 
adequate numbers of qualified personnel are available in those 
critical specialties.
    Despite its high operational tempo, the Marine Corps was 
able to grow to 202,000 Active Duty end strength 2 years ahead 
of schedule. This focus on Active Duty recruiting and retention 
resulted in a slight shortfall of the Marine Reserve component 
end strength for 2009. For this same reason, 2010 Reserve 
strength may also be slightly below target.
    The health of the Reserve components is of particular 
concern because of our dependence on them to meet our global 
obligations. Since September 11, more than 142,000 mobilization 
requirements have been met by members of the Navy and Marine 
Corps Reserve.
    A high tempo, high stress environment appears to be the new 
normal for the Department of the Navy. One of the lessons to be 
learned from recent years is that our people step up and 
perform superbly in times of greatest need. But, the reality of 
continuing operations in Afghanistan, combined with our other 
deployment commitments, undeniably places great stress on our 
forces. The Department of the Navy is employing every measure 
available to help identify consequent risks, and we continue to 
assess and reevaluate these programs daily.
    As Secretary Gates has said, apart from the war itself, we 
have no higher priority than taking care of the wounded, ill, 
and injured. Through the Marine Corps Wounded Warrior Regiment 
and the Navy Safe Harbor Program, the sea Services strive to 
provide the best possible support for our personnel struck 
down, to include reintegration into society and a new emphasis 
on post-service employment.
    I'd like to thank the committee members for their 
continuous commitment to the support of our expeditionary 
fighting men and women, especially to those who have returned 
from the front line of battle with broken bodies but unbroken 
spirits, our wounded warriors.
    I look forward to your questions.
    [The prepared statement of Mr. Garcia follows:]
               Prepared Statement by Hon. Juan M. Garcia
    Chairman Webb, Senator Graham, and distinguished members of the 
subcommittee, it is my pleasure to be here today to testify on behalf 
of our Navy and Marine Corps personnel. For the past 5 months as an 
Assistant Secretary of the Navy, I have had the honor of representing 
and advocating for the nearly 650,000 sailors and marines, both Active 
Duty and Reserve, and 180,000 civilian employees who, together, are 
globally engaged across a spectrum of operations ranging from major 
combat to humanitarian assistance. Across the Department of the Navy, 
we are asking our sailors, marines, and civilians to take on 
extraordinary tasks ranging from combat operations in Afghanistan to 
unplanned disaster relief in Haiti. The men and women who comprise the 
Navy and Marine Corps have invariably risen to meet the challenges 
presented.
    Our leadership team, Secretary Mabus, Under Secretary Work, Admiral 
Roughead, and General Conway, have set a course for the Department of 
the Navy that drives our Human Capital Strategy--focusing on our 
greatest asset--our people. In order to achieve our best, we promote an 
environment in which every person can excel, where each person is 
treated with dignity and respect, and where all are recognized for the 
contributions they make.
    Let me address some particular areas of interest and concern 
related to the Department's manpower and personnel.
    In terms of military personnel, both the Navy and Marine Corps are 
experiencing historic success in recruiting and retention of active 
duty servicemembers. I assess that both Services will continue meeting 
their recruiting and end-strength goals for the foreseeable future. It 
is a tribute to both the dedication of our military personnel 
communities and to the patriotism of our Nation's young men and women 
that we are able to maintain an All-Volunteer Force, of unprecedented 
quality, through more than 8 years of active combat operations.
    Recruiting and retention in certain fields--including health care, 
Special Forces, and nuclear power--continue to pose challenges, and we 
still require the use of special pays and bonuses to ensure adequate 
numbers of qualified personnel are available in critical specialties 
such as these.
    The Navy expects to continue to need an additional 4,400 end-
strength for Overseas Contingency Operations. In considering that 
requirement, it is important to remember that the number of active duty 
sailors has been in gradual decline since the Vietnam war. As recently 
as 1993 the Navy had half-again as many sailors on active duty, and 
available for assignments, as it does today.
    Despite its high operational tempo, the Marine Corps was able to 
grow to 202,000 active duty end strength 2 years ahead of schedule. 
This focus on active duty recruiting and retention resulted in a slight 
shortfall of the Marine Reserve component end strength for 2009. For 
this same reason, 2010 Reserve strength may also be slightly below 
target. The health of the Reserve components is of particular concern 
because of our dependence on them to meet our global obligations. Since 
September 11, more than 142,000 mobilization requirements have been met 
by members of the Navy and Marine Corps Reserve.
    Another topic of particular interest is the introduction of female 
personnel on submarines. On February 19, 2010, the Secretary of Defense 
notified Congress of our intent to change the policy prohibiting the 
service of women in submarines. After the requisite notification period 
has expired, it is the Navy's intent to have the first cadre of female 
officers commence training on nuclear prototypes and begin a pipeline 
that will ultimately lead them to qualification as Naval Submariners, 
removing one of the last gender barriers in the U.S. Navy, and helping 
to insulate us from the anticipated surge in hiring by the civilian 
nuclear power industry in the decades to come. Because of the critical 
mission and demanding environment of the submarine force, we envision a 
gradual, and measured approach to this integration. Our initial efforts 
will focus on officers only and will concentrate on our large boats 
(SSGNs and SSBNs), where the existing infrastructure will accommodate 
these changes without material alteration. As a measure of extra 
caution, the Navy will not reduce the number of male officers trained 
and qualified for submarine duty until we have experience with 
successfully placing female officers in those roles.
    Some might argue that such initiatives should not be undertaken 
during a period of high operating tempo and stress on the force. But a 
high tempo, high stress environment appears to be the new normal for 
the Department of the Navy. One of the lessons to be learned from 
recent years is that our people step up and perform superbly in times 
of greatest need. Yet the reality of continuing operations in 
Afghanistan combined with our other deployment commitments undeniably 
places great stress on our forces.
    Stress on the force has many causes and manifests in many forms. 
The Secretary of Defense asked former Secretary West and Retired 
Admiral Clark to lead an independent review of the tragic events at 
Fort Hood. Their review produced 86 recommendations for changes in, or 
reviews of, procedures and policies. Currently, the Department of the 
Navy is working with the other Services and the Office of the Secretary 
of Defense to evaluate those recommendations and implement those that 
seem appropriate. Well before the shootings at Fort Hood, the 
Department of the Navy had in place its Caregiver Occupational Stress 
Control Program, which is designed to enhance the resilience of 
caregivers, including mental health professionals, chaplains, corpsmen, 
and other counselors and advisers. Additionally, for reservists and 
individual augmentees returning from mobilization, the Department 
created the Returning Warrior Workshops (which are a part of the Yellow 
Ribbon Reintegration Program) to help with the adjustment to life back 
home.
    Stress on our personnel has likely played a role in the 
heartbreaking increase in suicide rates among the active duty in recent 
years. The Department of the Navy has employed every measure available 
to help identify those at risk, encourage them to seek help, and 
prevent these tragedies. We continue to assess and re-evaluate our 
programs daily, and will not stop, believing that even a single suicide 
by those wearing our Nation's cloth is one too many.
    As Secretary Gates has said, apart from the war itself, we have no 
higher priority than taking care of the wounded, ill, and injured. 
Through the Marine Corps's Wounded Warrior Regiment and the Navy's Safe 
Harbor Program, the sea services strive to provide the best possible 
support for our personnel struck down, to include reintegration into 
society, and a new emphasis on post-Service employment.
    Thanks to advances in military medicine, many of our most seriously 
wounded, who even a few years of ago would have died of injuries, are 
recovering and, in many cases, able to resume their military jobs. 
Others will require special accommodations and support for the rest of 
their lives. We are working in close partnership with the Department of 
Veterans' Affairs to ensure the best and most dignified treatment 
possible for those sailors and marines.
    Members of our civilian workforce continue their crucial 
contributions to our mission while coping with two significant 
transitions of their own.
    Consistent with your direction in the National Defense 
Authorization Act for Fiscal Year 2010, we are currently in the process 
of moving all of our civilian employees out of the National Security 
Personnel System. Those who are returning to the General Schedule will 
be converted no later than the end of the fiscal year. Those who will 
move to one of the various alternative pay systems will be transitioned 
during 2011.
    While this is occurring, the DOD is also engaged in a significant 
in-sourcing initiative, expected to add more than 33,000 civilian 
positions over the next 5 years to perform currently contracted 
services--the Department of Navy expects to establish 10,000 new 
civilian positions as part of this effort. This initiative will 
rebalance our workforce; rebuild organic capabilities; reduce 
operational risk by ensuring that inherently governmental and functions 
that support the readiness/management needs of the Department are 
performed by government employees; and that services are delivered in 
the most cost effective manner. Nearly a third of these new positions 
are expected to be part of the crucial acquisition workforce. These 
insourcing initiatives are consistent with DOD's High Priority 
Performance Goals in the President's fiscal year 2011 Budget's Analytic 
Perspectives volume.
    Finally, I would like to thank the committee members for their 
continuous commitment to the support of our expeditionary fighting men 
and women, especially to those who have returned from the front line of 
battle with broken bodies but unbroken spirits--Our Wounded Warriors.
    I look forward to your questions.

    Senator Webb. Thank you, Secretary Garcia.
    Secretary Ginsberg.

 STATEMENT OF HON. DANIEL B. GINSBERG, ASSISTANT SECRETARY OF 
         THE AIR FORCE FOR MANPOWER AND RESERVE AFFAIRS

    Mr. Ginsberg. Thank you, Chairman Webb, Ranking Member 
Graham, and members of the subcommittee.
    It is my honor to testify before you today about our 
airmen. They are doing incredible work every day to serve our 
Nation and accomplish the missions that our Nation has asked of 
them. Our Air Force has been engaged in continuous operations 
for over 19 years. We have never been more engaged than today. 
We have over 38,000 airmen deployed around the world, and 
thousands more airmen providing direct support to the 
warfighter through our space systems, global mobility 
operations, and remotely-piloted operations, to name just a few 
of the critical capabilities that we provide.
    Overall, our force structure is healthy. We are working 
internal challenges to ensure we meet the increased demand for 
new and emerging missions, such as our remotely piloted 
aircraft, cyberoperations, and irregular warfare. We are 
meeting our total-force recruiting goals, except for a few 
hard-to-fill specialties in our officer medical specialties.
    To address this, we are aggressively pursuing a three-
pronged approach to, first, grow our own through expanded 
scholarship opportunities and commissioning opportunities for 
our enlisted force; second, increase compensation through 
special and incentive pays; and third, to improve quality of 
life.
    Although the Air National Guard will meet end strength, we 
are having challenges recruiting enough officers. That may be 
related to our high retention rates we are currently 
experiencing with our Active component. Historically, the Guard 
and Reserve rely heavily on recruiting prior-service trained 
airmen who separate from the Active side.
    An efficient and smooth transfer between each component and 
Civil Service allows the Air Force to access and retain 
important skill sets and balance our mission needs over time. 
To make this process work even better, we are focusing on our 
Continuum of Service Program. Through Continuum of Service, we 
are reviewing all Air Force, Office of the Secretary of Defense 
(OSD), and statutory requirements to identify areas where we 
can streamline the transfer between components. When statutory 
issues are identified, we will work with OSD and our 
counterparts in other Services to identify and support 
legislative proposals to you.
    Taking care of our airmen and their families is a top Air 
Force priority. In the spring of 2009, the Air Force renewed 
its longstanding commitment to our airmen and families by 
designating July 2009 through July 2010 as ``The Year of the 
Air Force Family.'' The observance serves two primary purposes. 
First, we examined our family support services and policies 
across the Air Force in order to expand or refine them as 
required to meet the emerging needs and expectations of our 
airmen, their families, and the larger Air Force family.
    Second, we set aside specific time to recognize the 
sacrifices and contributions of the members of our entire Air 
Force family--our Active, Guard, Reserve, civilian, spouses, 
and family members. We have focused our efforts to ensure we 
provide robust programs to meet the unique needs of our Guard 
and Reserve members and their families.
    In conjunction with the Year of the Air Force Family, we 
are also focused on reducing the stressors and mission 
detractors that impact our airmen and their families. We have 
taken a holistic approach to addressing airmen resiliency. We 
are strengthening our Exceptional Family Member Program to 
ensure we better meet their unique needs. We are dedicated to 
reducing incidence of sexual assault and suicide among our 
force. One is too many.
    Diversity is an integral part of our mission accomplishment 
and success in today's Air Force, and will remain in the 
forefront of that area, as we continue to exclusively attract, 
develop, and retain highly qualified professionals for the 
betterment of the total force.
    Across all of our programs, we continually strive to 
improve as we accomplish the Air Force's and the Nation's 
priorities. I am committed to ensuring we provide the best 
possible programs that increase our combat capability and take 
care of our most important asset: our airmen.
    I look forward to working with this committee, which has 
helped shape DOD into the world's premier defense organization. 
I thank you for the opportunity to appear before you today.
    [The prepared statement of Mr. Ginsberg follows:]
             Prepared Statement by Hon, Daniel B. Ginsberg
                              introduction
    Mr. Chairman, members of the subcommittee, thank you for this 
opportunity to discuss the Air Force's most important resource--our 
airmen. This diverse group of highly-skilled and dedicated men and 
women ensure our Air Force remains the most powerful in the world. Our 
airmen have been continuously deployed and globally engaged in combat 
missions for over 19 straight years. Approximately 38,800 airmen are 
currently deployed in support of joint operations across the globe. Of 
these, over 4,000 airmen are filling Joint Expeditionary Taskings in 
non-traditional roles in Iraq, Afghanistan and elsewhere. Thousands 
more are providing critical direct support to our combatant commanders 
from their home station. These critical capabilities include space 
systems such as GPS, rapid global mobility of people and supplies, as 
well as intelligence, surveillance, and reconnaissance from space and 
remotely piloted aircraft. Our airmen are committed to winning today's 
fight and prepared for tomorrow's challenges.
    As the Air Force's assistant Secretary for Manpower and Reserve 
Affairs, I am focused on accomplishing the Air Force's priorities by 
developing and implementing programs and policies to best leverage our 
total force--Active, Guard, Reserve, and civilians--to maximize our 
combat capability for the joint commanders. To that end, I have made 
Continuum of Service (CoS), which will allow for smooth transfer of 
skilled airmen between components, and increasing the diversity of our 
force high priorities. I am also attuned to the overall health of our 
force. We are working essential programs that support our wounded 
warriors, help airmen reintegrate after deployments, provide families 
with the support they need and minimize the incidents of sexual assault 
and suicide to name just a few.
                   end strength and force management
    With the National Defense Authorization Act for Fiscal Year 2010, 
our current approved total force end strength is 686,944. This includes 
331,700 Active component; 179,044 civilians; 69,500 Reserve; and 
106,700 Air National Guard. In the fiscal year 2011 budget request, our 
programmed total force end strength is 702,669. This includes 332,200 
Active component, 192,569 civilians, 71,200 Reserve, and Air National 
Guard end strength remaining at 106,700.
    The Air Force's fiscal year 2011 budget request preserved end 
strength in the face of fiscal constraints, realigned Active component 
and Reserve manpower within existing resources, and grew civilian end 
strength to meet Air Force priorities. Major manpower drivers include 
initial investment toward remotely piloted aircraft fleet operational 
capability to 65 combat air patrols; enhancing cyberspace/irregular 
warfare/command and control capabilities; and resourcing required Air 
Force priorities to include Acquisition Excellence, further 
enhancements to Nuclear Enterprise, and developing and caring for our 
airmen and their families while rebalancing our total force mix for 
agile combat support.
    Maintaining the optimum overall force size as well as balancing 
critical skill-sets is a routine part of the Air Force's force 
management efforts. The current downturn in the economy has had a 
direct impact on the Air Force's lower attrition rates projected in 
fiscal year 2010. As a result, the Air Force is expected to exceed end 
strength by about 3,700 airmen (2,100 officers and 1,600 enlisted) in 
fiscal year 2010. Although this increase would fall under the Secretary 
of the Air Force's purview of 2 percent over authorized end strength, 
the Air Force implemented a force management plan to bring this back in 
alignment. In fiscal year 2010, we made small adjustments in several 
areas including limited reductions of officer and enlisted accessions, 
increased service commitment waivers, waived enlisted time-in-grade 
requirements for retirement, and we are implementing an additional 
enlisted date-of-separation rollback. We are continually monitoring 
results from these actions and to date we have achieved about 50 
percent of our fiscal year 2010 force management goal. Even with these 
efforts, we do not expect these actions to fully achieve the reductions 
targeted for fiscal year 2010. As a result, we will likely continue 
many of these actions and consider other force management options for 
the remainder of fiscal year 2010 and in fiscal year 2011 as needed. 
Utilizing force management tools is a necessary and routine leadership 
obligation to ensure the Air Force remains within authorized strength 
levels and get the right balance of grades and skills to meet our 
evolving mission requirements. However, we strive to use these force 
management tools in a deliberate manner with the least disruption to 
the cohesion of the force.
                               recruiting
    Even in a time of higher retention and a struggling economy, 
recruiting the highest quality airmen is as important as ever. Our 
recruiting force continues to achieve the enlisted accession mission 
with integrity and excellence. In fiscal year 2009, we met mission 
requirements for enlisted recruiting in all components (Active, Guard, 
and Reserve). To date in fiscal year 2010 we have achieved 100 percent 
of our active-duty accession goals and 100 percent and 112 percent of 
our Reserve and Guard accession goals, respectively.
    Although we have achieved mission goals in our line officer 
accession programs, we continue to struggle with health professions 
officer recruitment and retention. In fiscal year 2009, we recruited 
approximately 70 percent of officer health professions requirements 
exceeding the fiscal year 2008 production of 62 percent. The ongoing 
high-demand for medical professionals in the lucrative civilian market 
makes it difficult for the Air Force to attract and retain fully 
qualified individuals. As a result, in 2006 the Air Force implemented a 
long-term ``grow our own'' strategy by offering more medical school 
scholarships in student-based markets. In fiscal year 2008, we filled 
431 of 437 available scholarships (98.6 percent) and for fiscal year 
2009, we accessed 376 of 371 scholarships (101 percent). In fiscal year 
2010, we are on track to achieve a 100 percent scholarship fill rate. 
Our main shortfall in recruiting is attracting fully-qualified medical 
professionals to come straight into the service particularly in the 
Biomedical Science Corps. Psychology, Pharmacy, Optometry and Public 
Health Officers continue to be challenging to recruit. Our continued 
challenges in the health professions are why we have submitted $85.7 
million in this year's budget request for officer bonuses to attract 
and retain more medical professionals on active duty. We are 
appreciative of and ask for your continued support in this area.
    Although recruitment is also strong in the Reserve and Air National 
Guard, they face challenges with fewer prior-servicemembers due to 
lower Active component attrition rates and increased requirements for 
new and emerging mission specialties. As a result, both the Air 
National Guard and the Air Force Reserve have had to increase their 
non-prior service recruitment efforts. In fact, the Reserve non-prior 
service recruiting requirement has nearly doubled since the end of 
fiscal year 2007. Increased recruitment of non-prior servicemembers for 
both Air National Guard and the Air Force Reserve has directly resulted 
in increased recruitment costs as well as increased training costs over 
that of already trained prior-servicemembers. The continued support of 
the Air Force, Department of Defense and Congress will undoubtedly 
shape the foundation of their success.
                               retention
    Although overall officer retention has remained strong, we have had 
challenges with retention of rated officers, some critical skills and 
some health profession specialties. To address our rated officer 
shortages, we implemented a rated recall program to bring back 500 
trained pilots to help fill our rated staff positions allowing more 
current pilots to return to the cockpit. The Air Force prudently 
employs Special and Incentive (S&I) pays to compensate for and 
incentivize the performance of hazardous and arduous duties, the 
acceptance of duty in hostile or remote and isolated locations, and the 
recruiting and retention of personnel with specific skills or in 
specific career fields. Fiscal year 2010 Active component recruiting 
and retention S&I pays total $465.9 million. For fiscal year 2011, we 
have requested this be increased to $480.1 million. This increase is 
due to changing eligible populations, anniversary payments, and the 
addition of retention bonuses for five stressed officer career fields. 
Our S&I pays are critical as we shape the force to meet new and 
emerging missions and support the combatant commanders in today's 
fight.
    The quality of Air National Guard recruits has not declined and 
their retention rate remains strong at 96.9 percent. The Air National 
Guard saves on average $62,000 in training costs for every qualified 
member retained or recruited. Our focus in this area allows us to 
retain critical skills lost from the Active component and save valuable 
training dollars. In 2009, through the use of our 14 In-Service Air 
National Guard recruiters strategically placed at active duty bases, 
the Air National Guard garnered approximately 896 confirmed accessions 
of a total of 5,309 accessions. The bonuses and incentive programs are 
a key component to that success.
    Retention for the Air Force Reserve remains solid with first-term 
airmen retention being the highest in recent history. Likewise, second-
term and career airmen retention has rebounded following a drop in 
recent years due in-part to force structure changes. Although we have 
not formally studied the causes, we attribute this increase in 
retention rates primarily to the recent legislative authorizations 
congress has approved that enhance incentives to remain in the service 
like inactive duty training (IDT) travel pay, streamlining of TRICARE 
Reserve Select premiums, enhanced bonuses and the Post-September 11 GI 
Bill. We anticipate this positive trend in retention will continue for 
the foreseeable future.
                           civilian personnel
    Management of the civilian workforce will continue to be a priority 
for the Air Force. We are working collaboratively with the Deputy Under 
Secretary of Defense for Civilian Personnel Policy on Strategic Human 
Capital Planning efforts, in particular, to address the provisions in 
NDAA for Fiscal Year 2010 which require reporting by the Military 
Departments. We support this effort that will result in the Air Force 
and the Department of Defense (DOD) having the skills and competencies 
necessary to meet our current and future mission requirements.
    In October, 2009, the President signed into law the NDAA 2010 that 
repeals the authority for NSPS and requires DOD to transition civilian 
employees from NSPS to the appropriate statutory non-NSPS personnel and 
pay system not later than January 1, 2012. The Air Force has 
approximately 44,000 employees in NSPS. We are aggressively planning 
and preparing to transition these Air Force employees in an orderly and 
timely manner. We have begun the process of reclassification of 
positions, where necessary. We will soon issue a conversion plan that 
will inform and assist our human resource practitioners, supervisors, 
managers and employees to understand the transition process and to 
facilitate the transition. The NDAA also provided additional personnel 
flexibilities which we will be pursuing in conjunction with DOD and the 
Office of Personnel Management.
                               diversity
    Diversity is an integral part of mission accomplishment and success 
in today's Air Force and will remain in the forefront as we continue to 
inclusively attract, develop, and retain highly qualified professionals 
for the betterment of the Total Force. The capacity to educate, manage, 
lead, and train a diverse force is a core competency of Air Force 
leadership. Currently, we are pursuing collaborative diversity outreach 
initiatives with Air University, Civil Air Patrol, Junior and Senior 
Reserve Officer Training Corps, Officer Training School and the United 
States Air Force Academy. Additionally, strategic plans are being 
formalized to utilize the Air Force Diversity Champions to promulgate 
the aims of diversity within the Air Force and the community. Areas of 
interests and emphasis to cultivate and develop future leaders of the 
Total Force will include reaching out to students enrolled in science, 
technology, engineering and mathematics programs in high schools, 
colleges and universities across the Nation.
    As the demographics of the Nation continue to change, the Air Force 
must position itself to optimize the true benefits of a diverse force 
and respectfully request appropriate Congressional funding for the 
sustainment of the aforementioned outreach initiatives. By 
incorporating diversity management leadership principles and strategies 
to leverage the unique qualities and talents of all citizens, the Air 
Force will achieve mission excellence and sustain dominance in air, 
space, and cyberspace.
                          continuum of service
    An important aspect of retention is our ability as a Service to 
allow skilled airmen to easily transfer from one component to another 
providing the Air Force flexibility while retaining valuable skills. 
CoS transforms the operating culture and paradigms to shape the future 
of personnel and manpower delivery throughout the Air Force to meet 
global mission requirements.
    CoS efforts have already positively impacted our Air Force members 
through a number of initiatives. Through our on-line CoS Tracking Tool 
(CoSTT), any airman can submit a proposal for a CoS initiative. Our 
tool was modified for use by the Army and is now being adapted for use 
throughout the Department of Defense. CoS initiatives have already 
improved our joint-spouse PCS process, interservice transfer of rated 
officers and helped facilitate the establishment of the Religious 
Professional Scholarship Program (RPSP) allowing members to attend 
seminary and later return to active duty. The RPSP is designed to help 
fill manning shortfalls within the chaplaincy for underrepresented 
faiths within the Air Force. This program is now being considered for 
utilization by my Navy and Army counterparts. In addition, CoS helped 
modify the chaplain accession age ceiling from 42 to 47.
    Some current Air Force CoS initiatives include: (1) aligning the 
Air Reserve Component pregnancy policy with that of the Army and Marine 
Corps to allow pregnant women to work until her orders expire; (2) 
changing Air Force policy on ``Lawful Permanent Resident'' accessions 
for critical specialties by utilizing current laws permitting the 
appointment of a Reserve Component officer who has been lawfully 
admitted to the United States; (3) evaluating the authority provided in 
the NDAA for Fiscal Year 2009 by considering a ``Career Intermission 
Pilot Program'' to determine whether a more flexible career path will 
prove to be an effective retention tool; and (4) examining the effects 
of changes to Air Force policy that would bring fully qualified 
personnel into stressed career fields faster than traditional methods 
by recognizing the value of nongovernmental experience.
    The Air Force CoS program is an important force multiplier as it 
not only helps our airmen transition between components, but also 
balances people and mission to ensure the right airman is in the fight. 
We greatly appreciate the outstanding support of the Senate Armed 
Services Committee Personnel Subcommittee on many of our CoS 
initiatives.
                           suicide prevention
    Preventing suicide among our airmen is extremely important to the 
well-being of our force. The Air Force developed the basis for its 
suicide prevention program in 1993 and it is one of ten suicide 
prevention programs listed on the Substance Abuse and Mental Health 
Services Administration's National Registry of Evidence-Based Programs 
and Practices. Although this program resulted in a reduction in the 
number of suicides among airmen, within the Air Force we have 
recognized the importance of a multi-faceted approach to meet the 
varied needs of our people. Since the initial program began, we have 
placed a strong emphasis on leadership involvement in preventing 
suicides. Training has been implemented in various professional 
military education curricula to create awareness among Air Force 
leaders and frontline supervisors of behaviors that may lead to suicide 
and to inform leadership of actions they can take to prevent suicide. 
We have identified specific career fields in which the requirements of 
the job place enormous stress on airmen and we are developing targeted 
programs to improve resiliency and encourage airmen to seek help early. 
To facilitate the seeking of mental health services, we have placed 
behavioral health specialists in our primary care clinics.
    Additionally, we emphasize community involvement in suicide 
prevention, combining the efforts of chaplains, family counselors, and 
other non-medical counselors to meet the psychological health needs of 
airmen. Finally, we collaborate with our sister Services, with the 
Defense Center of Excellence for Traumatic Brain Injury and 
Psychological Health, and with the Department of Veterans Affairs to 
identify best practices and continuously improve our existing suicide 
prevention program. Recently, the Air Force Surgeon General took the 
lead in implementing a two-tiered program to create and enhance 
psychological resiliency in deploying and returning airmen. This 
program includes a 2-day decompression program when the airmen return 
from theater. We believe one suicide is one too many and are strongly 
committed to preventing suicides and caring for our airmen.
                 sexual assault prevention and response
    Preventing sexual assault is also a top Air Force priority. Since 
program implementation in 2005, the Air Force has maintained a multi-
disciplinary approach to addressing sexual assault that supports home-
stationed and deployed airmen. A robust Air Force response to victims 
includes dedicated full-time civilian and military Sexual Assault 
Response Coordinators (SARCs) and more than 2,600 volunteer victim 
advocates who provide 24/7/365 support. Our robust Air Force Sexual 
Assault Prevention and Response program budget funds 80 civilian and 29 
military officer SARCs at the installation level, who work directly for 
the Vice Wing Commander. Our military SARCs provide a full-time 
deployed capability at seven primary deployment locations. The 
Secretary of the Air Force recently approved the addition of 24 Air 
Force Office of Special Investigations agents trained and dedicated to 
investigate sexual assault. Caring and professional response to victims 
has been a focus of the Air Force program but equally important is our 
focus to prevent the crime before it occurs.
    The primary challenge of addressing sexual assault in the military 
and society at large is to confront a culture where sexual assault is 
allowed to exist. It requires a positive, ongoing effort to educate our 
airmen and others, about the realities of sexual assault, debunking 
myths that continue to be propagated by media and entertainment, and 
maintained by peer pressure or other societal convention. The Air Force 
has developed a prevention-based approach that directly focuses on 
fostering positive behavior that is in concert with our core values. 
The approach includes leadership focus from the top down, risk 
reduction, and bystander intervention training. The later is a strategy 
that motivates and mobilizes people who may see, hear, or recognize 
signs of an inappropriate or unsafe situation, to act.
    We will be working with Dr. Stanley, OSD (P&R), and our sister 
Services, to address the recommendations in the report of the Defense 
Task Force on Sexual Assault in the Military Services. Sexual assault 
is a crime. The Air Force is dedicated to the elimination of this crime 
and we recognize the challenges dealing with this very complex issue.
                      year of the air force family
    In the spring of 2009, the Air Force renewed its longstanding 
commitment to taking care of our airmen and families by designating 
July 2009 through July 2010 as ``Year of the Air Force Family.'' The 
observance serves two primary purposes. Across the Air Force, we 
examined our support services and policies in order to expand or refine 
them as required to meet the emerging needs and expectations of our 
airmen, their families, and the larger Air Force Family. Second, we set 
aside specific time to recognize the sacrifices and contributions of 
all of the members of our Air Force family--our Active, Reserve, and 
Guard--civilians, spouses, and family members.
    We have focused our efforts to ensure we provide robust programs to 
meet the unique needs of our Guard and Reserve members and their 
families. The Yellow Ribbon Reintegration Program is one important way 
we are accomplishing this. The Air Force is working alongside other 
services in this DOD-wide effort to ensure the Air National Guard and 
Air Force Reserve airmen and their families are connected with all of 
the appropriate resources before, during and after deployments. We 
continue to focus on the reintegration phase after returning home and 
ensure that commanders are involved and aware throughout. We continue 
to improve our effectiveness and relationships with other associations 
such as the Department of Veterans Affairs and the Department of Labor 
in providing current and relevant information to members. The Air Force 
remains focused on airmen and their families and will ensure the 
oversight and success of the Yellow Ribbon Reintegration Program.
    Additionally, we are ensuring the Year of the Air Force Family does 
not overlook our ``extended Family'' our retirees, parents and the 
nongovernmental and community partners that support Air Force people 
every day across the Nation. We are using this year long period to 
launch our sharper focus on improving support to airmen and families. 
Under Secretary Donley's leadership, our concerted attention on 
providing the support that results in stronger, more resilient airmen 
and families will remain a priority in the years to come.
    In April 2010, we will hold a Caring for People Forum that will 
bring together helping professionals, airmen, and family members to 
develop an action plan to address the pressing and longer term concerns 
of airmen and families which will be briefed to senior leadership at 
the end of the forum.
    We are working to strengthen all of the partnerships that 
contribute to the quality of life for our members. These will include 
close rapport with local school districts (to enhance quality education 
and garner on-site support for children impacted by repeated 
deployments), housing privatization projects and agreements between our 
bases and city or county services.
                   wounded warrior and survivor care
    The Air Force Wounded Warrior program focuses on the needs of 
recovering airmen and their families, as well as families of the 
fallen. We now have 17 Recovery Care Coordinators (RCC) in 15 
locations, with an additional 10 RCCs being hired this year. Our RCCs 
are the primary point of contact for our wounded, ill, and injured 
airmen and ensure the health care, financial, informational, and 
personal needs of airmen and their families are available in a timely 
manner. Because of the range of questions airmen and families have 
after an injury or illness has incurred, it is critical to the healing 
process to have relevant and accurate information available to our 
airmen. Recovery Care Coordinators are in place to ensure those 
knowledgeable in medical and other areas of expertise are available to 
provide the requested information. This assistance is provided for as 
long as the airmen and families want assistance during recovery, 
rehabilitation, and reintegration. The Air Force also continues to work 
closely with the Office of Wounded Warrior Care and Transition Policy 
in the Office of the Secretary of Defense to ensure our programs 
continue to support all wounded, ill, and injured servicemembers. It is 
our solemn duty that these airmen receive the utmost support and care.
                               conclusion
    I am continually impressed, but not surprised, by the tremendous 
hard work and focus our airmen display daily as they accomplish their 
missions. I am dedicated to providing them the best programs and 
support, removing any policy barriers and pursuing innovative ways to 
streamline our processes to allow them to be even more effective. Our 
Air Force is a critical component to our Nation's defense as we are 
faced with uncertain and ever changing threats.
    We appreciate your unfailing support to the men and women of our 
Air Force, and I look forward to your questions.

    Senator Webb. Thank you very much.
    I thank all of you for your testimony.
    I think what I would like to do is--since I took a good bit 
of time in my opening statement, I think I would like to just 
start with an 8-minute round, and Senator Graham could begin, 
and then we could go to Senator Hagan and Senator Begich, and 
then I'll follow on after you.
    Senator Graham. Well, thank you, Mr. Chairman.
    Secretary Stanley, when it comes to the personnel part of 
the budget, we're going to grow the Army and Marine Corps. I 
think we need to. The healthcare component--how do we get a 
grip on this? What are some ideas that you all are talking 
about there?
    Dr. Stanley. Well, Senator, in my 3 weeks, we haven't 
really talked a lot about details on----
    Senator Graham. You mean, you haven't fixed this in 3 
weeks? [Laughter.]
    Dr. Stanley. What we have done--in fact, the very first 
thing I did--and I think we would--working with Congress even 
then--was to bring someone over with the skills and qualities 
to at least fill the position temporarily while we wait on the 
person, who is to be confirmed at some point in the future, to 
work with. And so, this has been an actual priority from day 
one, actually, because we recognize the healthcare costs.
    Senator Graham. Okay, well, that's fair--and 
congratulations, to all of you, by the way, for having your 
job. This time last year we were looking for people like you, 
and now we have them.
    The idea of the Guard and Reserve recruitment and 
retention--with the economy like it is, it's a good time for 
the military, but I think the economy's going to get better--I 
hope it will, and I'm sure it will eventually--TRICARE benefits 
for the Guard and Reserve--I'd just like to get your impression 
about how that program has worked, from each of the Services. 
Secretary Stanley, how is it being received by our Guard and 
Reserve Force, that they are now eligible for TRICARE? They 
have to pay a premium.
    The second issue, what effect do you believe it would have 
if we allowed people to retire at 55 if they would do more 
Active Duty service--earn their way from 60 to 55?
    Starting with Secretary Stanley.
    Dr. Stanley. Well, Senator, I know that, the TRICARE 
programs, all of those programs are under review right now 
because it's all a part of the gestalt of looking at all of 
healthcare. I don't have answers for you today.
    Senator Graham. Okay.
    Dr. Stanley. But, we look forward to working with Congress 
on that.
    Senator Graham. From the Services' point of view, what are 
you hearing from the Army, the Marines, and the Air Force?
    Mr. Lamont. From the Army's perspective, TRICARE Reserve 
has gone over very well. But, we're finding, among particularly 
our Reserve component, they don't fully appreciate or are 
educated enough to understand its availability to them. We 
think it's incumbent upon this to broaden that perspective so 
they avail themselves of what's out there.
    It's an excellent program, and it's a wonderful incentive. 
On the Reserve side, we may also, at some point in time, need 
to look at some potential other incentives, from the healthcare 
side, as we continue operationalizing the Reserve. But, it's a 
resource issue, of course, as well, for all of us.
    Senator Graham. Okay.
    Secretary Garcia?
    Mr. Garcia. Senator, I have the opportunity and the honor 
to continue to serve in the Reserves, and had a Reserve 
squadron, until coming to take this appointment. I will tell 
you the--among those circles, the program is--there's a lot of 
awareness of it, and it's very popular.
    The piece that many members have read about, and are very 
interested in, is what's been called the ``gray area'' piece; 
that is, for retired reservists, not yet 60, being able to 
access TRICARE Select and some of those programs before their 
retirement.
    As Secretary Lamont said, there's a price tag that comes 
with that. I look forward to wrestling with that, with you. 
But, I can tell you that, among my circles, on the Navy and 
Marine side, it's very popular and well thought of.
    Mr. Ginsberg. Senator, TRICARE Reserve Select is a very 
well-liked program. We have good participation rates, as I 
understand it, within the Air Guard and Air Reserve. It's not 
just a benefit, it provides a tool to our airmen to make sure 
that they're medically ready for deployment.
    One of the challenges we need to look at this 
systematically--is whether--the health of the provider network, 
and whether maybe a stand-alone Air Guard base, whether we have 
a sufficient network in place, or we're taking imbursements. 
It's something we want to look at to ensure that this program 
is moving along helpfully.
    Senator Graham. Well, one last question. The sexual 
harassment, sexual assault problem is being better identified, 
and the number of reported cases is growing, which I think is 
probably an indication, not that there are more activity, it's 
just getting easier to report it, and people feel more 
confident about reporting it. But, we're not nearly where we 
need to be.
    Just very quickly, from each Service's perspective, what 
are you doing in that regard to enhance the ability of a 
servicemember to report sexual harassment or assaults in a way 
they feel will not be detrimental to their career?
    Mr. Lamont. From the Army perspective, we're looking at it 
from a couple of different directions. First, we want to make 
it easier for them to report. We have initiated programs that 
allow for the confidentiality of the report. Plus, we're also, 
as I think we----
    Senator Graham. In that regard, do we need to look at 
changing our laws? Because there's a lot of privileges 
available maybe in the civilian side, not available to military 
members. I know you have a priest-penitent privilege and 
limited medical privilege, but just look at that and see if 
there are some changes we need to make on the Personnel 
Subcommittee to expand privileges to healthcare providers. I'd 
just----
    Mr. Lamont. All right.
    Senator Graham. Okay.
    Mr. Lamont. Otherwise, as we try to build resilience within 
the force, particularly on our Sexual Harassment/Assault 
Response Prevention situation, we have initiated a program 
called ``I. A.M. Strong''--``I'' being ``Intervene,'' ``A'' 
being ``Act,'' ``M'' being ``Motivate.'' Though it's a command-
oriented climate that we're trying to address, that would 
respect the dignity of all of our soldiers, we've looked for 
this ``I. A.M. Strong'' program to educate and train our 
soldiers, on a peer-to-peer basis, to remove any stigma of 
going forward to make those reports.
    We believe it's working, at least as we've seen the number 
of reports increase. We still believe, unfortunately, that only 
roughly a third of sexual assaults are being reported.
    Senator Graham. Thank you.
    Mr. Garcia. Senator, Secretary Mabus has stood up the 
Sexual Assault Prevention Response Office. The dedicated 
officer--civilian SES--reports directly to him for the first 
time and a network of Sexual Assault Response Coordinators 
(SARCs) implemented in each unit across the fleet. As you 
indicated, we are seeing a rise in reported incidents. The 
challenge is to discern whether that's availability to 
reporting or whether it's a true spike in incidents. It's 
something we wrestle with every day.
    Mr. Ginsberg. Senator, I think from the Air Force 
perspective, this is an issue of leadership, it's an issue of 
investment, and it's just a leader--an issue of communication. 
Leadershipwise, it's about showing from the highest levels on 
down, that sexual assault absolutely won't be tolerated and 
that from our perspective, goes against everything--all of 
those core values that we hold dear.
    It's about putting in money for a strong, baseline program, 
a good, strong, healthy organization, along with funding for 
investigations, and very active and aggressive investigations. 
It's also a matter of just making sure that those who are 
victims know that their resources and reporting channels are 
available to them. We have an ability for somebody who is a 
victim to come forward and provide limited information about 
what happened so they'll come forward. It's called restricted 
reporting, and that's provided a useful channel for victims.
    Senator Graham. Thank you, all, for your service. I'm going 
to have to run to another hearing, but I shall return.
    Senator Webb. Thank you very much, Senator Graham.
    Senator Hagan.
    Senator Hagan. Thank you very much, Mr. Chairman.
    I do, too, want to thank all of you for your service to our 
country. I really do appreciate it.
    Secretary Stanley, you mentioned, in your opening remarks, 
about the Military Spouse Career Advancement Account--as it's 
being referred to MyCAA--and about the stop in the 
implementation of it. I have a serious concern with that, 
because, one, neither Congress nor the people who were 
beneficiaries of this program were given any sort of upfront 
notification about any of the problems that were being seen in 
the program. This pause has certainly caused a lot of concern 
to many people in my State, in North Carolina, because it's an 
excellent program and a lot of people are taking advantage of 
it. I think the uncertainty that's been put forth right now has 
resulted in the Department's decision--has certainly negatively 
impacted and affected the morale of our servicemembers and 
their families. It certainly has had, I think, an adverse 
impact on family readiness.
    But, one of the questions I have in the President's fiscal 
year 2011 budget, which reflects increased funding for this 
enhanced career and educational opportunities, does it address 
the longer-term needs of the program?
    Dr. Stanley. First of all, we are addressing the concerns, 
short-term and long-term. The Secretary is now, at this time, 
making a decision, looking at options that have been presented 
to him. But I will say that there are still some unanswered 
questions on long-term, but I feel confident that they're going 
to be addressed. I certainly share your concern about what's 
happened, in terms of the program being stopped. I understand 
that.
    Senator Hagan. Well, the lack of notification was certainly 
alarming too, I think, Members of Congress and the people who 
were the beneficiaries.
    As far as improving the implementation of the program, do 
you need more specialists on staff to help with that? Or is 
that some of the things you're looking into?
    Dr. Stanley. Actually, in my arrival--just to be very 
blunt.
    Senator Hagan. Okay.
    Dr. Stanley. I was sworn in on the 16th, and I learned 
about it on the 16th.
    Senator Hagan. Wow.
    Dr. Stanley. So----
    Voice. Welcome aboard. [Laughter.]
    Dr. Stanley.--I'm going to----
    Senator Hagan. Wow.
    Dr. Stanley. So, we're addressing the issues dealing with 
MyCAA----
    Senator Hagan. Okay.
    Dr. Stanley.--as we move forward. I'm very optimistic about 
it working out okay.
    Senator Hagan. Okay.
    Another question, concerning the Census. I'm concerned that 
servicemembers that are deployed during the conduct of the 2010 
Census will be counted in a negative way that impacts the 
communities that host military installations. For the 1990 and 
2000 Census, the decision was made to count deployed 
servicemembers as overseas.
    North Carolina currently has approximately 41,200 
servicemembers deployed as a part of the overseas 
contingencies, and in the event that they are counted as 
prescribed by the Census Bureau, areas with large 
concentrations of military personnel, I believe, will be 
significantly undercounted and underfunded for the next 10 
years.
    What's preventing the Defense Manpower Data Center from 
providing the Census Bureau with information regarding the base 
of last assignment or permanent U.S. duty station as the 
primary response for our deployed servicemembers that are 
currently engaged in overseas contingencies?
    Dr. Stanley. Senator, I'm going to ask to take that 
question for the record.
    Senator Hagan. Okay. That's fair.
    Dr. Stanley. Because I'd like to get back to you with a 
very specific----
    Senator Hagan. Okay.
    Dr. Stanley.--and correct answer.
    [The information referred to follows:]

    This issue falls under the purview of the Census Bureau, and we 
must follow its guidance on how to count our personnel. The Census 
Bureau, in turn, is following what it perceives to be existing 
Congressional guidance.
    We are aware of no law specifying how to count military members 
deployed overseas. The Census Bureau is using a bill passed in the 
House in 1990, H.R. 4903, as the methodology for counting overseas 
servicemembers and their accompanying dependents. This current 
methodology, used in 1990 and 2000, counts overseas military personnel 
in this order (where the data is available): State home of record, 
State of legal residence, and State of last duty station (i.e., base of 
last assignment).
    The Department recognizes the decision to use the current 
methodology will result in overseas military personnel being assigned 
to a home State without counting them toward the populations of towns 
or counties. We also understand counting ``last duty station'' first 
would have a beneficial effect on States with a large military 
population. We have discussed with the Census Bureau methodologies 
other than using ``home of record'' first, and these methodologies 
might provide a more accurate snapshot of the current residence of the 
military personnel and also the desired town and county specificity. 
However, the current methodology does have the benefit of consistency 
over time.
    The Department stands ready to discuss all possible methodologies 
with the Census Bureau. We also look forward to continuing to work with 
Congress on this important matter.

    Senator Hagan. Well, let me go to one other one. We were 
talking about suicide. One of you referred to that. So, 
Secretaries Lamont, Garcia, and Ginsberg, I think we have 
witnessed an unacceptable number of suicides within our 
military population, and some of these losses, hopefully, could 
have been prevented if servicemembers had the ability to access 
professional care during the early stages of emotional 
distress. I'm sure we all agree that we have to reduce those 
numbers. What measures are being taken within the Services to 
ensure that our military men and women receive and gain easier 
access to mental healthcare without being stigmatized--that's, 
obviously, sometimes associated with that--and with going 
through the chain of command?
    Secretary Lamont?
    Mr. Lamont. First, you're absolutely right, we take the 
loss of any soldier, through any means, very, very seriously. 
It truly is one of the very highest priorities that we have. We 
look at it from early identification of risk factors, as well 
as early intervention when we recognize those risk factors, to 
move in and encourage, as best we can, to have those 
individuals who may exhibit those risk factors to seek out 
help.
    We have instituted a program designed to reduce the stigma 
of reaching out for mental health care. Actually, what we're 
finding out with some of our younger soldiers, who, for 
whatever reasons, do not wish to meet personally with a 
healthcare provider, for instance--we have a software program, 
that they go online and they self-address----
    Senator Hagan. Right.
    Mr. Lamont.--their issues. It's become a very valuable tool 
for us. But, it's going to take a lot of effort.
    Also, we clearly have to address the resiliency side, and 
we're making our effort to do that through a program called 
Comprehensive Soldier Fitness, where we explore, not only just 
the physical health, but the mental, the emotional and the 
spiritual well-being of the soldier, as well, to build that 
mental health resiliency as best we can to address the issues 
going on in his or her life.
    Senator Hagan. Thank you.
    Mr. Garcia. Senator, I appreciate your question. For the 
first time, last year, our Marine rate approached that of the 
national rate; we normed for age and gender. It's an issue we 
brief daily and constantly look for a correlation that we can 
zero in on.
    We focused much of our training at the NCO level. We feel 
that they have the most insight and perspective to what our 
young sailors and marines are wrestling with, those issues. But 
every marine, every sailor receives training and is made aware 
that they have access to master's-level counseling. It is 
confidential unless, in the aftermath of that training, the 
counselor feels that the individual is suicidal, homicidal, or 
is unfit for duty. But, everyone is aware of it from boot-camp 
level on.
    Senator Hagan. Do you think these things are making a 
difference in the attitude and the health of our men and women?
    Mr. Garcia. I think there is a----
    Senator Hagan. Great.
    Mr. Garcia.--undeniably, a new level of awareness from E-1 
to O-10. I've seen the training that takes place at Marine Boot 
Camp, at Marine Corps Recruit Depot. It's the first time where 
a Marine drill instructor to--a new boot camp marine sees that 
drill instructor take his cover off and address him personally, 
in a way that he has not, yet. It speaks to the importance and 
the significance, I think, that the Corps and the Department 
are placing on this.
    Senator Hagan. Okay.
    Mr. Ginsberg. Well, Senator, obviously it's a tremendous 
tragedy even when one servicemember takes their life. We pride 
ourselves, in the Air Force, being a family, and when one feels 
so alienated that it becomes a major problem at the highest 
reaches.
    This is a matter--this goes to our staffing--our capacity 
levels, in terms of having enough psychiatrists and trained 
psychologists. We, in the Air Force, are doing well, but 
obviously there's tremendous competition with the private 
sector for trained psychiatrists and trained psychologists. The 
bonuses that you provide us are absolutely essential for us to 
grow our force and to bring in psychiatrists and trained 
psychologists.
    I'd also say that this is--and to address the stigma, one 
of the things that we're doing in the Air Force is to locate 
our mental health clinics within military treatment facilities, 
within regular divisions within the hospital, basically, where 
somebody who's going in to get treatment is not seen as going 
to some special clinic, but is just part of--accessing regular 
care. We want to normalize care.
    Senator Hagan. That's good.
    All right, thank you, Mr. Chairman.
    Senator Webb. Thank you, Senator Hagan.
    Just to follow on for a moment on that line of questioning, 
I believe you could show--and, in fact, the Chief of Staff of 
the Army recently brought me a chart to this effect--that there 
is a direct correlation between dwell time--the amount of time 
that people have between deployments--and the percentage of 
emotional difficulties that are in these units. That's why I 
introduced this dwell-time amendment in 2007. When the Chief of 
Staff of the Army called me and said they were going to 15-
month deployments, with only 12 months dwell time back in the 
United States before they redeployed--having spent 4 years as a 
committee counsel over in the House Veterans' Affairs 
Committee, when we first started examining the difficulties of 
people who had served in Vietnam, first of all, I said, ``I 
can't believe you're going to do that. I don't think there's 
any operational requirement that should cause you, at this 
point in our history, to put that kind of pressure on our 
people. You're going to have challenges on the other end of 
doing this.'' Quite frankly, we're seeing that.
    All of your responses basically go to the means--and I 
salute these means--of addressing the situation once it occurs, 
but I don't think there's anything more valuable than putting 
the right kind of dwell time on our units. Particularly, when 
you look at the young age of the people who are doing these 
multiple deployments, and where they are in terms of addressing 
issues of adulthood.
    Mr. Lamont. If I may----
    Senator Webb. Mr. Lamont, do you want to----
    Mr. Lamont.--just add a comment to that. We have any number 
of programs that are well intentioned, well resourced, it 
doesn't matter. There is nothing more important than exactly 
what you say--is the dwell time of our soldiers, with their 
families and others, that will help them decompress and serve 
them so much better in this kind of situation. It is dwell 
time.
    Senator Webb. I totally agree. Thank you for saying that.
    Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman.
    I want to talk about TRICARE for a second, but then I 
actually want to get back to the SARC. In Anchorage, in 
municipal government, we call it SART, a very similar program, 
I think, but I want--that's what I want to ask you.
    But, Secretary Stanley, let me--I represent Alaska. It's 
very unique when it comes to TRICARE. It's the one that is not 
managed by a contractor, out of the whole system. We have some 
very unique situations. Alaska's population, in total, is--
about two-thirds has Federal healthcare in some form or 
another: Medicaid, Medicare, Indian Health Services, VA, 
Federal employed. So, it's probably the highest percentage, I 
would bet, or per capita, in the country. So, it has some 
unique challenges. Then, geographically, the geography of 
Alaska is very vast, and so we have some great challenges.
    I have introduced a piece of legislation to set up a task 
force for Alaska to bring all the different agencies that deal 
with healthcare and TRICARE as part of that--and DOD would be 
at that table--to try to figure out what's the best way to 
deliver services. I don't know if you've had any chance to see 
that legislation, have any comment on it. If you haven't seen 
it yet, I'd be anxious to get your comment for the record, at 
some point, if you think the task force will be of help for 
something very unique, I think, in Alaska. I don't know if you 
have any comment on that.
    Dr. Stanley. Yes, Senator. I haven't seen the legislation, 
but I've seen what I can best describe now are anecdotal pieces 
of information that tell me, in Alaska, we have some unique 
issues that deal with healthcare, as you've already described. 
So, I look forward to not only looking at the legislation, but 
working very closely with you to address some very significant 
issues.
    Senator Begich. Great, I would love to get your response 
for the record, I appreciate that.
    [The information referred to follows:]

    Since two-thirds of Alaskans use a Federal health care program, 
creating an interagency task force \1\ would be helpful in working 
together to assess and plan improvements to health care access for our 
Alaskan beneficiaries in a coordinated manner. TRICARE has tested 
alternate means of reimbursement and other Alaska-unique initiatives to 
improve access to care, and we are happy to discuss our findings with 
the task force and learn the successes other Federal agencies have 
experienced as they face the unique challenges Alaska presents.
---------------------------------------------------------------------------
    \1\ Note: The creation of the Interagency Access to Health Care in 
Alaska Task Force was mandated by section 5104 of H.R. 3590, the 
Patient Protection and Affordable Care Act (P.L. 111-148 (124 Stat. 
119)).
---------------------------------------------------------------------------
    Our TRICARE Regional Office-West team has already begun engaging 
other Federal partners in Alaska in anticipation of establishment of 
the interagency task force. We look forward to discussing a potential 
rate schedule that recognizes the uniqueness of the health care system 
in Alaska.

    Senator Begich. The other thing I want to say--and the 
folks from the Federal Government that have been working on the 
TRICARE, that have been managing it for us, have done a great 
job. But, I'm also very pleased to see that there is kind of a 
reexamination. How would a contractor work? Would there be a 
benefit? Is there some advantage, or maybe not advantage, 
depending on how it's all looked at? So, I am pleased with 
that, and that perspective, and I want you to know that. But, 
do you have, from your view, working with TRICARE contractors, 
what would you consider some of the advantages that you have 
seen in the value of delivering that healthcare? From a 
contractor delivering it, versus the way it's done in Alaska?
    Dr. Stanley. I'm afraid my answer would probably be 
personal, only because----
    Senator Begich. Personal is sometimes better.
    Dr. Stanley.--I'm a recipient----
    Senator Begich. Very good.
    Dr. Stanley.--of TRICARE benefits and the contractor, and 
from what I've benefited from. It's been pretty transparent to 
me, in being able to use a system that works very well. But, I 
don't think that's going to address some of the macro issues 
we're talking about. I'm also aware of the fact that there are 
some, already, challenges that exist with the TRICARE system as 
it's presently presented, with our contractors as we address 
contracting issues. So, I'm looking into those issues now, but 
I will tell you that there are some pluses--some significant 
pluses--but, there are also some--probably some negatives 
that--as we look at that. But, I don't know what all of those 
are right now.
    Senator Begich. As you develop that, will you share it with 
the committee?
    Dr. Stanley. Absolutely.
    [The information referred to follows:]

    TRICARE-eligible beneficiaries make up almost 14 percent of the 
overall population in Alaska. In recognition of the challenges placed 
on military treatment facilities, we are working with TriWest, the 
TRICARE West Regional Contractor, to develop a preferred provider 
listing which would aid in providing more access to civilian providers. 
Our regional contractors are experienced in the identification and 
credentialing of qualified providers who are willing to provide care to 
our beneficiaries. In the future, we plan to identify primary care 
managers in the civilian community in the Fairbanks area to support 
beneficiaries assigned to Fort Wainwright and Eielson Air Force Base.

    Senator Begich. At least my side would be very interested 
in that.
    Dr. Stanley. I'll look forward to it.
    Senator Begich. Then, again, as we examine the role of 
TRICARE, the contractor who delivers TRICARE, as a potential 
option or augmentation to what we do in Alaska, I'm going to be 
very interested as we move through this over the next several 
months.
    Two other things. One more on TRICARE, and that is, one of 
the situations--and I use Alaska, obviously, because I 
represent Alaska--one of the things we do, if you take 
Medicare, Medicaid, TRICARE, Indian Health Services, VA, we're 
always chasing the highest rate, the reimbursement rate. Now, 
the problem we have in Alaska is, we have very high rates, no 
matter what. I mean, it's just delivery of care, that cost of 
care. We don't have a teaching hospital, for example. We lack a 
lot of things that other communities can tap into and, 
therefore, keep their costs more competitive. Ours, we've been 
very high-cost in. But, we've also been very fortunate, 
because, under the rules, you've been able to--DOD and--or, the 
Federal Government has been able to utilize, under a 
demonstration ability, to have a higher-rate reimbursement in 
Alaska. It's only been in a demonstration capacity they've been 
able to do it. Obviously, we're very interested. I know there's 
a study going on, or at least a potential study, that will talk 
about how those rates are different; and if they are, how do we 
make them more permanent? Because, obviously, doctors--and I 
think some of the comments made here is getting those doctors 
to perform those services under TRICARE. The reimbursement rate 
is critical.
    In Anchorage, for example, which is the largest provider, 
or largest city--about 43 percent of the State's population--I 
think we're down to--on Medicare, for new Medicare patients, I 
think we're down to less than three or four docs that will 
accept them. That's it. So, we are the tip of the iceberg of 
what's going to happen in this country, very rapidly, because 
our cost differential is now getting to a point where primary-
care doctors can't afford to do it; and second, there are less 
and less of them being produced, in the sense of the system.
    So, I would like, if you have any comment on, one, the 
demonstration project. Again, if you're not familiar, I'd be 
very interested. Then, how we go about getting some permanency 
to this, because when docs see a pointer that's not permanent, 
then they just say, ``We're just done waiting, we have to move 
on to others,'' honestly, business has to continue for what 
they do. So, do you have any comment on that? The demonstration 
project, how do we move it to permanency, and is that a 
realistic viewpoint?
    Dr. Stanley. Well, thank you, Senator.
    Let me just say that I've been briefed on the project, in 
general.
    Senator Begich. Good.
    Dr. Stanley. My commitment is to work closely with you, not 
to study the problem to death----
    Senator Begich. Now you're talking. [Laughter.]
    Dr. Stanley.--but to move forward with a solution.
    Senator Begich. Good.
    Dr. Stanley. So, I'm aware of it. Now the issue is, okay, 
addressing this on the degree of permanency, which is why I put 
in place someone to help--with expertise, immediately--that's a 
physician--until we get somebody confirmed. I can't wait that 
long.
    Senator Begich. Right.
    Dr. Stanley. Which is the reason we're moving, kind of, 
like at flank speed, for lack of a better word----
    Senator Begich. Good.
    Dr. Stanley.--to put things in place and address these 
issues. There are other issues, too.
    Senator Begich. Absolutely. We would love to see 
confirmations happen very rapidly, but don't wait for that. 
Move forward on progress, and I appreciate your comments.
    I will end, Mr. Chairman, just on one--and this is more of 
a comment to the--as a former mayor, we worked on a project 
called SART, which is Sexual Assault Response Team, which is a 
combination public service, police--and they all are 
centralized into one location. They work with the community 
hospitals. It's good for investigation purposes. It has a kids' 
unit. It has a variety of things that--one of the pieces to 
this equation--and I haven't asked the--and I'm not asking for 
a response, at this point. I just want you to become aware, if 
you can, with what we're doing in Anchorage, which is the SART 
team.
    Why I say that, there's a very important component of how 
the person who has been the victim works through the process, 
and how that's handled, which is critical to your 
investigations, conviction rates, as well as to the care that's 
necessary. Then, if there are family members engaged in this, 
in the sense of a child who's also been assaulted, there's a 
whole process that is much different than the adult process.
    The SART program has been recognized around the Nation as a 
very cohesive and--like you, we saw rates go up, in the sense 
of reporting, but we also saw conviction rates go up, education 
capacity increasing--and young people, children especially, 
which is probably the hardest to deal with, with sexual assault 
or violence in a household or in a home.
    I'd just ask you--and we'd be happy to supply you some 
information--it's very unique and has been very, very 
successful. In Anchorage, we have two large military bases, 
literally as far as that door is from our facilities and our 
population. We have a great relationship with the military 
that--we know this program has had some impact.
    So, I'd just encourage you, as you work through this very 
troubling issue, to be very frank with you, but one we have to 
deal with, not only from a sexual assault on the officer, but 
also so many families are now part of the military family that, 
30 years ago, was not the case, but today, it's 70 or 75 
percent of the families. So the kids of this population, also, 
we need to make sure they're getting the services they need, 
and education they need. So, I would just encourage you to----
    Dr. Stanley. Will do, sir.
    Senator Begich. Okay, and we'll get you some information 
from staff.
    Dr. Stanley. Great. Thank you.
    Senator Webb. Thank you very much, Senator Begich.
    Senator Chambliss.
    Senator Chambliss. Thank you very much, Mr. Chairman.
    Gentlemen, first of all, let me just say that I want to 
thank all of you for what you do. You're charged with managing 
the most important aspect of our military, and that's the 
people and the programs that support them.
    I know much of what you do deals with numbers, but I also 
know you have an appreciation for what those numbers represent, 
in terms of the individual and his or her family, and what it 
means to our Nation.
    You all, along with our second panel, will help give us a 
sense of how we're doing, and how we can best continue to 
support the men and women of the Armed Forces and their 
families. So, I thank you for being here.
    Secretary Ginsberg, it's always great to see a Georgian on 
a panel like this--
    Mr. Ginsberg. It's my honor to be here. Thank you, Senator.
    Senator Chambliss.--so thanks for your service.
    Secretary Stanley, let me just ask you if you are familiar 
with the situation of the commissary at Dobbins and the one 
that we're transferring from Gillem to Dobbins. Does that ring 
a bell at all with you?
    Dr. Stanley. Vaguely. If you keep talking, Senator, I think 
I might pull something up, here. [Laughter.]
    Senator Chambliss. I'm not surprised that you don't, but--
    Dr. Stanley. Okay.
    Senator Chambliss.--basically, a BRAC decision was made to 
close Fort Gillem, in Atlanta, and that's the commissary that 
has served our retired population for decades. A decision was 
made, by your predecessor, to construct a new commissary at 
Dobbins that obviously will continue to operate, and it's going 
to serve our retired population. And it's in the hands of DeCA 
right now. That's why I'm not surprised you're not familiar 
with it. But, I wish you would familiarize yourself with it. At 
some point, you're going to have some significant input into 
it, and it may just be an issue of DeCA trying to find the 
funding for it. But, in any event, it is obviously a critical 
issue for the retired population, as well as for our active 
duty folks in the area.
    Dr. Stanley. Yes, sir.
    Senator Chambliss. Secretary Lamont, in light of the Fort 
Hood incident last November, can you elaborate on specific 
steps that the Army is taking to better recognize the presence 
of soldiers who may have become radicalized, as Major Hasan 
was?
    Mr. Lamont. I can tell you this. We are going through a 
very extensive internal review to look at all components of 
extremism that may have crept into society and, of course, may 
touch more and more into our Military Services, and what we can 
do to address those. We're aware of some apparent shortcomings 
in our officer evaluation forms and in our enlisted 
evaluations, and how some of the right questions may just not 
get asked. Some of the identifying risk factors may not just be 
exposed, as well.
    There is a Defense-wide Fort Hood review in progress right 
now. As I understand it--and perhaps Dr. Stanley knows more 
than I--that perhaps sometime this summer there will be a full 
report, as all of the Services, I believe, are involved in that 
report. But, certainly the Army is drilling down very deeply to 
see, what in the world did we miss here?
    Senator Chambliss. Let me just mention to all of you--I 
think Senator Graham may have mentioned this in his opening 
comments--the Guard and Reserve retirement initiative, early 
retirement initiative, that we have been successful at having 
put in place, that we're now looking to extend the retirement 
date back to service beginning on September 11, 2001. If there 
are any stumbling blocks out there, I would appreciate hearing 
from you now, if you're aware of anything. Obviously, funding 
is an issue. We're going to continue to work that until we, 
ultimately, have that retirement date, or that service date to 
qualify for retirement, go back to September 11, 2001, when so 
many of our men and women began being called up. Any comments 
any of you have, relative to any issues that are outstanding, 
that might be in our way on that issue?
    Dr. Stanley. Senator, I hadn't heard anything, I'm not sure 
if my colleagues have.
    Mr. Lamont. I've heard very little.
    Senator Chambliss. Okay.
    Mr. Lamont. But, as you say, the number one thing that we 
always look on something like that, of course, is the resource 
concerns----
    Senator Chambliss. Yes.
    Mr. Lamont.--as you are well aware.
    Senator Chambliss. Yes. Well, we'll continue to work that 
from our end.
    One other question. Secretary Lamont, I understand that the 
Vice Chief of Staff of the Army is currently hosting an online 
virtual conference regarding the future of the U.S. Army 
Officer Corps. The central premise behind this virtual 
conference is the recruitment and employment of talent within 
the Army. This sounds like a great idea, and a great way to 
look at the caliber of the young men and women who are--who 
make up our officer corps, from flag officers on down--could 
you give us any comment on that? Are any of the other Services 
doing something similar to this, or have plans for it?
    Mr. Lamont. Well, I understand the goal of what the Vice 
Chief is after, here. Our officer structure is not where we 
need it to be, given some of the demands that we've had over 
the past 8 or 9 years, and as we've moved to our modular 
rotational model in ARFORGEN, it has caused some fairly serious 
changes in how our officer structure is handled.
    I think there is an effort out there, particularly in the 
grades of major, for instance, or that--there are serious 
shortcomings there, in the numbers that we have available. I 
think these--through--what he is trying to do is look for any 
acceptable options and alternatives to how we identify our 
officer corps, and where we can move them within the structure 
that's available now, our other grade challenges, grade-plate 
challenges, that we have.
    Mr. Ginsberg. I'm not familiar with the program, but we 
work very closely with the Army. I'd love to reach out with my 
colleague, here, and learn more about it. Certainly provide 
some formal views to you.
    Senator Chambliss. Okay.
    Secretary Garcia, Secretary Stanley, anything going on in 
your branch, similar to this?
    Dr. Stanley. I'm not familiar with the program. I'm, in 
fact, learning about it as he's talking, Senator.
    Senator Chambliss. Yeah. Well, it does sound like a good 
idea, because everybody has the same issues, relative to the 
makeup of our officer corps. The Army and the Marine Corps, I 
guess, have a little bit different situation, just because 
you've been taxed more than anybody else, but it is an issue 
that sounds to me like it has a lot of merit to it, and I would 
encourage every branch to follow suit, there.
    Thank you, Mr. Chairman.
    Senator Webb. Thank you, Senator Chambliss.
    I'm going to ask a couple of service-specific questions, 
and then, Secretary Stanley, I'd like to ask you a series of 
questions.
    Let me say, I was a boxer for 8 years. You've been bobbing 
and weaving for an hour and 15 minutes, here. [Laughter.]
    So, I'm going to ask you a series of questions to sort of 
get us all looking forward, since you just came to this job and 
I just assumed the chairmanship. But, first, I want to put 
something in front of the Service Assistant Secretaries.
    There was an article in Military Times last week on 
prescription drug use in the military. I don't know if you all 
saw that article, or not. But, it pointed out that one in six 
servicemembers is on some form of psychiatric drug; 17 percent 
of the Active-Duty Force, and as much as 6 percent of the 
deployed troops are on antidepressants; and the use of 
psychiatric medications has increased about 76 percent since 
the start of these current wars.
    First, I would like to express my appreciation to Senator 
Cardin for having brought this issue to the attention of people 
here in the Senate. But, these statistics, quite frankly, are 
astounding to me. I'd like to know if--how familiar the three 
Assistant Secretaries are with this issue inside your 
departments, and what your thoughts are. Is this an indication 
of the overall fatigue of the force, with these constant 
deployments, or is it an indication of a different approach to 
medical treatment? Are we on top of this?
    I know that last year there was a provision in the Defense 
bill to require the Department to report on the administration 
and prescription of these drugs.
    But, Secretary Lamont, let me start with you. What are your 
thoughts on this?
    Mr. Lamont. Well, I'm not specifically aware of the article 
you're speaking about. I was TDY last week. However, I am well 
aware of the concerns we have with our pain management program. 
Those are the prescription drugs that we have found to have 
really crept into our system in much wider usage than we were 
ever aware of before.
    I'll also suggest to you, drugs like Oxycontin, I 
understand is used both in pain management and as an 
antidepressant. That's caused a number of concerns, because--
the fear that they may be prescribed by separate healthcare 
providers.
    What we have done to try to address the pain management 
side, what we found was, depending on where you went for 
treatment, there could be an entirely different model, if you 
would, of how pain is treated and how pain drugs are 
prescribed. There was no consistency there. So, with the 
various Services, we began a joint task force, this last fall, 
which is due to report, at any date now, on how we can come 
together with some kind of consistency in how we handle our 
pain management problem--pain management equals the drugs--and 
how we administer the proliferation of drugs in our military 
system.
    Our soldiers are coming back wounded, sore, injured, in 
need of rehab, and that's--perhaps the easy answer, early on, 
was pain-managed prescription. But, there are other means. We 
hope this joint task force report will come to grips with how 
we can provide some consistency, not just throughout the Army--
I mean, we found that every Army Medical Center was dealing 
with pain in altogether different ways, all individual to their 
situation. But, not an Army-wide program at all. I think, with 
this task force, we'll have the Services all together, and 
hopefully all in sync, of how we can address this growing 
problem.
    [Additional information supplied by Secretary Lamont 
follows:]

    Pain management has a significant behavioral health component, and 
drugs like Oxycontin and antidepressants may be simultaneously 
prescribed by different health care providers for better symptom 
management. While drugs like Oxycontin are used for pain management, 
what we have found is that pain has a strong behavioral health 
component requiring the addition of drugs like antidepressants for 
better symptom management. These prescription combinations are often 
managed by different health care providers. The issue of multiple-
prescribers exists in our health system and others. It concerns me that 
patients can receive different agents like narcotics and psychiatric 
drugs from different sources.

    Senator Webb. Secretary Garcia?
    Mr. Garcia. Senator, I'm familiar with the piece, and, as I 
understood it, it also posited, or suggested, that there were--
elicit drug use, to include in theater. We continue to drug 
test randomly across the fleet, forward-deployed and at home.
    On the prescription side, our Special Assistant for Health 
Affairs has initiated a working group, generated by the piece, 
to research this apparent spike, especially on the Marine side. 
That's where we are. All I can do is continue to keep you 
posted on the results.
    Senator Webb. Secretary Ginsberg.
    Mr. Ginsberg. Senator, I'm not familiar with the article, 
but I think you raise, obviously, a very important question 
about the extent of prescription drug use and whether this is 
an indicator of stress, or is this a new push to medicine? I'd 
very much like to get some concrete data from our surgeon-
general community, and would be more than happy to provide that 
to you.
    [The information referred to follows:]

    Thank you for the opportunity to address this concern regarding the 
health and well-being of our Air Force members and their use of 
psychotropic medications. Based upon this inquiry we made two distinct 
efforts to review psychopharmacology utilization data for our active 
duty servicemembers. The first data set we reviewed was provided by 
LCDR Joseph B. Lawrence, USN, MSC as the Deputy Director, Department of 
Defense (DOD) Pharmacoeconomic Center COR, DOD Pharmacy Operation 
Center. LCDR Lawrence's data pull from the Military Health System (MHS) 
Pharmacy Data Transaction Service (PDTS) demonstrated that in the U.S. 
Air Force active duty psychotropic drug prescriptions increased from 
58,102 annually in 2005 to 113,010 annually in 2009. The most notable 
increases related to use of stimulant and sleep medications. Stimulants 
prescriptions increased from 6,886 in 2005 to 11,522 in 2009. The 
number of prescriptions for sleep medication went from 33,175 in 2005 
to 64,166 in 2009. These two classes of psychotropic medications 
accounted for approximately 65 percent of the total prescription 
increase over this time period. While prescription sleep medications do 
carry a low risk of abuse, they are also highly effective and 
beneficial when used appropriately for short-term use to address the 
maintenance of health sleep patterns with international travel and 
fluctuating operational work schedules.
    The second data pull was provided by Air Force Medical Operations 
Agency, Michael Squires. Mr. Squires extracted data from the PDTS table 
in the M2 which resulted in all Air Force active duty servicemembers 
who had received a psychotropic prescription (including 
antidepressants) between October 2009 and March 2010. The number of 
unique Air Force servicemembers who had one or more prescriptions for 
any psychotropic medication, including controlled prescription pain 
medications during this 6 month period was 81,253 or 22 percent of the 
Active Force. When controlled prescription pain medications are 
removed, the number of unique servicemembers on a psychotropic 
medication changes to 48, 233. This reflects a calculated user 
prevalence rate during a 6 month period of 1 in 8, or 13 percent , of 
the Active-Duty Force for psychotropic medications. This figure is a 6-
month period prevalence; point prevalence on a specific day would be 
lower. Additionally, this data pull illustrated a utilization rate over 
a 6 month period of controlled pain medications as 51 for every 400 
servicemembers (12.75 percent), an antidepressant utilization rate of 
23 for every 500 servicemembers (4.6 percent), a sleep medication 
utilization rate of approximately 19 of every 421 servicemembers (4.4 
percent), a stimulant utilization rate of approximately 4 out of every 
425 servicemembers (0.94 percent), and an antipsychotic utilization 
rate of approximately 2 for every 1,000 servicemembers (0.2 percent).

    Senator Webb. I'd just say as an observation, one, we do 
have a really stressed, young force, because of these 
deployments. This is an indicator I think we really should be 
tracking very closely, with repeated deployments and these 
sorts of things.
    The other is, just purely as an observation, from looking 
at where they are deployed and the restriction of the use of 
alcohol, I would say it's--having been a journalist in 
Afghanistan before I started doing this, it is always rather 
ironic to me that, for reasons of comity with these other 
countries, we didn't allow our troops to use alcohol, but, I'll 
tell you, I was in a lot of villages in Afghanistan where 
everybody had their marijuana patch and their opium patch.
    The relief of stress on individuals is handled differently 
in different cultures, and that may be something you want to 
look into. It's a very troubling statistic, to me. I hope we 
can look at it, not simply medically, but in these other ways, 
as well.
    Secretary Ginsberg, can you give this subcommittee, some 
insight on this decision to provide aviation pay to nonrated 
pilots in the Remotely-Piloted Aircraft Program, what the 
justification is and--how does that fit into traditional 
definitions of flight pay, and those sorts of things?
    Mr. Ginsberg. Absolutely. Senator, the Air Force is meeting 
a very high demand to provide remotely-piloted aircraft--combat 
air patrols (CAPs) to our combatant command commander in 
Afghanistan and Iraq. We are currently providing 41 CAPs to the 
theater. We're working, by the end of fiscal year 2013, to 
provide 65 CAPs. What we're trying to do is develop a career 
field, where our airmen, who are providing this critical 
support to our forces on the ground, our brothers in the Marine 
Corps and the Army, as well as many are Air Force officers and 
enlisted on the ground, providing them this direct support. We 
want to make sure they can grow and develop.
    The incentive pays are a critical part of maintaining a 
robust pipeline of airmen who are operating these systems.
    Senator Webb. Under what category are they paid now?
    Mr. Ginsberg. I'm sorry?
    Senator Webb. Under what category are they being paid?
    Mr. Ginsberg. Well, this is an OSD-approved--under a--of 
course, the broad authority that Congress provides, under the--
it's the--it's aviation continuation-paylike pay, and it----
    Senator Webb. It's not called ``flight pay''?
    Mr. Ginsberg. It's not called ``flight pay,'' but it's a--
it's a different authority that we're providing under. This 
about just making--this--these officers and enlisted members 
are providing absolutely critical direct support to our forces 
on the ground, and we are putting tremendous stresses on them. 
Our crew ratios are not sufficient, at this point. They have a 
hard time getting leave, regular leave. We need to provide 
them--we're not giving them the opportunity to move to new 
assignments as flexibly as other career areas. We need to 
provide them pay and bonuses that will help make sure that this 
career field remains attractive.
    I went to Creech early in my tenure, to Creech Airfield, 
where we have a lot of our operators. It is absolutely 
astounding, what those airmen are doing to provide day-in and 
day-out support, truly lifesaving work.
    Senator Webb. Okay, thank you.
    Mr. Ginsberg. So, again, it's about making sure that they 
get the right pay--
    Senator Webb. I think that----
    Mr. Ginsberg.--and benefits that they deserve.
    Senator Webb. Secretary Stanley, I believe that this is a 
good time, with your coming in, to get a strong analytical look 
at how all of the special incentive pays, bonus pays, 
reenlistment pays, enlistment--how all of these fit together in 
a way that is beneficial to the people who are serving, and 
also to the efficiency of our programs.
    What I would like to do in a--rather than taking a great 
deal of time this morning, what I would like to do is to work 
with you and your staff to develop a matrix, so that we can 
fully understand what we're doing in these programs. I believe 
that the best way to address issues is, first, to assemble, 
clearly, the facts. So we are going to come to you with some 
questions about the incentive pays, the special pays, the 
reenlistment bonuses, the whole panorama, to get an 
understanding of how they are used, how many people are used, 
what the criteria are, how many of these are directed by 
Congress, how many of them are subject to the discretion of the 
implementers--your staff and the other----
    Dr. Stanley. Yes.
    Senator Webb.--Service departments--so that we can have a 
clear picture, as we move forward in these programs. I'm not 
sure of the last time that that's been done. I don't want to go 
through every one of these and ask for your justifications, but 
we're going to be having some questions. I don't want these to 
be considered questions for the record that are going to be 
answered----
    Dr. Stanley. Yes, sir.
    Senator Webb.--a month or 2 months. I really want to work 
on this so we can aggressively address it.
    There's a couple of other areas that I would like to get 
some feedback from you on. One of them, I'm sure you're 
familiar with, this mentor program that there were numerous 
articles, particularly USA Today, about where retired flag 
officers are getting up to $2,600 a day to come in and 
basically give advice. You know the situation, you're a retired 
flag. A retired four-star can be making in excess of $200,000 a 
year and then be working for a defense company, and then come 
in and be getting this sort of pay to give advice that, quite 
frankly, traditionally, has been a part of having worn the 
uniform, a sort of a continuing stewardship.
    So, there's a lot of questions, here in Congress, about how 
that reflects upon the dignity of Service, quite frankly. We 
want to get to the bottom of how that program is run.
    Then there's another area which relates to military 
fellowships, to think tanks. I would like to get some data on 
this with respect to the numbers of people who are involved in 
this and how taxpayer dollars are being spent, beyond regular 
military compensation, on areas that are called ``tuition'' for 
Active Duty military officers to go over and work on a think 
tank and not only be paid by the taxpayers for their regular 
military compensation, but actually being paid tens of 
thousands of dollars into these think tanks for this office 
space, et cetera. I don't think I have a full understanding of 
how this works, and we'd like to get specific data from you. 
Each Service may be doing it differently, but we'd like to 
assemble that data.
    With that, I thank all of you for your testimony, and look 
forward to working with you on a very close basis. Our door is 
open for any issues that you want to bring to the subcommittee, 
or to my office, personally.
    Thank you very much.
    Dr. Stanley. I appreciate that.
    Mr. Lamont. Thank you.
    Mr. Garcia. Thank you very much. [Pause.]
    Senator Webb. Our second panel will have members of the 
military coalition, a consortium of nationally prominent 
uniformed service and veteran organizations: Master Chief 
(Retired) Joseph Barnes, National Executive Director of the 
Fleet Reserve Association; Ms. Kathleen Moakler is the 
Government Relations Director of the National Military Family 
Association; Master Sergeant Michael Cline (Retired) is the 
Executive Director of the Enlisted Association of the National 
Guard of the United States; Ms. Deirdre Parke Holleman is the 
Executive Director of The Retired Enlisted Association; and 
Colonel Steven Strobridge (Retired) is the Director of 
Government Relations for the Military Officers Association of 
America.
    I mentioned earlier that we had two statements that would 
be put in the record. Probably more appropriate, they would be 
put in at this point rather than at the beginning of the 
hearing.
    [The joint prepared statement of the Reserve Officers 
Association and Reserve Enlisted Association follows:]
  Joint Prepared Statement by the Reserve Officers Association of the 
               United States Reserve Enlisted Association
                              introduction
    On behalf of our members, the Reserve Officers Association (ROA) 
and the Reserve Enlisted Association (REA) thank the committee for the 
opportunity to submit testimony on military personnel issues. ROA and 
REA applaud the ongoing efforts by Congress to address readiness, 
recruiting and retention as evidenced by incentives in several 
provisions included in the National Defense Authorization Act (NDAA) 
for Fiscal Year 2010.
                           executive summary
    The Reserve Officers Association Calendar Year 2010 Legislative 
Priorities are:

        <bullet> Reset the whole force to include fully funding 
        equipment and training for the National Guard and Reserves.
        <bullet> Assure that the Reserve and National Guard continue in 
        a key national defense role, both at home and abroad. Support 
        citizen warriors, families and survivors.
        <bullet> Provide adequate resources and authorities to support 
        the current recruiting and retention requirements of the 
        Reserves and National Guard.
        <bullet> Support warriors, families, and survivors.

    Issues supported by the Reserve Officers and Reserve Enlisted 
Associations are to:
Changes to retention policies:
        <bullet> Permit service beyond the current Reserve Officers 
        Personnel Management Act (ROPMA) limitations.
        <bullet> Support incentives for affiliation, reenlistment 
        retention and continuation in the Reserve component.
Education:
        <bullet> Increase MGIB-Selected Reserve (MGIB-SR) to 47 percent 
        of MGIB-Active.
        <bullet> Include 4-year reenlistment contracts to qualify for 
        MGIB-SR.
Mobilization:
        <bullet> Provide differential pay for deployed Federal 
        employees permanently.
        <bullet> Permit reservists the option of accumulating leave 
        between active duty orders, as well as selling it back.
Pay and Compensation:
        <bullet> Reimburse a Reserve component member for expenses 
        incurred in connection with round-trip travel in excess of 100 
        miles to an inactive training location, including mileage 
        traveled, lodging and subsistence.
        <bullet> Obtain professional pay for Reserve component medical 
        professionals, consistent with the Active component.
        <bullet> Eliminate the 1l/30th rule for Aviation Career 
        Incentive Pay. Career Enlisted Flyers Incentive Pay. Diving 
        Special Duty Pay. and Hazardous Duty Incentive Pay.
        <bullet> Simplify the Reserve duty order system without 
        compromising drill compensation.
Spouse Support:
        <bullet> Expand eligibility of surviving spouses to receive 
        Survivor Benefit Plan (SBP)-Dependency Indemnity Clause (DIC) 
        payments with no offset.
Health Care:
        <bullet> Improve continuity of health care for all drilling 
        reservists and their families by:

                <bullet> Monitoring the implementation of the 
                Department of Defense (DOD) paying a stipend toward 
                employers health care for dependents.
                <bullet> Allowing gray-area retirees to buy-in to 
                TRICARE by mid-2010.
                <bullet> Providing Continuing Health Benefit Plan to 
                traditional drilling reservists who are beneficiaries 
                of TRICARE Reserve Select but are separated from the 
                Selected Reserve to provide COBRA protections,
                <bullet> Permitting active members in the Individual 
                Ready Reserve (IRR) who qualify for a 20-year 
                retirement to buy-into TRICARE.
                <bullet> Allowing demobilized retirees and reservists 
                involuntarily returning to IRR to qualify for 
                subsidized TRS coverage,
                <bullet> Providing TRS coverage to mobilization ready 
                IRR members; levels of subsidy would vary for different 
                levels of readiness.
                <bullet> Improve post-deployment medical and mental 
                health evaluations of returning Reserve component 
                members.

        <bullet> Fund restorative dental care prior to mobilization.
        <bullet> Extend military coverage for restorative dental care 
        following deployment to 90 days.
        <bullet> Evaluate the Post-Deployment Medical Evaluation 
        process.
        <bullet> Encourage a discussion on health care costs between 
        Congress, DOD, and nonprofits.
        <bullet> Protect military and veteran's health care from 
        inclusion in national health legislation.
Voting:
        <bullet> Ensure that every deployed servicemember has an 
        opportunity to vote by:

                <bullet> Working with the Federal Voting Assistance 
                Program
                <bullet> Supporting electronic voting

        <bullet> Ensure that every military absentee ballot is counted.

    Only issues needing additional explanation are included below. 
Self-explanatory or issues covered by other testimony will not be 
elaborated upon, but ROA and REA can provide further information if 
requested.
                          readiness discussion
Operational versus strategic missions for the Reserve component:
    The Reserve Forces are no longer just a part-time strategic force 
but are an integral contributor to our Nation's operational ability to 
defend our soil, assist other countries in maintaining global peace, 
and fight in overseas contingency operations.
    National security demands both a Strategic and an Operational 
Reserve. The Operational Reserve requires a more significant investment 
of training and equipment resources, and places greater demands on its 
personnel as compared to the Strategic Reserve. Those serving in 
Operational Reserve units must be fully aware of the commitment 
required to maintain the expected level of readiness. A similar 
awareness and commitment is necessary for those responsible for 
providing resources to the Operational Reserve.
    Planners also must recognize that few individuals can remain in the 
operational Reserve for an entire career. There will be times when 
family, education, civilian career, and the other demands competing for 
their time and talents take priority. Such an approach requires the 
ability to move freely and without penalty between the operational and 
strategic elements of the Reserve component as a continuum of service.
    Each Service has its own force generation models and the Services 
organize, train, and equip their Reserve components to a prescribed 
level of readiness prior to mobilization to limit post-mobilization 
training and to maximize operational deployment time. ROA and REA urge 
Congress to continue to support and fund each Service's authority to 
manage the readiness of its own Reserve Forces as one model does not 
fit all.
    Congress can play an important role by requiring reports from 
Service leaders to ensure they have a plan for systematic augmentation, 
that the plan is adequately resourced, and that Reserve training and 
equipment will permit interoperability with the units they augment and 
reinforce. In an era of constrained budgets, a capable and sustainable 
Reserve and National Guard is a cost-effective element of national 
security.
Junior Officer and Enlisted Drain:
    As an initial obligated period draws to the end, many junior 
officers and enlisted choose to leave, creating a critical shortage of 
young people in the leadership conduit. This challenge has yet to be 
solved. ROA and the National Guard Education Foundation published a 
report suggesting solutions to the problem. Copies can be provided to 
the committee, or be found at http://www.roa.org/JO-shortage.
End Strength and Preparedness:
    It is noted that the only active service component to suffer cuts 
in the fiscal year 2011 proposed budget was the Coast Guard which will 
have a reduction of 1,100 personnel.
    The other Active components appear to maintain their end strengths 
with inclusion of temporary increases for the Army and the Navy. It 
should be remembered that individuals cannot be brought quickly on to 
active duly on a temporary basis, but it is an accumulation of 
experience and training that is acquired over years that becomes an 
asset for the military. Before cuts to the U.S. Coast Guard are made, 
ROA and REA hope that Congress requests a report from the U.S. Coast 
Guard, Department of Homeland Security, on the effect in the short and 
long term.
    Traditionally, it has been the Reserve component that has provided 
the temporary surge to fill-in the active duty numbers. The end 
strengths included in the President's budget appear to maintain current 
numbers. ROA and REA are concerned that the ongoing cuts to the Navy's 
Reserve will continue and this is a trend that needs to be reversed. A 
new manpower study needs to be done and published by the Navy Reserve 
to calculate the actual manning level: this study should be driven by 
readiness and not budgetary requirements.
    With pending withdrawals from Iraq and Afghanistan, there is 
already talk within the beltway about future cuts to military end 
strength to help offset rising deficits. Many blame the global war on 
terrorism for our current national debt, but part of high cost of the 
military is unpreparedness, and the bills borne by trying to create a 
force to match the need.
    Following World War I, Lieutenant General James Guthrie Harbord, 
USA, General John J. Pershing's chief of staff, was quoted in a 1922 
New York Times as saying. ``The size of our debt, incurred through 
unpreparedness, brings a demand for economy, and we continue 
unprepared. Thus unpreparedness brings the debt, and the debt continues 
unpreparedness.''
    Without external threats, the USA has traditionally reduced the 
size of its Armed Forces. But since the 1990s the Pentagon has 
recommended proportional cuts be taken in the Reserve component when 
taken in the Active Force. This reasoning fails in many ways. It 
results in a hollowing out of the force and preparedness, undermines 
morale, and undercuts retention. national security is put at risk. 
There is a need to maintain a national position of readiness, and the 
Reserve component is a cost-effective solution of being prepared. 
Should cuts be taken in the Active component, the Reserve component 
should grow in size to allow a place for readiness capability.
                          proposed legislation
Retirement
    ROA and REA again thank the committee for passing the early 
retirement benefit in the National Defense Authorization Act for Fiscal 
Year 2008, as a good first step toward changing the retirement 
compensation for serving Guard and Reserve members, but. . .
    Guard and Reserve members feel that with the change in the roles 
and missions of the Reserve component, their contracts have changed. 
Informal surveys keep indicating that earlier retirement remains a top 
issue asked for by guardsmen and reservists. They ask why so many Guard 
and Reserve members who have served in the global war on terrorism were 
excluded from the new benefit; they also ask why even earlier duty is 
not included: and if faced with the same risks as active duty, why 
there is a 20 year difference in access to retirement pay?
    1. ``ROA and REA'' endorse S.831. National Guard and Reserve 
Retired Pay Equity Act of 2009, which is a corrective measure to the 
National Defense Authorization Act for Fiscal Year 2008 including those 
Guard and Reserve members who have been mobilized since September 11, 
2001. Over 600,000 were unfairly excluded. We realize the expense of 
this corrective measure scored by CBO is $2.1 billion over 10 years, 
but hope that offset dollars can be found.
    2. ROA and REA don't view this congressional solution as the final 
retirement plan. The Commission on the National Guard and Reserve 
recommends that Congress should amend laws to place the Active and 
Reserve components into the same retirement system. Secretary of 
Defense Robert Gates refers to the Tenth Quadrennial Review of Military 
Compensation's comprehensive review of the military retirement systems 
for suggested reform. The latter report suggests a retirement pay equal 
to 2.5 percent of basic pay multiplied by the number of years of 
service.
    ROA and REA agree that a retirement plan, at least for the Reserve 
component, should be based on accruement of active and inactive duty. 
Early retirement should not be based on the type of service, but on the 
aggregate of duty. It shouldn't matter if a member's contributions were 
paid or non-paid; inactive duty, active duty for training, special 
works or for mobilization. Under a continuum of service, this approach 
would provide both the Active or Reserve component members with an 
element of personal control to determine when they retire and will 
encourage increased frequency of service beyond 20 years within the 
Reserve.
    3. An additional problem arises for O-4 officers who, after a break 
in service, have returned to the Reserve component. After being 
encouraged to return a number of officers find they are not eligible 
for nonregular retirement. When reaching 20 years of commissioned 
service they find they may have only 15 good Federal years. Current 
policy allows these individuals to have only 24 years of commissioned 
time to earn 20 good Federal years.
    4. With an ongoing shortage of mid-grade officers (O-2 to O-3), 
Congress should reexamine the DOPMA and ROPMA laws to permit O-3s 
without prior enlisted service to be able to retire at 20 years of 
service. Many of badly needed skills that the Services would like to 
retain, yet must be discharged if passed over for promotion to often.
    ROA urges Congress to make changes in U.S. Code to allow O-3s and 
O-4s with 14 to 15 good Federal years to remain on Active Duty or in 
the Reserve until they qualify for regular or non-regular retirement.
Education
    1. Montgomery ``GI'' Bill-Selected Reserve (MGJB-SR): To assist in 
recruiting efforts for the Marine Corps Reserve and the other uniformed 
services, ROA and REA urge Congress to reduce the obligation period to 
qualify for MGJB-SR (Section 1606) from 6 years in the Selected Reserve 
to 4 years in the Selected Reserve plus 4 years in the Individual Ready 
Reserve, thereby remaining a mobilization asset for 8 years.
    2. Extending MGIB-SR eligibility beyond Selected Reserve Status: 
Because of funding constraints, no Reserve component member will be 
guaranteed a full career without some period in a non-pay status. BRAC 
realignments are also restructuring the RC force and reducing available 
paid billets. Whether attached to a volunteer unit or as an individual 
mobilization augmentee, this status represents periods of drilling 
without pay. MGIB-SR eligibility should extend for 10 years beyond 
separation or transfer from a paid billet.
Leadership
    Both the Army and Air Force Reserve Chiefs may only be selected 
from general officers from that component's reserve, yet the Navy and 
the Marine Corps can select its Reserve leadership from either Active 
or Reserve flag officers. (U.S.C., title 10. section 3038 states that 
``The President, by and with the advice and consent of the Senate, 
shall appoint the Chief of Army Reserve from general officers of the 
Army Reserve . . .'' and section 8038 uses similar language for the 
appointment of the Chief of the Air Force Reserve, while U.S.C., title 
10, section 5143, only requires the President to appoint the Chief of 
Navy Reserve from flag officers of the Navy, and section 5144 only 
requires the President to appoint the Commander. Marine Forces Reserve, 
from general officers of the Marine Corps.) The Reserve Chief of a 
Service's Reserve should have an understanding of both the citizen 
warriors who are reporting to him or her, and the system through which 
the report. ROA urges Congress to change sections 5143 and 5144 of 
U.S.C., title 10 to only permit appointments from the Service's Reserve 
component.
Military Voting
    ROA thanks Congress for the improvements made to absentee voting in 
the fiscal year 2010 Defense Authorization. Military personnel, 
overseas citizens, and their families residing outside their election 
districts deserve every reasonable opportunity to participate in the 
electoral process. Yet, studies by Congressional Research Service show 
that 25 percent of military member and family votes were not counted in 
the 2008 election.
    ROA and REA urge Congress to direct the Government Accountability 
Office to report further on the effectiveness of absentee voting 
assistance to Military and Overseas Citizens for the 2010 General 
Election and determine how Federal Voting Assistance Program's efforts 
to facilitate absentee voting by military personnel and overseas 
citizens differed between the 2008 and 2010 national elections. ROA and 
REA also hopes Congress encourages the Secretary of Defense, in 
conjunction with States and local jurisdictions, to gather and publish 
national data about the 2010 election by voting jurisdiction on 
disqualified military and overseas absentee ballots and reasons for 
disqualification.
                         health care discussion
    1. ROA and REA hold concerns over the implementation of TRICARE for 
gray area retirees. Rear Admiral Christine S. Hunter has shared that 
enrollment could be as early as July or as late as November 2010, and 
that it might be regionally rolled out. DOD wants to treat Reserve gray 
area retirees as a separate health care risk group which will likely 
drive up the cost of health care premiums as well. ROA and REA hope 
that the committee will ask hard questions at a future hearing about 
the process, as individuals in the health care industry question the 
length of time and the approach being taken.
    2. Sustaining Reserve Health care. ROA and REA was disappointed to 
learn that Continued Health Care Benefit Plan is only allowed to 
members of the Selected Reserve if they have had a tour of active duty 
within the previous 18 months by DOD. This is denying COBRA protections 
for traditional reservists who haven't been activated, and even 
overlooks the Secretary of Defense's directive to mobilize National 
Guard and Reserve members 1 year out of 6, which would be a dwell time 
of 60 months between call-ups. There is little cost as the beneficiary 
pays a premium of 102 percent of TRICARE Cost.
    A continuity of health care is needed if a continuum of service is 
to be seriously considered. Just as an Active Force needs to be 
provided military health, the Reserve component needs to have a 
seamless health protection during different duty statuses. As even 
discharged active servicemembers have the benefit of the Continuing 
Health Care Benefit Plan, those Guard and Reserve members who have 
signed up for TRICARE Reserve Select need to have protections when they 
leave the Selected Reserve.
    ROA and REA encourage Congress to work with the Pentagon to open up 
Reserve component member access to the Continued Health Care Benefit 
Plan to any TRICARE Reserve Select beneficiary separating from the 
Selected Reserve under conditions that are not punitive in nature.
    3. Employer health care option: The ROA and REA continues to 
support an option for individual reservists where DOD pays a stipend to 
employers of deployed Guard and Reserve members to continue employer 
health care during deployment. Because TRICARE Prime or Standard is not 
available in all regions that are some distance from military bases it 
is an advantage to provide a continuity of health care by continuing an 
employer's health plan for the family members. This stipend would be 
equal to DOD's contribution to Active Duty TRICARE.
    4. Dental Readiness. Currently, dental readiness has one of the 
largest impacts on mobilization. The action by Congress in the NDAA for 
Fiscal Year 2010 was a good step forward, but still more needs to be 
done.
    In the first quarter of fiscal year 2009, the Army Reserve was 48.8 
percent dental class 1 or 2 Navy Reserve was 92.8 percent, Air Force 
Reserve 86.6 percent, Marine Corps Reserve 77 percent. Air Guard 91 
percent Army Guard 48.2 percent, and Coast Guard Reserve 83.2 percent.
    While there has been slight improvement since fiscal year 2007, the 
Army Reserve and Marine Corps Reserve have actually decreased their 
dental readiness which is due to large numbers of Class 4 
servicemembers. Regardless none of the Services have met the 95 percent 
dental readiness goal.
    The Services require a minimum of Class 2 (where treatment is 
needed, however no dental emergency is likely within 6 months) for 
deployment. Current policy relies on voluntary dental care by the Guard 
or Reserve member. Once alerted, dental treatment can be done by the 
military, but often times there isn't adequate time for proper 
restorative remedy.
    ROA and REA continues to suggest that the Services are responsible 
to restore a demobilized Guard or Reserve member to a Class 2 status to 
ensure the member maintains deployment eligibility.
    Because there are inadequate dental assets at Military Treatment 
Facilities for active members, active families, and reservists, ROA and 
REA further recommend that dental restoration be included as part of 
the 6 months Transitional Assistance Management Program (TAMP) period 
following demobilization. DOD should cover full costs for restoration, 
but it could be tied into the TRICARE Dental program for cost and 
quality assurance.
    5. TRICARE Health costs: ROA and REA applaud the efforts by 
Congress to address the issue of increasing Department of Defense 
health care costs and its interest to initiate dialogue and work with 
both the Pentagon and the beneficiary associations to find the best 
solution. The time has come to examine the cost of TRICARE and the 
level of beneficiary contribution.
    ROA and REA are committed to our membership to sustain this health 
care benefit. We fear that we will be unable to continue to sustain 
prohibitions on health care fees into the future. We need to work 
together to find a fair and equitable solution that protects our 
beneficiaries and ensures the financial viability of the military 
health care system for the future. Some associations seek to continue 
to a freeze on premium fees permanently; others are joining ROA and REA 
by admitting that some increases are necessary.
    ROA and REA endorse a tiered enrollment fee and congratulate the 
Task Force for developing one based on annual income. As most Guard and 
Reserve members retire at 25 to 30 percent of active duty retirement 
pay, it makes sense that G-R enrollment fees should be lower. ROA and 
REA do suggest that if enrollment fees are based on income that it be 
based just on military retirement income of Active and Reserve 
retirees.
    The ROA and REA do not endorse annual enrollment fees for 
individuals who don't use the TRICARE Standard plan. Eligibility should 
remain universal; a one-time administrative enrollment fee might be 
implemented with first use of the program.
    If TRICARE Standard enrollment fees are increased, Congress needs 
to review the recommended deductibles and current copayment levels. 
While TRICARE Prime is in the top 90 percent for cost generosity. 
TRICARE Standard is at a lower level of the spectrum of plan 
generosity.
    6. National Health Care Plan. ROA and REA are concerned that the 
national health care legislation does not include specific language 
that preserves military and veteran health care programs under separate 
authorities. While there have been verbal guarantees from congressional 
members and the President, getting the pledge in writing would curtail 
concerns.
                               conclusion
    ROA and REA reiterate our profound gratitude for the progress 
achieved by this committee by providing parity on pay and compensation 
between the Active and Reserve components, with the subcommittee also 
understanding the difference in service between the two components.
    ROA and REA look forward to working with the personnel subcommittee 
where we can present solutions to these and other issues, and offers 
our support in anyway.

    Senator Webb. Welcome, to all of you.
    I suppose we can start with Mr. Barnes and move to Mr. 
Strobridge.
    Welcome, sir.

    STATEMENT OF MASTER CHIEF JOSEPH L. BARNES, USN (RET.), 
    NATIONAL EXECUTIVE DIRECTOR, FLEET RESERVSE ASSOCIATION

    Mr. Barnes. Good morning, Mr. Chairman, Senator Graham, 
distinguished members of the subcommittee. Thank you for the 
opportunity to appear before you today.
    The Military Coalition's statement reflects the consensus 
of coalition organizations on a broad range of important 
personnel issues and extensive work by eight legislative 
committees, each comprised of representatives from the 
coalition's 34 military and veterans organizations.
    The five of us will address key issues important to the 
Active, Guard, and Reserve, retiree, and survivor communities, 
and military families, and will conclude healthcare concerns 
which impact everyone within these groups, including our 
magnificent wounded warriors.
    Before proceeding, I wish to thank you and the entire 
subcommittee and your outstanding staff for effective 
leadership and strong support of essential pay and benefit 
program enhancements, and particularly for programs to 
adequately care for our wounded warriors and their families.
    Adequate service end strengths are absolutely essential to 
success in Iraq and Afghanistan, and to sustaining other 
operations vital to our national security. The coalition 
strongly supports proposed Army and Navy end strength levels in 
2011. A recent Navy Times story titled ``Sailor Shortage'' 
cites too much work to do in the Navy and not enough people to 
do it, and lists the associated effects, which include little 
time for rest, fewer people to maintain and repair shipboard 
equipment, crew members with valuable skills being pulled for 
other jobs and not replaced, and lower material ship readiness.
    As referenced by the first panel, the strain of repeated 
deployments continues, and is also related to the adequacy of 
end strengths. Now we're tracking disturbing indicators of the 
effects, which include increasing drug and alcohol use, more 
mental healthcare appointments, alarming suicide rates, plus 
more military divorces. The unrelenting stress on 
servicemembers and their families is a serious and continuing 
concern that can lead to very serious morale, readiness, and 
retention challenges.
    Pay comparability remains a top priority, and the Coalition 
strongly supports the authorization of a 1.9-percent 2011 
Active Duty pay hike. We appreciate your past support for 
higher-than-ECI pay increases, which have collectively reduced 
the pay gap to 2.4 percent.
    Adequate funding for military recruiting efforts is 
important. During high retention periods, it's natural to look 
at reducing these accounts. However, sufficient resources are 
essential to ensuring continuing recruiting success. It's 
noteworthy that nearly three-quarters of the optimum 
recruiting-aged young people do not qualify for Military 
Service, and the Services must maximize efforts through our 
military recruiters to recruit optimum-quality personnel across 
the Armed Services.
    The coalition strongly supports the authorization to ship 
two personal vehicles in conjunction with PCS moves, along with 
long overdue increases in PCS mileage rates. We appreciate the 
distinguished Chairman's leadership on the enactment and 
implementation of the post-September 11 GI Bill and DOD 
policies on transferability options for personnel nearing 
retirement. However, technical corrections are still needed to 
ensure eligibility for members of the U.S. Public Health 
Service and NOAA Corps.
    Adequate programs, facilities, and support services for 
personnel impacted by BRAC actions, rebasing, and global 
repositioning is very important, particularly during wartime, 
which alone, results in significant stress on servicemembers 
and their families. The coalition notes with concern the 19-
plus-percent reductions in military construction and family 
housing accounts in the proposed 2011 budget request.
    Finally, the coalition remains committed to adequate 
funding to ensure access to the commissary benefit for all 
beneficiaries. This is an essential benefit, and the Defense 
Commissary Agency is to be commended for highly cost-effective 
management of 255 stores in 13 countries.
    Thank you again for the opportunity to present our 
recommendations.
    [The prepared statement of Mr. Barnes follows:]
    Prepared Statement by Master Chief Joseph L. Barnes, USN (Ret.)
                     the fleet reserve association
    The Fleet Reserve Association (FRA) is the oldest and largest 
enlisted organization serving active duty, Reserves, retired and 
veterans of the Navy, Marine Corps, and Coast Guard. It is 
Congressionally Chartered, recognized by the Department of Veterans 
Affairs (VA) as an accrediting Veteran Service Organization for claim 
representation and entrusted to serve all veterans who seek its help. 
In 2007, FRA was selected for full membership on the National Veterans' 
Day Committee.
    FRA was established in 1924 and its name is derived from the Navy's 
program for personnel transferring to the Fleet Reserve or Fleet Marine 
Corps Reserve after 20 or more years of active duty, but less than 30 
years for retirement purposes. During the required period of service in 
the Fleet Reserve, assigned personnel earn retainer pay and are subject 
to recall by the Secretary of the Navy.
    FRA's mission is to act as the premier ``watch dog'' organization 
in maintaining and improving the quality of life for Sea Service 
personnel and their families. FRA is a leading advocate on Capitol Hill 
for enlisted Active Duty, Reserve, retired and veterans of the Sea 
Services. The Association also sponsors a National Americanism Essay 
Program and other recognition and relief programs. In addition, the 
newly established FRA Education Foundation oversees the Association's 
scholarship program that presents awards totaling nearly $100,000 to 
deserving students each year.
    The Association is also a founding member of The Military Coalition 
(TMC), a 34-member consortium of military and veteran's organizations. 
FRA hosts most TMC meetings and members of its staff serve in a number 
of TMC leadership roles.
    FRA celebrated 85 years of service in November 2009. For over eight 
decades, dedication to its members has resulted in legislation 
enhancing quality of life programs for Sea Services personnel, other 
members of the uniformed services plus their families and survivors, 
while protecting their rights and privileges. CHAMPUS, now TRICARE, was 
an initiative of FRA, as was the Uniformed Services Survivor Benefit 
Plan. More recently, FRA led the way in reforming the REDUX Retirement 
Plan, obtaining targeted pay increases for mid-level enlisted 
personnel, and sea pay for junior enlisted sailors. FRA also played a 
leading role in advocating recently enacted predatory lending 
protections and absentee voting reform for servicemembers and their 
dependents.
    FRA's motto is: ``Loyalty, Protection, and Service.''
             certification of non-receipt of federal funds
    Pursuant to the requirements of House Rule XI, the FRA has not 
received any Federal grant or contract during the current fiscal year 
or either of the 2 previous fiscal years.
                                synopsis
    The FRA is an active participant and leading organization in The 
Military Coalition (TMC) and strongly supports the recommendations 
addressed in the more extensive TMC testimony prepared for this 
hearing. The intent of this statement is to address other issues of 
particular importance to FRA's membership and the Sea Services enlisted 
communities.
                              introduction
    Mr. Chairman, the FRA salutes you, members of the subcommittee, and 
your staff for the strong and unwavering support of programs essential 
to Active Duty, Reserve component, and retired members of the uniformed 
services, their families, and survivors. The subcommittee's work has 
greatly enhanced care and support for our wounded warriors and 
significantly improved military pay, and other benefits and enhanced 
other personnel, retirement and survivor programs. This support is 
critical in maintaining readiness and is invaluable to our uniformed 
services engaged throughout the world fighting the global war on 
terror, sustaining other operational commitments and fulfilling 
commitments to those who've served in the past.
                              health care
    Health care is exceptionally significant to all FRA shipmates 
regardless of their status and protecting and/or enhancing this benefit 
is the Association's top legislative priority. A recently released FRA 
survey indicates that nearly 90 percent of all Active Duty, Reserve, 
retired, and veteran respondents cited health care access as a 
critically important quality-of-life benefit associated with their 
military service. From 2006-2008 retirees under age 65 were targeted by 
DOD to pay significantly higher health care fees. Many of these 
retirees served before the recent pay and benefit enhancements were 
enacted and receive significantly less retired pay than those serving 
and retiring in the same pay grade with the same years of service 
today. Promises were made to them about health care for life in return 
for a career in the military with low pay and challenging duty 
assignments and many believe they are entitled to free health care for 
life.
    Efforts to enact a national health care reform coupled with 
inaccurate and widespread information on the associated impact on 
retiree health care benefits has created unease and a sense of 
uncertainty for our members. FRA opposes any effort to integrate 
TRICARE and VA health care into any national health care program and 
appreciates the exclusion of TRICARE and VA health care in the House 
version of the national health care proposal. Military and VA health 
care services are fundamental to military readiness and serve the 
unique needs of current and former servicemembers, their families and 
survivors. Merging these programs into a colossal bureaucracy designed 
to provide health care to all Americans would broaden their focus and 
reduce their effectiveness. That said, the Association is concerned 
about proposed Medicare spending cuts associated with reform 
initiatives which may negatively impact physician reimbursement rates 
and access to care for Medicare and TRICARE beneficiaries.
    FRA strongly supports Representatives Chet Edwards (TX) and Walter 
Jones (NC) legislation, ``The Military Retirees' Health Care Protection 
Act'' (H.R. 816) that would prohibit DOD from increasing TRICARE fees, 
specifying that the authority to increase TRICARE fees exists only in 
Congress.
    FRA thanks this subcommittee for resisting past efforts to shift 
increasing health care cost to beneficiaries and ensuring adequate 
funding for the Defense Health Program in order to meet readiness 
needs, fully fund TRICARE, and improve access for all beneficiaries 
regardless of age, status or location. Adequately funding health care 
benefits for all beneficiaries is part of the cost of defending our 
Nation.
                           concurrent receipt
    The Association appreciates President Obama's support for 
authorizing Chapter 61 retirees to receive their full military retired 
pay and veterans disability compensation and continues to seek timely 
and comprehensive implementation of legislation that authorizes the 
full concurrent receipt for all disabled retirees. The above referenced 
FRA survey indicates that more than 70 percent of military retirees 
cite concurrent receipt among their top priorities. The Association 
strongly supports the fiscal year 2011 budget request of $408 million 
to cover the first phase of the 5-year cost for concurrent receipt for 
Chapter 61 beneficiaries that are 90 percent or more disabled.
                            wounded warriors
    FRA appreciates the substantial Wounded Warriors legislation in the 
National Defense Authorization Act (NDAA) for Fiscal Year 2008. Despite 
jurisdictional challenges, considerable progress has been made in this 
area. However, the enactment of legislation is only the first step in 
helping wounded warriors. Effective oversight and sustained funding are 
also critical for successful implementation and FRA supports the 
following substantive changes:

        <bullet> Establish a permanent and independent office for the 
        DOD/VA Interagency program and expand it's authority to include 
        oversight of all components of achieving a true seamless 
        transition;
        <bullet> Authorizing full active duty TRICARE benefits, 
        regardless of accessibility of VA care, for 3 years after 
        medical retirement to help ease transition from DOD to VA;
        <bullet> Extend and make permanent the charter of the ``Special 
        Oversight Committee'' to ensure improved coordination with DOD 
        and VA initiatives to help wounded warriors;
        <bullet> Exempt severely wounded medically retired Medicare 
        part B premiums until age 65;
        <bullet> Providing up to 1 year of continuous habitation in 
        onbase housing facilities for medically retired, severely 
        wounded and their families;
        <bullet> Eliminate the servicemember's premium for the 
        Traumatic Servicemember Group Life Insurance;
        <bullet> Ensure the creation and full implementation of a joint 
        electronic health record that will help ensure a seamless 
        transition from DOD to VA for wounded warriors; and
        <bullet> Establishment of the Wounded Warriors Resource Center 
        as a single point of contact for servicemembers, their family 
        members, and primary care givers.

    Achieving an effective delivery system between DOD and VA to 
guarantee seamless transition and quality services for wounded 
personnel, particularly those suffering from Post Traumatic Stress 
Disorder and Traumatic Brain Injuries is very important to our 
membership. DOD should also make every effort to destigmatize mental 
health conditions that should include outreach, counseling, and mental 
health assessment for all servicemembers returning from the combat 
zone. Family support is also critical for success, and should include 
compensation, training, and certification, and respite care for family 
members functioning as full-time caregivers for wounded warriors. FRA 
supports ``The Caregivers and Veterans Omnibus Health Services Act''(S. 
1963), and parallel legislation to improve compensation, training and 
assistance for caregivers of severally disabled active-duty 
servicemembers.
                             suicide rates
    FRA is deeply concerned that more servicemembers have taken their 
own lives by November 2009 than have been killed in either the 
Afghanistan or Iraq wars. Congressional Quarterly reports that as of 
November 24, 334 servicemembers have committed suicide in 2009, 
compared with 297 killed in Afghanistan and 144 who died in Iraq. In 
response to this, Congress has significantly increased funding for 
mental health in the DOD and VA budgets that established a suicide 
hotline. DOD and VA also sponsor annual conferences on this issue. 
Jurisdictional challenges notwithstanding, it is critically important 
that Congress further respond and enhanced coordination between the 
Veterans Affairs and Armed Services Committees is key to addressing 
this. As of the above date the Army has had 211 of the 334 suicides, 
while the Navy had 47, the Air Force had 34 and the Marine Corps 
(active duty only) had 42. Increases in the number of suicides are not 
limited to active duty members only, the Department of Veterans Affairs 
(VA) has indicated that veterans suicides have also been increasing at 
an alarming rate.
         uniform services former spouses protection act reform
    The Association believes that the increasing divorce rates among 
active duty personnel and reservists is related to stress caused by 
repeated deployments in conjunction with 8 years of fighting a two-
front war. According to the Los Angeles Times, ``The 3.6 percent rate 
is a full percentage point above the 2.6 percent reported in late 2001, 
when the U.S. began sending troops to Afghanistan in response to the 
terrorist attacks. As in previous years, women in uniform suffered much 
higher divorce rates than their male counterparts--7.7 percent in 2009. 
An Army 2009 battlefield survey indicated that 22 percent of married 
soldiers were considering divorce, compared to 12.4 percent in 2003.'' 
\1\ The divorce rate for women in uniform is especially troubling, and 
these numbers do not take into account divorce rates for veterans. The 
FRA has long advocated introduction of legislation addressing the 
inequities of the Uniform Services Former Spouses Protection Act 
(USFSPA) and associated hearings on this issue. The Association 
believes that this law should be more balanced in its protection for 
both the servicemember and the former spouse.
---------------------------------------------------------------------------
    \1\ Associated Press, November 28, 2009, Divorce Rate Rises in 
Military, Los Angeles Times.
---------------------------------------------------------------------------
    The recommendations in the Department of Defense's (DOD) September 
2001 report, which assessed USFSPA inequities and offered 
recommendations for improvement is a good starting point for 
considering badly needed reform of this onerous law.
    Few provisions of the USFSPA protect the rights of the 
servicemember and none are enforceable by the Department of Justice or 
DOD. If a State court violates the right of the servicemember under the 
provisions of USFSPA, the Solicitor General will make no move to 
reverse the error. Why? Because the act fails to have the enforceable 
language required for Justice or the Defense Department to react. The 
only recourse is for the servicemember to appeal to the court, which in 
many cases gives that court jurisdiction over the member. Another 
infraction is committed by some State courts awarding a percentage of 
veterans' compensation to ex-spouses, a clear violation of U.S. law; 
yet, the Federal Government does nothing to stop this transgression.
    FRA believes Congress needs to take a hard look at the USFSPA with 
the intent to amend it so that the Federal Government is required to 
protect its servicemembers against State courts that ignore provisions 
of the act. Other provisions also weigh heavily in favor of former 
spouses. For example, when a divorce is granted and the former spouse 
is awarded a percentage of the servicemember's retired pay, this should 
be based on the member's pay grade at the time of the divorce and not 
at a higher grade that may be held upon retirement. The former spouse 
has done nothing to assist or enhance the member's advancements 
subsequent to the divorce; therefore, the former spouse should not be 
entitled to a percentage of the retirement pay earned as a result of 
service after the decree is awarded. Additionally, Congress should 
review other provisions considered inequitable or inconsistent.
                    adequate personnel end strength
    Insufficient end strength levels and the rigors of supporting 
Operations Iraqi Freedom and Enduring Freedom are having a negative 
impact on the quality of life of servicemembers which will ultimately 
lead to retention and recruitment challenges. FRA urges this 
distinguished subcommittee to ensure funding for adequate end strengths 
and people programs consistent with the Association's DOD funding goal 
of at least 5 percent of the gross domestic product for fiscal year 
2011.
                      active duty pay improvements
    Our Nation is at war and there is no more critical morale issue for 
active duty warriors than adequate pay. This is reflected in the more 
than 96 percent of active duty respondents to FRA's recent survey 
indicating that pay is ``very important.'' The Employment Cost Index 
(ECI) for fiscal year 2011 is 1.4 percent and based on statistics from 
15 months before the effective date of the proposed active duty pay 
increase. The Association appreciates the strong support from this 
distinguished subcommittee in reducing the 13.5 percent pay gap to the 
current level during the past decade. In addition, FRA notes that even 
with a fiscal year 2011 pay increase that is 0.5 percent above the ECI, 
the result will be the smallest pay hike since 1958. FRA urges the 
subcommittee to continue the increases at least 0.5 percent above the 
ECI until the remaining 2.4 percent pay gap is eliminated.
                        reserve early retirement
    The effective date of a key provision in the NDAA for Fiscal Year 
2008, the Reserve retirement age provision that reduces the age 
requirement by 3 months for each cumulative 90-days ordered to active 
duty is effective upon the enactment of the legislation and NOT 
retroactive to October 7, 2001. Accordingly the Association supports 
``The National Guardsmen and Reservists Parity for Patriots Act'' (H.R. 
208) sponsored by the subcommittee's ranking member Representative Joe 
Wilson (SC), to authorize reservists mobilized since October 7, 2001, 
to receive credit in determining eligibility for receipt of early 
retired pay. Since September 11, 2001 the Reserve component has changed 
from a Strategic Reserve to an Operational Reserve that now plays a 
vital role in prosecuting the war efforts and other operational 
commitments. This has resulted in more frequent and longer deployments 
impacting individual reservist's careers. Changing the effective date 
of the Reserve early retirement would help partially offset lost salary 
increases, lost promotions, lost 401K and other benefit contributions. 
The Association urges the subcommittee to support this important 
legislation.
                   paid-up survivor benefit annuities
    Under current law, retirees are no longer required to pay survivor 
benefit annuities (SBP) premiums after they have paid for 30 years and 
reach age 70. This is an inequity for those who may have entered the 
service at age 17 or 18 and will be required to pay for 33 or 32 years 
respectively until attaining paid-up SBP status. Therefore, FRA 
supports changing the minimum age for paid-up SBP from age 70 to age 67 
to ensure that those who joined the military at age 17, 18, or 19 and 
serve 20 years will only have to pay SBP premiums for 30 years.
              retention of final full month's retired pay
    FRA urges the subcommittee to authorize the retention of the full 
final month's retired pay by the surviving spouse (or other designated 
survivor) of a military retiree for the month in which the member was 
alive for at least 24 hours. FRA strongly supports ``The Military 
Retiree Survivor Comfort Act'' (H.R. 613), introduced by Rep. Walter 
Jones (NC) which addresses this issue.
    Current regulations require survivors of deceased military retirees 
to return any retirement payment received in the month the retiree 
passes away or any subsequent month thereafter if there is a processing 
delay. Upon the demise of a retiree, the surviving spouse is required 
to notify the Defense Finance and Accounting Service (DFAS) of the 
death. DFAS then stops payment on the retirement account, recalculates 
the final payment to cover only the days in the month the retiree was 
alive, forwards a check for those days to the surviving spouse or 
beneficiary. If not reported in a timely manner, DFAS recoups any 
payment(s) made covering periods subsequent to the retiree's death.
    The measure is related to a similar Department of Veterans Affairs 
policy. Congress passed a law in 1996 that allows a surviving spouse to 
retain the veteran's disability and VA pension payments issued for the 
month of the veteran's death. FRA believes military retired pay should 
be no different. This proposal is also in response to complaints from 
surviving spouses who were unaware of the notification requirement and 
those with joint bank accounts, in which retirement payments were made 
electronically, who gave little if any thought that DFAS could access 
the joint account and recoup overpayments of retirement pay. This 
action could easily clear the account of any funds remaining whether 
they were retirement payments or money from other sources.
    To offset some of the costs, if the spouse is entitled to SBP on 
the retiree's death, there will be no payment of the annuity for the 
month the retirement payment is provided the surviving spouse.
                   mandate travel cost reimbursement
    FRA appreciates the NDAA for Fiscal Year 2008 provision (section 
631) that permits travel reimbursement for reservist's weekend drills, 
not to exceed $300, if the commute is outside the normal commuting 
distance. The Association urges the subcommittee to make this a 
mandatory provision. This is a priority issue with many enlisted 
reservists who are forced to travel lengthy distances to participate in 
weekend drills without reimbursement for travel costs. Providing this 
travel reimbursement would assist with retention and recruitment for 
the Reserves--something particularly important to increased reliance on 
these personnel in order to sustain our war and other operational 
commitments.
                            family readiness
    Military deployments create unique stresses on families due to 
separation, uncertainties of each assignment and associated dangers of 
injury or death for the deployed servicemember. Further, adapting to 
new living arrangements and routines adds to the stress, particularly 
for children.
    Fortunately men and women in uniform continue to answer the calls 
to support repeated deployments--but only at a cost of ever-greater 
sacrifices for them and their families. Now more than ever before the 
support of their families is essential to enduring the mounting 
stresses of the war effort and other operational commitments. This 
stress has resulted in doubling the number of outpatient mental health 
visits (1 million in 2003 to 2 million in 2008) for children with an 
active duty parent.\2\ It's most important that DOD and the military 
services concentrate on providing programs for the families of our 
servicemembers. DOD should improve programs to assist military families 
with deployment readiness, responsiveness, and reintegration. There are 
a number of existing spousal and family programs that have been fine 
tuned and are successfully contributing to the well-being of this 
community. The Navy's Fleet and Family Centers and the Marines' Marine 
Corps Community Services and Family Services programs are providing 
comprehensive, 24/7 information and referral services to the 
servicemember and family through its OneSource links. OneSource is 
particularly beneficial to mobilized reservists and families who are 
unfamiliar with varied benefits and services available to them.
---------------------------------------------------------------------------
    \2\ Military.Com More Troops' Kids Seeking Counseling Associated 
Press, July 8, 2009
---------------------------------------------------------------------------
    It's true that ``the servicemember enlists in the military 
service--but it's the family that reenlists.'' To ensure the family 
opts for a uniformed career, the family must be satisfied with life in 
the military.
                               conclusion
    FRA is grateful for the opportunity to present these 
recommendations to this distinguished subcommittee. The Association 
reiterates its profound gratitude for the extraordinary progress this 
subcommittee has made in advancing a wide range of military personnel 
and retiree benefits and quality-of-life programs for all uniformed 
services personnel and their families and survivors. Thank you again 
for the opportunity to present the FRA's views on these critically 
important topics.

    Senator Webb. Thank you very much, Mr. Barnes.
    Ms. Moakler, welcome.

    STATEMENT OF KATHLEEN B. MOAKLER, GOVERNMENT RELATIONS 
         DIRECTOR, NATIONAL MILITARY FAMILY ASSOCIATION

    Ms. Moakler. Thank you. Chairman Webb, Senator Graham, 
thank you for the opportunity to speak today on behalf of 
military families, our Nation's military families.
    Many families are facing their ninth year of deployment, 
many have dealt with multiple deployments. We have second-
graders who have only known a lifestyle with a parent absent 
from their lives for months at a time, over and over again. We 
appreciate the many initiatives and programs supported by this 
subcommittee in the past. Military OneSource, increased 
benefits and support for surviving families, and the Yellow 
Ribbon Program are just a few. We have expanded access to 
mental health counseling across components, although the need 
continues to grow.
    Now military families expect these programs. They have 
become part of the overall fabric of family readiness. The 
challenge that now faces us is making sure that our family 
readiness programs receive sustained funding and continue to be 
included in the annual budget process. As the war has 
progressed, family readiness requirements have evolved. Some 
new programs have been initiated without evaluating already 
existing programs to see how they might have been adapted.
    The congressionally-mandated Military Family Readiness 
Council has begun an evaluation process. We endorse this 
process and hope that it will result in the elimination of 
repetitive or redundant programs. Existing programs can be 
improved, such as adding provisions for travel for family 
members participating in the Reserve-component Yellow Ribbon 
Program.
    With budget cuts and shortfalls looming, we should not 
randomly reduce funding to family programs, across the board. 
As redundant programs are identified, their elimination can add 
to efficiencies. Servicemembers and their families cite MWR 
programs, like gyms, libraries, and other installation-provided 
services, as important to their well-being during deployments. 
Substantial cuts to these programs make them wonder why 
Services talk about support, yet often cut or reduce the same 
programs that are identified as the most important by our 
families.
    One of the ways to evaluate the efficacy of programs is 
research. Our Association has spoken, for several years, 
concerning research into the effects of continuing deployments 
on our most vulnerable population: our military children. We 
appreciate the inclusion of a provision calling for a study in 
last year's NDAA. In May 2008, we commissioned the RAND 
Corporation to do a longitudinal study on the experience of 
1,500 families. Over the course of a year, RAND interviewed 
both the nondeployed caregiver parent and one child per family 
between the ages of 11 and 17. We addressed two key questions: 
How are school-aged children faring? What types of issues do 
military children face, related to deployment?
    The baseline findings were published in the January issue 
of the Journal of Pediatrics. The study found, as the months of 
parental deployment increased, so did the child's challenges. 
The total number of months away mattered more than the number 
of deployments. Older children experienced more difficulties 
during deployment, and there is a direct correlation between 
the mental health of the caregiver and the well-being of the 
child. It was interesting to note that in the initial findings, 
there were no differences in results between Service or 
components.
    What are the implications? Families facing longer 
deployments need targeted support, especially for older teens 
and girls. Supports need to be in place across the entire 
deployment cycle, including reintegration, and some nondeployed 
parents may need targeted mental health support.
    We still hear about needs for childcare. While most 
traditional childcare needs are being met, innovative 
strategies for after-hours care and respite care should be 
explored. These strategies need to be implemented across the 
Services, as well. Drop-in care for medical appointments, 
either at the Center for Disease Control or at the military 
treatment facility itself, can go a long way in improving 
access to care and eliminating missed appointments.
    I, too, must bring up the MyCAA Program, with an underline 
and an exclamation point. Several years ago, Congress mandated 
DOD create a program to promote portable careers for military 
spouses. The result was a very popular MyCAA program. Recent 
numbers indicate that 98,000 spouses already are enrolled in 
the program, an additional 38,000 have applied but have not yet 
completed the process. Unfortunately, DOD, as we have heard 
today, has recently had to suspend the program. We have heard, 
from many concerned military spouses using the MyCAA program, 
about the loss of funding for courses in which they were 
enrolled, and how they are scrambling to come up with the funds 
to continue, be it for an individual course that they are 
taking online or a semester.
    But, I think what bothered them the most was the way the 
notification was handled. There was no advance notification, 
information was sent via a press release. This, when the 
program was in possession of everyone's email address. Many 
view this as one more frustration in 8 long years of 
frustrations.
    The program may be a victim of its own success. We are 
unsure as to whether it was the lack of funds or an application 
overload, or both, that caused the suspension. We ask that the 
program be resumed as soon as possible, and that it be properly 
funded.
    We thank you for your support of our servicemembers and 
their families. We urge you to remember their service as you 
work to resolve the many issues facing our country. Working 
together, we can improve the quality of life for all these 
families.
    Thank you, and I await your questions.
    [The prepared statement of Ms. Moakler follows:]
               Prepared Statement by Kathleen B. Moakler
    Chairman Webb and distinguished members of the subcommittee, the 
National Military Family Association would like to thank you for the 
opportunity to present testimony on the quality of life of military 
families--the Nation's families. As the war has continued, the quality 
of life of our servicemembers and their families has been severely 
impacted. Your recognition of the sacrifices of these families and your 
response through legislation to the increased need for support have 
resulted in programs and policies that have helped sustain our families 
through these difficult times.
    We endorse the recommendations contained in the statement submitted 
by The Military Coalition. In this statement, our Association will 
expand on several issues of importance to military families:

          I. Family Readiness
          II. Family Health
          III. Family Transitions
                          i. family readiness
    The National Military Family Association believes policies and 
programs should provide a firm foundation for families buffeted by the 
uncertainties of deployment and transformation. It is imperative full 
funding for these programs be included in the regular budget process 
and not merely added on as part of supplemental funding. We promote 
programs that expand and grow to adapt to the changing needs of 
servicemembers and families as they cope with multiple deployments and 
react to separations, reintegration, and the situation of those 
returning with both visible and invisible wounds. Standardization in 
delivery, accessibility, and funding are essential. Programs should 
provide for families in all stages of deployment and reach out to them 
in all geographic locations. Families should be given the tools to take 
greater responsibility for their own readiness.
    We appreciate provisions in the National Defense Authorization Acts 
and Appropriations legislation in the past several years that 
recognized many of these important issues. Excellent programs exist 
across the Department of Defense (DOD) and the Services to support our 
military families. There are redundancies in some areas, and times when 
a new program was initiated before looking to see if an existing 
program could be adapted to answer an evolving need. Servicemembers and 
their families are continuously in the deployment cycle, anticipating 
the next separation, in the throes of deployment, or trying to 
reintegrate after the servicemember returns. Dwell times seem shorter 
and shorter as training, schools, and relocation impede on time that is 
spent in the family setting.
    ``My husband will have 3 months at home with us between deployment 
and being sent to school in January for 2 months and we will be PCSing 
soon afterwards. . . . This does not leave much time for reintegration 
and reconnection.''--Army Spouse
    We feel that now is the time to look at best practices and at those 
programs that are truly meeting the needs of families. In this section 
we will talk about existing programs, highlight best practices, and 
identify needs.
Child Care
    At every military family conference we attended last year, child 
care was in the top five issues affecting families--drop-in care being 
the most requested need. Some installations are responding to these 
needs in innovative ways. For instance, in a recent visit to Kodiak, 
Alaska, we noted the gym facility provided watch care for its patrons. 
Mom worked out on the treadmill or elliptical while her child played in 
a safe carpeted and fenced-in area right across from her. Another area 
of the gym, previously an aerobics room, had been transformed into a 
large play area for ``Mom and me'' groups to play in the frequently 
inclement weather. These solutions aren't expensive but do require 
thinking outside the box.
    Innovative strategies are needed to address the non-availability of 
after-hours child care (before 6 a.m. and after 6 p.m.) and respite 
care. We applaud the partnership between the Services and the National 
Association of Child Care Resource and Referral Agencies that provides 
subsidized child care to families who cannot access installation based 
child development centers. We also appreciate the new SitterCity.com 
contract that will help military families find caregivers and military 
subsidized child care providers.
    Still, families often find it difficult to obtain affordable, 
quality care especially during hard-to-fill hours and on weekends. Both 
the Navy and the Air Force have programs that provide 24/7 care. These 
innovative programs must be expanded to provide care to more families 
at the same high standard as the Services' traditional child 
development programs. The Army, as part of the funding attached to its 
Army Family Covenant, has rolled out more space for respite care for 
families of deployed soldiers. Respite care is needed across the board 
for the families of the deployed and the wounded, ill, and injured. We 
are pleased the Services have rolled out more respite care for special 
needs families, but since the programs are new we are unsure of the 
impact it will have on families. We are concerned, however, when we 
hear of some installations already experiencing shortfalls of funding 
for respite care early in the year.
    At our Operation Purple* Healing Adventures camp for families of 
the wounded, ill, and injured, families told us there is a tremendous 
need for access to adequate child care on or near military treatment 
facilities. Families need the availability of child care in order to 
attend medical appointments, especially mental health appointments. Our 
Association encourages the creation of drop-in child care for medical 
appointments on the DOD or VA premises or partnerships with other 
organizations to provide this valuable service.
    We appreciate the requirement in the National Defense Authorization 
Act for Fiscal Year 2010 calling for a report on financial assistance 
provided for child care costs across the Services and components to 
support the families of those servicemembers deployed in support of a 
contingency operation and we look forward to the results.
    Our Association urges Congress to ensure resources are available to 
meet the child care needs of military families to include hourly, drop-
in, and increased respite care across all Services for families of 
deployed servicemembers and the wounded, ill, and injured, as well as 
those with special needs family members.
Working with Youth
    Older children and teens must not be overlooked. School personnel 
need to be educated on issues affecting military students and must be 
sensitive to their needs. To achieve this goal, schools need tools. 
Parents need tools, too. Military parents constantly seek more 
resources to assist their children in coping with military life, 
especially the challenges and stress of frequent deployments. Parents 
tell us repeatedly they want resources to ``help them help their 
children.'' Support for parents in their efforts to help children of 
all ages is increasing, but continues to be fragmented. New Federal, 
public-private initiatives, increased awareness, and support by DOD and 
civilian schools educating military children have been developed. 
However, many military parents are either not aware such programs exist 
or find the programs do not always meet their needs.
    Our Association is working to meet this pressing need through our 
Operation Purple* Summer Camps. Unique in its ability to reach out and 
gather military children of different age groups, Services, and 
components, our Operation Purple program provides a safe and fun 
environment in which military children feel immediately supported and 
understood. Now in our seventh year, we have sent more than 30,000 
children to camp for free with the support of private donors. This 
year, we expect to send another 10,000 children to camp at 67 locations 
in 34 States and Guam, and Germany. We also provided the camp 
experience to families of the wounded. In 2009, we introduced a new 
program under our Operation Purple umbrella, offering family 
reintegration retreats in the national parks. They have been well 
received by our families and more apply than can attend. We are 
offering 10 retreats this year.
    Through our Operation Purple camps, our Association has begun to 
identify the cumulative effects multiple deployments are having on the 
emotional growth and well being of military children and the challenges 
posed to the relationship between deployed parent, caregiver, and 
children in this stressful environment. Understanding a need for 
qualitative analysis of this information, we commissioned the RAND 
Corporation to conduct a pilot study in 2007 aimed at the current 
functioning and wellness of military children attending Operation 
Purple camps and assessing the potential benefits of the Operation 
Purple program in this environment of multiple and extended 
deployments.
    In May 2008, we embarked on phase two of the project--a 
longitudinal study on the experience of 1,507 families, which is a much 
larger and more diverse sample than included in our pilot study. RAND 
followed these families for 1 year, and interviewed the nondeployed 
caregiver/parent and one child per family between 11 and 17 years of 
age at three time points over the year. Recruitment of participants was 
extremely successful because families were eager to share their 
experiences. The research addressed two key questions:

          How are school-age military children faring?
          What types of issues do military children face related to 
        deployment?

    In December, the baseline findings of the research were published 
in the journal Pediatrics. Findings showed:

        <bullet> As the months of parental deployment increased, so did 
        the child's challenges.
        <bullet> The total number of months away mattered more than the 
        number of deployments.
        <bullet> Older children experienced more difficulties during 
        deployment.
        <bullet> There is a direct correlation between the mental 
        health of the caregiver and the well-being of the child.
        <bullet> Girls experienced more difficulty during 
        reintegration, the period of months readjusting after the 
        servicemember's homecoming.
        <bullet> About one-third of the children reported symptoms of 
        anxiety, which is somewhat higher than the percentage reported 
        in other national studies of children.
        <bullet> In these initial findings, there were no differences 
        in results between Services or components.

    What are the implications? Families facing longer deployments need 
targeted support--especially for older teens and girls. Supports need 
to be in place across the entire deployment cycle, including 
reintegration, and some nondeployed parents may need targeted mental 
health support. One way to address these needs would be to create a 
safe, supportive environment for older youth and teens. Dedicated Youth 
Centers with activities for our older youth would go a long way to help 
with this. Our Association, as an outgrowth of the study results, will 
be holding a summit in early May, where we will be engaging with 
experts to isolate action items that address the issues surfaced in the 
study. We will be happy to share these action items with you.
    Our Association feels that more dedicated resources, such as youth 
or teen centers, would be a first step toward addressing the needs of 
our older youth and teens during deployment.
Families Overseas
    Families stationed overseas face increased challenges when their 
servicemember is deployed into theater. One such challenge we have 
heard from families stationed in EUCOM concerns care for a family 
member, usually the spouse, who may be injured or confined to bed for 
an extended illness during deployment. Instead of pulling the 
servicemember back from theater, why not provide transportation for an 
extended family member or friend to come from the States to care for 
the injured or ill family member? This was a recommendation from the 
EUCOM Quality of Life conference for several years.
    Our Association asks that transportation be provided for a 
designated caregiver to an overseas duty station to care for an 
incapacitated spouse when a servicemember is deployed.
Military Housing
    In the recent RAND study of military children on the home front 
commissioned by our Association, researchers found that living in 
military housing was related to fewer caregiver reported deployment-
related challenges. For instance, fewer caregivers who lived in 
military housing reported that their children had difficulties 
adjusting to parent absence (e.g., missing school activities, feeling 
sad, not having peers who understand what their life is like) as 
compared to caregivers who needed to rent their homes. In a subsequent 
survey, the study team explored the factors that determine a military 
family's housing situation in more detail. Among the list of potential 
reasons provided for the question, ``Why did you choose to rent?'' 
researchers found that the top three reasons parents/caregivers cited 
for renting included: military housing was not available (31 percent); 
renting was most affordable (28 percent), and preference to not invest 
in the purchase of a home (26 percent).
    Privatized housing expands the opportunity for families to live on 
the installation and is a welcome change for military families. We are 
pleased with the annual report that addresses the best practices for 
executing privatized housing contracts. As privatized housing evolves 
the Services are responsible for executing contracts and overseeing the 
contractors on their installations. With more joint basing, more than 
one Service often occupies an installation. The Services must work 
together to create consistent policies not only within their Service 
but across the Services as well. Pet policies, deposit requirements, 
and utility polices are some examples of differences across 
installations and across Services. How will Commanders address these 
variances as we move to joint basing? Our families face many 
transitions when they move, and navigating the various policies and 
requirements of each contractor is frustrating and confusing. It's time 
for the Services to increase their oversight and work on creating 
seamless transitions by creating consistent policies across the 
Services.
    We are pleased the NDAA for Fiscal Year 2010 calls for a report on 
housing standards and housing surveys used to determine the Basic 
Allowance for Housing (BAH) and hope Congress will work to address BAH 
inequities.
    Privatized housing is working! We ask Congress to consider the 
importance of family well-being as a reason for expanding the amount of 
privatized housing for our military families.
Commissaries and Exchanges
    The commissary is a vital part of the compensation package for 
servicemembers and retirees, and is valued by them, their families, and 
survivors. Our surveys indicate that military families consider the 
commissary one of their most important benefits. In addition to 
providing average savings of more than 30 percent over local 
supermarkets, commissaries provide a sense of community. Commissary 
shoppers gain an opportunity to connect with other military families, 
and are provided with information on installation programs and 
activities through bulletin boards and publications. Commissary 
shoppers also receive nutritional information through commissary 
promotions and campaigns, as well as the opportunity for educational 
scholarships.
    Our Reserve component families have benefited greatly from the 
addition of case lot sales. We thank Congress again for the provision 
allowing the use of proceeds from surcharges collected at these sales 
to help defray their costs. Not only have these case lot sales been 
extremely well received and attended by family members not located near 
an installation, they have extended this important benefit to our 
entire military community.
    Our Association continues to be concerned that there will not be 
enough commissaries to serve areas experiencing substantial growth, 
including those locations with servicemembers and families relocated by 
BRAC. The surcharge was never intended to pay for DOD and Service 
transformation. Additional funding is needed to ensure commissaries are 
built or expanded in areas that are gaining personnel as a result of 
these programs.
    Our Association believes that additional funding is needed to 
ensure commissaries are built or expanded in areas that are gaining 
personnel due to BRAC and transformation.
    The military exchange system, like the commissary, provides 
valuable cost savings to members of the military community, while 
reinvesting their profits in essential Morale, Welfare and Recreation 
(MWR) programs. Our Association strongly believes that every effort 
must be made to ensure that this important benefit and the MWR revenue 
is preserved, especially as facilities are down-sized or closed 
overseas. In addition, exchanges must continue to be responsive to the 
needs of deployed servicemembers in combat zones and have the right mix 
of goods at the right prices for the full range of beneficiaries.
    As a member of the Defense Commissary Patron Council and a strong 
proponent of the military exchange system, our Association remains 
committed to protecting commissary and exchange benefits which are 
essential to the quality of life of our servicemembers, retirees, 
families and survivors.
Flexible Spending Accounts
    We would like to thank Members of Congress for the Sense of 
Congress on the establishment of Flexible Spending Accounts for 
uniformed servicemembers. We hope this subcommittee will press each of 
the seven Service Secretaries to establish these important pre-tax 
savings accounts in a consistent manner. Flexible Spending Accounts 
would be especially helpful for families with out-of-pocket dependent 
care and health care expenses. We ask that the flexibility of a 
rollover or transfer of funds to the next year be considered.
Financial Readiness
    Financial readiness is a critical component of family readiness. 
Our Association applauds DOD for tackling financial literacy head-on 
with their Financial Readiness Campaign. Financial literacy and 
education must continue to be on the forefront. We are strong 
supporters of the Military Lending Act (MLA) and hope Congress will 
press States to enforce MLA regulations within their State borders. 
With the depressed economy, many families may turn to payday lenders. 
DOD must continue to monitor the MLA and its effectiveness of derailing 
payday lenders.
    Military families are not immune from the housing crisis. We 
applaud Congress for expanding the Homeowners' Assistance Program to 
wounded, ill, and injured servicemembers, survivors, and servicemembers 
with Permanent Change of Station orders meeting certain parameters. We 
have heard countless stories from families across the Nation who have 
orders to move and cannot sell their home. Due to the mobility of 
military life, military homeowners must be prepared to be a landlord. 
We encourage DOD to continue to provide financial education to military 
servicemembers and their families to help families make sound financial 
decisions. We also encourage DOD to continue to track the impact of the 
housing crisis on our military families.
    We appreciate the increase to the Family Separation Allowance (FSA) 
that was made at the beginning of the war. In more than 8 years, 
however, there has not been another increase. We ask that the FSA be 
indexed to the Cost of Living Allowance (COLA) to better reflect rising 
costs for services.
    Increase the Family Separation Allowance by indexing it to COLA.
                           ii. family health
    Family readiness calls for access to quality health care and mental 
health services. Families need to know the various elements of their 
military health system are coordinated and working as a synergistic 
system. Our Association is concerned the DOD military health care 
system may not have all the resources it needs to meet both the 
military medical readiness mission and provide access to health care 
for all beneficiaries. It must be funded sufficiently, so the direct 
care system of Military Treatment Facilities (MTFs) and the purchased 
care segment of civilian providers can work in tandem to meet the 
responsibilities given under the TRICARE contracts, meet readiness 
needs, and ensure access for all military beneficiaries.
Military Health System
    Improving Access to Care
    In the question and answer period during a hearing of this 
subcommittee on June 3, 2009, Senator Lindsey Graham (R-SC) asked panel 
members to ``give a grade to TRICARE.'' Panel members rated TRICARE a 
``B'' or a ``C minus.'' Our Association's Director of Government 
Relations stated it was a two-part question and assigned a grade of 
``B'' for quality of care and ``C-'' for access to care. We welcomed 
this discussion focused on access issues in the direct care system--our 
military hospitals and clinics--reinforcing what our Association has 
observed for years. We have consistently heard from families that their 
greatest health care challenge has been getting timely care from their 
local military hospital or clinic.
    Our Association continues to examine military families' experiences 
with accessing the Military Health System (MHS). Families' main issues 
are: access to their Primary Care Managers (PCM); getting someone to 
answer the phone at central appointments; having appointments available 
when they finally got through to central appointments; after hours 
care; getting a referral for specialty care; being able to see the same 
provider or PCM; and having appointments available 60, 90, and 120 days 
out in our MTFs for follow-ups recommended by their providers. Families 
familiar with how the MHS referral system works seem better able to 
navigate the system. Those families who are unfamiliar report delays in 
receiving treatment or sometimes decide to give up on the referral 
process and never obtain a specialty appointment. Continuity of care is 
important to maintain quality of care. The MTFs are stressed from 8 
years of provider deployments, directly affecting the quality of care 
and contributing to increased costs. Our Association thanks Congress 
for requiring, in the NDAA for Fiscal Year 2009, a report on access to 
care and we look forward to the findings. This report must distinguish 
between access issues in the MTFs, as opposed to access in the civilian 
TRICARE networks.
    Our most seriously wounded, ill, and injured servicemembers, 
veterans, and their families are assigned case managers. In fact, there 
are many different case managers: Federal Recovery Coordinators (FRC), 
Recovery Care Coordinators, coordinators from each branch of Service, 
TBI care coordinators, VA liaisons, et cetera. The goal is for a 
seamless transition of care between and within the two governmental 
agencies, DOD and the VA. However, with so many coordinators to choose 
from, families often wonder which one is the ``right'' case manager. We 
often hear from families, some whose servicemember has long been 
medically retired with a 100 percent disability rating or others with 
less than 1 year from date-of-injury, who have not yet been assigned a 
FRC. We need to look at whether the multiple, layered case managers 
have streamlined the process, or have only aggravated it. Our 
Association still finds families trying to navigate alone a variety of 
complex health care systems, trying to find the right combination of 
care. Individual Service wounded, ill, and injured program directors 
and case managers are often reluctant to inform families that FRCs 
exist or that the family qualifies for one. Many qualify for and use 
Medicare, VA, DOD's TRICARE direct and purchased care, private health 
insurance, and State agencies. Why can't the process be streamlined?
    Support for Special Needs Families
    Case management for military beneficiaries with special needs is 
not consistent because the coordination of the military family's care 
is being done by a non-synergistic health care system. Beneficiaries 
try to obtain an appointment and then find themselves getting partial 
health care within the MTF, while other health care is referred out 
into the purchased care network. Thus, military families end up 
managing their own care. Incongruence in the case management process 
becomes more apparent when military family members transfer from one 
TRICARE region to another and is further exacerbated when a special 
needs family member is involved. Families need a seamless transition 
and a warm handoff between TRICARE regions and a universal case 
management process across the MHS. Each TRICARE Managed Care Contractor 
has created different case management processes. The current case 
management system is under review by DOD and the TRICARE Management 
Activity.
    We applaud Congress and DOD's desire to create robust health care, 
educational, and family support services for special needs children. 
But, these robust services do not follow them when they retire. We 
encourage the Services to allow these military families the opportunity 
to have their final duty station be in an area of their choice. We 
suggest the Extended Care Health Option (ECHO) be extended for 1 year 
after retirement for those already enrolled in ECHO prior to 
retirement. If the ECHO program is extended, it must be for all who are 
eligible for the program. We should not create a different benefit 
simply based on diagnosis.
    There has been discussion over the past years by Congress and 
military families regarding the ECHO program. The NDAA for Fiscal Year 
2009 included a provision to increase the cap on certain benefits under 
the ECHO program and the NDAA for Fiscal Year 201O established the 
Office of Community Support for Military Families with Special Needs. 
The ECHO program was originally designed to allow military families 
with special needs to receive additional services to offset their lack 
of eligibility for State or federally provided services impacted by 
frequent moves. We suggest that before making any more adjustments to 
the ECHO program, Congress should direct DOD to certify if the ECHO 
program is working as it was originally designed and if it has been 
effective in addressing the needs of this population. We need to make 
the right fixes so we can be assured we apply the correct solutions. 
This new office will go a long way in identifying and addressing 
special needs. However, we must remember that our special needs 
families often require medical, educational and family support 
resources. This new office must address all these various needs in 
order to effectively implement change.
    National Guard and Reserve Member Family Health Care
    National Guard and Reserve families need increased education about 
their health care benefits. We also believe that paying a stipend to a 
mobilized National Guard or Reserve member for their family's coverage 
under their employer-sponsored insurance plan while the servicemember 
is deployed may work out better for many families in areas where the 
TRICARE network may not be robust.
    Grey Area Reservists
    Our Association would like to thank Congress for the new TRICARE 
benefit for Grey Area Reservists. We want to make sure this benefit is 
quickly implemented and they have access to a robust network.
    TRICARE Reimbursement
    Our Association is concerned that continuing pressure to lower 
Medicare reimbursement rates will create a hollow benefit for TRICARE 
beneficiaries. As the 111th Congress takes up Medicare legislation, we 
request consideration of how this legislation will impact military 
families' health care, especially our most vulnerable service, access 
to mental health.
    National provider shortages in the mental health field, especially 
in child and adolescent psychology, are exacerbated in many cases by 
low TRICARE reimbursement rates, TRICARE rules, or military-unique 
geographic challenges--for example large populations in rural or 
traditionally underserved areas. Many mental health providers are 
willing to see military beneficiaries on a voluntary status. However, 
these providers often tell us they will not participate in TRICARE 
because of what they believe are time-consuming requirements and low 
reimbursement rates. More must be done to persuade these providers to 
participate in TRICARE and become a resource for the entire system, 
even if that means DOD must raise reimbursement rates.
    Pharmacy
    We caution DOD about generalizing findings of certain beneficiary 
pharmacy behaviors and automatically applying them to our Nation's 
unique military population. We encourage Congress to require DOD to 
utilize peer-reviewed research involving beneficiaries and prescription 
drug benefit options, along with performing additional research 
involving military beneficiaries, before making any recommendations on 
prescription drug benefit changes, such as co-payment and tier 
structure changes for military servicemembers, retirees, their 
families, and survivors.
    We appreciate the inclusion of Federal pricing for the TRICARE 
retail pharmacies in the NDAA for Fiscal Year 2008. However, we still 
need to examine its effect on the cost of medications for both 
beneficiaries and DOD. Also, we will need to see how this potentially 
impacts Medicare, civilian private insurance, and the National Health 
Care Reform affecting drug pricing negotiations.
    We believe it is imperative that all medications available through 
TRICARE Retail Pharmacy (TRRx) should also be available through TRICARE 
Mail Order Pharmacy (TMOP). Medications treating chronic conditions, 
such as asthma, diabetes, and hypertension should be made available at 
the lowest level of co-payment regardless of brand or generic status. 
We agree with the recommendations of the Task Force on the Future of 
Military Health Care that over-the-counter (OTC) drugs be a covered 
pharmacy benefit and there be a zero co-pay for TMOP Tier 1 
medications.
    The new T3 TRICARE contract will provide TRICARE Managed Care 
Contractors and Express-Scripts, Inc. the ability to link pharmacy data 
with disease management. This will allow for better case management, 
increase compliance, and decrease cost, especially for our chronically 
ill beneficiaries. However, this valuable tool is currently unavailable 
because the T3 contract is still under protest and has not yet been 
awarded.
    National Health Care Proposal
    Our Association is cautious about current rhetoric by the 
administration and Congress regarding National Health Care Reform. We 
request consideration of how this legislation will also impact TRICARE.
    The perfect storm is brewing. TMA will hopefully be instituting the 
new T3 contract in 2011. Currently, there is the possibility that two 
out of three TRICARE Managed Care Contractors could change. This means 
that the contracts of 66 percent of our TRICARE providers would need to 
be renegotiated. Add the demands and uncertainties to providers in 
regards to health care reform and Medicare reimbursement rate changes. 
This leads to our concern regarding the impact on providers' 
willingness to remain in the TRICARE network and the recruitment of new 
providers. The unintended consequences maybe a decrease in access to 
care due the lack of available health care providers.
    DOD Must Look for Savings
    We ask Congress to establish better oversight for DOD's 
accountability in becoming more cost-efficient. We recommend:

        <bullet> Requiring the Comptroller General to audit MTFs on a 
        random basis until all have been examined for their ability to 
        provide quality health care in a cost-effective manner;
        <bullet> Creating an oversight committee, similar in nature to 
        the Medicare Payment Advisor Commission, which provides 
        oversight to the Medicare program and makes annual 
        recommendations to Congress. The Task Force on the Future of 
        Military Health Care often stated it was unable to address 
        certain issues not within their charter or the timeframe in 
        which they were commissioned to examine the issues. This 
        Commission would have the time to examine every issue in an 
        unbiased manner.
        <bullet> Establishing a Unified ``Joint'' Medical Command 
        structure, which was recommended by the Defense Health Board in 
        2006 and 2009.

    Our Association believes optimizing the capabilities of the 
facilities of the direct care system through timely replacement of 
facilities, increased funding allocations, and innovative staffing 
would allow more beneficiaries to be cared for in the MTFs, which DOD 
asserts is the most cost effective. The Task Force made recommendations 
to make the DOD MHS more cost-efficient which we support. They conclude 
the MHS must be appropriately sized, resourced, and stabilized; and 
make changes in its business and health care practices.
    We suggest additional funding and flexibility in hiring practices 
to address MTF provider deployments.
    Our Association recommends a 1 year transitional active duty ECHO 
benefit for all eligible family members of servicemembers who retire.
    We believe that Reserve component families should be given the 
choice of a stipend to continue their employer provided care during 
deployment.
Behavioral Health Care
    Our Nation must help returning servicemembers and their families 
cope with the aftermath of war. DOD, VA, and State agencies must 
partner in order to address behavioral health issues early in the 
process and provide transitional mental health programs. Partnering 
will also capture the National Guard and Reserve member population, who 
often straddle these agencies' health care systems.
    Full Spectrum of Care
    As the war continues, families' need for a full spectrum of 
behavioral health services--from preventative care and stress reduction 
techniques, to counseling and medical mental health services--continues 
to grow. The military offers a variety of psychological health 
services, both preventative and treatment, across many agencies and 
programs. However, as servicemembers and families experience numerous 
lengthy and dangerous deployments, we believe the need for 
confidential, preventative psychological health services will continue 
to rise. It will remain high, even after military operations scale 
down. Our study on the impact of the war on caregivers and children 
found the mental health of the caregiver directly affects the overall 
well-being of the children. Therefore, we need to treat the family as a 
unit rather than as individuals because the caregiver's health 
determines the quality of life for the children.
    Access to Behavioral Health Care
    Our Association is concerned about the overall shortage of mental 
health providers in TRICARE's direct and purchased care network. DOD's 
Task Force on Mental Health stated timely access to the proper 
psychological health provider remains one of the greatest barriers to 
quality mental health services for servicemembers and their families. 
The Army Family Action Plan (AFAP) identified mental health issues as 
their number three issue for 2010. While families are pleased more 
mental health providers are available in theater to assist their 
servicemembers, they are disappointed with the resulting limited access 
to providers at home. Families are reporting increased difficulty in 
obtaining appointments with social workers, psychologists, and 
psychiatrists at their MTFs and clinics. The military fuels the 
shortage by deploying some of its child and adolescent psychology 
providers to combat zones. Providers remaining at home report they are 
overwhelmed by treating active duty members and are unable to fit 
family members into their schedules. This can lead to provider 
compassion fatigue, creating burnout and exacerbating the provider 
shortage problem.
    We have seen an increase in the number of mental health providers 
joining the purchased care side of the TRICARE network. However, the 
access standard is 7 days. We hear from military families after 
accessing the mental health provider lists on the contractors' web 
sites that the provider is full and no longer taking TRICARE patients. 
The list must be up-to-date in order to handle real time demands by 
families. We need to continue to recruit more mental health providers 
to join the TRICARE network and we need to make sure we specifically 
add those in specialty behavioral health care areas, such as child and 
adolescence psychology and psychiatrists.
    Families must be included in mental health counseling and treatment 
programs for servicemembers. Family members are a key component to a 
servicemember's psychological well-being. Families want to be able to 
access care with a mental health provider who understands or is 
sympathetic to the issues they face. We recommend an extended outreach 
program to servicemembers, veterans, and their families of available 
mental health resources, such as DOD, VA, and State agencies. We 
appreciate the VA piloting programs that incorporate active duty 
servicemembers and their families into their newly established OIF/OEF 
health care clinics. The family is accessed as a ``unit'' and educated 
about the VA's benefits and services. These initiatives need to be 
expanded throughout the VA and fully funded.
    Frequent and lengthy deployments create a sharp need in mental 
health services by family members and servicemembers as they get ready 
to deploy and after their return. There is also an increase in demand 
in the wake of natural disasters, such as hurricanes and fires. We need 
to maintain a flexible pool of mental health providers who can increase 
or decrease rapidly in numbers depending on demand on the MHS side. 
Currently, Military Family Life Consultants and Military OneSource 
counseling are providing this type of service for military families on 
the family support side. The recently introduced web-based TRICARE 
Assistance Program (TRIAP) offers another vehicle for nonmedical 
counseling, especially for those who live far from counselors. We need 
to make the Services, along with military family members, more aware of 
resources along the continuum. We need the flexibility of support in 
both the MHS and family support arenas, as well as coordination of 
support between these two entities. We must educate civilian network 
providers about our culture. Communities along with nongovernment 
organizations are beginning to fulfill this role, but more needs to be 
done.
    Availability of Treatment
    Do DOD, VA, and State agencies have adequate mental health 
providers, programs, outreach, and funding? Better yet, where will the 
veteran's spouse and children go for help? Many will be left alone to 
care for their loved one's invisible wounds resulting from frequent and 
long combat deployments. Who will care for them when they are no longer 
part of the DOD health care system?
    The Army's Mental Health Advisory Team (MHAT) IV report links 
reducing family issues to reducing stress on deployed servicemembers. 
The team found the top noncombat stressors were deployment length and 
family separation. They noted soldiers serving a repeat deployment 
reported higher acute stress than those on their first deployment and 
the level of combat was the major contribution for their psychological 
health status upon return. Our study on the impact of deployment on 
caregivers and children found it was the cumulative time deployed that 
caused increased stress. These reports demonstrate the amount of stress 
being placed on our troops and their families.
    Our Association is especially concerned with the scarcity of 
services available to the families as they leave the military following 
the end of their activation or enlistment. Due to the servicemember's 
separation, the families find themselves ineligible for TRICARE, 
Military OneSource, and are very rarely eligible for health care 
through the VA. Many will choose to locate in rural areas lacking 
available mental health providers. We need to address the distance 
issues families face in finding mental health resources and obtaining 
appropriate care. Isolated servicemembers, veterans, and their families 
do not have the benefit of the safety net of services and programs 
provided by MTFs, VA facilities, Community-Based Outpatient Centers and 
Vet Centers. We recommend:

        <bullet> using alternative treatment methods, such as 
        telemental health;
        <bullet> modifying licensing requirements in order to remove 
        geographic practice barriers that prevent psychological health 
        providers from participating in telemental health services 
        outside of a VA facility;
        <bullet> educating civilian network psychological health 
        providers about our military culture as the VA incorporates 
        Project Hero; and
        <bullet> encouraging DOD and VA to work together to provide a 
        seamless ``warm hand-off'' for families, as well as 
        servicemembers transitioning from active duty to veteran status 
        and funding additional transitional support programs if 
        necessary.
    National Guard and Reserve Members
    The National Military Family Association is especially concerned 
about fewer mental health care services available for the families of 
returning National Guard and Reserve members. Some are eligible for 
TRICARE Reserve Select but, as we know, National Guard and Reserve 
members are often located in rural areas where there may be fewer 
mental health providers available. Policymakers need to address the 
distance issues that families face in linking with military mental 
health resources and obtaining appropriate care. Isolated National 
Guard and Reserve families do not have the benefit of the safety net of 
services provided by MTFs and installation family support programs. 
Families want to be able to access care with a provider who understands 
or is sympathetic to the issues they face. We recommend the use of 
alternative treatment methods, such as telemental health; increasing 
mental health reimbursement rates for rural areas; modifying licensing 
requirements in order to remove geographic practice barriers that 
prevent mental health providers from participating in telemental health 
services; and educating civilian network mental health providers about 
our military culture. We urge DOD to expand information outreach about 
the new TRIAP program, which provides access to non-medical counseling 
via phone and web through the TRICARE managed care support contractors. 
We hear the National Guard Bureau's Psychological Health Services (PHs) 
is not working as designed to address members' mental health issues. 
This program needs to be evaluated to determine its effectiveness.
    Children
    Our Association is concerned about the impact deployment and/or the 
injury of the servicemember is having on our most vulnerable 
population, children of our military servicemember and veterans. Our 
study on the impact of the war on caregivers and children found 
deployments are creating layers of stressors, which families are 
experiencing at different stages. Teens especially carry a burden of 
care they are reluctant to share with the non-deployed parent in order 
to not ``rock the boat.'' They are often encumbered by the feeling of 
trying to keep the family going, along with anger over changes in their 
schedules, increased responsibility, and fear for their deployed 
parent. Children of the National Guard and Reserve members face unique 
challenges since there are no military installations for them to 
utilize. They find themselves ``suddenly military'' without resources 
to support them. School systems are generally unaware of this change in 
focus within these family units and are ill prepared to lookout for 
potential problems caused by these deployments or when an injury 
occurs. Also vulnerable are children who have disabilities that are 
further complicated by deployment and subsequent injury of the 
servicemembers. Their families find stress can be overwhelming, but are 
afraid to reach out for assistance for fear of retribution to the 
servicemember's career. They often choose not to seek care for 
themselves or their families. We appreciate the inclusion of a study on 
the mental health needs of our children in the NDAA for Fiscal Year 
201O.
    The impact of the wounded, ill, and injured on children is often 
overlooked and underestimated. Military children experience a 
metaphorical death of the parent they once knew and must make many 
adjustments as their parent recovers. Many families relocate to be near 
the treating MTF or the VA Polytrauma Center in order to make the 
rehabilitation process more successful. As the spouse focuses on the 
rehabilitation and recovery, older children take on new roles. They may 
become the caregivers for other siblings, as well as for the wounded 
parent. Many spouses send their children to stay with neighbors or 
extended family members, as they tend to their wounded, ill, and 
injured spouse. Children get shuffled from place to place until they 
can be reunited with their parents. Once reunited, they must adapt to 
the parent's new injury and living with the ``new normal.'' We 
appreciate the inclusion of a study to assess the impact on children of 
the severely wounded in the NDAA for Fiscal Year 2010.
    We encourage partnerships between government agencies, DOD, VA, and 
State agencies and recommend they reach out to those private and 
nongovernmental organizations who are experts on children and 
adolescents. They could identify and incorporate best practices in the 
prevention and treatment of mental health issues affecting our military 
children. We must remember to focus on preventative care upstream, 
while still in the active duty phase, in order to have a solid family 
unit as they head into the veteran phase of their lives. School systems 
must become more involved in establishing and providing supportive 
services for our Nation's children.
    Caregiver Burnout
    In the eighth year of war, care for the caregivers must become a 
priority. There are several levels of caregivers. Our Association hears 
from the senior officer and enlisted spouses who are so often called 
upon to be the strength for others. We hear from the health care 
providers, educators, rear detachment staff, chaplains, and counselors 
who are working long hours to assist servicemembers and their families. 
They tell us they are overburdened, burnt out, and need time to 
recharge so they can continue to serve these families. These caregivers 
must be afforded respite care, given emotional support through their 
command structure, and be provided effective family programs.
    Education
    The DOD, VA, and State agencies must educate their health care and 
mental health professionals of the effects of mild Traumatic Brain 
Injury (mTBI) in order to help accurately diagnose and treat the 
servicemember's condition. They must be able to deal with polytrauma-
Post-Traumatic Stress Disorder (PTSD) in combination with multiple 
physical injuries. We need more education for civilian health care 
providers on how to identify signs and symptoms of mild TBI and PTSD.
    The families of servicemembers and veterans must be educated about 
the effects of TBI, PTSD, and suicide in order to help accurately 
diagnose and treat the servicemember/veteran's condition. These 
families are on the ``sharp end of the spear'' and are more likely to 
pick up on changes attributed to either condition and relay this 
information to their health care providers. Programs are being 
developed by each Service. However, they are narrow in focus targeting 
line leaders and health care providers, but not broad enough to capture 
our military family members and the communities they live in. As 
Services roll out suicide prevention programs, we need to include our 
families, communities, and support personnel.
    Reintegration Programs
    Reintegration programs become a key ingredient in the family's 
success. Our Association believes we need to focus on treating the 
whole family with programs offering readjustment information; education 
on identifying mental health, substance abuse, suicide, and traumatic 
brain injury; and encouraging them to seek assistance when having 
financial, relationship, legal, and occupational difficulties. We 
appreciate the inclusion in the NDAA for Fiscal Year 2010 for education 
programs targeting pain management and substance abuse for our 
families.
    Successful return and reunion programs will require attention over 
the long term, as well as a strong partnership at all levels between 
the various mental health arms of DOD, VA, and State agencies. DOD and 
VA need to provide family and individual counseling to address these 
unique issues. Opportunities for the entire family and for the couple 
to reconnect and bond must also be provided. Our Association has 
recognized this need and successfully piloted family retreats in the 
national parks promoting family reintegration following deployment.
    We recommend an extended outreach program to servicemembers, 
veterans, and their families of available psychological health 
resources, such as DOD, VA, and State agencies.
    We encourage Congress to request DOD to include families in its 
Psychological Health Support survey; perform a pre- and post-deployment 
mental health screening on family members (similar to the PDHA and 
PDHRA currently being done for servicemembers).
    We recommend the use of alternative treatment methods, such as 
telemental health; increasing mental health reimbursement rates for 
rural areas; modifying licensing requirements in order to remove 
geographic practice barriers that prevent mental health providers from 
participating in telemental health services; and educating civilian 
network mental health providers about our military culture.
    Caregivers must be afforded respite care; given emotional support 
through their command structure; and, be provided effective family 
programs.
Wounded Servicemembers Have Wounded Families
    Our Association asserts that behind every wounded servicemember and 
veteran is a wounded family. It is our belief the government, 
especially the DOD and VA, must take a more inclusive view of military 
and veterans' families. Those who have the responsibility to care for 
the wounded, ill, and injured servicemember must also consider the 
needs of the spouse, children, parents of single servicemembers and 
their siblings, and the caregivers. DOD and VA need to think 
proactively as a team and one system, rather than separately; and 
addressing problems and implementing initiatives upstream while the 
servicemember is still on active duty status.
    Reintegration programs become a key ingredient in the family's 
success. For the past 2 years, we have piloted our Operation 
Purple"'HealingAdventures camp to help wounded servicemembers and their 
families learn to play again as a family. We hear from the families who 
participate in this camp, as well as others dealing with the recovery 
of their wounded servicemembers that, even with Congressional 
intervention and implementation of the Services' programs, many issues 
still create difficulties for them well into the recovery period. 
Families find themselves having to redefine their roles following the 
injury of the servicemember. They must learn how to parent and become a 
spouse/lover with an injury. Each member needs to understand the unique 
aspects the injury brings to the family unit. Parenting from a 
wheelchair brings a whole new challenge, especially when dealing with 
teenagers. Parents need opportunities to get together with other 
parents who are in similar situations and share their experiences and 
successful coping methods. Our Association believes we need to focus on 
treating the whole family with DOD and VA programs offering skill based 
training for coping, intervention, resiliency, and overcoming 
adversities. Injury interrupts the normal cycle of deployment and the 
reintegration process. We must provide opportunities for the entire 
family and for the couple to reconnect and bond, especially during the 
rehabilitation and recovery phases.
    Brooke Army Medical Center (BAMC) has recognized a need to support 
these families by expanding in terms of guesthouses colocated within 
the hospital grounds and a family reintegration program for their 
Warrior Transition Unit. The on-base school system is also sensitive to 
issues surrounding these children. A warm, welcoming family support 
center located in guest housing serves as a sanctuary for family 
members. The DOD and VA could benefit from looking at successful 
programs like BAMCs, which has found a way to embrace the family unit 
during this difficult time.
    The Vet Centers are an available resource for veterans' families 
providing adjustment, vocational, and family and marriage counseling. 
The VA health care facilities and the community-based outpatient 
clinics (CBOCs) have a ready supply of mental health providers, yet 
regulations have restricted their ability to provide mental health care 
to veterans' families unless they meet strict standards. Unfortunately, 
this provision hits the veteran's caregiver the hardest, especially if 
they are the parents. We recommend DOD partner with the VA to allow 
military families access to mental health services. We also believe 
Congress should require the VA, through its Vet Centers and health care 
facilities to develop a holistic approach to care by including families 
when providing mental health counseling and programs to the wounded, 
ill, and injured servicemember or veteran.
    The Defense Health Board has recommended DOD include military 
families in its mental health studies. We agree. We encourage Congress 
to direct DOD to include families in its Psychological Health Support 
survey; perform a pre- and post-deployment mental health screening on 
family members (similar to the PDHA and PDHRA currently being done for 
servicemembers). We appreciate the NDAA for Fiscal Year 2010 report on 
the impact of the war on families and the DOD's Millennium Cohort Study 
including families. Both will help us gain a better understanding of 
the long-term effects of war on our military families.
    Transitioning for the Wounded and Their Families
    Transitions can be especially problematic for wounded, ill, and 
injured servicemembers, veterans, and their families. The DOD and the 
VA health care systems, along with State agency involvement, should 
alleviate, not heighten these concerns. They should provide for 
coordination of care, starting when the family is notified that the 
servicemember has been wounded and ending with the DOD, VA, and State 
agencies working together, creating a seamless transition, as the 
wounded servicemember transfers between the two agencies' health care 
systems and, eventually, from active duty status to veteran status.
    Transition of health care coverage for our wounded, ill, and 
injured and their family members is a concern of our Association. These 
servicemembers and families desperately need a health care bridge as 
they deal with the after effects of the injury and possible reduction 
in their family income. We have created two proposals. servicemembers 
who are medically retired and their families should be treated as 
active duty for TRICARE fee and eligibility purposes for 3 years 
following medical retirement. This proposal will allow the family not 
to pay premiums and be eligible for greater access to care at certain 
MTFs and for certain benefits offered to active duty families for 3 
years. Following that period, they would pay TRICARE premiums at the 
rate for retirees. servicemembers medically discharged from service and 
their family members should be allowed to continue for 1 year as active 
duty for TRICARE benefits and then move into the Continued Health Care 
Benefit Program (CHCBP) if needed.
    Caregivers
    Caregivers need to be recognized for the important role they play 
in the care of their loved one. Without them, the quality of life of 
the wounded servicemembers and veterans, such as physical, psycho-
social, and mental health, would be significantly compromised. They are 
viewed as an invaluable resource to DOD and VA health care providers 
because they tend to the needs of the servicemembers and the veterans 
on a regular basis. Their daily involvement saves DOD, VA, and State 
agency health care dollars in the long run. Their long-term 
psychological care needs must be addressed. Caregivers of the severely 
wounded, ill, and injured servicemembers who are now veterans have a 
long road ahead of them. In order to perform their job well, they will 
require access to mental health services.
    The VA has made a strong effort in supporting veterans' caregivers. 
The DOD should follow suit and expand their definition. We appreciate 
the inclusion in NDAA for Fiscal Year 2010 of compensation for 
servicemembers with assistance in everyday living. However, our 
Association believes this provision does not go far enough. In order to 
perform their job well, caregivers must be taught the skills to be 
successful.
    Compensation of caregivers should be a priority for DOD and the 
Secretary of Homeland Security. Caregivers must be recognized for their 
sacrifices and the important role they play in maintaining the quality 
of life of our wounded servicemembers and veterans. Financial 
compensation must be established for caregivers of injured 
servicemembers and veterans that begin while the hospitalized 
servicemember is still on active duty and transitions seamlessly to a 
VA benefit. Current law creates a potential gap in compensation during 
transition from active duty to veteran status. Our Association proposes 
that compensation should reflect the types of medical and non-medical 
care services provided by the caregiver. The caregiver should be paid 
directly for their services. Non-medical care should be factored into a 
monthly stipend tied to severity of injury--cognitive and physical 
injury and illness-and care provided. In order to perform their job 
well, caregivers must be taught the skills to be successful. This will 
require the caregiver to be trained through a standardized, certified 
program. Compensation for medical care should be an hourly wage linked 
to training and certification of the caregiver paid for by the VA and 
transferrable to employment in the civilian sector if the care is no 
longer needed by the servicemember or veteran.
    Consideration should also be given to creating innovative ways to 
meet the health care and insurance needs of the caregiver, with an 
option to include their family. Current proposed legislation does not 
include a ``family'' option. Additional services caregivers need are: 
respite care, such as 24 hour in-home care, mental health services, and 
travel and lodging expenses when accompanying servicemembers and 
veterans for medical care.
    There must be a provision for transition benefits for the caregiver 
if the caregiver's services are no longer needed, chooses to no longer 
participate, or is asked by the veteran to no longer provide services. 
The caregiver should still be able to maintain health care coverage for 
1 year. Compensation would discontinue following the end of services/
care provided by the caregiver. Our Association looks forward to 
discussing details of implementing such a plan with members of this 
subcommittee.
    The VA currently has eight caregiver assistance pilot programs to 
expand and improve health care education and provide needed training 
and resources for caregivers who assist disabled and aging veterans in 
their homes. DOD should evaluate these pilot programs to determine 
whether to adopt them for caregivers of servicemembers still on active 
duty. Caregivers' responsibilities start while the servicemember is 
still on active duty.
    Relocation Allowance and Housing
    Active duty servicemembers and their spouses qualify through the 
DOD for military orders to move their household goods when they leave 
the military service. Medically retired servicemembers are given a 
final PCS move. Medically retired married servicemembers are allowed to 
move their family; however, medically retired single servicemembers 
only qualify for moving their own personal goods.
    Our Association suggests that legislation be passed to allow 
medically retired single servicemembers the opportunity to have their 
caregiver's household goods moved as a part of the medical retired 
single servicemember's PCS move. This should be allowed for the 
qualified caregiver of the wounded servicemember and the caregiver's 
family (if warranted), such as a sibling who is married with children 
or mom and dad. This would allow for the entire caregiver's family to 
move, not just the caregiver. The reason for the move is to allow the 
medically retired single servicemember the opportunity to relocate with 
their caregiver to an area offering the best medical care, rather than 
the current option that only allows for the medically retired single 
servicemember to move their belongings to where the caregiver currently 
resides. The current option may not be ideal because the area in which 
the caregiver lives may not be able to provide all the health care 
services required for treating and caring for the medically retired 
servicemember. Instead of trying to create the services in the area, a 
better solution may be to allow the medically retired servicemember, 
their caregiver, and the caregiver's family to relocate to an area 
where services already exist.
    The decision on where to relocate for optimum care should be made 
with the Federal Recovery Coordinator (case manager), the 
servicemember's medical physician, the servicemember, and the 
caregiver. All aspects of care for the medically retired servicemember 
and their caregiver shall be considered. These include a holistic 
examination of the medically retired servicemember, the caregiver, and 
the caregiver's family for, but not limited to, their needs and 
opportunities for health care, employment, transportation, and 
education. The priority for the relocation should be where the best 
quality of services is readily available for the medically retired 
servicemember and higher caregiver.
    The consideration for a temporary partial shipment of caregiver's 
household goods may also be allowed, if deemed necessary by the case 
management team.
    Medical Power of Attorney
    We have heard from caregivers of the difficult decisions they have 
to make over their loved one's bedside following an injury. We support 
the Traumatic Brain Injury Task Force recommendation for DOD to require 
each deploying servicemember to execute a Medical Power of Attorney and 
a Living Will.
    Provide medically-retired wounded, ill, and injured servicemembers 
and their families a bridge of extended active duty TRICARE e1igibility 
for 3 years, comparable to the benefit for surviving spouses.
    Servicemembers medically discharged from Service and their family 
members should be allowed to continue for 1 year as active duty for 
TRICARE and then start the Continued Health Care Benefit Program 
(CHCBP) if needed.
    Caregivers of the wounded, ill, and injured must be provided with 
opportunities for training, compensation and other support programs 
because of the important role they play in the successful 
rehabilitation and care of the servicemember.
    The National Military Family Association is requesting the ability 
for medically retired single servicemembers to be allowed the 
opportunity to have their caregiver's household goods moved as a part 
of the medically retired single servicemember's PCS move.
    DOD should require each deploying servicemember to execute a 
Medical Power of Attorney and a Living Will.
    Senior Oversiqht Committee
    Our Association is appreciative of the provision in the NDAA for 
Fiscal Year 2010 establishing a DOD Task Force on the Care, Management, 
and Transition of Recovery, Wounded, Ill, and Injured Members of the 
Armed Forces to access policies and programs. We understand the Office 
of Wounded Warrior Care and Transition Policy (WWCTP), a permanent 
structure for the Senior Oversight Committee, is in the process of 
being established and manned. This Task Force will be independent and 
in a position to monitor DOD and VA's partnership initiatives for our 
wounded, ill, and injured servicemembers and their families, while this 
organization is being created.
    The National Military Family Association encourages all committees 
with jurisdiction over military personnel and veterans matters to talk 
on these important issues. We can no longer continue to create policies 
in a vacuum and be content on focusing on each agency separately 
because this population moves too frequently between the two agencies, 
especially our wounded, ill, and injured servicemembers and their 
families.
    We would like to thank you again for the opportunity to provide 
information on the health care needs for the servicemembers, veterans, 
and their families. Military families support the Nation's military 
missions. The least their country can do is make sure servicemembers, 
veterans, and their families have consistent access to high quality 
mental health care in the DOD, VA, and within network civilian health 
care systems. Wounded servicemembers and veterans have wounded 
families. The caregiver must be supported by providing access to 
quality health care and mental health services, and assistance in 
navigating the health care systems. The system should provide 
coordination of care with DOD, VA, and State agencies working together 
to create a seamless transition. We ask Congress to assist in meeting 
that responsibility.
                        iii. family transitions
Survivors
    In the past year, the Services have increased their outreach to 
surviving families. In particular, the Army's Survivor Outreach 
Services (SOS) program makes an effort to remind these families that 
they are not forgotten. DOD and the VA must work together to ensure 
surviving spouses and their children can receive the mental health 
services they need, through all of VA's venues. New legislative 
language governing the TRICARE behavioral health benefit may also be 
needed to allow TRICARE coverage of bereavement or grief counseling. 
The goal is the right care at the right time for optimum treatment 
effect. DOD and the VA need to better coordinate their mental health 
services for survivors and their children.
    We thank Congress for extending the TRICARE active duty family 
dental insurance benefit to surviving children. The current TRICARE 
Management Activity policy directive allows for the surviving children 
of Reserve component servicemembers who had not previously been 
enrolled to be eligible for the expanded benefit. We ask that 
eligibility be expanded to those active duty family members who had not 
been enrolled in the active duty TRICARE dental insurance program prior 
to the servicemember's death.
    Our Association recommends that eligibility be expanded to active 
duty survivors who had not been enrolled in the TRICARE Dental Program 
prior to the servicemember's death. We also recommend that grief 
counseling be more readily available to survivors.
    Our Association still believes the benefit change that will provide 
the most significant long-term advantage to the financial security of 
all surviving families would be to end the Dependency and Indemnity 
Compensation (DIC) offset to the Survivor Benefit Plan (SBP). Ending 
this offset would correct an inequity that has existed for many years. 
Each payment serves a different purpose. The DIC is a special indemnity 
(compensation or insurance) payment paid by the VA to the survivor when 
the servicemember's service causes his or her death. The SBP annuity, 
paid by DOD, reflects the longevity of the service of the military 
member. It is ordinarily calculated at 55 percent of retired pay. 
Military retirees who elect SBP pay a portion of their retired pay to 
ensure that their family has a guaranteed income should the retiree 
die. If that retiree dies due to a service-connected disability, their 
survivor becomes eligible for DIC.
    Surviving active duty spouses can make several choices, dependent 
upon their circumstances and the ages of their children. Because SBP is 
offset by the DIC payment, the spouse may choose to waive this benefit 
and select the ``child only'' option. In this scenario, the spouse 
would receive the DIC payment and the children would receive the full 
SBP amount until each child turns 18 (23 if in college), as well as the 
individual child DIC until each child turns 18 (23 if in college). Once 
the children have left the house, this choice currently leaves the 
spouse with an annual income of $13,848, a significant drop in income 
from what the family had been earning while the servicemember was alive 
and on active duty. The percentage of loss is even greater for 
survivors whose servicemembers served longer. Those who give their 
lives for their country deserve more fair compensation for their 
surviving spouses.
    We believe several other adjustments could be made to the SBP. 
Allowing payment of the SBP benefits into a Special Needs Trust in 
cases of disabled beneficiaries will preserve their eligibility for 
income based support programs. The government should be able to switch 
SBP payments to children if a surviving spouse is convicted of 
complicity in the member's death.
    We believe there needs to be DIC equity with other Federal survivor 
benefits. Currently, DIC is set at $1,154 monthly (43 percent of the 
Disabled Retirees Compensation). Survivors of Federal workers have 
their annuity set at 55 percent of their Disabled Retirees 
Compensation. Military survivors should receive 55 percent of VA 
Disability Compensation. We are pleased that the requirement for a 
report to assess the adequacy of DIC payments was included in the NDAA 
for Fiscal Year 2009. We are awaiting the overdue report. We support 
raising DIC payments to 55 percent of VA Disability Compensation. When 
changes are made, ensure that DIC eligibles under the old system 
receive an equivalent increase.
    We ask the DIC offset to SBP be eliminated to recognize the length 
of commitment and service of the career servicemember and spouse. We 
also request that SBP benefits may be paid to a Special Needs Trust in 
cases of disabled family members.
    We ask that DIC be increased to 55 percent of VA Disability 
Compensation.
Education of Military Children
    The National Military Family Association would like to thank 
Congress for including a ``Sense of Congress'' in regards to the 
Interstate Compact on Educational Opportunity for Military Children in 
last year's National Defense Authorization Act. The Compact has now 
been adopted in 27 States and covers over 80 percent of our military 
children. The Interstate Commission, the governing body of the Compact, 
is working to educate military families, educators, and States on the 
appropriate usage of the Compact. The adoption of the Compact is a 
tremendous victory for military families who place a high value on 
education.
    However, military families define the quality of that education 
differently than most States or districts that look only at issues 
within their boundaries. For military families, it is not enough for 
children to be doing well in their current schools, they must also be 
prepared for the next location. The same is true for children in under 
performing school systems. Families are concerned that they will lag 
behind students in the next location. With many States cutting 
educational programs due to the economic downturn, this concern is 
growing. A prime example is Hawaii, which opted to furlough teachers on 
Fridays, cutting 17 days from the school calendar. With elementary 
schools already on a shortened schedule for Wednesday, these students 
are only getting 3\1/2\ days of instruction a week. In addition, the 
recent cuts have made it increasingly hard for schools to meet IEP 
requirements for special needs students. Furthermore, Hawaii is 
requiring parents to pay more for busing, and the cost of school meals 
have gone up 76 percent. Our Association believes that Hawaii's cuts 
are just the ``tip of the iceberg'' as we are beginning to see other 
States make tough choices as well. Although Hawaii's educational system 
has long been a concern for military families, many of whom opt for 
expensive private education, Hawaii is not the only place where parents 
have concerns. The National Military Family Association believes that 
our military children deserve to have a good quality education wherever 
they may live. However, our Association recognizes that how we provide 
that quality education may differ in each location.
    We urge Congress to encourage solutions for the current educational 
situation in Hawaii and recognize that servicemembers' lack of 
confidence that their children may receive a quality education in an 
assignment location can affect the readiness of the force in that 
location.
    While our Association remains appreciative for the additional 
funding Congress provides to civilian school districts educating 
military children, Impact Aid continues to be underfunded. We urge 
Congress to provide appropriate and timely funding of Impact Aid 
through the Department of Education. In addition, we urge Congress to 
increase DOD Impact Aid funding for schools educating large numbers of 
military children to $60 million for fiscal year 2011. We also ask 
Congress to include an additional $5 million in funding for special 
needs children. The DOD supplement to Impact Aid is critically 
important to ensure school districts provide quality education for our 
military children.
    As increased numbers of military families move into new communities 
due to Global Rebasing and BRAC, their housing needs are being met 
further and further away from the installation. Thus, military children 
may be attending school in districts whose familiarity with the 
military lifestyle may be limited. Educating large numbers of military 
children will put an added burden on schools already hard-pressed to 
meet the needs of their current populations. We urge Congress to 
authorize an increase in this level of funding until BRAC and Global 
Rebasing moves are completed.
    Once again, we thank Congress for passing the Higher Education 
Opportunity Act of 2008, which contained many new provisions affecting 
military families. Chief among them was a provision to expand in-State 
tuition eligibility for military servicemembers and their families, and 
provide continuity of in-State rates if the servicemember receives 
Permanent Change of Station (PCS) orders out of State. However, family 
members have to be currently enrolled in order to be eligible for 
continuity of in-State tuition. Our Association is concerned that this 
would preclude a senior in high school from receiving in-State tuition 
rates if his or her family PCS's prior to matriculation. We urge 
Congress to amend this provision.
    We ask Congress to increase the DOD supplement to Impact Aid to $60 
million to help districts better meet the additional demands caused by 
large numbers of military children, deployment-related issues, and the 
effects of military programs and policies. We also ask Congress provide 
$5 million for school districts with Special Needs children.
Support for Military Voters
    The National Military Family Association would like to thank 
Congress for passing the Military and Overseas Voter Empowerment (MOVE) 
Act which was included in the National Defense Authorization Act for 
Fiscal Year 2010. As a member of the Alliance for Military and Overseas 
Voting Rights (AMOVR), our Association worked hard to pass this 
important legislation which resolves many of the absentee voting issues 
for our military servicemembers and their families. The passage of the 
MOVE ACT was a tremendous victory for our military community whose very 
service helps protect the right to vote.
Spouse Education and Employment
    Our Association wishes to thank Congress for recent enhancement to 
spouse education opportunities. In-State tuition, Post-September 11 
G.I. bill transferability to spouses and children, and other 
initiatives have provided spouses with more educational opportunities 
than previous years.
    Since 2004, our Association has been fortunate to sponsor our 
Joanne Holbrook Patton Military Spouse Scholarship Program, with the 
generosity of donors who wish to help military families. Our 2010 
application period closed on January 31, 2010. We saw a 33 percent 
increase in applications from previous years with more than 8,000 
military spouses applying to our program. Military spouses remain 
committed to their education and need assistance from Congress to 
fulfill their educational pursuits.
    We have heard from many military spouses who are pleased with the 
expansion of the Military Spouse Career Advancement Accounts, now 
called MyCAA. Unfortunately the abrupt halt of the program on February 
16, 2010 has created a financial burden and undue stress for military 
spouses. Spouses who have established accounts and those who planned to 
set-up accounts in the future have been barred for accessing funds. The 
MyCAA system only permitted users to request financial assistance 30 
days prior to a class start date. Many, who had planned on the funding, 
will not receive it, if they didn't have a start date entered into the 
system by February 16. We ask Congress to push DOD to restart this 
critical program and find a way to assist spouses who have been 
abruptly cut-off from receiving funding. We also ask Congress to fully 
fund the MyCAA program, which is providing essential educational and 
career support to military spouses. The MyCAA program is not available 
to all military spouses. We ask Congress to work with the appropriate 
Service Secretary to expand this funding to the spouses of Coast Guard, 
the Commissioned Corps of NOAA and U.S. Public Health Service.
    Our Association thanks you for establishing a pilot program to 
secure internships for military spouses with Federal agencies. Military 
spouse are anxious for the program to launch and look forward to 
enhanced career opportunities through the pilot program. We hope 
Congress will monitor the implementation of the program to ensure 
spouses are able to access the program and eligible spouses are able to 
find Federal employment after successful completion of the internship 
program.
    To further spouse employment opportunities, we recommend an 
expansion to the Workforce Opportunity Tax Credit for employers who 
hire spouses of active duty and Reserve component servicemembers, and 
to provide tax credits to military spouses to offset the expense in 
obtaining career licenses and certifications when servicemembers are 
relocated to a new duty station within a different State.
    The Services are experiencing a shortage of medical, mental health 
and child care providers. Many of our spouses are trained in these 
professions or would like to seek training in these professions. We 
think the Services have an opportunity to create portable career 
opportunities for spouses seeking in-demand professions. In addition to 
the MyCAA funding, what can the Services do to encourage spouse 
employment and solve provider shortages? We would like to see the 
Services reach out to military spouses and offer affordable, flexible 
training programs in high demand professions to help alleviate provider 
shortages.
    Our Association urges Congress to recognize the value of military 
spouses by fully funding the MyCAA program, and by creating training 
programs and employment opportunities for military spouses in high 
demand professions to help fill our provider shortages.
Military Families--Our Nation's Families
    We thank you for your support of our servicemembers and their 
families and we urge you to remember their service as you work to 
resolve the many issues facing our country. Military families are our 
Nation's families. They serve with pride, honor, and quiet dedication. 
Since the beginning of the war, government agencies, concerned citizens 
and private organizations have stepped in to help. This increased 
support has made a difference for many servicemembers and families, 
yet, some of these efforts overlap while others are ineffective. In our 
testimony, we believe we have identified improvements and additions 
that can be made to already successful programs while introducing 
policy or legislative changes that address the ever-changing needs of 
our military families. Working together, we can improve the quality of 
life for all these families.

    Senator Webb. Thank you very much.
    Mr. Cline.

    STATEMENT OF MASTER SERGEANT MICHAEL CLINE, USA (RET.), 
EXECUTIVE DIRECTOR, ENLISTED ASSOCIATION OF THE NATIONAL GUARD 
                      OF THE UNITED STATES

    Mr. Cline. Mr. Chairman, we thank you, on behalf of the 
Enlisted Association of the National Guard of the United States 
and the Military Coalition, for holding these hearings.
    Mr. Chairman, over 142,000 National Guard and Reserve 
servicemembers are serving on Active Duty. Since September 11, 
2001, more than 752,000 of our citizens, soldiers, airmen, 
sailors, marines, Guard and Reserve servicemembers, have been 
called up, including well over 200,000 who have served multiple 
tours.
    With your permission, Mr. Chairman, I'd like to cut out the 
fluff and just get to the point of the needs of our Guard and 
Reserve people and their families.
    The next step in modernizing the Reserve retirement system 
is to provide equal retirement age reduction credit for all 
activated service rendered since September 11, 2001. The 
current law that credits only active service since January 28, 
2008, disenfranchises and devalues the service of hundreds of 
thousands of Guard and Reserve members who have served combat 
tours, many with multiple combat tours, between 2001 and 2008.
    The statute also must be amended to eliminate the inequity 
inherent in the current fiscal year retirement calculation, 
which only credits 90 days of active service for early 
retirement purposes if it occurs within the same fiscal year. 
The current rule significantly penalizes members who deploy in 
July or August, versus those deploying earlier in the fiscal 
year. It is potently unfair, as the current law requires giving 
3 months retirement-age credit for 90-day tours served from 
January through March, but only half credit for 120-day tours 
served from August through November, because the latter covers 
60 days in each of the 2 fiscal years.
    Mr. Chairman, we fully understand the budgetary problems 
facing our country, but we're also aware that more than $700 
billion was given to banks, financial institutions, automakers; 
$3 billion for Cash for Clunkers was spent, in 3 weeks, that 
did nothing more than reduce the inventory of autodealers; the 
American people, many of which are the very veterans who have 
been passed by, are looking at a trillion-dollar healthcare 
bill. If CBO figures are accurate, it will cost $2.1 billion 
over 10 years, or just about $21 million a year, to provide 
retroactivity for early retirement for those who have protected 
our freedom. It's the right thing to do to honor the unselfish 
heroes and their families who have given up so much to protect 
us and our way of life.
    For the near term, we place particular priority on 
authorizing early retirement credit for all qualifying post-
September 11 Active Duty service performed by Guard and Reserve 
members, and eliminating the fiscal-year-specific accumulator 
that bars equal credit for members deploying for equal periods 
during different months of the year. Ultimately, we believe we 
must move forward to provide a reduced-age entitlement for 
retired pay and health coverage for all Reserve component 
members that is an age-service formula or outright eligibility, 
if otherwise qualified, at age 55.
    Further, we urge repeal of the annual cap of 130 days of 
inactive duty points that may be credited towards a Reserve 
retirement.
    Yellow Ribbon. We urge the subcommittee to hold oversight 
hearings and to direct additional improvements in coordination 
and collaboration and consistency of Yellow Ribbon services. 
DOD must ensure that State-level best practices, such as those 
in Maryland, Minnesota, and New Hampshire, are applied for all 
operational Reserve Force members and their families, and that 
Federal Reserve veterans have equal access to services and 
support available to National Guard veterans. Community groups, 
employers, and Service organizations' efforts need to be 
encouraged and better coordinated to supplement unit, 
component, Service, and VA outreach and service.
    We are grateful to you, in Congress, for inclusion of a 
critical ``earn as you serve'' principle, in the post-September 
11 GI Bill, which allows operational reservists to accumulate 
additional benefits for each aggregate call-up of 90 days or 
more on Active Duty. However, Active Duty members of the 
National Guard serving under Title 32 orders were not included 
in the new program, despite their critical role in homeland 
defense, counterdrug, border control, and other missions. We 
urge this subcommittee to work with the Veterans Affairs 
Committee to include Title 32 AGRs in the post-September 11 
statute.
    The Military Coalition's longstanding recommendation of 
coordinating and integrating various educational benefit 
programs has been made more challenging with the post-September 
11 GI Bill. For example, benefits for initially joining the 
Guard and Reserve, as authorized under Chapter 1606 of title 
10, continue to decline in proportion to the Active Duty 
Montgomery GI Bill, Chapter 30, title 38, in the new post-
September 11 GI Bill. Reserve MGIB benefit levels have slipped 
to 24 percent of the Active Duty MGIB benefit, compared to 47 
to 50 percent during the first 15 years of the program. 
Restoration of the original ratio would raise basic Reserve 
rates from the current $333 a month to $643 to $684 a month for 
full-time duty. TMC maintains that restoring the ratio is not 
only a matter of equity, but essential to long-time success of 
the Guard and Reserve recruiting program.
    Continuing healthcare insurance options for the Guard and 
Reserve. The Coalition is very grateful for the passage of 
TRICARE for gray-area retirees; however, we're very 
disappointed that it's going to take DOD 18 months to implement 
the new program. As we have sent letters to you, we ask that 
you intervene with DOD to speed this program up. It's a 
benefit----
    Senator Graham. Absolutely.
    Mr. Cline.--that is needed.
    Senator Graham. Absolutely.
    Mr. Cline. When we look at the TRICARE Reserve Select 
Program, a disturbing fact is that only 6 to 7 percent of our 
eligible beneficiaries are taking advantage of the TRICARE 
Reserve Select Program. DOD and the Services and the Reserve 
components must do more to advertise the TRS program.
    The Coalition also believes that Congress is missing an 
opportunity to reduce long-term healthcare costs and increase 
beneficiary satisfaction by authorizing eligible members the 
option of electing a DOD subsidy of their civilian insurance 
during periods of activation. Current law already authorizes 
payment of up to 24 months of FEHBP premiums for activated 
members who are civilian employees of the Defense Department. 
Over the long term, the Guard and Reserve activations can be 
expected at a reduced pace. This option would offer 
considerable savings opportunities, relative to DOD permanent, 
year-round TRICARE.
    We recommend to the subcommittee--require a GAO review of 
DOD's methodology for determining TRS costs for premium 
adjustment purposes to assess whether it includes any costs of 
maintaining readiness or ``costs of doing business'' for DOD 
that don't contribute to beneficiary benefit values, and thus 
excluded from cost premium calculations.
    Mr. Chairman, I look forward to any questions that you or 
Senator Graham may have.
    Senator Webb. Thank you very much.
    Ms. Holleman.

 STATEMENT OF DEIRDRE PARKE HOLLEMAN, EXECUTIVE DIRECTOR, THE 
                  RETIRED ENLISTED ASSOCIATION

    Ms. Holleman. Good morning. Mr. Chairman----
    Senator Webb. Good afternoon, actually. [Laughter.]
    Ms. Holleman. Good afternoon.
    Senator Graham. My stomach says it's afternoon.
    Ms. Holleman. Life goes quickly, right?
    It is an honor to speak to you today about the Military 
Coalition's legislative goals concerning military retirees and 
military survivors. I know you will not be surprised that TMC 
is urging you to, once and for all, end the unfair offset of 
military retired pay by VA disability pay.
    We are grateful for the great strides that have been made 
in ending this practice, which we all now acknowledge is 
terribly unfair. But, there are two groups of valiant retirees 
who are not getting the relief that you ordered for the others. 
One group is those longevity retirees with VA disabilities of 
10 to 40 percent. The other group is those servicemembers who 
were forced to medically retire with less than 20 years, due to 
an injury or medical condition that is not deemed combat-
related under the Combat Related Special Compensation program. 
Even in these tough economic times, simple fairness should call 
for the end of the offset for all. But, even more dramatically, 
the President, for the second year, has proposed, in his 
budget, to end the offset for medical retirees. To have the 
administration propose a change that, in the past, was the goal 
of only you, in Congress, is a historic opportunity. We 
strongly urge you to join the President in this laudable goal 
and end the offset for medical retirees now.
    It is also clearly time to finally end the Survivor Benefit 
Plan (SBP)/Dependency and Indemnity Compensation (DIC) offset. 
SBP is an employee benefit, while DIC is an indemnity program 
for survivors of those who died because of their service in the 
military. The present practice of taking a dollar from a 
survivor's SBP payment for every dollar paid by the VA's DIC 
program is unfair and illogical. Legislation to end this offset 
is pending in both Houses of Congress. Now that Senator Bill 
Nelson's S. 535 has 55 cosponsors, and Representative Ortiz's 
H.R. 811 has 319 cosponsors, it is clear that a majority of the 
Members of Congress agree that this offset should end. It 
should end now, while our servicemembers are fighting in two 
wars and at risk throughout the world.
    While these two issues are of great and continuing concern 
to all of the members of the Coalition, there are several 
additional matters that we believe are critically important. We 
urge you to support Senator Blanche Lincoln's soon-to-be-
introduced legislation that will be a companion bill to 
Representative Walter Jones's H.R. 613. Their Military Retirees 
Survivor Comfort Acts would authorize the retention of the full 
month's retired pay of the last month of a retiree's life by 
his or her surviving spouse. Presently, DFAS removed the 
month's retired pay from the retiree account, calculates how 
much is owed by how many days the retiree lived in the month 
that he or she died in, and then returns the prorated share to 
the survivor. This method can cause confusion and even bounce 
checks during a tremendously tense and sorrowful time. Senator 
Lincoln's bill would stop this, and treat military retiree 
survivors the same way as disabled veteran survivors are 
treated concerning the disability payments.
    The Uniformed Services Former Spouse Protection Act 
desperately needs improvement. While some organizations want 
dramatic fundamental changes, and other groups adamantly do 
not, it truly is time that we had a hearing on this rather 
explosive issue. There are already several improvements that 
DOD has supported, for years, that could be made during this 
session. These changes include basing the amount awarded in a 
divorce on the grade and years of service at the time of the 
divorce, rather than at the time of retirement, and prohibiting 
the inclusion of imputed income in a divorce property award, 
which often forces Active Duty members into retirement. A full 
list of our suggestions can be found in our written testimony.
    Finally, we urge that DFAS be allowed to make SBP payments 
into a Special Needs Trust. Presently, they may only pay SBP to 
a person. This means that a permanently disabled survivor 
cannot make use of this State-created legal device that allows 
a disabled person to protect their eligibility for SSI, 
Medicaid, and State means-tested programs. With the help of 
supporters like you, Chairman Webb, we hope that this change 
will be made. It would only affect a few people, but for those 
survivors, this small change would be an enormous help.
    Thank you for your time, and may I have the honor to 
introduce Colonel Strobridge.
    Senator Webb. Thank you very much for your testimony.
    Colonel Strobridge.

  STATEMENT OF STEVEN P. STROBRIDGE, USAF (RET.), DIRECTOR OF 
 GOVERNMENT RELATIONS, MILITARY OFFICERS ASSOCIATION OF AMERICA

    Colonel Strobridge. Mr. Chairman, Senator Graham, my 
testimony is going to focus on healthcare and Wounded Warrior 
issues.
    The primary issue for all beneficiaries is access. The 
primary threat to access continues to be the perpetual threat 
of major cuts in Medicare and TRICARE payments to doctors. We 
fully realize that's beyond the authority of this subcommittee, 
but it is the number-one healthcare issue among our 
beneficiaries.
    On national healthcare reform, the principal issues for our 
members in the coalition are ensuring protection of military-
unique health benefits, including TRICARE For Life, and 
protection of uniformed services beneficiaries from taxation on 
the value of those benefits.
    On TRICARE fees, we're grateful that the administration has 
not proposed any increases for fiscal year 2011, however, 
without congressional action, the TRICARE standard outpatient 
deductible will be increased administratively by more than $110 
per day as of October 1. Last October, the subcommittee acted, 
during conference action on the National Defense Authorization 
Act, to stop that change. We urge you to put a provision in 
law, capping the outpatient deductible at the current $535 per 
day, which the coalition believes is plenty high enough and 
should not be increased for the foreseeable future.
    We also ask you to put a ``Sense of Congress'' provision in 
the National Defense Authorization Act, as the Senate approved 
last year, highlighting the importance of military health 
benefits in offsetting the adverse conditions of service and 
recognizing that military people pay large upfront premiums 
through decades of service and sacrifice, over and above their 
cash fees.
    On Wounded Warriors, we're concerned that the change of the 
administration has left many senior positions vacant for more 
than a year, and that close joint oversight previously provided 
by top leaders has been delegated and diffused back along 
agency-centric lines. The coalition is particularly concerned 
that the diminution of the Senior Oversight Committee, or SOC, 
has weakened day-to-day oversight of, and priority on, joint 
agency operations and management. We urge revitalization of the 
SOC, or a similar joint agency staffed with senior officials 
with full-time primary oversight responsibility for seamless 
transition initiatives.
    Similarly, the transition from Active Duty to retiree care 
or to VA coverage still catches many wounded warriors and their 
families unaware. They need the same protections that we 
provide when someone dies on Active Duty: 3 years of continued 
Active Duty-level coverage to ensure a smooth transition to the 
next phase of their life.
    We appreciate the subcommittee's efforts last year to 
provide caregiver benefits on a par with what's provided by the 
VA. The Veterans Affairs Committees are now finalizing 
significant upgrades for caregivers, and we hope you'll act to 
reestablish comparability of DOD programs once that happens.
    Regarding psychological health, PTSD, and TBI, we know the 
subcommittee and DOD and the Services are pursuing a wide range 
of initiatives to enhance access to care and counseling, and to 
remove the stigma from seeking care. Unfortunately, some facets 
of the military environment continue to undermine those 
efforts. In that regard, many who suffer after-effects of 
combat continue being barred from reenlistment, or separated 
for other reasons, because service disciplinary and 
administrative systems are much less flexible and resilient 
than we're asking military people to be. We hope the 
subcommittee will continue its efforts to protect returnees 
from these lower profile, but still devastating, secondary 
effects of war.
    Mr. Chairman, that concludes my remarks.
    [The prepared statement of The Military Coalition follows:]
              Prepared Statement by The Military Coalition
    Mr. Chairman and distinguished members of the subcommittee. On 
behalf of The Military Coalition (TMC), a consortium of nationally 
prominent uniformed services and veterans' organizations, we are 
grateful to the committee for this opportunity to express our views 
concerning issues affecting the uniformed services community. This 
testimony provides the collective views of the following military and 
veterans' organizations, which represent approximately 5.5 million 
current and former members of the 7 uniformed services, plus their 
families and survivors.

          Air Force Association
          Air Force Sergeants Association
          Air Force Women Officers Associated
          American Logistics Association
          AMVETS (American Veterans)
          Army Aviation Association of America
          Association of Military Surgeons of the United States
          Association of the United States Army
          Association of the United States Navy
          Chief Warrant Officer and Warrant Officer Association, U.S. 
        Coast Guard
          Commissioned Officers Association of the U.S. Public Health 
        Service, Inc.
          Enlisted Association of the National Guard of the United 
        States
          Fleet Reserve Association
          Gold Star Wives of America, Inc.
          Iraq and Afghanistan Veterans of America
          Jewish War Veterans of the United States of America
          Marine Corps League
          Marine Corps Reserve Association
          Military Chaplains Association of the United States of 
        America
          Military Officers Association of America
          Military Order of the Purple Heart
          National Association for Uniformed Services
          National Guard Association of the United States
          National Military Family Association
          National Order of Battlefield Commissions
          Naval Enlisted Reserve Association
          Noncommissioned Officers Association
          Reserve Enlisted Association
          Reserve Officers Association
          Society of Medical Consultants to the Armed Forces
          The Retired Enlisted Association
          United States Army Warrant Officers Association
          United States Coast Guard Chief Petty Officers Association
          Veterans of Foreign Wars of the United States

    The Military Coalition, Inc., does not receive any grants or 
contracts from the Federal Government.
                           executive summary
Wounded Warrior Care
    Institutional Oversight
    The Coalition believes there's no substitute for a permanent 
Department of Defense (DOD)-Department of Veterans Affairs (VA) Senior 
Oversight Committee or other Joint Seamless Transition Office, staffed 
with senior officials working together full-time and charged with 
innovation and daily oversight of initiatives to institutionalize and 
sustain a culture of cross-department seamless transition.
    Continuity of Health Care
    The Coalition recommends:

        <bullet> Authorizing active-duty level TRICARE benefits, 
        independent of availability of VA care, for 3 years after 
        medical retirement to help ease transition from DOD to VA;
        <bullet> Authorizing blanket waiver authority for VA physicians 
        treating active duty patients with multiple medical trauma 
        conditions for all aspects of the member's treatment, including 
        referral outside the VA/TRICARE system if needed; and
        <bullet> Either exempting severely wounded, ill, or injured 
        members who must be medically retired from paying Medicare Part 
        B premiums until age 65 or authorizing a special DOD allowance 
        to help offset the cost of such premiums until age 65.
    Mental/Behavioral Health Issues
    TMC recommends:

        <bullet> Increased efforts to promote the destigmatization on 
        all levels in service/unit administrative and strict 
        accountability programs with outlined and enforced consequences 
        to non-compliancy to ensure unit actions are consistent with 
        leadership pronouncements;
        <bullet> Continuing priority efforts to deliver information and 
        assistance on-line, confidential options for counseling and 
        uniformed access and availability to telemedicine services;
        <bullet> Substantial increases in outreach efforts to provide 
        such services and resources to Guard and Reserve members, rural 
        populations and all families who don't live near military or VA 
        facilities;
        <bullet> Priority efforts to educate private sector providers 
        on the unique needs of military and veteran patients and family 
        members, and deliver needed information via on-line services, 
        including contact points for discussion/consultation with 
        military and VA providers;
        <bullet> Consistent implementation of pre- and post-deployment 
        evaluations and follow-up programs, particularly for Guard and 
        Reserve members who may be leaving active duty;
        <bullet> Establishing common DOD and VA protocols for 
        diagnosis, treatment, and rehabilitation for Traumatic Brain 
        Injury (TBI) conditions, as well as an electronic system to 
        share and exchange a patient's medical history and other key 
        medical information;
        <bullet> Expanding Traumatic Servicemember Group Life Insurance 
        (TSGLI) criteria to include moderate and severe TBI, without 
        onerous ``functions of daily living'' standards that aren't 
        required for other (and often much more functional) TSGLI-
        eligibles;
        <bullet> Increasing availability and outreach on substance 
        abuse counseling options;
        <bullet> Pursuing aggressive medication reconciliation and 
        management programs to protect against inadvertent over 
        medication and adverse reactions and or accidental or 
        intentional overdose;
        <bullet> Requiring TBI and psychological health assessments for 
        members who have been deployed to a combat zone as part of the 
        disciplinary process prior to a decision concerning nonmedical 
        separation; and
        <bullet> Implementing recommendations from the 2008 RAND report 
        (``Invisible Wounds of War Psychological and Cognitive 
        Injuries, Their Consequences, and Services to Assist 
        Recovery'').
    DOD-VA Disability Evaluation Systems (DES)
    TMC recommends:

        <bullet> Barring ``fit, but unsuitable'' separations when a 
        member's medical condition prevents continued service;
        <bullet> Authorizing automatic enrollment in the VA health care 
        system for any medically separated or medically retired 
        servicemember (Chapter 61);
        <bullet> Ending distinctions between disabilities incurred in 
        combat vice non-combat;
        <bullet> Monitoring the effectiveness of recent DOD 
        compensation for catastrophically injured or ill servicemembers 
        requiring assistance with activities of daily living authorized 
        in the 2010 NDAA;
        <bullet> Ensuring benefits afforded members wounded, ill, or 
        disabled in the line of duty are applied equally for all 
        uniformed services;
        <bullet> Ensuring that the VA is the single authority for 
        rating service-connected disabilities for military disability 
        retirements and separations;
        <bullet> Preserving the statutory 30 percent disability 
        threshold for medical retirement and lifetime TRICARE coverage 
        for members injured while on active duty;
        <bullet> Continued monitoring of Service/DOD Medical-Physical 
        Evaluation Boards, DOD DES Pilot Project, and the Physical 
        Disability Board of Review, to assess needed DES changes;
        <bullet> Eliminating member premiums for TSGLI;
        <bullet> Barring ``pre-existing condition'' determinations for 
        any member who deploys to a combat zone;
        <bullet> Ensuring that any adjustment to the disability 
        retirement system does not result in a member receiving less 
        disability retired pay than he or she would receive under the 
        current system; and
        <bullet> Ensuring that members electing accelerated disability 
        retirement/separation are fully counseled on any possible 
        negative changes in compensation, health care and other 
        benefits, with consideration to allowing a limited time to 
        reverse a regrettable decision.
    Caregiver/Family Support Services
    The Coalition recommends:

        <bullet> Upgraded compensation and assistance for caregivers of 
        severely disabled active duty members, consistent with pending 
        legislative action to improve compensation/assistance for 
        caregivers of veterans; and
        <bullet> Authorizing up to 1 year of continued residence in on-
        base housing facilities for medically retired, severely wounded 
        servicemembers and their families.
Active Forces and Their Families
    Military End Strength
    The Coalition urges the subcommittee to:

        <bullet> Continue end strength growth as needed to sustain the 
        war and other operational commitments while materially 
        increasing dwell time for servicemembers and families;
        <bullet> Sustain adequate recruiting and retention resources to 
        enable the uniformed services to achieve required optimum-
        quality personnel strength; and
        <bullet> Seek a 2011 defense budget of at least 5 percent of 
        Gross Domestic Product that funds both people and weapons 
        needs.
    Military Pay Comparability
    The Coalition believes a basic pay raise of at least 1.9 
percent--.5 percent above the Employment Cost Index (ECI) standard--is 
the bare minimum the Nation should do to sustain its military pay 
comparability commitment for 2011.
    Family Readiness and Support
    The Coalition recommends that the subcommittee:

        <bullet> Press DOD to assess the effectiveness of programs and 
        support mechanisms to assist military families with deployment 
        readiness, responsiveness, and reintegration;
        <bullet> Ensure that effective programs--including the Family 
        Readiness Council--are fully funded and their costs are 
        included in the annual budget process;
        <bullet> Provide authorization and funding to accelerate 
        increases in availability of child care to meet both Active and 
        Reserve component requirements;
        <bullet> Insist DOD implement flexible spending accounts to let 
        active duty and Selected Reserve families pay out-of-pocket 
        dependent and health care expenses with pre-tax dollars;
        <bullet> Monitor and continue to expand family access to mental 
        health counseling;
        <bullet> Promote expansion of military spouse opportunities to 
        further educational and career goals;
        <bullet> Ensure additional and timely funding of Impact Aid 
        plus continued DOD supplemental funding for highly-impacted 
        military schools; and
        <bullet> Mitigate the impact of Service transformation, 
        overseas rebasing initiatives, housing privatization and base 
        realignment on school facility needs and educational programs 
        affecting military children.
    Permanent Change of Station (PCS) Allowances
    The Coalition urges the subcommittee to continue its efforts to 
upgrade permanent change-of-station allowances to better reflect 
expenses imposed on servicemembers, with priority on:

        <bullet> Shipping a second vehicle on overseas accompanied 
        assignments;
        <bullet> Authorizing at least some reimbursement for house-
        hunting trip expenses; and
        <bullet> Increasing PCS mileage rates to more accurately 
        reflect members' actual transportation costs.
    Education Enhancements
    The Coalition urges the subcommittee to support amending the 
statute to authorize all otherwise-qualifying members of the 
``uniformed services'' to transfer Post-September 11 GI Bill benefits 
to family members.
    Morale, Welfare, and Recreation (MWR) and Quality of Life (QoL) 
        Programs
    TMC urges the subcommittee to:

        <bullet> Protect funding for critical family support and QoL 
        programs and services to meet the emerging needs of 
        beneficiaries and the timelines of the Services' transformation 
        plans;
        <bullet> Oppose any initiative to withhold or reduce 
        appropriated support for family support and QoL programs to 
        include: recreation facilities, child care, exchanges and 
        commissaries, housing, health care, education, family centers, 
        and other traditional and innovative support services;
        <bullet> Prevent any attempts to consolidate or civilianize 
        military service exchange and commissary programs; and
        <bullet> Sustain funding for support services and 
        infrastructure at both closing and gaining installations 
        throughout the entire transformation process, including 
        exchange, commissary, and TRICARE programs.
National Guard and Reserve
    Operational Reserve Sustainment and Reserve Retirement
    For the near term, the Military Coalition places particular 
priority on authorizing early retirement credit for all qualifying 
post-September 11 active duty service performed by Guard/Reserve 
servicemembers and eliminating the fiscal-year-specific accumulator 
that bars equal credit for members deploying for equal periods during 
different months of the year.
    Ultimately, TMC believes we must move forward to provide a reduced 
age entitlement for retired pay and health coverage for all Reserve 
component members--that is, an age/service formula or outright 
eligibility, if otherwise qualified, at age 55.
    Further, TMC urges repeal of the annual cap of 130 days of inactive 
duty training points that may be credited towards a reserve retirement.
    Guard and Reserve Yellow Ribbon Readjustment
    TMC urges the subcommittee to hold oversight hearings and to direct 
additional improvements in coordination, collaboration, and consistency 
of Yellow Ribbon services. DOD must ensure that State-level best 
practices--such as those in Maryland, Minnesota, and New Hampshire--are 
applied for all Operational Reserve Force members and their families, 
and that Federal Reserve veterans have equal access to services and 
support available to National Guard veterans. Community groups, 
employers and service organization efforts need to be encouraged and 
better coordinated to supplement unit, component, Service and VA 
outreach and services.
    Guard/Reserve GI Bill
    TMC urges the subcommittee to work with the Veterans Affairs 
Committee to include Title 32 AGRs in the Post-September 11 statute.
    Based on the DOD/Services' 10-year record of indifference to the 
basic Selected Reserve GI Bill under Chapter 1606, 10 U.S.C., TMC 
recommends either: restoring Reserve benefits to 47-50 percent of 
active duty benefits or transferring the chapter 1606 statute from 
title 10 to title 38 so that it can be coordinated with other 
educational benefits programs in a 21st century GI Bill architecture. 
TMC also supports assured academic reinstatement, including guaranteed 
re-enrollment, for returning operational reservists.
    Special and Incentive Pays
    The Coalition urges the subcommittee to ensure equitable treatment 
of Guard and Reserve vs. active duty members for the full range of 
special and incentive pays.
Retiree Issues
    Concurrent Receipt
    The Coalition's continuing goal is to fully eliminate the deduction 
of VA disability compensation from earned military retired pay for all 
disabled retirees. In pursuit of that goal, the Coalition's immediate 
priorities include:

        <bullet> Phasing out the disability offset for all Chapter 61 
        (medical) retirees; and
        <bullet> Correcting the Combat-Related Special Compensation 
        (CRSC) formula to ensure the intended compensation is 
        delivered.
    Proposed Military Retirement Changes
    TMC urges the subcommittee to:

        <bullet> Reject any initiatives to ``civilianize'' the military 
        system without adequate consideration of the unique and 
        extraordinary demands and sacrifices inherent in a military vs. 
        a civilian career; and
        <bullet> Eliminate the Career Status Bonus for servicemembers 
        as it significantly devalues their retirement over time. In the 
        short term, the Services should be required to better educate 
        eligible members on the severe long-term financial penalty 
        inherent in accepting the REDUX option.
    Disability Severance Pay
    The Coalition urges the subcommittee to amend the eligibility rules 
for disability severance pay to include all combat--or operations--
related injuries, using same definition as CRSC. For the longer term, 
the Coalition believes the offset should be ended for all members 
separated for service-caused disabilities.
    Former Spouse Issues
    The Coalition requests a hearing to address Uniformed Services 
Former Spouse Protection Act (USFSPA) inequities. In addition, we 
recommend legislation to include all of the following:

        <bullet> Base the award amount to the former spouse on the 
        grade and years of service of the member at time of divorce 
        (and not retirement);
        <bullet> Prohibit the award of imputed income, which 
        effectively forces active duty members into retirement;
        <bullet> Extend 20/20/20 benefits to 20/20/15 former spouses;
        <bullet> Permit the designation of multiple Survivor Benefit 
        Plan (SBP) beneficiaries with the presumption that SBP benefits 
        must be proportionate to the allocation of retired pay;
        <bullet> Eliminate the ``10-year Rule'' for the direct payment 
        of retired pay allocations by the Defense Finance and 
        Accounting Service (DFAS);
        <bullet> Permit SBP premiums to be withheld from the former 
        spouse's share of retired pay if directed by court order;
        <bullet> Permit a former spouse to waive SBP coverage;
        <bullet> Repeal the 1-year deemed election requirement for SBP; 
        and
        <bullet> Assist DOD and Services with greater outreach and 
        expanded awareness to members and former spouses of their 
        rights, responsibilities, and benefits upon divorce.
Survivor Issues
    SBP-DIC Offset
    The Coalition urges repeal of the SBP-DIC offset. TMC further 
recommends:

        <bullet> Authorizing payment of SBP annuities for disabled 
        survivors into a Special Needs Trust;
        <bullet> Allowing SBP eligibility to switch to children if a 
        surviving spouse is convicted of complicity in the member's 
        death; and
        <bullet> Reinstating SBP for survivors who previously 
        transferred payments to their children at such time as the 
        youngest child attains majority, or upon termination of a 
        second or subsequent marriage.
    Final Retired Paycheck
    TMC urges the subcommittee to authorize survivors of retired 
members to retain the final month's retired pay for the month in which 
the retiree dies.
Health Care Issues
    Defense Health Program Cost Requirements
    The Coalition urges the subcommittee to take all possible steps to 
ensure continued full funding for Defense Health Program needs.
    National Health Reform
    TMC urges that any national health reform legislation must:

        <bullet> Protect the unique TRICARE, TRICARE For Life (TFL), 
        and VA health care benefits from unintended consequences such 
        as reduced access to care;
        <bullet> Bar any form of taxation of TRICARE, TFL, or VA health 
        care benefits, including those provided in nongovernmental 
        venues; and
        <bullet> Preserve military and VA beneficiaries' choices.
    TRICARE Fees
    Establish a ``Sense of Congress'' which recognizes that military 
retiree health benefits are an essential offset to arduous service 
conditions which have been paid for upfront.
    Military vs. Civilian Cost-Sharing Measurement
    The Coalition believes that military beneficiaries from whom 
America has demanded decades of extraordinary service and sacrifice 
have earned coverage that is the best America has to offer.
    Large Retiree Fee Increases Can Only Hurt Retention
    Reducing military retirement benefits would be particularly ill-
advised when an overstressed force already is at increasing retention 
risk despite the current downturn of the economy and current recruiting 
successes.
    Pharmacy
    The Coalition urges the subcommittee to ensure continued 
availability of a broad range of medications, including the most-
prescribed medications, in the TRICARE pharmacy system, and to ensure 
that the first focus on cost containment should be on initiatives that 
encourage beneficiaries to take needed medications and reduce program 
costs without shifting costs to beneficiaries.
    Alternative Options to Make TRICARE More Cost-Efficient
    The Coalition has offered a long list of alternative cost-saving 
possibilities, including:

        <bullet> Positive incentives to encourage beneficiaries to seek 
        care in the most appropriate and cost effective venue;
        <bullet> Encouraging improved collaboration between the direct 
        and purchased care systems and implementing best business 
        practices and effective quality clinical models;
        <bullet> Focusing the military health system, health care 
        providers, and beneficiaries on quality measured outcomes;
        <bullet> Improving MHS financial controls and avoiding overseas 
        fraud by establishing TRICARE networks in areas fraught with 
        fraud;
        <bullet> Establishing TRICARE networks in areas of high TRICARE 
        Standard utilization to take full advantage of network 
        discounts;
        <bullet> Promoting retention of other health insurance by 
        making TRICARE a true second-payer to other insurance (far 
        cheaper to pay another insurance's co-pay than have the 
        beneficiary migrate to TRICARE);
        <bullet> Encouraging DOD to effectively utilize their data from 
        their electronic health record to better monitor beneficiary 
        utilization patterns to design programs which truly match 
        beneficiaries needs;
        <bullet> Sizing and staffing military treatment facilities to 
        reduce reliance on network providers and develop effective 
        staffing models which support enrolled capacities;
        <bullet> Reducing long-term TRICARE Reserve Select (TRS) costs 
        by allowing servicemembers the option of a government subsidy 
        of civilian employer premiums during periods of mobilization;
        <bullet> Doing far more to promote use of mail-order pharmacy 
        system and formulary medications via mailings to users of 
        maintenance medications, highlighting the convenience and 
        individual expected cost savings; and
        <bullet> Encouraging retirees to use lowest-cost-venue military 
        pharmacies at no charge, rather than discouraging such use by 
        limiting formularies, curtailing courier initiatives, etc.
    TMC Healthcare Cost Principles
    The Coalition strongly recommends that Congress establish statutory 
findings, a sense of Congress on the purpose and principles of military 
health care benefits earned by a career of uniformed service that 
states:

        <bullet> Active duty members and families should be charged no 
        fees except retail pharmacy co-payments, except to the extent 
        they make the choice to participate in TRICARE Standard or use 
        out-of-network providers under TRICARE Prime;
        <bullet> The TRICARE Standard inpatient copay should not be 
        increased further for the foreseeable future. At $535 per day, 
        it already far exceeds inpatient copays for virtually any 
        private sector health plan;
        <bullet> There should be no enrollment fee for TRICARE Standard 
        or TFL, since neither offers assured access to TRICARE-
        participating providers. An enrollment fee implies enrollees 
        will receive additional services, as Prime enrollees are 
        guaranteed access to participating providers in return for 
        their fee. Congress already has required TFL beneficiaries to 
        pay substantial Medicare Part B fees to gain TFL coverage;
        <bullet> All retired servicemembers earned equal health care 
        coverage by virtue of their service; and
        <bullet> DOD should make all efforts to provide the most 
        efficient use of allocated resources and cut waste prior to 
        proposing additional or increased fees on eligible 
        beneficiaries.
    TRICARE Prime
    The Military Coalition urges the subcommittee to require reports 
from DOD and from the managed care support contractors, on actions 
being taken to improve Prime patient satisfaction provide assured 
appointments within Prime access standards, reduce delays in 
preauthorization and referral appointments, and provide quality 
information to assist beneficiaries in making informed decisions.
TRICARE Standard
    TRICARE Standard Provider Participation
    The Coalition urges the subcommittee to insist on immediate 
delivery of an adequacy threshold for provider participation, below 
which additional action is required to improve such participation. The 
Coalition also recommends requiring a specific report on participation 
adequacy in the localities where Prime Service Areas will be 
discontinued under the new TRICARE contracts.
    TRICARE Reimbursement Rates
    The Coalition places primary importance on securing a permanent fix 
to the flawed statutory formula for setting Medicare and TRICARE 
payments to doctors.
    To the extent a Medicare rate freeze continues, we urge the 
subcommittee to encourage DOD to use its reimbursement rate adjustment 
authority as needed to sustain provider acceptance.
    The Coalition urges the subcommittee to require a Comptroller 
General report on the relative propensity of physicians to participate 
in Medicare vs. TRICARE, and the likely effect on such relative 
participation of a further freeze in Medicare/TRICARE physician 
payments along with the effect of an absence of bonus payments.
Dental Care
    Active Duty Dependent Dental Plan
    The Coalition recommends increasing the DOD subsidy for the Active 
Duty Dependent Dental Plan to 72 percent and increasing the cap on 
orthodontia payments to $2,000.
Guard and Reserve Healthcare
    Continuum of Health Care Insurance Options for The Guard and 
        Reserve
    The Coalition recommends the subcommittee:

        <bullet> Require a GAO review of DOD's methodology for 
        determining TRS costs for premium adjustment purposes to assess 
        whether it includes any costs of maintaining readiness or 
        ``costs of doing business'' for the Defense Department that 
        don't contribute to beneficiary benefit value and thus should 
        be excluded from cost/premium calculations;
        <bullet> Authorize development of a cost-effective option to 
        have DOD subsidize premiums for continuation of a Reserve 
        employer's private family health insurance during periods of 
        deployment as an alternative to ongoing TRS coverage;
        <bullet> Allow eligibility in Continued Health Care Benefits 
        Program (CHCBP) for Selected reservists who are voluntarily 
        separating and subject to disenrollment from TRS;
        <bullet> Authorize members of the IRR who qualify for a Reserve 
        retirement at age 60 to participate in TRICARE Retired Reserve 
        (TRR) as an incentive for continued service (and higher 
        liability for recall to active duty);
        <bullet> Monitor implementation of the new TRR authority to 
        ensure timely action and that premiums do not exceed 100 
        percent of the TRS premium; and
        <bullet> Allow FEHB plan beneficiaries who are selected 
        reservists the option of participating in TRS.
    Guard and Reserve Mental Health
    TMC believes that Guard and Reserve members and their families 
should have access to evidence-based treatment for PTSD, TBI, 
depression, and other combat-related stress conditions. Further, Post 
Deployment Health examinations should be offered at the member's home 
station, with the member retained on active duty orders until 
completion of the exam.
    Guard and Reserve Health Information
    The Coalition believes there should be an effort to improve the 
electronic capture of non-military health information into the 
servicemember's medical record.
    TRICARE For Life
    Coalition priorities for TFL-eligibles include:

        <bullet> Securing a permanent fix to the flawed formula for 
        setting Medicare/TRICARE payments to providers;
        <bullet> Resisting any effort to establish an enrollment fee 
        for TFL, given that many beneficiaries already experience 
        difficulties finding providers who will accept Medicare 
        patients; and
        <bullet> Including TFL beneficiaries in DOD programs to 
        incentivize compliance with preventive care and healthy 
        lifestyles.
    Restoration of Survivors' TRICARE Coverage
    The Coalition recommends restoration of TRICARE benefits to 
previously eligible survivors whose second or subsequent marriage ends 
in death or divorce.
    Base Realignment and Closure (BRAC) and Rebasing
    The Coalition recommends requiring an annual DOD report on the 
adequacy of health resources, funding, services, quality and access to 
care for beneficiaries affected by BRAC/rebasing.
                                overview
    Mr. Chairman, The Military Coalition extends our thanks to you and 
the entire subcommittee for your steadfast support of our Active Duty, 
Guard, Reserve, retired members, and veterans of the uniformed services 
and their families and survivors. Your efforts have had a dramatic, 
positive impact in the lives of the entire uniformed services 
community.
    Last year was an extremely tumultuous, difficult year. As our 
servicemembers continued to fight terror on two separate fronts, our 
Nation slowly started to recover from an economic crisis, the worst 
seen since the great depression. Congress and the administration had 
difficult choices to make as they attempted to ``jump start'' the 
economy while faced with a record budget deficit.
    We are grateful that both the Defense Department and Congress put 
top priority on personnel issues last year. As we enter the ninth year 
of extremely stressful wartime conditions, the Coalition believes that 
this prioritization should continue for fiscal year 2011.
    Despite ever-increasing pressures on them at home and abroad, men 
and women in uniform are still answering the call--thanks in no small 
measure to the subcommittee's strong and consistent support--but only 
at the cost of ever-greater sacrifices.
    Troubling indicators such as dramatic increases in suicide and 
divorce rates may reflect the effects of the long-term consequences we 
know are coming as we require the same people to return to combat again 
and again and yet again.
    In these times of growing political and economic pressures, the 
Coalition relies on the continued good judgment of the Armed Services 
Committees to ensure the Nation allocates the required resources to 
sustain a strong national defense, and in particular, to properly meet 
the pressing needs of the less than 1 percent of the American 
population--servicemembers and their families--who protect the freedoms 
of the remaining 99 percent.
    In this testimony, The Coalition offers our collective 
recommendations on what needs to be done to meet these essential needs.
                          wounded warrior care
    Much has been done in the last 3 years to address the grievous and 
negligent conditions that were brought to light since the tragic 
incident at Walter Reed Army Medical Center, where wounded and disabled 
troops and their families had fallen through the cracks as they 
transitioned from the military to VA health care and benefits systems.
    Subsequently, the subcommittee has worked hard to address these 
difficulties, and significant progress has been made on that score.
    But the extent and complexity of the challenges remain daunting, 
requiring continuing coordination of effort between the military 
services; the Department of Defense (DOD); the Department of Veterans 
Affairs (VA); several Centers of Excellence; a multitude of civilian 
contractors and nongovernmental agencies; and the two Armed Services, 
two Veterans Affairs, and two Appropriations Committees.
    The Coalition looks forward to working with the subcommittee this 
year in its ongoing efforts to identify and ease significant remaining 
problems.
DOD-VA Seamless Transition
    Institutional Oversight
    While many legislative and fiscal changes have improved the care 
and support of our wounded and disabled members, the Coalition is 
concerned that the recent dissolution of the Senior Oversight Committee 
(SOC) poses significant risks for effective day-to-day leadership and 
coordination of DOD and VA seamless transition efforts.
    Last year, the Coalition expressed concern that the change of 
administration would pose a significant challenge to the two 
departments' continuity of joint effort, as senior leaders whose 
personal involvement had put interdepartmental efforts back on track 
left their positions and were replaced by new appointees who had no 
experience with past problems and no personal stake in ongoing 
initiatives.
    Unfortunately, those concerns are being realized, as many 
appointive positions in both departments have gone unfilled for a year, 
responsibilities have been reorganized, and oversight duties previously 
assumed by senior officials have been divested to lower-level 
administrators who are less regularly engaged with their cross-
department counterparts.
    The result has been more uncertainty and degradation of 
cooperation, communication, and collaboration between the two 
departments over the last year.
    The Coalition is concerned that, having exerted major efforts to 
address the most egregious problems, there is a significant potential 
to fall victim to a ``business as usual'' operating mode, even though 
the difficult journey to true seamless transition between the 
departments has just begun.
    While many well-meaning and hard working military and civilians are 
doing their best to keep pushing progress forward, transitions in 
leadership and mission changes clearly are challenging and require 
formal and more standardized structures, policies, and programs that 
won't be as subject to disruption by one participant's unilateral 
organizational changes.
    It sends a message about departmental priorities when these 
responsibilities are pushed to lower-level officials.
    The Coalition believes there's no substitute for a permanent DOD-VA 
Senior Oversight Committee or other Joint Seamless Transition Office, 
staffed with senior officials working together full-time and charged 
with innovation and daily oversight of initiatives to institutionalize 
and sustain a culture of cross-department seamless transition.
    Continuity of Health Care
    Transitioning between DOD and VA health care systems remains 
challenging, confusing, and overwhelming to those trying to navigate 
and use these systems. Systemic, cultural, and bureaucratic barriers 
often prevent the servicemember or veteran from receiving the necessary 
continuity of care they need to heal and have productive and a high 
level of quality of life they so desperately need and desire.
    While servicemembers and their families tell us that DOD has done 
much to address trauma care, acute rehabilitation, and basic short-term 
rehabilitation, they are less satisfied with their transition from the 
military health care systems to longer-term care and support in 
military and veterans medical systems.
    We hear regularly from members who experienced significant 
disruptions of care upon separation or medical retirement from service.
    One is in the area of cognitive therapy, which is available to 
retired members under TRICARE only if it is not available through the 
VA. Unfortunately, members are caught in the middle because of 
differences between DOD and VA authorities on what constitutes 
cognitive therapy and the degree to which effective, evidenced-based 
therapy is available.
    The NDAA for Fiscal Year 2010 requires a report on such issues, but 
action is needed to protect the wounded and disabled. The subcommittee 
has acted previously to authorize 3 years of active-duty-level TRICARE 
coverage for the family members of those who die on active duty. The 
Coalition believes we owe equal transition care continuity to those 
whose service-caused illnesses or injuries force their retirement from 
service.
    Another significant issue faced by many members forced from active 
duty by severe service-caused disabilities is that the severity of 
their disability qualifies them for Medicare. In such cases, TRICARE is 
second-payer to Medicare.
    Under laws that were designed for elderly retirees but apply 
equally to all Medicare-eligible military beneficiaries, these younger 
disabled warriors must pay Medicare Part B premiums ($110 per month in 
2010) to retain any coverage under TRICARE.
    The Coalition believes it's wrong that members whose service caused 
them to become severely wounded, ill or injured should have to pay more 
for their care than they would if not injured by service, and believes 
they should either be exempt from paying the Part B premium until age 
65 or DOD should help them offset the cost of such payments.
    Finally, doctors at VA polytrauma centers indicate that one of 
their biggest problems is the requirement to get multiple 
authorizations from DOD to provide a variety of specialty care for 
active duty members with multiple medical problems.
    When an active duty member is referred to VA facility for care, DOD 
should grant an automatic waiver of preauthorization/referral 
requirements to allow the VA providers to deliver needed care without 
bureaucratic delays.
    The Coalition recommends:

        <bullet> Authorizing active-duty-level TRICARE benefits, 
        independent of availability of VA care, for 3 years after 
        medical retirement to help ease transition from DOD to VA;
        <bullet> Authorizing blanket waiver authority for VA physicians 
        treating active duty patients with multiple medical trauma 
        conditions for all aspects of the member's treatment, including 
        referral outside the VA/TRICARE system if needed; and
        <bullet> Either exempting severely wounded, ill, or injured 
        members who must be medically retired from paying Medicare Part 
        B premiums until age 65 or authorizing a special DOD allowance 
        to help offset the cost of such premiums until age 65.
    Mental/Behavioral Health Issues
    The military community is experiencing a crisis of demand for 
mental/behavior health care, both for servicemembers and their spouses 
and children.
    The subcommittee included several initiatives in the NDAA for 
Fiscal Year 2010 aimed at increasing the number of military providers 
in this field and improving access for members and families.
    While the Coalition is very grateful for these initiatives, we 
respectfully request that the subcommittee continue, and more 
importantly expand, its efforts in addressing the growing epidemic of 
difficulties regarding post-traumatic stress disorder (PTSD), traumatic 
brain injuries (TBI), depression, and other mental/behavioral health 
issues disproportionally plaguing our military and veteran communities.
    Today our servicemembers, their spouses and children are facing 
immense stresses and uncertainties associated with repeated deployments 
and protracted separations. Our country is at war on multiple fronts 
and we must take all the necessary actions to ensure the mental well 
being of all those involved, at home and those on the frontlines.
    One of the most prevalent obstacles in successfully identifying and 
treating mental/behavioral health conditions is the stigma which the 
military's warrior culture continues to associate with such conditions 
and the threat or fear that admission of experiencing them may affect 
one's peer standing, security clearance, promotions, or ability to 
remain in service.
    Despite the continued efforts by senior leaders to reduce the 
stigmas associated with mental health issues, the unit-level reality is 
far different. The reality is that many officers, NCOs, and peers 
continue to view these conditions as signs of weakness or inability to 
coup.
    Furthermore, many servicemembers are deterred from seeking care by 
cases of friends who have been disciplined or separated as a result of 
using the available support systems the military has implemented.
    As a direct result, the suicide and divorce rates, as well as 
childhood depression diagnosis' continue to climb within the military 
and veteran communities. DOD openly acknowledges that stigmas remain 
within the ranks, despite their efforts of significantly ramping up 
efforts and outreach programs composed of anti-stigma campaigns, upper-
level training programs, and easier access to mental health providers.
    The Coalition stresses our grave concerns to the subcommittee 
regarding the current state of DOD's inability to effectively handle 
the increasing demands/need for mental health services and outreach to 
all demographics of today's military forces. While our forces and their 
families display extraordinary strengths, resiliency and undaunted 
tenacity in the face of all stresses associated with service; it is 
vital that we never forget that these same stressors of service to this 
country are in all likelihood, leading to untreated mental and physical 
health conditions.
    The Coalition believes that due to the numerous unrealistic 
standards and high expectations of resiliency and coping abilities we 
have somehow come to expect from our servicemembers and their families, 
that the current military administrative and disciplinary systems being 
used are not effectively meeting the mental health needs, whether 
proactive or reactive, of the same people to whom we expect so much. 
DOD and VA have an obligation to provide the best care available to any 
servicemember who sustains an injury as a result of their service.
    Unfortunately, many of today's servicemembers have mental wounds 
that are undiagnosed and thus untreated. This lack of care or treatment 
for PTSD, TBI, or any one of the numerous stressors associated with 
service, is leading to an increased number of early separations or even 
more alarming, being barred from reenlisting due to a charge of 
misconduct, such as a driving under the influence (DUI) or other such 
incident, by a servicemember who has never previously displayed any 
such behaviors. These uncharacteristic behaviors are only one of the 
symptoms associated with untreated mental/behavioral health conditions. 
Ironically, some civil authorities often are more tolerant and offer 
more assistance in dealing with such cases involving combat veterans 
than military authorities.
    As a result of such circumstances, thousands, if not countless, of 
affected servicemembers, veterans and their family members have gone 
unidentified, untreated, or deterred from being given the opportunity 
to seek the care they deserve. Moreover, many have difficulty accessing 
and utilizing programs that are in place.
    In addition to expanding the availability of providers, the 
Coalition believes that two key elements will be in expanding the 
opportunities for confidential access to counseling or treatments and 
achieving more consistency between leadership campaigns for 
destigmatization/individual resiliency and the practical demonstration 
of greater resiliency and rehabilitation initiatives at the unit/
administrative level.
    TMC recommends:

        <bullet> Increased efforts to promote the de-stigmatization on 
        all levels in service/unit administrative and strict 
        accountability programs with outlined and enforced consequences 
        to non-compliancy to ensure unit actions are consistent with 
        leadership pronouncements;
        <bullet> Continuing priority efforts to deliver information and 
        assistance on-line, confidential options for counseling and 
        uniformed access and availability to telemedicine services;
        <bullet> Substantial increases in outreach efforts to provide 
        such services and resources to Guard and Reserve members, rural 
        populations and all families who don't live near military or VA 
        facilities;
        <bullet> Priority efforts to educate private sector providers 
        on the unique needs of military and veteran patients and family 
        members, and deliver needed information via on-line services, 
        including contact points for discussion/consultation with 
        military and VA providers;
        <bullet> Consistent implementation of pre-and post-deployment 
        evaluations and follow-up programs, particularly for Guard and 
        Reserve members who may be leaving active duty;
        <bullet> Establishing common DOD and VA protocols for 
        diagnosis, treatment, and rehabilitation for TBI conditions, as 
        well as an electronic system to share and exchange a patient's 
        medical history and other key medical information;
        <bullet> Expanding Traumatic Servicemember Group Life Insurance 
        (TSGLI) criteria to include moderate and severe TBI, without 
        onerous ``functions of daily living'' standards that aren't 
        required for other (and often much more functional) TSGLI-
        eligibles;
        <bullet> Increasing availability and outreach on substance 
        abuse counseling options;
        <bullet> Pursuing aggressive medication reconciliation and 
        management programs to protect against inadvertent over 
        medication and adverse reactions and/or accidental or 
        intentional overdose;
        <bullet> Requiring TBI and psychological health assessments for 
        members who have been deployed to a combat zone as part of the 
        disciplinary process prior to a decision concerning non-medical 
        separation; and
        <bullet> Implementing recommendations from the 2008 RAND report 
        (``Invisible Wounds of War, Psychological and Cognitive 
        Injuries, Their Consequences, and Services to Assist 
        Recovery'').
    DOD-VA Disability Evaluation Systems (DES)
    Several recommendations made by various commissions, task forces 
and committees were addressed in the National Defense Authorization 
Acts for Fiscal Year 2008, 2009, and 2010; however, more needs to be 
done.
    One of the most emotional issues that emerged from the Walter Reed 
scandal was the finding that Services were ``low-balling'' disabled 
servicemembers' disability ratings, with the result that many 
significantly disabled members were being separated and turned over to 
the VA rather than being medically retired (which requires a 30 percent 
or higher disability rating).
    Encouraging rhetoric was heard from leadership in both the DOD and 
VA that this would be addressed by having DOD accept the (usually 
higher) disability ratings awarded by the VA.
    Congress has taken positive steps to correct previous ``low-ball'' 
ratings and streamline the DES. Congress created the Physical 
Disability Board of Review (PDBR) to give previously separated 
servicemembers an opportunity to appeal their ``low-balled'' disability 
rating.
    They also authorized a jointly executed DOD-VA DES pilot in the 
2008 NDAA, and feedback from members and families who participated in 
the pilot program is that it has simplified the process and provided a 
more standardized disability rating outcome.
    TMC was further encouraged that wounded, ill, and injured members 
would benefit from the 19 Dec 07 Under Secretary of Defense (Personnel 
and Readiness) Directive Type Memorandum (DTM) which added 
``deployability'' as a consideration in the DES decision process--
permitting medical separation/retirement based on a medical condition 
that renders a member nondeployable.
    Unfortunately, several cases have surfaced indicating the Services 
have failed to incorporate the DTM in their DES process.
    In this regard, the services continue to issue findings that a 
member is ``fit, but unsuitable'' for service. Under this system, a 
member found ``fit'' by the PEB, is deemed by the service to be 
``unsuitable'' for continued service--and administratively separated--
because the member's medical condition prevents them from being able to 
deploy or maintain their current occupational skill.
    The Coalition believes strongly that medical conditions which 
preclude servicemembers from continuing to serve should be deemed 
``unfitting''--not ``unsuitable.''
    In addition, we remain concerned about language used by some 
indicating a wish to remove DOD from the DES process (i.e., DOD 
determines fitness and VA determines disability). This simplified 
process could result in neglect of DOD's employer responsibilities, 
such as TRICARE eligibility for disabled members and their families.
    The Coalition believes strongly that members determined by parent 
service to be 30 percent or more disabled should continue to be 
eligible for a military disability retirement with all attendant 
benefits, including lifetime TRICARE eligibility for the member and 
his/her family. We do not support efforts to disconnect health care 
eligibility from disability retired pay eligibility. The Coalition also 
agrees with the opinion expressed by Secretary Gates that a member 
forced from service for wartime injuries should not be separated, but 
should be awarded a high enough rating to be retired for disability.
    TMC recommends:

        <bullet> Barring ``fit, but unsuitable'' separations when a 
        member's medical condition prevents continued service;
        <bullet> Authorizing automatic enrollment in the VA health care 
        system for any medically separated or medically retired 
        servicemember (Chapter 61);
        <bullet> Ending distinctions between disabilities incurred in 
        combat vice non-combat;
        <bullet> Monitoring the effectiveness of recent DOD 
        compensation for catastrophically injured or ill servicemembers 
        requiring assistance with activities of daily living authorized 
        in the 2010 NDAA;
        <bullet> Ensuring benefits afforded members wounded, ill, or 
        disabled in the line of duty are applied equally for all 
        uniformed services;
        <bullet> Ensuring that the VA is the single authority for 
        rating service-connected disabilities for military disability 
        retirements and separations;
        <bullet> Preserving the statutory 30 percent disability 
        threshold for medical retirement and lifetime TRICARE coverage 
        for members injured while on active duty;
        <bullet> Continued monitoring of Service/DOD Medical-Physical 
        Evaluation Boards, DOD DES Pilot Project, and the Physical 
        Disability Board of Review, to assess needed DES changes;
        <bullet> Eliminating member premiums for Traumatic 
        Servicemember Group Life Insurance (TSGLI);
        <bullet> Barring ``pre-existing condition'' determinations for 
        any member who deploys to a combat zone;
        <bullet> Ensuring that any adjustment to the disability 
        retirement system does not result in a member receiving less 
        disability retired pay than he or she would receive under the 
        current system; and
        <bullet> Ensuring that members electing accelerated disability 
        retirement/separation are fully counseled on any possible 
        negative changes in compensation, health care and other 
        benefits, with consideration to allowing a limited time to 
        reverse a regrettable decision.
    Caregiver/Family Support Services
    The sad reality is that, for the most severely injured 
servicemembers, family members or other loved ones are often required 
to become full-time caregivers. Many have lost their jobs, homes, and 
savings in order to meet caregiver needs of a servicemember who has 
become incapacitated due to service-caused wounds, injuries or illness.
    The Coalition believes the government has an obligation to provide 
reasonable compensation and training for such caregivers, who ever 
dreamed that their own well-being, careers, and futures would be 
devastated by military-caused injuries to their servicemembers.
    Last year, the subcommittee authorized a special payment to an 
active duty servicemember to allow compensation of a family member or 
professional caregiver. The authorized payment was in the same amount 
authorized by the VA for veterans' aid-and-attendance needs, reflecting 
the subcommittee's thinking that caregiver compensation should be 
seamless when the member transitions from active duty to VA care, as 
long as the caregiver requirements remain the same.
    The Coalition supported this initiative, but recognizes that both 
chambers have since approved legislation to authorize more significant 
VA assistance and compensation for caregivers.
    Once the House and Senate versions of the VA caregiver legislation 
have been reconciled in conference, the Coalition hopes the 
subcommittee will propose similar upgrades for caregivers of members 
while on active duty, consistent with the ``seamless transition'' 
philosophy adopted last year.
    In a similar vein, many wounded or otherwise-disabled members 
experience significant difficulty transitioning to medical retirement 
status. To assist in this process, consideration should be given to 
authorizing medically retired members and their families to remain in 
on-base housing for up to 1 year after retirement, in the same way that 
families are allowed to do so when a member dies on active duty.
    The Coalition recommends:

        <bullet> Upgraded compensation and assistance for caregivers of 
        severely disabled active duty members, consistent with pending 
        legislative action to improve compensation/assistance for 
        caregivers of veterans; and
        <bullet> Authorizing up to 1 year of continued residence in on-
        base housing facilities for medically retired, severely wounded 
        servicemembers and their families.
                    active forces and their families
    In our overview, the Coalition expressed our collective concern 
over the stressors our servicemembers and their families are 
experiencing due to the long, repeated deployments and unrelenting 
operations tempo. In order to sustain a sufficient, highly trained and 
highly capable Active Force, the continuing overriding requirement is 
to find additional ways to ease the terrible burden of stress on 
servicemembers and their families.
Military End Strength
    Increased end strength is the only effective way to reduce stress 
on forces and families as long as deployment requirements not only 
continue, but actually increase.
    The creators of the All-Volunteer Force never envisioned that the 
force would be deployed into combat 1 year out of 3--let alone every 
other year, as has been the case with many ground units.
    Regrettably, the scenario faced by today's forces is not unlike the 
World War II ``Catch-22'' situation described by Joseph Heller, in 
which aircrews braving horrendous enemy flak had their wartime mission 
requirements increased again and again, until they perceived that the 
terrible sacrifices being demanded of them would never end.
    Unfortunately, many in government and among the public seem to have 
become desensitized to the truly terrible sacrifices that the current 
mismatch between missions and force levels has already imposed on those 
in uniform. They acknowledge the problem, but most assume that 
servicemembers and families will simply continue to accept these--or 
even greater--levels of sacrifice indefinitely.
    Many point to the achievement of service recruiting and retention 
goals as indicators that all is well.
    Such perceptions grossly underestimate the current stresses on the 
force and the risk that poses for readiness and national security. The 
Coalition believes any complacency about retention is sadly misplaced, 
and that the status of the current force should be viewed in the 
context of a rubber band that has been stretched to its limit. The fact 
that it has not yet broken is of little comfort.
    Well-respected studies have shown that 20 to 30 percent of combat 
returnees have experienced PTSD, TBI, or depression, and that the 
likelihood of a servicemember returning as a changed person rises with 
each subsequent deployment. Other studies have shown that rising 
cumulative family separations are having significant negative effects 
on servicemembers' children.
    These are not mere academic exercises. They are well-known facts of 
life to those who are alone in actually experiencing them.
    A far truer, and truly tragic, indicator of these extremely 
troubling circumstances has been the significant rise in 
servicemembers' suicide and divorce rates.
    So the Coalition is very grateful for the subcommittee's support 
for end strength increases for all Services in the National Defense 
Authorization Act for Fiscal Year 2010, and for fending off the efforts 
of those who proposed cutting force levels to fund hardware needs.
    But we must not understate the reality that the increases approved 
to date will not significantly improve dwell time for military families 
anytime in the near future, given increasing operational requirements 
in Afghanistan.
    New requirements for massive humanitarian aid in Haiti and 
elsewhere only exacerbate the already grievous situation.
    The Coalition is relieved that the administration is requesting an 
increase to the overall defense budget by $100 billion over the next 5 
years--we just hope it's enough.
    The Coalition urges the subcommittee to:

        <bullet> Continue end strength growth as needed to sustain the 
        war and other operational commitments while materially 
        increasing dwell time for servicemembers and families;
        <bullet> Sustain adequate recruiting and retention resources to 
        enable the uniformed services to achieve required optimum-
        quality personnel strength; and
        <bullet> Seek a 2011 defense budget of at least 5 percent of 
        Gross Domestic Product that funds both people and weapons 
        needs.
    Military Pay Raise
    The Coalition thanks the subcommittee for its sustained commitment 
to restoring full military pay comparability--a fundamental 
underpinning of the All-Volunteer Force.
    To that end, we are grateful for the committee's leadership in 
approving a 3.4 percent military pay raise for 2010--vs. the 2.9 
percent proposed in the defense budget submission.
    Throughout the 1980s and 1990s, military pay raises consistently 
were capped below private sector pay growth, causing a ``pay 
comparability gap'' that reached 13.5 percent in 1998-1999, and 
contributed significantly to serious retention problems.
    Every year since then, the subcommittee has acted to pare the gap 
by approving military raises that have been at least .5 percent above 
private sector pay growth.
    Now that significant progress has been made and the ``erosion of 
pay and benefits'' retention-related problems have abated, some have 
renewed calls to cut back on military raises, create a new 
comparability standard, or substitute more bonuses for pay raises in 
the interests of ``efficiency.''
    The Defense Department has proposed a new comparability standard 
under which each pay and longevity cell would represent the 70th 
percentile of compensation for similarly-educated civilians. A recent 
Congressional Budget Office report asserted that, considering 
adjustments in housing allowances, military people actually are paid 10 
percent more than their civilian counterparts in terms of Regular 
Military Compensation (RMC), composed of basic pay, food and housing 
allowances, and the tax advantage that accrues because the allowances 
are tax-free.
    The Coalition believes such assertions are fundamentally flawed.
    First, the RMC concept was developed in the 1960s, when all 
servicemembers received the same allowances, regardless of location, 
and the allowances were arbitrary figures that weren't actually based 
on anything. In the interim, Congress has transformed the allowances 
into reimbursements for actual food costs and median locality-based 
housing costs.
    If one were to use the RMC comparability methodology in this 
scenario, basic pay--the largest element of military pay and the one 
that drives retired pay--would become ``flex'' compensation element. 
With tax rates and allowances figures set independently, a year in 
which average housing allowances rose (e.g., based on growth in high-
cost areas) and taxes increased could actually yield a requirement to 
cut basic pay (and future retirement value) to restore 
``comparability.''
    Second, the Coalition is not convinced that the civilian comparison 
cohort or percentile comparison point proposed by DOD are the proper 
ones, given that the military:

        <bullet> Recruits from the top half of the civilian aptitude 
        population;
        <bullet> Finds that only about 25 percent of America's youth 
        qualify for entry;
        <bullet> Requires career-long education and training 
        advancement;
        <bullet> Enforces a competitive ``up-or-out'' promotion system; 
        and
        <bullet> Imposes severe limits on personal freedoms (e.g., not 
        being able to quit when you want; risking a felony conviction 
        for refusing an order).

    A fundamental requirement for any pay comparability standard is 
that it should be transparent and understandable. The Coalition has 
asked for, but has never been provided by DOD, any data on what 
civilian comparison cohort was selected and why, and what rationale was 
used to establish a specific percentile comparison point.
    Third, the Coalition believes it is essential to recognize that 
compensation is not simply the amount one is paid. It is pay divided by 
what's required of the recipient to earn that pay. If we increase pay 
25 percent but require 100 percent more sacrifice to earn it, that's 
not a pay raise.
    In that context, today's conditions of service are far more arduous 
than anything envisioned 40 years ago by the creators of the All-
Volunteer Force, who believed a protracted war would require 
reinstitution of the draft.
    Finally, private sector pay growth between 2008 and 2009 would set 
the military pay raise for 2011 at 1.4 percent--the smallest military 
pay raise in almost 50 years, even while servicemembers are being asked 
to endure the most arduous service conditions in more than 60 years. 
Further, the Coalition observes that there is a lag of more than a year 
between the time the civilian pay growth is measured and the time it is 
applied to the military.
    The Coalition agrees with the approach the subcommittee has taken 
consistently -that the best comparability measure is a comparison of 
the military basic pay raise percentage with the percentage growth in 
the ECI.
    The government uses the ECI for every other measure of private pay 
growth, and it's very transparent to government leaders and 
servicemembers alike. As of 2010, cumulative military basic pay 
increases lag cumulative private sector pay growth by 2.4 percent since 
1982--the last time it was generally agreed that a state of 
comparability existed.
    Given the historic low raise produced by the ECI for 2011, the 
historic sacrifices being asked of servicemembers in this time of 
protracted war, and the dubious rationale for alternative pay raise 
proposals, any assertion that military people are overpaid is grossly 
off the mark.
    The Coalition believes a basic pay raise of at least 1.9 
percent--.5 percent above the ECI standard--is the bare minimum the 
Nation should do to sustain its military pay comparability commitment 
for 2011.
    Family Readiness and Support
    A fully funded, robust family readiness program continues to be 
crucial to overall readiness of our military, especially with the 
demands of frequent and extended deployments.
    Resource issues continue to plague basic installation support 
programs. At a time when families are dealing with increased 
deployments, they often are being asked to do without in other 
important areas. We are grateful that the subcommittee included a 
provision in last year's defense bill that will help improve family 
readiness and support though greater outreach. The Department's 
establishment of a comprehensive benefits web site for servicemembers 
and their families will help provide virtual assistance regardless of 
their physical proximity to installation-supported networks.
    Additionally, we could not agree more with last year's ``Sense of 
Congress'' regarding the establishment of flexible spending accounts 
(FSAs) for members of the uniformed services. We urge the subcommittee 
to continue to press the Defense Department until servicemembers are 
provided the same eligibility to participate in FSAs that all other 
Federal employees enjoy.
    Quality education is a top priority to military families. 
Servicemembers are assigned all across the United States and the world. 
Providing appropriate and timely funding of Impact Aid through the 
Department of Education is critical to ensuring quality education 
military children deserve, regardless of where they live.
    The Coalition believes that several initiatives could have 
unintended negative consequences on school facility needs and 
educational programs affecting military children. Service 
transformation, overseas rebasing initiatives, housing privatization, 
base realignment and closure actions all have the potential to affect 
the military family and their access to quality education programs.
    The Coalition recommends that the subcommittee:

        <bullet> Press DOD to assess the effectiveness of programs and 
        support mechanisms to assist military families with deployment 
        readiness, responsiveness, and reintegration;
        <bullet> Ensure that effective programs--including the Family 
        Readiness Council--are fully funded and their costs are 
        included in the annual budget process;
        <bullet> Provide authorization and funding to accelerate 
        increases in availability of child care to meet both Active and 
        Reserve component requirements;
        <bullet> Insist DOD implement flexible spending accounts to let 
        active duty and Selected Reserve families pay out-of-pocket 
        dependent and health care expenses with pre-tax dollars;
        <bullet> Monitor and continue to expand family access to mental 
        health counseling;
        <bullet> Promote expansion of military spouse opportunities to 
        further educational and career goals;
        <bullet> Ensure additional and timely funding of Impact Aid 
        plus continued DOD supplemental funding for highly-impacted 
        military schools; and
        <bullet> Mitigate the impact of Service transformation, 
        overseas rebasing initiatives, housing privatization and base 
        realignment on school facility needs and educational programs 
        affecting military children.
    Permanent Change of Station (PCS) Allowances
    It's an unfortunate fact that members and their families are forced 
to incur significant out-of-pocket expenses when complying with 
government-directed moves.
    For example, the current Monetary Allowance in Lieu of 
Transportation (MALT) rate used for PCS moves still fall significantly 
short of meeting members' actual travel costs. The current rate of 24 
cents per mile is less than half of the 50 cents per mile authorized 
for temporary duty travel. Also, military members must make any advance 
house-hunting trips at personal expense, without any government 
reimbursements such as Federal civilians receive.
    DOD states that the MALT rate was not intended to reimburse 
servicemembers for travel by automobile, but simply a payment in lieu 
of providing transportation in-kind.
    The Coalition believes strongly that the MALT concept is an 
outdated one, having been designed for a conscripted, single, non-
mobile force.
    Travel reimbursements should be adjusted to reflect the reality 
that today's all-volunteer servicemembers do, in fact, own cars and 
that it is unreasonable not to reimburse them for the cost of driving 
to their next duty stations in conjunction with PCS orders.
    Simply put, PCS travel is no less government-ordered than is TDY 
travel, and there is simply no justification for paying less than half 
the TDY travel rate when personal vehicle use is virtually essential.
    Additionally, the government should acknowledge that reassigning 
married servicemembers within the United States (including overseas 
locations) usually requires relocation of two personal vehicles. In 
that regard, the overwhelming majority of service families consist of 
two working spouses, making two privately owned vehicles a necessity. 
Yet the military pays for shipment of only one vehicle on overseas 
moves, including moves to Hawaii and Alaska, which forces relocating 
families into large out-of-pocket expenses, either by shipping a second 
vehicle at their own expense or selling one car before leaving the 
States and buying another upon arrival.
    At a minimum, the Coalition believes military families being 
relocated to Alaska, Hawaii, and U.S. territories should be authorized 
to ship a second personal vehicle, as the subcommittee has rightly 
supported in the past.
    The Coalition urges the subcommittee to continue its efforts to 
upgrade permanent change-of-station allowances to better reflect 
expenses imposed on servicemembers, with priority on:

        <bullet> Shipping a second vehicle on overseas accompanied 
        assignments;
        <bullet> Authorizing at least some reimbursement for house-
        hunting trip expenses; and
        <bullet> Increasing PCS mileage rates to more accurately 
        reflect members' actual transportation costs.
    Education Enhancements
    The Post-September 11 GI Bill was a truly historic achievement that 
will provide major long-term benefits for military people and for 
America; however, the Coalition remains sensitive that transferability 
of the benefit to family members was restricted to members of the 
``Armed Forces.''
    The Coalition believes all members of the uniformed services, 
including commissioned officers of the U.S. Public Health Service and 
NOAA Corps, should be able to transfer their benefit to family members. 
All previous GI Bill provisions have applied equally to all uniformed 
services, and the Post-September 11 GI Bill should not be an exception.
    The Coalition urges the subcommittee to support amending the 
statute to authorize all otherwise-qualifying members of the 
``uniformed services'' to transfer Post-September 11 GI Bill benefits 
to family members.
Morale, Welfare, and Recreation (MWR) and Quality of Life (QoL) 
        Programs
    MWR activities and QoL programs have become ever more critical in 
helping servicemembers and their families cope with the extended 
deployments and constant changes going on in the force.
    The availability of appropriated funds to support MWR activities is 
an area of continuing concern for the Coalition. We are especially 
apprehensive that additional reductions in funding or support services 
may occur due to slow economic recovery and record budget deficits.
    BRAC actions pose an additional concern as DOD is struggling to 
meet the 2011 deadline at many BRAC locations. Two reports issued by 
the Government Accountability Office indicate significant challenges 
remain in areas of funding, facilities, and overall management.
    The Coalition is very concerned whether needed infrastructure and 
support programs will be in place in time to meet families' needs.
    TMC urges the subcommittee to:

        <bullet> Protect funding for critical family support and QoL 
        programs and services to meet the emerging needs of 
        beneficiaries and the timelines of the Services' transformation 
        plans;
        <bullet> Oppose any initiative to withhold or reduce 
        appropriated support for family support and QoL programs to 
        include: recreation facilities, child care, exchanges and 
        commissaries, housing, health care, education, family centers, 
        and other traditional and innovative support services;
        <bullet> Prevent any attempts to consolidate or civilianize 
        military service exchange and commissary programs; and
        <bullet> Sustain funding for support services and 
        infrastructure at both closing and gaining installations 
        throughout the entire transformation process, including 
        exchange, commissary and TRICARE programs.
                       national guard and reserve
    Over 142,000 Guard and Reserve service men and women members are 
serving on active duty.
    Since September 11, 2001, more than 752,000 Guard and Reserve 
service men and women have been called up, including well over 200,000 
who have served multiple tours. There is no precedent in American 
history for this sustained reliance on citizen-soldiers and their 
families. To their credit, Guard and Reserve combat veterans continue 
to reenlist, but the current pace of routine, recurring deployments 
cannot be sustained indefinitely.
    Guard and Reserve members and families face unique challenges in 
their readjustment following active duty service. Unlike active duty 
personnel, many Guard and Reserve members return to employers who 
question their contributions in the civilian workplace, especially as 
multiple deployments have become the norm. Many Guard-Reserve troops 
return with varying degrees of combat-related injuries and stress 
disorders, and encounter additional difficulties after they return that 
can cost them their jobs, careers and families.
    Despite the continuing efforts of the Services and Congress, most 
Guard and Reserve families do not have access to the same level of 
counseling and support that active duty members have. In short, the 
Reserve components face increasing challenges virtually across the 
board, including major equipment shortages, end-strength requirements, 
wounded-warrior health care, and pre- and post-deployment assistance 
and counseling.
Operational Reserve Retention and Retirement Reform
    Congress took the first step in modernizing the Reserve 
compensation system with enactment of early retirement eligibility for 
certain reservists activated for at least 90 continuous days served 
since January 28, 2008. This change validates the principle that 
compensation should keep pace with service expectations and work as an 
inducement to retention and sustainment of the Operational Reserve 
Force.
    Guard/Reserve mission increases and a smaller Active-Duty Force 
mean Guard/Reserve members must devote a much more substantial portion 
of their working lives to military service than ever envisioned when 
the current retirement system was developed in 1948.
    Repeated, extended activations make it more difficult to sustain a 
full civilian career and impede reservists' ability to build a full 
civilian retirement, 401(k), etc. Regardless of statutory protections, 
periodic long-term absences from the civilian workplace can only limit 
Guard/Reserve members' upward mobility, employability and financial 
security. Further, strengthening the Reserve retirement system will 
serve as an incentive to retaining critical mid-career officers and 
NCOs for continued service and thereby enhance readiness.
    As a minimum, the next step in modernizing the Reserve retirement 
system is to provide equal retirement-age-reduction credit for all 
activated service rendered since September 11, 2001. The current law 
that credits only active service since January 28, 2008 disenfranchises 
and devalues the service of hundreds of thousands of Guard/Reserve 
members who served combat tours (multiple tours, in thousands of cases) 
between 2001 and 2008.
    The statute also must be amended to eliminate the inequity inherent 
in the current fiscal year retirement calculation, which only credits 
90 days of active service for early retirement purposes if it occurs 
within the same fiscal year. The current rule significantly penalizes 
members who deploy in July or August vs. those deploying earlier in the 
fiscal year.
    It is patently unfair, as the current law requires, to give 3 
months retirement age credit for a 90-day tour served from January 
through March, but only half credit for a 120-day tour served from 
August through November (because the latter covers 60 days in each of 2 
fiscal years).
    For the near term, the Military Coalition places particular 
priority on authorizing early retirement credit for all qualifying 
post-September 11 active duty service performed by Guard/Reserve 
servicemembers and eliminating the fiscal-year-specific accumulator 
that bars equal credit for members deploying for equal periods during 
different months of the year.
    Ultimately, TMC believes we must move forward to provide a reduced 
age entitlement for retired pay and health coverage for all Reserve 
component members--that is, an age/service formula or outright 
eligibility, if otherwise qualified, at age 55.
    Further, TMC urges repeal of the annual cap of 130 days of inactive 
duty training points that may be credited towards a Reserve retirement.
Guard and Reserve Yellow Ribbon Readjustment
    Congress has provided increased resources to support the transition 
of warrior-citizens back into the community. But program execution 
remains spotty from State to State and falls short for returning 
Federal Reserve warriors in widely dispersed regional commands. 
Military and civilian leaders at all levels must improve the 
coordination and delivery of services for the entire Operational 
Reserve Force. Many communities are eager to support and many do that 
well. But, yellow ribbon efforts in a number of locations amount to 
little more than PowerPoint slides and little or no actual 
implementation.
    TMC is grateful for the subcommittee's attention to this issue and 
for including reporting requirements on progress in the National 
Defense Authorization Act for Fiscal Year 2010.
    Making Yellow Ribbon work effectively is a major Coalition 
priority, and our hope is that the NDAA-required reports will point the 
way for further subcommittee action in this important area.
    TMC urges the subcommittee to hold oversight hearings and to direct 
additional improvements in coordination, collaboration, and consistency 
of Yellow Ribbon services. DOD must ensure that State-level best 
practices--such as those in Maryland, Minnesota and New Hampshire--are 
applied for all Operational Reserve Force members and their families, 
and that Federal Reserve veterans have equal access to services and 
support available to National Guard veterans. Community groups, 
employers, and service organization efforts need to be encouraged and 
better coordinated to supplement unit, component, Service and VA 
outreach and services.
Guard/Reserve GI Bill
    TMC is grateful to Congress for inclusion of a critical ``earn as 
you serve'' principle in the new Post-September 11 GI Bill, which 
allows operational reservists to accrue educational benefits for each 
aggregate call-up of 90 days or more active duty. Inexplicably, 
however, active duty members of the National Guard serving under Title 
32 orders were not included in the new program despite their critical 
role in homeland defense, counter-drug, border control, and other 
missions.
    TMC urges the subcommittee to work with the Veterans Affairs 
Committee to include Title 32 AGRs in the Post-September 11 statute.
    TMC's longstanding recommendation of coordinating and integrating 
various educational benefit programs has been made more challenging 
with the Post-September 11 GI Bill.
    For example, benefits for initially joining the Guard or Reserve as 
authorized in Chapter 1606, 10 U.S.C. continue to decline in proportion 
to the active duty Montgomery GI Bill (Chap. 30, 38 U.S.C.) and the new 
Post-September 11 GI Bill. Reserve MGIB benefit levels have slid to 24 
percent of the active duty MGIB benefit, compared to 47-50 percent 
during the first 15 years of the program. Restoration of the original 
ratio would raise basic Reserve rates from the current $333 per month 
to $643-$684 per month for full-time study.
    TMC maintains that restoring the ratio is not only a matter of 
equity, but essential to long-term success of Guard and Reserve 
recruiting programs.
    Based on the DOD/Services' 10-year record of indifference to the 
basic Selected Reserve GI Bill under Chapter 1606, 10 U.S.C., TMC 
recommends either: restoring Reserve benefits to 47-50 percent of 
active duty benefits or transferring the Chapter 1606 statute from 
title 10 to title 38 so that it can be coordinated with other 
educational benefits programs in a 21st century GI Bill architecture. 
TMC also supports assured academic reinstatement, including guaranteed 
re-enrollment, for returning operational reservists.
Special and Incentive Pays
    Increased reliance on Guard and Reserve Forces to perform active 
duty missions has highlighted differentials and inconsistencies between 
treatment of active duty vs. Guard and Reserve members on a range of 
special and incentive pays. Congress has acted to address some of these 
disparities, but more work is needed.
    The Coalition urges the subcommittee to ensure equitable treatment 
of Guard and Reserve vs. Active Duty members for the full range of 
special and incentive pays.
                             retiree issues
    The Military Coalition remains grateful to the subcommittee for its 
support of maintaining a strong military retirement system to help 
offset the extraordinary demands and sacrifices inherent in a career of 
uniformed service.
Concurrent Receipt
    In the NDAA for Fiscal Year 2003 and Fiscal Year 2004, Congress 
acknowledged the inequity of the disability offset to earned retired 
pay and established a process to end or phase out the offset for many 
disabled retirees. The Coalition is extremely grateful with the 
subcommittee's efforts to continue progress in easing the adverse 
effects of the offset.
    Last year we were very optimistic that another very deserving group 
of disabled retirees would become eligible for concurrent receipt when 
the White House included a concurrent receipt proposal in the Budget 
Resolution--the first time in history any administration had ever 
proposed such a fix.
    The administration's proposal, again submitted in this year's 
budget, would expand concurrent receipt eligibility over a 5 year 
period to all those forced to retire early from Service due to a 
disability, injury, or illness that was service-connected (chapter 61 
retirees).
    Thanks to the strong support of Armed Services Committee leaders, 
the proposal was included in the House version of the NDAA for Fiscal 
Year 2010. The Coalition was dismayed that, despite your leadership 
efforts and White House support, the provision failed to survive 
conference--an extremely disappointing outcome for a most deserving 
group of disabled retirees.
    Our fervent hope is that the subcommittee will redouble its efforts 
to authorize this initiative for fiscal year 2011.
    Additionally, the Coalition is concerned that an inadvertent 
problem exists in the statutory Combat-Related Special Compensation 
(CRSC) computation formula causes many seriously disabled and clearly 
eligible members to receive little or nothing in the way of CRSC. The 
Defense Department has acknowledged the problem in discussions with the 
subcommittee staff, and the Coalition urges the subcommittee to correct 
this technical problem.
    The Coalition believes strongly in the principle that career 
military members earn their retired pay by service alone, and that 
those unfortunate enough to suffer a service-caused disability in the 
process should have any VA disability compensation from the VA added 
to, not subtracted from their service-earned military retired pay and 
this remains a key goal in 2010--regardless of years of service or 
severity of their disability rating.
    The Coalition's continuing goal is to fully eliminate the deduction 
of VA disability compensation from earned military retired pay for all 
disabled retirees. In pursuit of that goal, the Coalition's immediate 
priorities include:

        <bullet> Phasing out the disability offset for all Chapter 61 
        (medical) retirees; and
        <bullet> Correcting the CRSC formula to ensure the intended 
        compensation is delivered.
Proposed Military Retirement Changes
    The Coalition remains concerned that as budgets get tighter and 
calls to establish a new entitlement or debt-reduction commission grow 
louder, the military retirement system may come under greater scrutiny 
to seek savings or ``efficiencies.''
    Our concern is based on past experience that seeking to wring 
savings from military retirement programs poses a significant threat to 
long-term retention and readiness by decreasing the attractiveness of 
serving for 2 or 3 decades in uniform, with all of the extraordinary 
demands and sacrifice inherent in such extended career service.
    For example, the Coalition is very concerned that proposals to 
``civilianize'' military retirement benefits, such as the changes 
recommended by the 10th Quadrennial Review of Military Compensation 
(QRMC) fail utterly to recognize the fundamental purpose of the 
military retirement system in offsetting service conditions that are 
radically more severe than those experienced by the civilian workforce.
    The QRMC proposed converting the military retirement system to a 
civilian-style plan under which full retired pay wouldn't be paid until 
age 57-60; vesting retirement benefits after 10 years of service; and 
using flexible ``gate pays'' and separation pay at certain points of 
service to encourage continued service in certain age groups or skills 
and encourage others to leave, depending on service needs for certain 
kinds of people at the time.
    Reduced to its essence, this admittedly cost-neutral plan would 
take money from people who stay for a career in order to pay additional 
benefits to those who leave the military short of a career.
    If this system were in place today, a 10-year infantryman facing 
his or her fourth combat tour would be offered a choice between: (a) 
allowing immediate departure with a vested retirement; vs. (b) 
continuing under current service conditions for another 10-20 years and 
having to wait until age 58 for immediate retired pay.
    The Coalition believes strongly that, if such a system existed for 
today's force under today's service conditions, the military services 
would already be mired in a deep and traumatic retention crisis.
    Further, the QRMC proposal is so complicated that people evaluating 
career decisions at the 4- to 10-year point would have no way to 
project their future military retirement benefits. Gate pays available 
at the beginning of a career could be cut back radically if the force 
happened to be undergoing a strength reduction later in a member's 
career.
    In contrast, the current military retirement system makes it very 
clear from the pay table what level of retired pay would be payable, 
depending how long one served and how well one progressed in grade.
    The sustained drawing power of the 20-year retirement system 
provides an essential long-term moderating influence that keeps force 
managers from over-reacting to short-term circumstances. Had force 
planners had such a system in effect during the drawdown-oriented 
1990s, the Services would have been far less prepared for the post-
September 11 wartime environment.
    Many such proposals have been offered in the past, and have been 
discarded for good reasons. The only initiative to substantially 
curtail/delay military retired pay that was enacted--the 1986 REDUX 
plan--and only a remnant remain as the mandatory REDUX was scrapped 13 
years later after it began inhibiting retention.
    The only remnant that remains--and has been in place unchanged 
since 1999--is a voluntary program known as the Career Status Bonus--a 
$30,000 ``bonus'' bait and switch--where the servicemember can receive 
$30,000 at their 15 year point as long as they accept REDUX.
    That ``bonus'' was a bad deal at the time and it gets worse with 
every passing year as pay (and retired pay) increases.
    After taxes, the so-called bonus is more like $22,000 or $23,000. 
To get that, the typical NCO who retires with 20 years of service must 
agree to sacrifice more than $300,000 in future retired pay (those who 
live longer than average sacrifice far more). That's how much less 
REDUX is worth compared to the normal system.
    TMC urges the subcommittee to:

        <bullet> Reject any initiatives to ``civilianize'' the military 
        system without adequate consideration of the unique and 
        extraordinary demands and sacrifices inherent in a military vs. 
        a civilian career; and
        <bullet> Eliminate the Career Status Bonus for servicemembers 
        as it significantly devalues their retirement over time. In the 
        short term, the Services should be required to better educate 
        eligible members on the severe long-term financial penalty 
        inherent in accepting the REDUX option.
Disability Severance Pay
    The Coalition is grateful for the subcommittee's inclusion of a 
provision in the NDAA for Fiscal Year 2008 that ended the VA 
compensation offset of a servicemember's disability severance for 
people injured in the combat zone.
    However, we are concerned that the language of this provision 
imposes much stricter eligibility than that used for Combat-Related 
Special Compensation.
    The Coalition urges the subcommittee to amend the eligibility rules 
for disability severance pay to include all combat--or operations--
related injuries, using same definition as CRSC. For the longer term, 
the Coalition believes the offset should be ended for all members 
separated for service-caused disabilities.
    Former Spouse Issues
    For nearly a decade the recommendations of the Defense Department's 
September 2001 report to Congress on the Uniformed Services Former 
Spouse Protection Act (USFSPA) have gone nowhere. For several years, 
DOD submitted many of the report's recommendations annually to Congress 
only to have one or two supported by the subcommittee while many others 
were dropped.
    The USFSPA is a very emotional topic with two distinct sides to the 
issue--just as any divorce has two distinct parties affected. The 
Coalition believes strongly that there are several inequities in the 
act that need to be addressed and corrected that could benefit both 
affected parties--the servicemember and the former spouse.
    But in order to make progress, we believe Congress cannot piecemeal 
DOD's recommendations. We support a collective grouping of legislation 
that would provide benefit to both affected parties. Absent this 
approach, the legislation will be perceived as supporting one party 
over the other and go nowhere.
    To fairly address the problems with the act, all affected parties 
need to be heard--and the Coalition would greatly appreciate the 
opportunity to address the inequities in a hearing before the 
subcommittee.
    The Coalition requests a hearing to address USFSPA inequities. In 
addition, we recommend legislation to include all of the following:

        <bullet> Base the award amount to the former spouse on the 
        grade and years of service of the member at time of divorce 
        (and not retirement);
        <bullet> Prohibit the award of imputed income, which 
        effectively forces active duty members into retirement;
        <bullet> Extend 20/20/20 benefits to 20/20/15 former spouses;
        <bullet> Permit the designation of multiple Survivor Benefit 
        Plan (SBP) beneficiaries with the presumption that SBP benefits 
        must be proportionate to the allocation of retired pay;
        <bullet> Eliminate the ``10-year Rule'' for the direct payment 
        of retired pay allocations by the Defense Finance and 
        Accounting Service (DFAS);
        <bullet> Permit SBP premiums to be withheld from the former 
        spouse's share of retired pay if directed by court order;
        <bullet> Permit a former spouse to waive SBP coverage;
        <bullet> Repeal the 1-year deemed election requirement for SBP; 
        and
        <bullet> Assist the DOD and Services with greater outreach and 
        expanded awareness to members and former spouses of their 
        rights, responsibilities, and benefits upon divorce.
                            survivor issues
    The Coalition is grateful to the subcommittee for its significant 
efforts in recent years to improve the Survivor Benefit Plan (SBP), 
especially its major achievement in eliminating the significant benefit 
reduction previously experienced by SBP survivors upon attaining age 
62.
SBP-DIC Offset
    The Coalition believes strongly that current law is unfair in 
reducing military SBP annuities by the amount of any survivor benefits 
payable from the DIC program.
    If the surviving spouse of a retiree who dies of a service-
connected cause is entitled to DIC from the Department of Veterans 
Affairs and if the retiree was also enrolled in SBP, the surviving 
spouse's SBP annuity is reduced by the amount of DIC. A pro-rata share 
of the SBP premiums is refunded to the widow upon the member's death in 
a lump sum, but with no interest. This offset also affects all 
survivors of members who are killed on active duty.
    The Coalition believes SBP and DIC payments are paid for different 
reasons. SBP is insurance purchased by the retiree and is intended to 
provide a portion of retired pay to the survivor. DIC is a special 
indemnity compensation paid to the survivor when a member's service 
causes his or her premature death. In such cases, the VA indemnity 
compensation should be added to the SBP annuity the retiree paid for, 
not substituted for it.
    It should be noted as a matter of equity that surviving spouses of 
Federal civilian retirees who are disabled veterans and die of 
military-service-connected causes can receive DIC without losing any of 
their Federal civilian SBP benefits.
    The reality is that, in every SBP-DIC case, active duty or retired, 
the true premium extracted by the Service from both the member and the 
survivor was the ultimate one--the very life of the member. This 
reality was underscored by the August 2009 Federal Court of Appeals 
ruling in Sharp v. U.S. which found ``After all the servicemember paid 
for both benefits: SBP with premiums; DIC with his life.''
    The Veterans Disability Benefits Commission (VDBC) was tasked to 
review the SBP-DIC issue, among other DOD/VA benefit topics. The VDBC's 
final report to Congress agreed with the Coalition in finding that the 
offset is inappropriate and should be eliminated.
    In 2005, Speaker Pelosi and all House leaders made repeal of the 
SBP-DIC offset a centerpiece of their GI Bill of Rights for the 21st 
Century. Leadership has made great progress in delivering on other 
elements of that plan, but the only progress to date on the SBP-DIC 
offset has been the enactment a small monthly Special Survivor 
Indemnity Allowance (SSIA).
    The Coalition recognizes that the subcommittee's initiative in the 
fiscal year 2008 defense bill to establish a special survivor indemnity 
allowance (SSIA) was intended as a first, admittedly very modest, step 
in a longer-term effort to phase out the Dependency and Indemnity 
Compensation (DIC) offset to SBP.
    We appreciate the subcommittee's subsequent work to extend the SSIA 
to survivors of members who died while on active duty in the NDAA for 
Fiscal Year 2009, as well as its good-faith effort to provide a 
substantial increase in SSIA payments as part of the Family Smoking 
Prevention and Tobacco Control Act.
    The Coalition was extremely disappointed that the final version of 
that legislation greatly diluted the House-passed provision and 
authorized only very modest increases several years in the future.
    While fully acknowledging the subcommittee's and full committee's 
good-faith efforts to win more substantive progress, the Coalition 
shares the extreme disappointment and sense of abandonment of the SBP-
DIC widows who are being forced to sacrifice up to $1,110 each month 
and being asked to be satisfied with a $60 monthly rebate.
    For years, legislative leaders touted elimination of this ``widow's 
tax'' as a top priority. The Coalition understands the mandatory-
spending constraints the subcommittee has faced in seeking redress, but 
also points out that those constraints have been waived for many, many 
far more expensive initiatives. The Coalition believes widows whose 
sponsors' deaths were caused by military service should not be last in 
line for redress.
    The Coalition urges repeal of the SBP-DIC offset. TMC further 
recommends:

        <bullet> Authorizing payment of SBP annuities for disabled 
        survivors into a Special Needs Trust; (Certain permanently 
        disabled survivors can lose eligibility for Supplemental 
        Security Income (SSI) and Medicaid and access to means-tested 
        State programs because of receipt of SBP. This initiative is 
        essential to put disabled SBP annuitants on an equal footing 
        with other SSI/Medicaid-eligibles who have use of special needs 
        trusts to protect disabled survivors.)
        <bullet> Allowing SBP eligibility to switch to children if a 
        surviving spouse is convicted of complicity in the member's 
        death; and
        <bullet> Reinstating SBP for survivors who previously 
        transferred payments to their children at such time as the 
        youngest child attains majority, or upon termination of a 
        second or subsequent marriage.
Final Retired Pay Check
    Under current law, DFAS recoups from military widows' bank accounts 
all retired pay for the month in which a retiree dies. Subsequently, 
DFAS pays the survivor a pro-rated amount for the number of days of 
that month in which the retiree was alive. This often creates hardships 
for survivors who have already spent that pay on rent, food, etc., and 
who routinely are required to wait several months for DFAS to start 
paying SBP benefits.
    The Coalition believes this is an extremely insensitive policy 
imposed by the government at the most traumatic time for a deceased 
member's next of kin. Unlike his or her active duty counterpart, a 
retiree's survivor receives no death gratuity. Many older retirees do 
not have adequate insurance to provide even a moderate financial 
cushion for surviving spouses.
    The VA is required by law to make full payment of the final month's 
VA disability compensation to the survivor of a disabled veteran. The 
disparity between DOD and VA policy on this matter is simply 
indefensible. Congress should do for retirees' widows the same thing it 
did 10 years ago to protect veterans' widows.
    TMC urges the subcommittee to authorize survivors of retired 
members to retain the final month's retired pay for the month in which 
the retiree dies.
                           health care issues
    The Coalition appreciates the subcommittee's strong and continuing 
interest in keeping health care commitments to military beneficiaries. 
We are particularly grateful for your support for the last few years in 
refusing to allow the Department of Defense to implement 
disproportional beneficiary health care fee increases.
    The Coalition is encouraged that the current administration so far 
has declined to pursue such increases, but has worked to reestablish a 
mutually constructive dialogue with beneficiary representatives.
    The unique package of military retirement benefits--of which a key 
component is a top-of-the-line health care benefit--is the primary 
offset afforded uniformed servicemembers for enduring a career of 
unique and extraordinary sacrifices that few Americans are willing to 
accept for 1 year, let alone 20 or 30. It is an unusual, and essential, 
compensation package that a grateful Nation provides for a relatively 
small fraction of the U.S. population who agree to subordinate their 
personal and family lives to protecting our national interests for so 
many years. This sacrifice, in a very real sense, constitutes a pre 
paid premium for their future healthcare.
Defense Health Program Cost Requirements
    The Coalition is grateful for the subcommittee's support for 
maintaining--and expanding where needed--the healthcare benefit for all 
military beneficiaries and especially for the Guard, Reserve, and 
military children, consistent with the demands imposed upon them.
    It's true that many private sector employers are choosing to shift 
an ever-greater share of health care costs to their employees and 
retirees, and that's causing many still-working military retirees to 
fall back on their service-earned TRICARE coverage. Fallout from the 
recent economic recession is likely to reinforce this trend.
    In the bottom-line-oriented corporate world, many firms see their 
employees as another form of capital, from which maximum utility is to 
be extracted at minimum cost, and those who quit are replaceable by 
similarly experienced new hires. But that can't be the culture in the 
military's closed, all-volunteer personnel system, whose long-term 
effectiveness is dependent on establishing a sense of mutual, long-term 
commitment between the servicemember and his/her country.
    The Coalition believes it's essential to bear other considerations 
in mind when considering the extent to which military beneficiaries 
should share in military health care costs.
    First and foremost, the military health system is not built for the 
beneficiary, but to sustain military readiness. Each Service maintains 
its unique facilities and systems to meet its unique needs, and its 
primary mission is to sustain readiness by keeping a healthy force and 
to be able to treat casualties from military actions. That model is 
built neither for cost efficiency nor beneficiary welfare. It's built 
for military readiness requirements.
    When military forces deploy, the military medical force goes with 
them, and that forces families, retirees and survivors to use the more 
expensive civilian health care system in the absence of so many 
uniformed health care providers.
    These military-unique requirements have significantly increased 
readiness costs. But those added costs were incurred for the 
convenience of the military, not for any beneficiary consideration, and 
beneficiaries should not be expected to bear any share of that cost -
particularly in wartime.
    The Coalition urges the subcommittee to take all possible steps to 
ensure continued full funding for Defense Health Program needs.
National Health Reform
    The Coalition opposes any effort to integrate TRICARE and VA health 
care systems in any proposal that Congress may develop as part of 
national health care reform. These two programs are integral to 
military readiness and are designed expressly to meet the unique needs 
of servicemembers, military retirees, veterans, wounded servicemembers, 
guardsmen and reservists, their families, and survivors.
    TMC urges that any national health reform legislation must:

        <bullet> Protect the unique TRICARE, TRICARE For Life, and VA 
        health care benefits from unintended consequences such as 
        reduced access to care;
        <bullet> Bar any form of taxation of TRICARE, TRICARE For Life, 
        or VA health care benefits, including those provided in 
        nongovernmental venues; and
        <bullet> Preserve military and VA beneficiaries' choices.
Military vs. Civilian Cost-Sharing Measurement
    Defense leaders have in the past, and may in the future, assert 
that substantial military fee increases are needed to bring military 
beneficiary health care costs more in line with civilian practices. But 
merely contrasting military vs. civilian cash cost-shares is a grossly 
misleading, ``apple-to-orange'' comparison.
    For all practical purposes, those who wear the uniform of their 
country are enrolled in a 20- to 30-year prepayment plan that they must 
complete to earn lifetime health coverage. In this regard, military 
retirees and their families paid enormous ``upfront'' premiums for that 
coverage through their decades of service and sacrifice. Once that 
prepayment is already rendered, the government cannot simply pretend it 
was never paid, and focus only on post-service cash payments.
    DOD and the Nation--as good-faith employers of the trusting members 
from whom they demand such extraordinary commitment and sacrifice--have 
a reciprocal health care obligation to retired servicemembers and their 
families and survivors that far exceeds any civilian employer's to its 
workers and retirees.
    The Coalition believes that military beneficiaries from whom 
America has demanded decades of extraordinary service and sacrifice 
have earned coverage that is the best America has to offer.
Large Retiree Fee Increases Can Only Hurt Retention
    The reciprocal obligation of the government to maintain an 
extraordinary benefit package to offset the extraordinary sacrifices of 
career military servicemembers is a practical as well as moral 
obligation. Mid-career military losses can't be replaced like civilians 
can.
    Eroding benefits for career service can only undermine long-term 
retention/readiness. Today's servicemembers are very conscious of 
Congress' actions toward those who preceded them in service. One reason 
Congress enacted TRICARE For Life in 2000 is because the Joint Chiefs 
of Staff at that time said inadequate retiree health care was affecting 
attitudes among active duty servicemembers.
    That's more than backed up by two independent Coalition surveys. A 
2006 Military Officers Association of America survey drew 40,000 
responses, including more than 6,500 from active duty servicemembers. 
Over 92 percent in all categories of respondents opposed the DOD-
proposed fee hikes. There was virtually no difference between the 
responses of active duty servicemembers (96 percent opposed) and 
retirees under 65 (97 percent opposed). A Fleet Reserve Association 
survey showed similar results.
    Reducing military retirement benefits would be particularly ill-
advised when an overstressed force already is at increasing retention 
risk despite the current downturn of the economy and current recruiting 
successes.
Pharmacy
    The Coalition supports a strong TRICARE pharmacy benefit which is 
affordable and continues to meet the pharmaceutical needs of millions 
of eligible beneficiaries through proper education and trust. The TMC 
will oppose any degradation of current pharmacy benefits, including any 
effort to charge fees or copayments for use of military treatment 
facilities.
    The Coalition would oppose the need for pharmacy co-pay increases 
now that Congress has approved Federal pricing for the TRICARE retail 
pharmacy system. The Coalition notes that due to continued legal 
maneuvering, Federal pricing still has not been implemented by the 
executive branch, and this failure is costing DOD tens of millions of 
dollars with every passing month. This is an excellent example of why 
the Coalition objects to basing beneficiary fees on a percentage of DOD 
costs--because DOD all-too-frequently does not act, or is not allowed 
to act, in a prudent way to hold costs down.
    The Coalition has volunteered to conduct a joint campaign with DOD 
to promote beneficiary use of lower-cost medications and distribution 
venues--a ``win-win'' opportunity that will reduce costs for 
beneficiaries and the government alike.
    The Coalition also believes that positive incentives are the best 
way to encourage beneficiaries to continue medication regimens that are 
proven to hold down long-term health costs. In this regard, TMC 
believes eliminating copays for medications to control chronic 
conditions (e.g., diabetes, asthma, high blood pressure, and 
cholesterol) are more effective than negative ones such as copayment 
increases.
    The Coalition urges the subcommittee to ensure continued 
availability of a broad range of medications, including the most-
prescribed medications, in the TRICARE pharmacy system, and to ensure 
that the first focus on cost containment should be on initiatives that 
encourage beneficiaries to take needed medications and reduce program 
costs without shifting costs to beneficiaries.
Alternative Options to Make TRICARE More Cost-Efficient
    TMC continues to believe strongly that DOD has not sufficiently 
investigated options to make TRICARE more cost-efficient without 
shifting costs to beneficiaries. The Coalition has offered a long list 
of alternative cost-saving possibilities, including:

        <bullet> Positive incentives to encourage beneficiaries to seek 
        care in the most appropriate and cost effective venue;
        <bullet> Encouraging improved collaboration between the direct 
        and purchased care systems and implementing best business 
        practices and effective quality clinical models;
        <bullet> Focusing the military health system, health care 
        providers, and beneficiaries on quality measured outcomes;
        <bullet> Improving MHS financial controls and avoiding overseas 
        fraud by establishing TRICARE networks in areas fraught with 
        fraud;
        <bullet> Establishing TRICARE networks in areas of high TRICARE 
        Standard utilization to take full advantage of network 
        discounts;
        <bullet> Promoting retention of other health insurance by 
        making TRICARE a true second-payer to other insurance (far 
        cheaper to pay another insurance's co-pay than have the 
        beneficiary migrate to TRICARE);
        <bullet> Encouraging DOD to effectively utilize their data from 
        their electronic health record to better monitor beneficiary 
        utilization patterns to design programs which truly match 
        beneficiaries needs;
        <bullet> Sizing and staffing military treatment facilities to 
        reduce reliance on network providers and develop effective 
        staffing models which support enrolled capacities;
        <bullet> Reducing long-term TRICARE Reserve Select (TRS) costs 
        by allowing servicemembers the option of a government subsidy 
        of civilian employer premiums during periods of mobilization;
        <bullet> Doing far more to promote use of mail-order pharmacy 
        system and formulary medications via mailings to users of 
        maintenance medications, highlighting the convenience and 
        individual expected cost savings; and
        <bullet> Encouraging retirees to use lowest-cost-venue military 
        pharmacies at no charge, rather than discouraging such use by 
        limiting formularies, curtailing courier initiatives, etc.

    The Coalition is pleased that DOD has begun to implement some of 
our suggestions, and stands ready to partner with DOD to investigate 
and jointly pursue these and other options that offer potential for 
reducing costs.
TMC Healthcare Cost Principles
    The Military Coalition believes strongly that the recent fee 
controversy is caused in part by the lack of any statutory record of 
the purpose of military health care benefits and the specific benefit 
levels earned by a career of service in uniform. Under current law, the 
Secretary of Defense has broad latitude to make administrative 
adjustments to fees for TRICARE Prime and the pharmacy systems. Absent 
congressional intervention, the Secretary can choose not to increase 
fees for years at a time or can choose to quadruple fees in 1 year.
    Until a few years ago, this was not a particular matter of concern, 
as no Secretary had previously proposed dramatic fee increases. Given 
recent years' unsettling experience, the Coalition believes strongly 
that the subcommittee needs to establish more specific and permanent 
principles, guidelines, and prohibitions to protect against dramatic 
budget-driven fluctuations in this most vital element of 
servicemembers' career compensation incentive package.
    The Coalition strongly recommends that Congress establish statutory 
findings, a sense of Congress on the purpose and principles of military 
health care benefits earned by a career of uniformed service that 
states:

        <bullet> Active duty members and families should be charged no 
        fees except retail pharmacy co-payments, except to the extent 
        they make the choice to participate in TRICARE Standard or use 
        out-of-network providers under TRICARE Prime;
        <bullet> The TRICARE Standard inpatient copay should not be 
        increased further for the foreseeable future. At $535 per day, 
        it already far exceeds inpatient copays for virtually any 
        private sector health plan;
        <bullet> There should be no enrollment fee for TRICARE Standard 
        or TRICARE For Life (TFL), since neither offers assured access 
        to TRICARE-participating providers. An enrollment fee implies 
        enrollees will receive additional services, as Prime enrollees 
        are guaranteed access to participating providers in return for 
        their fee. Congress already has required TFL beneficiaries to 
        pay substantial Medicare Part B fees to gain TFL coverage;
        <bullet> All retired servicemembers earned equal health care 
        coverage by virtue of their service; and
        <bullet> DOD should make all efforts to provide the most 
        efficient use of allocated resources and cut waste prior to 
        proposing additional or increased fees on eligible 
        beneficiaries.
TRICARE Prime
    The Coalition is very concerned about growing dissatisfaction among 
TRICARE Prime enrollees--which is actually higher among active duty 
families than among retired families. The dissatisfaction arises from 
increasing difficulties experienced by beneficiaries in getting 
appointments, referrals to specialists, and sustaining continuity of 
care from specific providers.
    Increasingly, beneficiaries with a primary care manager in a 
military treatment facility find they are unable to get appointments 
because so many providers have deployed, PCSed, or are otherwise 
understaffed/unavailable.
    The Coalition supports the implementation of a pilot study by TMA 
in each of the three TRICARE Regions to study the efficacy of 
revitalizing the resource sharing program used prior to the 
implementation of the TRICARE-The Next Generation (T-NEX) contracts 
under the current Managed Care Support contract program.
    The Coalition supports adoption of the ``Medical Home'' patient-
centered model to help ease such problems.
    But the new TRICARE contracts and the attendant reduction of Prime 
service areas outside the vicinity of military installations will 
exacerbate anxieties by forcing disenrollment of many thousands of 
current Prime beneficiaries.
    The Coalition strongly advocates the transparency of healthcare 
information via the patient electronic record between both the MTF 
provider and network providers. Additionally, institutional and 
provider healthcare quality information should be available to all 
beneficiaries so that they can make better informed decisions.
    The Military Coalition urges the subcommittee to require reports 
from DOD and from the managed care support contractors, on actions 
being taken to improve Prime patient satisfaction, provide assured 
appointments within Prime access standards, reduce delays in 
preauthorization and referral appointments, and provide quality 
information to assist beneficiaries in making informed decisions.
                            tricare standard
TRICARE Standard Provider Participation
    The Coalition appreciates the subcommittee's continuing interest in 
the specific problems unique to TRICARE Standard beneficiaries. TRICARE 
Standard beneficiaries need assistance in finding participating 
providers within a reasonable time and distance from their home. This 
is particularly important with the expansion of TRICARE Reserve Select 
and the upcoming change in the Prime Service Areas, which will place 
thousands more beneficiaries into TRICARE Standard.
    The Coalition is concerned that DOD has not yet established any 
standard for adequacy of provider participation, as required by section 
711(a)(2) of the NDAA for Fiscal Year 2008. Participation by half of 
the providers in a locality may suffice if there is not a large 
Standard beneficiary population. The Coalition hopes to see an 
objective participation standard (perhaps number of beneficiaries per 
provider) that would help shed more light on which locations have 
participation shortfalls of Primary Care Managers and Specialists that 
require positive action.
    The Coalition urges the subcommittee to insist on immediate 
delivery of an adequacy threshold for provider participation, below 
which additional action is required to improve such participation. The 
Coalition also recommends requiring a specific report on participation 
adequacy in the localities where Prime Service Areas will be 
discontinued under the new TRICARE contracts.
TRICARE Reimbursement Rates
    Physicians consistently report that TRICARE is virtually the 
lowest-paying insurance plan in America. Other national plans typically 
pay providers 25-33 percent more. In some cases the difference is even 
higher.
    While TRICARE rates are tied to Medicare rates, TRICARE Managed 
Care Support Contractors make concerted efforts to persuade providers 
to participate in TRICARE Prime networks at a further discounted rate. 
Since this is the only information providers receive about TRICARE, 
they see TRICARE as lower-paying than Medicare.
    This is exacerbated by annual threats of further reductions in 
TRICARE rates due to the statutory Medicare rate-setting formula. 
Physicians may not be able to afford turning away Medicare patients, 
but many are willing to turn away a small number of patients who have 
low-paying, high-administrative-hassle TRICARE coverage.
    The TRICARE Management Activity has the authority to increase the 
reimbursement rates when there is a provider shortage or extremely low 
reimbursement rate for a specialty in a certain area and providers are 
not willing to accept the low rates. In some cases, a State Medicaid 
reimbursement for a similar service is higher than that of TRICARE. But 
the Department has been reluctant to establish a standard for adequacy 
of participation to trigger higher payments.
    The Coalition places primary importance on securing a permanent fix 
to the flawed statutory formula for setting Medicare and TRICARE 
payments to doctors.
    To the extent a Medicare rate freeze continues, we urge the 
subcommittee to encourage DOD to use its reimbursement rate adjustment 
authority as needed to sustain provider acceptance.
    The Coalition urges the subcommittee to require a Comptroller 
General report on the relative propensity of physicians to participate 
in Medicare vs. TRICARE, and the likely effect on such relative 
participation of a further freeze in Medicare/TRICARE physician 
payments along with the effect of an absence of bonus payments.
Dental Care
    The Coalition appreciates the subcommittee's action in continuing 
active duty-level dental coverage for dependent survivors and allowing 
transitional dental care for Reserve members who separate after 
supporting contingency missions.
    Active Duty Dependent Dental Plan
    TMC is sensitive to beneficiary concerns that Active Duty Dental 
Plan coverage for orthodontia has been eroded by inflation over a 
number of years.
    The current orthodontia payment cap is $1,500, which has not been 
changed since 2001. In the intervening years, the orthodontia cost has 
risen from an average of $4,000 to more than $5,000.
    The Coalition understands that, under current law, increasing this 
benefit could require a reduction in some other portion of the benefit, 
which we do not support.
    The Coalition notes that current law assumes a 60 percent DOD 
subsidy for the active duty dental plan, whereas other Federal health 
programs (e.g., FEHB Plan and TRS) are subsidized at 72 percent.
    The Coalition recommends increasing the DOD subsidy for the Active 
Duty Dependent Dental Plan to 72 percent and increasing the cap on 
orthodontia payments to $2,000.
Guard and Reserve Healthcare
    Continuum of Health Care Insurance Options for The Guard and 
        Reserve
    The Coalition is very grateful for passage of TRICARE Retired 
Reserve (TRR) coverage for ``gray area'' reservists in the NDAA for 
Fiscal Year 2010.
    The Coalition notes that DOD complied with direction from Congress 
to reduce TRICARE Reserve Select (TRS) premiums to the actual cost of 
coverage. For 2009, monthly TRS premiums were reduced to $47.51 (vs. 
$81) for member-only coverage and to $180.17 (vs. $253) for family 
coverage.
    TMC believes a review of the current statutory methodology for 
adjusting premiums based on program costs should be conducted to assess 
whether any of the costs currently included are, in fact, costs of 
maintaining readiness or ``costs of doing business'' for the Defense 
Department that don't contribute to delivering benefit value to 
beneficiaries (and therefore should be excluded, with the expected 
result that premiums would go down). In principle, TMC believes 
Congress should establish a moratorium on TRS premium increases and 
direct DOD to make a determined effort for the most efficient use of 
resources allocated and to cut waste prior to the consideration of any 
adjustment in such premiums.
    Moreover, TMC believes that holding the line on TRS premiums will 
encourage more families to enroll. DOD, the Services, and the Reserve 
components must do much more to advertise the TRS program which stands 
at only 6-7 percent of eligible beneficiaries.
    The Coalition also believes Congress is missing an opportunity to 
reduce long-term health care costs and increase beneficiary 
satisfaction by authorizing eligible members the option of electing a 
DOD subsidy of their civilian insurance premiums during periods of 
activation.
    Current law already authorizes payment of up to 24 months of FEHBP 
premiums for activated members who are civilian employees of the 
Defense Department. The Coalition believes all members of the Selected 
Reserve should have a similar option to have continuity of their 
civilian family coverage.
    Over the long term, when Guard and Reserve activations can be 
expected at a reduced pace, this option would offer considerable 
savings opportunity relative to funding permanent, year-round TRICARE 
coverage.
    DOD could calculate a maximum monthly subsidy level that would 
represent a cost savings to the government, so that each member who 
elected that option would reduce TRICARE costs.
    The Coalition recommends the subcommittee:

        <bullet> Require a GAO review of DOD's methodology for 
        determining TRS costs for premium adjustment purposes to assess 
        whether it includes any costs of maintaining readiness or 
        ``costs of doing business'' for the Defense Department that 
        don't contribute to beneficiary benefit value and thus should 
        be excluded from cost/premium calculations;
        <bullet> Authorize development of a cost-effective option to 
        have DOD subsidize premiums for continuation of a Reserve 
        employer's private family health insurance during periods of 
        deployment as an alternative to ongoing TRS coverage;
        <bullet> Allow eligibility in Continued Health Care Benefits 
        Program (CHCBP) for Selected reservists who are voluntarily 
        separating and subject to disenrollment from TRS;
        <bullet> Authorize members of the IRR who qualify for a Reserve 
        retirement at age 60 to participate in TRR as an incentive for 
        continued service (and higher liability for recall to active 
        duty);
        <bullet> Monitor implementation of the new TRR authority to 
        ensure timely action and that premiums do not exceed 100 
        percent of the TRS premium; and
        <bullet> Allow FEHB plan beneficiaries who are Selected 
        reservists the option of participating in TRS.
    Guard and Reserve Mental Health
    The Coalition is concerned that Guard and Reserve members and their 
families are at particular risk for undetected effects of the unseen 
injuries of war. The risk is compounded by Reserve component members' 
anxiety to return to their families as soon as possible, which 
typically entails expedited departure from active duty and return to a 
community where military health care and other support systems are 
limited.
    Unfortunately, most such members view the current post deployment 
health self-assessment program at demobilization sites as an impediment 
to prompt return to their families. Under this scenario, strong 
disincentives for self-reporting exacerbate an already wide variation 
in the diagnosis and treatment of post-traumatic stress disorder 
(PTSD), traumatic brain injury (TBI), depression, and other combat-
related stress conditions.
    The Coalition believes redeploying Reserve component members should 
be allowed to proceed to their home station and retained on active duty 
orders to complete post-deployment examination requirements at the home 
station. This change is important to improve proper diagnosis, 
reporting and treatment of physical and mental injuries; to help 
perfect potential service connected disability claims with the VA; and 
to help correct the non-reporting of injuries at the demobilization 
site.
    The Coalition believes that Guard and Reserve members and their 
families should have access to evidence-based treatment for PTSD, TBI, 
depression, and other combat-related stress conditions. Further, post-
deployment health examinations should be offered at the member's home 
station, with the member retained on active duty orders until 
completion of the exam.
    Guard and Reserve Health Information
    The Coalition is concerned that the current health records for many 
Guard and Reserve members do not contain treatment information that 
could be vital for diagnosis and treatment of a condition while on 
active duty. The capture of nonmilitary treatment is an integral part 
of the member's overall health status.
    The Coalition believes there should be an effort to improve the 
electronic capture of nonmilitary health information into the 
servicemember's medical record.
TRICARE For Life (TFL)
    When Congress enacted TFL in 2000, it explicitly recognized that 
this coverage was fully earned by career servicemembers' decades of 
sacrifice, and that the Medicare Part B premium would serve as the cash 
portion of the beneficiary premium payment. The Coalition believes that 
this remains true today and will oppose any new additional fees. 
Additionally, the Coalition believes that means-testing has no place in 
setting military health fees.
    The Coalition is aware of the challenges imposed by Congress' 
mandatory spending rules, and appreciates the subcommittee's efforts to 
include TFL-eligibles in the preventive care pilot programs included in 
the NDAA for Fiscal Year 2009. We believe their inclusion would, in 
fact, save the government money and hope the subcommittee will be able 
to find a more certain way to include them than the current 
discretionary authority, which DOD has declined to implement.
    The Coalition also hopes the subcommittee can find a way to resolve 
the discrepancy between Medicare and TRICARE treatment of medications 
such as the shingles vaccine, which Medicare covers under pharmacy 
benefits and TRICARE covers under doctor visits. This mismatch, which 
requires TFL patients to absorb the cost in a TRICARE deductible or 
purchase duplicative Part D coverage, deters beneficiaries from seeking 
this preventive medication.
    Coalition priorities for TFL-eligibles include:

        <bullet> Securing a permanent fix to the flawed formula for 
        setting Medicare/TRICARE payments to providers;
        <bullet> Resisting any effort to establish an enrollment fee 
        for TFL, given that many beneficiaries already experience 
        difficulties finding providers who will accept Medicare 
        patients; and
        <bullet> Including TFL beneficiaries in DOD programs to 
        incentivize compliance with preventive care and healthy 
        lifestyles.
Restoration of Survivors' TRICARE Coverage
    When a TRICARE-eligible widow/widower remarries, he/she loses 
TRICARE benefits. When that individual's second marriage ends in death 
or divorce, the individual has eligibility restored for military ID 
card benefits, including SBP coverage, commissary/exchange privileges, 
etc.--with the sole exception that TRICARE eligibility is not restored.
    This is out of line with other Federal health program practices, 
such as the restoration of CHAMPVA eligibility for survivors of 
veterans who died of service-connected causes. In those cases, VA 
survivor benefits and health care are restored upon termination of the 
remarriage. Remarried surviving spouses deserve equal treatment.
    The Coalition recommends restoration of TRICARE benefits to 
previously eligible survivors whose second or subsequent marriage ends 
in death or divorce.
Base Realignment and Closure (BRAC) and Rebasing
    Military transformation and BRAC become more pressing issues as the 
Pentagon approaches the BRAC deadline set for September 15, 2011. The 
impact on the MHP is significant and concern about the impact on 
beneficiaries is of high priority to TMC. Specific areas of interest to 
the TMC include:

        <bullet> Supporting a Health Facilities Program that uses 
        evidenced-based design to update or replace Military Treatment 
        Facilities (MTFs) to maintain world-class health care delivery 
        capability in support of all eligible beneficiaries;
        <bullet> Protecting full access, availability and services to 
        beneficiaries and their families during the entire military 
        transformation (BRAC and global rebasing) process, with added 
        focus on Walter Reed Army Medical Center, Bethesda National 
        Naval Medical Center, DeWitt Healthcare Network, and San 
        Antonio Army Medical Center, while seeking full and timely 
        funding for these world-class projects;
        <bullet> Encouraging DOD to establish and sustain provider 
        networks and capacity at both closing and gaining installations 
        and units impacted by transformation;
        <bullet> Promoting the coordination of efforts between Managed 
        Care Support Contractors to ensure smooth beneficiary 
        transition from one geographic area to another;
        <bullet> Codifying the requirement to continue Prime benefits 
        and assistance in localities affected by realignment and 
        closure actions; and
        <bullet> Monitoring the National Capitol Region Medical Joint 
        Task Force activities to ensure the most effective use of 
        resources to improve access and quality.

    The Coalition recommends requiring an annual DOD report on the 
adequacy of health resources, funding, services, quality and access to 
care for beneficiaries affected by BRAC/rebasing.

    Senator Webb. Thank you very much.
    I want to thank all of you for your testimony. The feedback 
is important to us. It's useful. It's not only useful, it's 
valuable. It will be taken into full consideration.
    There are a dozen really important points that were raised, 
from my perspective, listening to your testimony.
    TRICARE will not be affected, as long as I have anything to 
do with it. I know Senator Graham feels the same way. I've seen 
the benefits in my own family, I've seen it with my mother 
right now.
    When you mention the SBP situation, my father paid into SBP 
for 28 years. When he died in 1997, they took it out of my 
mother's Social Security. Luckily, we had that situation fixed, 
but we will give the situation you mentioned a hard look. I'm 
on Senator Bill Nelson's bill.
    With respect to commissary benefits, I grew up in the 
military. I used to work in a commissary, actually; I was a 
bagboy for 2\1/2\ years when I was in high school. [Laughter.]
    But, I've always looked at commissary benefits in the same 
way that we articulate the healthcare benefits to people. 
It's--the idea of being able to go to the commissary after you 
retire is something that people count on while they're in the 
military. That's something we don't think about, I think, as 
much as we need to up here.
    Your comment, Ms. Moakler, about family difficulties and 
the need to get on top of that, there was a period in my life 
when my dad was either deployed or stationed where there was no 
family housing, for 3\1/2\ years. We had no structure in--at 
that period. We were--this idea of the family as a part of the 
operational military was not even in its infancy at the time.
    I also recall when I was in the Marine Corps and I got back 
from Vietnam, in Quantico--they did a study of the Quantico 
school system, and I think the statistic at the time was that 
the kids in the Quantico school system--the high school--had 
three times the level of emotional difficulties as the national 
level at the time, because of the intensity of the Vietnam war. 
About 100,000 killed or wounded in the U.S. Marine Corps. 
People forget that. We had more total killed or wounded in 
Vietnam than we did in World War II, in the Marine Corps. The 
stress of these 13-month deployments on the marines, and 
wondering what your dad was doing, and, at that time, he could 
be dead. Enormous impact.
    I really salute you for bringing the issue to us the way 
that you did today.
    I had one question, quickly. I know we're way behind 
schedule here, and I know Senator Graham wants to also 
participate here. But, there's a lot of experience in this 
panel--military experience. I am really puzzled when I keep 
hearing the statistic that two-thirds of the--your phraseology 
was ``optimally-aged potential enlistees'' are not qualifying, 
and that defies historical trends. If you go back, for 
instance, to the Vietnam era, which I've done a lot of study 
on, obviously, over my life--one-third of the entire age group 
served--9 million out of 27 million actually served. We're now 
saying that only one-third of an age group could even qualify 
to serve. What are your thoughts on that? Are the standards not 
fitting the potential? Or are the physical and mental 
capabilities different? Where do we get this--and what could we 
do about it?
    Mr. Barnes. Mr. Chairman, I'll speak to that first. Those 
statistics are from recruiting--Navy Recruiting Command----
    Senator Webb. Yes, I've actually heard them in other 
hearings, so----
    Mr. Barnes. Exactly. I think there are a number of facets 
associated with that. Number one, it's the All-Volunteer Force, 
which has obviously been up and functioning since the early 
1970s. The service requirements across the Services as to what 
the expectations are with regard to them; social issues, with 
practices and whatever, that are not conducive or not 
compatible with the requirements; perhaps drug use or other 
things that are happening.
    So, it's a multifaceted issue. It's very troubling to our 
Association. We have a number of recognition programs, work 
very closely with Navy, Marine Corps, and Coast Guard 
recruiting communities, I share your concern about that. It's 
kind of a staggering statistic, but it's held consistent for 
several years, now.
    Senator Webb. Does anyone else have any thoughts on that?
    Colonel Strobridge. Yes, sir. I attended a briefing by Dr. 
Curt Gilroy recently, the DOD Director of Accession Policy. I 
think one of the things he emphasized is--and, as a matter of 
fact, he--the number he gave was, only 25 percent qualify. One 
of the changes, I think, is obesity. We have a significantly 
larger number of people who are overweight today than we did in 
the past. Another thing is, kind of, the incongruity, perhaps, 
in some of the drug issues. If you report to Basic Training and 
say you experimented once with marijuana, they'll let you stay, 
but if you had a conviction for possession of a marijuana 
cigarette when you were 18, you can't come in. So, there is a 
variety of things like that, I think.
    Ms. Moakler. I think we also need to look at the converse 
of that. You have an example of this, Chairman Webb, as do I. 
I'm the mother of two soldiers. It behooves us to keep our 
promises to our families so that our children see that the 
military lifestyle is a rewarding one. We're already teaching 
them self-sacrifice. So many of our children are eligible, 
because they see that physical fitness is an important part of 
everyday life, because they are discouraged from using drugs, 
and because they seek that life of selfless service. So, that's 
just another aspect to look on it, as well.
    Mr. Cline. Mr. Chairman, we have similar problems in the 
Guard and Reserve. Standards today in the Guard and Reserve are 
much higher--back in the day when I joined. The education 
requirements, the drug problems are just higher today than they 
are.
    We're living in a day of fast food, as Colonel Strobridge 
mentioned. Overweight problems. We're constantly weeding out 
people who cannot meet the physical fitness requirements.
    Senator Webb. I know Senator Graham has to go, and he 
wanted to----
    Senator Graham. Well, one, we've been doing this together 
for several years now, and you all really do a good job of 
making the case for benefit increases and inequities. That's 
what your job is, and our job is to listen and try to meet as 
many needs as we can, understanding we can't be everything for 
everybody all the time because of budget problems.
    The thing about TRICARE--I want to just let Senator Webb 
know that, working with Senator Clinton and others, we're able 
to make the Guard and Reserve Force eligible for TRICARE year 
round. The belief is that 25 percent did not have healthcare in 
the private sector; it gives them a healthcare home. It will 
allow them to have healthcare throughout their military 
service, which is an incentive to stay in.
    I'm very disheartened by the numbers you gave me. We're 
going to do everything we can on this subcommittee to let 
people know, this benefit is there, you've earned it; it's a 
good deal, compared to the private sector; and try to get 
people to take more advantage of it. So, I promise you--18 
months is too long, so we're going to start--about the other 
problem you mentioned, about 18 months to implement the GI 
stuff, benefits.
    So, this really helps us understand how these programs 
actually work. Because when I go around talking about them, I'm 
very proud of it, but only 6 or 7 percent of the force is 
joining up, there's a disconnect. You all are really fair 
arbitrators of that.
    One thing I would suggest, Mr. Chairman, is that this 
country has to come to grips with Medicare and Social Security 
and entitlement programs that have no end in sight and 
beginning to eat up the budgets of everything else we do. The 
same is true for military healthcare. We haven't had a premium 
increase since 1995. I understand that what the past 
administration tried to do was just too much, too quick. I 
mean, it's just--couple hundred percent. Lowering the 
deductible from 500, or whatever it is, to 100 is just kind of 
a--just pretty rapid change that hits the wallet pretty hard.
    But, I would suggest that we try to work with these groups. 
You all have done a--remember when we had that big meeting a 
couple years ago? How could you lower the cost of military 
healthcare? How could you improve access and quality? What 
things could we put on the table, that are preventive, that 
would allow the military member and their family to get better 
treatment, but actually lower cost?
    I think it would be--probably behoove us to look at that 
again, before we ask for more money; to really go into this 
system and see, is it serving, an optimal level, the 
beneficiaries? Are we doing preventive medicine things that 
will lower costs and improve quality of life? But also 
understand one word: sustainability. None of these programs are 
going to be sustainable if we don't do something about that. 
That's what I would like to have this subcommittee look at, if 
we could, a way to get sustainable medical healthcare benefits 
for the retired force, the active and Guard force, and their 
families, so you can recruit and retain, but not have the 
dilemma of taking money away from a budget where you also are 
going to need to fight the war and buy equipment.
    That's the challenge of our lifetime, quite frankly, and 
you and your organization that you represent can really be 
helpful here.
    Mr. Chairman, thank you. You--obviously----
    Senator Webb. Well said.
    Senator Graham. Just listening to you--I mean, you have so 
many experiences. I don't know how you got through school. 
[Laughter.]
    I mean, changing schools that many times. Can you imagine 
the stress on that? I didn't know that. I didn't know that more 
Marines were killed in Vietnam, and wounded, than World War II.
    Senator Webb. More total casualties----
    Senator Graham. I did not know that, so----
    Senator Webb.--killed in World War II, more total 
casualties.
    Senator Graham. You have lived the life that these people 
are talking about, from personal and from your parents' point 
of view, and let's take that knowledge and put it to good use.
    Senator Webb. It's a pleasure to be working with you, 
Senator Graham, and I take all your points on track.
    I want to make one 30-second point here, just to wrap up 
this question I had about percentage of people who might be 
able to come in.
    I think we undervalue what we can get out of people who 
haven't yet finished high school, who fall out of the system, 
who can come into the military. I've seen too many success 
stories from the Marine Corps with--we have about the same 
percentage of people now who aren't finishing high school as 
did when I was in the Marine Corps. We took them, some of my 
best friends, some of my close friends in my life, people like 
Carlton Sherwood, high school dropout, three Purple Hearts in 
Vietnam, became a Pulitzer Prize-winning investigative 
reporter. Walter Anderson, Chief Executive Officer of Parade 
Magazine, Parade Enterprises, high school dropout, went in the 
Marine Corps, came back, and was valedictorian of his college 
class.
    I mean, there's a pool of people out there who, with the--
if you take their mental scores, the capability they have, who 
are looking for structure in their life, and can come in and 
really add value to our society. Maybe we ought to take that 
piece and look at it and talk to DOD about it, if we want to 
increase this pool.
    It's been a great discussion; and Senator Graham, it's a 
pleasure working with you.
    The hearing is adjourned. Thank you all.
    [Questions for the record with answers supplied follow:]
             Question Submitted by Senator Daniel K. Akaka
                    catastrophic injuries assistance
    1. Senator Akaka. Dr. Stanley, Mr. Lamont, Mr. Garcia, and Mr. 
Ginsberg, the 2010 National Defense Authorization Act includes a 
provision concerning the special compensation for members of the 
uniformed services with catastrophic injuries or illnesses requiring 
assistance in everyday living. (Subtitle A, Sec. 603 of the Conf Report 
to accompany H.R. 2647) Please provide an update on the Department of 
Defense's (DOD) actions concerning this provision.
    Dr. Stanley. The program was briefed at the March 18, 2010 Senior 
Oversight Committee (SOC) meeting, co-chaired by the Deputy Secretary 
of Defense, and the SOC decided the level to set monthly payments. We 
anticipate a decision establishing eligibility for this program will be 
made this month. The Services support providing compensation to 
catastrophically wounded, ill, and injured servicemembers for the 
assistance provided by designated caregivers. We anticipate completing 
formal coordination and signing a DOD-level Directive Type Memorandum 
by the end of May to implement this program.
    Mr. Lamont. The DOD Wounded Warrior Care and Transition Program 
Office (WWCTP) began developing a Directive-Type Memorandum (DTM) in 
December 2009 to provide guidance to the Services for the 
implementation of the provisions of Section 603 of Public Law 111-84, 
the National Defense Authorization Act for Fiscal Year 2010. To 
accomplish this task, the WWCTP established a work group consisting of 
representatives from all Services, the TRICARE Management Agency, the 
Defense Finance and Accounting Service, and other key stakeholders in 
the implementation of the special compensation program. The DTM is 
nearing completion.
    Mr. Garcia. The Office of the Secretary of Defense (OSD) is in the 
final stages of developing draft policy for coordination with the 
Services prior to implementing in April.
    Mr. Ginsberg. The Air Force is working with Army, Navy, and the OSD 
to implement this program in April 2010. OSD is finalizing a DTM for 
the Services to review and coordinate. Because we have been working on 
this together for several weeks, it is anticipated that the review will 
be finalized very quickly by the Services and signed by the Under 
Secretary of Defense (Personnel & Readiness) in the next few weeks. It 
is our desire to implement this special monthly compensation as quickly 
as possible to offer the financial assistance caregivers of our 
catastrophically wounded, ill, and injured servicemembers deserve when 
dedicating their time to assisting these servicemembers with daily 
living activities.
                                 ______
                                 
              Questions Submitted by Senator Kay R. Hagan
          census bureau tabulation of deployed servicemembers
    2. Senator Hagan. Dr. Stanley, I am very concerned that 
servicemembers that are deployed during the conduct of the 2010 Census 
will be counted in a way that negatively impacts communities that host 
military installations. North Carolina currently has approximately 
41,200 servicemembers deployed as a part of the overseas contingencies, 
and in the event that they are counted as prescribed by the U.S. Census 
Bureau, areas with large concentrations of military personnel will be 
significantly undercounted, and underfunded for the next 10 years. What 
is preventing the Defense Manpower Data Center from providing the U.S. 
Census Bureau with information regarding the base of last assignment or 
permanent U.S. duty station as the primary response for deployed 
servicemembers currently engaged in overseas contingencies?
    Dr. Stanley. While there is no law specifying how to count 
servicemembers deployed overseas, for the 2010 census the Census Bureau 
has directed use of the same procedures used in the 1990 and 2000 
Censuses. These procedures were developed based on a bill that passed 
the House of Representatives in 1990 (H.R. 4903) and recognition of 
strong bipartisan congressional support for including overseas military 
personnel in the census.
    The decision for specific methodology used falls under the purview 
of the Census Bureau, and the Department follows its guidance for this 
accounting. The Census Bureau believes that the current methodology 
provides the benefit of consistency over time.
    The directed methodology counts overseas military personnel, both 
stationed and deployed (including the National Guard), as part of the 
U.S. overseas population. The Department uses the following hierarchy 
(based on data availability): State home of record, State of legal 
residence, and State of last duty station (i.e., base of last 
assignment). While servicemembers deployed overseas at the time of the 
census will be included in the federally affiliated overseas count for 
apportionment purposes, their families residing in the U.S. will be 
counted through the standard census questionnaire.
    The Department understands the potentially beneficial effects 
counting by ``last duty station'' first could have on States with a 
large military population and has discussed this and other 
methodologies with the Census Bureau. Clear legislation would resolve 
questions and codify the methodology to count deployed servicemembers. 
The Department stands ready to discuss all possible methodologies with 
the Census Bureau and Congress.

                       post-september 11 gi bill
    3. Senator Hagan. Dr. Stanley, due to the Post-September 11 GI 
Bill, servicemember benefits were increased to rates that are 100 
percent of in-State public university tuition rates. Eligible veterans 
are also provided with a housing allowance in order to offset living 
expenses. These benefits have been extended to officers that had their 
bachelor degrees funded through attendance at the service academies or 
through ROTC programs. However, servicemembers that served in the 
Reserves prior to commissioning and received benefits under Chapter 
1606 while funding their own educational expenses, are not similarly 
included under the Post-September 11 GI Bill. Additionally, several 
programs that were included under the GI Bill, such as vocational 
programs, are not included under the Post-September 11 GI Bill. Now 
that the Post-September 11 GI Bill has been fully implemented, do you 
feel that technical correction legislation would be appropriate in 
order to reconcile some of the program inequities that have been 
identified?
    Dr. Stanley. DOD does not believe technical changes are necessary 
to the Post-September 11 GI Bill at this time. The Department supports 
the widest possible usage of benefits for our former Active and Reserve 
servicemembers, who served on active duty since September 11, 2001.

    4. Senator Hagan. Mr. Lamont, Mr. Garcia, and Mr Ginsberg, at a 
time when the Nation is relying more and more on its Reserve Forces, 
there now appears to be the largest historical gap in the relative 
value of education benefits provided under Chapter 1606 when compared 
to those under Chapters 30 or 33 of the GI Bill. Do you anticipate that 
the disparity in educational benefits will have a negative impact on 
Reserve recruiting?
    Mr. Lamont. The Army Reserve and Army National Guard components 
exceeded its accession goal last year. There are no indicators at this 
time that enactment of the Post-September 11 GI Bill has had a negative 
influence among potential candidates for either Active or Reserve 
components.
    Mr. Garcia. Both Navy and Marine Corps reservists are poised to 
take advantage of Post-September 11 GI Bill benefits (Chapter 33) as 
well as other VA education programs to include Chapter 30, Chapter 1607 
(REAP), and Chapter 1606 (MGIB-SR). It is because our reservists are 
answering the call to service that their education benefits continue to 
expand and grow. RC members continue to have the opportunity to choose 
which VA education benefits they would like to use based on their 
eligibility. These benefits will continue to have a strong positive 
impact on recruiting and on retention in the RC well into the future.
    Mr. Ginsberg. The disparity in Chapters 1606, 30 and 33 educational 
benefits has proven not to have a negative impact on recruiting. The 
Air Force Reserve (AFR) continues to exceed recruiting goals despite 
the disparity. Although Reserve and active duty component recruiters 
compete in the same marketplace, our products are distinctly 
different--specifically, part-time versus full time employment. 
Accordingly, there will be a continual ``full-time/part time'' benefit 
disparity among MGIB programs. (The disparity between Chapters 1606 and 
30 has increased and is currently at 26 percent). In addition, Chapter 
30 was created as a reward for service whereas Chapter 33 is primarily 
a retention tool--increasing monetary benefits and allowing members to 
commit to additional service in exchange for transferring educational 
benefits to dependents.

          unemployment rate among returning military personnel
    5. Senator Hagan. Mr. Lamont, Mr. Garcia, and Mr. Ginsberg, the 
current economic climate has been difficult for all of America's 
families; statistics show it has been especially difficult for 
returning military personnel serving in the National Guard and 
Reserves. For combat veterans returning home, it is especially 
challenging as they make the transition back to being a citizen 
soldier, while at the same time, having to deal with symptoms commonly 
associated with Post Traumatic Stress Disorder (PTSD). With an all-
volunteer military that relies upon the National Guard and Reserves as 
essential components of the total force structure, what steps are being 
taken in order to provide more comprehensive transitional assistance 
for servicemembers returning home, and what are the significant gaps 
that remain?
    Mr. Lamont. We are doing whatever is necessary to help Reserve 
soldiers transition back to everyday life. Reserve soldiers are briefed 
at the demobilization station on the Transitional Assistance Management 
Program (180 days of TRICARE coverage post mobilization), Veteran's 
Healthcare Benefits, Yellow Ribbon, Military OneSource (counseling 
services at no cost to our soldiers), Joint Family Assistance Program 
(augments existing family programs to provide a continuum of support 
and services), Strong Bonds Program (relationship training to Singles, 
Couples and Families) and Recovery Care Coordinators (facilitators 
assigned to work with recovering Army Reserve soldiers to include those 
with psychological health conditions and/or Traumatic Brain Injury 
(TBI)).
    The Army Reserve has partnered with the Department of Labor and is 
implementing an Employer Awareness Campaign which will provide 
employers with access to education and informational tools regarding 
psychological health and TBI, as well as a variety of other topics 
located at America's Heroes at Work website.
    A significant gap is the transition assistance programs are of 
limited duration and are temporary programs (tied to contingency 
operations); continued support to ensure the programs are properly 
resourced is essential. Another gap is when an Army Reserve soldier is 
released from active duty; the soldier is no longer eligible for 
support. For example, the Army Emergency Relief only offers financial 
assistance to soldiers and their Family members when the soldier is in 
an active duty status. Providing transitioning Army Reserve soldiers 
access to all Services afforded Active component soldiers will bridge 
some current gaps.
    The National Guard soldiers and airman go through a number of steps 
in their transition phase, from an active duty status back to a Reserve 
status. The first step begins with a demobilization process with the 
active component. During this step they process through various 
stations to address issues such as financial, personnel, logistics, 
medical and dental services, and benefits.
    In the medical station both physical and behavioral areas, such as 
PTSD, are assessed. In the benefits station a Veterans Administration 
representative reviews the services provided through the Veterans 
Health Administration and can enroll the Guard member for care at a 
Veterans Affairs hospital in their local area when they return home.
    The next step occurs when the National Guard soldier is at home. 
Through the Yellow Ribbon Program there are a series of events at 30-, 
60-, and 90-day intervals. Each of these events revisits the various 
processes they went through at the demobilization station. These 
meetings remind Guard soldiers and their families of the services and 
benefits as well as an introduction to the various local community 
resources that are available. These resources include our own internal 
Warrior Support team consisting of an Employer Support of the Guard/
Reserve, Psychological Health, and Family Program representatives, and 
a Transition Assistance Advisor.
    Working in concert with the National Guard Yellow Ribbon 
Reintegration Program, Employer Support, and Warrior Support offices 
participate in Yellow Ribbon Reintegration events and activities to 
ensure that all returning servicemembers are made aware of their 
employment rights under law as well as employment opportunities within 
the States and Territories to include the District of Columbia. 
Additionally, the National Guard is working with the DOD Transition 
Assistance Task Force to recommend change to the current Transition 
Assistance Program legislation to reflect the specific needs of the 
Guard and Reserve in relation to transition assistance.
    Mr. Garcia. Both the Navy and Marine Corps offer Transition 
Assistance Programs to separating and retiring servicemembers. Program 
outcomes are intended to provide participants with the skills they need 
to obtain appropriate post-service employment and make the transition 
back to being a citizen soldier. These services are provided at Navy 
and Marine Corps installations worldwide.
    In accordance with title 10 U.S.C., section 1142 and 1143, 
Transitional Assistance Management Program (TAMP) services are provided 
to all servicemembers who are released from active duty/separated/
retired who serve 180 continuous days or longer on active duty. 
Although existing transition programs were originally designed for the 
active component, the program supports reservists, as members of the 
total force, provided eligibility requirements are met (i.e., served 
180 continuous days or longer on active duty, and are within 12-months 
from separation, or are within 24-months from retirement).
    Reserve servicemembers are provided information on their rights 
under the Uniformed Services Employment and Reemployment Rights Act 
(USERRA) which is intended to minimize the disadvantages to an 
individual that can occur when a person needs to be absent from his or 
her civilian employment in order to serve in the uniformed services.
    In addition to providing assistance with career, employment, 
education and training benefits, Pre-separation Counseling, which is 
required by title 10 U.S.C., section 1142, includes information on how 
to maximize the use of benefits earned through their service such as 
determining health and life insurance requirements, financial planning, 
and Veteran's benefits and entitlements.
    The Yellow Ribbon Reintegration Program (YRRP), which was created 
by P.L. 110-181 (NDAA for Fiscal Year 2008), provides access to 
programs, resources, and services to minimize stresses on National 
Guard and Reserve members and their families before, during, and after 
deployments of 90 days or more.
    The Warrior Transition Program was established in Kuwait and 
provides a place and time for sailors to decompress and transition from 
the war zone to life back home. Through small group discussions 
facilitated by chaplains and medical personnel, Warrior Transition 
Workshops prepare sailors for resumption of family and social 
obligations, return to civilian employment, and reintegration with the 
community.
    The Returning Warrior Workshop (RWW) is another important step in 
the demobilization and reintegration process for the Total Force and 
their families. The RWW is designed to remove stigma and direct family 
members to appropriate support programs. Originally developed by and 
for the Navy Reserve, the RWW has expanded to include Navy active and 
Marine Corps Reserve members and their families.
    The Navy's Operational Stress Control (OSC) and Marine Corps' 
Combat and Operational Stress Control (COSC) programs are a set of 
policies, programs, training and tools to enable leaders, marines, 
sailors, family members, and caregivers to deal effectively with the 
stress of operational deployment and training.
    The Marine Corps also developed a specific ``Demobilization Tool 
Kit'' and Career Guide CD which supplement our existing transition 
program. These Kits were designed to meet the unique needs and concerns 
of demobilizing Reserve marines and family members as they return to 
civilian life and workforce. Toolkits were not re-distributed in fiscal 
year 2010 since the OSD Office of Wounded Warrior Care and Transition 
Policy is in the process of creating a toolkit that will serve both the 
transitioning Active Duty and Reserve community.
    The Deputy Under Secretary of Defense, Office of Wounded Warrior 
Care and Transition Policy is leading an effort to expand transition 
support to the National Guard and Reserves through an amendment to the 
current law as well as revision of the DODD 1332.35 and DODD 1332.36. 
The Marine Corps is also convening an Operational Planning Team (OPT) 
to look at program improvements, such as starting the transition 
process 2 years earlier (recognizing that over 65 percent leave the 
Marine Corps after the first term) and offering tiered delivery of 
services, such as Education, Training, and Employment Job Placement.
    Mr. Ginsberg. The AFR and Air National Guard (ANG) enlist the 
resources of a variety of programs to ease the transition of its 
members back to civilian status. The YRRP is the comprehensive DOD 
program used by all components to provide assistance to members and 
families. In addition, because health care and employment issues are 
particularly important to returning veterans, the AFR and ANG have 
programs and resources that place particular emphasis on these areas.
Yellow Ribbon
    The AFR and ANG employ the Yellow Ribbon Program as a key component 
to effectively address the transition back to civilian life. Experts 
who participate regularly in Yellow Ribbon events--pre-deployment, 
during deployment, and post-deployment--include the DOD contracted 
Military Family Life Consultants (MFLCs), Military OneSource, and 
Personal Financial Readiness. Since the standup of the Yellow Ribbon 
Program by the AFR Command in August 2008, comprehensive support to 
airman, families, and employers throughout the deployment cycle 
minimizes the stress of deployment and family separation. During the 
period from August 2008 through 1 March 2010, the Yellow Ribbon Program 
held 156 total events across 39 Wings/Groups with 5,668 Reserve members 
and 5,288 family members participating.
    National Guard soldiers and airman go through a number of steps in 
their transition from an active duty status back to a Reserve status. 
The first step begins with their participation in a demobilization 
process along with the active component. During this step they go 
through various stations with subject matter experts to address issues 
such as financial, personnel, logistics, medical, dental, services, and 
benefits. In the medical station both physical and behavioral areas, 
such as PTSD, are assessed. In the benefits station a Veterans 
Administration representative reviews the services provided through the 
Veterans Health Administration and can enroll the Guard member for care 
at a VA hospital in their local area when they return home.
    The next step occurs when the National Guardsman is at home. The 
Yellow Ribbon program conducts a series of events at 30-, 60-, and 90-
day intervals. Each of these events reassembles the various experts 
that were available at the demobilization station. These events remind 
Guardsmen and their Families of the services and benefits as well as 
introduce them to the available local community resources. These 
resources include an internal Warrior Support team consisting of an 
Employer Support of the Guard/Reserve Specialist, Psychological Health, 
Family Program representatives, and a Transition Assistance Advisor. 
The Warrior Support team members are available via phone, email and 
personal meetings for the Guard member or their family at any time and 
serve as a resource and referral advocate for them. In addition, the 
creation of the Joint Services Support portal covers all transitional 
assistance programs and initiatives to enable all Guardsmen and their 
families to access information about support and services available in 
their local areas.
Health Care
    Both the AFR and ANG have placed particular emphasis on mental 
health. The AFR employs Psychological Health Advocates (PHAs), 
reservists who are mental health or clinical nurses and enlisted 
personnel, and are qualified to provide assessment and referrals for 
mental health services. The PHAs and MFLCs work in concert with one 
another to ensure comprehensive services are available to reservists 
and their families. The ANG has placed Directors of Psychological 
Health in each State and territory to perform as an assessment and 
referral resource and act as the subject matter expert to the State/
territory with regards to psychological health matters. In its 
inaugural year (fiscal year 2009) they intervened in 255 critical cases 
that were deemed high risk suicide/homicide situations.
    Air Force Reserve Command (AFRC) is also working cooperatively with 
Department of Veterans Affairs Veterans Health Administration to ensure 
implementation of the Combat Veteran Heath Care Benefits and Co-Pay 
Exemption Post-Discharge from Military Service. Reserve personnel 
returning from any theater of combat operations are briefed by VHA 
representatives and given the opportunity to apply for Veterans Health 
care. This allows reservists to receive medical care, to include 
treatment for post-traumatic stress disorder (PTSD) at VA health 
facilities with no co-pay. In addition, those who serve in combat 
theater for not less than 90-days are informed of their eligibility for 
one-time correction of dental conditions if they had not had dental 
care while deployed.
Employment Assistance
    In addition to providing assistance with benefits and entitlements 
associated with active service, Air Force Reserve Airman and Family 
Readiness Centers provide employment assistance. Unemployment in the 
civilian sector is a growing concern for the AFR, but not a ubiquitous 
problem. Much of the unemployment seems to be associated with the 
economic situation where a reservist resides. Several locations, with 
one full-time Airman and Family Readiness staff member, offer 
employment-related classes similar to those offered during a Transition 
Assistance Program (TAP) seminar including resume writing, 
interviewing, job search skills, how to dress for career fairs and job 
interviews. The employment focus of TAP is to make the reservist more 
marketable in an environment where there are few or no jobs. reservists 
are often tied to communities where their spouses have employment so 
relocation for job opportunites may create another problem. This is not 
unlike situations active duty spouses find themselves in the job 
market.
    For the ANG, Employer Support, and Warrior Support offices 
participate in Yellow Ribbon Reintegration events and activities to 
ensure that all returning servicemembers are made aware of their 
employment rights under law as well as employment opportunities within 
the States and Territories (to include the District of Columbia). The 
National Guard is working with the DOD Transition Assistance Task Force 
to change the current Transition Assistance Program legislation to 
reflect the specific needs of the Guard and Reserve in relation to 
transition assistance. Finally, the National Guard Employer Support 
Program Support Specialist located in each Joint Force Headquarters 
State is responsible to connect returning Guardsman with Federal, 
State, local, and private agencies to obtain employment referrals. In 
many cases these referrals may involve additional training and 
education to compete for areas of future employment. Additionally, the 
National Guard Program Support Specialist advise returning Guardsman of 
specific unemployment trends and retraining benefits in their local 
area.
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
           defense integrated military human resources system
    6. Senator Burris. Dr. Stanley, now that the Defense Integrated 
Military Human Resources System (DIMHRS) is being canceled by the 
Secretary of Defense, what is the plan to look at other options to 
manage personnel and pay under a single system for the DOD?
    Dr. Stanley. When the Department determined to terminate the DIMHRS 
program, the decision also included direction for a way forward. There 
are no plans to review options for a single DOD system to manage 
military personnel and pay; rather each of the Services will implement 
enterprise standards in their own systems.
    The software configured to support the original DIMHRS effort has 
been provided to each Service for their individual development efforts 
called Service Integrated Personnel and Pay Systems (SIPPS). SIPPS-Army 
is currently the most mature effort and expects to begin deployment in 
fiscal year 2013. A governance structure is also in place to manage 
development of the individual Service systems that includes the DIMHRS 
Transition Council, mandated by Congress in the National Defense 
Authorization Act for Fiscal Year 2010. A Joint Enterprise Change 
Management Board was put in place to ensure changes to the Service 
systems do not adversely impact the Enterprise Standards compliance. 
This body is co-chaired by the OUSD (P&R) Director, Information 
Management and the Director, Defense Finance and Accounting Service, 
Financial Management Center of Excellence.
    I am confident this governance structure ensures the individual 
Service development programs support and execute military personnel and 
pay policies accurately, equitably, and in a timely manner for our 
servicemembers.

                               minorities
    7. Senator Burris. Dr. Stanley, what are the percentages of 
minorities by category and women in the Senior Executive Service (SES) 
General and Flag Officer ranks of the Armed Services, and DOD 
headquarters?
    Dr. Stanley. For the General and Flag officer population, gender 
composition is 93.6 percent males and 6.4 percent females. The race/
ethnic composition is 89.8 percent White, 6.0 percent Black, 1.6 
percent Hispanic, 1.3 percent Asian/Pacific, .2 percent American 
Indian/Alaskan Native and 1.1 percent Other. These data are current as 
of March 2010
    For the SES population, gender composition is 76.3 percent males 
and 23.7 percent females. The race composition is 90.53 percent White, 
4.48 percent Black/African American, 1.6 percent Hispanic, 2.10 percent 
Asian, 0.14 percent Native Hawaiian/Pacific Islander, 0.87 percent 
Multiracial; 0.14 percent ID Pending; and 1.3 percent Unspecified. The 
Unspecified group primarily consists of individuals designated as 
Hispanic but who do not have a race specification. The percentage of 
SES population identified as Hispanic ethnicity is 1.73 percent. These 
data are current as of January 2010.

                           civilian employees
    8. Senator Burris. Dr. Stanley, civilian employees that participate 
in the Thrift Savings Plan (TSP) are entitled to receive matching 
agency contributions to their TSP account, yet military members do not. 
When will this disparity be addressed for our military personnel?
    Dr. Stanley. To address the appropriateness of providing agency 
matching contributions to military members, it is important to consider 
and compare the role of the TSP in the civilian and military 
compensation systems.
    For a civilian employee under the Federal Employee Retirement 
System (FERS), the funds provided by the government in the form of 
matching contributions are one of the key components of retirement. 
Under FERS, in addition to receiving matching contributions, the 
employee contributes to a defined benefit plan and receives an annuity 
upon retirement after reaching a specified age and years of service.
    For a military member, the government provides a defined benefit 
retirement plan more generous than FERS and fully funded by the 
government. Unlike the civilian employee under FERS, the military 
member does not contribute to the defined benefit plan and receives 
monthly retired pay immediately upon retirement, but at an earlier age 
with many working years ahead.
    The military member is also allowed to contribute to the TSP. 
However, the ability to participate in the TSP was not designed as a 
key component of the military member's retirement. For the military 
member, participation in the TSP is a valuable, additional benefit, one 
that facilitates long-term saving. Although participation in the TSP 
may be a common element across both military retirement and FERS, the 
roles of the TSP and the need for and purpose of providing agency 
matching contributions are different.
    In the past, the Department has investigated the impact on 
recruiting and retention and the cost effectiveness of providing 
military members with agency matching contributions. Based on data of 
members currently contributing to TSP, the cost of providing agency 
matching contributions is estimated to be between $840 million and $2.8 
billion annually, depending upon the level of participation.
    RAND and the Center for Naval Analyses (CNA) have both investigated 
the issue of providing agency matching contributions. RAND reviewed an 
Army pilot program which offered agency matching contributions from 
2006 through 2008 to new enlistees who selected longer enlistments and 
enlisted in hard-to-fill specialties. RAND found no appreciable 
increase as a result of providing agency matching contributions. CNA 
also studied the issue of providing agency matching contributions and 
determined providing agency matching contributions would have minimal 
impact on retention.

                         don't ask, don't tell
    9. Senator Burris. Dr. Stanley, how will a moratorium on Don't Ask, 
Don't Tell (DADT) affect the pending cases of servicemembers facing 
discharge?
    Dr. Stanley. The Secretary of Defense has appointed a high-level 
Working Group to review how to implement repeal of 10 U.S.C. Sec. 654. 
As the Secretary has said, he does not support a moratorium while this 
Working Group is undertaking its review. In general, a moratorium would 
prohibit the separation of servicemembers on the basis of homosexual 
conduct until the moratorium ends. This would presumably have the 
effect of allowing openly gay and lesbian servicemembers to continue 
serving on active duty for the duration of the moratorium and would, in 
that respect, have an effect very similar to repeal of section 654.

                              end strength
    10. Senator Burris. Mr. Lamont, given the operational tempo placed 
on the forces, particularly as it relates to the Army Reserve 
components, do you feel there is a need for the end strength of the 
Army Reserve and Army National Guard to increase?
    Mr. Lamont. Yes. The Army is considering if additional funded end 
strength is needed for the Reserve components in order to optimize Army 
National Guard and Army Reserve Trainees, Transients, Holdees, and 
Student (TTHS) accounts. Each of the Army's components requires a TTHS 
account to allow them to optimize the management of their force. The 
Active component is authorized approximately 71,000 soldiers (13 
percent of Active component end-strength) within a TTHS account, 
allowing the Active component to segregate nondeployable personnel 
(e.g. non-trained or soldiers in resident training) from units. In 
contrast, the relative small size of the Army National Guard (2.5 
percent) and Army Reserve (2 percent) TTHS accounts are insufficient to 
make full use of a TTHS mechanism and its positive effects on 
readiness.

    11. Senator Burris. Mr. Lamont, the Army has asked for a temporary 
end strength increase, due in part to deployments and now with perhaps 
a bigger burden on the forces given the requirements brought forth from 
the Quadrennial Defense Review, don't you think the Reserve component 
needs additional forces as well?
    Mr. Lamont. The Army is doing an ongoing RAND Study to determine if 
increasing the end strength of the Reserve components (RC) is 
necessary. Should the study show additional end strength is required to 
optimize the RC, we will include additional cost in the next Army 
budget request.

                                reserve
    12. Senator Burris. Mr. Lamont, the Army Reserve has the lowest 
percentage of full time support comparing it with the size of the 
Reserve component forces, followed by, I believe, the Army National 
Guard. Yet, their participation in Overseas Contingency Operations 
(OCO) is more significant than the other Reserve components. How can 
you explain that?
    Mr. Lamont. Adequate full-time support is essential for Reserve 
component (RC) unit readiness, training, administration, logistics, 
family assistance and maintenance. The Commission on the National Guard 
and Reserve found that effective performance of such functions 
correlates directly to a RC unit's readiness to deploy. The Army with 
the largest Reserve operational force has 12.89 percent of its RC end 
strength as full-time support; the Air Force has 25.29 percent of its 
Reserve components as full-time manning. The current full-time support 
levels of the Army's Reserve Components are based, in part, on a 1999 
RAND Study that was revalidated in 2005. The manpower authorization 
levels established by RAND are currently funded at 72 percent of 
validated requirements, which was sufficient for a Strategic Reserve 
Force. Since 2001 the RC's have used personnel on Active Duty 
Operational Support-Reserve Components (ADOS-RC) orders and other full-
time equivalent (FTE) manpower to meet the full-time support 
requirements generated by contingency operations. The Army is 
considering what full-time support for the Guard and Reserve is needed 
to ensure adequate manning for various support functions (organizing, 
manning, training and equipping) required for managing the Reserve 
components as an operational force.

                               recruiting
    13. Senator Burris. Mr. Lamont, is there an initiative to 
consolidate the recruiting programs of the three Army components (Army, 
Army Reserve, and National Guard)?
    Mr. Lamont. While there have been informal discussions about having 
a single Army recruiting command that serves the needs of the total 
force--Regular Army, Army Reserve (USAR) and Army National Guard 
(ARNG)--there are no initiatives to further consolidate recruiting at 
this time.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                  recruiting health care professionals
    14. Senator Graham. Mr. Lamont, Mr. Garcia, and Mr. Ginsberg, you 
indicated in your written statements that achieving Service recruiting 
goals for doctors, psychologists, nurses, dentists, and other health 
care professionals, in both the active and Reserve components, presents 
significant challenges. Please discuss the challenge of recruiting 
health professionals in this wartime environment in your Service, and 
how you plan to meet this challenge.
    Mr. Lamont. Hiring difficulties continue to stem from remote 
locations, compensation limitations inherent to government employment, 
and a national shortage of qualified providers. The Army is using 
numerous traditional mechanisms to recruit and retain both civilian and 
uniformed providers including Retention Bonuses; Student Loan Repayment 
Program; Special Pay for Certified Nurses; Medical Special Pays for 
Psychiatrists, and a Social Work Program in partnership with 
Fayetteville State University. A non-traditional recruiting approach 
has been the Military Accessions Vital to the National Interest (MAVNI) 
Pilot Program. MAVNI was launched in 2009 to attract high quality 
individuals with exceptional skills in health care professions or 
special language and cultural backgrounds. MAVNI recruits are non-U.S. 
citizens who have been legally present in the United States for 2 or 
more years and are licensed health care professionals or possess 
specific language and cultural capabilities in a language critical to 
the DOD, but who do not have permanent residency.
    Mr. Garcia. Navy has a comprehensive medical recruiting focus, 
which enabled us to exceed our overall medical recruiting goals in 
fiscal years 2008 and 2009. We are on track to meet our overall goal in 
the Active component (AC) in 2010, but are experiencing challenges in 
meeting the Reserve component (RC) goal, which increased by 121 
accessions this year, an increase of 43 percent.
    Increased 2010 recruiting goals notwithstanding, our analysis 
indicates medical professionals do not often consider military service 
a primary career option. Reasons for this include:

        <bullet> Civilian salaries are more lucrative than military pay 
        and continue to outpace financial incentives we offer to our 
        target market.
        <bullet> Excessive debt is a major concern for medical 
        professionals, who are able to find low-interest loans outside 
        of the military.
        <bullet> Percentage of females attending medical school has 
        risen over the past 10 years yet females are less inclined to 
        serve in the military than males.
        <bullet> Concerns over multiple deployments.
        <bullet> Potential Reserve medical providers fear a loss of 
        their private practice.

    It should also be noted that we remain in keen competition with the 
private sector, the Department of Veterans Affairs, as well as with the 
other military departments, for the same finite talent pool.
    We are continuing best practices learned during the past 2 years 
and are implementing several new initiatives that we expect will bear 
fruit in our shortfall areas including:

        <bullet> Adjusting bonuses and incentives for fully trained 
        medical professionals.
        <bullet> Participating in the Military Accessions Vital to the 
        National Interest (MAVNI) pilot program to access qualified, 
        legal non-citizen medical doctors.
        <bullet> Initiating an accession process for legal permanent 
        residents who are qualified physicians or medical students.
        <bullet> Offering loan repayment opportunities for critical 
        medical specialties.
        <bullet> Expanding use of medical officers to inform 
        undergraduate and professional medical students across the 
        Nation of opportunities in Navy medicine.
        <bullet> Adding more full time recruiters to recruiting medical 
        professionals.
        <bullet> Expanding the Health Service Collegiate Program to 
        include Permanent Residents (green card) in critical student 
        specialties.
        <bullet> Offering bonuses for clinical psychologists, 
        physician's assistants, and social workers.
        <bullet> Continuing the Critical Wartime Skills Accession Bonus 
        to target physicians (up to $400,000) and dentists (up to 
        $300,000).

    Mr. Ginsberg. Accessing fully qualified professionals is our 
greatest challenge. Air Force recruiting is challenged by the same 
factors our Nation faces in having sufficient health care professions 
such as: nursing, general surgery, family practice, psychology, and 
oral maxillofacial surgery. The Air Force faces keen competition for 
fully qualified specialists from the private sector and other Federal 
agencies, such as the Department of Veterans Affairs and the Public 
Health Service, where multiple deployments are not an issue. Also, 
there are significant pay disparities between the military and private 
sector employers, especially those surgical specialties crucial for 
wartime support. The changing demographics of health professions, with 
increased numbers of women entering the profession who may be less 
inclined to choose military service, also provide a challenging 
environment for our recruiters. Current data suggests less than 7 
percent of eligible graduates consider entering military service.
    Using feedback from exit interviews and informal counseling, the 
Air Force confronts the above challenges in a three-pronged approach: 
(1) education, (2) compensation, and (3) quality of life.

          (1) Education: Due to historical problems in recruiting fully 
        qualified and trained specialists, the Air Force deliberately 
        places increased emphasis and funding into educational 
        scholarship opportunities. We have found great success in 
        ``growing our own,'' either through the scholarship programs or 
        through training in the Uniformed Services University of Health 
        Sciences (USUHS). The highest retention occurs when we control 
        the educational environment. The Health Professions Scholarship 
        Program (HPSP) is a resounding success with 1,466 students 
        currently enrolled. As reflected in the DOD budget for fiscal 
        year 2013, the Air Force has a programmed budget to support a 
        gradual increase to 1,666 students. We have also optimized our 
        enlisted commissioning programs, such as the InterService 
        Physician assistant Program (37 graduates per year), the Nurse 
        Enlisted Commissioning Program (50 graduates per year), or 
        guidance and statutory limitations in Section 2124 of Title 10, 
        capping the total students enrolled DOD-wide in HPSP at 6,000. 
        USUHS programs have physical constraints with the facility and 
        academic accreditation constraints of oversight committees. 
        Enlisted commissioning programs are constrained by the number 
        of training-years programmed and funding against all enlisted 
        training. Even with limitations, education has proven the most 
        successful avenue of accession for the health professions.
          (2) Other ways we entice fully qualified specialists into the 
        Air Force is through compensation, using accession bonuses and 
        incentives. Under the auspices of Health Affairs, the Air Force 
        has funded accession bonuses and incentive pays to entice 
        selected fully qualified specialists. For fiscal year 2011, the 
        Air Force has sufficiently budgeted $16.4 million of this 
        towards accession bonuses for personnel in fully qualified 
        critical specialties based on historical rates of accession. 
        Historically, as outlined in the first paragraph and under 
        section (1), above, our accession bonuses have been of limited 
        success due in part to bonus structures, as section 301d and 
        301e of Title 37 are mutually exclusive of section 302k and 
        302l of Title 37. Because these accession bonuses cannot be 
        taken with a multi-year special pay, we have had limited 
        effectiveness from its use. In fiscal year 2009, 12 of 118 
        fully qualified physicians accessed were eligible for an 
        accession bonus; only 2 actually accepted the bonus. Our 
        greatest success is within the Dental Corps, where 14 of 17 
        billets were filled for fiscal year 2009. Our other programs 
        have limited success with nurse specialties at 120 of 155 
        qualified nurse billets filled. The various specialties of the 
        Biomedical Sciences Corps having only 129 of 321 requested 
        specialty positions filled for fiscal year 2009. As we migrate 
        our compensation portfolio under the new pay authority of 
        section 335 of Title 37, we will be able to initiate specialty 
        pays for the mental health care providers and other critical 
        wartime or shortage specialties that previously were excluded 
        from accession and incentive pays. We feel this will be of 
        great benefit to the Air Force and military health care in 
        general, allowing targeted accession bonuses, incentive pays, 
        and retention bonuses to address the manning shortages in the 
        health professions. Due to the complexity of medical specialty 
        and incentive pays and entitlements, scheduled migration of 
        these contractual agreements under ASD(HA) will take time to 
        fully implement. In general, recruiting many of the fully 
        qualified specialists without bonuses is extremely limited. 
        Level of compensation is an important consideration, but does 
        not entirely ease the burden of multiple deployments.
          (3) Lastly, no recruit enters without discussing quality of 
        life issues, whether this is family services, medical practice, 
        educational or leadership opportunities, or frequency of moves 
        and deployments. We address many of these issues amongst the 
        Air Force agencies. Ongoing projects include the Family Health 
        Initiative, which is a medical model that better leverages our 
        personnel. We are building force sustainment models, analyzing 
        promotion opportunities, and developing a more proactive 
        approach to provide more opportunities for advancement. In 
        specialties with increasing wartime deployments, we are better 
        able to spread the deployment load more evenly among our 
        members. Restructuring of our medical groups allow increased 
        opportunities for all health professions to become leaders in 
        the Air Force.

    We remain committed to obtaining the best in health care for our 
Nation' s military and their familiy members through enhanced 
recruiting efforts maximizing the tools provided for education, 
compensation, and creative quality of life efforts of new health 
professionals.

    15. Senator Graham. Mr. Lamont, Mr. Garcia, and Mr. Ginsberg, what 
about retention of health care professionals; how much visibility do 
you have and oversight do you exercise into how well your medical 
community leaders and personnel chiefs are doing in effectively 
retaining mid-career personnel?
    Mr. Lamont. The Army Medical Department continuously monitors the 
need for behavioral health care providers based on the reliant 
populations' ongoing and changing demand. MEDCOM has increased funding 
for scholarships and bonuses to support expansion of our provider 
inventory. The Army expanded the use of the active Duty Health 
Professions Loan Repayment Program and offers a $20K accessions bonus 
for Medical and Dental Corps health professions scholarship applicants. 
MEDCOM increased the number of Health Professions Scholarship 
Allocations dedicated to Clinical Psychology and the number of seats 
available in the Clinical Psychology Internship Program (CPIP). In 
partnership with Fayetteville State University, MEDCOM developed a 
Masters of Social Work program which graduated 19 in the first class in 
2009. The program has a current capacity of 30 candidates.
    Mr. Garcia. Recruiting and retention rates of health care 
professionals are tracked very closely. I receive updates monthly from 
the Chief of Naval Personnel and the Surgeon General of the Navy, with 
particular emphasis on retention of mid-career medical personnel. 
Additionally, I receive a quarterly update, which is also presented to 
the Chief of Naval Operations. My staff coordinates with the staffs of 
the Bureau of Naval Personnel and Bureau of Medicine and Surgery to 
address any shortfalls, leveraging current policies and legislative 
authorities, consistent with the President's budget to recruit and 
retain these highly skilled professionals along the entire career 
continuum
    Mr. Ginsberg. Within the Air Force I have visibility on a quarterly 
basis into the special pays and retention bonuses offered to the 
Medical Corps, Dental Corps, Biomedical Science Corps, Nurse Corps, and 
Medical Service Corps. My office monitors the amounts offered, the 
number of personnel eligible to elect the special pays, and the 
acceptance rate among our health care professionals, especially those 
in the critical wartime specialties, as well as among the mental health 
professionals. I firmly believe the Air Force medical community is 
sensitive to the health care needs of the population we serve and does 
an exceptional job ensuring the requisite health care professionals are 
retained. My office continues to work closely with the Air Force 
Surgeon General in anticipating requirements and using all available 
authorities to retain trained and experienced health care providers.

    16. Senator Graham. Mr. Lamont, Mr. Garcia, and Mr. Ginsberg, 
please provide a snapshot effective March 1, 2010, of the current 
status of each of your Service's health care professional recruiting 
and retention, clearly indicating where shortfalls exist and also 
indicating by specific officer grade (e.g., O3, O4 , O5).
    Mr. Lamont. As of 22 March 2010, the United States Army Recruiting 
Command (USAREC) Medical Recruiting Brigade (MRB) has achieved 51 
percent (457 of 905) of the fiscal year 2010 Active Duty recruiting 
mission and 46 percent (425 of 926) of the fiscal year 2010 U.S. Army 
Reserve mission. Mission achievement is most problematic in recruiting 
fully qualified military physicians, where only 18 percent (11 of 60) 
of mission is currently achieved, even given the availability of the 
Critical Wartime Skills Accession Bonus, which ranges from $180,000 to 
$400,000 depending on the specialty. The Army Medical Department 
(AMEDD) is currently short at the grade of Major (O4) across the board. 
This is a function of several phenomena; the most notable being the 
loss of officers in the grade of Captain (O3) who had completed their 
obligation prior to implementation of current retention initiatives, 
thus decreasing the number of officers available to promote to the 
grade of O4. While this grade imbalance is true, each Corps also has 
specific specialty shortages at differing grades, signifying a 
potential capability gap. Resolution of specific shortages is being 
addressed through precision recruiting, training and retention 
initiatives. Recent recruiting success has increased the company grade 
inventory that will increase the inventory at the rank of Major if 
these junior officers are retained, select specialty training and are 
promoted. Current projections for the end of fiscal year 2010 suggest 
that all but the Medical and Dental Corps will exceed the aggregate 
Budgeted End Strength. In fiscal year 2011, the Army G-1 will direct 
the recruiting force to emphasize specific qualifications.
    Mr. Garcia. Navy recruiting for health care professionals in the 
active Component is on track to meet program fiscal year 2010 goals, 
while we continue to experience challenges in recruiting health care 
professionals into the Reserve Component.
Active Component (AC):
    We have reached 57 percent of overall AC health professions officer 
accession goals as of March 1, 2010. Student programs are out-
performing the direct accession programs, continuing last year's strong 
student recruiting:

        <bullet> Dental Corps: 51.6 percent of goal (77 of 149)
        <bullet> Medical Corps: 44.5 percent of goal (143 of 321)
        <bullet> Medical Service Corps: 64.1 percent of goal (143 of 
        223)
        <bullet> Nurse Corps: 75.5 percent of goal (136 of 180)
Reserve Component (RC):
    We have reached 24 percent of overall RC health professions officer 
accession goals as of March 1, 2010. This remains our most significant 
challenge. We are encouraged by recent authorization to establish a 
bonus for RC Nurse Corps officers, the health professions community 
which has the highest accession goal but the lowest attainment to date. 
We anticipate that implementation of this new incentive will favorably 
impact production.

        <bullet> Medical Corps: 23.6 percent of goal (140)
        <bullet> Dental Corps: 24 percent of goal (50)
        <bullet> Medical Service Corps: 40 percent of goal (45)
        <bullet> Nurse Corps: 19.4 percent of goal (165)

    As of January 1, 2010, retention rate among Navy health profession 
officers is 93.5 percent AC and 85.3 percent RC. Fiscal year 2010 
brings significant changes to Navy Medical Department's manning, such 
as the military to civilian buyback. Individual Corps status is 
summarized below:

        <bullet> Medical Corps. AC manning is 97.3 percent and RC 
        manning is 70.5 percent.

                <bullet> Shortfalls exist in the following critical 
                wartime specialties: General and Orthopedic Surgery, 
                Family Practice and Psychiatry.

        <bullet> Dental Corps. AC manning is 89.9 percent and RC 
        manning is 102.0 percent.

                <bullet> Shortfalls exist among O3-04 officers and in 
                certain subspecialties: Oral Surgeons, Prosthodontists, 
                General Dentists and Endodontists.

        <bullet> Medical Service Corps. AC manning is 92.0 percent and 
        RC manning is 93.8 percent.

                <bullet> Shortfalls exist in Podiatry and the following 
                critical wartime specialties: Clinical Psychology, 
                Physician's assistant and Social Work.
                <bullet> Navy is increasing the number of mental health 
                providers to meet operational demand over the next few 
                years, and the focus remains on filling and retaining 
                critical wartime specialties.
                <bullet> USD (P&R) authorized establishment of a Health 
                Professions Officer Special Pay to support accession 
                bonuses for Clinical Psychology, Social Work and 
                Physician's assistant, and retention bonuses for 
                Clinical Psychology and Physician's assistant. This 
                special pay package will be critical to meeting 
                accession and retention goals in these specialties.

        <bullet> Nurse Corps. AC manning is 90.7 percent and RC manning 
        is 83.7 percent. We continue to see improved retention due to 
        new special pays for critical and undermanned specialties.

    It must be noted that we remain in keen competition with the 
private sector, the Department of Veterans Affairs, as well as with the 
other military departments, for the same finite talent pool.
    Mr. Ginsberg. The snapshot requested is best answered by discussing 
the Air Force Medical Service (AFMS) in general, with focus on specific 
specialties as targeted examples. Of the 189 specialties in the AFMS, 
manning by specialty varies.
    AFMS: Current officer manning as of March 1, 2010 shows officer 
manning at 91.2 percent, which includes medical residents but does not 
include other student categories. The Health Professions Scholarship 
Program (HPSP) continues to remain our primary vehicle for the 
recruitment of entry-level medical and dental officers with 82 percent 
of their fiscal year 2010 scholarships awarded. The Nurse Corps (NC) 
and Biomedical Sciences Corps (BSC) also utilize HPSP as an entry into 
these critical specialties, and 76 percent of these Corps' fiscal year 
2010 scholarships are awarded. It is expected the remaining 
scholarships will be filled at the next selection board. The Medical 
Service Corps (MSC) does not participate in this program.
    Accession of fully qualified (FQ) and experienced health 
professions officers remains problematic. It is much easier to access 
new graduates than residency-trained or specialized health care 
professionals. To date, Air Force Recruiting Service has successfully 
accessed only 35 percent of fiscal year 2010 requirements for FQ health 
professions.
    Retention of health care professionals once their initial 
educational obligation is completed is also very problematic, and 
varies by Corps and by specialties within the Corps. Dental Corps (DC) 
retention after completion of educational obligations is 42 percent, an 
increase of 10 percent since 2004. As a Corps, dental officers show a 
small shortfall at the O-5 ranks, which corresponds to a ripple effect 
from retention problems in past years. This is most pronounced in our 
critically manned Oral Maxillofacial Surgeons with has large defects in 
manning within the O-5 rank for those officers with 14 to 19 years of 
commissioned service.
    The Medical Corps has not shown a significant improvement in 
physician retainability even with the sluggish economy. Retention after 
completion of initial education obligation has not risen. There are 
several critical areas of concern with the MC. Foremost are our general 
and trauma surgeons, where we have limited personnel in the skilled O-5 
rank. As surgical training and educational obligation encompasses the 
O-3 and O-4 rank, we find they leave at their earliest opportunity at 
completion of their military obligation in the O-4 and O-5 rank. 
Another concern is psychiatry with decreased retention at the O-4 rank, 
which produces a ripple shortfall to the O-5 rank. Critically important 
are our family practice and internal medicine specialists where we tend 
to lose the O-4 and O-5 experienced specialists, producing a shortage 
of senior skilled physicians in higher ranks.
    Retention of Nurse Corps specialists is improving with the 
selective use of incentive pays with multi-year contracts. For the 
Nurse Corps in general, we have historically noticed a loss of O-3 
officers. This trend is reflected throughout our clinical nurse 
specialties, but is magnified in our Surgical Nurse specialty where we 
have a loss of O-3 ranks and again at the O-4 rank. The implementation 
of our multi-year incentive contract has just passed its first year and 
we note retention has risen 13 percent since 2008, and now stands at 80 
percent at the 4-year point for the Nurse Corps as a whole.
    Our Biomedical Sciences Corps is the most diverse Corps and 
represents 19 specific specialties. Retention appears to have improved 
for some of these professions, although as a whole, the BSC has 
significant losses in the O3 rank and O4 rank. Early indicators show 
use of the special and incentive pays under the Consolidation of Pays 
authority released in July 2009 are showing increased retention for the 
physician assistant field as attritions in this field have decreased. 
The clinical psychologist specialty has gross losses after their 
initial completion of their initial obligation in the O3 rank, with 
ripple effects throughout the specialty. The public health career field 
also has similar deficits at the O3 rank and struggles to maintain 
adequate retention to meet mission requirements. Many other biomedical 
science career fields are not authorized or funded for special and 
incentive pays, although recruitment and retention of these fields is a 
challenge.
    Retention of the Medical Service Corps is generally not an issue, 
but recently we have noticed a loss trend in O-4 and O-5 rank as 
increasing numbers of personnel with long prior service become eligible 
for retirement with only 10 years of commissioned service. Recent 
changes to the selection process should provide more stability in this 
field.
    In summary, improved recruitment and retention incentives are 
projected to stabilize the chronic manning shortfall of several 
critical health professions specialties. Educational incentives (HPSP, 
FAP, USUHS) are especially successful to fulfill out-year requirements, 
however recruiting FQ health professionals continues to be a challenge.

    17. Senator Graham. Mr. Lamont, Mr. Garcia, and Mr. Ginsberg, what 
is your Service's plan for accomplishing the difficult task of 
recruiting and retaining highly qualified and motivated health care 
professionals?
    Mr. Lamont. The Army will continue to use monetary and nonmonetary 
incentives to recruit and retain sufficient quantity of military and 
civil service behavioral health providers.
    Mr. Garcia. Navy met overall health professions recruiting goals in 
fiscal years 2008 and 2009 and is on track to meet overall Active 
medical goals in 2010. With a 43 percent increase in Reserve Component 
(RC) medical goal in 2010, an increased accession requirement of 121 
providers, we continue to experience challenges in all four RC health 
profession corps.
    We are continuing best practices learned during the past 2 years 
and are implementing several new initiatives that we expect will bear 
fruit in our shortfall areas including:

        <bullet> Adjusting bonuses and incentives for fully trained 
        medical professionals.
        <bullet> Participating in the Military Accessions Vital to the 
        National Interest (MAVNI) pilot program to access qualified, 
        legal non-citizen medical doctors.
        <bullet> Initiating an accession process for legal permanent 
        residents who are qualified physicians or medical students.
        <bullet> Offering loan repayment opportunities for critical 
        medical specialties.
        <bullet> Expanding use of medical officers to inform 
        undergraduate and professional medical students across the 
        Nation of opportunities in Navy medicine.
        <bullet> Adding more full time recruiters to recruiting medical 
        professionals.
        <bullet> Expanding the Health Service Collegiate Program to 
        include Permanent Residents (green card) in critical student 
        specialties.
        <bullet> Offering bonuses for clinical psychologists, 
        physician's assistants, and social workers.
        <bullet> Continuing the Critical Wartime Skills Accession Bonus 
        to target physicians (up to $400,000) and dentists (up to 
        $300,000).

    Navy's most effective tools for retaining health care are special 
and incentive pays. Each of the four Corps (Medical, Dental, Medical 
Service and Nurse) has unique special pays designed to enhance 
retention among their respective health professionals. Other tools 
include training opportunities, age waivers and selective use of 
retired retained officers.

        <bullet> Medical Corps. The retention challenge for the Medical 
        Corps is maintaining the needed inventory with the proper 
        specialty mix to meet requirements. We are addressing this 
        challenge through targeted use of direct accessions, age 
        waivers, and selective use of retaining retired officers for 
        undermanned critical medical specialties. Multi-year Special 
        Pay (MSP), Additional Special Pay and Board Certified Pay are 
        all critical retention tools the Navy uses to maintain its 
        inventory. Of these, MSP offers the greatest leverage with a 2- 
        to 4-year obligation that enables achievement of proper 
        specialty mix.
        <bullet> Dental Corps. The Dental Corps is falling short of 
        meeting retention goals. Junior officers are especially 
        difficult to retain. Just as with the Medical Corps, special 
        pays are critical to Dental Corps retention efforts. The Dental 
        Corps has a Critical Skills Retention Bonus for junior 
        officers, which was recently renewed for another 3 years and a 
        multi-year retention bonus targeted at junior officer dentists. 
        Additionally, a Critical Wartime Skills Accession Bonus was 
        approved fiscal year 2010.
        <bullet> Medical Service Corps (MSC). Fiscal year 2009 gains in 
        MSC exceeded losses for first time since 2002. The overall loss 
        rates are starting to stabilize at 9 percent, but still fall 
        short of meeting the 5-year retention goals. Another retention 
        challenge is retaining the proper specialty mix. MSC retention 
        bonuses were recently approved for clinical psychology and 
        physician's assistants, along with the retention special pay 
        that exists for pharmacists and optometrists. Navy is 
        addressing the retention of mental health and wartime 
        specialties through the Health Professions Loan Repayment 
        program and other special/retention pays.
        <bullet> Nurse Corps. Retention of Nurse Corps junior officers 
        has been difficult due to issues around work/life balance and 
        long deployments. Navy is working to improve retention through 
        application of new special pays for critically manned and 
        undermanned specialties. Additionally, the Nurse Corps is 
        allowing junior officers to apply for funded training earlier 
        in their career and using the Health Profession Loan repayment 
        program to encourage retention of junior officers.

    Mr. Ginsberg. The specific recruiting challenges faced by the Air 
Force and our plan to overcome those challenges were described in the 
response to Senator Graham's question on the challenge of recruiting 
health professionals in the wartime environment and how we plan to meet 
this challenge. Our future members have many of the same concerns as 
our current members. Retention presents many of the same challenges as 
recruiting. As we attempt to retain our skilled health care 
professionals, the private sector and other Federal agencies, such as 
Department of Veterans Affairs (VA) and Public Health Service, are our 
strongest competitors. Private sector pays, sign-on bonuses, annual 
compensation, and retirement packages are increasing due to the growing 
demand for these skilled professionals. Once the education of our 
health care professionals is completed, the value of these individuals 
is enhanced, leading to significant pay disparities between our members 
and their private sector counterparts. This is especially true for 
those surgical specialties crucial for wartime support. Limited 
compensation packages, limited educational and leadership 
opportunities, limited family and quality of life benefits are all 
areas we hear as reasons for our health professionals leaving the Air 
Force. Similar to the approach we have for recruiting, the Air Force is 
confronting retention challenges with an aggressive three-pronged 
approach to enhance: (1) education, (2) compensation, and (3) quality 
of life.

          (1) Education: Education is an invaluable tool. We continue 
        to find great success in ``growing our own'' through civilian 
        or military-sponsored residency and subspecialty programs, with 
        over 13 percent of the Air Force Medical Service (AFMS) 
        commissioned officers in formal training programs. ``Growing 
        our own'' encompasses the spectrum from accessing new recruits, 
        developing their skills and specialties, to maintaining and 
        expanding on those capabilities for use in both state-of-the-
        art medical centers and in the deployed and austere 
        environments of wartime and humanitarian missions. Our highest 
        retention occurs when we control both the educational 
        environment and the service obligations associated with 
        advanced training programs. Our educational opportunities 
        include aggressive use of subspecialty training and post-
        baccalaureate degree programs for our Nurse Corps, Biomedical 
        Sciences Corps, and Medical Service Corps. Our surgical 
        optimization project partners with VA hospitals and other non-
        Federal facilities. The continuing education of our health care 
        professionals enhances the retention and value of these 
        military members through continuing commitments and service 
        obligations.
          (2) Direct compensation through contractual agreements is 
        another way we retain members, using all available pay 
        authorities equitably amongst the other Services and under the 
        auspices of Health Affairs. By fully funding multi-year 
        contract retention programs with our incentive pay programs, 
        the Air Force affirms its commitment to retaining long-term the 
        best skilled health care professionals. With the exception of 
        our wartime and critical surgical specialties, the total 
        enhanced pay compensation programs are helping to retain mid-
        and senior-level physician specialists. The Air Force 
        investment in health professions special incentive pays totaled 
        $194 million in fiscal year 2008 and $259 million in fiscal 
        year 2009, and $271 million for fiscal year 2010. These 
        increases are having a positive effect on retention. Retention 
        of our Dental Corps specialists has greatly improved over the 
        last 2 years; we look forward to maintaining nearly 100 percent 
        in the near future. Our best successes are with our Nurse 
        Corps, where we appear to be stabilizing after precipitous 
        losses of 11.4 percent annually from fiscal year 2005 to fiscal 
        year 2008. With increased incentives, we lost only 9.5 percent 
        of the Nurse Corps inventory in fiscal year 2009. Various 
        specialties of the Biomedical Sciences Corps, including 
        clinical psychologists and clinical social workers, have 
        recently been funded for incentive pays. Early results indicate 
        these programs are stabilizing also. Incentive packages help 
        offset some of the pay disparities between the military and 
        private sector compensation packages. Although it does not 
        reach parity, it does help ease the burden of multiple 
        deployments. Multi-year contracts under Title 37 allow some 
        stability in the health care professions, especially those with 
        high separation rates. As the incentive pay programs come 
        closer to meeting private sector compensations, we see 
        increased retention of our stressed career fields. At this 
        point, we are close to maximizing the pay authorities of Title 
        37 for many of our most critical wartime specialties, leading 
        us to utilize more of section 335 of Title 37. As we migrate 
        our compensation packages under the new pay authority of 
        section 335 of Title 37, we will finally be able to include 
        other critical specialties previously excluded from incentive 
        and retention pays. We will still be at the threshold ceiling 
        for many critical specialties for the retention bonuses and 
        board certification pay areas. We feel the eventual migration 
        of all our pay programs under section 335 of Title 37 over the 
        next several years will be of great benefit to the Air Force, 
        but we will be unable to compete with private sector 
        compensation packages for many of the critical surgical 
        specialties.
          (3) As our members grapple with decisions to remain in the 
        service, we understand the family is greatly involved. Quality 
        of life issues of family services, availability of schools, 
        frequency of moves and deployments, general base services, and 
        future opportunities are at the forefront of any discussion. We 
        have addressed many of these issues both for the new member, 
        the 20-plus year veteran, or the civil service employee. For 
        those specialties with increasing wartime deployments, we are 
        able to spread the deployment load more evenly among our bases 
        and members. By maintaining our deployments to 6-months in 
        duration, we can stabilize our force and retain more of our 
        skilled assets. Other ongoing projects include the Family 
        Health Initiative, posturing our personnel for our future 
        medical model. We are partnering among intra-AF agencies to 
        build force sustainment models, increase promotions, and 
        develop a proactive approach to retaining the numbers of 
        professionals in each specialty, providing the Air Force a 
        valued tool to reflect our future force.

    While retention of the health professions remains a challenge, we 
remain committed to exercise all available authorities in concert with 
the other Services under Health Affairs to obtain the best value in 
health care for our Nation's military and their family members.

                               pay raise
    18. Senator Graham. Dr. Stanley, the proposed pay raise for fiscal 
year 2011 is only 1.4 percent, but as you point out, matches the rise 
in the Employment Cost Index. What would be the impact on the DOD 
budget, and on the personnel accounts of each of the Services, if 
Congress directed an increase in the pay raise by 1 percent, or even a 
half percent, and did not provide a top-line increase or offsetting 
funding?
    Dr. Stanley. While the Department must and will continue to offer a 
competitive compensation package that recognizes the sacrifice of 
military members and their families, the Department must work closely 
with OMB and Congress to ensure the additional cost hinder 
recapitalization or put additional burden on the American taxpayer.
    Each time the annual pay raise is increased by an additional \1/2\ 
percent, military personnel costs are increased by roughly $0.5 billion 
in the current year and every year thereafter. Without a top-line 
increase, the Department would be forced to sacrifice other programs to 
fund the pay raise.
    The Department supports an increase in the military basic pay of 
1.4 percent, corresponding to the increase in the Employment Cost Index 
but is opposed to an increase in excess of this amount. The pay gap 
between military and private sector compensation has been closed as a 
result of congressionally mandated military basic pay increases of \1/
2\ percent above the ECI over the past decade. Currently, the 
Department believes the full compensation package provided to military 
members compares favorably with counterparts in the private sector.

                       incentives for uav pilots
    19. Senator Graham. Mr. Lamont, Mr. Garcia, and Mr. Ginsberg, the 
importance of improving our surveillance capabilities through unmanned 
aircraft is well understood. Each Service, however, seems to approach 
the issue of who controls--or pilots--such aircraft, and the 
compensation they receive--differently. Please explain how your Service 
handles this issue, and how you are doing in making this an attractive 
career path or skill.
    Mr. Lamont. All Army Unmanned Aircraft Systems (UAS) are operated 
by enlisted personnel in the Military Occupational Specialty (MOS) 15W, 
UAS Operator. MOS 15W is one of the most popular MOSs, and the Army is 
not experiencing problems filling or maintaining its ranks. The 
majority of UAS operators are assigned to maneuver Brigade Combat Teams 
(BCTs), operating the RQ-7 Shadow UAS. These personnel directly support 
ground maneuver commanders, providing intelligence, surveillance, 
reconnaissance, and target acquisition capability. Although the UAS 
community has a small population of Warrant Officers who were prior UAS 
operators, they serve as the tactical and technical UAV systems 
integrators who interface with the ground commanders, and no longer 
function as operators.
    As the Army continues to grow the UAS operator population, the 
capability of the Army to fill and maintain these positions has grown 
along with it. This is a specialty in which the Army has enjoyed 
tremendous success with its enlisted operator community. Given this 
success, there are no plans at this time to request any special or 
incentive pay for UAS operators.
    Mr. Garcia. Marine Corps Unmanned Aerial Vehicle (UAV) Operators 
are enlisted Marines, E1 through E9, assigned Primary MOS 7314. The 
Marine Corps currently reports PMOS 7314 as ``critical'' to OSD due to 
inventory shortages. While there is no Enlistment Bonus to become a UAV 
operator (the Marine Corps does not pay enlistment bonuses for specific 
MOSs), the Marine Corps currently pays high Selective Reenlistment 
Bonuses (SRB) to retain Marines with these skills. Additionally, in the 
fiscal year 2010 Retention Plan, the Marine Corps has opened up 7314 
for qualified Marines from other PMOSs to lateral move into upon 
reenlistment.

                                                                                   Fiscal Year 2010 SRB Rates
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                    Zone A (E3 and                          Zone A (E5 and      Zone B (E5 and      Zone B (E6 and                                              Zone C (E7 and
              PMOS                      Below)            Zone A (E4)           Above)              Below)              Above)            Zone C (E5)         Zone C (E6)           Above)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
7314............................  $46,500...........  $53,000...........  $58,500...........  $36,000...........  $40,000...........  $38,000...........  $43,500...........  $48,000
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    The decision on who will pilot Navy's UAVs has not been determined 
as the program is still in its early development phase.
    Mr. Ginsberg. Today's operational requirements for both unmanned 
and manned aircraft demand high level of aviation professionalism from 
both the rated and career enlisted aviator communities. Current 
resourcing methods of manning remotely piloted aircraft (RPA) 
authorizations with traditional undergraduate pilot trained (UPT) 
pilots from other manned weapon systems are unsustainable. As the AF 
continues to grow to 65 RPA Combat Air Patrols (CAPs) by 2013, the 
demand on a stressed inventory of undergraduate pilot trained (UPT) 
pilots competing to fill both manned and unmanned weapon systems 
requirements is falling short. As a result, the Air Force created a new 
rated officer Air Force Specialty Code (AFSC) to categorize RPA pilots 
in a distinct career field and created a unique RPA training pipeline, 
currently being refined through ``BETA Test'' classes. The RPA ``BETA 
Test'' is a potential future alternative to the current UPT method. In 
addition, the Air Force also created a new AFSC to categorize enlisted 
RPA sensor operators in a distinct career field.
    As with other aviation career fields, having the ability to attract 
and retain airmen to these new RPA career fields for a military 
aviation career is instrumental. Due to legislative language in the 
monthly Aviation Career Incentive Pay (ACIP) and Career Enlisted Flyer 
Incentive Pay (CEFIP) authorities, the Air Force is unable to pay new 
RPA pilots and sensor operators ACIP or CEFIP. As a result, by 
memorandum, I authorized implementation of the Air Force's RPA Pilot 
Incentive Pay Program effective 30 November 2009 and the RPA Sensor 
Operator Incentive Pay Program effective 29 January 2010, both 
consistent with approval provided by DUSD (P&R). RPA pilot and sensor 
operator incentive pay is paid monthly under the assignment incentive 
pay (AIP) legislative authority, 10 U.S.C., 307a, and mirrors the 
policy and dollar amounts outlined for paying and receiving ACIP or 
CEFIP. As far as annual bonuses, BETA-trained RPA pilots will not be 
eligible for a retention bonus until the expiration of their 6-year 
training ADSC in 2015. However, to initially grow the enlisted RPA 
sensor operator career field, use of the selective re-enlistment bonus 
(SRB) was deemed necessary to garner volunteers from both the enlisted 
Intelligence and Career Enlisted Aviators (CEAs) career fields.
    The Air Force will continue to evaluate monthly incentive pays and 
annual bonuses as both of the RPA career fields mature.

                               recruiting
    20. Senator Graham. Dr. Stanley and Mr. Lamont, you pointed out in 
your written statement that the Services achieved remarkable success in 
recruiting high school graduates in fiscal year 2009. You also note, 
however, that economic conditions will change and that the Services 
have to be ready to recruit the highest caliber men and women in good 
economic times or bad. The Army looked very hard a few years ago at the 
merits of individuals who wished to enlist, but did not finish high 
school. Similarly, waivers for drug use, minor--and not so minor--
civilian criminal activities and so on, were carefully administered, 
but in much greater numbers than today. What is your assessment of the 
Services' ability to identify individuals with potential for 
outstanding service despite blemishes on their records?
    Dr. Stanley. We are confident processes the Services have in place 
to screen potential recruits are sound. Each Service realizes that 
youthful indiscretions not indicative of moral turpitude are not sound 
predictors of successful service.
    The waiver process used by the Services revolves around the ``whole 
person'' concept and includes extensive screening which takes into 
account many factors, such as the time since the infraction, the actual 
events leading to the infraction, recommendations from members of the 
community (teachers, members of the clergy, neighbors, etc), and face-
to-face interviews with senior leaders. Studies have shown that 
individuals granted enlistment waivers generally perform equally or 
better than their non-waivered counter parts.
    In 2008, the Department issued policy directives that standardize 
the waiver processes and data collection procedures across the 
Services. These changes were designed to improve the process and 
provide the Department with more reliable data for analysis. We have 
recently contracted with the Center for Naval Analyses to study this 
issue further and to provide us with a more current assessment. The 
analysis will be concluded this fall.
    Mr. Lamont. The Army has an excellent process to identify 
individuals who display potential for military service despite 
blemishes on their records. Statistics clearly show there is very 
little risk involved in recruiting individuals with blemishes on their 
records.

    21. Senator Graham. Dr. Stanley and Mr. Lamont, if supply and 
demand dictates varying standards for recruitment, should we not be 
looking continually and over the long run at the metrics that will 
ensure successful recruiting of quality individuals over the long run?
    Dr. Stanley. DOD has proven, long-established Recruit Quality 
Benchmarks, developed under the guidance of the National Academy of 
Sciences. The key metrics for each fiscal year enlistment cohort are: 
90 percent high school diploma graduates (because they have lower 
attrition rates in the first 36-months of Service than other credential 
holders or dropouts); and 60 percent average or above cognitive ability 
(as measured by the Armed Forces Qualification Test because higher 
scoring recruits perform better in training and on the job than lower 
scoring recruits). That said, the Department recognizes the potential 
value of other metrics--such as temperament (personality) 
characteristics of applicants and has been encouraging Service efforts 
to explore such non-cognitive attributes that may be reliably measured 
and predictive of military performance.
    Mr. Lamont. We are experiencing a marked increase in fiscal year 
2008, 2009, and 2010 recruit quality. Part of that increase is based on 
screening metrics. The Army's attempts to screen recruits to predict 
high performance and retention continued last year as we employed the 
Tailored Adaptive Personality Assessment System, a non-cognitive test 
which can be used to predict first term attrition and other 
motivational performance aspects of applicants. Additionally, a recent 
Tier II Attrition Screen (TTAS) report completed by the United States 
Army Accessions Command indicated the TTAS screen could significantly 
reduce the Tier II (Non-High School Diploma Graduate/Alternate 
Credential Holder) 36-month attrition rate. These are two applications 
employed in an effort to sustain the Army's tremendous momentum of 
recruiting high quality individuals. We also commissioned a RAND study 
this year to develop a holistic strategy for the optimal levels and 
balance of recruiting resources that both accounts for the near-term 
recruiting environment and postures the Army for continued longer-term 
quality recruiting success as the environment changes. The results 
should assist the Army with manning the recruiting force and optimally 
employing incentives and deploying resources based on the recruiting 
mission and environment.

            educational opportunities for military children
    22. Senator Graham. Dr. Stanley, last year we received testimony 
from military spouses who were concerned about access to high quality 
education for their children, and in particular, the problem that 
military families experience in moves to remote areas or communities 
where there are few educational options. In your statement you report 
that more than half of the schools serving communities with significant 
military populations do not meet State academic standards in reading 
and math. The National Defense Authorization Act for Fiscal Year 2010 
required DOD to do a study on options to improve educational 
opportunities for military children, including the option of charter 
schools. A report on that study is due to the subcommittee on March 31, 
2010. Are we on track for that?
    Dr. Stanley. The quality of education for the children of our 
servicemembers is extremely important to the Department. I share your 
concern that some families, based on their assignment, may have fewer 
educational choices.
    To address the important question posed within the National Defense 
Authorization Act (NDAA) for Fiscal Year 2010, we are conducting a 
competitive procurement to obtain a reputable and experienced 
contractor in education and military student research. This method of 
conducting the study will provide an unbiased view and expert analysis 
to inform Congress of the Department's progress in this area.
    The procurement process for developing a solicitation which 
includes free and open competition takes approximately 4 months. This 
process began in November, and included collaboration with the U.S. 
Department of Education as the reporting requirement in the NDAA 
required. The solicitation was put out for bidding on March 26. We 
expect to have a contract awarded in May and a report to you by 
December 31, 2010.
    An interim response giving detailed accounts of the Department's 
progress is currently being reviewed and will be delivered to Congress 
in the near future.

    23. Senator Graham. Dr. Stanley, what is your opinion on the option 
of charter schools?
    Dr. Stanley. DOD welcomes parental and community efforts to develop 
and enhance the educational opportunities for all children, especially 
military connected children. These opportunities can include 
traditional public schools, private schools, home school, and charter 
schools.
    DOD supports charter school options on military installations as 
one approach to improving the public schooling of military children.
    Specific examples of DOD's support of charter schools are the three 
Charter Schools currently on military installations, Joint Reserve Base 
New Orleans, Davis Monthan Air Force Base, and Vandenberg Air Force 
Base.

    24. Senator Graham. Dr. Stanley, what would be the advantages of 
DOD looking at this type of public option on military installations?
    Dr. Stanley. An advantage of charter schools on military 
installations is to provide our families with another viable public 
school option when considering where to educate their children. 
Additionally, starting a charter school takes community investment and 
involvement, we encourage our families and leadership to be involved in 
their children's education.
    DOD does not have the authority to establish charter schools. There 
are, however 158 public schools on 68 military installations which are 
not DOD schools. The establishment of charter schools could be another 
alternative.

    25. Senator Graham. Dr. Stanley, can you envision a circumstance in 
which an opportunity scholarship program could address the concerns of 
military families regarding expanded educational options?
    Dr. Stanley. Yes, I can envision a circumstance in which 
opportunity scholarship programs could address military families' 
concerns for expanded educational options. I consider education 
opportunities for military families an important Departmental goal.

    26. Senator Graham. Mr. Ginsberg, I understand that the Air Force 
hosts two charter schools, one at Davis-Monthan in Arizona and one at 
Vandenberg Air Force Base in California. What have you learned in this 
experience; some of the best practices that could be shared, especially 
in terms of funding for facilities and capital expenses, drafting of a 
school's charter or contract, staffing, etc? What unique challenges 
does the Air Force face in establishing carter schools on military 
installations?
    Mr. Ginsberg. The initiatives at Davis-Monthan AFB and Vandenberg 
AFB have worked for those two bases. Davis-Monthan used results from a 
survey of 200 parents to identify interest in, and a need for, an on-
base middle school. The school liaison officer coordinated with base 
leadership including the Plans Office, Civil Engineering, the Legal 
Office, Contracting, and Security Forces to ensure smooth 
implementation of the charter school. The school on Davis-Monthan now 
has 114 students (5 are non-military connected) and is requesting 
future expansion (over 4 years) from grades 6-8 to grades 6-12. The 
school is housed in an existing facility that was previously leased to 
the local school district. The charter school company signed a no-fee 
lease and cares for the property and provides building maintenance.
    Davis-Monthan reports challenges do still exist, especially 
ensuring installation security procedures are communicated to and 
followed by all school personnel, students and parents. Included in 
maintaining these essential procedures is the proper coordination for 
the entrance of non-DOD personnel and school subcontractors onto the 
installation. In addition faculty members who are foreign national 
sometimes required an extended period of time for background checks.
    At Vandenberg AFB, the charter school, located on the base, 
operates as a public school with open enrollment. The base leases the 
school to the local education agency which, in turn, leases the 
building site to Manzanita Charter School. All facility maintenance, 
utilities, etc are paid by the charter school. The base does have 
jurisdiction for law enforcement and contingencies. Manzanita officials 
are very vocal about their continued desire to remain on base due to 
the outstanding relationship built with the military community. 
Military students account for approximately 100 of the 280 children 
enrolled. Parents of the military students are grateful to have the 
choice of attending a Lompoc Unified school District school or the 
Manzanita pubic charter school. Each entity operates off a different 
educational model, enabling parents to choose the best option for their 
child.
    Headquarters Air Force Services recently issued a memo to address 
the establishment of charter schools on or near Air Force 
installations. In an effort to provide standard procedures for Air 
Force base leadership in working with charter school initiatives in 
their communities, installation commanders now contact the Headquarters 
Air Force office with functional responsibility for military-connected 
student programs.

    27. Senator Graham. Dr. Stanley, Mr. Lamont, Mr. Garcia, and Mr. 
Ginsberg, how would you characterize the concerns of military families 
about the quality of education for their children?
    Dr. Stanley. The quality of K-12 education is an important factor 
for military families as they make career decisions on assignments and 
is linked to retention in the military services.
    A significant element of family readiness is an educational system 
which provides not only a quality education but recognizes and responds 
to the unique needs of children of military families.
    Children of military families face distinctive challenges 
unparalleled in the general student population. The most glaring of 
these challenges is the number of transitions military children undergo 
during their school years. Military children move on average six to 
nine times during their K-12 school years. Among the common stresses 
involved in children relocating to a new school are the differences in 
achievement standards, school protocol, course offerings, 
extracurricular activities, and academic requirements.
    These school-based transitions are exacerbated by the challenges of 
leaving a cadre of friends, educators, and caregivers the military 
child has spent months or years establishing. Additionally, one of the 
greatest difficulties military children will face, regardless of 
additional stresses of relocation and school transition, is the effect 
of being apart from one or both parents who may be deployed. All of 
these factors can result in military children suffering in areas of 
school performance and educational attainment.
    The Department offers a variety of support programs and educational 
opportunities to address these concerns.
    Mr. Lamont. Army parents care deeply that their children have 
access to quality educational opportunities despite the frequent moves 
and deployments. Recognizing this importance, one of the five tenets of 
the Army Family Covenant is our commitment to ensure excellence in 
schools. As our children move from State to State, school district to 
district, they encounter different achievement standards, school 
protocols, course offerings, extracurricular activities, and academic 
requirements that may jeopardize their educational progress to include 
high school graduation. These school-based transitions are further 
exacerbated by the challenges of leaving friends, educators, and 
caregivers that the military child has spent months or years 
establishing. Additionally, one of the greatest difficulties military 
children will face, regardless of additional stresses of relocation and 
school transition, is the effect of being apart from one or both 
parents who have been deployed. All of these factors can result in 
military children suffering in areas of school performance and 
educational attainment.
    Army has implemented several programs and initiatives to mitigate 
the effects of deployments and to help ensure smooth educational 
transitions as our children move from one installation to another. Army 
School Liaison Officers serves as advocates for military-connected 
students and assist them through school transitions and with school-
related issues. Academic support services help students compensate for 
parental absences with on-post homework centers, and 24/7 online 
tutoring support for students regardless, of where they live. The Army 
provides specialized training for school personnel to ensure they are 
prepared for the challenges our military students face when their 
parents are deployed. In addition, Military Family Life Consultants, 
licensed mental health clinicians, have been placed in many of the 
public schools that serve large populations of military children, to 
assist students to effectively handle the stress of parental 
deployment.
    Mr. Garcia. Marine Corps and Navy parents rank quality K-12 
education very high on their priorities when making decisions that 
impact their families. It also gets high consideration on their career 
decisions, on assignments, and is linked to retention. One of the first 
areas many of our families explore when notified of a Permanent Change 
of Station (PCS) is the quality of the schools near their new 
installation. A significant element of family readiness is an 
educational system that provides not only a quality education, but also 
one that recognizes and responds to the unique needs of children of 
military families.
    Military children move several times during their K-12 school 
years. Continuous transitions equate to increased difficulties 
integrating into new schools which are usually in different States; 
adjusting to differences in achievement standards, enrollment criteria, 
school policies, and course offerings; access to or eligibility for 
extracurricular activities; and academic requirements for graduation. 
The Interstate Compact for Educational Opportunity for Military 
Children, now signed by 28 States, focuses on leveling the field for 
those issues. The DoN is engaged with the DOD in supporting that 
Compact.
    Mr. Ginsberg. Air Force families across the world include 175,000 
children ages 5-18 and these children generally move more than six to 
nine times during their K-12 school years, often making multiple moves 
in high school years alone. Academic standards, promotion/graduation 
requirements, services for children with special needs, eligibility for 
sports and extracurricular activities, and transfer and acceptance for 
records vary greatly from State to State and even district to district. 
While these are not new issues, national emphasis on quality education 
(as exemplified by strong interest in the re-authorization of the 
Elementary and Secondary Education Act), and higher standards for 
admission to many post high school education and training institutions 
increase the stakes like never before. In addition, the added stress of 
family separation due to deployments (recent study indicates 37 percent 
of children worry about safety of the deployed parent) has combined 
with transition issues to increase the need for providing information 
and support to military families dealing with military child education 
issues.
    Air Force families are no different than civilian families in that 
concern for the general well-being of their children is a primary 
driver in their lives. A major part of this sense of well-being is 
availability of quality education opportunities. Most of our families 
are fortunate to be located in areas where the local school districts 
(and overseas, the DODDS schools) provide a positive educational 
experience. In areas where that is not the case, our families have 
proven very proactive and resourceful in working with school liaison 
officers, installation leadership, local education agencies and others 
to find suitable educational augments or options.

    28. Senator Graham. Dr. Stanley, Mr. Lamont, Mr Garcia, and Mr. 
Ginsberg, what thoughts do you have on ideas that could lead to better 
options, including establishing charter schools or offering opportunity 
scholarships on military installations?
    Dr. Stanley. My ideas for better educational options include 
support for charter schools, DOD partnership with Department of 
Education, and an interagency collaboration.
    DOD supports charter school options on military installations as 
one approach to improving the public schooling of military kids. Like 
all parents, military parents want quality education for their 
children. A significant element of family readiness is an educational 
system that provides not only a quality education but one that 
recognizes and responds to the unique needs of children of military 
families.
    The Department is working on a collaborative Educational 
Partnership Initiative with the Department of Education in efforts to 
ease the transition of military students and to provide resources to 
local education agencies (LEA) who educate military children. DOD 
expanded mission is a proactive approach to addressing the issue of the 
availability of quality educational opportunities for military 
children.
    The Department is represented on the National Security Council 
Military Family Interagency Policy Committee (IPC) that has been 
established as part of the President's commitment to military families. 
This administration-wide effort is essential to focus the strengths of 
the various departments and agencies toward supporting and enriching 
the lives of our military families, including transition, achievement, 
and expanding educational options for military children.
    Mr. Lamont. While Army has no authority or expertise to establish 
charter schools, we fully support charter school options on military 
installations as one avenue to improve the educational achievement of 
military students and meet their unique needs. Using another approach, 
Army is an active participant in DOD's formal partnership with the 
Department of Education in an effort to ease the transition of military 
students and provide resources to local education agencies who educate 
military children. In June 2008, the Deputy Secretaries of Defense and 
Education signed a Memorandum of Understanding (MOU) to create a formal 
partnership between the two departments to support the education of 
military students. The MOU provides a comprehensive and cohesive 
structure for collaboration between the two Federal agencies as well as 
with local, State, and other relevant entities. Through the MOU, the 
agencies can now leverage their coordinated strengths to improve the 
educational opportunities of military connected students.
    Mr. Garcia. Navy and Marine Corps parents' desire for access to a 
quality K12 education is no different than most other parents. With our 
sailors and marines already experiencing a high state of readiness, 
regular relocations, and multiple/extended deployments, it is 
particularly important that Services do all they can to support access 
to quality education for their children. It is essential that we 
explore alternatives. However, the DoN does not have the authority, nor 
the required resources, to establish charter schools.
    Through recent improvements in the provision of civilian School 
Liaison Officers (SLO) at installations, an emphasis on Exceptional 
Family Member services, better collaboration with Local Educational 
Authorities (LEAs) through the Educational Partnership Initiative, and 
connections to the military liaisons working with States on the 
Interstate Compact, we've made great strides toward smoothing 
transitions for our students. A number of parents have opted to home 
school their children. While a viable option, it adds additional 
stressors to parents who are already experiencing difficulties and can 
even add to the economic burden of the family when a spouse must leave 
paid employment to educate their children. Our SLOs are helping by 
providing home school parents with linkages to networks and resources.
    The DoN supported the 2008 Memorandum of Understanding between DOD 
and the Department of Education which created a formal partnership to 
support the needs of military children. The DoN continues to work 
closely with DOD and the Department of Defense Education Activity 
(DODEA) on collaboration between local, State, and other agencies to 
support the educational opportunities of military children.
    Both the Navy and the Marine Corps will continue to place a high 
emphasis on collaborative relationships between military families and 
their LEAs and seek to find resolutions at the local level.
    Mr. Ginsberg. Installation commanders are encouraged to support 
parental and community efforts to develop/enhance learning 
opportunities for all children and especially military connected 
students. These opportunities can include traditional public schools, 
private schools, virtual schools, home schools, and charter schools.
    Headquarters Air Force Services recently issued a memo to address 
the establishment of charter schools on or near Air Force 
installations. In an effort to provide standard procedures for Air 
Force base leadership in working with charter school initiatives in 
their communities, installation commanders now contact the Headquarters 
Air Force office with functional responsibility for military connected 
student programs. This office provides procedural guidance and 
coordinates with other headquarters offices on related issues such as 
use/lease of Air Force facilities. This policy insures a positive, 
standardized approach to support of charter schools and other 
educational options for military-connected students.
    Air Force also works closely with the DODEA Educational Partnership 
Initiative, providing input and advocating for grants and other support 
to school districts that educate military-connected students. We 
believe this proactive approach will strengthen educational options 
within local education agencies for not just Air Force children but all 
students within these districts.

                              legislation
    29. Senator Graham. Dr. Stanley, Mr. Lamont, Mr. Garcia, and Mr. 
Ginsberg, do you need any additional legislation in order for the DOD 
to move forward?
    Dr. Stanley. No, other than the fiscal year 2011 Omnibus 
legislative proposals submitted to Congress no further legislative 
adjustments for my organization, the Office of the Under Secretary of 
Defense (Personnel and Readiness), are needed at this time. If 
additional authority is required, the Department will follow the formal 
channels to work with Congress.
    Mr. Lamont. The Department is continually assessing the need for 
additional legislation. As we reach consensus as to what legislative 
changes will help DOD move forward, we will certainly communicate those 
recommendations to Congress.
    Mr. Garcia. The Department of Navy is not currently seeking new 
legislative authorities. If new legislative requirements are 
identified, we will propose their inclusion in the Defense Legislative 
Program.
    Mr. Ginsberg. Yes. Compressed Orderly Rapid Equitable Replacement
    DOD has transmitted a proposal to authorize the Secretary of 
Defense and the Air Force specifically to conduct an alternate, 
streamlined Equal Opportunity complaint processing system similar to a 
highly successful pilot program the Air Force conducted from 2005-2007 
pursuant to a congressional mandate. This system is completely optional 
for the complainant, stresses early dispute resolution, consolidates 
processes in the administrative stage and preserves the complainant's 
full right to appeal to the Equal Employment Opportunity Commission and 
to bring suit in Federal court. According to a June 2008 DOD report to 
the Government Accountability Office report, the previous pilot cut 
processing times for cases that used this alternate system by 
approximately 50 percent (from 216 calendar days to 109). We
found this to be an effective tool in addressing the chronic problem of 
excessive time to process these complaints. It saves resources and 
leads to a quicker resolution of the complainant allowing complainants, 
coworkers and managers involved to return their full focus to the 
mission. We would ask that this legislation be favorably considered.

    [Whereupon, at 12:41 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                       WEDNESDAY, MARCH 24, 2010

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.

       MILITARY HEALTH SYSTEM PROGRAMS, POLICIES, AND INITIATIVES

    The subcommittee met, pursuant to notice, at 10:02 a.m. in 
room SR-232A, Russell Senate Office Building, Senator Jim Webb 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Webb, McCaskill, 
Begich, Graham, and Thune.
    Also present: Senator Cardin.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella Eisen, counsel; and Gerald J. Leeling, counsel.
    Minority staff members present: Diana G. Tabler, 
professional staff member; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Paul J. Hubbard and Jennifer R. 
Knowles.
    Committee members' assistants present: Nick Ikeda, 
assistant to Senator Akaka; Gordon I. Peterson, assistant to 
Senator Webb; Tressa Guenov, assistant to Senator McCaskill; 
Lindsay Kavanaugh, assistant to Senator Begich; and Walt Kuhn, 
assistant to Senator Graham.

        OPENING STATEMENT OF SENATOR JIM WEBB, CHAIRMAN

    Senator Webb. Good morning. The subcommittee meets today to 
receive testimony on Military Health System programs, policies, 
and initiatives in review of the National Defense Authorization 
Request for Fiscal Year 2011 and the Future Years Defense 
Program.
    The Military Health System serves a population of more than 
9.5 million eligible beneficiaries, both in military treatment 
facilities and through contracted private-sector care.
    The primary mission of the Military Health System is to 
maintain the health and readiness of our Active Duty military 
personnel, both at home and on the battlefield. The system also 
provides medical care for millions of dependents of Active Duty 
personnel, military retirees and their dependents, certain 
Guard and Reserve members and their families, and others.
    As one who's spent most of his life in and around the 
military, I note the presence of the ranking Republican.
    Senator Graham. Thanks for starting on time.
    Senator Webb. Yes.
    I care deeply about our special obligation to provide our 
military servicemembers, their families, retirees, and our 
veterans with the finest healthcare treatment available.
    For this reason, I introduced a companion bill in the 
Senate on Monday, when it was recognized that legislation was 
needed to explicitly state in the law that TRICARE and 
Department of Defense (DOD) nonappropriated-fund health plans 
meet the minimum essential coverage for individual healthcare 
insurance required by the healthcare reform bill. My bill was 
based on one introduced in the House of Representatives last 
Friday by Congressman Skelton.
    I appreciate the support demonstrated by Senator Graham and 
other members of this subcommittee for this bipartisan 
legislation. The measure was hotlined last night. I'm hopeful 
that our members will agree to pass it soon so that we can take 
this issue off the table as a matter of concern for our 
servicemembers, their families, and other beneficiaries.
    Nine years of conflict have stressed our military in ways 
that were not contemplated at the inception of the All-
Volunteer Force. As I noted 3 years ago, and again 2 weeks ago, 
during this subcommittee's initial hearing in this session, we 
are in uncharted territory as a result of past rotation cycles, 
multiple combat deployments, and an unsatisfactory deployment-
to-dwell ratio.
    Many of you will remember that I introduced what was called 
dwell time legislation 3 years ago, trying to put a safety net 
underneath our military members being deployed when the 
rotational cycles went below 1 to 1, although traditionally 
they were supposed to be, and have been, around 2 to 1--2 years 
home for every year deployed, 1 year home for every 6 months 
deployed.
    A lot of people at that time, I think, interpreted this 
legislation as politically motivated. I can say again, and 
reaffirm today, that it was not, that the well-being and proper 
leadership of our men and women in uniform is not the sole 
prerogative or the sole responsibility of our military 
commanders. The circumstances under which they serve, where, 
for how long, and under what conditions is very much the 
subject of the stewardship of Congress.
    My perspective on this issue is also shaped by 4 years 
spent as a counsel to the House Committee on Veterans' Affairs, 
when we did pioneering work in the areas of post-traumatic 
stress disorder (PTSD) and other issues posing long-term 
consequences for veterans of the Vietnam war.
    During the past 3 years, we've seen a marked improvement in 
areas such as the treatment of traumatic brain injury (TBI) and 
wounded warrior care management, but the Military Health System 
is still a work in progress. It's not enough simply to provide 
healthcare. It must also be the most appropriate and effective 
professional care given in a timely way. In this regard, I 
believe it's always important to point out our appreciation to 
the healthcare providers in each branch of the Armed Forces who 
treat and stabilize servicemembers wounded in battle. Our 
dedicated medical teams bring wounded warriors from the 
battlefield to the operating room within what is called the 
``golden hour,'' enabling our medical professionals to achieve 
the best wartime survival rates, by far, in our Nation's 
history.
    The budget request for fiscal year 2011 includes more than 
a billion dollars for research into TBI and PTSD. Last year, 
the Army established a Warrior Transition Command to oversee 
the care and management of wounded, ill, and injured soldiers. 
The Navy and Marine Corps created programs, such as the Marine 
Corps Wounded Warrior Regiments and the Navy's Safe Harbor, to 
support a full-spectrum recovery process for sailors, marines, 
and their families.
    Our most pressing concern is the health of our 
servicemembers who are deployed, and who have been deployed 
repeatedly. Despite shortages of healthcare professionals, we 
must adequately assess the medical condition of our 
servicemembers, before and after they deploy, to include 
effective mental health screenings.
    We've seen recent reports of increased prescription drug 
use that are deeply troubling. In fact, the data is stunning, 
when you look at it. According to an article published this 
month by the Military Times, at least one in six servicemembers 
is on some form of psychiatric-related drug. The newspaper 
reported that the use of such medications is estimated to have 
increased by 76 percent since combat operations began in 
Afghanistan and Iraq, with antipsychotic prescriptions more 
than tripling from 2001 to 2009. Whether these drugs are 
antidepressants, pain medications, muscle relaxants, or 
antianxiety drugs, we really do need to understand the dynamic 
of this problem. We look to today's witnesses to help us 
understand the scope of these alarming trends and to describe 
what is being done to address them.
    I would say that there is a larger issue in play here that 
I have a great deal of concern about, and that is the 
transparency of what is actually happening to our Active Duty 
military when they are deployed, whether it is in the context 
of the combat operations that they are in, the living 
circumstances that they have in these deployed areas, or issues 
such as this.
    This subcommittee is also hearing reports of increased 
substance abuse, growing numbers of servicemembers with 
emotional difficulties across the Services, and a lack of 
access to mental healthcare. It's not enough to address these 
issues piecemeal, we must approach them holistically, because 
their effects, clearly, tend to overlap.
    At a hearing held by the Personnel Subcommittee last year, 
we were told by a number of military spouses that access to 
healthcare, including access to mental healthcare and specialty 
care, was a top concern. Clearly, our servicemembers must be 
secure in the knowledge that their family members are receiving 
the medical care that they need.
    We must also be mindful of the cost of providing this care. 
Secretary Gates said last year that ``healthcare is eating the 
Department alive.'' This year, he stated his desire to ``work 
with Congress, in figuring out a way to bring some modest 
control to this program.''
    We welcome any suggestions the Department and the Services 
may have to address the steadily increasing costs of providing 
healthcare under the Military Health System.
    Our military men and women in uniform and their families 
have given much to this country. We must do everything we can 
to ensure that they continue to receive the finest healthcare 
available. We cannot achieve that goal without open 
communication with DOD and with the Services. If we are not 
aware of a problem, we cannot be a part of a solution.
    I'd like now to recognize our ranking member, Senator 
Graham, if he has any opening statement.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman, for holding this 
hearing.
    I'll tell you what, I'll just work my comments in with the 
witnesses. I know Senator Cardin is a busy man. I look forward 
to hearing what he has to say.
    Senator Webb. Without objection, all witness written 
testimony submitted for today's hearing will be included in the 
record.
    In addition, the National Military Family Association and 
Georgetown University Medical Center's Palliative Care Program 
have submitted testimony, and, without objection, this will 
also be included in the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Webb. I'm very pleased to introduce our colleague, 
Senator Ben Cardin, who is the lone witness on our first panel. 
Senator Cardin shares with me a great concern about the 
dramatic increase in the use of prescription drugs by 
servicemembers. I would like to express my appreciation to 
Senator Cardin, for having really gotten out in front of this 
issue and helped make all of us aware of the data that ended up 
being reported in USA Today. I invited him. I sought his 
testimony today. I would like to welcome you, this morning.
    Senator Cardin.

  STATEMENT OF HON. BENJAMIN L. CARDIN, U.S. SENATOR FROM THE 
                       STATE OF MARYLAND

    Senator Cardin. Chairman Webb, first of all, thank you very 
much for holding this hearing and for your interest in this 
subject.
    Senator Graham, thank you for your continued interest in 
fighting for our soldiers in so many different ways. I'm 
honored to be before your committee, and I bring to your 
attention a serious issue concerning the health of our combat 
troops and how the military is dealing with the stress of 
combat and repeated deployments.
    There are some very disturbing statistics that the chairman 
mentioned in his opening statement. Let me try to just fill in 
a few more of the details. In 2009, there were 160 Active Duty 
Army suicides. That's a 15 percent increase from the previous 
year. We have an alarming use in the increase of 
antidepressants. In 2005, there were a little over 4,000 combat 
troops using antidepressants. That's about 1 percent. By 2007, 
it grew to over 19,000, or 5 percent, of our troops on 
antidepressants. That's a huge increase in the use of 
antidepressants, and that number remained pretty constant for 
2008.
    We do know that there is information that's been made 
available to us. I can cite just one source. The Army's Fifth 
Mental Health Advisory Team tells us that the use of 
antidepressants and sleeping pills of our combat troops in Iraq 
is 12 percent, and our combat troops in Afghanistan is 17 
percent. Mr. Chairman, as you said, one out of every six. We 
know that there's a huge number of those that are using these 
types of medications.
    There's a real question as to whether they're receiving the 
proper medical supervision, the proper monitoring. This is 
particularly true during the first 6 weeks, when medications 
are taken and when your body adjusts to the medicines that 
you're taking, so that the adverse reactions are less likely.
    In combat, the antidepressant that's most likely used is 
selective serotonin reuptake inhibitors (SSRI). Since 2004, the 
Food and Drug Administration (FDA) has required a warning on 
the use of these types of antidepressants by the increased risk 
of suicidal thoughts. The vulnerable age that the FDA tells us 
is 18 to 24. Forty-one percent of those deployed in Iraq and 
Afghanistan fall within that age group, which should have all 
of us concerned.
    I want to say, I think DOD has made some strides in the 
right direction. As part of the National Defense Authorization 
Act for Fiscal Year 2010, I offered an amendment that requested 
information to be made available to our congressional 
committees on the numbers taking these drugs over the next 5-
year period. It was included in the Senate version. It was not 
included in the conference version. I did send a letter to 
Secretary Gates, and I want to compliment Secretary Gates. He 
supplied the information to my office. I have had a chance to 
talk to him personally. I think he understands the seriousness 
of this matter.
    There's been significant improvements in the predeployment 
screening for healthcare issues for our soldiers before they go 
to combat. There's been post-deployment healthcare assessment 
and treatment. I acknowledge that. But, I still think we need 
DOD's help in trying to understand what is happening, as far as 
the use of these prescribed drugs.
    We have a lot of dots, but we haven't connected the dots. I 
really do ask this committee, and I'll be asking my colleagues 
in the Senate, to help in trying to understand what is 
happening here. Why has there been such a large increase in the 
use of antidepressants? I think we need to have the answers to 
the questions. We need to know whether there is proper medical 
supervision for those who are taking prescribed 
antidepressants. We need to know what the policy is for those 
soldiers that are in combat. If they start on antidepressants, 
what is the policy of the military during those first 6 weeks? 
Are they to be sent into combat itself, again, there is a 
particular vulnerability during that 6-week period. I'm not 
aware if there is a policy, and I think this committee needs to 
know, and the U.S. Senate needs to know.
    I think we need to have a better understanding of the 
relationship between the use of antidepressants and suicide 
within the military. I would urge us to make the resources 
available for a scientific study, with peer review, so that we 
can try to connect the dots. I think we need to know whether 
there are other treatment options, rather than the use of 
prescribed medicines. I certainly would urge us to request 
relevant data be made available to Congress on the use of 
antidepressants, so that we can be part of the oversight 
responsibilities that we have as Members of the U.S. Senate.
    I look forward to working with the committee. I look 
forward to working with my two colleagues. I think this is an 
important issue, and I thank you for giving it attention.
    [The prepared statement of Senator Cardin follows:]
            Prepared Statement by Senator Benjamin L. Cardin
    Chairman Webb, Ranking Member Graham and distinguished members of 
the subcommittee: thank you for your invitation to appear before you 
this morning.
    I am pleased to have this opportunity to discuss with you the issue 
of the deteriorating mental health of so many of our combat troops. On 
behalf of the American families whose loved ones have gone into harms 
way I come before you today to discuss the strains that have been 
placed upon our All-Volunteer Force.
    In 2009, an unprecedented 160 Active-Duty Army suicides were 
reported, representing a 15 percent increase over the previous year. In 
response to this growing concern I proposed an amendment (#1475) to the 
2010 National Defense Authorization Act (NDAA) which would have 
required the Department of Defense to report to Congress annually, for 
the next 5 years, the number and percentage of servicemembers who were 
prescribed antidepressant medications while serving in Iraq and 
Afghanistan. It would have also required that a study be initiated to 
investigate the relationship between the increased number of suicides 
and attempted suicides by members of the Armed Forces and the increased 
number of antidepressants and other behavior modifying prescriptions 
being used to treat anxiety for our combat troops.
    This amendment was successfully accepted into the Senate's version 
of the NDAA, but was unfortunately removed during the conference 
process.
    As a follow-up to my amendment, I also sent a letter to Defense 
Secretary Gates last November, asking him to provide details on the 
number of troops being prescribed antidepressant medications while 
serving in Iraq and Afghanistan. The intent of this letter was to get a 
preliminary assessment of the number of troops being affected by the 
Department of Defense's (DOD) policies on mental health care in 
theater. This information, when coupled with the committee's 
requirement for the DOD to demonstrate their policies on how they 
manage patients prescribed antidepressants in-theater, would begin to 
provide insight into how the DOD was addressing this significant issue.
    As background to this discussion, I would like to first invite your 
attention to the following information. In October 2004, the Food and 
Drug Administration (FDA) directed manufacturers of a certain class of 
anti-depressants known as Selective Serotonin Reuptake Inhibitors--
commonly referred to as SSRIs--to add a black box warning that alerted 
the public to the increased risk of suicidal thoughts by children and 
adolescents. By May 2007, the FDA further directed that the warning be 
extended to include young adults from ages 18 to 24, with an emphasis 
towards the first 6 weeks of initiating treatment.
    The FDA's decision to extend the black box warning was the result 
of scientific findings that children with major depressive disorders 
showed significant increases in the risk of ``possible suicidal 
ideation and suicidal behavior.'' An additional analysis indicated a 
one-and-a-half fold increase in the potential for suicide in the 18-24 
year old age group. For the purpose of today's hearing, it is 
critically important to understand that this same age group--18-24 year 
olds--comprises about 41 percent of our young men and women currently 
deployed to Iraq and Afghanistan.
    Now, during the 2005 to 2008 time period (the last year full data 
were provided by the DOD) there was a 400 percent increase in the 
prescription of antidepressants and other drugs used to treat anxiety--
a disproportionate number of which are the SSRIs I just described. Of 
the 18,155 troops taking antidepressants while on deployment in 2008, 
98.5 percent of them initiated the use of the drug while on deployment.
    Data contained in the Army's Fifth Mental Health Advisory Team 
Report indicate that roughly 12 percent of combat troops in Iraq and 17 
percent of those in Afghanistan were taking prescription 
antidepressants or sleeping pills to help them cope with the stress of 
their deployments. While the sixth report--released in late 2009 from 
this same group of mental health professionals--shows that the suicide 
rate in Iraq had since stabilized, it more tellingly indicates that the 
suicide rate in Afghanistan doubled during the same timeframe.
    It bears repeating that military personnel, who are being called 
upon to serve in a forward deployed combat area, often for up to a 
year-long deployment, are being prescribed medications with a warning 
that indicates potential side effects which include an increased risk 
of suicide as well as aggressive, angry, or violent behavior.
    This deeply concerns me, and it should equally concern those who 
are responsible for the long-term mental health of our servicemembers.
    I submit, for your consideration, the following questions that I 
hope you will agree merit a response from those charged with caring for 
these young men and women:

        <bullet> If the DOD is medicating personnel in forward deployed 
        combat areas, how are they maintaining the necessary oversight 
        of these soldiers, sailors, and marines, especially during the 
        initial 6-week window when the increased risk of suicidal 
        thoughts is said to occur?
        <bullet> Are these personnel removed from combat status? (At 
        least during the first 6 weeks of medication).
        <bullet> Who makes the determination of whether a servicemember 
        undergoing mental health treatment in-theatre is deemed fit-
        for-duty? Is it the physician or mental health professional, or 
        is it the servicemember's operational commander, and if so, is 
        this the right person to make that decision? Why?

    Let me in closing recognize that the DOD has made significant 
strides in addressing both its pre-deployment health care screenings 
and its post-deployment health care follow-ups and treatment when 
necessary. It has also achieved many positive steps towards 
destigmatizing the process of seeking and obtaining mental health care 
for our troops.
    In light of this, I recognize that to move forward with a review of 
DOD's procedures, great caution must be exercised so as to avoid 
undoing the progress that has been made. Due diligence, however, 
dictates that Congress utilize its oversight authority in this matter 
and investigate whether the DOD's current policies regarding the use of 
prescription antidepressant drugs--most notably those known adverse 
side effects--pose an unacceptably high risk to our troops--especially 
while they are serving in forward operating areas.
    Since the beginning of the current conflicts there has been a 
steady increase in the number of suicides and suicide attempts by 
current and past members of our Armed Forces. We have been told that 
there is no one reason for this increase, but rather a combination of 
causes and stressors. However, we cannot ignore that this has occurred 
at the same time as we have witnessed a four-fold increase in the 
number of psychiatric medications being prescribed to our men and women 
serving in combat areas.
    Admittedly, much debate continues within the scientific and mental 
healthcare communities over the potential relationship and extent 
between the use of psychiatric medication and suicide.
    Mr. Chairman, we owe it to our servicemembers--past, present, and 
future--and to their families, to do everything in our power to ensure 
that the mental healthcare they receive is the best our Nation can 
offer. For this reason, I ask that you and the rest of my Senate 
colleagues will again consider requiring the implementation of an 
annual reporting mechanism for DOD to come before Congress and disclose 
the extent to which it is employing antidepressant medications to treat 
the wartime stress and overall mental health of our service men and 
women. I would also ask that the DOD be directed and sufficiently 
funded to contract for a scientific, peer-reviewable study of the 
potential relationship between this increased use of antidepressant 
medications and the increased number of military suicides.
    I thank you again Mr. Chairman, Ranking Member Graham, and the 
distinguished members of this subcommittee. I hope that my testimony 
before you today has been truly enlightening, and will serve as a call 
to action on this important issue.

    Senator Webb. Senator Cardin, thank you very much for 
having worked so hard to bring this matter to the attention of 
the Senate and of Congress. You have our commitment that we 
will be working on it. We will actually be seeking observations 
of the witnesses that follow you today.
    Thank you for being with us.
    Senator Cardin. Thank you.
    Senator Graham. Thank you, Senator. What you're pointing 
out is very important to the country, and I appreciate your 
interest, and we'll get some answers to these real legitimate 
questions.
    Senator Cardin. Appreciate it.
    Senator Webb. I'm pleased now to welcome and introduce the 
witnesses for our second panel. They are Dr. Charles L. Rice, 
who is performing the duties of the Assistant Secretary of 
Defense for Health Affairs and Acting Director of TRICARE 
Management Activity--you could join us as we announce your 
names--Rear Admiral Christine Hunter, U.S. Navy, Deputy 
Director of TRICARE Management Activity; Lieutenant General 
Eric B. Schoomaker, U.S. Army, Surgeon General of the Army and 
Commander of U.S. Army Medical Command; Vice Admiral Adam 
Robinson, Jr., U.S. Navy, Surgeon General of the Navy, and 
Chief of the Navy Bureau of Medicine and Surgery; Lieutenant 
General Charles B. Green, U.S. Air Force, Surgeon General of 
the Air Force; and Rear Admiral Richard R. Jeffries, U.S. Navy, 
who is the Medical Officer of the U.S. Marine Corps.
    I'd like to thank all of you for joining us today to 
discuss the vital issues associated with military healthcare. I 
would like to ask Dr. Rice to begin the panel's opening 
statements. Unless there's some special protocol, maybe we 
could just work across the table.
    Senator Graham. Sounds good to me.
    Senator Webb. Welcome to you all.
    Dr. Rice, the floor is yours.

 STATEMENT OF CHARLES L. RICE, M.D., PERFORMING THE DUTIES OF 
  THE ASSISTANT SECRETARY OF DEFENSE FOR HEALTH AFFAIRS, AND 
          ACTING DIRECTOR, TRICARE MANAGEMENT ACTIVITY

    Dr. Rice. Thank you, Mr. Chairman, Senator Graham, for the 
opportunity to come before you today.
    Late February, I was asked by Dr. Stanley, the Under 
Secretary of Defense for Personnel and Readiness, to perform 
the duties of the Assistant Secretary of Defense for Health 
Affairs, stepping away from my permanent position as the 
President of the Uniformed Services University until President 
Obama's choice for this job is confirmed by the Senate and 
sworn in, whereupon I will happily return to Uniformed Services 
University.
    I'm honored to be here and to be able to represent the men 
and women who serve in our Military Health System and deeply 
appreciative of the support you have always provided military 
medicine and for your unwavering support to the University.
    I have submitted my written comments to the committee, and 
with your indulgence, I'd like to make just some very brief 
opening remarks.
    I approach my role as the senior medical advisor to 
Secretary Gates and Secretary Stanley with advantages of 
multiple perspectives. As a trauma surgeon, as an educator, as 
a retired Navy medical officer, and, like you, Mr. Chairman, as 
the father of an Active Duty servicemember, this issue is 
personal to me.
    There is much to be proud of in the Military Healthcare 
System. The performance of our military medics in combat 
remains nothing short of remarkable. In addition to the 
lifesaving care on the battlefield, we're continuously 
improving the medical readiness of the total force.
    We monitor and record the health of servicemembers in the 
most comprehensive manner ever witnessed throughout the cycle 
of deployment, before, during, and after their service in 
combat theaters. Despite the breakneck pace of combat, our 
medical personnel have responded heroically to natural 
disasters in Haiti and Chile.
    I know that you share this pride in the people who serve 
our Nation, and so, today I want to focus on those areas where 
greater attention is required from me, so that you will 
understand where I focus my energies.
    First, our deepest obligations are reserved for the 
casualties returning to the United States and to their families 
and the caregivers who support them. Substantial progress has 
been made since problems with wounded warrior support first 
came to light in 2007. This committee has played an important 
role for driving change, standing up new programs, and ensuring 
substantial new resources to address any shortcomings. We are 
grateful for that.
    More needs to happen on our end to ensure that the 
programs, services, health information, and communication are 
knitted together more tightly so that we can provide more clear 
and cohesive services to those families who continue to 
sacrifice so much.
    Second, I am intently focused on the performance and the 
perception of our electronic health record, AHLTA. My intent is 
not to micromanage the many technological issues, but to 
determine whether our proposed solutions will result in better 
capability for our providers--nurses, physicians, pharmacists--
all the key members of the healthcare team, and to deliver 
value for patients. The key test for a successful electronic 
health record is whether it leads to better quality care. If 
our current effort fails that test, we will find one that can 
deliver on that crucial expectation.
    Third, the Department continues to implement the broad 
changes required by the 2005 Base Realignment and Closure 
Commission. Our approach to the right organizational construct 
and how we build medical facilities design must result in 
better service, better quality, and better access for our 
patients. Investments in evidence-based design concepts for our 
new facilities are critically important. They offer a better 
healing environment for patients and for their families.
    The hospital at Fort Belvoir will be a showcase for this 
new approach. I was there last week with General Schoomaker and 
was truly dazzled by the design concepts that have been 
incorporated to create an unmatched healing environment. If you 
haven't been down to see it, I urge you to try to work a visit 
in to your busy schedules.
    In addition to design, we need to better integrate service 
delivery across the military branches, an effort that will 
require sustained effort in decisions in the months ahead to 
better serve our patients.
    Fourth, we're working to resolve the serious matters 
identified in the protests upheld by the Government 
Accountability Office (GAO) regarding the TRICARE system 
contract awards. While the issues that we must address are 
serious, I am reassured, and want to reassure you, that the 
internal issues affecting these awards have not affected the 
day-to-day service for our beneficiaries. Nonetheless, our 
efforts to control TRICARE cost growth are closely linked to 
the effective implementation of new contracts. It is in the 
best interests of the government and of the organizations who 
are involved in these contract decisions to move toward a 
definitive conclusion. I'm grateful to Admiral Hunter for her 
leadership in this area.
    Finally, I'd like to briefly comment on the larger issue of 
national healthcare reform that you alluded to, Mr. Chairman. 
It has been the focus of much attention this week. Although the 
Military Health System is in many ways a unique system of care, 
we do not function apart from the civilian healthcare system 
used by the American people. In fact, almost 70 percent of the 
care our beneficiaries receive is delivered by our civilian 
colleagues.
    TRICARE benefits will not be affected at all by the passage 
of reform. We know that the DOD medical benefit is, 
appropriately, one of the most comprehensive medical benefits 
of any employer. One visit to Walter Reed or Bethesda 
demonstrates why this should be so more than any words I can 
offer here.
    Yet, there are other potential benefits that will accrue to 
the Department when more Americans are covered by insurance. 
This includes a more medically fit recruiting pool, greater 
investments in comparative effectiveness research that will 
help all practitioners of care with delivering scientifically 
valid approaches to medicine, and a more secure transition for 
those members of our Armed Forces who decide to separate prior 
to full retirement.
    I will be working with my healthcare colleagues at the 
Department of Health and Human Services and elsewhere to ensure 
that we're appropriately involved in the implementation of 
healthcare reform initiatives that both reassure our 
beneficiaries and promote the goals of reform.
    Mr. Chairman, I want to thank you again for your steadfast 
support of the Military Health System. I look forward to your 
questions.
    [The joint prepared statement of Dr. Rice and Rear Admiral 
Hunter follows:]
 Joint Prepared Statement by Charles L. Rice, M.D., and RADM Christine 
                             S. Hunter, USN
    Mr. Chairman, members of the committee, thank you for the 
opportunity to discuss the Military Health System's (MHS) priorities 
and budget for fiscal year 2011.
    We have enduring obligations to the men and women of our Armed 
Forces, and to their families who serve with them, and to the millions 
of retired military personnel who have served us in the past.
    This obligation begins the moment a recruit walks through our 
doors. In our budget for the coming year, we acknowledge that lifetime 
commitment we have to those who serve today or have served in the past, 
and to their families.
    For those servicemembers who honorably conclude their service 
before reaching military retirement, we have an obligation to ensure 
their medical experience is fully captured and easily shared with the 
Department of Veterans Affairs (VA) or with their own private 
physician. For those who retire from military service, our obligation 
to them and their families often extends for a lifetime.
    For those who have borne the greatest burden, through injury or 
disease suffered in our Nation's conflicts, we have an even higher 
obligation to the wounded and their families. As Secretary Gates stated 
with the introduction of the Defense budget, ``Recognizing the strain 
that post-September 11 wars have put on so many troops and their 
families, the department will spend more than $2 billion for wounded 
warrior initiatives, with a special focus on the signature ailments of 
current conflict, such as post-traumatic stress disorder (PTSD) and 
traumatic brain injury. We will sustain health benefits and enlarge the 
pool of medical professionals. We will broaden electronic information-
sharing between the Department of Defense (DOD) and VA for wounded 
warriors making the transition out of military service.''
    The budget we are putting forward reflects our commitment to the 
broad range of responsibilities of the MHS--the medical readiness 
requirements needed for success on today's battlefield; the medical 
research and development necessary for success on tomorrow's; the 
patient-centered approach to care that is being woven through the 
fabric of the MHS; the transformative focus we are placing on the 
health of our population; the public health role we play in our 
military community and in the broader American community; the reliance 
we have on our private sector health care partners who provide 
indispensable service to our servicemembers and families; and our 
responsibility to deliver all of these services with extraordinary 
quality and service.
    As our military forces in Afghanistan are engaged in combat 
operations to expand the security, governance, and development 
environment for the people of Afghanistan; as we continue with the 
careful hand-off of responsibilities to the elected leaders of Iraq; 
and, as marines provide security and the joint medical team provides 
care for the people of Haiti, we are mindful of the trust and 
investment that the American people have made in military medicine. We 
will continue to honor that trust.
                     mhs mission and strategic plan
    The MHS overarching mission remains as in years past: to provide 
optimal health services in support of our Nation's military mission--
anytime, anywhere.
    Over the last 12 months, the Office of the Assistant Secretary of 
Defense for Health Affairs has worked with our Service Surgeons General 
and the entire Joint MHS leadership team to update and refine the MHS 
Strategic Plan.
    In the process, we sought the expertise and advice from leaders 
both within our system and external to the MHS, to include renowned 
experts at the Mayo Clinic, Kaiser Permanente, Geisinger Health System, 
the Cleveland Clinic, Intermountain Health, and the Institute for 
Healthcare Improvement.
    This effort resulted in unanimous support for adopting ``The 
Quadruple Aim'' as the foundation for our strategic plan in the coming 
years.
    The Quadruple Aim borrows liberally (and with permission) from the 
Institute for Healthcare Improvement's ``Triple Aim,'' and is further 
tailored to the unique mission of the MHS. The four core components of 
the Quadruple Aim are:

        <bullet> Readiness--Ensuring that the total military force is 
        medically ready to deploy and that the medical force is ready 
        to deliver health care anytime, anywhere in support of the full 
        range of military operations, including combat support, defense 
        support to civil authorities, and humanitarian assistance/
        disaster relief missions as we witnessed most recently in 
        Haiti.
        <bullet> Population Health--Improving the health of our 
        population by encouraging healthy behaviors and reducing the 
        likelihood of illness through focused prevention and the 
        development of increased resilience.
        <bullet> Experience of Care--Providing a care experience that 
        is patient and family centered, compassionate, convenient, 
        equitable, safe, evidence-based, and always of the highest 
        quality.
        <bullet> Cost--Creating value by focusing on measuring and 
        enhancing quality healthcare; eliminating inefficiencies; 
        reducing unwarranted variation; and emphasizing investments in 
        health that reduce the burden and associated cost of 
        preventable disease in the long term.

    The outcome of this strategic planning effort is more than the plan 
itself. The values and strategies we have articulated in our plan are 
reflected in our proposed budget.
    Whereas we take great pride in the past accomplishments of the 
joint MHS team, the overview we provide in the following pages for our 
fiscal year 2011 strategic priorities is forward-looking, not merely a 
reflection of past accomplishments. By aligning this testimony with our 
strategic plan, we link our budget proposal and priorities to our 
strategic focus inherent in the four core components of the Quadruple 
Aim.
                               readiness
    A fit, healthy, and protected force is the starting point in 
ensuring a medically ready force. We have a core set of individual 
medical readiness (IMR) measures that inform both our line commanders 
and our medical teams about the individual preparedness of a 
servicemember to deploy.
    We will continue to use our monitoring systems so that we reduce 
the rate of deployment limiting conditions. We will also focus on 
disparities between the active and Reserve Components in terms of IMR, 
and improve the medical readiness of the Total Force.
    A critical companion strategic matter for the Department is the 
psychological health of our people. Between 20-30 percent of our 
servicemembers who have deployed to Operation Iraqi Freedom or 
Operation Enduring Freedom (OIF/OEF) have reported some form of 
psychological distress. As has been widely noted, suicide rates in the 
Armed Forces have also been rising. DOD and the individual Services are 
studying every suicide or suicide attempt closely, and we have 
collectively introduced a number of new programs and initiatives to 
reduce the occurrence of suicide. We are engaging commanders, the 
medical research community and fellow servicemembers in a multi-tiered 
effort to understand and implement effective strategies to deter 
suicide; to reduce the stigma of seeking professional help and 
counseling; and to ensure there are adequate personnel resources to 
meet a clear and growing demand for mental health services.
    We remain focused on accelerating our research into and the 
adoption of evidence-based care treatments for personnel with PTSD and 
traumatic brain injury. Secretary Gates continues to be personally 
interested in seeing us move information from the research realm to the 
field in a much more rapid manner.
    We are proposing another $669 million to support our requirements 
in meeting these critical needs in support of psychological health. 
Significant funds are also directed to other critical battlefield 
medical research and development needs.
    In addition, our investments in Defense Centers of Excellence and 
the Defense and Veterans Brain Injury Center are funded and poised for 
delivering world-class care and service to our military and veteran 
populations.
    Finally, in fiscal year 2010 and fiscal year 2011, we will be 
undertaking actions to expand our measures of ``readiness.'' 
Specifically, we will be assessing how to better measure ``family 
readiness.'' There is no question that the health and resiliency of the 
entire family is tied to the readiness of the individual soldier, 
sailor, airman, and marine. Our efforts will be directed toward 
measures that help us proactively identify and address health risks 
within a family prior to deployment.
                           population health
    There are few organizations in the world that compare to the DOD in 
having the right incentives to truly invest in population health 
efforts. A significant number of military personnel and their families 
will have their health care managed by DOD or other Federal and private 
sector partners for their lifetimes. Accordingly, we will continue to 
develop and employ the best tools and programs to transform our culture 
to one focused not just on expertly treating disease and injury, but to 
one focused on sustaining the health and well-being of our population.
    There are a number of tools and programs at our disposal to improve 
overall population health. The Department will continue to invest 
deeply in our preventive service programs. We will improve our provider 
support tools so that opportunities for education or preventive 
treatment can be engaged at all patient-provider opportunities.
    We will closely track our performance in delivering preventive 
services using the Health Employer Data Information System (HEDIS) 
measures. HEDIS allows us the opportunity to compare ourselves among 
each Service or MTF, but equally importantly, to compare ourselves 
against our private sector counterparts. In 2009, we witnessed 
impressive gains in preventive service delivery as compared to both 
national norms and national benchmarks, particularly in the Army and 
Navy, after introducing pay for performance incentive programs.
    We recognize, however, that not all measures are moving in the 
right direction. For example, we are seeing continued high levels of 
tobacco usage among our youngest servicemembers. We are also seeing 
rising rates of obesity in our non-active duty population (along with 
the related morbidities, particularly diabetes).
    As an aspect of our strategic imperatives, we are seeking to more 
directly and more personally engage patients to take a more active role 
in managing their health. We will seek to influence behaviors through 
increased positive actions (better nutrition and increased physical 
activity) and reduced negative habits (tobacco use and excessive 
alcohol intake).
    Our efforts to improve the overall health status of our population 
do not operate in a vacuum. Improvements are made one patient at a 
time; one patient visit at a time. In this regard, our efforts in this 
strategic arena are directly tied to our efforts at the individual 
level with their experience with the care received--and the topic of 
the next section.
                           experience of care
    One of our foremost and sustained priorities is to improve the 
experience of care for those who are most intimately interacting with 
our MHS every day--the wounded, ill, and injured from our current 
conflicts who are moving through the joint patient evacuation system, 
from point of injury in the theater of operations, to the point of 
definitive care in the United States, where many are recovering at our 
flagship military medical centers in the National Capital Area and 
other medical centers around the country.
    We remain grateful for the support of Congress, and especially this 
committee, to ensure we have the resources to provide the very best 
health care for our forces and their families, and in particular for 
the wounded, ill, and injured.
    We propose a budget of more than $670 million to support the 
spectrum of services for the wounded, ill, and injured--services which 
include enhanced case management, improvements to our Disability 
Evaluation System, and greater data sharing with the VA and other 
private sector medical organizations.
    Central to our efforts is the obligation to expedite the 
administrative elements of our disability cases, and work to get our 
Wounded Warriors to the best possible location to facilitate their 
recovery. We are expediting our Medical Evaluation Board (MEB) process 
toward a goal of completing all MEBs within 30 days.
    We have also successfully piloted efforts with the VA to have both 
Departments' medical examination requirements completed in a single 
exam--which increases the timeliness of processing and increases 
satisfaction with the entire experience for the servicemember.
    Enhancing the care experience is not limited, however, to our 
wounded warriors. It is imperative that we offer solutions and 
improvements for our entire beneficiary population we serve.
    The overriding issue in our system has historically been and 
continues to be ``access to care.'' Simply put, access is about getting 
the right care for the right patient at the right time.
    Our efforts to improve access in the coming year will be focused on 
expanding our ``Medical Home'' initiatives. The Patient Centered 
Medical Home provides patients with a known provider or small team of 
providers, who will get to know that patient and her or his medical 
problems. The continuity of care offered by this model, when coupled 
with enhanced access to the provider through telephone messaging or 
secure electronic communication and timely appointing, will enhance the 
quality and safety of care and improve the patient experience. This 
model has been endorsed by professional medical societies (the American 
Academy of Pediatrics and the American Academy of Family Physicians, 
American College of Physicians, and American Osteopathic Association), 
several large third party payers, employers, and health plans. Its 
adoption in the MHS reflects the continuation of a journey toward 
improving patient access and satisfaction.
    We will be providing our enrolled population with clear 
communications about how to access the appropriate level of medical 
care to meet their needs at any time, 24 hours a day, 7 days a week. We 
will offer our patients with multiple modes of accessing care, to 
include expansion of telephone access, and secure, web-based patient-
provider messaging service.
                        per capita cost control
    We are proposing a fully funded budget for fiscal year 2011. The 
MHS serves 9.5 million beneficiaries, to include active duty members 
and their families, members of the Reserve Component and their 
families, and retired military personnel and their families. It is 
important to note that this number that has grown with the increased 
active duty end strength as well as the expansion of health benefits to 
members of the Reserve Component. Thus, while real cost growth will 
continue to rise, we, nonetheless, will be focused on controlling per 
capita costs within our system.
    Our primary and most strategically important bulwark against 
unmanaged cost growth for the coming year is quality. Our efforts to 
develop, proliferate and adhere to evidence-based guidelines will have 
the most dramatic effect on our costs. In this instance, we will again 
compare ourselves against each other and against private sector data 
using the Dartmouth Atlas as our guide. Our goal is to reduce 
inappropriate variation in the utilization of services.
    The urgency of addressing costs in fiscal year 2011 is clear from 
our budget request. A major increase in the budget request includes 
$1.2 billion for private sector care costs due to an increase in users 
of TRICARE and an increase in utilization of the TRICARE benefit.
    We recognize that this focus on quality and utilization does not 
diminish the need for wise and informed management actions to also 
control costs. In fiscal year 2011, we will also:

        <bullet> continue implementation of Federal Ceiling Pricing of 
        retail pharmaceuticals;
        <bullet> continue implementation of the Outpatient Prospective 
        Payment System, which reduces the reimbursement paid for 
        outpatient care at inpatient private sector care facilities;
        <bullet> standardize medical supply chain management across the 
        full range of military health care operations;
        <bullet> increase efforts to identify and detect fraud, waste, 
        abuse, and overpayments to civilian medical providers; and
        <bullet> pursue the first fully integrated Joint DOD/VA 
        healthcare collaboration consisting of the North Chicago 
        Veterans Affairs Medical Center and the Navy Health Clinic, 
        Great Lakes, IL.

    Through improved access to care from the medical home initiative 
and adherence to evidence-based care guidelines, we are hoping to 
reduce the need for referrals to private sector sources wherever 
possible, and to decrease utilization of emergency room services (when 
used as a source for non-emergent primary care).
    We recognize that the MHS is not immune from the cost growth 
challenges faced by our private sector peers. The ever-increasing value 
of the TRICARE benefit against private sector plans and premiums will 
likely place additional pressure on the MHS budget. Yet, along with the 
civilian and military leadership of the Department, we are mindful of 
the trade-offs being made every day to sustain this system of care.
                          learning and growth
    Fiscal year 2011 promises to be both exciting and challenging, as 
many of the Department's most significant health efforts will be 
advanced in bold and meaningful ways. The 2005 Base Realignment and 
Closure actions, which impact medical facilities in multiple joint 
medical markets, the joint Medical Education and Training Campus, and 
co-location of medical headquarters, will come to fruition in September 
2011. Additionally, work on the Electronic Health Record (EHR) will 
continue on the trajectory toward improved system effectiveness and 
interoperability. The Department will continue to address and resolve 
governance issues related to emerging requirements to organize, 
execute, and oversee joint peacetime health care activities.
    In this dynamic environment, supporting the Quadruple Aim is an 
objective that must continue to grow and support the people who serve 
the MHS. Our major initiatives for this year center on: (1) furthering 
the MHS, contribution to medical science; (2) delivering information to 
enable better healthcare decisions; and (3) ensuring a fully capable 
workforce most prepared to support our strategic initiatives.
    Our medical research program continues to grow, with the leadership 
of Secretary Gates and the ongoing support of Congress. Significant 
funding has been dedicated to TBI and psychological health; battlefield 
medicine; threats from the full range of chemical, biological, 
radiobiological and nuclear threats. Our EHR continues to serve a vital 
function in support of our clinicians and patients. The incredibly rich 
clinical data repository is capturing care delivered throughout our 
system, to include outpatient services in the combat theaters. In each 
successive year, we are able to transfer more health information more 
easily with our counterparts in the VA.
    Yet, our EHR has not been without its technical challenges. For 
fiscal year 2011, we are proposing a total of $875 million for 
modernization efforts and to enable data interoperability with the 
Virtual Lifetime Electronic Record (VLER), being jointly led by DOD and 
the VA. VLER is an ambitious and needed undertaking to integrate 
medical, personnel benefits, and financial information in a single 
virtual record for veterans.
    Finally, vital to our ability to deliver a high quality, accessible 
and cost-effective health system is a workforce that is trained and 
ready to operate in a fast-paced environment. We are investing in 
recruitment and retention programs to sustain our system. We have 
proposed legislation that will allow us to offer post-graduate 
scholarships for MHS civilians. We are partnering with universities, 
marketing our job opportunities to their graduates. Outreach activities 
include attending job fairs, speaking at professional conferences, and 
marketing through our MHS website. Partnering with the VA has allowed 
us to share recruiting opportunities, improving our mutual ability to 
recruit scarce medical professionals. In all, our MHS human capital 
programs will continue to allow us to extol the benefits of public 
service while supporting our strategic initiatives.
    We are proud to serve with the talented, dedicated and resourceful 
team of public servants and military volunteers who comprise the MHS. 
We are committed to enhancing their professional experience in service 
to the country.
          unified medical budget request for fiscal year 2011
    The Defense Health Program (DHP), the appropriation that supports 
the MHS, is under mounting financial pressure. The DHP has more than 
doubled since 2001--from $19 billion to $50.7 billion in fiscal year 
2010.
    The majority of DOD health spending supports health care benefits 
for military retirees and their dependents, not the active force. We 
project that up to 65 percent of DOD healthcare spending will be going 
toward retirees in fiscal year 2011--up from 45 percent in fiscal year 
2001. As civilian employers' health costs are shifted to their military 
retiree employees, TRICARE is seen as a better, less costly option and 
they are likely to drop their employer's insurance. These costs are 
expected to grow from 6 percent of the Department's total budget in 
fiscal year 2001 to more than 10 percent in fiscal year 2015.
    Despite these fiscal challenges, the fiscal year 2011 budget 
request provides realistic funding for projected health care 
requirements.
    The Unified Medical Budget, the Department's total request for 
healthcare in fiscal year 2011, is $50.7 billion. This includes the DHP 
appropriation, including Wounded, Ill and Injured Care and 
Rehabilitation; Military Personnel, Military Construction, and normal 
cost contributions for the Medicare-Eligible Retiree Healthcare.
    89Defense Health Program
    The largest portion of the request, or $30.9 billion, will be used 
to fund the DHP, which is comprised of Operation & Maintenance (O&M), 
Procurement and Research, Development, Test & Evaluation (RDT&E). A 
little over $29.9 billion is for O&M, which funds most day-to-day 
operational costs of healthcare activities;
                  military personnel and construction
    For Military Personnel, the Unified Medical Budget includes $7.9 
billion to support the more than 84,000 military personnel who provide 
healthcare services in military theaters of operations and fixed health 
care facilities around the world. These services include medical and 
dental care, global aeromedical evacuation, shipboard, and undersea 
medicine, and global humanitarian assistance and response.
    Funding for medical Military Construction (MILCON) includes $1.0 
billion to improve our medical infrastructure. We are committed to 
building new hospitals using the principles of Evidence-Based Design 
(EBD). We are excited to be able to open a national showcase in EBD, 
the new Fort Belvoir Hospital, in 2011.
    MILCON funding will also be directed toward infrastructure 
enhancements at the National Interagency Biodefense Campus at Fort 
Detrick, MD--a vital resource for the Nation.
             dod medicare-eligible retiree health care fund
    The estimated normal cost of the Medicare-Eligible Retiree Health 
Care Fund in fiscal year 2010 is $10.9 billion. This funding includes 
payments for care in MTFs, to private health care providers, and to 
reimburse the Services for military labor used in the provision of 
healthcare services.
                               conclusion
    Mr. Chairman, the Military Health System continues to provide 
world-class medical care for a population that demands and deserves the 
best care anywhere. We are proud to represent the men and women who 
comprise the MHS. We are proud to submit to you and your committee 
members a budget that is fully funded and that we can successfully 
execute in the coming year.
    We are pleased that we are able to provide you a budget with a 
direct and specific link to our strategic planning efforts of the last 
year.
    Thank you again, Mr. Chairman, for the opportunity to be with you 
today. We look forward to your questions.

    Senator Webb. Thank you very much, Dr. Rice.
    Admiral Hunter, welcome.

 STATEMENT OF RADM CHRISTINE S. HUNTER, USN, DEPUTY DIRECTOR, 
                  TRICARE MANAGEMENT ACTIVITY

    Admiral Hunter. Thank you, Mr. Chairman, Senator Graham. 
I'm really honored to be able to appear before you today.
    Together with Dr. Rice, I have the responsibility for 
operating the TRICARE Management Activity (TMA) and 
administering the TRICARE benefit.
    As you said, 9.6 million Americans rely on us to ensure 
they receive high-quality healthcare whenever they need it and 
wherever they are in the world. Along with the growth in the 
Army and Marine Corps, our program has grown by over 370,000 
servicemembers, families, and retirees since 2008.
    Since assuming my responsibilities 10 months ago, I've been 
fortunate to work closely on many critical initiatives with DOD 
leaders, the Service Surgeons General, and key stakeholders who 
represent our beneficiaries.
    Initially, we focused our efforts on the care of wounded 
warriors, access to care, particularly behavioral healthcare, 
and services for families whose children have special needs.
    More recently, we introduced the construct of the Quadruple 
Aim and carefully examined how we're performing in each domain. 
The Quadruple Aim builds on the Institute for Healthcare 
Improvements Triple Aim for Health Systems, which advocates 
that we achieve excellence in population health, the patient 
experience, and responsibly manage the costs.
    In the Military Health System, our Quadruple Aim adds the 
fourth aim, a specific emphasis on our core mission of 
readiness. I'm pleased to report that we're making progress. To 
support readiness, certainly the Surgeons General will share 
many of their observations. But, at TMA we have concentrated on 
our Reserve and Guard populations, as well as behavioral 
health.
    Participation in our TRICARE Reserve Select product is 
growing, ensuring that reservists and guardsmen have coverage 
to maintain their health between mobilizations. We've also made 
it easier for physicians around the country to participate in 
this plan and receive timely payment.
    Our efforts to reduce the stigma associated with seeking 
mental healthcare have been accompanied by an increase in 
providers to meet the growing demand. Together with the 
Surgeons General and our TRICARE contractors, we've added over 
1,900 providers to the military hospitals and clinics, and more 
than 10,000 added to the networks. Visits have increased 
dramatically, with 112,000 behavioral health outpatients now 
seen every week. In addition, servicemembers and their families 
can access the TRICARE Assistance Program for supportive 
counseling via Web cam from their homes, 24 hours a day.
    To improve health overall, we're putting a priority on 
prevention, eliminating copays for preventive services under 
TRICARE standard, recently adding immunizations like flu 
vaccine to our retail pharmacy program, and tracking our 
performance. Since 2007, we can demonstrate significant 
improvement in the number of patients who receive cancer 
screening that's appropriate to their age, immunizations, and 
medications to control diabetes, asthma, and cholesterol.
    Patients are beginning to notice the difference. On 
surveys, they're telling us that they receive timely care, 
needed care, and see their assigned primary care manager more 
often. We certainly still have room to improve, but this is a 
very encouraging beginning trend.
    To address the costs of care, we're focused on ensuring 
that patients with acute minor conditions visit their primary 
care site or an urgent care clinic, rather than the emergency 
room, and choose the convenience and lower out-of-pocket cost, 
as well as lower government cost, of our mail-order pharmacy, 
rather than the retail pharmacy, whenever that's possible.
    Our partnerships at the interface between the direct care 
and private-sector care are thriving. On a regular basis, 
TRICARE regional directors engage with Army MTF commanders in 
rehearsal of capability drills. We work together to develop the 
medical capacity that's needed as the Army grows and shifts its 
population concentrations.
    When Navy medical personnel ably responded to the disaster 
in Haiti, we staffed a fusion cell to make daily adjustments to 
network referrals and assist with interservice crossleveling, 
to ensure that all patients continue to receive timely care.
    The Air Force has led the other Services to articulate the 
challenges with access to care in Alaska, and we've been able 
to stabilize reimbursement to encourage more providers to 
participate.
    We appreciate the Senate's leadership in this area, and 
we're engaged with the Veterans' Affairs (VA) Department and 
other Federal partners to develop comprehensive solutions.
    In the months ahead, we'll work diligently to address all 
concerns cited by the GAO and move forward to delivery of 
healthcare under the TRICARE third-generation contracts.
    We proudly anticipate the introduction of our TRICARE 
Reserve Retiree Program for those gray-area reservists who have 
served our Nation so honorably, and are excited by pending 
improvements to our overseas and dental programs.
    There's certainly much more to do, but my staff and I come 
to work every day mindful of all those that we serve and 
striving to make a positive difference.
    Thank you again, Mr. Chairman, for your advocacy on behalf 
of our servicemembers, and I look forward to your questions.
    Senator Webb. Thank you, Admiral Hunter.
    General Schoomaker.

 STATEMENT OF LTG ERIC B. SCHOOMAKER, USA, SURGEON GENERAL OF 
    THE U.S. ARMY, AND COMMANDER, U.S. ARMY MEDICAL COMMAND

    General Schoomaker. Chairman Webb, Senator Graham, and 
distinguished members of the Personnel Subcommittee, thank you 
for inviting us to discuss the Defense Health Program and our 
respective Service medical programs.
    Now in my third congressional hearing cycle as the Army 
Surgeon General and Commanding General of the U.S. Army Medical 
Command, I can tell you that these hearings are valuable 
opportunities for me to talk about the accomplishments and 
challenges of Army Medicine, and to hear your collective 
perspectives regarding military health promotion and 
healthcare.
    I'm pleased to tell you that the President's budget 
submission for fiscal year 2011 fully funds the Army Medical 
Department's needs. Your support of the proposed President's 
budget is greatly appreciated.
    I know, in your recent hearing with the Under Secretary of 
Defense for Personnel and Readiness and the Assistant 
Secretaries for Manpower and Reserve Affairs, that much concern 
was expressed regarding the increasing size of the defense 
health budget within the overall defense budget. I'd like to 
share with you some of the efforts that we are making in Army 
Medicine that complement what Admiral Hunter just discussed, to 
maximize the value in health services that we deliver, of our 
Army Medicine's five strategic themes.
    This theme is built on a belief that providing high-quality 
evidence-based services is not only right for soldiers and 
families, it results in the most efficient use of resources 
within the healthcare system, thus delivering value not only 
for our patients, but indeed for the Nation as a whole. In 
fact, what we really want to do is move from a healthcare 
system, one that is focused on delivering care, simply, to one 
that is a system of health and a system for health, which 
optimizes health and well-being through enhanced prevention and 
in a holistic approach.
    We've resisted simply inventing new processes and inserting 
new diagnostic tests or therapeutic options, although we are 
keeping abreast of all of the cutting-edge changes in the 
American healthcare and international healthcare terrain. Or 
we've resisted adding just more layers of bureaucracy, but 
we're really, truly adding value to the products we deliver, 
the care we provide, and the training of our people.
    This requires focusing on the clinical outcome for the 
patient and the community, and maintaining or even reducing the 
overall resource expenditure that's needed to achieve this 
objective. My own wife reminds me, she's not interested in 
sitting in waiting rooms or going through the turnstile of 
medicine, she wants to know, at the end of the day, is she 
better for what she came to seek care for? I think we can tell 
here unequivocally, and all of our patients and soldiers and 
families, that we are.
    This has occurred, for us, through adoption of evidence-
based practices, that you heard both of my colleagues here talk 
about, and reducing unwarranted variation in our practices, 
even unwarranted administrative practice variation for all the 
transactional processes that go on in our work.
    One example of this in Army Medicine is that, we are 
expanding upon a performance-based budget model that links 
resources to clinical and quality outputs. Since 2007, we've 
been providing financial incentives to our hospitals, our 
clinics, our clinical commanders, and our clinicians for 
superior compliance in key preventive measures and other 
measures of evidence-based practices.
    Currently, we track nine measures and compare our 
performance to a national benchmark. Our performance has 
improved on every measure, in one case by 63 percent. We've 
demonstrated that these incentives work to change 
organizational behavior to achieve desired outcomes in our 
health system.
    Put quite simply, our beneficiaries, our patients, and our 
communities are receiving not only better access to care, but 
for better care once they get that access, that we can 
objectively measure.
    We've undertaken major initiatives to improve both access 
and continuity of care. This is one of the Army Chief of 
Staff's and my top priorities, and it's reflected in what 
you've heard Admiral Hunter talk about. After conducting 
thorough business-case analyses, Army Medicine is expanding 
healthcare product lines in some communities, and we're 
expanding clinical space in others. In 14 locations across the 
country, we're establishing community-based primary care 
clinics by leasing and operating clinics located in off-post 
communities that are close to where our Active Duty families 
live and work and go to school. These clinics will provide a 
Patient-Centered Medical Home for families, an effort which is 
warmly embraced and resourced by all three of the medical 
services in the Military Health System and will provide a range 
of benefits, to include improved readiness for our Army and our 
Army family, improved access to and continuity of care, reduced 
emergency room visits, and improved patient satisfaction, which 
is growing.
    Both our community-based Primary Care Clinic Initiative and 
the three medical services Patient-Centered Medical Home 
implementation have been well-supported by Rear Admiral Hunter 
and the TRICARE Management Agency and the Assistant Secretary 
of Defense for Health Affairs. We are very appreciative and are 
working closely on these efforts.
    I look for 2010 to be the year that Army Medicine achieves 
what we set out to improve 2 years ago in access and 
continuity, key elements of our covenant with the Army family, 
led by our Chief of Staff and by the Secretary of the Army.
    Army leadership is also engaged in an all-out effort to 
change DOD culture regarding TBI, or mild TBI, as it's called, 
especially the milder form, or what we call concussion TBI, 
which has a very wide spectrum, from concussive injury to much 
more unusual penetrating injuries or moderate crush injuries, 
of those, we are really focusing very, very closely on 
concussive injury, the most common injury. Our goal is nothing 
less than a cultural change in the management of soldiers after 
potential concussive events in combat or, frankly, on the 
football fields or sports fields or in motor vehicle accidents.
    Every warrior requires appropriate treatment to minimize 
concussive injury and maximize recovery. To achieve this goal, 
we're educating the force so as to have a trained and prepared 
soldier, a leader, and our medical professional and personnel 
to provide early recognition, treatment, and tracking of these 
concussive injuries, ultimately designed to protect warrior 
health.
    The Army is issuing very direct standards and protocols to 
commanders and healthcare providers, similar to aviation 
incident actions. There's an automatic grounding and medical 
assessment which is required for any soldier that meets 
specified criteria. The end state of these efforts is that 
every servicemember sustaining a possible concussion will 
receive early detection, state-of-the-art treatment, and 
return-to-duty evaluations, with long-term digital health-
record tracking of their management.
    We're combining our efforts to identify and manage 
concussive brain injury as close as possible, both in time and 
geographic proximity, to the actual blast event, with more 
aggressive battlefield management of post-traumatic stress 
symptoms. Our experts tell us that the closer we can manage 
those symptoms as they emerge in combat, the more likely we are 
to reduce long-term PTSD problems.
    Treatment of concussive injuries is an emerging science. 
The Army is leading the way in implementing these new treatment 
protocols for DOD, and the DOD is leading the Nation.
    I brought with me today our Brain Injury Awareness Toolkit. 
I'd like to share this with you and your staff. If you don't 
have any other time, I'd really urge you to look at the DVD 
that we've put together with our senior leadership, because 
this is really a commanders-led program--the Chief of Staff, 
George Casey; the Vice Chief of Staff, Pete Chiarelli; and our 
Sergeant Major of the Army are very actively involved in. They 
contain patient information materials, as well as this DVD, 
which we're using to educate soldiers before they deploy 
overseas. We're training them as to what they should do, should 
they have a concussion.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General Schoomaker. I truly believe that this evidence-
based directive approach to concussive management will change 
the military culture regarding head injuries and significantly 
impact the well-being of our force.
    In closing, I'm very optimistic about the next 2 years. I 
feel very privileged to serve with the men and women of Army 
Medicine, as soldiers, as Americans, and as global citizens.
    Thank you for holding this hearing and your unwavering 
support of the Military Health System and Army Medicine.
    I look forward to answering questions. In particular, I'd 
be happy to discuss the Army's approach to pain management, to 
the treatment of post-traumatic stress, and the use of 
medications across the force, those other concerns that were 
raised by Senator Cardin.
    Thank you.
    [The prepared statement of General Schoomaker follows:]
           Prepared Statement by LTG Eric B. Schoomaker, USA
    Chairman Webb, Senator Graham, and distinguished members of the 
Personnel Subcommittee, thank you for inviting us to discuss military 
medicine and our respective Service medical programs. Now in my third 
Congressional hearing cycle as the Army Surgeon General and Commanding 
General, U.S. Army Medical Command (MEDCOM), I can tell you that these 
hearings are valuable opportunities for me to talk about the 
accomplishments and challenges of Army Medicine and to hear your 
collective perspectives regarding military healthcare. You and your 
staff members ask some difficult questions, but these questions help 
keep us focused on those we serve--the soldiers, sailors, marines, 
airmen, coastguardsmen, family members, and retirees as well as the 
American public. I hope you also find these hearings beneficial as you 
review the President's budget submission, which this year fully funds 
the Army Medical Department's needs, and determine priorities and 
funding levels for the next fiscal year.
    The U.S. Army Medical Department is a complex, globally-deployed, 
and world class team. My command element alone, the MEDCOM, is an $11 
billion international health improvement, health protection, emergency 
response and health services organization staffed by 70,000 dedicated 
Soldiers, civilians, and contractors. I am in awe at what these 
selfless servants have done over the past years--their accomplishments 
have been quietly, effectively, powerfully successful. While we have 
experienced our share of crises and even tragedies, despite 8 years of 
continuous armed conflict for which Army medicine bears a heavy load, 
every day our soldiers and their families are kept from injuries, 
illnesses, and combat wounds through our health promotion and 
prevention efforts; are treated in cutting-edge fashion when prevention 
fails; and are supported by an extraordinarily talented medical force 
to include those who serve at the side of the Warrior on the 
battlefield. We mourn the loss of 26 teammates in the Fort Hood 
shootings--6 dead and 20 wounded--but are inspired by the resolve shown 
by their units to continue their missions and the exemplary performance 
of the 467th and 1908th Medical Detachments serving in Afghanistan 
today.
    One area of special interest to Congress is our comprehensive 
effort to improve warrior care from point of injury through evacuation 
and inpatient treatment to rehabilitation and return to duty. I am 
convinced the Army has made some lasting improvements, and I was 
recently heartened to read the comments of a transitioning warrior that 
reinforced these perceptions. She commented:

          As I look back in the past I am able to see with a reflective 
        eye . . . the people that have helped me fight this battle, 
        mostly my chain of command, who have always stood beside me 
        instead of in front of me. They have gone out of their way to 
        do what was best for me and I cannot say I would be here still 
        if I hadn't had such wonderful support. . . . This is my story 
        at the WTB and all in all, I just had to make aware to everyone 
        that has helped that I am very grateful and I truly appreciate 
        all of the work you have done for me.

    There is nothing more gratifying than to care for these wounded, 
ill, and injured heroes. We in Army medicine continue to focus our 
efforts on our warriors in Transition and I want to thank Congress for 
its unwavering support. The support of this committee has allowed us to 
hire additional providers, staff our warrior transition units, conduct 
relevant medical research, and build healing campuses. In the remainder 
of my testimony today, I will discuss how we are providing optimal 
stewardship of the investment the American public and this Committee 
has made in Army medicine.
    We lead and manage Army medicine through the Kaplan & Norton 
Balanced Scorecard performance improvement framework that I introduced 
to you in last year's testimony. The Scorecard balances missions and 
resources across a broad array, while ensuring that near-term measures 
of success are aligned with longer-term, more strategic results. This 
balancing is depicted on the Scorecard's Strategy Map, which shows how 
we marshal our resources, train and develop our people, and focus our 
internal processes and efforts so as to balance competing goals. 
Ultimately our means, ways, and ends contribute toward accomplishing 
our mission and achieving our strategic vision. The five strategic 
themes that guide our daily efforts are:

        <bullet> Maximize Value in Health Services
        <bullet> Provide Global Operational Forces
        <bullet> Build the Team
        <bullet> Balance Innovation with Standardization
        <bullet> Optimize Communication and Knowledge Management

    Although distinct themes, they inevitably overlap and weave 
themselves through everything we do in Army medicine.
    The first strategic theme--Maximize Value in Health Services--is 
built on the belief that providing high quality, evidence-based 
services is not only the right for our soldiers and families; it 
results in the most efficient use of resources within the healthcare 
system, thus delivering value to not only our patients, but indeed, the 
Nation. In fact, what we really want to do is move from a healthcare 
system to a system for health.
    We have resisted simply inventing a new process, inserting a new 
diagnostic test or therapeutic option in vacuo or adding more layers of 
bureaucracy but are truly adding value to the products we deliver, the 
care we provide, and the training of our people. This requires focusing 
on the clinical outcome for the patient and the community and 
maintaining or even reducing the overall resource expenditure needed to 
achieve this objective. It has occurred through adoption of evidence-
based practices and reducing unwarranted practice variation--even 
``unwarranted administrative practice variation'' for the transactional 
processes in our work. As one example of this, Army Medicine is 
expanding upon our Performance Based Budget model to link resources to 
clinical and quality outputs. The Healthcare Effectiveness and Data 
Information Set (HEDISR) is a tool used by more than 90 percent of 
America's health plans (> 400 plans) to measure performance on 
important dimensions of care, namely, the prevention of disease and 
evidence-based treatments for some of the most common and onerous 
chronic illnesses. The measures are very specifically defined, thus 
permitting comparison across health plans. Since 2007, we have been 
providing financial incentives to our hospitals, clinics and clinicians 
for superior compliance in key HEDIS measures. Currently, we track nine 
measures and compare our performance to national benchmarks. Our 
performance has improved on each measure, in one case by 63 percent. We 
have demonstrated that these incentives work to change organizational 
behavior to achieve desired outcomes in our health system. Put quite 
simply, our beneficiaries, patients and communities are receiving not 
only better access to care but better care--objectively measured.
    As the DOD budget and health-/healthcare-related costs come under 
increasing scrutiny, this element of our strategy will be even more 
critical for us. As the United States struggles to address improvements 
in health and healthcare outcomes while stabilizing or reducing costs 
of our national system of care, we in Army Medicine and the Military 
Health System will surely keep the goal of maximizing value in our 
cross-hairs . . . or we will find our budgets tightening without a way 
to measure the effects on our patients' and our communities' health and 
well-being.
    All of these remarkable achievements would be without meaning or 
importance to our soldiers, their families, and our patients if we do 
not provide access and continuity of care, especially within the direct 
care system of our medical centers, community hospitals, health 
centers, and clinics. I am looking carefully at my commanders' 
leadership and success in ensuring that their medical and dental 
treatment facilities provide timely access and optimize continuity of 
care. We have undertaken major initiatives to improve both access and 
continuity--this is one of the Army Chief of Staff's and my top 
priorities. After conducting thorough business case analyses, Army 
Medicine is expanding product lines in some markets and expanding 
clinical space in others. At 14 locations, we are establishing 
Community-Based Primary Care Clinics by leasing and operating clinics 
located in off-post communities that are close to where active duty 
families live, work, and go to school. These clinics will provide a 
patient-centered medical home for Families and will provide a range of 
benefits:

        <bullet> Improve the readiness of our Army and our Army Family
        <bullet> Improve access to and continuity of care
        <bullet> Reduce emergency room visits
        <bullet> Improve patient satisfaction
        <bullet> Implement Best Practices and standardization of 
        services
        <bullet> Increase physical space available in military 
        treatment facilities (MTFs)
        <bullet> Improve physical and psychological health promotion 
        and prevention

    Along with the rest of the Military Health System, Army Medicine is 
embracing the Patient-Centered Medical Home concept, which is a 
recommended practice of the National Committee for Quality Assurance 
and is endorsed by a number of medical associations, several large 
third-party payers, and many employers and health plans. The Patient-
Centered Medical Home improves patient satisfaction through its 
emphasis on appropriate access, continuity and quality, and effective 
communication. The goal is simple: consult with one consistent primary 
care provider-nurse team for all your medical needs. The seven core 
features of the Medical Home are:

        <bullet> Personal Primary Care Provider (primary care manager/
        team)
        <bullet> Primary Care Provider Directed Medical Practice (the 
        primary care manager is team leader)
        <bullet> Whole Person Orientation (patient centered, not 
        disease or provider centered)
        <bullet> Care is Coordinated and/or Integrated (across all 
        levels of care)
        <bullet> Quality and Safety (evidenced-based, safe medical 
        care)
        <bullet> Enhanced Access (meets access standards from the 
        patient perspective)
        <bullet> Payment Reform (incentivizes the development and 
        maintenance of the medical home)

    I look for 2010 to be the year Army medicine achieves what we set 
out to improve 2 years ago in access and continuity, key elements of 
our covenant with the Army Family, led by our Chief of Staff and 
Secretary of the Army.
    Unlike civilian healthcare systems that can focus all of their 
energy and resources on providing access and continuity of care, the 
Military Health System has the equally important mission to Provide 
Global Operational Forces.
    The partnership between and among the medical and line leadership 
of Operations Iraqi Freedom and Enduring Freedom, Central Command, Army 
Forces Command, U.S. Army Reserve Command, National Guard Bureau, Army 
Medical Department Center & School, Medical Research and Materiel 
Command, Army G3/5/7, and others has resulted in a dynamic 
reconfiguration of the medical formations and tactics, techniques, and 
procedures required to support the deployed Army, joint and coalition 
force. Army Medicine has never missed movement and we continue to 
achieve the highest survivability rate in the history of warfare. Army 
medicine leaders have never lost sight of the need to first and 
foremost make a difference on the battlefield.
    This will not change--it will even intensify in 2010 as the 
complexity of the missions in Afghanistan increases. This is occurring 
even while the need to sustain an Army and joint force which is 
responsibly withdrawing from Iraq puts more pressure on those medics 
continuing to provide force health protection and care in Operation 
Iraqi Freedom. This pressure on our All-Volunteer Army is 
unprecedented. Healthcare providers, in particular, are subject to 
unique strains and stressors while serving in garrison as well as in 
deployed settings. The MEDCOM has initiated a defined program to 
address provider fatigue with current efforts focused on sustaining the 
healthy force and identifying and supporting higher risk groups. MEDCOM 
has a healthy healthcare workforce as demonstrated by statistically 
significant lower provider fatigue and burnout than: The Professional 
Quality of Life Scale (ProQol) norming sample of 1187 respondents; and 
Sprang, Clark and White-Woosley's study of 222 civilian behavioral 
health (BH) providers. But as our Chief of Staff of the Army has told 
us: this is not an area where we just want to be a little better than 
the other guy--we want the healthiest and most resilient healthcare 
provider workforce possible.
    The Provider Resiliency Training (PRT) Program was originally 
designed in 2006, based on Mental Health Advisory Team findings. The 
U.S. Army Medical Department Center and School (AMEDDC&S) developed a 
military-specific model identifying ``provider fatigue'' as the 
military equivalent of compassion fatigue. In June 2008, MEDCOM 
implemented a mandated PRT program to educate and train all MTF 
personnel to include support staff on the prevention and treatment of 
signs and symptoms of provider fatigue. The stated goal of PRT is to 
mitigate the negative effects of exposure to combat, to deployment, to 
secondary trauma from caring for the casualties of war as well as the 
unremitting demand for healthcare services and from burnout. All will 
ultimately improve organizational effectiveness. The AMEDDC&S currently 
offers three courses in support of the MEDCOM PRT: the Train the 
Trainer Course; the Professional Resiliency Resident Course; and the 
PRT Mobile Training.
    None of our goals and themes would be achievable without the right 
mix of talented professionals within Army Medicine and working with 
Army Medicine; what our Balanced Scorecard refers to as Build The Team: 
a larger, more inclusive joint medical team; an adaptive and responsive 
interagency team (VA, DHS, DHHS/NIH/NIAID, CDC, USDA, etc.); an 
effective coalition team; and a military-civilian/academic-operational 
team. The teams we build must be aligned with the Army, Defense, and 
National Military Strategy and long-term goals, not based solely on 
personalities and the arcane interests of a few. My Deputy Surgeon 
General, subordinate leaders, and others have been increasingly more 
deliberate and disciplined in how we form and sustain these critical 
partnerships.
    Effective joint, interagency and coalition team-building has been a 
serious challenge for some time now. I see the emphasis on our ability 
to craft these teams grow in 2010. The arrival of September 15, 2011--
the deadline for the 2005 BRAC--will be one of the key milestones and 
tests of this skill. My regional commanding generals in San Antonio and 
Washington, DC have taken lead roles in this endeavor. Let there be no 
question among those who underestimate our collective commitment to 
working as a team and our shared vision to serve the Nation and protect 
and care for the warriors and his or her family--we are one team!
    In addition to building external teams, we need to have the right 
mix and quality of personnel internal to Army medicine. In fiscal year 
2010 and continuing into fiscal year 2011 the Army requested funding 
for programs to improve our ability to attract and retain the 
professional workforce necessary to care for our Army. Our use of 
civilian hiring incentives (Recruiting, Retention, and Relocation) 
increased in fiscal year 2010 by $90 million and should increase by an 
additional $30 million in fiscal year 2011. In fiscal year 2011, 
civilian hiring incentives will equate to 4.8 percent of total civilian 
pay. We have instituted and funded civilian recruiting programs at the 
MEDCOM, regional, and some local levels to seek qualified healthcare 
professionals. For our military workforce, we are continuing our 
successful special salary rates, civilian nurse loan repayment 
programs, and civilian education training programs. Additionally, our 
Health Professional Scholarship Program and loan repayments will 
increase in fiscal year 2010 by $26 million and continue into fiscal 
year 2011. This program supports 1,890 scholarships and 600 
participants in loan repayments--it is as healthy a program as it has 
ever been. Let me point out that our ability to educate and train from 
within the force--through physician, nursing, administrative, medic, 
and other programs in professional education--is a vital capability 
which we cannot permit to be degraded or lost altogether. In addition 
to providing essential enculturation for a military healthcare 
provider, administrator and leader, these programs have proven to be 
critical for our retention of these professionals who are willing to 
remain in uniform, to deploy in harm's way and to assume many onerous 
duties and assignments in exchange for education in some of the 
Nation's best programs. Army and Military Graduate Medical, Dental, 
Nursing, and other professional education has undoubtedly played a 
major role in our remaining a viable force this far into these 
difficult conflicts.
    The theme of evidence-based practice runs through everything we do 
in Army Medicine and is highlighted throughout our Balanced Scorecard. 
Evidence-based practices mean integrating individual clinical expertise 
with the best available external clinical evidence from systematic 
research. Typical examples of evidence-based practices include 
implementation of clinical practice guidelines and dissemination of 
best practices. I encourage my commanders and subordinate leaders to be 
innovative, but across Army medicine we Balance Innovation with 
Standardization so that all of our patients are receiving the best care 
and treatment available. Standardization efforts include:

        <bullet> The MEDCOM Armed Forces Health Longitudinal Technology 
        Application (AHLTA) Provider Satisfaction (MAPS) initiative
        <bullet> Care of combat casualties through the Joint Theater 
        Trauma System (JTTS), enabled by the use of a Joint Theater 
        Trauma Registry (JTTR)--both of which I will discuss further 
        below--which examines every casualty's care and outcome of that 
        care, including en route care during medical evacuation 
        (MEDEVAC) with an eye toward standardizing care around the best 
        practices
        <bullet> The Virtual Behavioral Health Pilot (aka Comprehensive 
        Behavioral Health Integration) being conducted at Schofield 
        Barracks and Ft. Richardson
        <bullet> Our initiative to reduce Ventilator Associated 
        Pneumonia events in our ICUs by adopting not only industry best 
        practices, but sending out an expert team of MEDCOM 
        professionals to evaluate our own best practices and barriers 
        to success
        <bullet> Our standardized events-driven identification and 
        management of mild TBI/concussion on the battlefield coupled 
        with early diagnosis and treatment of Post-Traumatic Stress 
        Reactions/Acute Stress Reactions as close in time and space to 
        the events which lead to these reactions

    Programs which are in the process of maturing into best practices 
for more widespread dissemination are:

        <bullet> The Confidential Alcohol Treatment and Education Pilot
        <bullet> The standardized and now automated Comprehensive 
        Transition Plan for Warriors In Transition in our WTUs and 
        CBWTUs
        <bullet> A standardized program to ``build trust in Army 
        Medicine'' through hospitality and patient/client/customer 
        service in our medical, dental, and veterinary treatment 
        facilities and throughout the MEDCOM
        <bullet> Standardized support of our Active, National Guard, 
        and Reserve Forces engaged in the reiterative, cyclic process 
        of the Army Force Generation Model including but not restricted 
        to preparation for combat medics and medical units, Soldier 
        Readiness Processing of deploying units, ensuring full medical 
        readiness of the force, restoration of dental and behavioral 
        health upon redeployment, support of the total Army Family 
        while soldiers are deployed, and provision of healthcare for 
        mobilized and demobilizing Reserve component soldiers and their 
        families.

    These and many other standardized efforts reflect a change in how 
we do the business of Army medicine. We can no longer pride ourselves 
on engaging in a multiplicity of local ``science projects'' being 
conducted in a seemingly random manner by well-meaning and creative 
people but without a focus on added value, standard measures of 
improved outcomes, and sustainability of the product or process. Even 
the remarkably agile response to the behavioral health needs-assessment 
and ongoing requirements at Fort Hood following the tragic shooting 
were conducted in a very deliberate and effective fashion which 
emphasized unity of command and control, alignment of all efforts and 
marshalling of resources to meet a well-crafted and even exportable 
community behavioral health plan.
    The emphasis which Army Medicine leaders have placed on 
disciplining these innovative measures so as to harvest best practices, 
subject them to validation at other sites, and rapidly proliferate them 
across the MEDCOM and Army in a standard fashion has been remarkable. 
It is the essence of Optimizing Communication and Knowledge Management.
    Many of our goals, internal processes and enablers, and resource 
investments are focused on the knowledge hierarchy: collecting data; 
coalescing it into information over time and space; giving it context 
to transform it into knowledge; and applying that knowledge with 
careful outcome measures to achieve wisdom. This phenomenon of guiding 
clinical management by the emergence of new knowledge is perhaps best 
represented by Dr. Denis Cortese, former President and Chief Executive 
Officer of the Mayo Clinic. He laid out this schematic earlier this 
year after participating in a set of workshops which centered on 
healthcare reform. We participated to explore how the Federal system of 
care might contribute to these changes in health improvement and 
healthcare delivery.
    What Dr. Cortese depicted is a three-domain ideal representation of 
healthcare delivery and its drivers. We share this vision of how an 
ideal system should operate. His notion is that this system of care 
should focus on optimizing individual health and healthcare needs, 
leveraging the knowledge domain to drive optimal clinical practices. 
This transition from the knowledge domain to the care delivery domain 
now takes 17 years. The clinical practice domain then informs and 
drives the payer domain to remunerate for effective clinical outcomes. 
What occurs too often today is what I call ``widget-building'' or 
``turnstile'' medical care which chases remuneration for these 
encounters--too often independent of whether it is the best treatment 
aimed at the optimal outcome. To transform from a healthcare system to 
a system for health, we need to change the social contract. No longer 
should we be paid for building widgets (number of clinic visits or 
procedures), rather, we should be paid for preventing illness and 
promoting healthy lifestyles. When bad things happen to good people--
which severe illness and injury and war continuously challenge us 
with--we should care for these illnesses, injuries and wounds by the 
most advanced evidence-based practices available, reducing unwarranted 
variation in practice whenever possible.
    Our Military Health System is subtly different in that we have two 
practice domains--garrison and battlefield. Increasingly, we leverage 
the clinical domain to provide feedback into the knowledge domain--with 
the help of the electronic health record--AHLTA--and specialized 
databases. We do this in real time and all under the umbrella of the 
regulatory domain which sets and enforces standards.
    The reengineering of combat trauma care borne of rapid turnaround 
of new-found, data-driven knowledge to new materiel and doctrinal 
solutions is one of the premier examples of this concept. The simplest 
example is our continuous re-evaluation of materials and devices 
available to soldiers, combat life savers, combat medics and the trauma 
team at the point of injury and in initial trauma management and the 
intellectual framework for their application to rapidly improve 
outcomes from combat-injured warriors.
    After making the first major change in 40 years to the field 
medical kit--the Improved First Aid Kit--we have modified the contents 
of the kit at least three times since May 2005 based upon ongoing 
reviews of the effectiveness of the materials and head-to-head 
comparisons to competing devices or protocols. In like fashion, we have 
modified protocols for trauma management through active in-theater and 
total systemic analyses of the clinical outcomes deriving from the use 
of materials and protocols.
    The specialized system in this endeavor is a joint and interagency 
trauma system which creates the equivalent of a trauma network 
available for a major metropolitan area or geographic region in the 
U.S. but spread across three continents, 8,000 miles end-to-end--the 
JTTS. Staffed and led by members of the Army, Navy, Marine Corps, and 
Air Force, it is truly a joint process. It is centered on the U.S. Army 
Institute of Surgical Research in San Antonio, TX. The specialized 
database in this effort and an essential element of the JTTS is the 
JTTR--a near-comprehensive standardized database which has been 
developed for each casualty as soon as possible in the treatment 
evacuation chain--usually at level II or III healthcare in theater. One 
of the most important critical applications of the JTTS and JTTR at 
present is the ongoing analysis of MEDEVAC times and the casualties 
being managed during evacuation. This is our effort to minimize the 
evacuation time for casualty in a highly dispersed force which is 
subjected in Afghanistan to the ``tyranny of terrain and weather.''
    The decisions about where and how many trauma teams should be 
placed around the theater of operation as well as where to place 
MEDEVAC crews and aircraft is a delicate balancing act--one which 
balances the risk of putting care providers and MEDEVAC crews and 
helicopters at risk to the enemy and the elements with the risk of loss 
of life and limb to Warriors whose evacuation may be excessively 
prolonged. The only way to fully understand these competing risks is to 
know the outcomes of care and evacuation by injury type across a wide 
range of MEDEVAC missions. This analysis will help us understand if we 
still require a ``Golden Hour'' for every casualty between initial 
management at the point of injury and arrival at a trauma treatment 
site (like an Army Forward Surgical Team, the Marine Forward 
Resuscitative Surgical System or a Combat Support Hospital) or whether 
we now have a ``Platinum 15 Minutes'' at the point of injury which 
extends the Golden Hour.
    This methodology and these casualty data are being applied to the 
next higher level of inquiry: how do we prevent injury and death of our 
combatants from wounds and accidents at the point of potential injury? 
Can we design improved helmets, goggles, body armor, vehicles and 
aircraft to prevent serious injuries? These questions are answered not 
only through the analysis of wound data, both survivable and 
nonsurvivable, through the JTTS and data from the virtual autopsy 
program of the Office of the Armed Forces Medical Examiner, but also by 
integrating these data with information from the joint operational, 
intelligence, and materiel communities to enable the development of 
improved tactics, techniques, and procedures and materiel improvements 
to protective equipment worn by the Warriors or built into the vehicles 
or aircraft in which they were riding. This work is performed by the 
Joint Trauma Analysis and Prevention of Injury in Combat program, a 
component of the DOD Blast Injury Research Program directed by the 
National Defense Authorization Act for 2006. To date it has been an 
effective means of improving the protection of warriors and preventing 
serious injury and death even as the enemy devises more lethal and 
adaptive weapons and battlefield tactics, techniques, and procedures.
    We in Army Medicine are applying these knowledge management tools 
and approaches to the improvement of health and the delivery of 
healthcare back home as well. We are coupling these knowledge 
management processes with a funding strategy which incentivizes our 
commanders and clinicians to balance productivity--providing episodes 
of care--with optimal outcome: the right kind of prevention and care.
    Among our greatest team achievements in 2009 was our effort to 
better understand how we communicate effectively with our internal and 
external stakeholders, patients, clients and customers. We adopted a 
formal plan to align our messages--ultimately all tied to Army goals 
and those on our Balanced Scorecard. Our creation of a Strategic 
Communications Directorate to ensure alignment of our key messages, to 
better understand and use social media, to expedite cross-talk and 
learning among such diverse groups as the Office of Congressional 
Liaison, Public Affairs, Protocol, Medical History, the Borden 
Institute, the AMEDD Regiment and others speaks directly to these 
efforts.
    While we are still in the ``advanced crawl/early walk'' phase of 
knowledge management, we know from examples such as the JTTS and the 
Performance Based Budget Model that we can move best practices and 
newly found evidence-based approaches into common or widespread use if 
we aggressively coordinate and manage our efforts and promote 
transparency of data and information and the knowledge which derives 
from it. We have begun a formal process under the Strategy and 
Innovation Directorate to move the best ideas in both clinical and 
transactional processes into standard practices across the MEDCOM in a 
timely way. This will be achieved through a process to identify, 
validate, and transfer best practices. We endeavor to be more agile and 
adaptive in response to a rapidly changing terrain of U.S. and Federal 
healthcare and operational requirements for a Nation at war.
    In closing, I am very optimistic about the next 2 years. We have 
weathered some serious challenges to trust in Army Medicine. Logic 
would not predict that we would be doing as well as we are in 
attracting, retaining and career developing such a talented team of 
uniformed and civilian medical professionals. However, we continue to 
do so year after year--a tribute to all our Officer Corps, the 
leadership of our noncommissioned officers, and our military and 
civilian workforce. The results of our latest Medical Corps Graduate 
Medical Education Selection Board and the Human Capital Distribution 
Plan show continued strength and even improvements over past years. The 
continued leadership and dedicated service of officers, noncommissioned 
officers, and civilian employees are essential for Army Medicine to 
remain strong, for the Army to remain healthy and strong, and for the 
Nation to endure. I feel very privileged to serve with the men and 
women of Army medicine during this historic period as Army medics, as 
soldiers, as Americans and as global citizens.
    Thank you for holding this hearing and your unwavering support of 
the Military Health System and Army Medicine. I look forward to working 
with you and your staff and addressing any of your concerns or 
questions.

    Senator Webb. Thank you, General Schoomaker.
    Let me just very quickly thank you for those comments about 
TBI and concussive injuries. This really is a different 
phenomenon from, I think, anything we've ever seen, because of 
the echo effect of so many of these actually occurring inside 
vehicles. It's almost like shaped charge. So, you can't even 
directly compare this with football injuries----
    General Schoomaker. No, sir.
    Senator Webb.--or any of these others.
    We have a great program down at Virginia Tech that's 
examining this concept, and I thank you for that detailed 
analysis.
    General Schoomaker. This has been a great collaborative 
effort with my colleagues here, too, sir.
    Thank you.
    Senator Webb. Admiral Robinson, welcome.

 STATEMENT OF VADM ADAM M. ROBINSON, JR., USN, SURGEON GENERAL 
   OF THE U.S. NAVY, AND CHIEF, NAVY BUREAU OF MEDICINE AND 
                            SURGERY

    Admiral Robinson. Good morning, Chairman Webb, Senator 
Graham, distinguished members of the subcommittee.
    I want to thank you for your unwavering support of Navy 
Medicine, particularly as we continue to care for those who go 
into harm's way, our Marine Corps, our Navy, their families, 
and all beneficiaries.
    I am honored to be with you today to provide an update of 
the state of Navy Medicine, including some of our 
accomplishments, our challenges, and strategic priorities.
    Navy Medicine: World-Class Care, Anytime, Anywhere. This 
poignant phrase is arguably the most telling description of 
Navy Medicine's accomplishments in 2009 and continues to drive 
our operational tempo and priorities for the coming year and 
beyond.
    Throughout the last year, we saw challenges and 
opportunities. Moving forward, I anticipate the pace of 
operations and demands will continue to increase. We have been 
stretched in our ability to meet our increasing operational and 
humanitarian assistance requirements, as well as maintain our 
commitment to provide care to a growing number of 
beneficiaries. However, I am proud to say that we are 
responding to this demand with more flexibility and agility 
than ever before.
    The foundation of Navy Medicine is force-health protection; 
it's what we do and why we exist. Nowhere is our commitment 
more evident than in Iraq and Afghanistan. During my October 
2009 trip to theater, I again saw the outstanding work of our 
medical personnel. The Navy Medicine team is working side-by-
side with Army and Air Force medical personnel and coalition 
forces to deliver outstanding healthcare to our troops and 
civilians alike.
    As our wounded warriors return from combat and begin the 
healing process, they deserve a seamless and comprehensive 
approach to their recovery. We want them to mend in body, mind, 
and spirit. Our patient- and family-centered approach brings 
together medical treatment providers, social workers, care 
managers, behavioral health providers, and chaplains. We are 
working closely with our line counterparts in the Marine Corps 
Wounded Warrior Regiments, and the Navy's Safe Harbor, to 
support the full-spectrum recovery process for sailors, 
marines, and for their families.
    We must act with a sense of urgency to continue to help 
build resiliency among our sailors and marines, as well as the 
caregivers who support them. We are aggressively working to 
reduce the stigma surrounding psychological health and 
operational stress concerns, which can be a significant barrier 
to seeking mental health services.
    Programs such as Navy Operational Stress Control, Marine 
Corps Combat Operational Stress Control, Families OverComing 
Under Stress (FOCUS)--Caregiver Occupational Stress Control, 
and our Suicide Prevention Program are in place and maturing to 
provide support to personnel and to their families.
    An important focus for all of us continues to be caring for 
our warriors suffering from TBIs. We are expanding TBI training 
to healthcare providers throughout the fleet and the Marine 
Corps. We are also implementing a new in-theater TBI 
surveillance system and conducting important research. This is 
in collaboration with our sister Services and medical 
colleagues.
    We are also employing a strategy that is both collaborative 
and integrative by actively partnering with other Services, the 
Defense Centers of Excellence for Psychological Health and 
Traumatic Brain Injury, the Department of Veterans Affairs, and 
leading academic, medical, and research centers, to make the 
best care available to our warriors.
    We must continue to recognize the occupational stress on 
our caregivers. They are subject to the psychological demands 
of exposure to trauma, loss, fatigue, and inner conflict. This 
is why our Caregiver Occupational Stress Control programs are 
so important to building and sustaining the resiliency of our 
providers. Mental health specialists are being placed in 
operational environments and forward deployed to provide 
services where and when they are needed. The Marine Corps is 
sending more mental health teams to the front lines, with the 
goal of better treating an emotionally strained force. 
Operational Stress Control and Readiness teams known as OSCAR 
will soon be expanded to include the battalion level. This will 
put mental health support services much closer to combat 
troops. A mobile care team of Navy Medicine mental health 
professionals is currently deployed to Afghanistan, conducting 
mental health surveillance, command leadership consultation, 
and coordinate mental health care for sailors throughout the 
AOR.
    An integral part of the Navy's Maritime Strategy is 
humanitarian assistance and disaster relief. In support of 
Operation Unified Response Haiti, Navy Medicine answered the 
call. We deployed the Hospital Ship Comfort from her homeport 
in Baltimore within 77 hours of the order and ahead of 
schedule.
    Senator Webb. Admiral?
    Admiral Robinson. Yes, sir?
    Senator Webb. Just making an announcement, here.
    Apparently, the Republicans are objecting to all hearings 
after 11:00 this morning, except for one. Senator Graham is 
going to try to see----
    Senator Graham. Yes, I would like to----
    Senator Webb.--if we can't get ours also excluded, but----
    Senator Graham. Yes, I want to hear what you have to say, 
if I can.
    Senator Webb. How do we do this, Senator?
    Senator Graham. They're checking on it, now. Let's just 
keep going, and we'll figure out what the rules are.
    Senator Begich. Mr. Chairman?
    Senator Webb. Yes?
    Senator Begich. With or without it, can we just continue on 
and just have it as a non-hearing hearing?
    Make the rules as we go, is my rule. [Laughter.]
    Why not?
    I mean these guys have come----
    Senator Webb. I suppose we could go into informal 
conversation, if they cancel the hearing at 11 a.m. I don't 
know what that would do to the official transcript of the 
hearing, or that sort of thing. But, I----
    Senator Begich. I think this is an important issue.
    Senator Graham. I want to hear what they have to say.
    Senator Webb. Okay.
    Senator Graham.--we'll figure out----
    Senator Webb. Let's proceed.
    Senator Begich. I don't think you have support, bipartisan, 
for this effort, Mr. Chairman. [Laughter.]
    Admiral Robinson. Thank you very much, sir.
    An integral part of Navy's Maritime Strategy is 
humanitarian assistance and disaster response. In support of 
Operation Unified Response Haiti, Navy Medicine answered the 
call. We deployed Naval Hospital Ship Comfort within 77 hours 
of the order and ahead of schedule. She was on station in Port-
au-Prince 5 days later. From the beginning, the operational 
tempo on board Comfort was high and our personnel were 
challenged, both professionally and personally. For many, this 
was a career-defining experience, and I was proud to welcome 
the crew home last week and congratulate them for their 
outstanding performance. The men and women of Comfort and all 
involved in this mission saved lives, alleviated suffering, and 
brought hope in the midst of devastation.
    I'm also encouraged with our recruiting efforts within Navy 
Medicine, and we are starting to see the results of new 
incentive programs. But, while overall manning levels for both 
officer and enlisted personnel are relatively high, ensuring we 
have the proper specialty mix continues to be a challenge in 
both the Active and Reserve components. Several wartime 
critical specialties, as well as advanced practice nursing and 
physicians' assistants are undermanned. We are also facing 
shortfall for general dentists, oral maxilla facial surgeons, 
and many of our mental health specialists, including clinical 
psychologists and social workers. We continue to work hard to 
meet this demand, but fulfilling the requirements among these 
specialties is expected to present a continuing challenge.
    Research and development is critical to Navy Medicine's 
success and our ability to remain agile to meet the evolving 
needs of our warfighters. It is where we find solutions to our 
most challenging problems and, at the same time, provide some 
of medicine's most significant innovations and discoveries. 
Research efforts targeted at wound management, including 
enhanced wound repair and reconstruction, as well as extremity 
and internal hemorrhage control and phantom limb pain in 
amputees, present definitive benefits. These efforts support 
our emerging expeditionary medical operations and aid in 
support of our wounded warriors.
    Clearly, one of the most important priorities for 
leadership of all the Services is the successful transition to 
the Walter Reed National Military Medical Center on board the 
campus of the National Naval Medical Center in Bethesda. We are 
working diligently with the lead DOD organization, Joint Task 
Force National Capital Region Medical, to ensure that this 
significant and ambitious project is executed properly and 
without disruption of services to our wounded warrior, our 
sailors, marines, and their families, and all other 
beneficiaries that we are privileged to serve.
    In summary, I believe we are at an important crossroads for 
military medicine. How we respond to challenges facing us today 
will likely set the stage for decades to come. Commitment to 
our wounded warriors and their families must never waver, and 
our programs of support and hope must be built and sustained 
for the long haul. The long haul is the rest of the century, 
when the young wounded warriors of today mature into aging 
heroes in the years to come. They will need our care and 
support, as will their families, for a lifetime.
    On behalf of the men and women of Navy Medicine, I want to 
thank the committee for your tremendous support, your 
confidence, and your leadership. It has been my pleasure to 
speak before you today, and I look forward to your questions.
    [The prepared statement of Admiral Robinson follows:]
       Prepared Statement by VADM Adam M. Robinson, Jr., MC, USN
                              introduction
    Chairman Webb, Senator Graham, distinguished members of the 
subcommittee, I am honored to be with you today to provide an update on 
the state of Navy Medicine, including some of our accomplishments, 
challenges and strategic priorities. I want to thank the committee 
members for your unwavering support of Navy Medicine, particularly as 
we continue to care for those who go in harm's way, their families and 
all beneficiaries.
    Navy Medicine-World Class Care . . . Anytime, Anywhere. This 
poignant phrase is arguably the most telling description of Navy 
Medicine's accomplishments in 2009 and continues to drive our 
operational tempo and priorities for the coming year and beyond. 
Throughout the last year we saw challenges and opportunities; and 
moving forward, I anticipate the pace of operations and demands placed 
upon us will continue to increase. Make no mistake: We have been 
stretched in our ability to meet our increasing operational and 
humanitarian assistance requirements, as well as maintain our 
commitment to provide Patient and Family-Centered care to a growing 
number of beneficiaries. However, I am proud to say to that we are 
responding to this demand with more flexibility and agility than ever 
before. We are a vibrant, world-wide health care system fully engaged 
and integrated in carrying out the core capabilities of the Maritime 
Strategy around the globe. Regardless of the challenges ahead, I am 
confident that we are well-positioned for the future.
    Since becoming the Navy Surgeon General in 2007, I have invested 
heavily in our strategic planning process. How we accomplish our 
mission is rooted in sound planning, sharp execution and constructive 
self-assessment at all levels of our organization. I challenged our 
leadership to create momentum and establish a solid foundation of 
measurable progress. It's paying dividends. We are seeing improved and 
sustained performance in our strategic objectives. Just as importantly, 
our planning process supports alignment with the Department of Navy's 
Strategic Plan and Operations Guidance.
    Navy Medicine's commitment to Patient and Family-Centered Care is 
also reflected in our resourcing processes. An integral component of 
our Strategic Plan is providing performance incentives that promote 
quality and directly link back to workload and resources. We are 
evolving from a fiscal planning and execution process rooted in 
historical data, to a system which links requirements, resources and 
performance goals. This transformation to Performance Based Budgeting 
properly aligns authority, accountability, and financial responsibility 
with the delivery of quality, cost-effective health care.
    The President's budget for fiscal year 2011 adequately funds Navy 
Medicine to meet its medical mission for the Navy and Marine Corps. The 
budget also provides for the maintenance of our facilities. We 
appreciate the committee's strong support of our resource requirements.
                        force health protection
    The foundation of Navy Medicine is Force Health Protection. It's 
what we do and why we exist. In executing our Force Health Protection 
mission, the men and women of Navy Medicine are engaged in all aspects 
of expeditionary medical operations in support of our warfighters. The 
continuum of care we provide includes all dimensions of physical and 
psychological well-being. This is our center of gravity and we have and 
will continue to ensure our sailors and marines are medically and 
mentally prepared to meet their world-wide missions.
    Nowhere is our commitment to Force Health Protection more evident 
than in our active engagement in military operations in Iraq and 
Afghanistan. As these overseas contingency operations evolve, and in 
many respects become increasingly more dangerous, we are seeing 
burgeoning demand for expeditionary combat casualty care in support of 
joint operations. I recently returned from a trip to Afghanistan and I 
again saw the outstanding work of our medical personnel. The Navy 
Medicine team is working side-by-side with Army and Air Force medical 
personnel and coalition forces to deliver outstanding health care to 
our troops and civilians alike.
    We must continue to be innovative and responsive at the deckplates 
and on the battlefield. Since the start of Operation Enduring Freedom 
and Operation Iraqi Freedom, the Marine Corps has fielded new combat 
casualty care capabilities which include: updated individual first aid 
kits with combat gauze, advanced tourniquets, use of Tactical Combat 
Casualty Care principles, troop training in Combat Lifesaver, and the 
use of Factor VII--a blood clotting agent used in trauma settings. In 
addition, Navy Fleet Hospital transformation has redesigned 
expeditionary medical facilities that are lighter, modular, more 
mobile, and interoperable with other Services' facilities.
    Our progress is also evident in the innovative work undertaken by a 
Shock Trauma Platoon 2 years ago in Afghanistan. This team, comprised 
of 2 physicians, 2 nurses, 1 physician assistant, and 14 corpsmen, 
essentially created a mobile emergency room--a 7-ton truck with a Conex 
container and welded steel plates--that went into combat to administer 
more expedient and effective care in austere settings. This prototype 
led to the creation of the Mobile Trauma Bay (MTB), a capability that 
both Marine Corps and Navy Medicine leadership immediately recognized 
as vital to the warfighter and an unquestionable lifesaver on the 
battlefield. MTB use has already been incorporated into our Afghanistan 
shock trauma platoon operations, and they are already positively 
impacting forward resuscitative and stabilization care. We understand 
that the Marine Corps has fully embraced the MTB concept and is 
planning to add additional units in future POM submissions.
Humanitarian Assistance and Disaster Response
    An integral part of the Navy's Maritime Strategy is humanitarian 
assistance and disaster response. In the wake of the devastating 
earthquake in Haiti earlier this year, our Nation moved forward with 
one of the largest relief efforts in our history to save lives, deliver 
critically needed supplies and provide much-needed hope. The response 
was rapid, as Navy deployed ships and expeditionary forces, comprised 
of more than 10,000 personnel, to provide immediate relief and support 
for the Haitian people. In support of Operation Unified Response, Navy 
Medicine answered the call. We deployed USNS Comfort (T-AH 20) from her 
homeport in Baltimore within 77 hours and ahead of schedule--going from 
an industrial shipboard site to a ready afloat naval hospital, fully 
staffed and equipped. She was on station in Port-au-Prince 5 days later 
and treating patients right away. From the beginning, the operational 
tempo onboard USNS Comfort has been high with a significant trauma and 
surgical caseload. Medical teams from the ship are also ashore to help 
in casualty evaluation, triage crush wounds, burn injuries and other 
health issues. Providing care around the clock, our personnel were 
challenged both professionally and personally. For many, this was a 
career-defining experience and certainly reflects the Navy's commitment 
as a ``Global Force for Good.'' I spoke to the crew as they were 
preparing to get underway, and personally related just how important 
this mission is and why it is a vital part of the Navy's Maritime 
Strategy.
    Navy Medicine provided additional support that included the 
deployment of a Forward Deployed Preventive Medicine Unit and augmented 
Casualty Receiving and Treatment Ship medical staff capabilities 
onboard USS Bataan (LHD 5). We also recognized the potential 
psychological health impact on our medical personnel involved in this 
humanitarian assistance mission and ensured we had trained Caregiver 
Occupational Stress Control (CgOSC) staff onboard.
    The ship departed Haiti on 10 March 2010. Prior to getting 
underway, the crew gathered for a memorial ceremony in honor of the 
people of Haiti. The men and women of USNS Comfort, and all involved in 
this mission, saved lives, alleviated suffering, and brought hope in 
the midst of devastation. Their performance and spirit of caring was 
exemplary.
    Navy Medicine is inherently flexible and capable of meeting the 
call to support multiple missions. I am proud of the manner in which 
the men and women of Navy Medicine leaned forward in response to the 
call for help. In support of coordination efforts led by the Department 
of State and the U.S. Agency for International Development, and in 
collaboration with nongovernmental organizations, both domestic and 
international, our response demonstrated how the expeditionary 
character of our Naval and Marine forces is uniquely suited to provide 
assistance during interagency and multinational efforts.
                            concept of care
    Navy Medicine's Concept of Care is Patient and Family-Centered 
Care. It is at the epicenter of everything we do. This concept is 
elegant in its simplicity yet extraordinarily powerful. It identifies 
each patient as a participant in his or her own health care and 
recognizes the vital importance of the family, military culture and the 
military chain of command in supporting our patients. My goal is for 
this Concept of Care--this commitment to our patients and their 
families--to resonate throughout our system and guide all our actions. 
It is enabled by our primary mission to deliver force health protection 
and a fully ready force; mutually supported by the force multipliers of 
world class research and development, and medical education. It also 
leverages our emphasis on the health and wellness of our patients 
through an active focus on population health.
                         caring for our heroes
    When our Warriors go into harm's way, we in Navy Medicine go with 
them. At sea or on the ground, sailors and marines know that the men 
and women of Navy Medicine are by their side ready to care for them. 
There is a bond of trust that has been earned over years of service 
together, and make no mistake, today that bond is stronger than ever. 
Our mission is to care for our wounded, ill, and injured, as well as 
their families. That's our job and it is our honor to have this 
opportunity.
    As our Wounded Warriors return from combat and begin the healing 
process, they deserve a seamless and comprehensive approach to their 
recovery. We want them to mend in body, mind and spirit. Our focus is 
multidisciplinary-based care, bringing together medical treatment 
providers, social workers, case managers, behavioral health providers 
and chaplains. We are working closely with our line counterparts with 
programs like the Marine Corps' Wounded Warrior Regiments and the 
Navy's Safe Harbor to support the full-spectrum recovery process for 
sailors, marines, and their families.
    Based on the types of injuries that we see returning from war, Navy 
Medicine continues to adapt our capabilities to best treat these 
conditions. When we saw a need on the west coast to provide expanded 
care for returning Wounded Warriors with amputations, we established 
the Comprehensive Combat and Complex Casualty Care (C5) Program at 
Naval Medical Center, San Diego, in 2007. C5 manages severely injured 
or ill patients from medical evacuation through inpatient care, 
outpatient rehabilitation, and their eventual return to active duty or 
transition from the military. We are now working to expand utilization 
of Project C.A.R.E - Comprehensive Aesthetic Recovery Effort. This 
initiative follows the C5 model by ensuring a multidisciplinary 
approach to care, yet focuses on providing state-of-the-art plastic and 
reconstructive surgery for our Wounded Warriors at both Naval Medical 
Center San Diego and Naval Medical Center Portsmouth, with potential 
future opportunities at other treatment facilities.
    We have also significantly refocused our efforts in the important 
area of clinical case management at our military treatment facilities 
and major clinics serving Wounded Warriors to ensure appropriate case 
management services are available to all who need them. The Clinical 
Case Management Program assists patients and families with clinical and 
non-clinical needs, facilitating communication between patient, family 
and multi-disciplinary care team. Our clinical case managers 
collaborate with Navy and Marine Corps Recovery Care Coordinators, 
Federal Recovery Coordinators, Non-Medical Care Managers and other 
stakeholders to address sailor and marine issues in developing Recovery 
Care Plans. As of January 2010, 192 Clinical Case Managers are assigned 
to Military Treatment Facilities and ambulatory care clinics caring for 
over 2,900 sailors, marines, and coastguardsmen.
             psychological health and post-traumatic stress
    We must act with a sense of urgency to help build resiliency among 
our sailors and marines, as well as the caregivers who support them. We 
recognize that operational tempo, including the number and length of 
deployments, has the potential to impact the psychological health of 
servicemembers and their family members. We are aggressively working to 
reduce the stigma surrounding psychological health and operational 
stress concerns which can be a significant barrier to seeking mental 
health services for both military personnel and civilians. Programs 
such as Navy Operational Stress Control, Marine Corps Combat 
Operational Stress Control, Families Overcoming Under Stress (FOCUS), 
CgOSC, and our suicide prevention programs (A-C-T Ask-Treat-Care) are 
in place and maturing to provide support to personnel and their 
families.
    The Navy Operational Stress Control program and Marine Corps Combat 
Operational Stress Control program are the cornerstones of the 
Department of the Navy's approach to early detection of stress injuries 
in sailors and marines and are comprised of:

        <bullet> Line led programs which focus on leadership's role in 
        monitoring the health of their people.
        <bullet> Tools leaders may employ when sailors and marines are 
        experiencing mild to moderate symptoms.
        <bullet> Multidisciplinary expertise (medical, chaplains, and 
        other support services) for more affected members.

    Decreasing the stigma associated with seeking psychological health 
care requires a culture change throughout the Navy and Marine Corps. 
Confronting an ingrained culture will take time and active leadership 
support. Stigma reducing interventions span three major fronts: (1) 
education and training for individual sailors and marines that 
normalizes mental health care; (2) leadership training to improve 
command climate support for seeking mental health care; and (3) 
encouragement of care outreach to individual sailors, marines, and 
their commands. This past year saw wide-spread dissemination of 
Operational Stress Control (OSC) doctrine as well as a Navy-wide 
education and training program that includes mandatory Navy Knowledge 
Online courses, instructor led and web-based training.
    Navy Medicine ensures a continuum of psychological health care is 
available to servicemembers throughout the deployment cycle--pre-
deployment, during deployment, and post-deployment. We are working to 
improve screening and surveillance using instruments such as the 
Behavior Health Needs Assessment Survey (BHNAS) and Post-Deployment 
Health Assessment (PDHA) and Post-Deployment Health Reassessment 
(PDHRA).
    Our mental health specialists are being placed in operational 
environments and forward deployed to provide services where and when 
they are needed. The Marine Corps is sending more mental health teams 
to the front lines with the goal of better treating an emotionally 
strained force. Operational Stress Control and Readiness (OSCAR) teams 
will soon be expanded to include the battalion level, putting mental 
health support services much closer to combat troops. A Mobile Care 
Team (MCT) of Navy Medicine mental health professionals is currently 
deployed to Afghanistan to conduct mental health surveillance, command 
leadership consultation, and coordinate mental health care for sailors 
throughout the AOR. In addition to collecting important near real-time 
surveillance data, the MCT is furthering our efforts to decrease stigma 
and build resilience.
    We are also making mental health services available to family 
members who may be affected by the psychological consequences of combat 
and deployment through our efforts with Project FOCUS, our military 
treatment facilities and our TRICARE network partners. Project FOCUS 
continues to be successful and we are encouraged that both the Army and 
Air Force are considering implementing this program. We also recognize 
the importance of the counseling and support services provided through 
the Fleet and Family Support Centers and Marine Corps Community 
Services.
    Beginning in 2007, Navy Medicine established Deployment Health 
Centers (DHCs) as non-stigmatizing portals of care for servicemembers 
staffed with primary care and psychological health providers. We now 
have 17 DHCs operational. Our health care delivery model supports early 
recognition and treatment of deployment-related psychological health 
issues within the primary care setting. Psychological health services 
account for approximately 30 percent of all DHC encounters. We have 
also increased mental health training in primary care, and have 
actively partnered with Line leaders and the Chaplain Corps to develop 
combat and operational stress control training resources. Awareness and 
training are keys to our surveillance efforts. Over 4,000 Navy Medicine 
providers, mental health professionals, chaplains and support personnel 
have been trained to detect, screen, and refer personnel who may be 
struggling with mental health issues.
    We must continue to recognize the occupational stress on our 
caregivers. They are subject to the psychological demands of exposure 
to trauma, loss, fatigue, and inner conflict. This is why our Caregiver 
Occupational Stress Control programs are so important to building and 
sustaining the resiliency of our providers. We cannot overlook the 
impact on these professionals and I have directed Navy Medicine 
leadership to be particularly attuned to this issue within their 
commands.
                         traumatic brain injury
    While there are many significant injury patterns in theatre, an 
important focus area for all of us remains Traumatic Brain Injury 
(TBI). Blast is the signature injury of OEF and OIF--and from blast 
injury comes TBI. The majority of TBI injuries are categorized as mild, 
or in other words, a concussion. Yet, there is much we do not yet know 
about these injuries and their long-term impacts on the lives of our 
servicemembers.
    The relative lack of knowledge about mild TBI amongst 
servicemembers and health care personnel represents an important gap 
that Navy Medicine is seriously addressing. We are providing TBI 
training to health care providers from multiple disciplines throughout 
the fleet and the Marine Corps. This training is designed to educate 
personnel about TBI, introduce the Military Acute Concussion Exam 
(MACE) as a screening tool for mild TBI, inform providers about the 
Automated Neurocognitive Assessment Metric (ANAM) test, and identify a 
follow-up for assessment including use of a repeatable test battery for 
identification of cognitive status. We have recently established and 
are now expanding our TBI program office to manage the implementation 
of the ANAM as a pre-deployment test for servicemembers in accordance 
with DOD policy. This office will further develop models of assessment 
and care as well as support research and evaluation programs.
    All the Services expect to begin implementation of a new in-theater 
TBI surveillance system which will be based upon incident event 
tracking. Promulgated guidelines will mandate medical evaluation for 
all servicemembers exposed within a set radius of an explosive blast, 
with the goal to identify any servicemember with subtle cognitive 
deficits who may not be able to return to duty immediately.
    Navy Medicine has begun implementing the ANAM assessment at the 
DHCs and within deploying units as part of an assistant Secretary of 
Defense (Health Affairs) mandate. We have also partnered with line 
leadership, or operational commanders, to identify populations at risk 
for brain injury (e.g., front-line units, SEAL units, and Navy 
Explosive Ordinance Disposal units). In addition, an in-theater 
clinical trial for the treatment of vestibular symptoms of blast-
exposure/TBI was completed at the USMC mTBI Center in Al Taqqadum, 
Iraq.
    Both our Naval Health Research Center and Navy-Marine Corps Public 
Health Center are engaged with tracking TBI data through ongoing 
epidemiology programs. Goals this year include the establishment of a 
restoration center in-theatre to allow injured sailors and marines a 
chance to recover near their units and return to the fight.
    Additionally, the National Naval Medical Center's Traumatic Stress 
and Brain Injury Program provides care to all blast-exposed or head-
injured casualties returning from theatre to include patients with an 
actual brain injury and traumatic stress. Navy Medicine currently has 
TBI clinics at San Diego, Portsmouth, Camp Pendleton, and Camp Lejeune 
with plans for further expansion reflecting our commitment to the 
treatment of this increasingly prevalent injury.
    We are employing a strategy that is both collaborative and 
integrative by actively partnering with the other Services, Defense 
Center of Excellence for Psychological Health and Traumatic Brain 
Injury, the Veterans Administration, and leading academic medical and 
research centers to make the best care available to our Warriors 
afflicted with TBI.
                 excellence in research and development
    Research and development is critical to Navy Medicine's success and 
our ability to remain agile to meet the evolving needs of our 
warfighters. It is where we find solutions to our most challenging 
problems and, at the same time, provide some of medicine's most 
significant innovations and discoveries. Our research and development 
programs are truly force-multipliers and enable us to provide world-
class health care to our beneficiaries.
    The approach at our research centers and laboratories around the 
world is straightforward: Conduct health and medical research, 
development, testing, evaluation and surveillance to enhance deployment 
readiness. Each year, we see more accomplishments which have a direct 
impact on improving force health protection. The contributions are many 
and varied, ranging from our confirmatory work in the early stages of 
the H1N1 pandemic, to the exciting progress in the development of a 
malaria vaccine. Research efforts targeted at wound management, 
including enhanced wound repair and reconstruction as well as extremity 
and internal hemorrhage control, and phantom limb pain in amputees, 
present definitive benefits. These efforts also support our emerging 
expeditionary medical operations and aid in support to our Wounded 
Warriors.
                         the navy medicine team
    Navy Medicine is comprised of compassionate and talented 
professionals who continue to make significant contributions and 
personal sacrifices to our global community. Our team includes our 
officers, enlisted personnel, government civilian employees, contract 
workers and volunteers working together in a vibrant health care 
community. All have a vital role in the success of our enterprise. Our 
priority is to maintain the right workforce to deliver the required 
medical capabilities across the enterprise, while using the appropriate 
mix of accession, retention, education and training incentives.
    Overall, I am encouraged with our recruiting efforts within Navy 
Medicine and we are starting to see the results of new incentive 
programs. But while overall manning levels for both officer and 
enlisted personnel are relatively high, ensuring we have the proper 
specialty mix continues to be a challenge. Several wartime critical 
specialties including psychiatry, family medicine, general surgery, 
emergency medicine, critical care and perioperative nursing, as well as 
advanced practice nursing and physician assistants, are undermanned. We 
are also facing shortfalls for general dentists, oral maxillofacial 
surgeons, and many of our mental health specialists including clinical 
psychologists and social workers. We have increasing requirements for 
mental health professionals as well as for Reserve Component Medical 
Corps, Dental Corps, Medical Service Corps, and Nurse Corps officers. 
We continue to work hard to meet this demand, but fulfilling the 
requirements among these specialties is expected to present a 
continuing challenge.
    I want to also reemphasize the priority we place on diversity. We 
are setting the standard for building a diverse, robust, innovative 
health care workforce, but we can do more in this important area. Navy 
Medicine is stronger and more effective as a result of our diversity at 
all levels. Our people are our most important resource, and their 
dignity and worth are maintained through an atmosphere of service, 
professionalism, trust and respect.
                     partnerships and collaboration
    Navy Medicine continues to focus on improving interoperability with 
the Army, Air Force, Veterans Administration (VA), as well other 
Federal and civilian partners to bring operational efficiencies, 
optimal technology and training together in support of our patients and 
their families, our missions, and the national interests. Never has 
this collaborative approach been more important, particularly as we 
improve our approaches to ensuring seamless transitions for our 
veterans.
    We remain committed to resource sharing agreements with the VA and 
our joint efforts in support of improving the Disability Evaluation 
System (DES) through the ongoing pilot program at several MTFs. The 
goal of this pilot is to improve the disability evaluation process for 
servicemembers and help simplify their transitions. Together with the 
VA and the other Services, we are examining opportunities to expand 
this pilot to additional military treatment facilities. Additionally, 
in partnership with the VA, we will be opening the James A. Lovell 
Federal Health Care Center in Great Lakes, IL--a uniquely integrated 
Navy/VA medical facility.
    We also look forward to leveraging our inter-service education and 
training capabilities with the opening of the Medical Education and 
Training Campus in San Antonio in 2010. This new tri-service command 
will oversee the largest consolidation of service training in DOD 
history. I am committed to an inter-service education and training 
system that optimizes the assets and capabilities of all DOD health 
care practitioners yet maintains the unique skills and capabilities 
that our hospital corpsmen bring to the Navy and Marine Corps--in 
hospitals, clinics at sea and on the battlefield.
    Clearly one of the most important priorities for the leadership of 
all the Services is the successful transition to the Walter Reed 
National Military Medical Center onboard the campus of the National 
Naval Medical Center, Bethesda. We are working diligently with the lead 
DOD organization, Joint Task Force--National Capital Region Medical, to 
ensure that this significant and ambitious project is executed properly 
and without any disruption of services to our sailors, marines, their 
families, and all our beneficiaries for whom we are privileged to 
serve.
                            the way forward
    I believe we are at an important crossroads for military medicine. 
How we respond to the challenges facing us today will likely set the 
stage for decades to come. Commitment to our Wounded Warriors and their 
families must never waver and our programs of support and hope must be 
built and sustained for the long-haul--and the long-haul is the rest of 
this century when the young Wounded Warriors of today mature into our 
aging heroes in the years to come. They will need our care and support 
as will their families for a lifetime. Likewise, our missions of 
cooperative engagement, through humanitarian assistance and disaster 
response, bring opportunities for us, our military, and the Nation. It 
is indeed a critical time in which to demonstrate that the U.S. Navy is 
truly a ``Global Force for Good.''
    Navy Medicine is a vibrant, world-wide health care system comprised 
of compassionate and talented professionals who are willing to make 
contributions and personal sacrifices. This team--our team--including 
officer, enlisted, civilians, contractors, and volunteers work together 
as a dynamic health care family. We are all essential to success.
    Navy Medicine will continue to meet the challenges ahead and 
perform our missions with outstanding skill and commitment. On behalf 
of the men and women of Navy Medicine, I want to thank the committee 
for your tremendous support, confidence, and leadership. It has been my 
pleasure to testify before you today and I look forward to your 
questions.

    Senator Webb. Thank you very much, Admiral Robinson.
    General Green, welcome.

 STATEMENT OF LT. GEN. CHARLES B. GREEN, USAF, SURGEON GENERAL 
                     OF THE U.S. AIR FORCE

    General Green. Thank you, sir.
    Chairman Webb, Senator Graham, and distinguished members of 
the committee, it's an honor and a privilege to appear before 
you, representing the Air Force Medical Service.
    I look forward to working with you and pledge to do all in 
my power to support the men and women or our Armed Forces and 
this great country. Thank you for your immeasurable 
contributions to the success of our mission.
    ``Trusted Care Anywhere'' is our vision for 2010 and 
beyond. Our nearly 60,000 total-force medics contribute world-
class medical capabilities to Air Force, joint, and coalition 
teams around the world. Seventeen hundred Air Force medics are 
currently deployed to 40 locations in 20 countries, delivering 
state-of-the-art preventive medicine, rapid lifesaving care, 
and critical air evacuation. Since November 2001, we've air-
evac'd over 70,000 patients from Afghanistan and Iraq, and have 
lost only 4 patients during evacuation.
    Air Force medics are responding globally in humanitarian 
missions, as well as on the battlefield, and in just the last 6 
months, we contributed significant support to Indonesia, Haiti, 
and the Chilean earthquake victims.
    This is a year of firsts. The first known successful air 
evacuation of a patient with traumatic lung removal was done 
last July. The patient is doing well in Birmingham, England, 
today.
    In January 2010, a U.S. marine sustained dislocation of 
both knees, with loss of blood flow to his lower legs, 
following an IED attack in the Helmand Province. Air Force 
surgeons performed definitive vascular reconstruction within 
hours of the injury, and the marine is now recovering in the 
National Naval Medical Center in Bethesda, and is expected to 
have fully functional limbs.
    An airman shot three times in the back will not be a 
diabetic, despite the absence of his pancreas, because surgeons 
across three continents harvested and grew his pancreatic cells 
then implanted the cells into his liver at Walter Reed.
    These success stories are possible only because of tireless 
efforts of Air Force, Army, Navy, and coalition medics to 
continuously improve our care.
    At home, our healthcare teams provide patient-centered 
full-spectrum healthcare to our beneficiaries. We're improving 
patient and provider satisfaction through our Patient-Centered 
Medical Home by building strong partnerships between patients 
and their healthcare teams. Our Family Health Initiative and 
Surgical Care Optimization Initiatives are improving healthcare 
continuity, quality, access, and patient satisfaction.
    Our Air Force Suicide Prevention Program, implemented in 
1997, continues to be effective, but we have noted a slowly 
increasing rate of suicides since 2007. We are enhancing our 
prevention programs to further decrease suicides by targeting 
the most stressed by our high operations tempo. We now target 
more indepth interventions and training to Air Force security 
forces and intelligence career fields, whom we have identified 
as having double the incidence of suicide, compared to the rest 
of the Air Force.
    We continue training the entire force on suicide prevention 
and coping skills, to improve both airmen and family 
resilience. We adapted new concepts rapidly, such as ``Ask, 
Care, and Escort'' and collaborative care, wherein mental 
health providers are now embedded in the majority of our family 
health clinics.
    We have also studied and targeted interventions for our 
civilian workforce identified at high risk. Collaborative care, 
online help, mandatory post-deployment surveys, and family-life 
counselors at our Airman and Family Readiness centers, have 
decreased stigma and allowed those in need to get help earlier.
    We're encouraged by the continued low indicators for stress 
in the Air Force. Alcohol abuse remains low and stable, as does 
illegal and prescription drug abuse. We target programs to 
further reduce underage drinking and enhance safety. Our 
numbers in domestic violence are trending downward. We continue 
to monitor these indicators carefully to target effective 
interventions.
    To achieve our vision of ``Trusted Care Anywhere,'' we 
require highly-trained, current, and qualified providers, and 
we're extremely grateful to this committee for your many 
efforts to strengthen our recruiting and retention programs.
    The Air Force Medical Service is committed to the health 
and wellness of all entrusted to our care. We are, indeed, all 
in to meet our Nation's call, and will achieve our vision 
through determined, continuous improvement. We could not 
achieve our goals of better readiness, better health, better 
care, and best value for our heroes and their families without 
your support, and we thank you.
    I stand ready for your questions, sir.
    [The prepared statement of General Green follows:]
      Prepared Statement by Lt. Gen. (Dr.) Charles B. Green, USAF
    Chairman Webb, Senator Graham, and distinguished members of the 
subcommittee, it is an honor and a privilege to appear before you 
representing the Air Force Medical Service and our 60,000 Total Force 
medics. I'm looking forward to working with you during my tenure as Air 
Force Surgeon General. I pledge to do all in my power to support the 
men and women of the Armed Forces and this great country. Thank you for 
your immeasurable contributions to the success of our mission.
    ``Trusted Care Anywhere'' is the Air Force Medical Service's vision 
for 2010 and beyond. In the domain of Air, Space and Cyberspace, our 
medics contribute to the Air Force, Joint, and coalition team with 
world class medical capabilities. Our 60,000 high performing Total 
Force medics around the globe are trained and ready for mission 
success. Over 1,600 Air Force medics are now deployed to 40 locations 
in 20 countries, building partnership capability and delivering state 
of the art preventive medicine, rapid lifesaving care, and critical air 
evacuation. In all cases, these efforts are conducted with joint and 
coalition partners. At home, our health care teams assure patient-
centered care to produce healthy and resilient airmen, and provide our 
families and retirees with full spectrum health care.
    Today's focus is on world-class health care delivery systems across 
the full spectrum of our operations. From theater hospitals in Balad 
and Bagram, to the efforts of humanitarian assistance response teams, 
to the care of our families at home, we put patients first. We are 
transforming deployable capabilities, building patient-centered care 
platforms, and investing in our people, the foundation of our success. 
We are expanding collaboration with joint and coalition partners to 
collectively strengthen rapid response capabilities. Globally, Air 
Force medics are diligently working to balance the complex demands of 
multiple missions in current and expanding areas of operations.
    We are committed to advancing capabilities through education and 
training, research, and infrastructure recapitalization. Recent efforts 
in these areas have paid huge dividends, establishing new standards in 
virtually every major category of full spectrum care including 
humanitarian assistance. The strategic investments assure a trained, 
current, and deployable medical force today and tomorrow. They 
reinforce a culture of learning to quickly adapt medical systems and 
implement agile organizations to produce healthier outcomes in diverse 
mission areas.
    While we've earned our Nation's trust with our unique capabilities 
and the expertise of our people, we constantly seek to do better! I 
would like to highlight our areas of strategic focus and share some 
captivating examples of Air Force medics in action.
    transforming expeditionary medicine and aeromedical evacuation 
                              capabilities
    Our success on the battlefield underscores our ability to provide 
``Trusted Care, Anywhere.'' The joint and coalition medical teams bring 
wounded warriors from the battlefield to an operating room within an 
unprecedented 20 to 40 minutes! This rapid transfer rate enables medics 
to achieve a less than 10 percent died-of-wounds rate, the best 
survival rate ever seen in war.
    In late July, a British soldier sustained multiple gunshot wounds 
in Afghanistan. After being stabilized by medical teams on the ground, 
who replaced his blood supply more than 10 times, doctors determined 
the patient had to be moved to higher levels of care in Germany. It 
took two airplanes to get the medical team and equipment in place, 
another aircraft to fly the patient to Germany, three aircrews and many 
more personnel coordinating on the ground to get this patient to the 
next level of care. Every member of the joint casualty care and 
aeromedical evacuation teams selflessly gave their all to ensure this 
soldier received the compassionate care he deserved. After landing 
safely at Ramstein Air Base in Germany, the soldier was flown to 
further medical care at a university hospital by helicopter. This case 
highlights the dedication and compassion our personnel deliver in the 
complex but seamless care continuum. This tremendous effort contributes 
to our unprecedented survival rate.
    As evidenced in this story, our aeromedical evacuation system (AE) 
and critical care air transport teams are world-class. We mobilize 
specially trained flight crews and medical teams on a moment's notice 
to transport the most critical patients across oceans. Since November 
2001, we have transported more than 70,000 patients from Afghanistan 
and Iraq.
    We are proud of our accomplishments to date, but strive for further 
innovation. As a result of battlefield lessons learned, we have 
recently implemented a device to improve spinal immobilization for AE 
patients that maximizes patient comfort and reduces skin pressure. We 
are working toward an improved detection mechanism for compartment 
syndrome in trauma patients. The early detection and prevention of 
excess compartment pressure could eliminate irreversible tissue damage 
for patients. In February 2010, a joint Air Force and Army team will 
begin testing equipment packages designed to improve ventilation, 
oxygen, fluid resuscitation, physiological monitoring, hemodynamic 
monitoring and intervention in critical care air transport.
             information management/information technology
    Our Theater Medical Information Program Air Force (TMIP AF) is a 
software suite that automates and integrates clinical care 
documentation, medical supplies, equipment, and patient movement. It 
provides the unique capabilities for in-transit visibility and 
consolidated medical information to improve command and control and 
allow better preventive surveillance at all Air Force deployed 
locations. This is a historic first for the TMIP AF program.
    Critical information is gathered on every patient, then entered 
into the Air Force Medical Service (AFMS) deployed system. Within 24 
hours, records are moved and safely stored at secure consolidated 
databases in the United States. During the first part of 2010, TMIP AF 
will be utilized in Aeromedical Evacuation and Air Force Special 
Operations areas.
           expeditionary medicine and humanitarian assistance
    We have also creatively developed our Humanitarian Assistance Rapid 
Response Team (HARRT), a Pacific Command (PACOM) initiative, to 
integrate expeditionary medical systems and support functions. The 
HARRT provides the PACOM Commander with a rapid response package that 
can deploy in less than 24 hours, requires only two C-17s for transport 
and can be fully operational within hours of arrival at the disaster 
site. This unique capability augments host nation efforts during the 
initial stages of rescue/recovery, thus saving lives, reducing 
suffering, and preventing the spread of disease. So far, HARRT 
successfully deployed on two occasions in the Pacific. Efforts are 
underway to incorporate this humanitarian assistance and disaster 
relief response capability into all AFMS Expeditionary Medical System 
(EMEDS) assets.
    Air Force medics contribute significant support to the treatment 
and evacuation of Haiti earthquake victims. The Air Force Special 
Operations Command sent 47 medics to support Air Force Special 
Operations Command troops on the ground within 12 hours following the 
disaster to perform site assessments, establish preventive public 
health measures, and deliver lifesaving trauma care to include surgical 
and critical care support. This team was also instrumental in working 
with Southern Command and Transportation Command to establish a patient 
movement bridge evacuating individuals from Haiti via air transport.
    As part of the U.S. Air Force's total force effort, we sent our 
EMEDS platform into Haiti and rapidly established a 10-bed hospital to 
link the hospital ship to ground operations. The new EMEDS includes 
capabilities for pediatrics, OB/GYN and mental health. Personnel from 
five Air Force medical treatment facilities are supporting Operation 
Unified Response, as well as volunteers from the Air Reserve Forces.
 build patient-centered care and focus on prevention to optimize health
    We are committed to achieving the same high level of trust with our 
patients at home through our medical home concept. Medical home 
includes initiatives to personalize care, and to improve health and 
resilience. We are also working hard to optimize our operations, reduce 
costs and improve patient access. We partner with our Federal and 
civilian colleagues to continuously improve care to all our 
beneficiaries.
Family Health Initiative
    To achieve better health outcomes for our patients, we implemented 
the Family Health Initiative (FHI). FHI mirrors the American Academy of 
Family Physicians' ``Patient Centered Medical Home'' concept and is 
built on the team-approach for effective care delivery. The partnership 
between our patients and their health care teams is critical to create 
better health and better care via improved continuity, and reduce per 
capita cost.
    Our providers are given full clinical oversight of their care teams 
and are expected to practice to the full scope of their training. We 
believe the results will be high quality care and improved professional 
satisfaction. Two of our pilot sites, Edwards Air Force Base (AFB), CA, 
and Ellsworth AFB, SD, have dramatically improved their national 
standings in continuity, quality, access to care, and patient 
satisfaction. Eleven other bases are implementing Medical Home, with an 
additional 20 bases scheduled to come on-line in 2010.
    We are particularly encouraged by the results of our patient 
continuity data in Medical Home. Previous metrics showed our patients 
only saw their assigned provider approximately 50 percent of the time. 
At Edwards and Ellsworth AFBs, provider continuity is now in the 80-90 
percent range.
    We still have work to do, such as developing improved decision 
support tools, case management support, and improved training. 
Implementing change of this size and scope requires broad commitment. 
The Air Force Medical Service has the commitment and is confident that 
by focusing on patient-centered care through Medical Home, we will 
deliver exceptional care in the years ahead.
    The Military Health System's Quadruple Aim of medical readiness, 
population health, experience of care and per capita cost serves us 
well. Patient safety remains central to everything we do. By focusing 
on lessons learned and sharing information, we continually strive to 
enhance the safety and quality of our care. We share our clinical 
lessons learned with the Department of Defense (DOD) Patient Safety 
Center and sister Services. We integrate clinical scenarios and lessons 
learned into our simulation training. We securely share de-identified 
patient safety information across the Services through DOD's web-based 
Patient Safety Learning Center to continuously improve safety.
Improving Resilience and Safeguarding the Mental Health of Our Airmen
    Trusted care for our beneficiaries includes improving resilience 
and safeguarding their mental health and well-being. We are engaged in 
several initiatives to optimize mental health access and support.
    Air Force post-deployment health assessment and post-deployment 
health re-assessment data indicates a relatively low level of self-
reported stress. However, about 20-30 percent of servicemembers 
returning from Operation Iraqi Freedom/Operation Enduring Freedom 
deployments report some form of psychological distress. The number of 
personnel referred for further evaluation or treatment has increased 
from 25 percent to 50 percent over the past 4 years, possibly 
reflecting success in reducing stigma of seeking mental health support. 
We have identified our high-risk groups and can now provide targeted 
intervention and training.
    We recently unveiled ``Defenders Edge,'' which is tailored to 
security forces airmen who are deploying to the most hostile 
environments. This training is intended to improve airmen mental 
resiliency to combat-related stressors. Unlike conventional techniques, 
which adopt a one-on-one approach focusing on emotional vulnerability, 
``DEFED'' brings the mental health professional into the group 
environment, assimilating them into the security forces culture as 
skills are taught.
    Airmen who are at higher risk for post traumatic stress are closely 
screened and monitored for psychological concerns post-deployment. If 
treatment is required, these individuals receive referrals to the 
appropriate providers. In addition to standard treatment protocols for 
post-traumatic stress disorder (PTSD), Air Force mental health 
professionals are capitalizing on state-of-the-art treatment options 
using Virtual Reality. The use of a computer-generated virtual Iraq in 
combination with goggles, headphones, and a scent machine allow 
servicemembers to receive enhanced prolonged exposure therapy in a safe 
setting. In January 2009, 32 Air Force Medical Service therapists 
received Tri-Service training in collaboration with the Defense Center 
of Excellence at Madigan Army Medical Center. The system was deployed 
to eight Air Force sites in February 2009 and is assisting 
servicemembers in the treatment of PTSD.
    Future applications of technology employing avatars and virtual 
worlds may have multiple applications. Servicemember and family 
resiliency will be enhanced by providing pre- and post-deployment 
education; new parent support programs may offer virtual parent 
training; and family advocacy and addiction treatment programs may 
provide anger management, social skills training, and emotional and 
behavioral regulation.
Rebuilding Our Capabilities by Recapturing Care and Reducing Costs
    Our patients appropriately expect AFMS facilities and equipment 
will be state-of-the art and our medical teams clinically current. They 
trust we will give them the best care possible. We are upgrading our 
medical facilities and rebuilding our capabilities to give patients 
more choice and increase provider satisfaction with a more complex case 
load. In our larger facilities, we launched the Surgical Optimization 
Initiative, which includes process improvement evaluations to improve 
operating room efficiency, enhance surgical teamwork, and eliminate 
waste and redundancy. This initiative resulted in a 30 percent increase 
in operative cases at Elmendorf AFB, AK, and 118 percent increase in 
neurosurgery at Travis AFB, CA.
    We are engaged in an extensive modernization of Wright-Patterson 
Air Force Base Medical Center in Ohio with particular focus on surgical 
care and mental health services. We are continuing investment in a 
state-of-the-art new medical campus for SAMMC at Lackland AFB, TX. Our 
ambulatory care center at Andrews AFB, MD, will provide a key 
capability for the delivery of world-class health care in the National 
Capital Region's multi-service market.
    By increasing volume, complexity and diversity of care provided in 
Air Force hospitals, we make more care available to our patients; and 
we provide our clinicians with a robust clinical practice to ensure 
they are prepared for deployed operations, humanitarian assistance, and 
disaster response.
Partnering With Our Private Sector and Federal Partners
    Now more than ever, collaboration and cooperation with our private 
sector and Federal partners is key to maximizing resources, leveraging 
capabilities and sustaining clinical currency. Initiatives to build 
strong academic partnerships with St. Louis University, Wright State 
University (Ohio); University of Maryland; University of Mississippi; 
University of Nebraska-Lincoln; University of California-Davis and 
University of Texas-San Antonio, among others, bolster research and 
training platforms and ultimately, ensures a pipeline of current, 
deployable medics to sustain Air Force medicine.
    Our long history of collaborating with the Veterans Administration 
(VA) also enhances clinical currency for our providers, saves valuable 
resources, and provides a more seamless transition for our airmen as 
they move from active duty to veteran status. The Air Force currently 
has five joint ventures with the VA, including the most recent at 
Keesler AFB, MS. Additional efforts are underway for Buckley AFB, CO, 
to share space with the Denver VA Medical Center, which is now under 
construction.
    The new joint Department of Defense-Veterans Affairs disability 
evaluation system pilot started at Malcolm Grow Medical Center at 
Andrews AFB, MD in November 2007. It was expanded to include Elmendorf 
AFB, AK; Travis AFB, CA and Vance AFB, OK; and MacDill AFB, FL, in May 
2009. Lessons learned are streamlining and expediting disability 
recovery and processing, and creating improved treatment, evaluation 
and delivery of compensation and benefits. The introduction of a single 
comprehensive medical examination and single-sourced disability rating 
was instrumental to improving the process and increasing the 
transparency. Services now allow members to see proposed VA disability 
ratings before separation.
    We continue to work toward advances in the interoperability of the 
electronic health record. Recent updates allow near real-time data 
sharing between DOD and Veterans Affairs providers. Malcolm Grow 
Medical Center, Wright-Patterson Medical Center, and David Grant 
Medical Center are now using this technology, with 12 additional Air 
Force military treatment facilities slated to come online. New system 
updates will enhance capabilities to share images, assessment reports, 
and data. All updates are geared toward producing a virtual lifetime 
electronic record and a nationwide health information network.
                      year of the air force family
    This is the ``Year of the Air Force Family,'' and we are working 
hand in hand with Air Force personnel and force management to ensure 
our Exceptional Family Member Program beneficiaries receive the 
assistance they need.
    In September 2009, the Air Force sponsored an Autism Summit where 
educational, medical, and community support personnel discussed 
challenges and best practices. In December 2009, the Air Force Medical 
Service provided all Air Force treatment facilities with an autism tool 
kit. The kit provided educational information to providers on diagnosis 
and treatment. Also, Wright-Patterson AFB, OH is partnering with 
Children's Hospital of Ohio in a research project to develop a 
comprehensive registry for autism spectrum disorders, behavioral 
therapies, and gene mapping.
    The Air Force actively collaborates with sister Services and the 
Defense Center of Excellence for Psychological Health and Traumatic 
Brain injury to offer a variety of programs and services to meet the 
needs of children of wounded warriors. One recent initiative was the 
``Family Connections'' website with Sesame Street-themed resources to 
help children cope with deployments and injured parents. In addition, 
DOD-funded websites, such as afterdeployment.org, providing specific 
information and guidance for parents/caregivers to understand and help 
kids deal with issues related to deployment and its aftermath.
    Parents and caregivers also consult with their child's primary care 
manager, who can help identify issues and refer the child for care when 
necessary. Other resources available to families include counseling 
through Military OneSource, Airman and Family Readiness Centers, 
Chaplains, and Military Family Life Consultants--all of whom may refer 
the family to seek more formal mental health treatment through 
consultation with their primary care manager or by contacting a TRICARE 
mental health provider directly.
       investing in our people: education, training, and research
Increased Focus on Recruiting and Retention Initiatives
    To gain and hold the trust of our patients, we must have highly 
trained, current, and qualified providers. To attract those high 
quality providers in the future, we have numerous efforts underway to 
improve recruiting and retention.
    We've changed our marketing efforts to better target recruits, such 
as providing Corps-specific DVDs to recruiters. The Health Profession 
Scholarship Program remains vital to attracting doctors and dentists, 
accounting for 75 percent of these two Corps' accessions. The Air Force 
International Health Specialist program is another successful program, 
providing Air Force Medical Service personnel with opportunities to 
leverage their foreign language and cultural knowledge to effectively 
execute and lead global health engagements, each designed to build 
international partnerships and sustainable capacity.
    The Nursing Enlisted Commissioning Program (NECP) is a terrific 
opportunity for airmen. Several airmen have been accepted to the NECP, 
completed degrees, and have been commissioned as Second Lieutenant 
within a year. To quote a recent graduate, 2nd Lt. April C. Barr, ``The 
NECP was an excellent way for me to finish my degree and gave me an 
opportunity to fulfill a goal I set as a young airman . . . to be 
commissioned as an Air Force nurse.''
    For our enlisted personnel, targeted Selective Reenlistment 
Bonuses, combined with continued emphasis on quality of life, generous 
benefits, and job satisfaction have positively impacted enlisted 
recruiting and retention efforts.
Increasing Synergy to Strengthen GME and Officer/Enlisted Training
    We foster excellence in clinical, operational, joint and coalition 
partner roles for all Air Force Medical Service personnel. We are 
increasing opportunities for advanced education in general dentistry 
and establishing more formalized, tiered approaches to Medical Corps 
faculty development. Senior officer and enlisted efforts in the 
National Capital Region and the San Antonio Military Medical Center are 
fostering Tri-Service collaboration, enlightening the Services to each 
others' capabilities and qualifications, and establishing opportunities 
to develop and hone readiness skills.
    The Medical Education and Training Campus (METC) at Fort Sam 
Houston, TX, will have a monumental impact on the Department of Defense 
and all Military Services. We anticipate a smooth transition with our 
moves completed by summer 2011. METC will train future enlisted medics 
to take care of our servicemembers and their families and will 
establish San Antonio as a medical training center of excellence.
    Our Centers for the Sustainment of Trauma and Readiness Skills at 
St. Louis University, University of Maryland-Baltimore Shock Trauma and 
University of Cincinnati College of Medicine remain important and 
evolving training platforms for our doctors, nurses and medical 
technicians preparing to deploy. We recently expanded our St. Louis 
University training program to include pediatric trauma. Tragically, 
this training became necessary, as our deployed medics treat hundreds 
of children due to war-related violence.
    Partnerships with the University Hospital Cincinnati and 
Scottsdale, AZ, trauma hospitals allow the Air Force's nurse transition 
programs to provide newly graduated registered nurses 11 weeks of 
rotations in emergency care, cardiovascular intensive care, burn unit, 
endoscopy, same-day surgery, and respiratory therapy. These advanced 
clinical and deployment readiness skills prepare them for success in 
Air Force hospitals and deployed medical facilities, vital to the care 
of our patients and joint warfighters.
Setting Clear Research Requirements and Integrating Technology
    Trusted care is not static. To sustain this trust, we must remain 
agile and adaptive, seeking innovative solutions to shape our future. 
Our ongoing research in procedures, technology, and equipment will 
ensure our patients and warfighters always benefit from the latest 
medical technologies and clinical advancements.
    Air Force Medical Service vascular surgeons, Lieutenant Colonels 
Todd Rasmussen and William ``Darrin'' Clouse, have completed 17 
research papers since 2005 and edited the vascular surgery handbook. On 
January 10, 2009 a U.S. Marine sustained bilateral posterior knee 
dislocations with subsequent loss of blood flow to his lower legs 
following an improvised explosive device attack in the Helmand 
Province. Casualty evacuation delivered the marine to our British 
partners at Camp Bastion, a level II surgical unit within an hour. At 
Bastion, British surgeons applied knowledge gained from combat casualty 
care research and restored blood flow to both legs using temporary 
vascular shunts. Medical evacuation then delivered the casualty to the 
455th Expeditionary Medical Group at Bagram. Upon arrival, our surgeons 
at Bagram performed definitive vascular reconstruction and protected 
the fragile soft tissue with negative pressure wound therapy. The 
Marine is currently recovering at the National Military Medical Center 
in Bethesda and is expected to have functional limbs.
    In another example, a 21-year-old airman underwent a rare 
pancreatic autotransplantation surgery at Walter Reed Army Medical 
Center (WRAMC) to salvage his body's ability to produce insulin. The 
airman was shot in the back three times by an insurgent at a remote 
outpost in Afghanistan. The patient underwent two procedures in 
Afghanistan to stop the bleeding, was flown to Germany, then to WRAMC. 
Army surgeons consulted with University of Miami's Miller School of 
Medicine researchers on transplantation experiments. The surgeons 
decided to attempt a rare autotransplantation surgery to save the 
remaining pancreas cells. WRAMC Surgeons removed his remaining pancreas 
cells and flew them over 1,000 miles to the University of Miami Miller 
School of Medicine. The University of Miami team worked through the 
night to isolate and preserve the islet cells. The cells were flown 
back to WRAMC the next day and successfully implanted in the patient. 
The surgery was a miraculous success, as the cells are producing 
insulin.
    These two cases best illustrate the outcome of our collaborations, 
culture of research, international teamwork, innovation, and 
excellence.
Shaping the Future Today Through Partnerships and Training
    Under a new partnership with the University of Illinois at Chicago, 
we are researching directed energy force protection, which focuses on 
detection, diagnosis and treatment of directed energy devices. We are 
exploring the discovery of biomarkers related to laser eye injuries, 
development of films for laser eye protection and the development of a 
``tricorder'' prototype capable of laser detection and biomarker 
assessment. Additional efforts focus on the use and safety of laser 
scalpels and the development of a hand-held battery operated laser tool 
to treat wounds on the battlefield.
    We continue our 7-year partnership with the University of 
Pittsburgh Medical Center to develop Type II diabetes prevention and 
treatment programs for rural and Air Force communities. Successful 
program efforts in the San Antonio area include the establishment of a 
Diabetes Center of Excellence, ``Diabetes Day'' outreach specialty 
care, and efforts to establish a National Diabetes Model for diabetic 
care.
    Another partnership, with the University of Maryland Medical Center 
and the Center for the Sustainment of Trauma and Readiness Skills (C-
STARS) in Baltimore is developing advanced training for Air Force 
trauma teams. The project goal is to develop a multi-patient trauma 
simulation capability using high fidelity trauma simulators to 
challenge trauma teams in rapid assessment, task management, and 
critical skills necessary for the survival of our wounded warriors. A 
debriefing model is being developed to assist with after action reviews 
for trauma team members.
    Radiofrequency technology is contributing to medical process 
improvements at Keesler AFB, MS. Currently, Keesler AFB is analyzing 
the use of automatic identification and data capture (AIDC) in AFMS 
business processes. The AIDC evaluation focuses on four main areas: 
patient tracking, medication administration, specimen tracking, and 
asset management. Further system evaluation and data collection is 
ongoing in 2010 with an expansion of AIDC use in tracking automated 
data processing equipment.
                               conclusion
    As a unique health system, we are committed to success across the 
spectrum of military operations through rapid deployability and 
patient-centered care. We are partnering for better outcomes and 
increasing clinical capacity. We are strengthening our education and 
training platforms through partnerships and scanning the environment 
for new research and development opportunities to keep Air Force 
medicine on the cutting edge.
    We will enhance our facilities and the quality of health care to 
ensure health and wellness of all entrusted to our care. We do all this 
with a focus on patient safety and sound fiscal stewardship. We could 
not achieve our goals of better readiness, better health, better care 
and reduced cost without your support, and so again, I thank you.
    In closing, I share a quote from our Air Force Chief of Staff, Gen. 
Norton A. Schwartz, who said, ``I see evidence every day the Medical 
Service is ``All In,'' faithfully executing its mission in the heat of 
the fight, in direct support of the warfighter, and of families back 
home as well.'' I know you would agree that ``All in'' is the right 
place to be.

    Senator Webb. Thank you, General Green.
    Admiral Jeffries, welcome.

STATEMENT OF RADM RICHARD R. JEFFRIES, USN, MEDICAL OFFICER OF 
                     THE U.S. MARINE CORPS

    Admiral Jeffries. Chairman Webb, Senator Graham, 
distinguished members of the subcommittee, good morning.
    I'm honored to be with you, the Senate Armed Services 
Personnel Subcommittee, today to discuss the state of Navy 
Medicine as it pertains to the health services support to the 
U.S. Marine Corps.
    I want to thank the committee members for your unwavering 
support of Navy Medicine and the U.S. Marine Corps, 
particularly as it relates to our healthcare advances and 
continuum of quality care for marines and sailors. Our warriors 
who go into harm's way for this great Nation, their families, 
and those who have gone before in service to our country 
deserve the very best in care and support that we can provide.
    Marine Medicine is all about a special bond--the one of 
complete trust between a marine and a doctor. They know that 
all will be given, each for the other, when the Nation's 
mission calls for their total commitment and potential 
sacrifice to the defense of our country. Corpsmen up with 
lifesaving skills, and yet, the potential risk of injury or 
death is just as real today as it was over 50 years ago.
    Navy Medicine is a dedicated, fully integrated worldwide 
healthcare system meeting the needs of our marines and sailors, 
their families, retirees, and, at times, those whose fortunes 
are beset with a disaster. We specialize in health, prevention, 
and readiness, and, when called upon, casualty and humanitarian 
lifesaving care to all we touch.
    Marine Medicine lives first and foremost at the point of 
injury, but is founded in primary care, prevention, wellness, 
and resilience, skills that are the hallmark of readiness. When 
called upon to deploy, they are ready to provide the best in 
damage control, resuscitation, and stabilization, with 
evacuation to a higher level of care anywhere, anytime.
    The numbers speak for themselves, even now, in Afghanistan. 
In the toughest battle, with single-digit percentages in 
ultimate sacrifices, astonishing mass transfusion, lives saved, 
and the lowest disease/nonbattle injury levels in history.
    Yes, we continue to research and advance the latest in tip-
of-the-spear advances in healthcare. We focus on equipment, 
like tourniquets and blood-clotting combat gauze, techniques in 
traumatic combat casualty care, and forward-resuscitate 
surgical and nonsurgical care, and the skills of embedded 
resilient and post-traumatic stress teams, plus early treatment 
protocols for mild TBI.
    Last year, the Commandant of the Marine Corps directed 
immediate development and fielding of the Mobile Trauma Bay, 
mini emergency rooms in protected vehicles from lessons learned 
in the field, and by the end of the year, several prototypes 
were already deployed to Afghanistan, where they're saving 
lives and mitigating injuries at the tip-of-the-spear today.
    We continue to push for solutions to some of medicine's 
toughest challenges. We are fully engaged partners with our 
``sister scissors,'' the VA, and civilian experts, to advance 
research rapidly and PTSD treatment, casualty care, recovery, 
and rehabilitation for the return of our wounded warriors.
    Collaboration with new innovative research consortia, like 
under the Armed Forces Institute for Regenerative Medicine, 
AFIRM, and early transitional enablers, like the DOD's Office 
for Technological Transition, that can quickly navigate through 
our complex bureaucratic systems and policies, can and are 
making a difference to those in the front lines, getting the 
latest advancements in medicine quickly to our providers and 
casualties.
    As we all know now, today's irregular warfare in this 
complex, protracted war is adversely affecting our forces in 
many devastating ways. Most blast injuries and horrors 
witnessed on the battlefield are putting astonishing stresses 
on our warriors--mentally, emotionally, physically, and 
spiritually. We are seeing severe amputations, burns, traumatic 
stresses, and brain injuries on an unbelievable scale.
    Our greatness in saving lives has a significant cost in the 
degree of injury and loss our warriors have suffered. Navy/
Marine Corps Medicine has been a leader in changing the way our 
military engages the mental health challenges of this war with 
providers embedded in front-line units under the Marine Corps 
Operational Stress Control and Readiness Program begun at the 
beginning of the war. The three Marine Expeditionary Force 
commanders demanded a Total Force Combat Operational Stress 
Control Program to combat stigma, mitigate suicides, and 
properly address stress. A Total Marine Corps Family Response 
has been initiated. Last year, Total Force trained suicide 
prevention with video vignettes, group discussions, 
identification and referral tools, took place in a new Marine 
Corps program involving a total team engaged leadership concept 
with OSCAR Extenders is being instituted.
    The 1st Marine Expeditionary Force (1MEF) ground combat 
units going to Afghanistan with this current surge will have 
trained OSCAR Extender peer and senior mentors, besides primary 
care mental health embed specialists. With this patient-
centered Marine and Navy Medicine team effort, stigma will be 
further challenged, and seeking and receiving help will become 
a normal part of the ever-improving Marine culture. For TBI, 
the Assistant Commandant of the Marine Corps and the current 
Marine Expeditionary Brigade commander in Afghanistan have led 
the advancement of a revolutionary concept in prevention and 
care. They have a ``three strikes and you're out'' policy. You 
will stay inside the wire if you've had three major concussions 
until you get a comprehensive health evaluation.
    Plans have been developed for an event-driven reporting, 
all-involved identification, medical evaluation and recovery 
timeout program to enhance early identification care of TBI, 
protecting our warriors with care of TBI, protecting our 
warriors at the front, and decreasing long-term sequelae.
    1MEF Forward will also be piloting a new restoration center 
concept for earlier recovery, rehabilitation, and care at the 
forward operating bases later this year.
    Many challenges remain. One concern has been the high 
demand on many of our healthcare provider areas. The Surgeons 
General have identified shortfalls in key specialties and 
supporters that could adversely affect our abilities to care 
and support our forces. More demands will come as we improve 
TBI restorative care, enhance en route casualty care, expand 
OSCAR Extender, add Medical Home Patient-Centered Care 
initiatives, and initiate other discovered advances in 
healthcare.
    Marine Corps is working closely with Navy Medicine and 
Health Affairs to address current and future needs. In the end, 
that special bond between marine and doctors propels us to do 
our very best for our warriors.
    On behalf of the men and women of Navy Medicine working 
inside the U.S. Marine Corps, I want to thank the committee for 
your exceptional leadership, help, and support. We appreciate 
your continuing confidence in our abilities to meet mission and 
to show you how we continue to address and succeed in meeting 
the healthcare needs of our marines and sailors.
    I look forward to your questions, sir.
    Senator Webb. Thank you very much, Admiral.
    I appreciate all of the testimony this morning.
    I assume we're going to continue.
    Senator Graham. Yes, Mr. Chairman. I'll take responsibility 
for not informing our leadership about this hearing. 
[Laughter.]
    So, they obviously are letting a TSA nomination go forward, 
and I'm sure every member of the Senate would like to continue 
this hearing. If I need to--because the rules do matter--I'll 
be glad to go over to the floor, take 5 minutes, and make a 
unanimous consent request to continue the hearing, if that's 
necessary. But, I'm very much committed to allowing you to stay 
here to answer questions because there are a lot of things 
hanging in the air----
    Senator Webb. I appreciate that very much.
    Senator Graham.--and I want to know the outcome of where 
are folks at? What do we need to do here?
    Senator Webb. We'll assume we're fine, unless told 
otherwise.
    Senator Graham. Sure.
    Senator Webb. I will start with a question, and then, I 
suppose, among the three of us, we can rotate through 
questions.
    Senator Graham. Sure.
    Senator Webb. I would like to get into this data that I 
mentioned in my opening statement, with respect to prescription 
drug use. Let me review what I said in my statement.
    From a recent Military Times article, ``One-in-six 
servicemembers is on some form of psychiatric drug.'' That's a 
quote, ``17 percent of the Active-Duty Force, and as much as 6 
percent of deployed troops, are on antidepressants.'' That's a 
quote. ``The use of psychiatric medications has increased about 
76 percent overall since the start of the current wars.''
    Now, I have some other data here. I'm going to ask 
unanimous consent to put this chart into the record at this 
point, as well.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Webb. I have data here from DOD that goes from 2001 
to 2009, in terms of a breakdown of different prescription drug 
uses. I'm going to start with 2002, just to put this in front 
of the panel.
    I want to lay this out, because we all know that we have to 
be careful with statistics. I'm not going to make a judgment 
based simply on these statistics. There are a number of 
potential answers to this. I don't want to answer them. I want 
to hear the answers of the panel. One is, in terms of these 
numbers in the charts, maybe there is a larger pool of people 
who are receiving prescriptions. I don't know. Maybe there is a 
different approach that's being used in medicine over the last 
8 years, in terms of people with difficulties, or maybe this is 
the stress of the force. But, if you go from 2002 to 2009, 
barbituate usage--or prescriptions increased from 7,600 to 
almost 27,000; that's three and a half times. Muscle relaxers 
increased from 139,000 to 312,000; that's two and a half times. 
Pain relievers, from 2 million to 3.8 million, that's almost 
twice. Tranquilizers, from 131,000 to 517,000, which is about 
four times. On its face, it's pretty astounding and also very 
troubling.
    Dr. Rice, I would like your thoughts on what this means.
    Dr. Rice. Yes, sir. Thank you, Mr. Chairman.
    First, let me echo your concern about the statistics. Most 
of the data here come from the Pharmacy Data Transaction 
Service (PDTS) that the TMA runs. This is a claims tracking 
system. Up until April 2007, the PDTS, the tracking system, did 
not lock the beneficiary's status in time. So, the last time a 
transaction was recorded reflected whatever the servicemember's 
status was at that time. So, you could have somebody who was 
taking an antidepressant in 2005, got another one in 2007. In 
2005, we would not have known that he was Active Duty. So, the 
underlying denominator here that leads to the substantial 
increase that you talked about results from a problem that we 
had with the way we were tracking the data and not locking it 
down.
    The second point I would make is, I think it's important to 
keep in mind that the men and women of our military are drawn 
from the population of the United States, and the use of 
psychotropic medications in the Nation as a whole has 
increased. It's difficult to turn on the television without 
becoming convinced that you're bipolar or have some other 
problem for which there is a drug ready made for you.
    With respect to pain medications, we have placed great 
emphasis on dealing with pain. The Joint Commission for the 
Accreditation of Healthcare Organizations has had a substantial 
effort, in the last several years, to make sure that we 
recognize pain among our patients, and that we treat it 
appropriately.
    I think there are a number of factors that enter into this 
apparent increase in usage that we're seeing.
    But, I would defer to my colleagues for their particular 
perspectives on this issue, as well.
    Senator Webb. When you say ``apparent,'' you mean apparent 
from the data or that the data really isn't speaking correctly 
to reality?
    Dr. Rice. No, there's no question that there is substantial 
usage. What I'm referring to is that we don't know how many of 
the people who were getting the drug in 2005 were actually on 
Active Duty. So, the denominator may be a problem, since we 
didn't lock down their status at that time, but used the last 
time they were in the system to reflect what their status was 
at any previous time.
    Senator Webb. Are these numbers reflective of Active Duty 
use in the later years? They are not?
    General, I see your shaking your head.
    General Schoomaker.
    General Schoomaker. No, sir. I think, as Dr. Rice was 
pointing out, until the last 2 years or so, the last entry that 
the soldier--in our case, soldier--would have been--say, a 
retiree--would have characterized everything we had in the 
database before that. So, it was artificially lower than the 
actual use in 2001.
    Senator Webb. Which was artificially lower?
    General Schoomaker. The use of drugs.
    Senator Webb. The use of drugs----
    General Schoomaker. If a soldier is on----
    Senator Webb.--among Active Duty----
    General Schoomaker. Yes, sir.
    Senator Webb.--in the data? That's what----
    General Schoomaker. If a soldier was on Active Duty----
    Senator Webb. Right.
    General Schoomaker.--in 2001, and was on ongoing sleep 
medicines or using a SSRI for depression or something, or for 
pain relief, and then retired in a retirement physical or 
retirement setting, in a clinical setting, got turned into a 
retiree, that was then used to characterize all of the record 
before then. So, everything attributed to his or her Active 
Duty time would have disappeared from the Active Duty roster. 
So, it appeared much lower in use in 2001, 2002, 2003 than 
actually was being used by the Active Duty.
    One of the things that you all have discussed here that is 
quite startling is the very marked increase from 2001 to 2009. 
Some of that, as Dr. Rice has explained----
    Senator Webb. What is the year that this adjustment was 
made?
    General Schoomaker. 2006, 2007.
    Dr. Rice. It was locked in April 2007.
    Senator Webb. April 2007?
    Dr. Rice. Yes, sir.
    General Schoomaker. So, we're looking at trends from 2007 
and beyond as being much more accurately reflecting the trends 
in use. There's no question, sir, as Dr. Rice has said, we're 
all concerned about the amount of use of drugs and the stress 
on the force that this reflects. But, the increase is not quite 
as marked as the data would suggest there.
    Senator Webb. Okay. We will come back to you on this to try 
to get what your view of accurate data is.
    What about the comment that ``1 in 6 servicemembers is on 
some form of psychiatric drug''?
    General Schoomaker. Sir, we have three intersecting sources 
of data--independent, somewhat--that all corroborate roughly 
the same number. The Mental Health Advisory Team 6, which I 
think you referred to, or Senator Cardin referred to, that was 
conducted in 2009--through direct surveys--scientifically 
credible surveys of the force deployed, found that, in Iraq and 
Afghanistan, so between 3 and 6 percent of soldiers were on a 
drug for mental health or stress-related, so between 3 and 6 
percent. At about the same time, or in the last year, we've had 
the release of the DOD Health-Related Behaviors Among Active 
Duty Military Personnel. As I recall, that's a triannual event 
that the Research Triangle Institute conducts for us. That's 
confidential and anonymous, so you get a much better, probably 
confidential, report on all of the Services. They report 8.6 
percent being treated for depression, anxiety, or sleep. So, 
that's a combined----
    Senator Webb. Of the deployed.
    General Schoomaker. No, sir. The total force deployed and 
nondeployed.
    We're looking at 3 to 6 percent of the deployed force. 
Roughly 8 percent of the total force.
    Then, the last thing is this PDTS snapshot of the Army. We 
have, in February of this year--last month--done a snapshot of 
550,000 Active Duty soldiers, deployed and nondeployed, and we 
find there a similar number of about 6 percent.
    I'm looking at the range of between 3 and 6 percent--at 
most, 8 percent--of being on some sort of medication related to 
mental health or stress.
    Now, admittedly, sleep medicines are being used in a 
variety of settings as an adjunct. Sleep medicines, short-term, 
are frequently used for problems of sleep in combat, problems--
--
    Senator Webb. The----
    General Schoomaker.--of sleep at home.
    Senator Webb. Excuse me. The data you're talking about is 
Army data?
    General Schoomaker. Yes, sir. It's Army data. The Mental 
Health Advisory Team 6--the second study I mentioned, the DOD 
Health Related Behaviors Among Active Duty, actually----
    Senator Webb. Right.
    General Schoomaker.--is all Services. The last----
    Senator Webb. The data from Military Times article, again, 
is 1 in 6 servicemembers. They did say 6 percent of those 
deployed.
    General Schoomaker. Yes, sir.
    Senator Webb. That number fairly well comports----
    General Schoomaker. Yes, sir.
    Senator Webb.--with what you're saying. The other number 
seems higher.
    General Schoomaker. I said, for sleep, I think that there's 
a broader group of people using sleep medications. Some of them 
are also on active drugs for stress or mental health. Frankly, 
sir, I probably, myself, appeared in that database, because 
every time I go overseas, I take a prescription for Ambien.
    Senator Webb. Right.
    General Schoomaker. I think many of us do that. It's a 
sleeper that we use transiently, and it's a prescription drug.
    That's a little broader, but I think the implication that 
we have 1 in 6 with a serious mental disorder, I think, is a 
reach.
    Senator Webb. I would like to express my appreciation to 
Senator Graham. The cloakroom is now advised that we are legal 
again in our hearing. [Laughter.]
    We have permission to meet.
    Admiral, you wanted to say something?
    Admiral Robinson. There's one more data source, and that's 
BHNAS, which is the Behavioral Health Needs Assessment Survey, 
which is very similar to the MHAT, which is Army, but the BHNAS 
is done by Navy Medicine. The numbers that General Schoomaker 
gives are approximately correct, we were looking at 2010--we're 
talking about men and women in theater--so, this is in the 
combat zone--with a 3.2 percent mental health psychotropic 
medication usage, and probably about a 20 percent--22 percent, 
actually--of sleeping medication. I think that corroborates, at 
different points, to be about that. That's all that I wanted to 
add.
    Senator Webb. Okay. We will work with you to see if we 
can't scrub this data. I think it's an extremely troubling 
piece of information here.
    Admiral Robinson. The other point, which is off the data, 
but it's to the point, I think. It's not about the data. In the 
attempt, at least in the last 3 years, as my tenure as Surgeon 
General of the Navy, to decrease stigma--we've made a huge 
drive throughout the military--Navy, Army, Marine Corps--we've 
done it independently, but we've been together. We've tried to 
increase, in the Navy, Marine Corps, as an example--and I think 
the Army has done this, too, to a degree--to increase mental 
health professionals forward deployed--and the Air Force has 
done this, also--but, we're trying to--forward-deployed mental 
health experts--psychologists, psychiatrists, social workers, 
psychiatric nurses--those people and also our medics and 
corpsmen, and our primary care providers--who can, in fact, 
intervene in mental illnesses and emotional distress amongst 
our troops, no matter where they may be.
    In concert with that is also the utilization of 
psychotropic medication. But, my point is simply that we're 
really making a huge desire and a huge effort to destigmatize 
mental health issues and their treatment and stop--and taking 
it out of the closet or suppressing it so that it's not coming 
to light, and bringing it to light, so that we can get 
effective treatments.
    Senator Webb. Well said. In that respect, it probably goes 
back to one of the possibilities that I was raising here, and 
that is that this is an indicator of the long-term stress of 
the force and also different medical practices, or more open 
medical practices.
    Admiral Robinson. I think that there is stress on the 
force. But, I also think that there is an acknowledgment by 
medical professionals--by medicine and the Services that mental 
illnesses exist and have to be treated. We have, for a long 
time, as a society----
    Senator Webb. I agree. That's the second point that I was 
making, in terms of medical practice. So, I don't want to 
dominate all the time here.
    Admiral Robinson. Yes, sir.
    Senator Webb. I appreciate your answers.
    Senator Graham, do you want to----
    Senator Graham. Thank you, Mr. Chairman.
    I think the numbers you brought up are very important, 
because I think most Americans want to make sure that our men 
and women are functioning as well as possible and getting the 
help they need. I know we have a shortage of mental health 
professionals in the military, and we're trying to address 
that.
    But, it goes back to this--being away from your home in a 
combat arena is a stressful environment that--if you're not 
depressed at some times, you're not normal. It's just a 
depressing situation to have to be away from your home.
    What Senator Webb indicates is very important. We want to 
make sure that we're tracking the health of the force. So, if 
each Service could provide us a breakdown of the percentage of 
the force, in theater and outside the theater, that's on 
psychotropic drugs, and break that out, versus sleep aids, 
because--I'm supposed to do my Reserve duty next week, 
overseas, and I've already ordered some Ambien. So, I feel 
guilty already. I'm spiking up the numbers. [Laughter.]
    Senator Webb. Messing up the database. [Laughter.]
    Senator Graham. Yes. The database.
    I just literally ordered it from the Navy physician.
    Senator Webb. Actually, if I may, if we're going to get a 
breakdown of this, perhaps you could clean up the timeline for 
us.
    Senator Graham. That's a great idea. What are the real 
numbers?--so we can judge apples to apples, and because this is 
anecdotal evidence, quite frankly, of what Senator Webb's been 
concerned about a long time. We have to make sure that we're 
not wearing these folks out beyond their ability to respond to 
the Nation's call. At the same time, you do have this counter-
competing idea that we want to make sure that every member of 
the military gets the treatment they need. There's nothing 
wrong with going to the mental health professionals in your 
unit, or the doctor or the surgeon, and saying, ``Hey, Doc, you 
know, I need a little help here. I've had a bad experience. 
Help me through it.'' That is exactly what we want to have 
happen. So, having that concept validated, that it's okay to do 
this, but, at the same time, understand how widespread these 
problems are, I think, will help us make some intelligent 
decisions.
    If each Service could give us a breakdown in your Service, 
that would be much appreciated.
    Dr. Rice. Yes, sir.
    [The information referred to follows:]

    Utilization of automated systems to record medications dispensed at 
both inpatient and outpatient theater medical facilities was not 
broadly available until 2008. Prior to this period, data retrieval 
required extensive paper reviews.
    To provide a more complete picture, using current electronic 
systems, dispensed psychiatric and sleep aid medications were queried 
starting from 2008, to most current data received. This is not a 
standard report and requires an ad hoc query for the specific drugs. 
Approximately 5 million medical records were searched for these 
specific medications and computer processing was extensive.
    The attached table provides available theater psychotropic/hypnotic 
prescription drug data through June 8, 2010.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Graham. About sustainability, I know we don't have 
all the teams in place yet, but as we look at the budget over 
time, the healthcare portion of the DOD budget is growing 
exponentially. In 2007, I had a meeting with some associations 
representing the retired community in different branches of the 
Services, as well as people who manage TRICARE. We came up with 
a list of a dozen or more things that we could do to make the 
system more efficient. Is anybody aware of that meeting? Is 
there any effort to implement those ideas? Where do we stand 
with the concept, before we ask more money from retirees, in 
terms of premiums increases? What have we done to make the 
system more efficient?
    Dr. Rice. Sir, we constantly strive to find efficiencies in 
the system. The challenges are, as I mentioned, with respect to 
the use of psychotropic drugs, we exist in a system in the 
larger national healthcare context. I know you've been having 
some conversations about that issue recently, so you know 
what's happening on the national scene. I think it was a few 
years ago that Stewart Altman appeared before your committee 
and said that if present trends continued, healthcare costs as 
a fraction of the national economy would continue to grow, but 
he was pretty sure they could not exceed 100 percent of the 
gross domestic product.
    We have more people in the force, we have more 
beneficiaries, we have more people who have been added to the 
beneficiary list. Seventy percent of the costs are incurred 
outside the direct care system, where we have less direct 
ability to control----
    Senator Graham. We haven't had a premium increase in 
TRICARE since, what?
    Admiral Hunter. 1995.
    Dr. Rice. 1995. Right.
    Senator Graham. I want to be generous and fair to all those 
who serve, but there's a cost-containment problem within DOD's 
budget. Before we ask for premium increases, I think we need to 
try to make sure that we're telling the force, ``We've done 
everything we can within reason to make it more efficient and 
to lower the cost, through efficiency, best practices, 
preventive healthcare.''
    Mr. Chairman, I don't see how we can sustain this forever, 
where TRICARE is never subject to adjustment, in terms of the 
premiums to be paid. If we're going to do that, we're going to 
have to come up with a lot more money for DOD, because it's 
going to eat away at readiness and the other things you need to 
run the military.
    What's your view of that, Admiral Hunter and Dr. Rice? What 
do we do, long term?
    Dr. Rice. I think there are a number of efforts that we can 
take to try to reduce--General Schoomaker talked about unwanted 
variation, and that is seen to be a major driver of the 
increase in healthcare costs. I think we have to focus on that. 
We have to focus on improving the quality of care. There's no 
question that better quality care tends to be less expensive 
care. Focusing on things like patient safety, I think, is an 
important dimension.
    We think that the full deployment and wide utilization of 
the Electronic Health Record will be an important aid to us in 
developing that capability. A number of steps we can take.
    Your comment about the TRICARE premium is exactly right; 
there has not been an increase since 1995, while the cost of 
healthcare insurance in the rest of the world has continued to 
rise. I would be happy to work with you on that.
    Let me ask Admiral Hunter if she has anything to add to 
that.
    Admiral Hunter. Yes, Senator, let me add a little bit, in 
terms of what we're doing internally.
    I appreciate all the comments about variation. We've looked 
very carefully, for example, at technology variation and our 
use of technology throughout military medicine, both in direct 
care and private-sector care, so that it's appropriately 
applied. I talked earlier about preventive measures.
    I'd also like to talk a little bit about utilization of 
care. In the last several years, we've seen a dramatic rise in 
our patients using the emergency room or emergency department 
as a site of care. Initially, we were concerned that that meant 
that they didn't have access to care, that they couldn't reach 
their primary care provider or perhaps they didn't have one 
assigned. But, as we looked at the data more carefully, we see 
that the graph is going up in exactly the same way for people 
who are enrolled to private sector--have a stable primary care 
relationship, where the provider isn't deploying or those sorts 
of things, as it is in our direct care systems.
    To address that, we've looked at all of the different 
quadrants of our Quadruple Aim that I talked about. First of 
all, have we maximized the relationship between provider and 
patient? All of the surgeons talked about the Medical Home. 
Second of all, have we made resources available to patients so 
that they know where else they can go if it's after hours? Do 
we reach out? Do you have the right refrigerator magnet, or 
information that says, ``This is the urgent care''? How do we 
help them get to that relationship?
    Our contractors are working with us. Many have even added 
what we call ``convenience clinics,'' the types of clinics that 
are in drug stores and things like that, to some of their 
networks so that we are working to add more and more 
convenient, but lower-cost, after-hours settings of care that 
would be appropriate for the earache, the respiratory 
infection, the sore throat, the backache that really doesn't 
require an emergency room.
    Working with all our partners to get to that effective 
Medical Home, and then measuring and holding accountable for 
continuity on our side, is important.
    In our contracting area, if I may shift, working hard on 
the business processes. General Schoomaker also talked about 
administrative variation. The business processes that bring our 
processes of care--our back office--to be as efficient as it 
can: electronic funds transfer, not manual processes, 
automating payments and claims and all of those things to the 
greatest extent possible, so that the administrative dollars on 
the contracts are minimized. Bringing multiple contracts 
together into single ones. Overseas we've just combined six 
contracts into one, where we'll be getting streamlined 
services. That's better for our patients--they deal with one 
overseas contractor--and better for us, because we get a better 
deal.
    Then the last thing I'd point out is fraud prevention. We 
know that in all major programs we need to be vigilant for 
others that may take advantage of the system, and how that 
might happen. So, we have a program integrity group that works 
carefully with our contractors, with others in the Federal 
Government--Department of Justice, Centers for Medicare and 
Medicard Services--and also with private providers to look for 
trends in claims that may suggest behavior that we need to more 
fully investigate.
    In addition, our explanations of benefits that are mailed 
to patients each time they have a health encounter. We just 
started mailing them, even with pharmacy encounters. Patients 
are great policemen on behalf of the Services. They call us and 
say--just like a credit card bill--``There's something on my 
explanation of benefits''----
    Senator Graham. That's good. That's very good.
    Admiral Hunter.--``that I didn't get and can you look at 
it?''
    Senator Graham. Yes, I think that is a terrific idea, 
because all of us, now, are worried about the cost to the 
country and to--beyond ourselves, which is good, because we all 
bear these costs.
    Mr. Chairman, I don't have any more questions. I'll make 
one brief comment to the Surgeons General and those under your 
command.
    I think one of the unsung heroes of this war are the 
medical personnel on the front lines. As Senator Webb said, 
``the golden hour.'' There are people surviving attacks in this 
war that would never have survived in any other war. I am just 
amazed and just astonished at what's been able to be done in 
theater and at Landstuhl and other places.
    There was a young man--who was a marine, who lost both 
legs. He's had 60-something surgeries. He is now at Harvard Law 
School. He just was medically discharged from the Marine Corps, 
I think, last year. He was a Congressional Fellow with me in my 
office. I think he's a testament of what people under your 
command have done for those who put themselves in harm's way. I 
just want to thank you all for your service.
    Senator Webb. Thank you very much, Senator Graham.
    Also, again, I appreciate your having gone to the floor to 
allow us to be able to continue our hearing.
    Senator Graham. It's very important.
    Senator Webb. Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman.
    I have a couple of followup comments and questions.
    First, with regards to painkillers and pain management and 
so forth, once a patient wants to try to get off of those 
painkillers, what are the services you have available for them? 
Because I do hear complaints that they don't think they're 
adequate, or where they have to go if they've become addicted 
to the painkillers. Could someone elaborate on that?
    General Schoomaker. Yes. Maybe I could take that one, if 
you don't mind.
    Senator Begich. Sure.
    General Schoomaker. Sir, I would say that to follow on a 
lot of what we've been saying up here--one of the nonstandard 
areas of care right now is in pain management.
    Senator Begich. Right.
    General Schoomaker. This is not a problem just for the 
military, it's a problem across the Nation.
    I stood up a task force last year, a Pain Management Task 
Force, to look at practices across the Army, and, frankly, the 
VA has been very active in helping with this. The other 
Services have joined, as well as support from TRICARE 
Management Agency on this. I got the latest in-progress review 
this week. It's going very well, and I expect the formal report 
to be out in the next 2 weeks.
    I'm trained as an internist and a hematologist, and I can 
tell you that caring for acute pain and chronic pain is a 
problem across the country, in terms of how we standardize it, 
how we transition from one phase to the other. We're looking at 
this in a very holistic way, so that we're employing all of the 
tools that we have available.
    Specifically within the Warrior Transition Units of the 
Army, we have a very good, comprehensive program which is 
increasingly more seamless between the inpatient to the 
outpatient and then to life beyond, even being within the 
medical system, and it addresses the issues that you're talking 
about.
    Senator Begich. If I can make sure I understand what you're 
saying, there. Not only is it the pain management program, but 
it's when they get addicted on these painkillers and they want 
to get clean. What do you do for them? I understand you're 
working through it. But, what are the services that are 
available that they can tap into to move from being addicted to 
the painkillers?
    General Schoomaker. All the Services have substance abuse 
programs for those who get addicted to addicting narcotics and 
the like. Quite honestly, sir, most of the problems with 
addictions to narcotics--and I'll go out on a limb on this--are 
attributed to social uses, rather than those associated with 
painkillers for surgical pain and the like.
    Senator Begich. We don't have to debate this much further--
I would ask you to provide me, if you can at some point, some 
of the data that shows that, because what I'm starting to hear 
from are individuals who experienced an incident during their 
deployment, have then been prescribed painkillers and may they 
misuse them or excessive use, now are addicted to them. I just 
want to know--understand that, as you're trying to develop pain 
management, another step to this.
    General Schoomaker. Yes, sir.
    Senator Begich. The step is, some of these are very strong 
prescription drugs that turn into addictive drugs. I want to 
get a better understanding of how you come to that conclusion 
so we are not missing that boat. In other words, may they no 
longer be in the DOD system because they've exited out or 
whatever, but yet, they're addicted, that our relationship with 
them has to continue in some way to make sure we clean them. 
So, that's what I want to understand.
    General Schoomaker. Yes, sir. My comments, quite frankly, 
are driven by the fear that everybody who prescribes pain 
medicines, and every patient who receives them, especially for 
surgical pain----
    Senator Begich. Right.
    General Schoomaker.--and for short-term uses is concerned 
about addiction. We don't want to do anything that drives 
people into having pain and avoiding what's appropriate 
treatment.
    Senator Begich. Excellent.
    One thing I'll mention. I'm going to go to a very Alaskan 
item here. But, you were talking about the emergency room 
increases.
    Admiral Hunter. Yes, Senator.
    Senator Begich. Admiral, thank you--I wasn't here at the 
beginning, but I know you mentioned Alaska, and I appreciate 
that.
    There's a really interesting program that Indian Health 
Services does within Alaska called the ``Nuka model''--N-U-K-A. 
They saw the exact same thing that you were describing. 
Significant increases in emergency room care, even though they 
had clinics----
    Admiral Hunter. Yes.
    Senator Begich.--all around and available in the villages 
and so forth. But, they were seeing spikes in emergency care.
    They created a demonstration project under Indian Health 
Services, and it's managed by South Central Foundation. They 
have reduced their emergency care access by 68 percent in the 
last 2\1/2\ to 3 years, and many other things. They have 
developed a model that--when you were describing the situation 
you were laying out, it was very similar to what they had 
described about 5 to 10 years ago, that they were 
experiencing--and they couldn't understand why, when they were 
building these clinics in their facilities--but they went 
through a whole process, and they saw a huge decrease in the 
last 2 or 3 years, I'd say, at least, maybe longer, on 
emergency entries, which, of course, is a huge savings, when 
you don't have to deal with that process.
    General Schoomaker. Yes, sir, we're seeing this. As we 
stand up the Patient-Centered, Family-Centered Medical Home 
concept across the Services--all of my clinic and hospital 
commanders track emergency room use, and in those places, like 
Fort Benning, where these are standing up--Fort Polk--we see 
emergency room use drop.
    Senator Begich. That's great.
    General Schoomaker. It's a chaotic, episodic kind of care 
that people are tapped into.
    Senator Begich. Right. Emergency care is expensive and, the 
last thing you want.
    General Schoomaker. Yes, sir.
    Senator Begich. Doctor, did you have a comment?
    Dr. Rice. Yes, Senator. One of the things that I think we 
hold out a lot of hope for is--with our Electronic Health 
Record--is providing patients access to their own record 
online. The experience of several healthcare systems has been 
that, as patients are able to go online, find out for 
themselves particular aspects that might influence their care, 
or get answers to questions, their use of the emergency room 
and their seeking appointments with their physicians drops off 
dramatically.
    Senator Begich. Very good.
    Mr. Chairman, I just have two quick, final comments, one 
for Dr. Rice or Admiral Hunter. Again, thank you for mentioning 
Alaska. I know we've had a conversation about this.
    Admiral Hunter. Yes, Senator.
    Senator Begich. In the healthcare reform bill that the 
President signed yesterday, we have within there a task force, 
as we've already started the process of trying to deal with 
healthcare costs in Alaska. It now sets it up formally. I just 
want to see if you have any comment for the record, while we're 
here, on the idea of the task force and how you see that moving 
forward.
    Admiral Hunter. Thank you, Senator. We absolutely 
appreciate your leadership in this area and bringing all the 
parties together. Our TRICARE Regional West Director, Admiral 
Niemyer, was up in Alaska recently and visibly engaged and 
actively engaged all of the Federal health partners in coming 
together around trying to stabilize the rate schedule.
    In addition, we're working to improve what we call the 
``back offices of care'' to make it easier for us to manage the 
relationships with providers and to bring providers on board 
for TRICARE. You will see some changes to the TRICARE manual 
soon that reflect that change. We appreciate the opportunity to 
work with you and your staff in that endeavor.
    Senator Begich. Excellent.
    Then, the last question. I appreciate--you actually 
mentioned it, and that was on the whole issue of the 
reimbursement rate. We have a differential up there because of 
some of the high costs and capacity for certain specialties and 
so forth. Do you have any additional further comment you want 
to make on that? I know we're anxious to make that more 
permanent. I know you're going through a process right now.
    Admiral Hunter. Yes.
    Senator Begich. Can you elaborate a bit on that, at this 
point?
    Admiral Hunter. Yes, Senator. But for the other members, we 
have a demonstration project in progress that allows us to pay 
a little bit more than the standard TRICARE rates up in Alaska, 
because of the difficulty in obtaining care. Primary care is 
obtained in the military medical treatment facilities, and 
specialty care goes out. For some specialties, there is truly a 
provider shortage, and it's difficult to get all the care that 
we need. Air Force has partnered with us, particularly Chief of 
Staff of the Air Force--an interest item for him--and Army--
also Coast Guard--in looking at these issues for, what do we 
need and where do we need it? So, what we did for an interim, 
we extended the demonstration project, and then we put in what 
we call locality-based waivers for certain specialties, where 
we had to go even higher--orthopedics, ENT, rheumatology, where 
some of the specialties for which we have location-specific 
waivers.
    With the other Federal partners, we're looking long-term 
solution to move to a Federal rate schedule, so that we don't 
compete with one another. We hope to at least have some interim 
progress on that this summer, so that we don't have to--we see 
extending the demo as, perhaps, a concern that we aren't 
committed.
    Senator Begich. Right.
    Admiral Hunter. We want to move forward very deliberately 
in this area.
    Thank you.
    Senator Begich. Thank you very much.
    Mr. Chairman, thank you very much.
    Senator Webb. Thank you, Senator Begich.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    I had to rush down here, because the rumor all over the 
Hill is that Webb and Graham have gone rogue. [Laughter.]
    Senator Webb. We're getting it done.
    Senator Graham. We're getting it done, yes.
    Senator McCaskill. Getting it done.
    In fact, if I'd known that this could have happened--I had 
a hearing this afternoon on Afghanistan police training 
contracting in my Contracting Subcommittee--I would have asked 
you guys to come out with me at 2:30 so we could have gotten 
that hearing done.
    Senator Webb. Senator Graham has certain connections.
    Senator McCaskill. Yes. I don't get it. I would have loved 
to have that hearing this afternoon. I'm trying to figure out 
what the point is of not being able to have a hearing this 
afternoon.
    But, I admire you all for forging ahead, in spite of what 
the rules say. I think it's great we're talking about this. I 
think you all know that there are many things that I'm very 
concerned about in this particular portfolio.
    Let me start with stigma about getting help, and how that 
stigma is such a particular problem because of the training and 
the appropriate peer pressure that makes our military so 
successful.
    I know that we're doing a confidentiality study at Fort 
Leonard Wood, on the heels of a scandal there, where we had 
some problems with the substance abuse program. General 
Schoomaker, I'd like to know, do you have anything you can tell 
this committee today about the pilot program to look at a 
program where soldiers can come forward and say, ``I need 
help,'' without it getting reported up the chain of command?
    General Schoomaker. Yes, ma'am. We identified, some time 
ago, that the soldiers would tell us, confidentially, that they 
had problems, say, with alcohol, and yet, would not be formally 
referred, because there was an automatic notification of their 
commanders. So, we started a pilot program in Hawaii and 
Alaska, in Fort Lewis. I know, ma'am, that you're aware of this 
in Fort Leonard Wood. Many other camps, posting stations, have 
signed on to the desire to have the program generalized. We 
call this the Confidential Alcohol Treatment and Education 
Program and what we find is, a much larger group of soldiers is 
now coming forward and getting treatment at an earlier stage, 
before the misconduct has been performed, before there's family 
violence, before they have a DUI or some other problem. The 
other thing that's very, very encouraging is that we're getting 
a spectrum of older soldiers, noncommissioned officers (NCO), 
and officers that are coming forward.
    The interesting part of that is that--and we expected that 
this would happen--a part of any treatment of an alcohol or 
drug problem, but certainly alcohol, is that it's a chronic-
disease model. You're going to have this as a problem for life. 
If you're really going to beat this, it's because you get your 
support system, to include your chain of command, involved in 
how to stay out of trouble. So that a large number of soldiers, 
even after they enter confidentially, come back later and 
inform their chain of command and say, ``Look, I've had the 
treatment. I've been informed. I've been counseled. I know that 
I'm going to have to get more people involved in keeping me 
sober.'' So far, it's been very successful. We have great 
support from the rest of the Army and the Army leadership to 
generalize this across the force.
    Senator McCaskill. I know that the report's due in 
September, and I'll be looking forward to seeing what's put on 
paper, because then I think it's a situation--we can look at 
all the branches----
    General Schoomaker. Yes, ma'am.
    Senator McCaskill.--and talk about confidentiality and 
stigma and how we can work around the culture of the military 
to get us to a point that folks can get help, because many, 
many times, if they feel like it's going to impact their 
career, they wait until it's too late, and it really impacts 
their career. I think those are men and women that we can't 
afford to lose in the service of our country.
    Let's talk a little bit about counselors. Does anybody have 
a number of how many counselors we're short right now, in terms 
of substance abuse counselors? I know--speaking of chronic--
this is a chronic problem, having the right number of 
counselors available.
    General Schoomaker. We have the exact numbers. What we're 
trying to do is keep abreast of the demand. Programs like the 
KTAP program--the confidential--is generating more need. So, 
the attempt is to--we've reengineered the Alcohol and Substance 
Abuse Program so that it's horizontally integrated from the 
assessment, education----
    Senator McCaskill. That's good.
    General Schoomaker.--targeted at an early intervention to 
full treatment. In doing that, we're beginning to see what the 
bow wave is, and anticipate that. We're doing, centrally, 
hiring of counselors. But, I can tell you, ma'am, just as in 
behavioral health in general, across the Army, we remain with 
shortages, because it's very hard, in some locations, to find 
counsels. It's not a money issue. It's not a problem of 
bureaucracy. It's a problem, quite frankly, of finding, in a 
Nation which is already strained for having an appropriate 
number of trained counselors, it's finding people willing to go 
to some of our locations.
    Senator McCaskill. Has there been any thought given to some 
kind of pilot program to internalize this function without 
contractors, to have military people get the substance abuse 
training, so that it's peer-to-peer, as opposed to an outside 
contractor that you're going to and talking to about your 
substance abuse issues?
    General Schoomaker. Ma'am, I think part of the program of 
horizontal integration is to start employing peer-to-peer 
counselors and even groups like former NCOs who want to come in 
and participate in this, well before the need for formal 
counseling for treatment. If we can do targeted intervention 
and education early on, the intent is to obviate the need to 
have people fall off the cliff before they're approached.
    Senator McCaskill. Let me talk a little bit about a 
specific drug, OxyContin. This is a highly addictive drug. In 
fact, it is not uncommon in many places in the country right 
now. The street value of OxyContin exceeds heroine. Let me just 
say that again. The street value of OxyContin exceeds heroine. 
As high as $80 a pill, on the street. This has really become a 
drug of choice that is a huge problem in this Nation. I 
listened to some of the testimony before I got here, and I want 
to make sure that everyone is aware that this is a growth 
industry right now, in terms of pain meds. It is something 
that--in fact, too late--we're beginning to get a handle on the 
addictive nature of this drug.
    Can you tell me, General, or can any of you tell me--I know 
that there was some diminishing of the data because of sleeping 
pills, but I have to tell you, if you guys aren't on top of 
this----
    General Schoomaker. Yes, ma'am.
    Senator McCaskill.--I guarantee you, if you plot a graph of 
how much OxyContin is being prescribed, if you all had that 
number right now, I think it would scare the bejesus out of 
you.
    General Schoomaker. Yes, ma'am. We do track that pretty 
closely.
    Senator McCaskill. What is it, in the Army?
    General Schoomaker. I can give you--I can take it for the 
record and give you the numbers. But OxyContin's been with us 
for almost 100 years. It's a derivative of----
    Senator McCaskill. Morphine.
    General Schoomaker.--many of the drugs that are related to 
one another--morphine, codeine, heroin, methadone. These are 
all related to one another, cross-react with one another, have 
variations in their absorption or how they're administered and 
how long they last.
    OxyContin is a component of a long-acting--or is a long-
acting form of Oxycodone that is mixed in other formulations 
with nonsteroidal anti-inflammatories, like acetaminophen or 
Motrin or Ibuprofen. So, we use the components of that in many, 
many different applications for pain management. But, as I said 
earlier, I think one of our problems here is that prescription 
drugs have become increasingly used in social environments for 
recreational use, and have resulted in addictions that are 
related to morphine and heroin addictions. We're tracking them 
very closely in the Army, especially in that population of 
wounded, ill, and injured soldiers for whom we know there's a 
very high use. We have sole provider programs. That is, a 
single provider prescribes all psychotropic and potentially 
addictive drugs, and watches and tracks those. Those go on in 
our hospitals and clinics for other nonwounded, ill, and 
injured soldiers, where there is high use of pain medicine.
    Frankly, ma'am, I go back to what I said earlier about our 
Pain Management Task Force. That's one of the reasons we stood 
it up, is we need a far more holistic and even nonpharmacologic 
approach to pain management.
    Senator McCaskill. Thank you very much.
    I know I'm out of time.
    I would like to put one question on the record, though, 
about a young man, Lance Corporal Lopez, from Missouri, who had 
a severe adverse reaction to a vaccine when he was deployed, 
and he was not allowed the one-time benefit on the Traumatic 
Servicemember Group Life Insurance policy, even though he was 
in a coma and, in a wheelchair for a while and has ongoing 
problems. For the record, I want to put it in and get your 
reaction as to whether or not that should be a loophole in that 
coverage.
    It seems to me that his injury has been as traumatic as any 
battlefield injury, and it doesn't seem fair to me that he's 
denied that benefit because it's an adverse reaction to a 
vaccine that he had to take for deployment, as opposed to an 
injury on the battlefield.
    General Schoomaker. This was a soldier?
    Senator McCaskill. No. It was a marine.
    Thanks.
    Senator Webb. Thank you, Senator McCaskill.
    I have two semi-technical questions, here, I want to ask.
    Then, Senator Begich, did you want another round?
    Senator Begich. No, I'm good.
    Senator Webb. Okay.
    First is--I've been trying to follow--and I think, Dr. 
Rice, I'd like to ask you to start on the answer--this ongoing 
evaluation of the disability evaluation system--the pilot 
program that's in place. I'm very familiar with the two 
different disability systems, having worked as counsel on the 
House Veterans Committee years ago, where traditionally DOD 
would be rating people based on whether they were fit for duty 
in a DOD environment, and then giving a percentage of 
disability as of the moment they left the military. VA was 
known as lifetime reevaluation. Whatever disability you 
incurred on Active Duty could be aggravated, and your VA 
percentage actually could go up over the rest of your life.
    They're basically two totally different concepts, and the 
compensation amounts pretty much reflected that. Now we have 
been exploring ways, since the Dole-Shalala Commission, to see 
if we can merge the process. Could you bring us up to date on 
how that's working?
    Dr. Rice. Senator, this issue has been a challenge. It's 
been a challenge since the early 1950s. It's been the subject 
of a number of panels and congressional hearings. The 
challenges that you mention are--that's exactly right, the--we 
have the Medical Evaluation Board, which determines whether or 
not somebody can continue on Active Duty, and then the VA has 
its own separate process.
    In all candor, it--from my vantage point at the Uniformed 
Services University, I didn't deal with that issue on a day-to-
day basis, and I'm just beginning to get up to speed. Perhaps I 
can ask one of my colleagues----
    Senator Webb. Okay.
    Dr. Rice.--who could--General Schoomaker, I expect, is a 
lot more conversant with it than am I.
    Senator Webb. If there are others who would like to be in 
that, as well.
    General Schoomaker. I feel very strongly about this topic, 
because, of course, this surfaced with the problems that we had 
at Walter Reed, roughly 3 years ago this month.
    We have a highly adversarial, highly bureaucratized program 
in which two systems are trying to intersect with one another--
the DOD system that determines fitness and then begins an 
adjudication process of disability and I focus on disability--
physical disability--for the single unfitting--most unfitting 
condition, and then hands it off to the VA, who adjudicates, 
based upon a whole-person concept, what problems that soldier, 
sailor, airman, marine may have. The fact remains that there 
are major benefits derivative from certain thresholds, like 30 
percent, where you accrue, for yourself and family, TRICARE 
benefits. The system, in 3 years, in my view, although we've 
tried in every way we can to streamline the bureaucracy and to 
improve the handoff of the VA, continues to be problematic. 
We're tweaking the edges, and I think Admiral Robinson has used 
language to that effect. We're nibbling at the edges of a 
system and a process which is inherently and intrinsically 
antiquated and adversarial.
    I say to my soldiers, it's one of the tragedies that the 
very people who saved you on the battlefield, that evacuated 
you successfully back through two or three continents, across 
8,000 miles, toward the end of your processing, becomes your 
enemy. The same people that you looked to, to get you recovered 
and rehabilitated, now you look upon as not supporting your 
successful transition into private life. It needs to be 
fundamentally changed.
    We need to focus on ability. We need a system that focuses 
on ability, that's aspirational in its focus, much like our 
most successfully transitioning soldiers, soldiers who have--
amputees, much as has already been discussed here, sir. Some of 
our most----
    Senator Webb. We also need to----
    General Schoomaker.--severely injured soldiers----
    Senator Webb.--to focus on properly compensating people who 
incur lifetime----
    General Schoomaker. Absolutely.
    Senator Webb.--difficulties, as a result of their military 
service. That's how the----
    General Schoomaker. Absolutely.
    Senator Webb.--the whole compensation system began. At one 
time in our history, if someone were to suffer an amputation on 
a battlefield, have to introduce a private bill in Congress in 
order to get relief from the government. Nobody could sue--
either that or you would want to sue--you can't sue the 
government for your disability, so we put this system into 
place. The intention, I think, was to try to make people whole 
as--in as much as you can.
    General Schoomaker. To go back to what Dr. Rice said, this 
was a system that developed during an industrial economy, that 
focused on physical disability. In an information age economy, 
we need a far different and better system that allows the 
Services to adjudicate--or to decide upon unfitness, and an 
adjudication of disability and compensation, but also assesses 
ability and gives people the tools and the bridging support----
    Senator Webb. I've heard that argument. I heard it when the 
Dole-Shalala Commission came in, and from my perspective, it's 
more akin to compensation from a tort claim or an injury, 
rather than fitting someone to a particular profession in an 
industrialized economy, other than the military profession. 
Each Service has been very different over the years in terms of 
how they've evaluated people when they left.
    I used an example 3 years ago when you were testifying, of 
two brothers, both of whom are good friends of mine in the 
Marine Corps, both of whom were badly wounded and returned to 
Active Duty. One had his patella blown off and had a really bad 
back injury. Went back to Vietnam and did a tour. These are the 
famous McKay brothers, if anyone is looking for historical 
documentation. Jim McKay finished his enlistment and said, 
``All right, I'm ready to get my disability and go on with my 
life.'' The Marine Corps said, ``No, you return to duty. Your 
disability is zero.'' He went across the street to the VA, and 
I think he got 60 percent.
    John McKay--a classmate of mine in the Naval Academy--got 
his eye shot out and broke a piece of the bone up here 
[indicating], so he couldn't even wear an artificial eye, 
stayed on Active Duty for 26 years, retired as a colonel, and 
the Marine Corps said, ``You're zero disability.'' He had the 
anatomical loss of an eye, busted sinus, busted jaw where the 
bullet went through, and they gave him a zero. I went and 
testified at his appeal hearing, saying it should have--the VA 
immediately gave him 90 percent, probably more. But, when you 
say ``an adversarial system,'' those are two pretty good 
examples of people who just wanted to give more and the 
injuries, the wounds that they suffered, even though they were 
able to do their job, related more to, I think, tort law--how 
we've formalized tort law through statute. That's really what 
the disability system is supposed to be.
    But, Admiral, I'd like to hear from you. We're going to 
wrap this up fairly soon here.
    Admiral Robinson. Just one addition, and I'm not sure it's 
going to be that helpful, but I think that what you and General 
Schoomaker are talking about is correct. I think, also, that 
there is--and, by the way, I'm not a lawyer, so the tort part, 
I'll have to ask exactly how you're working that.
    VA: systematic rehabilitative care, generally. DOD: acute 
care, generally. What's happened is, that's intermixing now. 
So, how we've done business in the past is not what we're doing 
today. Men and women who are injured today, who would normally 
never be kept in the Service, because you wouldn't stay in the 
Service with an amputation or with all sorts of different 
things, are being kept in the Service now. Men and women who 
are amputees, as an example, who would normally have moved to 
the VA system, but now we have, led by Army, a huge, major, and 
an excellent amputation program. But, again, that's a 
systematic rehab type of condition.
    So, you have DOD, and then you have the VA that's funded 
for the systematic rehab. We need to try to blend those two 
together. I think a great deal of what we're doing in the 
disability evaluation system is the two mammoth organizations 
that are coming to grips with: Who is going to fund this now? 
How is this going to get done? It has to be done, and it has to 
be done correctly, because the men and women who we're taking 
care of--I'm not thinking of 2010 and 2011, I'm thinking of 
2022 and 2025--need to know how they're going to continue that 
amputation care, whatever care that they need to have, and how 
they can actually get their lives back online.
    Senator Webb. I'm really concerned that this whole process 
is bogged down, and we have people waiting around. We have 
people waiting around to get evaluated as the pilot programs 
move forward. I've heard a number of stories from the Wounded 
Warrior Program down at Camp Lejeune, for instance, with 
marines getting frustrated because they're waiting to have 
their cases adjudicated, and then getting in trouble because 
they're going stir-crazy down there, et cetera. So, we need to 
somehow come to a conclusion on this.
    Senator Graham. Along those lines, you have two systems 
that have never been melded together before, and we need to do 
that, and you're well on your way to doing it. Again, you have 
competing interests. A lot of wounded warriors want to stay in. 
So, their first goal at that hearing is to convince the 
military, ``Hey, keep me on Active Duty.'' Sometimes that 
doesn't work out, and then you have to evaluate how much 
disability did the person have.
    The other problem we have is that, when people are 
discharged from DOD to the VA, we have to make that as seamless 
as possible, and that's what Senator Webb's talking about, 
having a joint board, where everybody sits at the same time and 
the same place to evaluate these disabilities without having 
redundancy, is great.
    But, here's just a problem. When you're discharged to rural 
South Carolina with a major injury, healthcare services are 
going to be limited. How we connect people in rural America to 
these services is a challenge for the country. I know your 
heart's right, but these are just logistical obstacles that 
have to be overcome, because when you go into a military 
treatment facility for amputation, like Walter Reed--I know 
you've been out there. It's amazing what you all are doing out 
there to get these folks back up and prosthetics and TBI. So, 
you get world-class care, then you may be sent to some rural 
place in South Carolina, where there's just not capacity. We're 
trying to connect people up to the best provider possible, with 
the least amount of logistical problems.
    Another problem that we've looked at, Mr. Chairman, is the 
spouse, their life changes dramatically. Their hopes and dreams 
basically take a back seat to this traumatic injury. Not just 
the spouse, but the entire family. So, I want to keep pushing 
to create a reimbursement system that we're honoring that 
spouse's service by having a reimbursement system to pay them, 
quite frankly, because they don't have the ability to go back 
to school, some amount of money that would otherwise go to some 
professional service to help that family, who are the primary 
care providers in the emotional front, particularly.
    So, I look forward to working with you, Mr. Chairman, to 
get this process moving. People are waiting way too long. But, 
the sad news is, there are just a lot of people affected by 
this war, and we were overwhelmed a few years ago; that's what 
happened at Walter Reed. We just didn't have the capacity 
built, and we're now building it out. I want to be your partner 
in building it out.
    As to this hearing, I'm glad we're able to conduct it. I 
called my leadership. It was an easy lift to allow the hearing 
to go forward.
    My views on healthcare will be known this afternoon. You're 
welcome to come listen. [Laughter.]
    Business as usual hasn't been done, in many ways, on both 
sides of the aisle, and I don't want to get into a healthcare 
debate, so I won't tell you my views on healthcare, but I'm 
glad we're able to conduct this hearing.
    I hope and pray the Senate, one day, can get back to doing 
business as usual. We're not there yet, but maybe we will be.
    So, thank you, Mr. Chairman.
    Senator Webb. I appreciate your saying that, Senator 
Graham. We do have people who are working on both sides of the 
aisle trying to solve problems, and you're one of them. I hope 
I'm one of them. I think Senator McCaskill is one of them.
    I would like to request all of you to give me your 
evaluation of something before I close this hearing--not at 
this hearing. But, I'd like you to look at--we've talked a lot 
about the electronic data management records and this sort of 
thing. I'm a little curious about your basic software programs 
that you use in your hospitals, whether you believe you have 
the best programs that are available. I say that from personal 
experience, having looked at a really fine software program at 
the Naval Hospital in Bethesda, which I've used for many, many 
years, about 6 or 7 years ago, in seeing that it was replaced 
by something it was less than good, according to the medical 
people that I was talking to. Just tell us whether you need 
better software systems in order to manage all your product, 
and we'd like to get your advice on that.
    [The information referred to follows:]

    Our Military Health System hospitals currently use AHLTA, the 
Department of Defense's (DOD) current electronic health record (EHR) 
capability, as part of a family of systems. AHLTA generates, maintains, 
stores, and provides secure online access to comprehensive patient 
records. The DOD EHR family of systems forms one of the largest 
ambulatory records systems in the world, with documentation of an 
average of 140,000 patient encounters each day. However, the current 
suite of applications and underlying infrastructure do not support the 
challenges of the rapid evolution of today's health care practices, the 
ever-increasing need to transact and share data across the continuum of 
care, and the timely fielding of new capabilities.
    The Military Health System is executing the multi-year plan 
developed in the fall of 2009 to redesign the EHR supporting 
infrastructure and incrementally deliver key functionality. At the 
threshold, the system must stabilize current record capabilities so 
that users may efficiently perform their duties in a timely manner, 
regardless of location, time of day, or network issues. It is 
imperative that DOD address known shortfalls and key challenges with 
functional applications and core infrastructure, including critical 
user concerns with system speed, operational availability, and the user 
interface. This will allow DOD to meet providers' near-term needs and 
better prepare for the transition of applications and supporting 
infrastructure. Further, stabilization efforts will mitigate potential 
risks prior to increasing reliance on these systems for achieving 
expanded interoperability through the virtual lifetime electronic 
record.

    Senator Webb. Any other questions for the record by anyone 
on this subcommittee will be welcome by close of business 
today, which is going to be very late.
    Senator McCaskill, you have anything?
    Senator McCaskill. I don't.
    Senator Webb. Okay.
    Again, I appreciate the incredible work that all of you are 
doing on behalf of the people who are serving, and who have 
served. I appreciate your coming today.
    This hearing is adjourned.
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Claire McCaskill
              traumatic servicemember group life insurance
    1. Senator McCaskill. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, in September 
2006 Lance Corporal Josef Lopez took a Department of Defense (DOD) 
administered smallpox vaccination prior to a deployment to Iraq and 
then suffered a severe adverse reaction resulting in temporary 
paralysis, coma, bladder damage, severe leg spasms, memory loss, and 
other conditions that require daily medication and care. At the time of 
his injuries from the vaccine, Lance Corporal Lopez applied for the 
Traumatic Servicemember Group Life Insurance (TSGLI) benefit, which was 
enacted by Congress in 2005 to provide a one-time benefit of up to 
$100,000 to servicemembers who endured a traumatic injury, whether in a 
combat or non-combat environment. The benefit is intended to help 
servicemembers and their families with immediate expenses related to 
the servicemember's injury and convalescence period. Due to a loophole 
in title 38, section 1980A(b)(3), Lance Corporal Lopez was denied the 
TSGLI benefit by the Department of Veterans Affairs (VA), even though 
by all measures his injuries from the vaccine were traumatic enough to 
affect key activities of daily living, including incontinence and 
walking. Although his condition has improved to some degree, Lance 
Corporal Lopez had to be medically retired from the Marine Corps in 
June 2009 and now undergoes long-term care management through the VA. 
He cannot drive, hold a normal job, and must take extensive medication 
to prevent spasms in his legs. What is DOD's current policy in handling 
adverse reactions incurred by mandatory DOD-administered vaccines?
    Dr. Rice and Admiral Hunter. The Department's policy concerning 
reactions to vaccines is to follow best available medical practices to 
screen for potential adverse reactions and avoid unnecessary risks. 
Unfortunately, screening methods cannot prevent all adverse vaccine 
events.
    The Services administer specific vaccines based upon disease risk 
and where the servicemember will serve. If anyone receiving a vaccine 
has a negative reaction, providers monitor the patient and determine 
the severity of the reaction. DOD medical providers are required to 
report and file a Vaccine Adverse Event Reporting System (VAERS) Report 
with the Centers for Disease Control (CDC) and Food and Drug 
Administration (FDA).
    In addition, DOD has four vaccine health care centers to provide 
consultative support to providers, serve as patient advocates, support 
research to enhance vaccine safety, and provide long-term follow-up for 
patients.
    General Schoomaker. DOD is committed to providing our 
servicemembers the highest quality of health care and support. If a 
potential vaccine-related adverse event is suspected from a mandatory 
DOD-administered vaccine, the attending healthcare provider is required 
to file a VAERS report. VAERS is a national reporting and surveillance 
system to identify adverse events and promote vaccine safety, and is 
administered by the CDC and the FDA. Additionally, the attending 
healthcare provider will refer the patient to the DOD's Vaccine 
Healthcare Centers (VHC) network for further consultation, treatment, 
and follow-up. The VHC's role is to prevent, identify, and treat 
vaccine-related adverse events. It offers a 24-hour clinical call 
center and a web-based digital photo-sharing system that allows for 
easier diagnosis from remote sites. Following service discharge, 
ongoing medical care becomes the responsibility of the VA. However, the 
VHC will provide the healthcare providers at the VA clinical 
consultative follow-up care on our veterans being treated.
    Admiral Robinson. The Military Vaccine Agency (MILVAX) is the DOD 
lead agent for all vaccine-related issues. If a potential vaccine-
related adverse event is suspected from a mandatory DOD-administered 
vaccine, the attending healthcare provider will file a VAERS report. 
VAERS is administered by the CDC and the FDA. Additionally, the 
attending healthcare provider would refer the patient to the DOD's VHC 
network for further consultation, treatment, and follow-up based upon 
the clinical diagnosis.
    General Green. TSGLI is not administered through the Air Force 
Surgeon General's office, but through the Air Force Office of the 
Deputy Chief of Staff for Manpower and Personnel (AF/A1).
    If a potential vaccine-related adverse event is suspected from a 
mandatory DOD-administered vaccine, the attending healthcare provider 
will file a VAERS report in accordance with Air Force Joint Instruction 
48-110, section 2-10. VAERS is administered jointly by the CDC and the 
FDA, with occasional assistance in the analysis by the Immunization 
Safety Office at the National Center for Immunization and Respiratory 
Diseases of the CDC. Any person--not just healthcare providers--may 
submit a VAERS report to the FDA.
    Admiral Jeffries. The MILVAX is the DOD lead agent for all vaccine-
related issues. If a potential vaccine-related adverse event is 
suspected from a mandatory DOD-administered vaccine, the attending 
healthcare provider will file a VAERS report. VAERS is administered by 
the CDC and the FDA. Additionally, the attending healthcare provider 
would refer the patient to the DOD's VHC network for further 
consultation, treatment, and follow-up based upon the clinical 
diagnosis.

    2. Senator McCaskill. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, how many 
servicemembers have had adverse reactions to mandatory DOD-administered 
vaccines over the past 5 years?
    Dr. Rice and Admiral Hunter. The Department reports 3,798 
servicemembers have had adverse reactions to mandatory DOD-administered 
vaccines over the past 5 years.
    General Schoomaker. DOD requires the attending healthcare provider 
to submit a VAERS report if a potential adverse event is suspected. 
Additionally, anyone can submit a VAERS report if they feel that they 
have had an adverse reaction to a vaccine. From January 2005 to 
December 2009, DOD personnel filed 3,798 reports to VAERS.
    Admiral Robinson. According to the MILVAX, DOD requires the 
attending healthcare provider to submit a VAERS report if a potential 
adverse event is suspected. Additionally, anyone can submit a VAERS 
report if they feel that they have had an adverse reaction to a 
vaccine. From January 2005 through December 2009, there were 3,798 
reports filed by DOD personnel to VAERS.


2005.......................................................        352
2006.......................................................        525
2007.......................................................        794
2008.......................................................      1,080
2009.......................................................      1,047
                                                            ------------
  Total:...................................................      3,798


    General Green. From January 2005 to December 2009, there were 3,798 
reports filed by DOD personnel to VAERS. As the VAERS form does not 
require the specification of the Service, it is not possible to 
determine how many of these reports were from or about Air Force 
members. DOD requires the attending healthcare provider to submit a 
VAERS report if a potential adverse event is suspected. Additionally, 
anyone may submit a VAERS report if they feel that they or a family 
member have had an adverse reaction to a vaccine.
    Admiral Jeffries. According to the MILVAX, DOD requires the 
attending healthcare provider to submit a VAERS report if a potential 
adverse event is suspected. Additionally, anyone can submit a VAERS 
report if they feel that they have had an adverse reaction to a 
vaccine. From January 2005 through December 2009, there were 3,798 
reports filed by DOD personnel to VAERS.


2005.......................................................        352
2006.......................................................        525
2007.......................................................        794
2008.......................................................      1,080
2009.......................................................      1,047
                                                            ------------
  Total....................................................      3,798



    3. Senator McCaskill. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, how are these 
numbers tracked? Please provide specific numbers.
    Dr. Rice and Admiral Hunter. The number of adverse reactions to 
DOD-administered vaccines is tracked through the VAERS at the CDC and 
FDA.
    General Schoomaker. DOD uses the VAERS to report and track any 
suspected adverse events after vaccination. This system is also used by 
civilian vaccine manufacturers, healthcare professionals, and the 
public to report and track clinical events temporally associated with 
vaccination. From January 2005 to December 2009, there were a total of 
3,798 VAERS reports filed by DOD personnel. The number of VAERS reports 
filed by year is as follows:


2005.......................................................        352
2006.......................................................        525
2007.......................................................        794
2008.......................................................      1,080
2009.......................................................      1,047
                                                            ------------
  Total:...................................................      3,798


    Admiral Robinson. According to the MILVAX, DOD uses the VAERS to 
report and track any suspected adverse events after vaccination. This 
system is also used by civilian vaccine manufacturers, healthcare 
professionals, and the public to report and track clinical events 
temporally associated with vaccination. From January 2005 to December 
2009, there were a total of 3,798 VAERS reports filed by DOD personnel. 
The number of VAERS reports filed by year is as follows:

2005.......................................................        352
2006.......................................................        525
2007.......................................................        794
2008.......................................................      1,080
2009.......................................................      1,047
                                                            ------------
  Total....................................................      3,798


    General Green. DOD uses the VAERS to report and track any suspected 
adverse events after vaccination. This system is also used by civilian 
vaccine manufacturers, healthcare professionals, and the public to 
report and track clinical events temporally associated with 
vaccination. From January 2005 to December 2009, there were a total of 
3,798 VAERS reports filed by DOD personnel. The number of VAERS reports 
filed by year is as follows:


2005.......................................................        352
2006.......................................................        525
2007.......................................................        794
2008.......................................................      1,080
2009.......................................................      1,047
                                                            ------------
  Total....................................................      3,798



    As the VAERS form does not require the specification of the 
Service, it is not possible to determine how many of these reports were 
from or about Air Force members.
    Admiral Jeffries. According to the MILVAX, DOD requires the 
attending healthcare provider to submit a VAERS report if a potential 
adverse event is suspected. Additionally, anyone can submit a VAERS 
report if they feel that they have had an adverse reaction to a 
vaccine. From January 2005 through December 2009, there were 3,798 
reports filed by DOD personnel to VAERS.


2005.......................................................        352
2006.......................................................        525
2007.......................................................        794
2008.......................................................      1,080
2009.......................................................      1,047
                                                            ------------
  Total....................................................      3,798



    4. Senator McCaskill. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, have any adverse 
vaccine injuries resulted in TSGLI claims? If so, how many?
    Dr. Rice and Admiral Hunter. Yes, there have been reports of 
adverse vaccine injuries which resulted in TSGLI claims.
    The Army reported three claims for TGLSI benefits due to adverse 
reactions to vaccines. The Marine Corps reported three claims for TGLSI 
benefits due to adverse reactions to vaccines. The Navy and Air Force 
have reported no claims for TGLSI benefits due to adverse reactions to 
vaccines.
    General Schoomaker. The Army TSGLI program has received four TSGLI 
claims with losses thought to be a result of vaccine injuries. The 
claimed losses were primarily those of Activities of Daily Living 
Losses (ADL), caused by a neurological or muscular dysfunction. One 
claim stated that the claimant would require surgery based upon a 
reaction to the vaccine and his ADLs would be impacted post surgery 
during recovery.
    Admiral Robinson. Navy's TSGLI database is managed by the Bureau of 
Naval Personnel and tracks the medical condition or event associated 
with the claim, but not necessarily the underlying cause. As such, the 
database does not explicitly track claims stemming from an adverse 
vaccine reaction. However, an electronic keyword search of the database 
was conducted, using terms such as ``vaccine,'' ``injection,'' and 
``allergic reaction.'' A follow-on manual search of claims in which the 
medical condition or event was not clearly identified in the electronic 
database was also conducted. These combined searches revealed that, as 
of 19 March 2010, no TSGLI claims filed by Navy personnel have resulted 
from an adverse vaccine reaction.
    General Green. The Air Force has not received any Active Duty, Air 
National Guard, or Air Force Reserve TSGLI claims identifying an 
adverse reaction to vaccine as a traumatic injury.
    Admiral Jeffries. The Marine Corps administration of the TSGLI plan 
is managed by the Manpower and Reserve Affairs (M&RA) division of 
Headquarters, Marine Corps and specifically the Wounded Warrior 
Regiment. The database maintained by the Wounded Warrior Regiment was 
queried and three claims related to a vaccine injury were discovered, 
one of which was that of Lance Corporal Lopez.

    5. Senator McCaskill. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, how many 
servicemembers have been denied TSGLI claims for conditions and 
injuries related to adverse vaccine reactions?
    Dr. Rice and Admiral Hunter. A total of six servicemembers have 
been denied TSGLI claims for condition and injuries related to adverse 
vaccine reactions.
    The Army reported three denials of TSGLI benefits claims made due 
to adverse vaccine reactions. The Marine Corps reported three denials 
of TSGLI benefits claims made due to adverse vaccine reactions. The 
Navy and Air Force reported no denials to TGSLI benefits claims made 
due to adverse reactions to vaccines.
    General Schoomaker. The Army TSGLI program has received four TSGLI 
claims with losses thought to be a result of vaccine injuries. Each 
claim was denied due to a lack of medical documentation establishing a 
direct link to the claimed losses and the administration of the 
vaccine. Claims were also denied as not being a result of a traumatic 
event per requirements of the TSGLI program.
    Admiral Robinson. Navy's TSGLI database is managed by the Bureau of 
Naval Personnel and tracks the medical condition or event associated 
with the claim, but not necessarily the underlying cause. As such, the 
database does not explicitly track claims stemming from an adverse 
vaccine reaction. However, an electronic key word search of the 
database was conducted, using terms such as ``vaccine,'' ``injection,'' 
and ``allergic reaction.'' A follow-on manual search of claims in which 
the medical condition or event was not clearly identified in the 
electronic database was also conducted. These combined searches 
revealed that, as of 19 March 2010, no Navy personnel have been denied 
a TSGLI claim for conditions or injuries related to an adverse vaccine 
reaction.
    General Green. The Air Force has neither received nor denied any 
Active Duty, Air National Guard, or Air Force Reserve TSGLI claims 
identifying an adverse reaction to vaccine as a traumatic injury.
    Admiral Jeffries. The Marine Corps administration of the TSGLI plan 
is managed by the M&RA division of Headquarters, Marine Corps and 
specifically the Wounded Warrior Regiment. The database maintained by 
the Wounded Warrior Regiment was queried and three claims related to a 
vaccine injury were discovered, one of which was that of Lance Corporal 
Lopez.

    6. Senator McCaskill. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, given that TSGLI 
is meant to cover traumatic injuries of servicemembers, what is your 
interpretation of whether Lance Corporal Lopez qualifies for TSGLI 
given the nature of his injuries from the DOD-administered vaccine, 
which caused him permanent and lifelong disability?
    Dr. Rice and Admiral Hunter. DOD concluded, based on current statue 
and policy, that Lance Corporal Lopez does not qualify for TSGLI given 
the nature of his injuries from the administered vaccine.
    Upon discharge a veteran would be entitled to monetary benefits and 
lifetime medical care for disabilities caused by lingering effects from 
vaccine reactions through the VA. However, DOD does not believe the 
TSGLI program is the appropriate vehicle for providing benefits for 
members who experience adverse reactions to vaccines.
    TSGLI was designed by Congress to provide severely injured 
servicemembers, who suffer a loss as a direct result of a traumatic 
event, with short-term monetary assistance. The definition of a 
traumatic event, according to 38 CFR 9.20, is, `` . . . the application 
of external force, violence, chemical, biological, or radiological 
weapons, or accidental ingestion of a contaminated substance causing 
damage to a living being.'' The TSGLI benefit is intended to lessen the 
economic burden on the member and the member's family which often 
ensues during the often long and difficult treatment and rehabilitation 
periods.
    General Schoomaker. It is tragic that Lance Corporal Lopez and 
other servicemembers have had adverse reactions to predeployment 
vaccinations. Preserving the health and safety of our servicemembers is 
my top concern. I would not consider this event to be a traumatic 
injury as defined by current law. Under the current law, inoculations 
are specifically excluded from TSGLI payment.
    TSGLI provides for payment to servicemembers who are severely 
injured (on or off duty) as the result of a traumatic event and suffer 
a loss that qualifies for payment under TSGLI. The servicemember must 
suffer a qualified loss that is a direct result of a traumatic event to 
qualify for TSGLI payment.
    Lance Corporal Lopez was given a required predeployment vaccination 
(smallpox). He had a severe reaction to the vaccination. As a result, 
he suffered temporary paralysis, was in a coma, and continues to 
struggle to independently perform activities of daily life. However, 
these injuries were not caused by a traumatic event under the VA's 
regulations governing TSGLI. These regulations define a traumatic event 
as ``the application of external force, violence, chemical, biological, 
or radiological weapons, accidental ingestion of a contaminated 
substance, or exposure to the elements that causes damage to the 
body.'' Also, specifically excluded from TSGLI payment is a loss caused 
by ``[d]iagnostic procedures, preventive medical procedures such as 
inoculations . . . or any complications arising from such procedures or 
treatment.''
    Lance Corporal Lopez's loss was caused by a smallpox vaccination. 
Smallpox is a serious, highly contagious, and sometimes deadly 
infectious disease. A smallpox outbreak would significantly affect 
military readiness. Administering the vaccination now, before an 
outbreak, is the best way to protect our troops. Very rarely, the 
smallpox vaccine can cause serious side effects. We will continue to 
enhance vaccine safety through research and education. We will also 
continue to optimize our screening process to ensure those at increased 
risk will not receive the vaccination.
    Admiral Robinson. Both the Code of Federal Regulations (CFR) (38 
CFR Sec. 9.20(e)(3)(i)(C)) and the August 5, 2009, TSGLI procedural 
guide specifically address this issue by stating that preventive 
medical procedures such as inoculations, and any complications arising 
from such procedures or treatment, are excluded from TSGLI payment.
    The Disability Evaluation System (DES) is the Uniformed Services' 
program to consider servicemembers whose ability to continue their 
military career is called into question as a result of their health 
state. This system does not delineate servicemembers based upon the 
cause of their injury or illness, with the potential exception of self-
inflicted cases, but rather the outcome and impact. The servicemember 
may be medically retired and compensated based on the level of 
disability associated with their injury or illness. Service-connected 
conditions and disabilities are also eligible for continuing care and 
potential compensation through the VA upon the servicemember's 
separation or retirement.
    General Green. TSGLI is not administered through the Surgeon 
General's office, but through the Air Force Office of the Deputy Chief 
of Staff for Manpower and Personnel. However, anthrax and smallpox 
vaccines are not covered under the TSGLI, but would be covered under a 
program administered by the Department of Health and Human Services 
under the Public Readiness and Emergency Preparedness Act of 2005 (42 
U.S.C. Secs. 247d-6d, 247d-6e). As the Air Force has not had the 
opportunity to review Marine Lance Corporal Lopez's medical record, we 
would not be able to comment further.
    Admiral Jeffries. Both the CFR (38 CFR Sec. 9.20(e)(3)(i)(C)) and 
the August 5, 2009, TSGLI procedural guide specifically address this 
issue by stating that preventive medical procedures such as 
inoculations, and any complications arising from such procedures or 
treatment, are excluded from TSGLI payment. Based upon this established 
guidance, TSGLI does not cover the injury and/or disability brought 
about by their adverse reaction to receipt of the small pox 
vaccination. Current policy focuses on the acquisition of the injury as 
the focus of coverage, rather than including the outcome and associated 
disability.

    7. Senator McCaskill. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, do you think 
that Lance Corporal Lopez and people with similar injuries should 
receive compensation under TSGLI?
    Dr. Rice and Admiral Hunter. While I do think Lance Corporal Lopez 
and members with similar injuries should receive compensation, I do not 
think they should received TGSLI benefits resulting from adverse 
reactions to vaccinations, surgical trauma, or medical procedures given 
current policy.
    While the Lance Corporal Lopez situation is unfortunate, the TSGLI 
program employs the same industry standards and practices regarding an 
insurable loss as employed across the United States with respect to 
anyone who make claims covered by accidental death and dismemberment 
insurance. DOD follows the laws and regulations that embody these 
standards when adjudicating TSGLI claims. Specifically, vaccinations do 
not meet the definition of traumatic event as contemplated in the TSGLI 
statutes and regulations. Servicemembers who suffer adverse reactions 
to vaccines (to the degree that Lance Corporal Lopez suffered) would be 
entitled to monetary benefits and lifetime medical care for these 
disabilities through the VA.
    General Schoomaker. Lance Corporal Lopez and other servicemembers 
who sustain this injury may be entitled to receive a combination of 
military, veterans, and Social Security health and disability benefits. 
However, receiving compensation under TSGLI for this injury would be 
inconsistent with the policy and purpose of the current law.
    Military insurance programs such as TRICARE, SGLI, and TSGLI are 
modeled after commercial insurance policies. Specifically, TSGLI is 
modeled after commercial accidental death and dismemberment insurance. 
Like commercial insurance, TSGLI is a limited benefit that provides 
compensation for specific losses caused by specific events. Also, both 
TSGLI and commercial insurance policies specifically exclude payment 
for losses caused by medical treatment and procedures.
    Vaccinations are preventive medical procedures provided as part of 
the Army's force health-protection program. Unfortunately, some 
servicemembers will experience side effects or adverse reactions from 
the smallpox vaccine. Although rare, there are some serious side 
effects possible from the vaccine. We try to reduce the risk of side 
effects by exempting servicemembers who should not receive this 
vaccine. Like commercial insurance, this injury is not covered by TSGLI 
because it is a direct result of medical treatment and not a traumatic 
event.
    TSGLI is not the sole benefit available to servicemembers who 
suffer serious adverse reactions to vaccinations. TSGLI is very 
specific coverage that provides limited protection. The underlying 
policy and purpose for the TSGLI program will be significantly changed 
if a loss caused by a non-traumatic event qualifies for payment.
    Admiral Robinson. Both the CFR (38 CFR Sec. 9.20(e)(3)(i)(C)) and 
the August 5, 2009, TSGLI procedural guide specifically address this 
issue by stating that preventive medical procedures such as 
inoculations, and any complications arising from such procedures or 
treatment, are excluded from TSGLI payment.
    The DES is the Uniformed Services' program to consider 
servicemembers whose ability to continue their military career is 
called into question as a result of their health state. This system 
does not delineate servicemembers based upon the cause of their injury 
or illness, with the potential exception of self-inflicted cases, but 
rather the outcome and impact. The servicemember may be medically 
retired and compensated based on the level of disability associated 
with their injury or illness. Service-connected conditions and 
disabilities are also eligible for continuing care and potential 
compensation through the VA upon the servicemember's separation or 
retirement.
    General Green. The answer requires more than a simple yes or no 
reply. My understanding is that Congress modeled TSGLI after commercial 
accidental death and dismemberment policies with some expansion of 
benefits to address the unique needs of military service. Commercial 
accidental death and dismemberment policies specifically exclude 
disease and illness, including mental health conditions such as PTSD as 
is the case with the current TSGLI program. The TSGLI program also does 
not currently cover claims resulting from the diagnosis of, or medical 
or surgical treatment for, an illness or disease, or any complications 
arising from such medical or surgical treatment, or preventive medical 
procedures such as inoculations. Congress also expressed their intent 
that the basic TSGLI premium go no higher than its current level of $1 
per month. Expanding TSGLI to include claims resulting from medical 
treatments, illnesses, or preventive inoculations would almost 
certainly result in higher TSGLI premiums.
    Currently, our servicemembers cannot decline TSGLI coverage unless 
they also decline SGLI coverage. They automatically have the monthly $1 
premium deducted from pay. If expanding coverage results in a TSGLI 
premium increase, our concern is that it could change how the program 
is administered. An increase in premium may require giving 
servicemembers an option on whether to elect TSGLI coverage. If that 
occurs, our junior servicemembers may decline TSGLI coverage resulting 
in fewer servicemembers receiving coverage and payment for future 
traumatic injuries. While we support a broad TSGLI program that 
maximizes coverage to the widest degree possible, we do not support 
expanding coverage to the point that it results in an increase of the 
current TSGLI premium and a change in the program that would allow 
servicemembers to opt out. Any expansion of coverage needs to consider 
this possibility as this program is too important to our junior 
servicemembers to allow that to occur.
    Admiral Jeffries. Both the CFR (38 CFR Sec. 9.20(e)(3)(i)(C)) and 
the August 5, 2009, TSGLI procedural guide specifically address this 
issue by stating that preventive medical procedures such as 
inoculations, and any complications arising from such procedures or 
treatment, are excluded from TSGLI payment.
    The DES is the Uniformed Services' program to consider 
servicemembers whose ability to continue their military career is 
called into question as a result of their health state. This system 
does not delineate servicemembers based upon the cause of their injury 
or illness, with the potential exception of self-inflicted cases, but 
rather the outcome and impact. The servicemember may be medically 
retired and compensated based on the level of disability associated 
with their injury or illness. Service-connected conditions and 
disabilities are also eligible for continuing care and potential 
compensation through the VA upon the servicemember's separation or 
retirement.
                                 ______
                                 
               Questions Submitted by Senator Mark Begich
                           suicide prevention
    8. Senator Begich. General Schoomaker, I understand the Army has 
instituted a number of programs to address the increasing suicide rates 
among servicemembers. Can you provide an update on some of the 
programs?
    General Schoomaker. The Army has implemented several near-term 
projects to improve our understanding--such as the Army Campaign Plan 
for Health Promotion, Risk Reduction, and Suicide Prevention, and the 
Vice Chief of Staff's monthly suicide review meetings. The Army has 
also enlisted the help of the National Institute of Mental Health 
(NIMH) to conduct a long-term study on risk and resilience in the Army.
    The Army conducts extensive reviews of every suicide death, both 
Active Duty and non-Active Duty, to improve our understanding of why a 
soldier may choose to take his/her life. The Army Suicide Prevention 
Task Force has created a standardized 37 line report which units use to 
analyze the factors surrounding each soldier's death by suicide. This 
report is forwarded to the Pentagon within 30 days of the soldier's 
death, and a general officer conducts a back brief to the Vice Chief of 
Staff of the Army during his monthly suicide review meeting. This back 
brief is done via a world-wide video teleconference so that leaders 
across the Army can share lessons learned and improve early recognition 
of at-risk soldiers.
    The Army has created the Army Behavioral Health Integrated Data 
Environment database. This database will provide a standardized, 
enterprise-wide, capability to integrate information from dispersed 
legal, medical, and personnel databases into a comprehensive health 
surveillance database to support mental, behavioral, social health, and 
public health activities.
    NIMH has undertaken the Army Study to Assess Risk and Resilience in 
Servicemembers (Army STARRS), which is the largest study ever 
undertaken of suicide and mental health among military personnel. The 
purpose of Army STARRS is to identify, as rapidly and as scientifically 
as possible, modifiable risk and protective factors of suicidal 
behavior, to help inform the Army's ongoing efforts to prevent suicide 
and improve soldiers' overall psychological health and functioning.
    Army actions taken in 2009 to combat the increasing suicide rate 
follow:

    1.  Produced the interactive ``Beyond the Front'' training video.
    2.  Produced the ``Shoulder to Shoulder: No Soldier Stands Alone'' 
training video.
    3.  Updated AR 600-63 (Army Health Promotion) and DA Pam 600-24 
(Health Promotion, Risk Reduction and Suicide Prevention).
    4.  Published Suicide Awareness Pocket Guide for all soldiers.
    5.  Increased access to behavioral health and substance abuse 
counseling.
    6.  Funded NIMH grant for the Army STARRS, $50 million/5-year 
study--Quarterly Updates to VCSA to Accelerate Lessons Learned.
    7.  Initiated a tele-behavioral health screening pilot project with 
the 25th Infantry Division, involving 100 percent screening through 
face-to-face or live video counseling.
    8.  Approved nationally-recognized best-practice suicide 
intervention skills training for Army use to assist in early 
recognition of at-risk individuals.

    Army actions for 2010 follow:

    1.  Developing interactive ``Home Front'' training video.
    2.  Developing sequel to ``shoulder to shoulder'' training video.
    3.  Developing an additional skill identifier for certified suicide 
intervention skills trainers.
    4.  Expanding tele-behavioral health pilot project, to become the 
Comprehensive Behavioral Health System of Care and implementing it into 
the ARFORGEN cycle so behavioral health care is targeted at critical 
points (predeployment, deployment, reintegration, reset, et cetera).
    5.  Developing program effectiveness measures.
    6.  Using the Suicide Specialized Augmentation Response Team/Staff 
Assistance Team to support commanders by assessing programs, policies, 
and resources, and identify gaps to improve local suicide prevention 
programs.

    9. Senator Begich. General Schoomaker, in your opinion, are we 
doing enough?
    General Schoomaker. I will not be satisfied until suicide rates in 
the Army are reduced below the suicide rate for the civilian 
population. Despite our inability to halt the increase in suicide, I am 
very impressed with the prevention efforts of leaders across the Army. 
The Army has implemented many changes to programs, policies, and 
procedures in an effort to improve our suicide prevention programs. We 
have hired more behavioral health professionals, we are improving our 
screening methods, and we are using technology to expand access to our 
behavior health providers. We are constantly looking for ways to 
improve and have eagerly sought the assistance of numerous outside 
experts.
    The Army has documented behavioral health authorizations for 2,340 
providers. As of the first quarter of fiscal year 2010, the Army had an 
on-hand behavioral health provider inventory of 3,714, this equates to 
a 159 percent fill rate. However, given current workload requirements 
and accounting for the increased demand for psychological health 
support for soldiers and families, we have calculated a current 
``needs'' estimate of approximately 4,305 behavioral health providers. 
This represents an 86 percent fill rate when compared to the current 
on-hand inventory. We estimate that an additional 591 behavioral health 
providers are needed to meet current demand. The Army is actively 
engaged in the recruitment and accession of providers to meet the 
identified behavioral health requirements.
    Stigma remains a significant issue in America and Army culture. 
Army leaders are concerned that soldiers appear reluctant to seek 
behavioral healthcare due to stigma and/or fear of negative 
repercussions. As a result, programs have been developed to help 
decrease the stigma associated with soldiers seeking behavioral 
healthcare while also providing an increased layer of privacy.
    The Reengineering Systems of Primary Care Treatment in the military 
is a program designed to decrease the stigma associated with seeking 
behavioral health treatment by placing these services within primary 
care facilities. Through this program, any visit a soldier makes to 
his/her primary care physician for any reason is an opportunity to 
screen the soldier for symptoms that could indicate that he/she is 
struggling with symptoms associated with post-traumatic stress disorder 
(PTSD) or other behavioral health diagnoses. This program is also 
accessible via the web, where soldiers can self-refer. Services 
provided are confidential, unless it is determined that a soldier is at 
risk of harm to self or others.
    The Soldier Evaluation for Life Fitness program incorporates 
behavioral health as a routine component of the health readiness 
process for all soldiers returning to their home stations following 
deployment. Since every soldier receives a consultation on-site, no one 
is stigmatized when seen by a behavioral healthcare practitioner. 
Through the Soldier Evaluation for Life Fitness program, soldiers first 
complete a computer-based self-assessment. On-site clinicians review 
the results of the assessments immediately, allowing them to tailor 
their consultations to meet each soldier's unique needs. Soldiers can 
then be evaluated for individual health risks that may range from PTSD 
and other behavioral health diagnoses to physical health conditions.
    Military OneSource is a free information center and website where 
soldiers can seek assistance 24 hours/day, 7 days/week. Counseling is 
provided by phone or in person by Masters-level consultants on issues 
such as family support, emotional support, debt management, and legal 
issues for up to 12 sessions at no cost to the soldier. Military 
OneSource does not release information about users of the services, 
with the exception of issues of child abuse, elder abuse, spousal 
abuse, and/or risk of harm to self or others. Military OneSource can be 
accessed at www.militaryonesource.com or 1-800-342-9647. Soldiers may 
complete a free, voluntary online behavioral health self-assessment, 
and obtain referrals at www.MilitaryMentalHealth.org. This is an 
approach to assist soldiers and family members with identifying 
symptoms and getting assistance. It provides confidential and immediate 
feedback, as well as referrals to TRICARE, VA centers, and Military 
OneSource.
    Military and family life consultants are also available to assist 
soldiers who are experiencing difficulty coping with daily life 
concerns and issues. Military and family life consultants are Licensed 
Clinical Social Workers, Professional Counselors, Marriage and Family 
Therapists, and Psychologists. They provide six free informal and 
confidential counseling sessions. No records are kept and flexible 
appointment times and locations are offered. Soldiers may access 
military and family life consultants through the Army Community 
Services by self referral, without having to provide a reason for 
seeking these services, or via Military OneSource, who can assist them 
with the identification of a consultant in the soldier's local area.

                 comprehensive soldier fitness program
    10. Senator Begich. General Schoomaker, the Army's Comprehensive 
Soldier Fitness (CSF) program is a structured, long-term assessment and 
development program to build the resilience and enhance the performance 
of every soldier, family member, and Army civilian. Can you tell me 
more about this program, and the role of the Army Medical Department 
(AMEDD) in support of the program?
    General Schoomaker. The Army established the CSF program to 
increase the resilience of soldiers and families by developing their 
strengths in five important domains: physical, emotional, social, 
spiritual, and family. The CSF program will ensure that all soldiers 
undergo an assessment of their total fitness. The results of the 
assessment will direct individualized training, intervention, or 
treatment programs, as needed. This program will begin at accession, 
and, like physical fitness, will include reassessment at appropriate 
intervals. The CSF office applies accepted methodology and scientific 
rigor to ensure that all training, interventions, and treatments have 
demonstrated effectiveness.
    The AMEDD is a strong supporter of the CSF program. Although there 
is overlap with AMEDD goals, CSF is not a medical program. The AMEDD 
will implement CSF as will every other unit by taking the Global 
Assessment Tool (GAT), training Master Resilience Trainers (MRT), and 
implementing CSF training on our training calendar (as we would any 
other Warrior Task and Battle Drill). Additionally, the AMEDD supports 
the CSF physical dimension by providing medical/health-related data on 
the Soldiers Independent Operational Test to provide physical fitness 
metrics for the soldiers. Also, the AMEDD is instrumental in 
coordinating with CSF on state-of-the-art physical fitness training 
content and products for inclusion in the CSF online training modules, 
MRT training, and Warrior Task and Battle Drill training.

    11. Senator Begich. General Schoomaker, do you believe this program 
is properly funded?
    General Schoomaker. Yes, I am not aware of any requirements for CSF 
that have not been funded.

                        family health initiative
    12. Senator Begich. General Green, I understand the Air Force 
implemented the Family Health Initiative (FHI) which mirrors the 
American Academy of Family Physicians ``Patient Centered Medical Home'' 
concept and is built on the team-approach for effective care delivery. 
I also understand you have two pilot programs at Edwards Air Force 
Base, CA, and Ellsworth Air Force Base, SD. Can you provide an update 
on the status of these pilots?
    General Green. We began implementation of the FHI at Edwards Air 
Force Base and Ellsworth Air Force Base in 2008. As our most mature 
sites, we have seen outstanding improvement in patient continuity 
leading to improved patient and staff satisfaction. Additionally, as we 
have forged greater relationships through continuity with our patients, 
health care outcomes have improved accordingly, especially for our most 
complex patients with diseases such as diabetes mellitus. We have taken 
the lessons learned from our initial two sites and used them to improve 
FHI implementation at 11 additional locations across the Air Force in 
2009: Andrews, Bolling, Elmendorf, FE Warren, Hill, Lakenheath, 
Laughlin, Misawa, Patrick, Scott, and Sheppard Air Force Bases. The 
lessons learned at all 13 of these locations are being applied as we 
implement FHI and the Patient Centered Medical Home at 20 additional 
Air Force military treatment facilities (MTF) in 2010, with a goal of 
Air Force-wide implementation by the end of 2012.

    13. Senator Begich. General Green, do you believe this program 
should be implemented across DOD and the other Services?
    General Green. The Air Force FHI is based on a concept known as the 
Medical Home that originated in U.S. professional medical societies for 
primary care specialties. The Medical Home has become a Military Health 
System (MHS) strategic priority. The Army and Navy have prototype 
programs based on the Medical Home concept. We are exchanging 
information, ideas, and experiences with the Army and Navy as we move 
forward and adapt the processes to the missions we support. An 
advantage of sharing this as a MHS priority is the pursuit of common 
requirements supporting the Medical Home concept, reflected in the 
electronic health record (EHR) and personal health record requirements 
in DOD. We are excited about providing benchmark-quality primary care 
services to our patients.

                          center of excellence
    14. Senator Begich. Dr. Rice, can you give an update/status of 
section 1623, ``Center of Excellence in Prevention, Diagnosis, 
Mitigation, Treatment, and Rehabilitation of Military Eye Injuries'' 
that was in the National Defense Authorization Act for Fiscal Year 
2008? In general, this section stated that the ``Secretary of Defense 
shall establish within DOD a center of excellence in the prevention, 
diagnosis, mitigation, treatment, and rehabilitation of military eye 
injuries.''
    Dr. Rice. The Department has completed facility design of the 
Vision Center of Excellence (VCE). Contract award is pending, with a 
projected completion by third quarter of fiscal year 2011.
    The VCE is creating a staffing plan for Initial Operating 
Capability (IOC) and Full Operating Capability, to include functions, 
grades, classification, responsibilities, and mission of each 
subordinate division. We anticipate hiring IOC staff in the third 
quarter of fiscal year 2010.

                          specialist shortages
    15. Senator Begich. General Green, the 3rd Medical Corps at 
Elmendorf Air Force Base, headed by Colonel Paul Friedrichs, runs one 
of the best MTFs in the Air Force. However, specialty shortages at the 
MTF and in Alaska continue to plague the ability to treat patients. Is 
the Air Force looking at how to address those shortages by bringing in 
more specialists?
    General Green. I returned this week from my third visit to Alaska 
to learn more about how the Air Force Medical Service (AFMS) partners 
with our municipal, State, and Federal counterparts to improve access 
to care while sustaining the medical proficiency of our Air Force 
medics in Alaska. As part of this visit, I was able to travel with your 
Rural Director, Ms. Tiffany Zulkosky, to visit military medics bringing 
much-needed care to the residents of Kotzebue, Noorvik, and Selawik. As 
our military population has grown, the Air Force has added over 150 new 
medical authorizations at the third Medical Group to minimize the 
number of patients who must seek care downtown. We are actively 
pursuing sharing agreements with the VA and Alaska Native Medical 
Center to further expand the medical services we offer our patients.
    The AFMS programs medical resources based on population and mission 
requirements. The AFMS programmed an increase of specialty doctors and 
key medical enablers, such as nurses, medical technicians, and 
administrative support from fiscal years 2008 to 2011. As part of the 
fiscal years 2012 to 2017 Program Objective Memorandum planning, the 
AFMS is carefully reviewing the mix of services offered at each of our 
facilities including those at Eielson and Elmendorf Air Force Bases. We 
see continued opportunities to support State and local medical 
providers' efforts to build a trauma system for Anchorage, as well as 
to build robust Graduate Medical Education programs, and a seamless e-
health network that will help improve access for all patients.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                        adara networks contract
    16. Senator McCain. Dr. Rice, what is the status of the DOD 
Inspector General's (IG) investigation into allegations of impropriety 
in the award of health information technology contracts to Adara 
Networks, Inc.?
    Dr. Rice. DOD policy does not permit comment on ongoing DOD IG 
investigations.

    17. Senator McCain. Dr. Rice, what were the findings and results of 
the internal investigation conducted by the Department into allegations 
of impropriety in the award of health information technology contracts 
to Adara Networks, Inc.?
    Dr. Rice. The preliminary review found the program did not fully 
adhere to the DOD Directive 5000 series, Federal Acquisition 
Regulations, Defense Federal Acquisition Regulations Supplement 
Acquisition Principles.
    There were errors in judgment and a lack of program and acquisition 
planning, transparency, and oversight. Software and documentation, 
intellectual property developed and owned by the MHS, was 
inappropriately provided to Adara Networks.

    18. Senator McCain. Dr. Rice, please identify the source and total 
amount of funds provided to Adara for work on the DOD EHR.
    Dr. Rice. The funding source was Operation and Maintenance--fiscal 
year 2007 and the total aount awarded was $9,944,792.53.

    19. Senator McCain. Dr. Rice, please identify and describe each 
product delivered to the government under the Adara contract, including 
reports, software, and/or electronic code.
    Dr. Rice. The following products were delivered to the government 
under the Adara contract:

        <bullet> (1) Lot, Mesh Networking Technologies
        <bullet> (1) Lot, Equipment, including software licenses, 
        necessary for an eight node infrastructure. Standard support 
        and maintenance--including 1 year of all minor releases, all 
        maintenance patches, and support coverage is included with the 
        software
        <bullet> (8) Each, Multi Path Virtual Circuit Router
        <bullet> (8) Each, Multi Path Dynamic Application Layer
        <bullet> (8) Each, Multi Homed Application Layer (7) Object
        <bullet> (8) Each, Multi Homed Application Layer (7) Host
        <bullet> (8) Each, Multi Path Virtual Routers
        <bullet> (8) Each, Multi Path Routing Software, Multi Path 
        Routing Protocol and Daemon
        <bullet> (8) Each, Multi Path QoS Router
        <bullet> (8) Each, Multi Path SOA Content Based Router
        <bullet> (10) Each, Secure Communication Gateways
        <bullet> (1) Each, Central Management Systems

    20. Senator McCain. Dr. Rice, are those products being utilized in 
ongoing development of the EHR? If not, why not?
    Dr. Rice. No, those products are not being utilized in ongoing 
development of the EHR.
    An Analysis of Alternatives (AoA) is currently being developed, 
which will provide materiel solutions to the requirement to the EHR. 
Once that solution is chosen, an acquisition strategy will be 
formulated in accordance with DOD Directive 5000, the Defense 
Acquisition System.

    21. Senator McCain. Dr. Rice, according to press reports, 
electronic code for the MHS was provided to Adara Networks, Inc. What 
companies under contract to DOD are in possession of that code at this 
time?
    Dr. Rice. Only Adara Networks, Inc., was in possession of that 
code.

    22. Senator McCain. Dr. Rice, what assurances can you give Congress 
that sensitive medical information is not at risk?
    Dr. Rice. I am confident sensitive medical information is not at 
risk.
    On December 7, 2009, in consultation with the TRICARE Management 
Activity (TMA) Privacy Office and TMA Information Assurance, the 
Defense Health Information Management System (DHIMS) Program Office 
determined that the overall risk of penetration of DOD health records, 
accounts, or other privileged/secured access sites or databases was 
low. The Computer Network Defense would prohibit unauthorized access to 
the production system.

    23. Senator McCain. Dr. Rice, has the Department imposed any 
sanctions with respect to future contracts on Adara Networks, Inc.?
    Dr. Rice. No, the Department has not imposed any sanctions with 
respect to future contracts on Adara Networks, Inc.

                       electronic health records
    24. Senator McCain. Dr. Rice, what is the schedule for development 
and delivery of an EHR for DOD?
    Dr. Rice. Armed Forces Health Longitudinal Technology Application, 
the existing DOD EHR, has been deployed worldwide since 2006. A 
schedule of the way ahead for the EHR will be developed and released 
following completion of the AoA for EHR capability.

    25. Senator McCain. Dr. Rice, is the program fully funded in the 
fiscal year 2011 request and in the Future Years Defense Plan?
    Dr. Rice. DOD's EHR program is fully funded in the fiscal year 2011 
request and in the Future Years Defense Plan.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                           tricare contracts
    26. Senator Graham. Dr. Rice, last July, TRICARE Management 
Activity announced the selection of the contractors for the $55.5 
billion (over 5 years) TRICARE Third Generation (T-3) Managed Care 
Support Services Contracts. It is our understanding that as a result of 
protest filed by two of the incumbents, however, that transition work 
with the newly selected contractors was stopped pending the Government 
Accountability Office (GAO) protest review and decision. Current 
TRICARE managed care contracts remain in place until March 31, 2011, 
and health care delivery continues while options are being considered. 
I want to ensure that TRICARE beneficiaries continue to have timely 
access to high quality health care during the protest period and the 
critical transition period to the new contracts. What is the status 
regarding the evaluation of GAO's recommendations?
    Dr. Rice. We are concluding our evaluation of the GAO 
recommendations and will be announcing our approach to resolving the 
protest issues in the summer of 2010.

    27. Senator Graham. Dr. Rice, when will these contracts be awarded?
    Dr. Rice. We expect to take steps to resolve the remaining issues 
regarding these contracts in the summer of 2010.

    28. Senator Graham. Dr. Rice, since the 10-month transition 
deadline is approaching, does DOD expect to resume transition soon or 
will the current contracts be further extended?
    Dr. Rice. We believe transitions can be completed by April 2011, 
coinciding with the current contracts end date.

    29. Senator Graham. Dr. Rice, can you assure me that TRICARE's 
beneficiaries will not be harmed during this contract transition?
    Dr. Rice. I assure you TRICARE beneficiaries will not be harmed 
during this contract transition.
    The current regional health care contractors will continue to 
provide services to beneficiaries until March 31, 2011. Extensions to 
our current contracts will allow time for transition to the T-3 
contracts, while ensuring beneficiaries continue to receive high-
quality care and outstanding customer service.

                        medicating the military
    30. Senator Graham. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, do you agree 
with the reporting in the Army Times on March 8, 2010, that: ``At least 
one in six servicemembers is on some form of psychiatric drug.'' If 
not, why not? What available data do you use to support your statement?
    Dr. Rice and Admiral Hunter. We do not agree with the Army Times 
reporting.
    In an analysis completed in February 2010, data from the Pharmacy 
Data Transaction Service (PDTS), reported less than 3 percent of all 
Active Duty members are on psychiatric drugs.
    The PDTS is a centralized data repository that allows us to build a 
common patient medication profile for all DOD beneficiaries. The data 
for this analysis was focused on two queries: (1) the number of unique 
Active Duty servicemembers who received any prescription, and (2) the 
number of Active Duty servicemembers that received any of the 
psychotropic medications as defined by the CENTCOM Pharmacy and 
Therapeutics Committee.
    General Schoomaker. I do not agree with the statistic used by the 
Army Times. The quote referred to data from the Mental Health Advisory 
Team (MHAT)-V Report from Afghanistan (2007), in which 17 percent of 
U.S. soldiers reported taking a medication for a mental health or sleep 
problem during their deployment. The MHAT-VI (2009) conducted a more 
systematic sampling of maneuver and support units across both the Iraq 
and Afghanistan theaters and separated medications for sleep and other 
mental health indications. Overall, in MHAT-VI, 3 to 6 percent of 
soldiers surveyed reported using a medication for a ``mental health or 
stress problem,'' and 8 to 14 percent reported using a medication for a 
sleep problem. (Note: These percentages cannot be added together, 
because some individuals were taking both categories. In-theater data 
were not available for sailors, marines, or Air Force personnel.)
    In a stratified random DOD-wide survey at CONUS and OCONUS 
installations involving Active Duty of all Services, 8.6 percent of 
servicemembers reported receiving a prescription for depression, 
anxiety, or sleep problems in the preceding 12 months (10.7 percent 
Army, 6.2 percent Navy, 7.9 percent Marines, 8.1 percent Air Force) 
(DOD Health Related Behaviors Among Active Duty Military Personnel 
2009).
    In January 2010, data from the PDTS which captures all 
prescriptions filled at MTFs, the TRICARE Mail Order Pharmacy, and 
civilian pharmacies (when paid for using the TRICARE benefit), 
indicated that 3.3 percent of Army Active Duty soldiers filled a 
prescription for an antidepressant in that month. Antidepressants 
include selective serotonin reuptake inhibitors (SSRIs), tricyclics, 
heterocyclics, and monoamine oxidase inhibitors (MAOIs). It should be 
noted, however, that this analysis does not include prescriptions 
filled in the deployed environment, and may not capture the full 
medication usage if soldiers received a prescription from outside the 
MHS, or a prescription prior to January that was for longer than a 1-
month period.
    Thus, the best data available suggest that the rate of current (1 
month) use of antidepressants specifically in CONUS is approximately 3 
percent and the estimate for any use of antidepressants during 
deployment is 3 to 6 percent. The rate is considerably higher when 
sleep and antianxiety medications are included in addition to 
antidepressants.
    Admiral Robinson. The quoted statistic regarding one in six 
servicemembers on some form of psychotropic drug is apparently derived 
from the fifth MHAT survey done in 2007. This was a survey of deployed 
Army personnel and included a question about taking a medication for 
help with sleeping or any mental health or stress problem. The result 
was about 17 percent of respondents said that they had taken a 
medication for one of these reasons. A soldier would have answered yes 
to this question if they had been given a few sleep aids to help with 
changing 12 time zones in 2 days, which is accepted medical practice, 
or been on a several-month course of antidepressants. Clearly, 
combining these two very different answers together is not ideal.
    To address this shortcoming, the MHAT 6 survey, completed in 2009, 
broke out the questions: (1) about taking a medication for sleep; and 
(2) about taking a medication for a mental health or stress problem. 
This resulted in a rate of 3 to 6 percent of respondents indicating 
they had taken a medication for mental health or stress. MHAT 6 results 
are consistent with other data points concerning psychotropic use by 
military personnel, including the Navy Behavioral Health Needs 
Assessment Survey (BHNAS) data from this year that indicates that about 
22 percent of respondents used sleeping medication during their 
deployment and 3.2 percent used medication for mental health reasons. 
The estimate of usage for mental health reasons of the adult U.S. 
civilian population approximates 10 percent. The Navy BHNAS is an 
assessment tool utilizing similar questions to the U.S. Army's Mental 
Health Assessment Tool (MHAT). It provides real time, actionable, unit 
level psychological health surveillance and is being used to assess 
Navy members who are deployed as individual augmentees.
    General Green. Thank you for the opportunity to address this 
concern regarding the health and well-being of our Air Force members 
and their use of psychotropic medications. The prevalence rate of 
psychotropic medication use in the Air Force on a single day, March 1, 
2010, was 1 in 17, or 5.8 percent, of the Active-Duty Force. This 
figure is a point prevalence of one day. The number of unique Air Force 
servicemembers who had one or more prescriptions for any psychotropic 
medication, including controlled prescription pain medications, on this 
date was 22,003 or 5.8 percent of the Active Force. When controlled 
prescription pain medications are removed, the number of unique 
servicemembers on a psychotropic medication changes to 17,962 or 4.7 
percent of the force. Psychotropic medications are used to treat many 
medical conditions beyond psychiatric syndromes such as the use of 
tricyclic antidepressants for chronic pain, and other antidepressant 
classes are also used to treat migraine headaches and fibromyalgia. The 
data was extracted from the MHS PDTS table in the M2 on March 1, 2010.
    Admiral Jeffries. The quoted statistic regarding 1 in 6 
servicemembers on some form of psychotropic drug is apparently derived 
from the fifth MHAT survey done in 2007. This was a survey of deployed 
Army personnel and included a question about taking a medication for 
help with sleeping or any mental health or stress problem. The result 
was about 17 percent of respondents said that they had taken a 
medication for one of these reasons. A soldier would have answered yes 
to this question if they had been given a few sleep aids to help with 
changing 12 time zones in 2 days, which is accepted medical practice, 
or been on a several-month course of antidepressants. Clearly, 
combining these two very different answers together is not ideal. To 
address this shortcoming, the MHAT 6 survey, completed in 2009, broke 
out the questions: (1) about taking a medication for sleep; and (2) 
about taking a medication for a mental health or stress problem. This 
resulted in a rate of 3 to 6 percent of respondents indicating they had 
taken a medication for mental health or stress. MHAT 6 results are 
consistent with other data points concerning psychotropic use by 
military personnel, including the Navy BHNAS data from this year that 
indicates that about 22 percent of respondents used sleeping medication 
during their deployment and 3.2 percent used medication for mental 
health reasons.
    The most current data, based on actual prescriptions filled by 
marines, demonstrate that less than 7 percent of marines filled a 
prescription for an antidepressant, antianxiety medication, or 
stimulant during all of 2009. At any one time the percentage is 
obviously even smaller. Estimates for the adult civilian population of 
the United States are higher.

    31. Senator Graham. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, do you agree 
that many troops are taking more than one kind of psychiatric drug, 
``mixing daily cocktails,'' and that this behavior can lead to suicide?
    Dr. Rice and Admiral Hunter. No, we do not agree. While we are 
aware of a small number of troops who may be taking more than one kind 
of psychiatric drug to treat multiple symptoms justified by their 
clinical condition, this is not a common occurrence and we would not 
categorize it as many troops.
    Suicide is caused by multiple factors. We have not seen evidence 
directly correlating an increase in suicides with servicemembers who 
are prescribed multiple psychiatric drugs justified by clinical 
condition under the supervision of physicians. Independent studies have 
found that the benefits of antidepressants outweigh the risks of 
suicide.
    General Schoomaker. The Army is concerned with the health and 
resilience of all servicemembers and extends great effort to reduce the 
risk of loss of a single servicemember to the tragedy of suicide.
    In our soldier population, we use pharmacy data to provide a very 
precise accounting of how many soldiers are on multiple medications. We 
define multiple medications as two or more of any combination of sleep, 
psychotropic, or narcotic medications. For our Warriors in Transition, 
who have a variety of medical and psychiatric diagnoses, 703 (7.7 
percent) Warriors are on multiple medications out of a total population 
of 9,095 warriors. In the overall Active Duty population, 1,075 (0.2 
percent) soldiers are on multiple medications out of a population of 
557,642 soldiers.
    Reviewing completed suicides from 2001 to 2008, we found slightly 
more than one-third of the suicides had a history of psychotropic 
prescriptions, with 14 percent current prescriptions at time of death, 
and 19 percent within 3 months. We do not have the level of detail in 
our database to assess how many were on multiple medications.
    The Army has funded a 5-year, $50 million study with the National 
Institute of Mental Health to help answer questions about the 
relationship between psychiatric medications and suicide. This is a 
multi-pronged and multi-site study, led by the Uniformed Services 
University of the Health Sciences (USUHS) and supported by Harvard 
University, Columbia University, and the University of Michigan.
    Admiral Robinson. I do not agree with this statement. Sailors and 
marines who are taking medications have been carefully diagnosed, and 
when indicated, prescribed medications. Individuals placed on 
medications are closely monitored to ensure they are stable on the 
medications without side effects that would impair their ability to 
function or place them at risk. In addition, every sailor is screened 
prior to deployment via the NAVMED 1300/4 which addresses all medical 
requirements and is reviewed by a licensed medical provider to ensure 
individuals are medically suitable for deployment. Every marine is 
screened in a similar manner by their battalion surgeon to ensure they 
are suitable for deployment. Periodic surveillance of the psychological 
health of deployed sailors and marines is also being conducted.
    General Green. The Air Force is concerned with the health and 
resilience of all servicemembers and extends great effort to reduce the 
risk of loss of a single servicemember to the tragedy of suicide. In 
reviewing Air Force suicides over the past nearly 2 years we have seen 
no indication of a trend toward polypharmacy, or use and/or abuse of 
multiple psychotropic medications, in our servicemembers lost during 
this time. Data pulled from M2 reflects one day point prevalence for 
Active Duty Air Force personnel taking more than one psychotropic 
medication at the same time, or polypharmacy in psychotropics, on March 
1, 2010, was 6,061 or 1.6 percent of the Active Force. We have 
demonstrated vigilance in our management of servicemembers with chronic 
pain and complex medical management through guidance sent to the Chiefs 
of Medical Staff in an effort to ensure safe, multidisciplinary team 
management of servicemembers with chronic controlled pain medication 
use.
    The Air Force Suicide Prevention Program is also engaged in a 
number of studies with researchers at the USUHS to examine case data on 
past suicides, including data collected through our Suicide Event 
Surveillance System, and the DOD Suicide Event Report and Personal 
Health Assessment data, to look for factors that may allow us to better 
identify those at risk for suicide. Recent efforts in this area have 
allowed us to identify career fields that appear to be at greater risk 
for suicide, allowing leadership to target additional prevention 
efforts at these groups.
    The Air Force has also been collecting data on new recruits 
entering the Air Force regarding their past behavioral history. This 
data collection appears to show promise in allowing us to identify, 
from a recruit's earliest days in the Air Force, those airmen who may 
be at higher risk for a variety of problems. The Air Force is now 
exploring ways to reach out to these airmen to improve their ability to 
cope with the rigors of military life and improve resiliency.
    Admiral Jeffries. I do not agree that many marines are taking more 
than one kind of psychiatric medication and ``mixing daily cocktails.'' 
The most current data, based on actual prescriptions filled by marines, 
demonstrate that less than 7 percent of marines filled a prescription 
for an antidepressant, antianxiety medication or stimulant during all 
of 2009. At any one time the percentage is obviously even smaller. 
Servicemembers with more serious or complicated mental health 
conditions are more likely to be on multiple medications and these 
personnel are also more likely to attempt suicide. However, this is not 
a cause-and-effect relationship as much as a marker of a more serious 
condition.
    Internal Marine Corps suicide reviews have shown that regardless of 
duty station, deployment, or duty status, the primary stressors 
associated with marine suicides are problems in romantic relationships, 
physical health, work-related issues, such as poor performance and job 
dissatisfaction, and pending legal or administrative action. A fellow 
marine is the most likely person to notice a change in behavior that 
may be the first indication of an impending serious problem and the 
Marine Corps' strategy for dealing with the entire range of stress 
related issues starts with engaged leadership.

    32. Senator Graham. Dr. Rice, Admiral Hunter, and General Green, 
Brigadier General Loree Sutton, Director of the Center of Excellence 
for PTSD and TBI, recently testified to the House Veterans Affairs 
Committee that 17 percent of troops are currently on antidepressants. 
Is she correct?
    Dr. Rice and Admiral Hunter. Brigadier General Sutton's oral 
statement is correct that data from the 2007 MHAT-V Report from 
Afghanistan found 17 percent of U.S. Army soldiers reported taking 
medication for mental health or sleep problems while deployed. Those 
medications include, but are not limited to, antidepressants.
    General Green. Thank you for the opportunity to address this 
concern regarding the health and well-being of our Air Force members 
and their use of antidepressant medications. Antidepressant medications 
are used for more than psychiatric conditions alone. Antidepressants 
can be used in managing pain conditions, fibromyalgia, and migraine 
headaches, as examples. Thus the current use of antidepressant 
medications in the Air Force cannot be directly construed to imply 
prevalence of psychiatric conditions in our members.
    The Air Force has an antidepressant utilization rate of 1 in 63 or 
1.6 percent of the Active Force based upon data extracted from the MHS 
PDTS table in the M2 on March 1, 2010. This figure is a one-day point 
prevalence.

    33. Senator Graham. Admiral Hunter, has your office conducted any 
kind of study to examine the utilization of prescription medicines by 
Active Duty members? If so, what were the results?
    Admiral Hunter. The Utilization Management Division of the 
Pharmaceutical Operations Directorate, within the TRICARE Management 
Activity, conducts routine utilization studies based on various 
parameters. The results of these studies show use of prescription 
medication in the Active Duty population is well in line with trends we 
see in the non-Active Duty population.

    34. Senator Graham. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, is more research 
needed on the effect of psychiatric drugs on performance of military 
duties?
    Dr. Rice and Admiral Hunter. Further research on the effects of 
psychiatric medications and how they relate to performance of military 
duties is needed for continual assessment. It is DOD policy that health 
care providers must recommend to commanders whether servicemembers with 
psychiatric disorders or who are prescribed psychotropic medication 
should be deployed or are fit for military duties.
    General Schoomaker. Yes, more research is needed to assess the 
effect of psychiatric drugs and all medications on the performance of 
military duties. This is especially true in deployed environments that 
may require prolonged vigilance and sustained coordination skills to 
ensure safe and effective functioning of servicemembers.
    Admiral Robinson. Psychiatric medications can and do effectively 
treat symptoms and permit individuals to deploy and to function without 
compromising performance. When individuals are placed on medications, 
they are closely monitored by their healthcare provider to ensure they 
are not experiencing side effects that may compromise their ability to 
perform their duties. Research on medication effects is currently 
underway in many sectors and clinical evidence uncovered in research is 
used to advise the selection of medications.
    General Green. Yes, more research is needed to assess the effect of 
not only psychiatric drugs, but all medications, on the performance of 
military duties. This is especially true in deployed environments that 
may require prolonged vigilance and sustained coordination skills to 
ensure safe and effective functioning of servicemembers.
    Admiral Jeffries. Psychiatric medications can and do effectively 
treat symptoms and permit individuals to deploy and to function without 
compromising performance. When individuals are placed on medications, 
they are closely monitored by their healthcare provider to ensure they 
are not experiencing side effects that may compromise their ability to 
perform their duties. Research on medication effects is currently 
underway in many sectors and clinical evidence uncovered in research is 
used to advise the selection of medications.

    35. Senator Graham. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, can you comment 
on the reasons why various medicines, such as antidepressants, are 
prescribed and the potential benefits for servicemembers who are 
receiving them?
    Dr. Rice and Admiral Hunter. Antidepressants, often referred to as 
psychotropic or psychotherapeutic medications, are prescribed for a 
variety of reasons, including depression, recurrent headaches, pain, 
smoking cessation, and specific mental health disorders. 
Antidepressants, when used with proper medical supervision, in 
appropriate situations, and in conjunction with other treatments, are 
important and effective tools for supporting the mental health needs of 
our Armed Forces.
    These medications have changed the lives of servicemembers for the 
better. Each patient reacts differently to antidepressants, some 
require only short-term antidepressant treatment while others require 
long-term treatment for more resistant conditions.
    General Schoomaker. Antidepressants, when used with proper medical 
supervision, in appropriate situations, and usually in conjunction with 
other treatments, are an important and effective tool for supporting 
mental health needs, both in deployed settings and at home.
    Antidepressants are now prescribed for a variety of diagnoses. They 
are used for a variety of depressive disorders, and anxiety disorders 
including PTSD. Certain antidepressants are also used for headaches, 
pain, and sleep.
    There are many different types of antidepressants. The class known 
as selective serotonin re-uptake inhibitors is very safe, in general. 
Older agents, known as tricyclics, heterocyclics, and monoamine oxidase 
inhibitors have more side-effects and are used more rarely. Sometimes 
they are used for pain and headaches rather than depression. Finally, 
buproprion is also used as an anti-smoking aid.
    The degree of response to medication, ranging from little relief of 
symptoms to complete remission, depends on a variety of factors related 
to the individual and the particular disorder being treated. In 
general, antidepressants are effective for treating symptoms of 
depression, anxiety, and PTSD.
    Admiral Robinson. Medications such as antidepressants can be 
prescribed for a variety of reasons including depressive symptoms, 
anxiety, recurring headaches, pain, and smoking cessation. In addition, 
the use of medications can enable an otherwise nondeployable 
servicemember to effectively complete their mission in a deployed 
environment--greatly empowering the servicemember and significantly 
reducing the effects of mental health stigma.
    Stigma can be a significant factor in personnel not receiving 
treatment when treatment is needed. The use of medication in a deployed 
setting may suggest that servicemembers who need help are increasingly 
comfortable seeking help, which can significantly reduce the risk 
associated with untreated psychiatric problems, to include suicidal 
behavior associated with certain mental health conditions. A potential 
risk of suggesting that medication use is somehow a negative indicator 
or a problem is that it may increase stigma, thus inhibiting some from 
seeking critically important mental health treatment. Mental health 
medications, when used with proper medical supervision, in appropriate 
situations, and usually in conjunction with other treatments, can be a 
very appropriate and helpful part of personnel treatment, both in 
theater and at home and permit the servicemember to serve without the 
impairment that their untreated symptoms could impose.
    General Green. The prescription and management of medication, in 
all cases, must be done by a responsible physician working closely with 
their patient and sometimes the patient's family or other mental health 
professionals. This is the only way to ensure that the most effective 
use of medication is achieved with minimum risk of side effects or 
complications. Psychotropic medications have made dramatic changes in 
the treatment of mental disorders. Psychotropic medications also may 
make other kinds of treatment more effective by making it possible for 
the person to respond better to other therapy and treatment efforts.
    Like most drugs used in medicine, they correct or compensate for 
some malfunction in the body. Psychotherapeutic medications do not cure 
mental illness, but they do lessen its burden. The degree of response 
to medication, ranging from little relief of symptoms to complete 
remission, depends on a variety of factors related to the individual 
and the particular disorder being treated.
    Admiral Jeffries. Medications such as antidepressants can be 
prescribed for a variety of reasons including depressive symptoms, 
anxiety, recurring headaches, pain, and smoking cessation. In addition, 
the use of medications can enable an otherwise nondeployable 
servicemember to effectively complete their mission in a deployed 
environment--greatly empowering the servicemember and significantly 
reducing the effects of mental health stigma.
    Stigma can be a significant factor in personnel not receiving 
treatment when treatment is needed. The use of medication in a deployed 
setting may suggest that servicemembers who need help are increasingly 
comfortable seeking help, which can significantly reduce the risk 
associated with untreated psychiatric problems, to include suicidal 
behavior associated with certain mental health conditions.
    A potential risk of suggesting that medication use is somehow a 
negative indicator or a problem is that it may increase stigma, thus 
inhibiting some from seeking critically important mental health 
treatment. Mental health medications have solid medical evidence and 
research to support their use and when used with proper medical 
supervision, in appropriate situations, and usually in conjunction with 
other treatments, can be a very appropriate and helpful part of an 
individual's treatment. Appropriate use of these medications, both in 
theater and at home, along with leadership support, facilitate 
servicemembers continuing to serve without the impairment that their 
untreated symptoms could impose.

                      vision center of excellence
    36. Senator Graham. Admiral Hunter, one of the Senate Armed 
Services Committee's recommendations last year was to rapidly implement 
the programs and research mandated by Congress for the Vision Center of 
Excellence. How will the 2011 request support that Center?
    Admiral Hunter. The fiscal year 2011 budget request supports 
requirements for staffing towards full operational capability of the 
Vision Center of Excellence (VCE). This full operational capability 
will include civilian personnel and contract support, completion of 
Phase One and implementation of Phase Two of the Defense and Veterans 
Eye Injury and Vision Registry, establishment of the VCE Regional 
Clinical Centers of Excellence, Vision Support Cells and Vision 
Deployment Support Platforms, quarterly educational conferences and 
research symposia, and occupation of permanent facilities.

                   task force on wounded warrior care
    37. Senator Graham. Dr. Rice, last year Congress directed DOD to 
establish a task force to continuously examine care for wounded 
warriors. What is the status of that task force at this time?
    Dr. Rice. The task force is currently in the member nomination and 
establishment phase.
    The membership nomination slate is complete. The Department 
received input from the Services, Congress, White House Liaison Office, 
and private sector on the nominations. Currently, the recommended slate 
of 14 members is being reviewed within the Department and will be 
completed by April 30, 2010.
    The logistical support has been established by the Washington 
Headquarters Services for facilities, administrative support, and 
charter. Additionally, the initial support personnel for the task force 
have been identified along with a preliminary budget.
    Throughout this process, we are committed to working with Congress 
on this vital task force to examine care for wounded warriors.

                           health care reform
    38. Senator Graham. Dr. Rice, to the best of your knowledge, are 
there any primary negative effects of the newly enacted health reform 
legislation that will negatively impact health care benefits for 
military personnel, retirees, and their families?
    Dr. Rice. No, I do not believe the Patient Protection and 
Affordable Care Act will have any negative impacts on health care 
benefits for military personnel, retirees, and their families.

    39. Senator Graham. Dr. Rice, are there any secondary effects, such 
as cutting Medicare payments to physicians and hospitals, or expanding 
access to care, that could hurt military health care in the future?
    Dr. Rice. There may be secondary effects to TRICARE, but we will 
ensure these effects will not hurt military health care in the future.
    Because of this statutory connection between Medicare and TRICARE 
reimbursement rates, Medicare payment provisions of the Patient 
Protection and Affordable Care Act will affect TRICARE. We will monitor 
access to care and, when necessary, use available tools such as 
locality based waivers to increase payment levels for physicians to 
ensure adequate access to care for our beneficiaries.

                         health care workforce
    40. Senator Graham. Dr. Rice, do you agree that America and the 
military are facing a serious shortage of health care professionals 
that will only grow over time?
    Dr. Rice. Yes, I agree there is a shortage of health care 
professionals in the military and America. The military departments 
have a declining inventory of some wartime critical medical 
specialties. There is also a growing shortage of physicians and nurses 
in the United States. The pool of medical school applicants is 
shrinking and the population traditionally applying for the Health 
Professions Scholarship Program (HPSP) has been declining.

    41. Senator Graham. Dr. Rice, how will this shortage of health care 
professionals affect the military, and are we adequately preparing for 
it now?
    Dr. Rice. Currently, the military has a declining inventory of some 
wartime critical medical specialties which will affect the care of our 
servicemembers.
    To prepare for and counteract these shortages, the Department 
relies on Multiyear Special Pay and Incentive Special Pay as critical 
tools for managing the medical force. Also, DOD annually convenes the 
Health Professions Incentives Working Group, to make recommendations on 
incremental adjustments to the existing financial incentives for 
retention underneath the Federal cap.

    42. Senator Graham. General Schoomaker, Admiral Robinson, General 
Green, and Admiral Jeffries, you testified recently to the Senate 
Appropriations Subcommittee on Defense that you all face shortages in 
medical personnel. Where are your greatest shortages?
    General Schoomaker. The AMEDD is experiencing force-wide shortages 
in certain specific specialties and specialty shortages in certain 
locations. However, despite the persistent deployment tempo, the 
national shortage of many healthcare disciplines, and the compensation 
gap between military and civilian providers, the Army is doing well 
recruiting and retaining healthcare providers. Recruiting and retention 
authorities and bonuses are working, but we need to maintain constant 
vigilance.
    The most difficult skill sets to recruit and retain include: fully-
qualified physicians with surgical or primary care specialties, 
dentists (general and specialty), behavioral health professionals, and 
nurse anesthetists. According to the U.S. Army Recruiting Command 
(USAREC), one of the greatest challenges in the recruitment of 
healthcare professionals is simply a lack of awareness of Army 
Medicine. USAREC is attempting to alleviate this challenge by adopting 
a strategy of increased marketing of the benefits of Army Medicine.
    Additionally, the AMEDD is currently short at the grade of major 
(O4) across all corps. This is a function of several phenomena; the 
most notable being the loss of officers in the grade of captain (O3) 
who had completed their obligation prior to implementation of current 
retention initiatives, thus decreasing the number of officers available 
to promote to the grade of O4. While this overall grade imbalance is 
true, each corps also has specific specialty shortages at differing 
grades, signifying a potential capability gap. Recent recruiting 
success has increased the company grade inventory that will increase 
the inventory at the rank of major if these junior officers are 
retained, select specialty training, and earn promotion.
    We are addressing resolution of specific specialty shortages 
through precision recruiting, training, and retention initiatives. We 
must continue to take full advantage of the recruiting and retention 
authorities and bonuses provided by Congress if we are to maintain the 
recent strong results. Our experience over the last decade has proven 
that incentives, bonuses, and special pays work.
    Admiral Robinson.

------------------------------------------------------------------------
                                     Percent
           Subspecialty               Manned    Current INV   Authorized
------------------------------------------------------------------------
Medical Corps
  Surgery........................          84          176          210
  Family Medicine................          84          353          418
  Psychiatry.....................          83           93          112
  Preventive Medicine............          69           38           55

Dental Corps
  General Dentist................          86          365          424
  Oral Surgeon...................          81           70           86
  Prosthodontist.................          80           44           55
  Endodontist....................          89           42           47

Medical Service Corps
  Clinical Psychologist..........          84          106          126
  Physician assistant............          75          180          241
  Social Work....................          66           23           35
  Podiatry.......................          80           16           20

Nrse Corps
  Critical Care Nursing..........          73          290          396
  Perioperative Nursing..........          81          240          295
  Mental Health Nurse                      55           11           20
   Practitioner..................
  Family Nurse Practitioner......          82           72           88
------------------------------------------------------------------------

    Medical Corps
        <bullet> Recruiting and retaining general surgeons, preventive 
        medicine physicians, family medicine physicians, and 
        psychiatrists will remain a challenge over the next several 
        years. Wartime demand, perceived inequities in pay compared 
        with the civilian sector, and limited student pipelines are 
        contributing factors.

    Dental Corps
        <bullet> Dental Corps has difficulty directly accessing and 
        retaining oral surgeons, prosthodontists, and general dentists 
        because of the pay gap between military and civilian 
        compensation. A general dentist pay package offering 
        significant compensation increases is currently routing through 
        DOD. Additionally the DOD Health Professions Incentive Working 
        Group will be recommending a $20,000 per year increase in 
        incentive special pay for oral surgeons in fiscal year 2011.

    Medical Service Corps
        <bullet> Our greatest shortages are physician assistants, 
        clinical psychologists, podiatrists, and social workers. 
        Retention and recruiting has been affected due to high 
        operational commitments.

    Nurse Corps
        <bullet> High operational commitments are affecting recruiting 
        and retention in all of Navy's nurse practitioner specialties.

    General Green. The top 10 medical fields not manned to 
requirements:

    <bullet>  Medical Corps (4):

      1.  Flight Surgery (RAM) 182/213* = 85.4 percent (high value, 
deployable specialty)
      2.  Trauma Surgery 11/19** = 57.9 percent (includes 45SXK AFS 
only; Health Manpower Personnel Data System (HMPDS) data included this 
sub-specialty within general surgery career field, hence sub-specialty 
not reported separately; high value, deployable specialty)
      3.  General Surgery 83/86** = 96.5 percent (includes 45S AFS 
only; HMPDS data shows 87/83* @ 104.8 percent; due to declining manning 
and increasing authorizations for fiscal year 2010, higher number 
reported under HMPDS; high value, deployable specialty--using Critical 
Skills Retention Bonus (CSRB) to maintain numbers)
      4.  Family Practice 495/551** = 89.8 percent (recent AFMS 
emphasis on FHI dramatically drove increased authorizations, while 
pipeline remains at flat rate due to demands of other specialties, 
rising authorizations in fiscal year 2010 over HMPDS data of 473/435 @ 
108.7 percent significantly dropped percent manning for fiscal year 
2010)

    <bullet>  Nurse Corps (2):

      1.  Operating Room Nurse 219/237* = 92.4 percent (high value, 
deployable specialty)
      2.  Flight Nurse 100/190* = 52.6 percent (high value, deployable 
specialty/air transport wartime demand)

    <bullet>  Biomedical Sciences Corps (2):

      1.  Clinical Psychologists 215/255* = 84.3 percent (increasing 
wartime demand/limited pipeline)
      2.  Pharmacists 233/253* = 92.1 percent (high value, deployable 
specialty)

    <bullet>  Enlisted Medical Corps (2):

      1.  Independent Duty Medical Technician 415/625* = 66.4 percent 
(high value, deployable specialty)
      2.  Orthopedic Technician 98/151* = 64.9 percent (high value, 
deployable specialty)
---------------------------------------------------------------------------
    Data source: *Fiscal Year 2009 HMPDS, **9 Apr. 10 AFPC/DS data 
extrapolation by Lt Col Terry Mathews/SG1D

    Admiral Jeffries. I did not testify at the referenced hearing. This 
question is most appropriately answered by the Service Surgeons 
---------------------------------------------------------------------------
General.

    43. Senator Graham. General Schoomaker, Admiral Robinson, General 
Green, and Admiral Jeffries, does the budget request fully fund your 
requirements for scholarships, special pays, loan repayment, and 
accession and retention bonuses that you need to ensure the future 
readiness of the military medical components?
    General Schoomaker. The budget request does not fully fund all 
requirements for scholarships, special pays, loan repayment, and 
accession/retention bonuses across all components. For the Active 
component, the budget fully funds requirements for scholarship and loan 
repayment programs. Sweeping changes made to the DOD Health Professions 
Special Pay Program by Section 661 of National Defense Authorization 
Act for Fiscal Year 2008 expanded special pay opportunities to include 
psychologists, social workers, physician assistants, veterinarians, 
general dentists, and critical wartime specialty accessions. Army 
Medical Command is working closely with the Army staff to ensure 
special pays are supported to the maximum extent possible.
    For the Army Reserve, the budget request fully funds the Health 
Professions Scholarship Program and the Army Reserve Health Incentives 
Program. While the budget request does not fully fund the Army Reserve 
to achieve the health professions recruiting mission, it does account 
for increases in mission accomplishment. As these incentives are 
implemented, the Army Reserve will continue to analyze the return on 
investment in terms of recruiting and retention and update our models 
appropriately to ensure the incentives programs continue to be properly 
funded.
    For the Army National Guard, the budget request fully funds 
existing requirements. However, greater than 30 percent of the Army 
National Guard's current Medical, Dental, and Medical Specialists Corps 
personnel are within 1 year of their retirement eligibility date and 
are not eligible for incentives under current DOD regulations. The Army 
is reviewing proposals to ensure all available incentives are available 
to our critical skill personnel, regardless of the number of years' 
service they have within the Reserve components.
    Admiral Robinson. The President's budget for fiscal year 2011 fully 
funds incentive programs for recruitment and retention of Navy 
healthcare professionals. We continue to closely monitor these programs 
to identify any need for additional resources that may be required to 
meet emerging growth requirements and future readiness among healthcare 
professionals.
    General Green. For the current fiscal year 2010 budget and the 
fiscal year 2011 budget submission, the AFMS is provided sufficient 
money from the Line of the Air Force to cover our current projected 
cost of the Medical Special and Incentive Pays Program (special pays, 
accession bonuses, incentive pays, and retention bonuses). Any cuts to 
the fiscal year 2011 budget submission affecting Air Force Special and 
Incentive Pays program will have a drastic and lasting effect on 
accession and retention of our critical specialties. The money under 
the Medical Special and Incentive Pays Program covers all medical 
entitlements and contracted pays. Our incentive and retention pays are 
all contract linked and require military obligations for the fully-
qualified member to receive. Our accession bonuses are currently 
covered for the projected increase in fully-qualified health 
professions officers recruiting requirements and also require a 
mandatory military obligation to be eligible. To avoid a possible 
revolving door program of accessions and separations, the AFMS will 
require an adjustment to the Line of the Air Force money provided to 
the AFMS for Medical Special and Incentive Pays Program, possibly as 
early as fiscal year 2014 or fiscal year 2015. As these newly accessed 
health professions officers complete their initial military obligations 
and become eligible to either separate or contract for enhanced 
compensation contracts under the new authorities of 37 U.S.C. 335, we 
must remain within 75 percent of comparable direct salary compensation 
to stay viable and competitive with the private sector health care 
employment market and retain these critical and experienced health care 
professionals.
    HPSP/Financial Assistance Program funding for fiscal year 2010 from 
the Air Force Reserves and Defense Health Program are fully funded. 
Current projected funds will support our steady state of 1,666 
participants starting in fiscal year 2011.
    Admiral Jeffries. The President's budget for fiscal year 2011 fully 
funds incentive programs for recruitment and retention of Navy 
healthcare professionals. We continue to closely monitor these programs 
to identify any need for additional resources that may be required to 
meet emerging growth requirements and future readiness among healthcare 
professionals.

                             mental health
    44. Senator Graham. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, we recently 
received a report from DOD which concluded that: there is an increased 
need for civilian mental health care providers within DOD; that the 
supply in the civilian labor market may not meet the demand; and we 
should pilot a scholarship program for civilian mental health providers 
in exchange for a commitment to serve in areas where there are DOD 
beneficiaries. Do you agree that such a program could be beneficial?
    Dr. Rice and Admiral Hunter. We agree there is an increased need 
for mental health providers with DOD. We are working hard to ensure the 
MHS remains competitive to recruit from the civilian labor market and 
to answer the Deputy Secretary of Defense's challenge to ``grow our 
own'' mental health professionals.
    To those ends, we have proposed legislation for a scholarship 
program for health professionals, initially targeting mental health 
professionals. This legislation is entitled Health Professions 
Financial Assistance Program for Civilians. This program will give the 
Services authority to provide pay and allowances for civilians toward 
their education within the health professions focusing on mental health 
professions. This program will be given in exchange for a commitment to 
DOD service, ensuring additions to our inventory of critical 
specialties. We request congressional support for this important 
legislation.
    General Schoomaker. I have concerns about piloting a scholarship 
program for civilian mental health providers. Such a scholarship 
program may not work for all behavioral health specialties, as each 
specialty has unique educational requirements. Physicians who attend 
medical school would have to commit to a particular specialty (e.g., 
psychiatry) when applying to medical school. Very few people enter 
medical school with a clear idea of what specialty to pursue and many 
change their mind several times during the 4 years of medical training. 
Therefore, requiring a person to commit to a particular specialty prior 
to entering medical school is not practical. In addition, there is no 
guarantee that the person will match to a residency training program in 
that specialty 4 years later.
    Similarly, a scholarship program for clinical psychologists could 
face significant difficulty. Clinical psychologists complete 3 to 4 
years of academic coursework plus a dissertation and a 1-year 
internship prior to award of the doctorate; they follow this with an 
additional year of post-doctoral supervision prior to licensure. There 
are many opportunities for students to be derailed from their training 
plans that make a scholarship program problematic. The Army has a tight 
process for selecting HPSP recipients for the military, but we still 
find almost 20 percent of students do not meet qualification standards 
by the time they reach the internship. Each student who does not 
complete their training is a loss of about $100,000.
    The Army already has an educational program for producing social 
workers. We are in the second year of the new Army Masters of Social 
Work (MSW) program. Originally only offered to servicemembers, the MSW 
program has expanded to include Federal service employees, and will 
further expand next year to include non-Federal civilians.
    The Army has expended great effort and has seen strong success 
recruiting civilian behavioral health providers over the last 5 years. 
Army records indicate an increase of 861 civilian behavioral health 
providers from March 2006 to March 2010, or 105 percent increase for a 
total on-board strength of 1,680 civilian behavioral health employees. 
Increases among these behavioral health occupations include: (1) 
Psychologists (an increase from 288 to 533 or an 85 percent increase); 
(2) Social Workers (an increase from 369 to 854 or a 131 percent 
increase); (3) Psychiatrists (an increase from 89 to 131 or a 47 
percent increase); and (4) Psychiatric Registered Nurses (an increase 
from 73 to 162 or a 122 percent increase). To achieve the 105 percent 
increase in civilian behavioral health providers, Army Medical Command 
(MEDCOM) has aggressively pursued several actions. For the past 3 
fiscal years, MEDCOM centrally funded $1.5 million annually for the 
student loan repayment program for registered nurses, including 
psychiatric registered nurses. MEDCOM also set aside monies for 
recruitment, relocation, and retention incentives for all healthcare 
occupations. A little more than $11 million was granted to civilian 
employees in the four behavioral health occupations during the last 18 
months through the end of March 2010.
    Admiral Robinson. Navy Medicine has been generally successful 
hiring civilian and contract mental health providers. The Services, as 
well as the VA, continue to pursue a limited pool of applicants which 
has become more challenging especially in remote locations. Careful 
cost-benefit analyses in support of initiatives such as a civilian 
scholarship program must be conducted and the potential impact on 
current military scholarship programs must be assessed. We would not 
support competing scholarship programs. We rely on our current military 
scholarship programs as the primary source for commissioning military 
health care providers.
    General Green. With respect to the idea of a civilian scholarship 
program, I feel that the establishment of such a program would compete 
with the recruitment of Active Duty mental health providers, which has 
been a significant challenge for the Air Force. This would be 
particularly true for our HPSP. While civilian employee mental health 
providers are a pivotal part of the military mental health care 
delivery system, we recommend continuing to emphasize the recruiting 
and retention of Active Duty providers who can fill certain roles only 
they can perform--most notably deployment.
    We already have existing, vacant civilian mental health provider 
positions and so the issue is how to better recruit and retain civilian 
providers, with a particular focus on those Air Force bases located in 
areas underserved by civilian mental health providers. To do this, we 
should seek to maximize a number of initiatives already in place that 
could have positive effect on this situation:

    1.  Existing DOD Direct Hire Authority for medical occupations is a 
valuable recruiting tool and has made a positive impact on medical 
occupation accessions.
    2.  Multiple tools are available for civilian employees for both 
accession and retention purposes:

          <bullet> Recruitment bonuses for new accessions (up to 25 
        percent of base salary)
          <bullet> Retention allowances to sustain high caliber 
        employees (up to 25 percent of base salary)
          <bullet> Credit for non-Federal and Uniformed Service 
        experience for annual leave accrual for new employees
          <bullet> Student Loan Repayment for new accessions ($10,000 
        per year with $60,000 max payment)

    3.  Superior Qualification Appointments (for GS employees only) 
provides an advance in-hire rate up to Step-10 of assigned grade.

    In addition, I would like to see incentives for those professionals 
willing to relocate and work on bases underserved by local civilian 
mental health professionals. Those areas generally provide very little 
in the way of a pool of candidates for positions on base.
    Lastly, I encourage Congress to consider reviewing TRICARE 
reimbursement rates and business rules to see if there may be 
opportunities to encourage community civilian providers to join and 
expand existing TRICARE networks. Family members in certain markets 
frequently report challenges accessing providers willing and able to 
accept network referrals.
    Admiral Jeffries. Navy Medicine has been generally successful 
hiring civilian and contract mental health providers that support the 
Marine Corps. The Services, as well as the VA, continue to pursue a 
limited pool of applicants which has become more challenging especially 
in remote locations. Careful cost-benefit analyses in support of 
initiatives such as a civilian scholarship program must be conducted 
and the potential impact on current military staffing and scholarship 
programs must be assessed prior to initiating such an effort. Current 
military scholarship programs are the primary source for commissioning 
military health care providers that support the Marine Corps and the 
development of a competing program may have undesirable consequences.

                          tricare for reserves
    45. Senator Graham. Admiral Hunter, I was gratified to learn that 
enrollment in TRICARE for Reserves has grown significantly since last 
year but there is still concern among the personnel chiefs of the 
Services that the word is not getting out to reservists. How can we 
improve the marketing of this program?
    Admiral Hunter. We are committed to improving the marketing of this 
program to reach every potential TRICARE Reserve Select (TRS) 
beneficiary.
    TRICARE Management Activity and OASD (Reserve Affairs) are 
collaborating to ensure each Reserve component member has the necessary 
information to make an educated decision regarding the purchase of TRS.
    Reserve Affairs issued a Policy Memorandum governing TRS. This 
requires each of the Reserve components to develop and execute a 
communications plan to all of their members. The Communications Plan 
for 2010 is designed to emphasize informing both Reserve members and 
family members, to enable the entire military family to make the health 
care decision together.

    46. Senator Graham. Admiral Hunter, I am not happy to hear that 
implementation of TRICARE for Gray Area reservists is taking so long. 
When will it be up and running?
    Admiral Hunter. We anticipate TRICARE for Gray Area reservists will 
be up and running and benefits in place no later than October 2010.

                 post deployment health re-assessments
    47. Senator Graham. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, many of you have 
indicated that the Post-Deployment Health Reassessment (PDHRA), is an 
effective program to identify health concerns that may emerge over time 
following deployment. In November 2009 the GAO reported that 
substantial numbers of records from Active and Reserve servicemembers 
who returned from Iraq or Afghanistan were missing from the DOD central 
database--in fact nearly 25 percent were missing. How can we and the 
Department have reasonable assurance that servicemembers are getting 
the care that they need when nearly one out of four of these records is 
missing?
    Dr. Rice and Admiral Hunter. The GAO findings led to a number of 
actions within DOD. I believe these actions convey reasonable assurance 
servicemembers are getting the care they need.
    The actions initiated include:

        <bullet> A memorandum sent to the Services reemphasizing the 
        need for all eligible servicemembers to be offered the PDHRA.
        <bullet> The DOD central database at the Armed Forces Health 
        Surveillance Center (AFHSC) established a mechanism with each 
        Service to ensure PDHRAs sent by the Services are received at 
        the AFHSC.
        <bullet> We have obtained a list of ``missing'' servicemembers 
        from the GAO and are having the Services examine the reasons 
        for why the expected PDHRAs were not present.
        <bullet> A working group was formed to both monitor the 
        Services' efforts to increase the percentage of servicemembers 
        taking advantage of the PDHRA and to exchange successful 
        initiatives and lessons learned across Services.

    General Schoomaker. The number of soldiers who complete their PDHRA 
is significantly higher now than when the program was initiated Army-
wide in 2006. To ensure these records reach the DOD central database, 
we now conduct a reconciliation of records (``handshake'') each month 
between the DOD database and the Army database. So far, this check is 
showing 100 percent record transfer between these two databases.
    To improve compliance, we increased communication outreach to 
support commanders by mailing reminder postcards and emails to soldiers 
who are eligible for the PDHRA. Soon, we will begin to send email 
reminders to soldiers in all three components when they become eligible 
for the PDHRA and will follow up with several more email reminders as 
needed.
    There are a variety of programs available to soldiers to self refer 
for care if needed such as the soldier hotline. The Reserve component 
uses the Yellow Ribbon Program for soldiers to complete the PDHRA and 
to provide many more services which includes family assistance, pre- 
and post-deployment services, education, and Veteran Affairs. The 
Reserve component audits the Regional PDHRA leadership to check 
compliance and also visits units to check compliance.
    Increasing soldier PDHRA completion along with proper record 
transfers will result in more records in the DOD central database. The 
combination of identifying care needs from the PDHRA and our current 
efforts to ensure appointments are kept will provide soldiers the care 
they need.
    Admiral Robinson. The GAO Report focused on servicemembers who 
returned from deployment between January 2007 and May 2008. Since that 
time, Navy has made significant progress in establishing policies and 
procedures to ensure timely and accurate completion of deployment 
health assessments. Coordinated efforts by the medical, line, and 
personnel communities have resulted in an effective implementation plan 
for meeting PDHRA program requirements. Key elements include: clear 
delineation of roles and responsibilities; line involvement in ensuring 
compliance; increased medical resources; improved information 
management systems and data transfer processes; and support from senior 
leadership. Navy currently reports a PDHRA compliance rate of 90 
percent and continues to work toward a goal of ensuring that all of our 
returning servicemembers receive the care they need.
    General Green. In a November 2009 audit report, the GAO identified 
PDHRA records were missing for 8,162 Air Force deployments, 
constituting 16 percent of the total number of Air Force PDHRA records 
expected at AFHSC. However, upon further investigation, the Air Force 
identified all but 3 percent of expected PDHRA records, attributing 
unidentified records to attrition, frequent deployments, and incorrect 
deployment data.
    To ensure PDHRA documentation for all eligible deployments, the Air 
Force has implemented a number of initiatives, including: (1) 
establishing deployment-health requirements, including the PDHRA, as 
required components of in- and out-processing checklists; (2) 
contacting servicemembers at multiple points (90, 120, and 150 days) 
after return from deployment if they have not yet completed the PDHRA; 
(3) developing a data-verification process with AFHSC to ensure all 
data sent by the Air Force is received by AFHSC; and (4) developing a 
data-use agreement with sister Services to prevent loss of PDHRA 
completion data for members completing the PDHRA in sister-Service 
applications.
    Admiral Jeffries. The Marine Corps is committed to the health and 
wellbeing of marines. The PDHRA is one tool that is used to discover 
marines who have concerning symptoms who for some reason may have not 
yet been identified. A recent audit revealed that 84 percent of marines 
had successfully completed their required PDHRA. While this rate offers 
more opportunities for improvement, it does show improving performance. 
One key element to improving the PDHRA rate is to ensure that leaders 
have the tools they need to know which marines under their command are 
required to complete a survey. The Marine Corps has developed a 
specific field in the Medical Readiness Reporting System (MRRS) on 
PDHRA completion that is anticipated to make tracking of marines who 
are required to complete a survey easier for leaders.
    The PDHRA is not the only opportunity to discover marines with 
ongoing health concerns. The annual Periodic Health Assessment provides 
each marine with a personal interaction with a health care professional 
who can address any concerns. Marines also have open-door access to 
Deployment Health Clinics that are staffed with medical professionals, 
including mental health professionals, who can be accessed in a non-
stigmatizing environment.

    48. Senator Graham. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, I believe that 
DOD needs to include in its quality assurance program a reliable means 
of determining whether or not servicemembers referred for care 
following a deployment, actually receive it. Do you agree?
    Dr. Rice and Admiral Hunter. Yes, we agree that a reliable means of 
determining whether or not servicemembers referred for care following 
deployment actually receive it.
    To address this, the DOD Quality Assurance Program monitors, 
audits, and reports on the health care provided to Active Duty and 
Reserve components (while on Active Duty) culminating in quarterly 
reports to the Service Surgeons General, and an annual report to 
Congress.
    General Schoomaker. I agree that it is critically important to have 
a reliable means of determining whether servicemembers referred for 
care following a deployment actually receive care. To emphasize this 
importance, Army Medical Command tracks referral completion quarterly 
for the PDHRA on the organization's Balanced Scorecard and PDHA 
referral tracking is included as part of the command's Organizational 
Inspection Program.
    The Army PDHRA Implementation Plan, dated January 23, 2006, 
mandates that soldiers be case-managed to ensure they are able to 
access needed healthcare. The Army Medical Command policy also includes 
guidance to the Regional Medical Commands mandating tracking of 
referrals for the Active component to ensure care.
    Most recently, the Army developed an automated web-based tool to 
help track referrals from all health assessments. Enterprise-wide 
policy guidance will include direction on case management and reporting 
methods to ensure accountability. Army has released this tool for all 
components concurrently with the decision to change from a 
retrospective to a prospective tracking requirement.
    The Reserve component is working to acquire funds to allow soldiers 
to receive travel orders to attend follow-up appointments at VA 
facilities as a result of the PDHRA. In addition, the Reserve Component 
Recovery Care Coordinators will help ensure these soldiers get to their 
appointments and receive the care that they need.
    Admiral Robinson. Navy Medicine concurs that a reliable means of 
determining referral completion is important and a key component to 
ensuring that our sailors and marines receive the care they need. In 
addition to expanding best practices throughout the system, two Navy 
Medicine initiatives are underway to help address this issue. They 
include: (1) the development of a Referral Management Policy to ensure 
standardized tracking of referrals; and (2) exploration of a population 
health management demonstration program that is intended to coach 
patients through the referral process in order to facilitate the 
execution of referrals.
    General Green. In accordance with DOD policy, PDHRA quality 
assurance must ensure referrals and follow-up visits for deployment-
related medical concerns and issues are accomplished. To comply with 
this mandate, Air Force policy directs medical treatment facilities 
(MTF) to review members' medical records for pending or incomplete 
referrals when members separate, retire or transition to new 
assignments. The review also must identify any outstanding deployment-
health requirements.
    The Air Force will soon employ additional PDHRA quality assurance 
measures, and is developing a referral tracking function for the PDHRA 
web application. This functionality, which will be deployed Air Force-
wide in August 2010, will expand the ability to ensure referral 
appointments occur as prescribed. Additionally, high-level oversight of 
PDHRA completion rates will include surveillance of PDHRA-referral 
completion metrics.
    Admiral Jeffries. Navy Medicine concurs that a reliable means of 
determining referral completion is important and a key component to 
ensuring that our sailors and marines receive the care they need. In 
addition to expanding best practices throughout the system, two Navy 
Medicine initiatives are well underway that further support the Marine 
Corps and will help address this issue. They include: (1) the 
development of a Referral Management Policy to ensure standardized 
tracking of referrals; and (2) exploration of a population health 
management demonstration program that is intended to coach patients 
through the referral process in order to facilitate the execution of 
referrals.

                           health care fraud
    49. Senator Graham. Dr. Rice, I have read that Medicare has a fraud 
rate of as high as 10 percent--the highest rate of any Federal program. 
What is your estimate of the potential fraud in DOD medical care?
    Dr. Rice. The National Health Care Anti-Fraud Association estimates 
the most generally accepted range from 3 to 7 percent. While no precise 
estimate can be made, TRICARE reasonably estimates fraud at the lower 
end of 3 percent of the Department's private sector health care 
expenditures. This estimate is based on the numerous pre- and post-pay 
controls in place.
    We are continuously enhancing TRICARE's antifraud program and 
looking for areas of vulnerability to decrease dollar losses and 
increase returns to the program.

    50. Senator Graham. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, do you have 
sufficient resources to prevent fraud and investigate physicians, 
hospitals, or laboratories who attempt to commit fraud in DOD health 
care?
    Dr. Rice and Admiral Hunter. We have sufficient resources to 
prevent fraud and investigate physicians, hospitals, or laboratories 
who attempt to commit fraud in DOD health care at this time.
    TRICARE Management Activity (TMA) has committed a host of resources 
to prevent, curtail, indentify, and investigate fraud, waste, and 
abuse. TMA continually reviews its fraud program and pursues enhanced 
fraud fighting tools. Recent enhancements include additional dedicated 
staff to combat fraud, award of the contract for pharmacy fraud 
detection data mining, and more rigorous requirements for Managed Care 
and Pharmacy Contractors.
    General Schoomaker. The Army Medical Command has sufficient 
resources to prevent fraud and investigate it if it does occur. We have 
a large staff of contract and fiscal law attorneys at the Command 
Headquarters and have increased the number of attorneys since 2008. Two 
of the attorneys specialize in procurement fraud prevention and advice. 
We do not have criminal investigators within the command, but we do 
have the resources of the U.S. Army Criminal Investigation Command 
(CID) available to us, and we receive excellent support from their 
agents. We provide ethics training throughout the command, particularly 
for those in the acquisition community, and I have directed that a 
video on unauthorized commitments (produced by our contract law 
attorneys) be shown at all ethics training this calendar year. We have 
a robust inspection program of our regional contracting offices, and 
the inspection team takes one of our contract law attorneys with them 
to provide additional specialized training and advice. I also place a 
good deal of emphasis on our command off-duty employment rules for 
providers, to ensure that Army providers do not engage in work 
arrangements that would conflict with the interests of DOD or our 
patients. I issued a new command regulation on this subject in 2008, 
and this is a topic regularly included in ethics training, particularly 
in ethics training for providers.
    Admiral Robinson. This question requests information regarding DOD 
resources in support of the detection of health care fraud. As such, it 
is most appropriately answered by the Assistant Secretary of Defense 
(Health Affairs)/Director, TRICARE Management Activity.
    General Green. The Air Force does have adequate resources to 
prevent and investigate fraud in Air Force Medical Service (AFMS) 
healthcare. We utilize a two-pronged approach to combating fraud in the 
AFMS.
    In working with our TMA partners to provide appropriate off-base 
specialty care to our beneficiaries, the TMA identifies and 
investigates fraud on both the provider and patient level. Much of the 
provider fraud relates to billing for services that were not performed, 
or knowingly overbilling for work done. Many of the patient fraud 
incidents that are identified relate to former beneficiaries who 
continue to seek and obtain care within the AFMS after their 
eligibility for such care has expired.
    The second, equally important aspect of our anti-fraud effort, is 
our annual statement of assurance/management internal control (SOA/MIC) 
program which assesses each Medical Treatment Facility (MTF) in several 
key fraud-susceptible areas.
    The SOA/MIC program includes the following assessable units:

        <bullet> Review of medical services contracts
        <bullet> Review of local anti-fraud programs at MTFs
        <bullet> Quality Assurance/Risk Management program review
        <bullet> Custody and control of medical records
        <bullet> Information security controls
        <bullet> Defense Enrollment Eligibility Reporting System 
        identification card checks and confiscation of expired 
        identification cards.

    Admiral Jeffries. This question requests information regarding DOD 
resources in support of the detection of health care fraud. As such, it 
is most appropriately answered by the Assistant Secretary of Defense 
(Health Affairs)/Director, TRICARE Management Activity.

                  medical support for the marine corps
    51. Senator Graham. Admiral Jeffries, General James T. Conway, 
USMC, testified last year that the military may be rethinking the so-
called ``golden hour'' policy of evacuating wounded troops off the 
battlefield within 60 minutes. Can you comment on what the situation is 
on the battlefield today?
    Admiral Jeffries. Currently, average medical evacuation times 
continue to be measurably less than 60 minutes. For operational 
planning purposes, the target to complete medical evacuations in less 
than 1 hour is unchanged.
    The issue that General Conway referenced is that commanders and 
medical personnel working in close collaboration should not be beholden 
to a medical evacuation time of less than 60 minutes if operational and 
clinical considerations support a slightly longer time. Rather than 
focusing on a set timeframe from injury to arrival at an advanced 
treatment location, superb trauma care requires delivering high quality 
on-scene/first responder treatment and triage followed by expeditious 
and appropriate level 2 interventions or immediate transport to level 3 
care. With more advanced medical capabilities moved ever closer to the 
areas of military engagements and with the wide use of Tactical Combat 
Casualty Care principles some injured servicemembers receive care in 
the first few minutes following an injury that may make the decision to 
accept a slightly longer evacuation time to a more appropriate level of 
care the best course of action in some situations.

    52. Senator Graham. Admiral Jeffries, are there sufficient 
resources--surgeons and mental health providers--to save lives in 
Afghanistan as we did in Iraq?
    Admiral Jeffries. Absolutely yes. The Marine Corps continues to 
receive excellent support from Navy Medicine. The survival rates from 
the Afghanistan Area of Operations remain at historic highs even in the 
face of an aggressive and creative enemy. Psychological Health support 
to the operational Marine Corps forces remains Navy Medicine's top 
mental health imperative.

    53. Senator Graham. Admiral Jeffries, are there sufficient medical 
resources to support Marine Corps wounded warriors?
    Admiral Jeffries. Yes, there are sufficient resources. However, it 
takes much more than medical expertise to fully address the needs of 
wounded marines. Since activation in April 2007, the Wounded Warrior 
Regiment has provided a wide range of nonmedical care for the injured 
and ill. The Marine Corps now has wounded warrior battalions at Camp 
Pendleton and Camp Lejeune and detachments at other installations.
    The Marine Corps is investing $50 million from the 2009 Overseas 
Contingency Operations supplemental for the construction of resource 
and recovery centers at Camp Pendleton and Camp Lejeune. These recovery 
centers will provide spaces for counseling, physical therapy, 
employment support, financial management, and other training and 
outreach programs in support of our wounded.
    With a 24-hour call center for wounded marines and their families, 
the Wounded Warrior Regiment has contacted 99.4 percent of all marines 
(7,654 out of 7,703) who were wounded since the beginning of Operations 
Iraqi Freedom and Enduring Freedom, in order to determine their health 
status. The Marine Corps also maintains a toll-free number to the 
medical center in Landstuhl, Germany, for families to contact their 
loved ones who have been wounded.

                              golden hour
    54. Senator Graham. General Schoomaker, could you please elaborate 
on your testimony regarding a ``platinum 15 minutes''?
    General Schoomaker. The golden hour is a term coined in the 1970s 
for trauma patients referring to the mortality of trauma patients 
rising steeply 1 hour after injury without definitive surgical care. 
The ``platinum 15 minutes'' refers to medical care that may improve 
survival rate and extend the golden hour time frame if certain life-
saving interventions are performed within 15 minutes of injury. Some of 
these life-extending actions include haemostatic control, definitive 
airway management, and correction of tension pneumothorax. Our combat 
casualty care training and education programs emphasize these 
capabilities for our combat medics and first responders.

    55. Senator Graham. General Schoomaker, what are you trying to 
convey about the doctrine for combat casualty care?
    General Schoomaker. Seven years into the long war against terrorism 
with tens of thousands of battle casualties and over 4,000 combat 
deaths, the Army has learned many hard lessons of combat and combat 
casualty care. We continue to learn new lessons as the enemy's tactics 
and weapons evolve and our ability to counter them and to save the 
lives of soldiers both before and after injury evolves. The power to 
actively study its own performance and that of its enemy in near real 
time is the hallmark of a learning organization in the 21st century. 
Army Medicine, in concert with our U.S. and coalition partners, 
approaches the challenges of combat casualty care with the same 
systematic processes and analytical rigor as we do all of our core 
missions: we collect the data, we analyze it for lessons learned, we 
act on the information in one or more of the appropriate domains 
(Doctrine, Organization, Training, Materiel, Leadership, Personnel, and 
Facilities); and we verify that these actions have been done and 
measure their effects. With regard to the care of battle casualties, 
these processes have resulted in significant changes in many areas, 
especially the following:
    The concepts and principles of Tactical Combat Casualty Care (TCCC) 
dramatically changed care at the point of injury, blending tactical 
considerations with the epidemiology of the battlefield. TCCC focuses 
directly on the immediate care of battle casualties in those tactical 
situations where the threat, the specific injuries most frequently 
suffered by our soldiers, and the special skills and equipment needed 
to save those soldiers' lives all come together and where immediate 
medical actions during the platinum 15-minutes make the difference 
between life and death. TCCC divides point of injury care into three 
logical phases: Care Under Fire, during which the key actions are 
suppressing the enemy's fire, rescuing casualties from danger, and 
doing only those few life-saving interventions that must be performed 
within minutes of the injury; Tactical Field Care, during which 
additional interventions directed at the main causes of preventable 
mortality in combat are performed; and Tactical Evacuation Care in 
which those life-saving interventions are maintained and additional 
measures taken while the casualty is moved to a forward medical 
facility.
    The concept of Damage Control Resuscitation (DCR) is a marked 
change from previous methods of fluid resuscitation that concentrates 
on early and aggressive use of blood and blood products to correct or 
even prevent what is referred to as ``the lethal triad:'' hypothermia 
(low body temperature), acidosis (excessive acid in the circulation), 
and coagulopathy (failure of the blood clotting system). To further 
improve our ability to provide DCR, the development of new FDA-
compliant blood products and new treatments to address trauma at the 
cellular or even molecular level are high priorities for our medical 
research and development efforts.
    Damage Control Surgery (DCS) calls for the performance of targeted 
surgical interventions at forward surgical facilities in order to 
control internal bleeding and reduce internal contamination so that the 
casualty can then be evacuated to more robust surgical facilities for 
definitive surgical repair and further care.
    The medical resources and processes of the entire theater (all U.S. 
Services and, in many instances, those of our coalition partners) are 
integrated and coordinated within the Joint Theater Trauma System 
(JTTS) to minimize mortality and morbidity and to optimize the ability 
to provide essential care, getting the right patient to the right place 
at the right time to receive the right care. The JTTS components 
include prevention, pre-hospital integration, education, leadership and 
communication, quality improvement/performance improvement, research, 
and information systems.
    The AMEDD today captures the best knowledge and most recent 
experiences of combat medics, surgeons, nurses, and the whole AMEDD 
team in both theaters and uses that knowledge to achieve the highest 
battle casualty survival rates in history. However, although what we do 
today reflects the current best practices, we are well aware that new 
technologies, new data, and new tactical and strategic challenges will 
make some of this information obsolete. The systematic and rigorous 
study of battlefield medical care will make today's AMEDD soldiers and 
their successors learning medics in a learning organization dedicated 
to conserving the fighting strength and saving lives in combat.

    56. Senator Graham. General Schoomaker, how does it differ from the 
successful practices in Iraq, and what results will it achieve?
    General Schoomaker. The critically wounded servicemen in both Iraq 
and Afghanistan are being delivered to surgical facilities consistently 
in less than 1 hour. We have increased our resources, changed our force 
structure, and invested in improvements to take care of the wounded in 
Afghanistan. The Army implemented several initiatives to achieve this 
standard, the greatest being the increase in assets deployed to the 
theater. In March 2009 there were 15 HH-60 MEDEVAC helicopters and 3 
Forward Surgical Teams (FST) deployed. Today the Army has deployed 42 
HH-60 MEDEVAC helicopters and 8 FSTs. Additionally, the Army's 
increased assets include Role III surgical augmentation and a medical 
brigade command and control headquarters. Other initiatives include 
changing doctrine for aeromedical evacuation to 1 hour for urgent and 
urgent surgical missions and streamlining launch procedures. The Army's 
force structure changes include a May 2009 decision to aggressively 
grow nine additional MEDEVAC companies in the Reserve component (two of 
which will be deployed this year). Additionally, in October 2009, the 
Army changed the force design of each of the 37 MEDEVAC companies, 
increasing from 12 aircraft and 12 crews to 15 aircraft and 20 crews 
(13 Active component, 21 ARNG, and 3 USAR). The first of these new 
designed companies deployed in March 2010. All of these efforts have 
brought MEDEVAC response times in Afghanistan below the 1-hour 
standard.

                      disability evaluation system
    57. Senator Graham. General Schoomaker, Admiral Robinson, General 
Green, and Admiral Jeffries, the DES within DOD and VA is still too 
long, and too complicated, do you agree?
    General Schoomaker. Yes. The DES within DOD and VA is still too 
long and complicated. Current military disability law fosters a DES 
that is complex and adversarial. Soldiers still undergo dual 
adjudication by the military and VA based on the laws, legal opinions, 
and policies specific to each, resulting in differing outcomes between 
the two agencies for the same type of determination. Soldiers receive a 
rating for unfitting conditions by the military, and a rating from the 
VA for all service-connected conditions. This leads to confusion and 
mistrust.
    DOD and VA launched a joint pilot model on November 26, 2007, as a 
way to improve the DES within the constraints of current law. The DES 
Pilot features a single medical examination based on VA disability 
examination templates and a single-sourced disability rating provided 
by VA rating officers. The Departments share the examinations and 
disability ratings, resulting in more consistent decisions and faster 
approval of disability benefits and compensation. Refinements made by 
the DES Pilot are an improvement, but are insufficient.
    The only way to significantly improve the process is to change the 
law. The Army has been advocating for eliminating dual adjudication 
from the current DES, and moving to a system where the military 
determines fitness for duty and the VA determines service-connection 
and disability rating as part of the soldier's transition. Under this 
kind of system, the military compensates for loss of career due to 
disability based on years of service, and VA compensates for disability 
and loss of earnings potential.
    Admiral Robinson. The DES Pilot provides significant improvement 
over the existing DES process, which is often time-consuming and 
complicated. The DES Pilot is a servicemember-centric initiative 
designed to eliminate the duplicative, time-consuming and often 
confusing elements of the two current disability processes of DOD and 
the VA. While there are instances where the time processing goals under 
the DES Pilot are not met, extended process delays typically result 
from the need to obtain additional medical information to ensure proper 
adjudication of the case. The majority of cases under the DES Pilot are 
completed within predicted time standards, and members receive 
considerable aid, counsel, and support along the way. Cumulative DES 
Pilot survey results for the period November 2007 through March 2010 
indicate sailors and marines are significantly more satisfied with the 
DES Pilot than with non-Pilot Medical Evaluation Board (MEB) and 
Physical Evaluation Board (PEB) processes.
    Historically, the DES has been considered complicated and difficult 
to understand. The DES Pilot is specifically designed to streamline and 
simplify the existing complex process and to enhance transparency for 
servicemembers. Under the Pilot, the VA performs one medical exam that 
meets the needs of the DOD in determining fitness for continued 
military service and also provides the basis for the VA to rate the 
servicemember's disabilities if he/she has been determined to be unfit 
by their Service PEB. The servicemember is not directly involved in 
certain complexities driven by law, regulation, or administrative 
circumstances. Aside from counseling and support interactions, the DES 
Pilot typically only involves direct servicemember interaction at the 
following milestones:

    1.  VA Claim Development
    2.  Compensation and Pension (C&P) physical examinations
    3.  Review of Medical Evaluation Board Package
    4.  Election of Options following the Informal PEB determination
    5.  Formal PEB (if applicable)
    6.  Notification of Formal PEB determination (if applicable)
    7.  Appeal process (if applicable)

    These steps ensure transparency and guarantee protection of due 
process rights. By enabling servicemembers to receive Title 10 and 
Title 38 disability benefits on the first day authorized by law 
following separation or retirement, the DES Pilot offers a much 
improved process for members who are evaluated for continued service, 
separation, or medical retirement.
    General Green. The DES Pilot has been successful in enabling our 
veterans to only have to undergo one physical exam process and receive 
one disability rating, greatly reducing the time involved, resources 
expended, and confusion incurred from the legacy system. Additionally, 
the DES Pilot has reduced the financial loss for the separated and 
retired veterans who previously would have had to wait the duration of 
the VA process before receiving compensation.
    According to information provided by the Wounded Warrior Care and 
Transition Policy office in their latest analysis of case processing 
time in the DES Pilot:

          ``The DES Pilot is ``faster, more efficient, effective, and 
        transparent. Active component servicemembers who completed the 
        DES Pilot averaged 277 days from Pilot entry to VA benefits 
        decision, excluding pre-separation leave. Including pre-
        separation leave, Active component servicemembers completed the 
        DES Pilot in an average of 293 days. This is 1 percent faster 
        than the goal established for Active component servicemembers 
        and is 46 percent faster than the current DES and VA claim 
        process. Reserve component/National Guard servicemembers who 
        completed the DES Pilot averaged 289 days from Pilot entry to 
        issuance of the VA Benefits Letter, which is 5 percent faster 
        than the projected 305 day timeline (DES Pilot Weekly Report 
        with Outlier Analysis Appendix, March 22, 2010-March 28, 
        2010).''

    Admiral Jeffries. The DES Pilot process is proving to be a 
significant improvement in the way our wounded, ill, and injured 
sailors and marines navigate the DES and attain their disability 
benefits. While there are incidents of process delays, these are 
typically due to obtaining information vital to the proper adjudication 
of that case. Most servicemembers move through the DES Pilot within 
predicted time standards and receive considerable aid, counsel and 
support along the way. The DES Pilot is helping to make a process 
frequently perceived as complex easier to understand and more 
transparent from the perspective of the servicemember. Servicemembers 
receive both their title 10 and title 38 disability benefits on the 
first day authorized by law following separation or retirement. Based 
upon the cumulative DES Pilot Survey Results for the period November 
2007 through 31 March 2010, sailors and marines are significantly more 
satisfied with DES Pilot than with non-Pilot MEB and PEB processing.
    The DES still can appear overly complex to people who interface 
with it infrequently, but most of these complexities do not directly 
involve the servicemember or require them to act. The DES Pilot has 
several critical steps that enhance transparency and ensure due process 
rights are upheld. Servicemembers are provided significant counseling 
and support during these critical steps that include:

    1.  VA Claim Development
    2.  Compensation and Pension (C&P) physical examinations
    3.  Review of their Medical Evaluation Board Package
    4.  Election of Options following the Informal PEB determination
    5.  Formal PEB (if applicable)
    6.  Notification of Formal PEB determination (if applicable)
    7.  Appeal process (if applicable)

    In addition, the Wounded Warrior Regiment and Battalions augments 
the services provided by MTF by offering additional counseling and 
guidance during the entire PEB process.

    58. Senator Graham. General Schoomaker, Admiral Robinson, General 
Green, and Admiral Jeffries, to what extent do the medical evaluations 
prolong this process, and how can that part of the process be improved?
    General Schoomaker. Medical evaluations are an inherent component 
of the Disability Evaluation Process. It is imperative that soldiers 
are provided access to the full spectrum of medical care to determine 
the complete range of their medical conditions. The Army has already 
targeted three elements of the medical evaluations process for 
continued improvements: (1) Closer coordination with the VA for 
specialty care evaluations; (2) Monitoring of process data collected 
via the Veterans Tracking Application to maximize efficiencies; and (3) 
Targeting access to Behavior Health assets to expedite the Medical 
Board Process.
    DOD and VA launched a joint pilot test of an improved DES on 
November 26, 2007, for disability cases originating at the three major 
MTFs in the National Capital Region. Today the DES Pilot model operates 
at 15 Army installations. The DES Pilot features a single medical 
examination based on VA disability examination templates and a single-
sourced disability rating provided by VA rating officers. Survey 
results indicate our soldiers are more satisfied with the DES Pilot 
process, and receipt of VA ratings allows them to make better informed 
decisions reducing the number of appeals of PEB findings.
    Admiral Robinson. The DES Pilot takes longer from start to finish; 
however, the process actually decreases the amount of time between the 
initial referral for disability evaluation and the servicemember's 
receipt of VA benefits determination by 28 percent. On average, the 
length of time from case initiation to receipt of benefits is 295 days 
vice over 500 days if the servicemember could not submit a claim to the 
VA until after disability separation or disability retirement from the 
military, as in the legacy process. The claim development and medical 
examination phases in the DES Pilot account for 55 days--10 days for 
claim development with the VA, and 45 days for the VA to complete the 
examination. This accounts for less than 20 percent of the amount of 
time for an average DES Pilot case.
    Improved tracking of servicemembers' examination appointments 
reduced delays in the examination phase. Also, two Navy locations with 
larger volumes of DES cases--Naval Medical Center Portsmouth and Naval 
Hospital Camp Lejeune--actually brought VA examiners into the facility 
to improve access to the exams. Increased efficiencies in processing 
DES cases are being explored through various working groups and other 
activities coordinated by OSD's Wounded Warrior Care and Transition 
Policy office along with the Military Services and the VA. Proposed 
recommendations and options include using the VA Healthcare Network and 
their contracted exam services to perform exams at locations as close 
to the servicemembers as possible, and certifying military providers to 
perform exams.
    Feedback to date from servicemembers and Wounded Warrior programs 
indicate overall satisfaction with the process, largely due to the fact 
that VA benefits are delivered at the time of completion of the 
process.
    General Green. The medical evaluation process is being conducted in 
a timely manner. The VA is faced with the challenge of serving an ever 
increasing number of veterans along with the influx of new requirements 
under the DES Pilot program. We agree that when it comes to 
streamlining medical evaluations, working with the VA in the following 
areas of the process would be very beneficial: place more reliance on 
the contents of the servicemember's service treatment record; update 
the worksheets VA examiners use; establish improved automation for VA 
examiners; and establish more targeted exams, to fit the current 
population of servicemembers/veterans. Improving on these medical 
evaluation processes would be extremely helpful in making the overall 
process more efficient for the servicemember.
    Admiral Jeffries. The DES Pilot takes longer from start to finish; 
however, the process actually decreases the amount of time between the 
initial referral for disability evaluation and the servicemember's 
receipt of VA benefits determination by 28 percent. On average, the 
length of time from case initiation to receipt of benefits is 295 days 
vice over 500 days if the servicemember could not submit a claim to the 
VA until after disability separation or disability retirement from the 
military, as in the legacy process. The claim development and medical 
examination phases in the DES Pilot account for 55 days--10 days for 
claim development with the VA, and 45 days for the VA to complete the 
examination. This accounts for less than 20 percent of the amount of 
time for an average DES Pilot case.
    Improved tracking of servicemembers' examination appointments 
reduced delays in the examination phase. Also, two Navy locations with 
larger volumes of DES cases--Naval Medical Center Portsmouth and Naval 
Hospital Camp Lejeune--actually brought VA examiners into the facility 
to improve access to the exams. Increased efficiencies in processing 
DES cases are being explored through various working groups and other 
activities coordinated by OSD's Wounded Warrior Care and Transition 
Policy office along with the Military Services and the VA. Proposed 
recommendations and options include using the VA Healthcare Network and 
their contracted exam services to perform exams at locations as close 
to the servicemembers as possible, and certifying military providers to 
perform exams.
    Feedback to date from servicemembers and Wounded Warrior programs 
indicate overall satisfaction with the process, largely due to the fact 
that VA benefits are delivered at the time of completion of the 
process.

                         traumatic brain injury
    59. Senator Graham. General Schoomaker, Admiral Robinson, General 
Green, and Admiral Jeffries, we understand that DOD is working on new, 
stronger guidelines for dealing with TBI in the field; what are they?
    General Schoomaker. A Directive Type Memorandum titled, ``Policy 
Guidance for a Management of Concussion/Mild Traumatic Brain Injury in 
the Deployed Setting'' is currently under review within DOD. This 
guideline will work in accordance with the authority in DOD Directive 
5124.02, to establish policy, assign responsibilities, and provide 
procedures on the medical management of mild TBI, also known as a 
concussion, in the deployed setting. It is intended to standardize the 
terminology, procedures, leadership actions, and medical management to 
provide maximum protection for servicemembers.
    While awaiting DOD publication of the Directive Type Memorandum, 
the Army has begun executing a Campaign Plan for Warrior mild TBI. The 
Campaign Plan codifies incident driven protocols for concussion 
management. The mandatory events are: (1) any servicemember in a 
vehicle associated with a blast event, collision, or rollover; (2) any 
servicemember within 50 meters of a blast (inside or outside); (3) a 
direct blow to the head or witnessed loss of consciousness; and (4) 
command-directed. Leaders are required to assess all servicemembers 
involved in a mandatory event, including those without apparent 
injuries, as soon as possible using the Injury/Evaluation/Distance from 
Blast (I.E.D.) checklist. Exposure to a mandatory event or a `Yes' 
response during screening leads to a mandated referral for medical 
evaluation. The evaluation component of the I.E.D. leader checklist 
uses the mnemonic ``HEADS'': Headaches, Ears ringing, Altered 
consciousness/loss of consciousness, Double vision/dizziness, or 
Something not right. After the I.E.D. assessment is complete, the 
results shall be recorded for each individual involved in the event and 
submitted as part of the significant activities report required for 
blast-related events or the events outlined above.
    The Army has developed training programs for soldiers, leaders, and 
medical personnel. Training soldiers and leaders involves making them 
competent in recognizing signs and symptoms of mild TBI and the 
requirements of the Directive Type Memorandum; this is being 
accomplished using leadership briefings and educational videos. 
Training medical staff on the clinical assessment tools and algorithms 
is being accomplished by infusing the content into existing training 
programs and providing in-person and computer-based training.
    Admiral Robinson. The Defense Centers of Excellence for 
Psychological Health and Traumatic Brain Injury has been the lead for 
newer DOD In-Theater TBI evaluation guidelines. These new guidelines 
mandate clinical evaluations for servicemembers exposed to explosive 
blasts or who may have sustained a concussion and a minimum of 24 hours 
of rest prior to return to combat. In theater TBI treatment continues 
to be done using guidelines developed by the Defense and Veterans Brain 
Injury Center.
    A Directive Type Memorandum (DTM) 09-033, ``Policy Guidance for a 
Management of Concussion/Mild Traumatic Brian Injury in the Deployed 
Setting'' is currently under review. It standardizes the terminology, 
procedures, leadership actions, and medical management to provide 
maximum protection of servicemembers with regards to TBI. There are 
four revised medical Concussion Clinical Guideline Algorithms for 
providers to follow:

    1.  Combat Medic/Corpsman Concussion (mTBI) Triage (Pre-hospital, 
no medical officer in the immediate area);
    2.  Initial Provider Management of Concussion in the Deployed 
Setting;
    3.  Comprehensive Concussion Algorithm Referral from Level I or II 
or Polytrauma;
    4.  Recurrent Concussion (3 documented in 12-month span) Evaluation 
Algorithm.

    In addition, there is a list of mandatory events which necessitate 
command evaluations and reporting of exposure of all personnel 
involved. These events include, but are not limited to:

        a.  Any damage to a vehicle (e.g., blast, accident, rollover).
        b.  Exposure of dismounted personnel to a blast:

                (1) All within 50 meters of the blast.
                (2) All within a structure hit by an explosive device.

        c.  A direct blow to the head or witnessed loss of 
        consciousness.
        d.  Command-directed, especially in a case with exposure to 
        multiple blast events.

    Commanders or their representatives are required to assess all 
servicemembers involved in a mandatory event, including those without 
apparent injuries, as soon as possible using a checklist. Any `Yes' 
response in screening mandates a referral for medical evaluation. After 
the assessment is complete, the results shall be recorded for each 
individual involved in the event and submitted as part of the 
significant activities (SIGACT) report.
    General Green. Yes. Guidelines to assure commanders and medical 
providers take a uniform approach to mild Traumatic Brain Injury (mTBI) 
in deployed settings are being finalized.
    The Directive-Type Memorandum (DTM) 09-033, ``Policy Guidance for 
Management of Concussion/Mild Traumatic Brain Injury in the Deployed 
Setting'' is in the last stages of approval. A draft Fragmentary Order 
(FRAGO) ``Concussion/mTBI,'' is a supplement to the DTM and outlines 
specific tracking, training, and treatment for eligible personnel. 
Implementation of this FRAGO is underway and will follow the approval 
of the DTM.
    Tracking involves implementation of a dedicated database (CIDNE 
BECIR [Combined Information Data Network Exchange/Blast Exposure and 
Concussion Incident Report]). The events to be tracked include: (1) all 
mounted personnel in a damaged vehicle and/or personnel within 50 
meters of a vehicle damaged by a blast; (2) all dismounted personnel 
within 50 meters of a blast; (3) all personnel who suffer a direct blow 
to the head or loss of consciousness; and (4) those situations where a 
leader suspects an individual is suffering mTBI.
    Training requirements will include training both leaders and 
providers. Training leaders involves making leaders competent in 
recognizing signs and symptoms of mTBI. Providers (including corpsmen, 
medical technicians, and privileged medical providers) will learn to 
administer the MACE (military acute concussion evaluation) as well as 
proper management of the JTTS-CPG (joint theater trauma system clinical 
practice guidelines).
    Guidelines involve a medical evaluation for all personnel involved 
in a ``mandatory event.'' Mandatory events follow the mnemonic ``IED:'' 
(1) Injury - yes/no; (2) Evaluation - using a mnemonic for the 
``HEADS'' symptoms--Headaches, Ears ringing, Altered consciousness/loss 
of consciousness, Double vision/dizziness, or Something not being 
right; and (3) Distance - a blast within 50 meters of the individual.
    Admiral Jeffries. Service leadership, especially the Assistant 
Commandant of the Marine Corps and the Vice Chief of Staff of the Army, 
asked for enhanced guidelines for line commanders as well as medical 
personnel in the early diagnosis and treatment of TBIs that occur in 
the field environment. The Defense Centers of Excellence for 
Psychological Health and Traumatic Brain Injury was given the lead for 
developing these guidelines. These new guidelines mandate clinical 
evaluations for servicemembers exposed to explosive blasts or who may 
have sustained a concussion and a minimum of 24 hours of rest prior to 
return to combat. In theater TBI treatment continues to be done using 
guidelines developed by the Defense and Veterans Brain Injury Center.
    A draft policy in the form of a Directive Type Memorandum (DTM) 
``Policy Guidance for a Management of Concussion/Mild Traumatic Brian 
Injury in the Deployed Setting'' is in final coordination. It 
standardizes the terminology, procedures, leadership actions, and 
medical management to provide maximum protection of servicemembers with 
regards to TBI. There are four revised medical Concussion Clinical 
Guideline Algorithms for providers to follow: 1. Combat Medic/Corpsman 
Concussion (mTBI) Triage (Pre-hospital, no medical officer in the 
immediate area); 2. Initial Provider Management of Concussion in the 
Deployed Setting; 3. Comprehensive Concussion Algorithm Referral from 
Level I or II or Polytrauma; 4. Recurrent Concussion (3 documented in 
12-month span) Evaluation Algorithm. In addition, there is a list of 
mandatory events which necessitate command evaluations and reporting of 
exposure of all personnel involved. These events include, but are not 
limited to:

    a.  Any damage to a vehicle (e.g., blast, accident, rollover).
    b.  Exposure of dismounted personnel to a blast:

                (1) All within 50 meters of the blast.
                (2) All within a structure hit by an explosive device.

    c.  A direct blow to the head or witnessed loss of consciousness.
    d.  Command-directed, especially in a case with exposure to 
multiple blast events. Commanders or their representatives are required 
to assess all servicemembers involved in a mandatory event, including 
those without apparent injuries, as soon as possible using a checklist. 
Any `Yes' response in screening mandates a referral for medical 
evaluation. After the assessment is complete, the results shall be 
recorded for each individual involved in the event and submitted as 
part of the significant activities report.

    60. Senator Graham. General Schoomaker, Admiral Robinson, General 
Green, and Admiral Jeffries, are there sufficient treatment and 
rehabilitation resources available when our servicemembers return home?
    General Schoomaker. Yes, there are sufficient treatment and 
rehabilitation resources available for returning soldiers. We have 
implemented TBI screening for all medically evacuated patients and all 
soldiers during post-deployment; positive screening leads to a 
confirmation evaluation by a provider and documentation in the 
electronic medical record. The Army TBI program has been conducting a 
multi-step validation of treatment facilities since 2008. Every Army 
medical treatment facility (MTF) is undergoing validation; 12 have 
achieved full validation and an additional 20 have achieved initial 
validation. The goal is full validation of all facilities by September 
30, 2010.
    Since 2008 the Army Medical Command has funded over 400 positions 
to treat and support patients with TBI and their families. These 
positions include a TBI Program Manager at each MTF and surge 
capability to ensure that TBI care is available at sites with limited 
organic TBI assets. We are emphasizing primary care and case management 
and using a family-centered approach. Specialty services are available, 
as needed. We have initiated 37 facility projects and purchased over 
$11 million of equipment to support the Army TBI programs.
    The Army partners with Defense Centers of Excellence for 
Psychological Health and Traumatic Brain Injury (DCoE) and Defense and 
Veterans Brain Injury Center (DVBIC) for care coordination, education, 
and clinical research for TBI. We have implemented tele-health 
initiatives for several aspects of TBI care. Multiple research projects 
are underway to further our knowledge and ability to care for TBI. In 
addition, current educational initiatives are geared toward a broad 
spectrum of audiences: soldiers, family members, commanders, leaders, 
providers, and medical staff.
    Admiral Robinson. Since 2008, Navy Medicine has funded positions 
dedicated to treat and support TBI patients. These personnel are funded 
through Wounded, Ill, and Injured and TBI programs. For fiscal year 
2008, 28 contract positions were hired. In fiscal year 2009, there were 
an additional 52 contract positions hired for a total of 80. For fiscal 
year 2010, we expect an increase of 2 additional contract positions. In 
January 2010, Navy Medicine convened a conference of medical providers 
to discuss standardization of TBI care across the Navy Medicine 
enterprise, based upon the primary care model. Not every servicemember 
who sustains a concussion will need to be seen by medical specialists, 
and initially all care is typically done by the primary care provider 
who then generates specialist referrals as appropriate and needed. Navy 
Medicine is committed to improving access to care and has dedicated 
resources to facilities anticipated to have increased numbers of TBI 
patients. Facility staffing can be flexibly augmented by temporary duty 
assignment of staff to support redeployment surges. Finally, 
telemedicine can be utilized to remind patients of appointments and to 
facilitate medical appointments with a provider available at a remote 
location interviewing patients by video teleconference.
    General Green. Yes, there are many treatment and rehabilitation 
resources available when our servicemembers return home. The Air Force 
has case managers to take care of wounded, ill, and injured (WII) at 
each MTF. A WII patient is assigned a case manager and a primary care 
manager who coordinate care and interact/support the servicemember and 
family. In addition to the case manager and primary care manager, there 
are numerous specialists ready to take care of our servicemembers.
    Other services available to our servicemembers include a Wounded 
and Survivor Care Division run by A1 (Manpower and Personnel). This 
program has four components: (a) Air Force Survivor Assistance Program; 
(b) Family Liaison Officer; (c) Air Force Wounded Warrior Program; and 
(d) Recovery Care Coordination Program.
    An example of the type of care available to our servicemembers is 
Wilford Hall Medical Center, which partners with Brooke Army Medical 
Center to ensure comprehensive integrative MTF (TBI) care to medically-
evacuated Wounded Warriors. The joint Air Force/Army TBI Clinic at 
Elmendorf AFB treats TBI/PTSD in redeployed members so that returning 
Operation Iraqi Freedom/Operation Enduring Freedom servicemembers may 
remain with their loved ones while receiving care.
    Admiral Jeffries. Since 2008, Navy Medicine has funded positions 
dedicated to treat and support TBI patients. These personnel are funded 
through Wounded, Ill, and Injured and TBI programs. For fiscal year 
2008, 28 contract positions were hired. In fiscal year 2009, there were 
an additional 52 contract positions hired for a total of 80. For fiscal 
year 2010, we expect an increase of two additional contract positions. 
In January 2010, Navy Medicine convened a conference of medical 
providers to discuss standardization of TBI care across the Navy 
Medicine enterprise, based upon the primary care model. Not every 
servicemember who sustains a concussion will need to be seen by medical 
specialists, and initially all care is typically done by the primary 
care provider who then generates specialist referrals as appropriate 
and needed. Navy Medicine is committed to improving access to care and 
has dedicated resources to facilities anticipated to have increased 
numbers of TBI patients. Facility staffing can be flexibly augmented by 
temporary duty assignment of staff to support redeployment surges. 
Telemedicine can be utilized to remind patients of appointments and to 
facilitate medical appointments with a provider available at a remote 
location interviewing patients by video teleconference. Importantly, 
non-medical support and case management are provided to marines through 
the Wounded Warrior Regiment and Battalions which are critical to 
ensuring that marines successfully engage with available resources.

    61. Senator Graham. General Schoomaker, Admiral Robinson, General 
Green, and Admiral Jeffries, what have we learned about TBI in the last 
5 years that has lead to better prevention, treatment, and 
rehabilitation?
    General Schoomaker. Our knowledge of TBI continues to evolve. We 
have learned many things about TBI in the last 5 years, but most 
importantly we know early detection of injury is essential. Receiving 
prompt care, regardless of injury severity, is a key to returning to 
the highest functional level possible. Advancements in battlefield 
medicine have improved initial management, speed of evacuation, far 
forward medical and surgical assets, and survival rates of injured 
warriors.
    Identification of mild TBI, also known as concussion, is difficult 
because the injury is less obvious. Identifying soldiers who have 
sustained an injury and experienced an alteration of mental state could 
lead to diagnosis of mild TBI. The Military Acute Concussion Evaluation 
(MACE) tool has been used for initial evaluation since 2006. The MACE 
contains a rapid screening tool for cognitive dysfunction, a brief 
neurological screening, and a review of history and symptoms. It can be 
given by all medical personnel and was validated by the Institute of 
Medicine's ``Report on the Long-term Consequences of TBI'' in 2008. In 
addition, we have established and implemented protocols (the ``Mild TBI 
Clinical Practice Guideline in the Deployed Setting'' and ``Mild TBI 
Clinical Guidance'') to help ensure our soldiers are diagnosed quickly 
and accurately. These guidelines standardize the systems approach to 
treatment by incorporating state-of-the-art science, technology, and 
knowledge-based outcomes.
    Recognition of the importance of early detection led to the 
development of a DOD Directive Type Memorandum to codify incident-
driven protocols for concussion management and publish revised clinical 
practice guidelines for the deployed setting. This accompanies our 
efforts to change the culture in fighter management after concussive 
events. Prevention and mitigation of concussion are everyone's concern 
beginning with command and leadership.
    Significant strides are being made to improve the Personal 
Protective Equipment (PPE) worn by our servicemembers. Currently under 
development are the state-of-the-art Enhanced Combat Helmet (ECH) and a 
future head borne system (HBS) designed to reduce the overall effects 
of battle field kinetics, IED blasts, and to mitigate blunt impact.
    Additionally, the Post Deployment Health Assessment and 
Reassessment contain TBI screening questions for all soldiers. 
Providers and staff at Landstuhl Regional Medical Center conduct a TBI 
screen for all medically evacuated soldiers. The VA also instituted a 
TBI Clinical Reminder. Our screening instruments are all based on the 
Brief TBI Screen (BTBIS), a tool validated by the Defense Health Board 
and the Institute of Medicine.
    Research shows that repeated concussions may lead to increased 
long-term effects on the brain and patient function. Transcranial 
doppler studies demonstrate that cerebral vasospasm is more common in 
blast injured patients than other trauma patients, and is therefore 
something that should be assessed. The Army has led a multi-service/
agency effort to develop and implement medical staff training in order 
to improve care and management of patients with TBI. The coordination 
of the TBI continuum of care has increased significantly through the 
collaboration of the Services, the Defense and Veterans Brain Injury 
Center, the VA Polytrauma System, and community resources. This 
coordination is vital to ensure that the highest level of care is 
provided to our injured servicemembers throughout the care continuum.
    Admiral Robinson. Basic science and clinical advances in the last 5 
years have led to improvements in the prevention, treatment, and 
rehabilitation of TBI. Lessons learned include:

    1.  A clear definition of TBI did not exist. Collaboratively, the 
military has developed a single, academically-rigorous, operationally-
sound definition for the case ascertainment of TBI (especially mild 
TBI) to facilitate accurate screening, evaluation, diagnosis, 
treatment, coding, and education.
    2.  Education of patients, caregivers, providers, and leadership 
was needed to ensure proper identification and treatment. Formalized 
TBI education is now provided to deploying providers and providers at 
MTFs with standardized education materials available for servicemembers 
and their families.
    3.  Identification of TBI, especially mild TBI, requires 
standardized screening. As a result, implementation of TBI screening 
and documentation policy for theater, Landstuhl Regional Medical Center 
(initial evacuation site), CONUS/OCONUS home bases, and the VA has been 
instituted. TBI screening questions have been added to the Deployment 
Health Assessments and Navy Medicine has developed tools and 
implemented post-deployment TBI screening. This process facilitates a 
formalized methodology for TBI surveillance. Additionally, 
servicemembers are required to have predeployment neurocognitive 
testing using Automated Neuropsychological Assessment Metrics (ANAM) 
and ANAM computers have been deployed to Operation Iraqi Freedom (OIF)/
Operation Enduring Freedom (OEF) for use after a servicemember sustains 
a mTBI (concussion).
    4.  Best practices for evaluation and treatment have been 
developed. In conjunction with the other Services, we have identified 
and adopted best practices across the continuum of care for patients 
with all degrees of TBI, including acute in-theater management of mild 
TBI and establishment of multidisciplinary TBI clinics in high volume 
locations.
    5.  Ongoing support for continued research is needed to continue to 
learn and evolve the care provided for wounded warriors with TBI.

    General Green. We have learned many things about TBI in the last 5 
years but most importantly that TBI can be treated, and early detection 
of injury is the cornerstone of treatment. Diagnosis and treatment of 
moderate, severe, and penetrating TBI is typically not delayed due to 
the obvious and visible nature of the injury. Identification of mild 
TBI is more difficult because it is less obvious. The keys to detection 
of mild TBI is identifying servicemembers who may have sustained an 
injury, and performing initial evaluation with a clinician confirmation 
when needed. The systematic tool for this process is the MACE tool. The 
MACE is a rapid screening tool for cognitive dysfunction, brief 
neurological examination, and a symptoms checklist. It can be given by 
all medical personnel and was validated by the Institute of Medicine 
Report on the long-term consequences of TBI in 2008. In addition, 
established protocols, the ``Mild TBI Clinical Practice Guideline (CPG) 
in the Deployed Setting'' and ``Mild TBI Clinical Guidance'' are in 
place, which help ensure our servicemembers are diagnosed quickly and 
accurately. This guidance standardizes the systems approach to 
treatment by incorporating state-of-the-art science, technology and 
knowledge-based outcomes.
    All the Services have worked to enhance provider training that will 
greatly improve TBI patient management throughout DOD. The coordination 
of the TBI continuum of care between the DOD and the VA has increased 
significantly through the collaboration of the Defense and VA Brain 
Injury Center (DVBIC) TBI Care Coordination Network and the VA 
Polytrauma Federal Care Coordination System.
    Significant strides are being made to improve the PPE worn by our 
servicemembers. Currently under development are the state-of-the-art 
ECH and a future HBS designed to reduce the overall effects of battle 
field kinetics, and improvised explosive device blasts, and to mitigate 
blunt impact.
    Once we learned early detection was a key to TBI recovery, the DOD 
embarked on initiating a cultural change. The responsibility for force 
preservation lies with the leaders and servicemembers themselves. 
Operational events, such as exposure to a blast within a certain 
distance or the presence of vehicular damage, now mandate a medical 
evaluation.
    Although the MACE and CPG are great clinical tools for identifying 
acute injuries, identifying servicemembers post-deployment and more 
than a week after injury require a different methodology. The DOD began 
screening initiatives in 2008 with the intent of finding servicemembers 
who may have sustained a TBI while deployed and perhaps have symptoms 
that require further assessment and treatment. This TBI screening 
occurs at several points. All servicemembers evacuated from theater for 
battle or non-battle injuries are screened on arrival at Landstuhl 
Regional Medical Center. Three other screening tools are used at 
various other times such as the Post-Deployment Health Assessment 
(PDHA), PDHRA and VA TBI Clinical Reminder. All the questions used in 
the screening tools are an adaptation of an instrument called the Brief 
TBI Screen. This tool was validated by the Defense Health Board in 
2008.
    The Air Force has been involved in multiple joint training efforts 
to ensure its medics have the most up to date information to diagnose 
and treat our injured servicemembers. The Air Force also added TBI 
training to the Expeditionary Medical Support training which is 
attended by all Air Force medics before deployment.
    In addition, a nationwide care coordination network has been 
established by DVBIC for those diagnosed with TBI. A care coordinator 
contacts the servicemember diagnosed with TBI once they reach 
continental United States and again at 3, 6, 12, and 24 months 
following an injury. During these contacts, assessments are made to 
determine what resources may be needed in addition to follow up 
questions about substance use, relationships, readjustment after 
deployment and other areas shown to be important to follow up in a 
patient that has sustained a TBI.
    The Air Force is the lead agency in formulating responses to 
complex medical problems involved in air transport of acute care TBI 
patients. At the forefront of that effort is the Air Force Critical 
Care Air Transport Teams. This initiative has saved countless lives. 
The Air Force continuously improves this capability, reviewing 
information from databases such as the JTTS and incorporating lessons 
learned.
    What we have learned in the past 5 years about TBI has been key to 
providing the best care to our servicemembers. The future holds even 
more promise as research continues to provide better ways to protect, 
evaluate, and treat servicemembers with TBI.
    Admiral Jeffries. Basic science and clinical advances in the last 5 
years have led to improvements in the prevention, treatment, and 
rehabilitation of TBI. Lessons learned include:

    1.  A clear definition of TBI did not exist. Collaboratively, the 
military has developed a single, academically-rigorous, operationally-
sound definition for the case ascertainment of TBI (especially mild 
TBI) to facilitate accurate screening, evaluation, diagnosis, 
treatment, coding, and education.
    2.  Education of patients, caregivers, providers, and leadership 
was needed to ensure proper identification and treatment. Formalized 
TBI education is now provided to deploying providers and providers at 
MTFs with standardized education materials available for servicemembers 
and their families.
    3.  Identification of TBI, especially mild TBI, requires 
standardized screening. As a result, implementation of TBI screening 
and documentation policy for theater, Landstuhl Regional Medical Center 
(initial evacuation site), CONUS/OCONUS home bases, and the VA has been 
instituted. TBI screening questions have been added to the Deployment 
Health Assessments and Navy Medicine has developed tools and 
implemented post-deployment TBI screening. This process facilitates a 
formalized methodology for TBI surveillance. Additionally, 
servicemembers are required to have pre-deployment neurocognitive 
testing using ANAM and ANAM computers have been deployed to OIF/OEF for 
use after a servicemember sustains a mild TBI (concussion).
    4.  Best practices for evaluation and treatment have been 
developed. In conjunction with the other Services, we have identified 
and adopted best practices across the continuum of care for patients 
with all degrees of TBI, including acute in-theater management of mild 
TBI and establishment of multidisciplinary TBI clinics in high volume 
locations.
    5.  Ongoing support for continued research is needed to continue to 
learn and evolve the care provided for wounded warriors with TBI.

             tobacco and health care costs in the military
    62. Senator Graham. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, last summer the 
National Institute of Medicine published a report on tobacco use in the 
military that concluded: there has been an upturn in consumption in the 
last decade; that tobacco adversely affects military performance and 
results in high costs; and that tobacco cessation programs have 
received insufficient attention in the military. Does DOD still provide 
tobacco products at a discount to servicemembers?
    Dr. Rice and Admiral Hunter. Yes, under current policy, tobacco 
products are sold at a relative discount to servicemembers at 
exchanges.
    General Schoomaker. Yes, DOD Instruction 1330.9, dated 7 Dec 2005, 
provides guidance to the Army and Air Force Exchange Services (AAFES) 
and the Defense Commissary Agency (DeCA) regarding tobacco product 
sales, pricing, and restrictions. This Armed Services exchange policy 
states that military resale outlets will not charge more than the most 
competitive commercial retailer, and may charge up to 5 percent less. 
This means that, in effect, DOD is selling tobacco products at slightly 
lower cost than competing retailers. For example, if the most 
competitive commercial retailer sold a pack of cigarettes for $5.00, 
AAFES could sell the same pack for $4.75. DeCA sells tobacco products 
at the cost from AAFES for no profit. Additionally, AAFES and DeCA do 
not charge State or local sales taxes (approximately 6 percent 
savings).
    Admiral Robinson. Current DOD policy is that tobacco products sold 
in military resale outlets shall be no higher than the most competitive 
price in the local community and no lower than 5 percent below the most 
competitive commercial price in the local community.
    General Green. Yes, Air Force commissaries and base exchanges 
continue to sell tobacco products at discounted prices. The military 
medical community is very interested in examining this issue with our 
commissaries and exchanges in light of the Institute of Medicine's 
findings that increased tobacco prices is one of the most effective 
interventions for reducing tobacco consumption. The Air Force Medical 
Service participates in a working group to address this issue with the 
Defense Commissary Agency and the Army and Air Force Exchange Service.
    Admiral Jeffries. Current DOD policy is that tobacco products sold 
in military resale outlets shall be no higher than the most competitive 
price in the local community and no lower than 5 percent below the most 
competitive commercial price in the local community.

    63. Senator Graham. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, do you agree 
that prevention could reduce overall health care costs? If so, what 
more should be done?
    Dr. Rice and Admiral Hunter. We agree that prevention is a route to 
better health and longer life, and is generally cost saving with 
respect to the disease being targeted for prevention.
    TRICARE generally covers preventive services recommended by the 
U.S. Preventive Services Task Force.
    General Schoomaker. Yes, I agree that tobacco cessation can reduce 
overall healthcare costs. According to the American Journal of Health 
Promotion, DOD spends an estimated $564 million per year on medical 
care costs associated with tobacco use for TRICARE Prime Members alone. 
Tobacco usage is notorious for increasing the lifetime risk of 
acquiring serious chronic diseases and costs the DOD billions of 
dollars in medical care, diminished productivity, early attrition, and 
other adverse events. Since most tobacco-related diseases take years to 
develop, military personnel who use tobacco may eventually enter into 
the VA health system and consequently increase overall healthcare 
costs. In the short term, tobacco use impairs military readiness by 
reducing physical fitness and healing times for injuries, surgeries, 
lowering visual acuity, and contributing to hearing loss.
    The Army must address the perception that tobacco use is an 
accepted practice. Equally important is the development of a strategic 
workgroup to address tobacco issues in the Army. Senior leadership 
support and role-modeling by commanders can influence a positive 
tobacco-free culture change. Other strategies to consider:

    (1)  Tobacco use prohibition at basic/AIT, military schooling, and 
military conferences;
    (2)  Use of wellness centers to help combat tobacco;
    (3)  Tobacco cessation throughout all medical and installation 
healthcare systems;
    (4)  Tobacco-free Army military medical treatment facilities, child 
development centers and schools;
    (5)  Incentivizing tobacco-free lifestyle, i.e. promotion points to 
tobacco-free soldiers;
    (6)  Raising awareness of tobacco cessation resources such as 
``UCANQUIT 2'';
    (7)  Continue with development of 24-hour quit lines; and
    (8)  Standardize best practices for tobacco cessation programs and 
pharmacotherapy.

    Admiral Robinson. The prevention of tobacco use in the military is 
one of necessity to increase mission readiness and to decrease the 
physical and financial burden of tobacco-related illness. Tobacco 
cessation interventions have been demonstrated to be one of the top 
preventive services to implement in terms of return on investment. Many 
interventions have been adopted by the Navy to decrease tobacco use 
with the potential to do more.
    Presently, initial recruit training is done in a tobacco-free 
environment. Efforts are ongoing to extend this practice to advanced 
training schools as well. In the Fleet, the Submarine Force has just 
ordered that all of their submarines will be smoke free. Extending this 
policy to other classes of afloat units would be beneficial as well. 
Widespread access and provision of tobacco use screening, tobacco 
cessation counseling, and nicotine replacement therapy are high Navy 
Medicine priorities to address this most important issue.
    General Green. Yes, there are several studies that illustrate the 
impact of tobacco use on health care costs, so if the Air Force can 
prevent military members from using tobacco, we can reduce health care 
costs. The Air Force currently bans tobacco use during basic training 
of new recruits and continues this ban for the first 36 days of 
technical training which is our follow-on, initial skills training. 
There is evidence to suggest that extending this ban would help prevent 
new recruits from initiating smoking or relapsing to smoking. A 2003 
study found that new Air Force recruits were in favor of the tobacco-
free policy during basic training and felt that it would be relatively 
easy for them to continue to remain tobacco-free after completing basic 
training if a policy were in place that prohibited the use of tobacco. 
Additionally, the Department of Health and Human Services' Task Force 
on Community Preventive Services recommends the use of smoking bans and 
restrictions based on strong evidence of their effectiveness on 
reducing cigarette consumption and increasing smoking cessation rates.
    Admiral Jeffries. The prevention of tobacco use in the military is 
one of necessity to increase mission readiness and to decrease the 
physical and financial burden of tobacco-related illness. Tobacco 
cessation interventions have been demonstrated to be one of the top 
preventive services to implement in terms of return on investment. Many 
Service and Defense Department interventions have been adopted to 
decrease tobacco use with the potential to do more. Widespread access 
and provision of tobacco use screening, tobacco cessation counseling, 
and nicotine replacement therapy are military medicine priorities to 
address this important issue.

                     post-traumatic stress disorder
    64. Senator Graham. General Green, who is most at risk for PTSD in 
the Air Force?
    General Green. The Air Force has continued to monitor the well-
being of all airmen through multiple measures. Among these measures are 
our Post-Deployment Health Assessments (PDHA) and Post-Deployment 
Health Reassessments (PDHRA) administered following a deployment. For 
Air Force servicemembers who have deployed the prevalence of self-
reported post-traumatic stress (PTS) symptoms within 6 months post 
deployment is around 1.5 percent for men and 2.5 percent for women over 
the past 2\1/2\ years. The prevalence was varied for both self-reported 
symptoms and provider-diagnosed PTSD rates by demographic and 
deployment variables. The higher PTS(D) rates (self-reported or 
diagnosed) were consistently observed in the demographic sub-groups of 
`Female' and `Enlisted,' and the deployment sub-groups of `longer 
deployment duration' and `positive combat exposure.' Combat exposure 
remains the most significant predictor of both PTS and PTSD diagnoses 
for those who have deployed. Air Force leadership supported plans to 
provide targeted, tiered resiliency training for higher-risk career 
groups, such as our security forces, explosive ordnance disposal, and 
combat convoy driver personnel, including the formation of a Deployment 
Transition Center (DTC) in U.S. Air Forces in Europe (USAFE). The DTC 
is a 2-day resiliency training and decompression stop on a deploying 
airman's way home. The Air Force has developed a targeted approach to 
assisting those at greatest risk for exposure to potentially traumatic 
events through the DTC. Several DTCs have already been prototyped and 
the initial feedback from servicemembers participating has been 
positive. These airmen will continue to be tracked and followed to 
assess program effectiveness for their reintegration. We will continue 
the ongoing surveillance of PTS and PTSD refining and targeting 
intervention approaches. In addition to the DTC, plans are underway for 
enhanced pre- and post-deployment resiliency training for these groups 
and targeted interventions for high risk groups, with enhanced small 
group training.

    65. Senator Graham. General Green, are you designing strategies in 
behavioral health and suicide prevention tailored to those at highest 
risk?
    General Green. Yes. The Air Force is working diligently to identify 
those at greater risk for PTSD and suicide, and to target specific 
interventions to these groups. We have developed a tiered intervention 
approach to improve resilience of our entire force and to target and 
track those most at risk for additional interventions. In addition to 
foundational training for all airmen that serves to build strength and 
resilience, the Air Force addresses a variety of behavioral health risk 
factors through annual training, commanders' calls, exercises, and 
inspections. We have identified several career fields as being at 
greater risk for suicide and have initiated more intensive suicide 
prevention training for all members in those career fields, along with 
additional training for supervisors in the same career fields to 
improve their skills in intervening with at-risk airmen.
    We have also identified specific career fields and mission sets 
that are at greater risk for exposure to trauma while deployed. For 
these airmen, we have developed Deployment Transition Sites that 
provide a critical decompression and recovery period to facilitate 
their smooth return to in-garrison life. These airmen will be tracked 
to allow us to assess the effectiveness of this program and to 
intervene with any of these airmen who show signs of distress.

                            substance abuse
    66. Senator Graham. General Schoomaker, please tell me more about 
the Confidential Alcohol Treatment and Education Pilot program. What is 
it intended to demonstrate and what are the early results?
    General Schoomaker. The Army recognizes that substance abuse has 
been on the increase among soldiers over the past several years. 
Current data indicate that roughly 50 percent of soldiers with PTSD, 
depression, and mild TBI (concussion) have concurrent alcohol issues. 
The Army also recognizes that alcohol use is a significant risk factor 
for accidents, domestic violence, criminal behavior, and suicide. Since 
the 1970s, the Army Substance Abuse Program (ASAP) has helped soldiers 
with addictions problems, but the program requires strict soldier 
accountability, notifying all commanders of soldier enrollment, and 
leveraging soldier treatment compliance with consequences that may 
adversely affect the soldier's military career. In most cases, ASAP 
counselors see soldiers with addiction problems only after they have 
gotten into trouble and been formally referred to the clinic for help. 
Career-minded soldiers are more likely to avoid seeking help from the 
ASAP clinic because of concerns about the potential risk to their 
careers. Based on these findings, the Army explored alternatives to 
benefit soldiers with substance abuse problems. The Confidential 
Alcohol Treatment and Education Pilot program was designed to allow 
soldiers to present to the ASAP clinic on a self-referral basis for 
alcohol problems without automatically notifying or involving their 
commanders, and without leveraging potential consequences that may 
adversely impact one's military career, as long as they have not 
already had a bad outcome, an alcohol-related incident, or a drug 
problem. The intent of the Confidential Alcohol Treatment and Education 
Pilot is to reach more soldiers earlier in the course of their alcohol 
problem, before they get into trouble or have a bad outcome or 
incident. The Pilot has been implemented for more than 8 months at 
three Army installations. Initial findings from the Confidential 
Alcohol Treatment and Education Pilot indicate that more soldiers are 
coming forward to seek substance abuse treatment for an alcohol 
problem. This includes more career-minded soldiers, senior enlisted 
soldiers, and officers, three groups that normally would avoid 
accessing care. Under the provisions of the Pilot, medical providers 
are more willing to refer to the ASAP clinic, and soldiers are more 
willing to go as referrals. Senior Army leadership is currently 
evaluating the expansion of the Confidential Alcohol Treatment and 
Education Program across the Army so that all soldiers may benefit from 
this new approach.

                    patient and family-centered care
    67. Senator Graham. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, you have talked 
at length about patient and family-centered care. Do the families know 
about this?
    Dr. Rice and Admiral Hunter. Yes, patient and family-centered care 
was first publicized in 2006. There was an extensive media campaign 
that included kickoff meetings, posters, brochures, Web sites, and an 
intensive review of processes to better meet the needs of patients. We 
have continued to inform military families about these programs since 
their inception.
    The full implementation of the Patient Centered Medical Home is 
still under development and will include a media campaign as well as 
written guidance for providers.
    General Schoomaker. We are making coordinated efforts to inform our 
beneficiaries about patient and family-centered care as part of our 
implementation of the Medical Home concept. Marketing and beneficiary 
communications are key components of Medical Home implementation. Our 
communication plan focuses on three interrelated goals. The first is to 
change culture and close the gap between what our beneficiaries value 
and what we deliver through the Medical Home. For example, research 
findings demonstrate that continuity and the ability to identify one's 
physician are markers of high quality care. However, our beneficiaries, 
like their civilian counterparts, may not understand and appreciate 
this concept. Accordingly, we will focus on educating our beneficiaries 
on the value of continuity with their identified primary care clinician 
as we implement the business practices that maximize continuity. The 
second goal is to standardize our operations to a common patient 
experience as beneficiaries move between medical treatment facilities. 
Creating a common patient experience is the basis for the Army Medical 
Home brand and, by making our system easier to use, will increase both 
staff and patient satisfaction. The third goal is to build the tools 
and processes required to support both day-to-day patient 
communications and broader campaigns and community outreach. Culture 
change, branding, and communication will ensure that our families get 
the Medical Home message. While the overall communication effort is 
coordinated centrally, execution occurs at the individual MTF. This 
effort will accelerate as we prepare to open Community Based Primary 
Care Clinics and expand use of the Medical Home.
    Admiral Robinson. Achieving optimal patient and family-centered 
care within Navy Medicine is one of our top strategic goals. We 
communicate to our Navy and Marine Corps families on many levels to 
ensure that their care is patient and family-centered. Our concept of 
care is focused around patient/family empowerment and advocacy and 
patient satisfaction with the health care experience.
    Many Navy MTFs have healthcare consumer councils and other patient 
advisory groups that facilitate bidirectional feedback to Navy 
physicians and healthcare staff on how to improve healthcare services 
and access. Other MTFs host town hall meetings where patients can 
identify issues and topics for improvement at that activity. In 
addition, some MTFs also have access to information technology tools 
that allows patients to directly email their healthcare team, through a 
secure system, with questions and concerns. Finally, through our 
facilities' public websites, patients can access information on Navy 
Medicine healthcare services and educate themselves on patient and 
family-centered care.
    Navy Medicine continuously surveys patients to assess their 
satisfaction with access to healthcare, coordination of healthcare 
services, and patient safety. This outreach ensures ongoing feedback 
and communication between patients and their healthcare staff to tailor 
healthcare delivery to patients and their family's expectations.
    Finally, Navy Medicine is implementing a new model of healthcare 
delivery called Medical Home Port, which has proven successful in the 
civilian sector and at Navy Medicine's demonstration sites. The Medical 
Home Port model utilizes a dedicated team of medical providers and 
support staff designed to increase access to care, improve clinical 
quality, and improve patient satisfaction. Medical Home Port leverages 
technology and maximizes personnel to deliver services that improve 
continuity for beneficiaries with their provider, as well as patient 
outcomes.
    General Green. Yes, as part of our implementation strategy for our 
FHI, Air Force Medical Service has an implementation team that works 
with each of our facilities when setting up their Patient Centered 
Medical Home. As part of this assistance, teams work with the 
facilities on ways to educate their wing leadership and base populace 
regarding the new approach to care through venues such as base 
newspaper articles, pamphlets, and handouts for the patients, briefings 
at various functions across the wing, and any other locally unique ways 
to communicate with our beneficiaries. Patrick Air Force Base, for 
example, held an open house for patients and their families. In 
addition to sharing education materials, each person met their own 
provider and their personal team, establishing a solid foundation to 
their medical care.
    Admiral Jeffries. Achieving optimal patient and family-centered 
care within Navy Medicine is one of our top strategic goals. We 
communicate to our Navy and Marine Corps families on many levels to 
ensure that their care is patient and family-centered. Our concept of 
care is focused around patient/family empowerment and advocacy and 
patient satisfaction with the health care experience.
    Many Navy MTFs have healthcare consumer councils and other patient 
advisory groups that facilitate bidirectional feedback to Navy 
physicians and healthcare staff on how to improve healthcare services 
and access. Other MTFs host town hall meetings where patients can 
identify issues and topics for improvement at that activity. In 
addition, some MTFs also have access to information technology tools 
that allows patients to directly email their healthcare team, through a 
secure system, with questions and concerns. Finally, through our 
facilities' public websites, patients can access information on Navy 
Medicine healthcare services and educate themselves on patient and 
family-centered care.
    Navy Medicine continuously surveys patients to assess their 
satisfaction with access to healthcare, coordination of healthcare 
services, and patient safety. This outreach ensures ongoing feedback 
and communication between patients and their healthcare staff to tailor 
healthcare delivery to patients and their family's expectations.
    Finally, Navy Medicine is implementing a new model of healthcare 
delivery called Medical Home Port, which has proven successful in the 
civilian sector and at Navy Medicine's demonstration sites. The Medical 
Home Port model utilizes a dedicated team of medical providers and 
support staff designed to increase access to care, improve clinical 
quality, and improve patient satisfaction. Medical Home Port leverages 
technology and maximizes personnel to deliver services that improve 
continuity for beneficiaries with their provider, as well as patient 
outcomes.

    68. Senator Graham. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, last year in a 
hearing of this subcommittee, I asked family members to rate their 
health care system from A to F--I was surprised at the results, which 
were much lower than I expected. Families explained the difficulty in 
obtaining appointments. How will your family-centered care plans fix 
the access problems that family members are experiencing?
    Dr. Rice and Admiral Hunter. We are implementing several 
initiatives to address the access problems that some family members are 
experiencing.
    The Patient Centered Medical Home is designed for every Prime 
patient to be assigned to a primary care manager by name. Each primary 
care manager is part of a team practice to ensure continuity of care so 
patients have access to advice and their provider 24 hours a day/7 days 
a week.
    MTFs are utilizing innovative patient-centered and access-focused 
approaches. Several examples include open access scheduling, online 
appointment-making and online provider/patient communication, 24-hour 
nurse advice and triage phone lines, and provider/patient telephonic 
consults.
    General Schoomaker. Implementation of the Army Medical Home model 
is intended to improve access, increase quality of healthcare, and 
decrease the cost of care. The Army Medical Home model will improve 
access in several ways. First, the Medical Home expands the number of 
ways by which our beneficiaries can gain access to health care. In 
addition to the traditional, face-to-face encounter with a clinician, 
the Medical Home will offer improved telephone consultation services, 
secure e-mail communication between care providers and patients, group 
visits, and more face-to-face encounters with nurses and other members 
of the health care team. Second, the Medical Home uses an open access 
appointment-making system focused on providing same-day access for 
those beneficiaries who request it. Third, measures of Medical Home 
performance focus on access and incorporate these measures into 
individual performance plans so that every staff member is incentivized 
to focus on improving access. Finally, the Army Medical Home improves 
operating efficiencies that will improve the supply of both traditional 
and nontraditional appointments. These include increased numbers of 
exam rooms in new facilities, more effective administrative models that 
free clinicians to see patients, better information systems, updated 
business rules, enhanced marketing and communications, improved staff 
training, and standardized operating rules. Taken together, these 
features of the Army Medical Home will help fix the access problems 
that family members are experiencing.
    Admiral Robinson. Navy Medicine is implementing a new model of 
healthcare delivery called Medical Home Port. This evidence-based model 
has proven successful in enhancing patient access to care in both the 
civilian sector and at pilot sites in Navy Medicine. Due to this 
initial success, Navy Medicine is currently expanding implementation of 
this model to eight additional sites by June 2010 and all primary care 
clinics by the end of 2011.
    Medical Home Port enhances access through numerous means. The first 
method is through the use of open access scheduling. This scheduling 
model ensures that patients can book appointments based on their need 
and preference. Patients can be seen the same day of their requested 
appointment; or, if they prefer, at a later more convenient date.
    Additionally, patients enrolled to the Medical Home Port will have 
direct access to their healthcare team 24/7 through secure messaging, 
telephone, pager, or other communication format. This allows the 
healthcare team to ensure that continuous, comprehensive and holistic 
care is provided to their patients. The team will address as many of 
the patient's healthcare needs as possible through a single 
appointment--from behavioral health to patient education to chronic 
disease management.
    General Green. A major focus of our FHI is access to care. We 
require our providers to provide a minimum of 90 appointments per full 
week in clinic. We have subsequently seen improvement in patient 
satisfaction with access at locations that have implemented FHI. 
Additionally, as we are seeing more continuity between patients and 
their providers, a secondary effect has been decreased demand, improved 
coordination of care, and overall improvement in access.
    Admiral Jeffries. The Marine Corps is supportive of the Patient and 
Family-Centered Care and Medical Home initiatives. These initiatives 
hold the promise of improving access and care to marines and their 
families.
    Navy Medicine is implementing a new model of healthcare delivery 
called Medical Home Port. This evidence-based model has proven 
successful in enhancing patient access to care in both the civilian 
sector and at pilot sites in Navy Medicine. Due to this initial 
success, Navy Medicine is currently expanding implementation of this 
model to eight additional sites by June 2010 and all primary care 
clinics by the end of 2011. This roll out plan will result in nearly 
all Marine Corps personnel being included in Medical Home Port by the 
end of 2011.
    Medical Home Port enhances access through numerous means. The first 
method is through the use of open access scheduling. This scheduling 
model ensures that patients can book appointments based on their need 
and preference. Patients can be seen the same day of their requested 
appointment; or, if they prefer, at a later more convenient date.
    Additionally, patients enrolled to the Medical Home Port will have 
direct access to their healthcare team 24/7 through secure messaging, 
telephone, pager, or other communication format. This allows the 
healthcare team to ensure that continuous, comprehensive and holistic 
care is provided to their patients. The team will address as many of 
the patient's healthcare needs as possible through a single appointment 
including behavioral health, patient education, and chronic disease 
management.
    If the anticipated successes of this approach are achieved, a 
future next step might involve integrating the care delivered to 
marines in garrison by organic personnel, for example a regimental 
surgeon, with the care delivered to the marine's family in the Navy 
MTF.

                      growth in health care costs
    69. Senator Graham. Dr. Rice, your testimony indicates that health 
care costs are expected to grow from 6 percent to more than 10 percent 
of the 000 top line by fiscal year 2015. This is a change from previous 
statements that costs were expected to grow from 8 percent to 12 
percent of the budget by fiscal year 2015. Is this an indication that 
we are achieving efficiencies in the system, or that we've found a 
different way to do the math?
    Dr. Rice. The variation is neither an indication we are achieving 
efficiencies in the system, nor that we have found a different way to 
do the math. The Unified Medical Budget percentage of the DOD top line 
is never constant; it varies from year to year due to fluctuating cost 
assumptions.

military performance at the uniformed services university of the health 
                                sciences
    70. Senator Graham. Dr. Rice, when you are not performing the 
duties of the Assistant Secretary of Defense for Health Affairs, you 
are the President of the USUHS and have been since 2005. The University 
is the military's medical school and has produced hundreds of 
outstanding doctors since its establishment over 35 years ago, many of 
whom stay in uniform for long careers. Oddly, the original statute 
required that students remain as second lieutenants or ensigns for 
their entire 4-year education. At your recommendation last year, we 
supported a legislative provision that would allow the promotion of 
medical students at USUHS after 2 years--like all other commissioned 
officers. Our intent was to place greater emphasis on the military 
responsibilities of medical officers, but our friends in the House of 
Representatives did not support this proposal. Please comment about 
this idea, with the benefit of your 5 years out at USUHS. Would 
permitting promotion after 2 years of medical school, in response to 
good performance, help improve the student body?
    Dr. Rice. Although I am consistently impressed with the dedication 
and commitment of USUHS medical students, I believe their development 
as future leaders could be enhanced by properly administered promotion 
consideration and selection. It is my view promotion ceremonies 
involving the Surgeons General and other Service officials at the 2-
year mark would provide an important Service connection and motivator, 
as well as morale builder, for both officers and their families--
recognizing their hard work and sacrifice. Further, providing promotion 
with contemporaries will assist in both recruitment--particularly in 
the recruitment of quality Academy and ROTC graduates and prior-service 
personnel--and long-term retention. I also believe such a promotion 
opportunity would enhance our students' understanding of being a 
military officer.
    I am more aware now than ever successful accomplishment of the DOD 
mission requires military health care providers see themselves as an 
integral part of their Service teams. Ensuring officers attending 
USUHS, which is the primary accessions source for career military 
health care providers, are treated as part of their Service teams from 
their first day of service is critical to this self view.

    71. Senator Graham. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, do you think it 
could help eliminate from the student body, students who are not 
motivated and who do not demonstrate the military bearing, loyalty, and 
leadership traits that all officers should have?
    Dr. Rice and Admiral Hunter. Yes, I believe 2-year promotion 
eligibility could help eliminate from the student body, students who 
are not motivated and who do not demonstrate the military bearing, 
loyalty, and leadership traits that all officers.
    Promotion consideration at the 2-year point would involve a 
critical additional assessment of officership by the chain of command 
at USUHS and the Services. Medical students who fail to measure up to 
officership standards (military bearing, loyalty, and leadership) at 
this point, will be clearly identified for separation, if appropriate, 
or at a minimum, for continued attention (mentoring and observation).
    General Schoomaker. No, promotion from second lieutenant to first 
lieutenant while at the USUHS would not help. Processes are already in 
place to regularly evaluate performance and determine advancement, 
deceleration, or termination for students at USUHS. I doubt that any 
additional value would be added to the current process by the addition 
of a promotion opportunity.
    Admiral Robinson. This question is specific to the USUHS. As such, 
it is most appropriately answered by President of USUHS.
    General Green. Since promotions are based on merit and the 
demonstrated ability to perform in a higher grade, allowing medical 
students (both USUHS and HPSP) to advance to the next grade (O-2) 
following their second year of medical school would serve as a positive 
incentive, one that could also enhance our ability to recruit and 
retain strong military medical leaders for the future.
    As military-medical officers, USUHS (and HPSP) students must adhere 
to the same standards of professional comportment as their line 
counterparts, so promoting those who demonstrate positive professional 
performance, while deferring promotion for those who fail to meet 
Service specific standards, would be yet another means of ensuring a 
truly quality force.
    Admiral Jeffries. This question is specific to the USUHS. As such, 
it is most appropriately answered by President of USUHS.

                    remedial actions after fort hood
    72. Senator Graham. General Schoomaker, there is disciplinary 
action pending against Major Nidal Hasan, but we need to know what 
steps you have taken to ensure that the performance of young doctors in 
the Army Medical Corps is being accurately reported on and effective 
corrective measures are being implemented when individual officers fail 
to perform to standards. What guidance have you given to ensure that 
officer efficiency reports are useful tools in evaluating the 
performance and assignment of medical officers?
    General Schoomaker. I have issued guidance to my subordinate 
commanders reinforcing the importance of honest, forthright 
evaluations. Army Regulation 623-3 (Evaluation Reporting System) 
Appendix E provides special instructions for evaluations pertaining to 
Army Medical Department (AMEDD) officers. The overarching priority for 
Appendix E is accurately reporting on an officer's performance while 
ensuring effective corrective measures are in place to produce a broad-
based corps of leaders who possess the necessary values, attributes, 
skills, and actions to perform their duties and serve the Nation. These 
leaders must demonstrate confidence, integrity, critical judgment, and 
responsibility while operating in an environment of complexity, 
ambiguity, and rapid change.
    Furthermore, the AMEDD relies on a concerted, joint effort of 
subject matter experts to train, develop, and optimally assign its 
officers. The primary tool facilitating this process, especially to 
ensure that senior officers are assigned to clinical positions that 
maximize their utilization and experience, is the biannual Human 
Capital Distribution Process (HCDP). The HCDP is a business practice 
whereby the Army Medical Command collaboratively distributes its human 
capital in a manner that ensures the right mix of qualified providers 
are present at each AMEDD facility to ensure mission accomplishment.
    Additionally, Department of the Army Pamphlet 600-4 (Army Medical 
Department Officer Development and Career Management) is Army guidance 
that promotes the assignment of senior O6 officers into positions which 
foster mentorship for junior officers. AMEDD leaders are directed to 
continually conduct developmental counseling and mentor young Medical 
Corps officers to help them professionally develop, accomplish 
organizational goals, and achieve personal ambitions, while preparing 
them for increased responsibilities.

    73. Senator Graham. General Schoomaker, what measures have you 
instituted to ensure that medical officers, particularly those in the 
training pipeline, conform to physical standards and are appropriately 
evaluated and counseled for shortcomings?
    General Schoomaker. I am aware that maintaining physical standards 
is an issue across the Services while students attend the Uniformed 
Services University. However, within the Army, I have reinforced to my 
subordinate commanders and leaders the need to strictly comply with 
Army policy and regulation regarding physical standards. Army 
Regulation 350-1 (Army Training and Leader Development) provides 
policies, procedures and responsibilities for developing, managing, and 
conducting Army Training and Leader Development for all Army officers. 
All Army officers are also covered by Army Regulation 600-9 (Army 
Weight Control Program) which establishes policies and procedures for 
the implementation of the Army Weight Control Program. Individuals who 
are selected to enter Graduate Medical Education (GME) must sign a 
training agreement acknowledging that, as a condition of employment and 
for continuation in GME, they must comply with the Army physical 
fitness, appearance, and weight standards. Those entering Active Duty 
internships are given a diagnostic Army Physical Fitness Test (APFT) 
during their orientation to assess for those who will require 
additional physical training. Those selected for advanced GME training 
must be in compliance with APFT and height and weight requirements 
prior to beginning training; if not, the training opportunity may be 
withdrawn. Trainees who are out of compliance at any time are counseled 
by program directors as well as company commanders on the importance of 
meeting the standards and the negative impact of noncompliance on their 
training and career progression.

    74. Senator Graham. General Schoomaker, what steps have you taken, 
or have you recommended, ensuring that personnel who demonstrate 
reservations or doubts about active military service are identified and 
dealt with?
    General Schoomaker. I have reinforced with my commanders, with 
direction to disseminate to the rest of the force, the importance of 
leaders engaging with their subordinates in regular, routine counseling 
sessions. This is a fundamental precept of military leadership. Leaders 
should know what is happening in their soldiers' lives and provide 
support and intervention as necessary. An individual who demonstrates 
reservations or doubts about active military service may be referred to 
the chaplain, a counselor, or some other appropriate authority, 
depending on the circumstances of the case. At all times the chain-of-
command should be made aware of these cases and exercise appropriate 
command oversight.
                                 ______
                                 
               Questions Submitted by Senator John Thune
               electronic medication management assistant
    75. Senator Thune. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, I understand 
that the Army Surgeon General's office piloted the use of a remote 
medication management device known as Electronic Medication Management 
Assistant (EMMA) on patients at the Warrior Transition Unit at Walter 
Reed Army Medical Center (WRAMC). Due to the success at Walter Reed, 
the pilot program was expanded to Fort Carson, Fort Lewis, and Fort 
Bragg.
    I also understand that the expanded pilots are confirming Walter 
Reed's results that EMMA controls the access to dangerous narcotics and 
controlled substances; improves outcomes by increasing prescription 
adherence from an estimated 65 percent to over 90 percent; and limits 
the abuse and misuse of medications. Furthermore, due to the results at 
the Warrior Transition Units, EMMA was made a TRICARE benefit.
    Since the EMMA pilots are showing that this device successfully 
mitigates the risk of medication misuse and improves patient safety, 
what is being done to expedite the expansion of this device to other 
Warrior Transition Units and to all high risk wounded warrior patients?
    Dr. Rice and Admiral Hunter. We are not currently developing plans 
to expedite the expansion of EMMA device use throughout the MHS.
    We have conducted a review of EMMA and in response to the review 
results, have cautiously restricted coverage for EMMA to cases where it 
is prescribed by a military physician to an Active Duty servicemember.
    General Schoomaker. The Army Medical Command directed an expanded 
pilot of EMMA after experiencing limited success at WRAMC. Once the 
expanded pilot has concluded and data have been analyzed, we will 
determine whether to continue with EMMA and, if so, who would benefit. 
Although WRAMC pharmacy did not conduct outcomes studies in the WRAMC 
portion of the pilot, they did find success in warriors with TBI who 
were having difficulty remembering to take their medications. The 
automatic alert on EMMA has been instrumental in helping the warriors 
take medications at appropriate times. The WRAMC staff noted that 
warriors with potential prescription abuse issues were not as 
successful with EMMA as they often found ways to work around the 
automated controls. The 6-month expanded pilot will be completed in May 
2010 with a planned briefing to Army leadership in July after 
appropriate evaluation of outcomes and satisfaction data. Since 
implementation at WRAMC, a total of 24 warriors have used EMMA; there 
are currently 18 warriors active. Each additional pilot site enrolled 
10 warriors.
    TRICARE reimbursement rules allow for paying for EMMA under the 
Supplemental Healthcare Program for Active Duty. While EMMA can be 
considered durable medical equipment in the TRICARE Manual Policy, it 
is not considered medically necessary based on a review of the 
supplier's literature by TMA's Medical Benefits and Reimbursement 
Branch. Therefore, TRICARE is not permitted to pay EMMA costs for non-
Active Duty personnel.
    Admiral Robinson. The Navy Medicine Information System Support 
Activity (NAVMISSA), as the execution arm for deployment and 
maintenance of Navy Medicine IT Systems has been providing assistance 
to the contractor, INRange, since October 20, 2009, to develop the 
necessary documentation package for the Information Assurance 
Certification and Accreditation (C&A) of the EMMA. NAVMISSA's 
responsibility as the Navy medical network security manager is to 
ensure that all Information Assurance C&A packages are prepared, 
reviewed, and validated in accordance with Joint Task Force, Global 
Network Operations (JTFGNO) (security arm for DOD) requirements prior 
to submission to the Naval Network Warfare Command (NETWARCOM) for 
approval. EMMA must be formally certified and accredited by NETWARCOM 
prior to interface with the Navy Medicine IT network. All military 
Services are held to the same level of security certification. INRange 
has not provided the level of security required both in documentation 
and technical certification to prepare the total package required for 
review and submission by NAVMISSA to NETWARCOM for approval leading to 
certification and accreditation. It is the intent of the Bureau of 
Medicine and Surgery to expeditiously field this capability as soon as 
the contractor, INRange, provides the predefined security deliverables.
    General Green. This question addresses the Army's Warrior 
Transition Units and as such I defer to the Army Surgeon General for 
the response to this question for the use of EMMA in the Warrior 
Transition Units.
    Admiral Jeffries. The NAVMISSA, as the execution arm for deployment 
and maintenance of Navy Medicine IT systems, has been providing 
assistance to the contractor, INRange, since October 20, 2009 to 
develop the necessary documentation package for the Information 
Assurance Certification and Accreditation (C&A) of the EMMA. NAVMISSA's 
responsibility as the Navy medical network security manager is to 
ensure that all Information Assurance C&A packages are prepared, 
reviewed, and validated in accordance with JTFGNO (security arm for 
DOD) requirements prior to submission to the NETWARCOM for approval. 
EMMA must be formally certified and accredited by NETWARCOM prior to 
interface with the Navy Medicine IT network. All military Services are 
held to the same level of security certification. INRange has not 
provided the level of security required both in documentation and 
technical certification to prepare the total package required for 
review and submission by NAVMISSA to NETWARCOM for approval leading to 
certification and accreditation. It is the intent of the Bureau of 
Medicine and Surgery to expeditiously field this capability as soon as 
the contractor, INRange, provides the predefined security deliverables.

    76. Senator Thune. Dr. Rice, Admiral Hunter, General Schoomaker, 
Admiral Robinson, General Green, and Admiral Jeffries, I also 
understand that the marines at Camp Lejeune have been unable to obtain 
the EMMA TRICARE benefit for Wounded Warriors because the NAVMISSA has 
refused to do so based on information systems program management 
issues. What is being done to provide this device to the marines and 
why is NAVMISSA involved in a TRICARE benefit?
    Dr. Rice and Admiral Hunter. We have conducted a review of EMMA, 
one of the results of that review was concerns with ensuring secure 
data communications from a remote device in the patient's home to 
protect patient privacy.
    With these concerns, we have cautiously restricted coverage for 
EMMA to cases where it is prescribed by a military physician to an 
Active Duty servicemember.
    General Schoomaker. We respectfully defer to the Navy and the 
Marine Corps to address this question.
    Admiral Robinson. The NAVMISSA, as the execution arm for deployment 
and maintenance of Navy Medicine IT systems has been providing 
assistance to the contractor, INRange, since October 20, 2009, to 
develop the necessary documentation package for the Information 
Assurance C&A of the EMMA. NAVMISSA's responsibility as the Navy 
medical network security manager is to ensure that all Information 
Assurance C&A packages are prepared, reviewed, and validated in 
accordance with JTFGNO (security arm for DOD) requirements prior to 
submission to the NETWARCOM for approval. EMMA must be formally 
certified and accredited by NETWARCOM prior to interface with the Navy 
Medicine IT network. All military Services are held to the same level 
of security certification. INRange has not provided the level of 
security required both in documentation and technical certification to 
prepare the total package required for review and submission by 
NAVMISSA to NETWARCOM for approval leading to certification and 
accreditation. It is the intent of the Bureau of Medicine and Surgery 
to expeditiously field this capability as soon as the contractor, 
INRange, provides the predefined security deliverables.
    General Green. As this question relates to Navy issues, I defer the 
response on EMMA TRICARE benefit and NAVMISSA's involvement in a 
TRICARE benefit to the Navy Surgeon General for response.
    Admiral Jeffries. The NAVMISSA, as the execution arm for deployment 
and maintenance of Navy Medicine IT systems has been providing 
assistance to the contractor, INRange, since October 20, 2009, to 
develop the necessary documentation package for the Information 
Assurance C&A of the EMMA. NAVMISSA's responsibility as the Navy 
medical network security manager is to ensure that all Information 
Assurance C&A packages are prepared, reviewed, and validated in 
accordance with JTFGNO (security arm for DOD) requirements prior to 
submission to the NETWARCOM for approval. EMMA must be formally 
certified and accredited by NETWARCOM prior to interface with the Navy 
Medicine IT network. All military Services are held to the same level 
of security certification. INRange has not provided the level of 
security required both in documentation and technical certification to 
prepare the total package required for review and submission by 
NAVMISSA to NETWARCOM for approval leading to certification and 
accreditation. It is the intent of the Bureau of Medicine and Surgery 
to expeditiously field this capability as soon as the contractor, 
INRange, provides the predefined security deliverables.

    [Whereupon, at 12:05 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                       WEDNESDAY, APRIL 28, 2010

                               U.S. Senate,
                            Subcommittee Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.

  MILITARY COMPENSATION AND BENEFITS, INCLUDING SPECIAL AND INCENTIVE 
                                  PAYS

    The subcommittee met, pursuant to notice, at 10:03 a.m. in 
room SR-222, Russell Senate Office Building, Senator Jim Webb 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Webb, Begich, and 
Chambliss.
    Committee staff members present: Leah C. Brewer, 
nominations and hearings clerk; and Jennifer L. Stoker, 
security clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella Eisen, counsel; and Gerald J. Leeling, counsel.
    Minority staff members present: Diana G. Tabler, 
professional staff member; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Jennifer R. Knowles and Breon N. 
Wells.
    Committee members' assistants present: Gordon I. Peterson, 
assistant to Senator Webb; Lindsay Kavanaugh, assistant to 
Senator Begich; and Jason Lawrence and Clyde A. Taylor IV, 
assistants to Senator Chambliss.

        OPENING STATEMENT OF SENATOR JIM WEBB, CHAIRMAN

    Senator Webb. The subcommittee will come to order.
    The subcommittee meets today to receive testimony on 
military pay and compensation programs.
    We welcome four witnesses this morning. William Carr is the 
Deputy Under Secretary of Defense for Military Personnel 
Policy; Brenda Farrell is the Director of Defense Capabilities 
and Management, Government Accountability Office (GAO); Dr. 
Carla Tighe Murray is the Congressional Budget Office (CBO) 
Senior Analyst for Military Compensation and Healthcare; and 
Dr. James R. Hosek is the Director of Forces and Resources 
Policy Center, RAND National Defense Research Institute. We 
welcome all four of the witnesses to this hearing.
    I'd like to say this is the first time that I have chaired 
a hearing in this room, and it's rather odd, because I spent 
many times down where you guys are when I was in the Department 
of Defense (DOD). It looks a little better from this end of the 
table, I have to say. [Laughter.]
    The cost of military personnel, including pay and 
compensation, noncash and deferred benefits, and healthcare 
continues to rise at disturbing rates. The Department's 
proposed base budget for fiscal year 2011 for military 
personnel and healthcare amounts to almost $170 billion, or 
more than 30 percent of the Department's total budget. By 
comparison, using 2010 constant dollars, the Department's total 
cost for military personnel and healthcare in 2001 was $109 
billion. This represents an increase of more than 57 percent. 
The defense health program base budget, including retiree 
healthcare costs, has increased from $16.6 billion in 2001, 
using constant dollars, to $41.7 billion in 2011, which 
represents an increase of more than 151 percent.
    Nevertheless, we face the realities posed by the ninth 
consecutive year of combat operations and the incredible stress 
this has placed on our servicemembers and their families.
    In order to carry out our national obligations, the 
Services must continue to recruit and retain highly qualified 
individuals in sufficient numbers. Unlike past wars, this 
Nation today is fighting with an All-Volunteer Force (AVF). If 
the Services are to sustain the quality of the AVF, they must 
be able to compete with the private sector, with the right 
numbers of talented young men and women.
    Beyond the basic requirement to compensate our 
servicemembers fairly for their unique conditions of service 
and sacrifice, a robust military compensation and benefit 
package is key to maintaining the military's competitive 
position.
    As a consequence, compensation and benefits have risen 
significantly over the past decade. In the 2010 National 
Defense Authorization Act (NDAA), Congress enacted a pay raise 
above the annual increase in the employment cost index (ECI) 
for the 12th consecutive year. For 10 of those years, the pay 
raise was across the board for all members of the uniformed 
Services, including uniformed members of the National Oceanic 
and Atmospheric Administration, the Public Health Service, and 
the Coast Guard.
    While the pay raises of the past decade were appropriate, 
and I supported them on this subcommittee over the past 3 
years, DOD officials remind us that additional pay raises above 
the ECI have a tailing cost that is often overlooked. Because 
of the increased basic pay above the rate of inflation, for 
example, future retired pay is increased for all members of 
uniformed Services, well beyond DOD projections.
    In addition to basic pay, the Department and the Services 
rely on bonuses and other special and incentive (S&I) pays to 
attract and retain highly qualified individuals who serve in 
critical occupational specialties and hard-to-fill billets. 
Such cash incentives, while sometimes causing sticker-shock to 
the media, the public, and even some Members of Congress, have 
the benefit of being targeted to essential people and necessary 
skills, when done properly.
    We, in government, have a particular responsibility to have 
a full understanding of how such funds are being used and if 
they are being used in a logical and efficient way. S&I pays 
are not reprogrammed from other accounts with specific 
congressional approval. However, unlike other DOD spending 
actions during a budget execution year, they can be dialed up 
or down, depending on circumstances and the needs of each 
branch of the Armed Forces. They also can be used to encourage 
an appropriately recognized Service, under the most arduous and 
demanding conditions.
    The Department's management and stewardship of S&I pays is 
not always transparent, either to the public or to Congress. 
During this subcommittee's personnel posture hearing last 
month, I asked Under Secretary Stanley to provide a 
consolidated accounting and an explanation of the Department's 
use and management of S&I pays, and how these pays ensure that 
they are being used efficiently and prudently.
    We are informed by DOD that S&I pays make up less than 4 
percent of the proposed 2011 military personnel budget. This, 
in fact, represents a decline from prior years. This level of 
funding, more than $5.5 billion, is still significant. In its 
response to my inquiry, the Department has urged the greater 
use of S&I pays as a more efficient and, ultimately, less 
costly use of funds, versus an additional across-the-board pay 
raise above ECI that affects all members of the uniformed 
Services equally.
    The GAO report on military compensation released this month 
seems to agree with this assessment, as does the 2007 CBO 
report on military compensation. I look forward to hearing from 
Ms. Farrell and Dr. Murray on their agencies' work in this 
area.
    This raises the question of what comprises the best mix of 
across-the-board pay raises versus cash incentives in order to 
attract and retain the highest quality AVF in sufficient 
numbers to reduce the stress on the force while compensating 
servicemembers adequately and fairly for the unique conditions 
of their Service.
    I believe this is the ultimate goal of an equitable 
military compensation system. In the final analysis, the 
relative success of recruiting and retention may be the most 
relevant indicator of our striking the right balance and 
adequately compensating our all-volunteer military.
    In the end, we must make sure that our compensation systems 
are as efficient and responsible as fairness allows so that we 
can afford the end strength that we need.
    I hope our witnesses today, especially Mr. Carr, can shed 
some light on the Department's needs and the process that it 
follows to ensure that S&I pays are used in a way that best 
serves the interests of our military and of the U.S. taxpayer.
    Similarly, I look forward to working with Under Secretary 
Stanley to ensure that Congress has the visibility it needs in 
order to effectively discharge its responsibilities to oversee 
the military and the military compensation system.
    I thank each of our witnesses for appearing to testify 
today. I hope you can shed some light on how we can be more 
efficient, at the same time being adequate and fair, in terms 
of compensating our servicemembers. I also hope to hear some 
ideas on what we can do to address the sharp growth in some of 
these costs. I'm looking forward to a dialogue on that during 
this hearing.
    Senator Graham is held up in a markup in another committee. 
We're very pleased to have Senator Chambliss here to represent 
the Republican side.
    Senator Chambliss, welcome.

              STATEMENT OF SENATOR SAXBY CHAMBLISS

    Senator Chambliss. Thank you very much, Mr. Chairman, first 
of all, for holding this hearing, and for your leadership on 
this issue.
    I want to join you in welcoming our witnesses and thanking 
them for their public service. We appreciate the great work you 
do. It's never easy dealing with numbers, period. But, when 
you're having to deal with numbers in tough times, particularly 
on this particular issue, where the service to the United 
States is reflected by the men and women who continue to serve 
so valiantly, it's even more difficult, I know. So, we 
particularly thank you for your service to our country.
    In view of the sacrifices and service of the men and women 
of our Armed Forces, it is essential that we provide them and 
their families with compensation and a quality of life that 
reflects not only what is needed to successfully recruit and 
retain personnel, but also our appreciation and respect for 
their volunteer service.
    Monitoring and adjusting the levels of military pay is a 
shared responsibility of Congress and the Department which we 
all take very seriously. Mr. Chairman, it's helpful to step 
back, occasionally, and assess how we are doing.
    I appreciate the views expressed by our witnesses regarding 
military pay comparability with civilian counterparts. Since 
2000, our committee has supported robust pay increases, and 
there is no question that this has contributed to the superb 
caliber and readiness of the Armed Forces. To recruit the 
highest caliber young people and to retain them for careers, 
during good economic times and bad, it is absolutely critical 
that incentive pay, such as bonuses and special pays, be 
flexible enough to respond to changing manpower needs.
    The military has had to be able to compete successfully for 
the services of critically needed professionals, and retain 
leaders of proven ability for careers of service. Critically 
needed warfighters, such as Special Forces personnel, are high 
on this list. Healthcare professionals, nuclear-qualified 
individuals, EOD personnel, and many others come to mind, as 
well.
    Compensation for our Reserve component personnel is another 
area that requires careful examination. Reservists and 
guardsmen provide a great return on the investment, in terms of 
the capability they provide; but, an operationally-oriented 
Reserve and Guard is very different from the Strategic Reserve 
of the past. I'll be interested to hear how DOD is using pay as 
an incentive to retain reservists for long careers, and what 
changes we may see in that regard.
    The issue of pay and benefits is very important to our 
servicemembers, and one that this committee cares a great deal 
about. Each of your perspectives can help inform our 
recommendations in this area and help us, with DOD, shape a set 
of pay and benefit policies that serves to recruit and retain 
the people our Nation needs in the military, and does so in a 
way that is also fiscally responsible.
    I thank you for your appearance today, for your commitment 
to this issue, and, most of all, your commitment to our members 
of the military.
    Thank you very much, Mr. Chairman.
    Senator Webb. Thank you very much, Senator Chambliss.
    We're going to go to the witnesses. Mr. Carr will go first.
    But, before we do, I would like to raise a matter. Mr. 
Carr, I hope you will take this back to your boss. This relates 
to a question that I raised about military fellows. This is a 
very simple question requesting data on military fellows in all 
elements of their involvement outside of DOD. I asked this 
question on February 2, 2010, to Secretary Gates. I re-asked it 
again on March 10 to Secretary Stanley.
    I want to start off by saying, when I was a committee 
counsel over on the House side 30 years ago, DOD was famous for 
its responses. During a hearing where we were looking at the 
Carter discharge review program--we were trying to get a 
breakdown on who served during the Vietnam war, where the 
casualties were, et cetera--I once turned around to the DOD 
liaison and said, ``I need a breakdown of who served: 
ethnically, racially, by Service, by year; and what the 
casualties were, by Service, by race, by ethnicity, by year.'' 
I had that information in 1 day; a very voluminous piece of 
information. DOD invented computer technology. It basically 
invented the Internet, with apologies to some other people who 
made contrary statements in the past. [Laughter.]
    This kind of information shouldn't take 3 months. I don't 
want to be put in a position where I'd have to put a hold on 
nominations or do any of these sorts of things that we have to 
do in order to get cooperation. We finally, this morning, 
received a reply, and it's really inadequate. It's basically, I 
think, minimal cooperation. So, we need to do a lot better on 
these kinds of things.
    Mr. Carr. Yes, sir.
    Senator Webb. So, just take that back to your boss, if you 
would.
    Mr. Carr. I will do that, sir.
    Senator Webb. Welcome.
    Mr. Carr, the floor is yours.

STATEMENT OF WILLIAM J. CARR, DEPUTY UNDER SECRETARY OF DEFENSE 
                 FOR MILITARY PERSONNEL POLICY

    Mr. Carr. Thank you, Mr. Chairman.
    Very correctly, the chair pointed out that today we fight 
the wars with an AVF. If we would have looked back a number of 
years ago and asked ourselves how a volunteer force could 
perform the protracted war, we would have viewed it as a risky 
proposition. It has not proven that. Our retention is stable. 
Our retention is good. Unit manning, as a consequence, is good. 
The skill distribution is good--far better than I would have 
projected years ago.
    The things that have happened because of this subcommittee 
and because of Congress--I'll mention, simply, one, because it 
goes to the chairman's point on pay as being an important 
component, in addition to S&I pays. We took the military pay 
table which is rank versus years of service, and when we looked 
at it, we realized noncomissioned officers (NCO) and junior 
officers were relatively underpaid; some pay compressions had 
occurred. It took a number of years to tweak the pay table and 
jack those up, and we did. But, we did something else. Congress 
moved it to a 40-year pay table, instead of 30. We had an 
extraordinary number of senior NCOs who were called upon 
repeatedly to go to the theater, because they were talented, 
sharp, and experienced. For that reason, they served beyond 30 
years. But, retirement pay would be capped at 75 percent. That 
was removed, coupled with a 40-year pay table enacted by 
Congress. Those are the kinds of things that adapt, that show 
the agility and, I think, specifically, are generating the kind 
of readiness we have.
    Today we focus on roughly 3 percent of the budget for 
military personnel that are, I believe, the best-leveraged 
dollars we invest. They allow the Nation to recognize special 
circumstances: the hazards of combat and special duties, such 
as explosive ordnance disposal, or unique private-sector 
opportunities, where a given segment of the force has an 
opportunity and a strong temptation for their families to move 
to a different line of work. Yet, they remain with us, in part, 
because of the S&I pays that we provide. Those pays are 
targeted. They produce a specific result on a limited 
population. They, therefore, tend to be some of the most 
efficient manpower dollars that we invest in the pursuit of 
readiness.
    But, that account is tight, and it's growing tighter. We 
believe it's sized right. We believe it's prioritized correctly 
in this budget. But, even so, those dollars, as the chairman 
pointed out, are tightening, and we're moving from 2009 levels, 
of about 4.4 percent of the military personnel account, being 
allocated to these very precious, targeted, leveraged, 
efficient pays, to about 3 percent. There are reasons we do 
that. We think the risk is reasonable, based on our forecasts 
of how the members and families are going to react.
    Now, we know that setting compensation at an appropriate 
level is critical to the sustainment of robust Guard and 
Reserve, as the chairman also correctly pointed out, as did 
Senator Chambliss. The 11th Quadrennial Review of Military 
Compensation (QRMC) has convened, and the President asked that 
they look specifically at this. These QRMCs are producing solid 
public policy options--bold, almost daring. The 10th QRMC 
certainly did in its reviews of options for military 
retirement, for example.
    With the people that we've chosen to lead that, I have 
little doubt that this QRMC is going to produce a systematic 
set of outcomes that will help improve the lot of the Reserves 
and the way that we integrate them in today's environment.
    In summary, Mr. Chairman, you have aggressively and 
attentively watched over those in the military. Every person in 
uniform owes you a debt, and the subcommittee a debt, for the 
things that you've done.
    I thank you for the opportunity to appear before you and 
look forward to participating today.
    [The prepared statement of Mr. Carr follows:]
                 Prepared Statement by William J. Carr
    Chairman Webb, Senator Graham and distinguished members of the 
subcommittee, thank you for the opportunity to come before you on 
behalf of the men and women who so ably serve in the uniforms of our 
Nation's Armed Forces.
    I am here today to speak to you about the state of compensation for 
our uniformed services. I am pleased to report that--thanks to your 
support--soldiers, sailors, airmen, and marines continue to express 
healthy satisfaction with the full pay and benefits the military 
services provide. This is understandable since military compensation 
competes very well with private sector wages.
    Over the past decade, the Department and Congress together have 
faced a host of challenges in ensuring military compensation is 
adequate to recruit and sustain America's All-Volunteer Force. 
Together, we have reshaped military compensation to make certain that 
military service remains an attractive option for today's youth as they 
enlist, and as they progress through critical points in their careers. 
The success of our combined efforts is manifest by sustained success in 
meeting or exceeding overall recruiting and retention goals in almost 
every year over the past decade, across the components.
    The Department is committed to carefully managing both the 
compensation tools and the resources provided by Congress. In the years 
ahead, the Department very likely will continue its focus on restrained 
growth of mandatory entitlements while leveraging cost-effective 
discretionary pays and bonuses.
    Military compensation consists of five monetary components. Common 
to every military member serving on active duty is basic pay, the Basic 
Allowance for Housing, and the Basic Allowance for Subsistence. 
Combined with the Federal tax advantage from the housing and 
subsistence allowances, the aggregate of these four components is 
defined as Regular Military Compensation (RMC). RMC is then used to 
benchmark against private sector wages. Based on the Ninth Quadrennial 
Review of Military Compensation in 2002, the Department evaluates the 
comparability of military compensation by comparing RMC to the 70th 
percentile of comparably educated civilians in the private sector.
    RMC is the foundation of military pay. It is the fundamental basis 
we use to recruit, retain, motivate, and separate our force. When the 
Department experiences broad-based recruiting and retention problems 
across occupations and services, it is usually because RMC lags 
private-sector compensation. To ensure this foundation remains sound, 
it must keep pace with growth in civilian wages as measured by the 
yearly change in the Employment Cost Index (ECI). This is why the 
Department supports an annual basic pay raise for 2011 of 1.4 percent--
an ``ECI pay raise.'' Should we fail to keep pace with private-sector 
wages, the result could be a repeat of across-the-force recruiting and 
retention failures witnessed as recently as the late 1990s.
    In response to such failures in the late 1990s, Congress and the 
Department, together, swiftly improved military compensation. Between 
January 2002 and January 2010, military pay has risen by 42 percent, 
the housing allowance has gone up by 83 percent, and the subsistence 
allowance has grown by 40 percent. By contrast, private-sector wages 
and salaries rose by only 32 percent during the same period. This has 
been a signature accomplishment both of the administration and 
Congress.
    The final component of military compensation--and an area of 
special interest in today's hearing--is represented by the Special and 
Incentive (S&I) pays. It is with these S&I pays that the Department 
draws upon, as an increment to RMC, when needed to influence human 
behavior toward the achievement of high levels of manning and unit 
performance. These S&I pays are flexible and responsive in affording 
DOD an ability to respond to external labor market conditions.
    The Department provides guidance and exercises continuous oversight 
over all S&I pays, while delegating significant authority to each of 
the military departments and Services to implement and execute the 
pays. The S&I pays typically comprise less than 5 percent of the 
Department's personnel budgets, yet they provide critical flexibility 
in responding to private-sector market changes. For example, accession 
bonuses are used to attract America's youth into hard-to-fill 
specialties, while retention bonuses are used to keep them in those 
career fields. The Army recently identified an emerging shortage of 
Judge Advocate majors through fiscal year 2015. In response, the Army 
requested and was approved for a series of retention incentives 
targeting specific year groups to address and correct the projected 
shortfall. Additionally, S&I pays recognize wage differentials in 
occupations, such as dentistry, aviation, and nuclear specialties. 
Assignment Incentive Pay is used to fill arduous assignments around the 
world, and Hardship Duty Pay is used to recognize duty in a remote 
location.
    These pays are essential and the Department maintains its careful 
stewardship of these resources. For example, in 2009, S&I pays totaled 
$6.4 billion, or 4.4 percent of the personnel account. In our recent 
budget submission for 2011, S&I pays were $5.6 billion, or 3.6 percent 
of the personnel account. This decrease does not mean S&I pays are less 
important; rather, it reflects the Department's recognition that the 
slow recovery in the economy increases the attractiveness of military 
service, which in turn moderates our need to use bonuses in meeting 
recruiting and retention goals.
    The value of the S&I pay program lies in its ability to 
significantly, yet cost-effectively, influence behavior. A $340 million 
investment in the S&I pay program, for example, would allow the 
Department to offer more than 11,000 members with specialized skills or 
training a bonus of $30,000. That's a big amount to be sure, yet 
nonetheless efficient when it serves to retain someone who otherwise 
would walk away with enormously valuable training and experience that 
will take years to regenerate. Special Operations Forces are a great 
example of that, which explains our heavy investments in that vital 
segment of today's military.
    An alternative would be to apply that same $340 million to generate 
a bigger pay raise in the form of a half percent across-the-board hike. 
For a corporal at 4 years of service, this translates to about $11 per 
month before taxes. For an officer with 6 years of service, it means 
about $22 per month. This does not mean that overall pay raises are the 
wrong answer--simply that they are not the best answer when the general 
status of pay is healthy as it is today. With the great help of this 
Subcommittee, we have elevated military pay above the 70th percentile 
for similarly educated and experienced workers in the private sector--
well into the top third of earners--and that shows up in the types of 
strong retention we have witnessed in recent years. For that reason, we 
feel strongly that, while we never can offer enough to offset 
sacrifices of the military and their families, we are in a generally 
solid position. But we are not in a solid position in certain hard to 
fill and hard to keep areas like Special Operations.
    Furthermore, the Services continue to face challenges in recruiting 
and retaining certain health professionals so vital to a nation in 
battle. Certain skill sets are very troublesome. For example, the 
nature of injuries in Afghanistan and Iraq has increased demand for 
mental health professionals, yet physicians holding that skill are in 
short supply nationwide. Here, again, we must and we do turn to S&I 
pays to preserve our military effectiveness. In 2009, the Department 
implemented the special bonus and incentive pay authorities for 
officers in health professions as provided in the 2008 National Defense 
Authorization Act. These incentives have improved staffing in 
behavioral health, social workers and psychologists. Additionally, in 
2009 the Health Professions Scholarship Program (HPSP) filled all 
medical and dental student positions by offering an Officer Critical 
Skills Accession Bonus. This will greatly assist in meeting future 
medical and dental recruiting goals. It will save lives.
    Remaining with the health area, the Services continue to witness 
shortages in general dentistry and nursing specialties. To attack and 
control that problem, we continually monitor, adjust and expand medical 
special pay plans and bonus structures. For example, to attract general 
dentists in 2010, the Army has an accession bonus of $75,000 for a 4-
year active duty service obligation. Each Service also offers loan 
repayment programs to recruit and retain general dentists. As for 
nurses, the Services offer a 3- or 4-year accession bonus, a loan 
repayment option, or a combination of the two to attract nurses. An 
advanced nursing training program is another tool the Service to 
recruit nurses. Currently the Department offers an incentive special 
pay to several nursing specialty and a nurse anesthetists incentive pay 
for retention contracts of 1 to 4 years. Due to a continuing shortfall 
for nurse anesthetists, the incentive pay next year for a 4-year 
retention contract will increase to $50,000.
    Turning now from occupations to military components: We know that 
setting compensation at an appropriate level is critical to sustainment 
of a robust Guard and Reserve. We remain attentive to the need to treat 
Active and Reserve colleagues equitably. For example, while on active 
duty for more than 30 continuous days, Guard and Reserve members are 
paid the same as Active members. Congress and the Department have 
worked closely to ensure that reservists are not financially 
disadvantaged when involuntarily called to active duty. In 2006, 
Congress authorized the Reserve Income Replacement Program, enabling 
reservists to maintain the same or nearly the same monthly income. In 
2009, Congress created the reservist Differential Pay Program, an 
additional income replacement program to cover all Federal Government 
employees, further strengthening the Total Force. Congress has also 
recognized the sacrifices of mobilized Guard and Reserve members by 
reducing the retirement age for qualifying service in support of 
contingency operations. Furthermore, the 11th Quadrennial Review of 
Military Compensation has been tasked by President Obama to 
specifically review Guard and Reserve compensation.
    Let me now turn from money paid today to the many non-cash and 
deferred benefits. Non-cash benefits include medical, education, 
commissary, and Morale, Welfare, and Recreation benefits. These are 
critical to maintaining quality of life for members and families, 
directly influencing the family's impression of the military life, and 
more directly, the retention decision that emerges from that 
impression. Deferred compensation, namely the retirement program, 
provides a strong retention incentive, particularly for personnel with 
over 10 years of service. We recognize non-cash and deferred benefits 
are important components in the total compensation package.
    In summary, Mr. Chairman and members of this subcommittee--you who 
have so aggressively and attentively watched over our military--I 
underscore the Department's request for a basic pay increase of 1.4 
percent since it well maintains compensation levels competitive with 
the private sector. But for all the reasons just enumerated, we ask 
your special consideration this year in supporting our S&I pay program 
since that specific act will make sure the Department is able to 
channel resources where needed as the Nation's economy moves forward 
and pockets of critical--and often unexpected--shortages emerge. I 
thank you again for the opportunity to testify and for your continued 
support of our military members and their families. I look forward to 
your questions.

    Senator Webb. Thank you very much, Mr. Carr.
    Ms. Farrell, welcome.

STATEMENT OF BRENDA S. FARRELL, DIRECTOR, DEFENSE CAPABILITIES 
        AND MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Farrell. Mr. Chairman, Senator Chambliss, thank you for 
the opportunity to be here today to discuss our most recent 
report on military compensation.
    The NDAA for Fiscal Year 2010 required that GAO conduct a 
study comparing the pay and benefits of military servicemembers 
with those of comparably situated private-sector employees to 
assess how the difference in pay and benefits affect recruiting 
and retention of military servicemembers. Our work focused on 
servicemembers' perspectives on compensation--that is, cash 
compensation and the value of benefits to the servicemembers--
rather than the cost to the government of providing 
compensation.
    My written statement today summarizes the findings of our 
report, issued earlier this month, that you mentioned in your 
opening statement. Now I will briefly discuss my written 
statement that is presented in three parts.
    The first part of the written statement highlights that 
total military compensation for Active Duty members is broad 
and difficult to assess. DOD provides Active Duty 
servicemembers with a comprehensive package that includes cash, 
such as basic pay; noncash, such as healthcare; and deferred 
compensation, such as retirement pension.
    CBO, RAND, and CNA all have assessed military compensation 
using varying approaches. All of their studies include some 
components of compensation; for example, cash compensation 
beyond basic pay, which includes housing and subsistence 
allowances, the Federal income tax advantage, and, when 
possible, S&I pays. However, these studies did not assess all 
components of compensation offered to servicemembers. Thus, the 
results of the studies differ based on what is being assessed, 
the methodology used to conduct the assessment, and the 
components of compensation included in the calculation. 
Furthermore, the valuation rates of noncash and deferred 
benefits proved more difficult to determine than cash 
compensation, because servicemembers value these benefits 
differently and varying assumptions have to be made to assign 
value.
    The second part of my written statement addresses comparing 
private-sector compensation for civilians with those of 
military personnel. We found that military compensation 
generally compares favorably with civilian compensation in 
studies. But, these comparisons present limitations. While 
these studies and comparisons between military and civilian 
compensation, in general, provide policymakers with some 
insight into how well military compensation is keeping pace 
with overall civilian compensation, we believe such broad 
comparisons are not sufficient indicators for determining the 
appropriateness of military compensation levels. For example, 
the mix of skills, education, and experience can differ between 
the comparison groups, making direct comparisons of salary and 
earnings difficult.
    The third part of my statement addresses the 10th QRMC's 
recommendation to include not only regular military 
compensation, but also select benefits, when comparing. This 
recommendation appears reasonable to us, because it provides a 
complete measure of military compensation than considering only 
the cash compensation. Given the large portion of servicemember 
compensation that is comprised of noncash and deferred 
benefits, the 10th QRMC emphasized that taking these additional 
components of compensation into account shows that 
servicemember compensation is generous, relative to civilian 
compensation; more so than the traditional comparison of 
regular military compensation suggests. The 10th QRMC found 
that when some benefits were included, military compensation 
compared approximately with the 80th percentile of the 
comparable civilian compensation. That is, 80 percent of the 
comparable civilian population earn less than the military 
population in the comparison.
    In summary, I would like to emphasize that another key 
indicator of the appropriateness and adequacy of military 
compensation is DOD's ability to recruit and retain personnel. 
Since 1982, DOD has only missed its overall annual recruiting 
target three times: in 1998, 1999, and in 2005.
    Certain specialties, such as medical personnel, continue to 
experience recruiting and retention challenges. Permanent 
across-the-board pay increases may not be seen as the most 
efficient recruiting and retention mechanism. The use of 
targeted bonuses may be more appropriate for meeting DOD's 
requirements for selected specialties where DOD faces 
challenges in recruiting and retaining sufficient numbers of 
personnel.
    Mr. Chairman, that completes my opening remarks.
    [The prepared statement of Ms. Farrell follows:]
                Prepared Statement by Brenda S. Farrell
    Mr. Chairman and members of the subcommittee:
    Thank you for providing me this opportunity to discuss our most 
recent report on military and civilian pay comparisons and the 
challenges associated with those types of comparisons.\1\ The 
Department of Defense's (DOD) military compensation package, which is a 
myriad of pays and benefits, is an important tool for attracting and 
retaining the number and quality of active duty servicemembers DOD 
needs to fulfill its mission. Since DOD transitioned to an All-
Volunteer Force in 1973, the amount of pay and benefits that 
servicemembers receive has progressively increased.\2\ When it is 
competitive with civilian compensation, military compensation can be 
appropriate and adequate to attract and retain servicemembers. However, 
comparisons between the two involve both challenges and limitations. 
Specifically, as we have previously reported,\3\ no data exist that 
would allow an exact comparison between military and civilian personnel 
with the same levels of work experience. Also, nonmonetary 
considerations complicate such comparisons, because their value cannot 
be quantified. For example, military service is unique in that the 
working conditions for active duty service carry the risk of death and 
injury during wartime and the potential for frequent, long deployments, 
unlike most civilian jobs.
---------------------------------------------------------------------------
    \1\ GAO, Military Personnel: Military and Civilian Pay Comparisons 
Present Challenges and Are One of Many Tools in Assessing Compensation, 
GAO-10-561R (Washington, DC: Apr. 1, 2010).
    \2\ Historically, ``basic pay'' has been the largest component of 
military compensation, and is paid to all servicemembers according to 
their respective rank and years of service. Congress has provided for 
and DOD has also implemented over the years a number of additional 
benefits--some of which may be deferred until after the completion of 
active duty service. An example is the Post-September 11 Veterans 
Educational Assistance Act, which expanded the education benefits 
available to qualified Active Duty and Reserve component members.
    \3\ GAO, Military Compensation: Comparisons With Civilian 
Compensation and Related Issues, NSIAD-86-131BR (Washington, DC: June 
5, 1986) and GAO-10-561R.
---------------------------------------------------------------------------
    In addition, there is variability among past studies in how 
compensation is defined (for example, either pay or pay and benefits) 
and what is being compared. Most studies, including those done by the 
Congressional Budget Office (CBO) and RAND Corporation, have compared 
military and civilian compensation but limit such comparisons to cash 
compensation--using what DOD calls regular military compensation--and 
do not include benefits.\4\ DOD has also conducted studies comparing 
military and civilian compensation as part of its Quadrennial Review of 
Military Compensation (QRMC)--a review required by law, every 4 years, 
of the principles and concepts of the compensation system for members 
of the uniformed services.\5\ The 2008 QRMC (the 10th) focused on seven 
compensation-related areas, including the adequacy of compensation, and 
it recommended, among other things, the inclusion of both cash and some 
benefits--such as health care--when assessing military compensation. 
The 10th QRMC also found that, when some benefits were included, 
military compensation compared approximately with the 80th percentile 
of comparable civilian compensation--that is, that 80 percent of the 
comparable civilian population earned less than the military population 
in the comparison. Previously, the 2004 QRMC (the 9th) found that 
regular military compensation met the 70th percentile of comparable 
civilian cash compensation.
---------------------------------------------------------------------------
    \4\ Regular military compensation is the sum of basic pay, 
allowances for housing and subsistence, and the Federal income tax 
advantage--which is the value a servicemember receives from not paying 
Federal income tax on allowances for housing and subsistence. It was 
initially constructed by the Gorham Commission in 1962 as a rough 
yardstick to be used to compare military and civilian-sector pay.
    \5\ 37 U.S.C. Sec. 1008.
---------------------------------------------------------------------------
    The National Defense Authorization Act for Fiscal Year 2010 
required that we conduct a study comparing the pay and benefits 
provided by law to members of the Armed Forces with those of comparably 
situated private-sector employees, to assess how the differences in pay 
and benefits affect recruiting and retention of members of the Armed 
Forces.\6\ Earlier this month, we issued our report.\7\ My testimony 
today summarizes the findings of that report. Specifically, my 
statement will: (1) examine total military compensation for active duty 
officers and enlisted personnel; (2) compare private-sector pay and 
benefits for civilians with those of officers and enlisted personnel of 
the Armed Forces; and (3) assess the 10th QRMC's recommendation to 
include regular military compensation and select benefits when making 
such comparisons.
---------------------------------------------------------------------------
    \6\ Pub. L. No. 111-84, Sec.  606 (2009).
    \7\ GAO-10-561R.
---------------------------------------------------------------------------
    We focused our work on active duty servicemembers' perspectives on 
compensation--that is, cash compensation and the value of benefits to 
servicemembers versus the costs to the government of providing 
compensation. To conduct our work, we identified and reviewed studies 
on compensation by such organizations as CNA Corporation (CNA), CBO, 
the Congressional Research Service, DOD, GAO, and RAND. We interviewed 
officials from DOD's Office of the Under Secretary of Defense for 
Personnel and Readiness, including the Deputy Under Secretary of 
Defense for Military Personnel Policy and officials within the 
Directorate of Compensation, as well as officials from CNA, CBO, the 
Defense Manpower Data Center, the Bureau of Labor Statistics, and the 
Military Officers Association of America. To assess total military 
compensation, we reviewed a 2008 DOD-commissioned report \8\--completed 
by CNA--and identified estimated values for the elements of military 
compensation (that is, regular military compensation, health care, 
retirement, and additional tax advantages). We also identified the 
employee benefits available to active duty servicemembers and used DOD 
survey data to identify the utilization rates of these benefits by 
servicemembers. To compare military compensation with private-sector 
pay and benefits of comparable civilians, we used CNA's report to 
identify estimated values for private-sector compensation--pay and 
benefits--for comparable civilians. In addition, we reviewed the 
methods CNA used to estimate values for several benefits--retirement, 
health care, and additional tax advantages.\9\ Finally, to assess the 
10th QRMC's recommendation to include regular military compensation and 
select benefits when comparing military and civilian compensation, we 
conducted a review of recent literature on compensation--including 
regular military compensation and select benefits--and interviewed DOD 
officials and other knowledgeable individuals in the fields of 
compensation and human capital management. We conducted our work in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \8\ James E. Grefer, CNA Corporation, Comparing Military and 
Civilian Compensation Packages (Alexandria, VA: March 2008).
    \9\ For example, servicemembers do not pay Federal Insurance 
Contributions Act (FICA) tax and State tax on their housing and 
subsistence allowances.
---------------------------------------------------------------------------
   total military compensation for active duty officers and enlisted 
               personnel is broad and difficult to assess
    DOD provides active duty servicemembers with a comprehensive 
compensation package that includes a mix of cash, such as basic pay; 
noncash benefits, such as health care; and deferred compensation, such 
as retirement pension. The foundation of each servicemember's 
compensation is regular military compensation, which consists of basic 
pay, housing allowance, subsistence allowances, and Federal income tax 
advantage. The amount of cash compensation that a servicemember 
receives varies according to rank, tenure of service, and dependency 
status. For example, a hypothetical servicemember with 1 year of 
service at the rank of O-1 and no dependents would currently receive an 
annual regular military compensation of $54,663, whereas a hypothetical 
servicemember with 4 years of service at the rank of E-5 and one 
dependent would receive an annual regular military compensation of 
$52,589.\10\ In addition to cash compensation, DOD offers current and 
retired servicemembers a wide variety of noncash benefits. These range 
from family health care coverage and education assistance to 
installation-based services, such as child care, youth, and family 
programs.
---------------------------------------------------------------------------
    \10\ These estimates come from DOD's regular military compensation 
calculator, available at http://militarypay.defense.gov/mpcalcs/
Calculators/RMC.aspx.
---------------------------------------------------------------------------
    While many studies of active duty military compensation have 
attempted to assess the value of the compensation package, most did not 
consider all of the components of compensation offered to 
servicemembers. CBO, RAND, and CNA have assessed military compensation 
using varying approaches. All of their studies include some components 
of compensation--for example, cash compensation beyond basic pay, which 
includes housing and subsistence allowances, the Federal income tax 
advantage, and, when possible, special and incentive pay. However, 
these studies did not assess all components of compensation offered to 
servicemembers. Thus, the results of these studies differ based on what 
is being assessed, the methodology used to conduct the assessment, and 
the components of compensation included in the calculations.
    The most recent study, a 2008 DOD-sponsored study performed by CNA, 
assessed military compensation using regular military compensation and 
some benefits (specifically, health care, the military tax advantage, 
and retirement benefits).\11\ In particular, the results of this study 
state that in 2006, average enlisted servicemembers' compensation 
ranged from approximately $40,000 at 1 year of service to approximately 
$80,000 at 20 years of service.\12\ Additionally, in 2006 the average 
officers' compensation ranged from approximately $50,000 at 1 year of 
service to approximately $140,000 at 20 years of service. Our analysis 
of CNA's 2008 study found that overall, CNA used a reasonable approach 
to assessing military compensation; however, we provided comments on 
two issues. In general, we agree that when assessing military 
compensation for the purpose of comparing it with civilian 
compensation, it is appropriate to include regular military 
compensation and benefits (as many as can be reasonably valued from the 
servicemembers' perspective). For example, in order to value health 
care, CNA estimated the difference in value between military and 
civilian health benefits, because servicemembers receive more 
comprehensive health care than most civilians.\13\
---------------------------------------------------------------------------
    \11\ CNA was commissioned by the 10th QRMC to conduct a study 
comparing military and civilian compensation. The results of the study 
were used by the QRMC. Typically, discussions of the military tax 
advantage focus on the savings that arise because the allowances for 
housing and subsistence are not subject to Federal income tax. However, 
CNA's study also included an estimation of the expected annual tax 
advantage that servicemembers receive because they do not pay State and 
FICA taxes on their housing and subsistence allowances and can often 
avoid paying any State income taxes depending on their State home of 
record.
    \12\ We did not verify the calculations underlying CNA's reported 
estimates of the value of these select benefits.
    \13\ Specifically, active duty servicemembers are automatically 
enrolled in TRICARE Prime and do not pay premiums or out-of-pocket 
expenses for their healthcare whereas many civilians do not receive any 
health care benefits from their employers and even those who do usually 
pay some out-of-pocket expenses and part of the premium. By calculating 
the amount that the typical civilian worker pays for premiums and out-
of-pockets expenses, CNA found the difference between what civilians 
and servicemembers pay. In other words, the benefit servicemembers 
receive is avoiding the costs civilians would have to pay to receive 
comparable health care.
---------------------------------------------------------------------------
    As mentioned previously, we identified two areas for comment with 
regard to CNA's approach. First, with regard to retirement, health 
care, and tax advantage, CNA's methodology makes various assumptions 
that allow the study to calculate approximate values for these 
benefits. While the assumptions are reasonable, we note that other, 
alternative assumptions could have been made, and thus, in some cases, 
could have generated substantially different values.\14\ Second, the 
CNA study omits the valuation of retiree health care, which is a 
significant benefit provided to servicemembers. Nevertheless, we note 
that CNA's study and other studies of military compensation illustrate 
that valuing total military compensation from a servicemember's 
perspective is challenging, given the variability across the large 
number of pays and benefits, the need to make certain assumptions to 
estimate the value of various benefits, and the utilization of benefits 
by servicemembers or their dependents, among other reasons.
---------------------------------------------------------------------------
    \14\ For example, when applying discount rates to value retirement 
benefits, the rate assumed affects the value of the retirement. To 
illustrate, if a person is to receive $100 in 20 years, the present 
value of that money is $3.65 using 18 percent, $10.37 using 12 percent, 
or $31.18 using 6 percent.
---------------------------------------------------------------------------
   military compensation generally compares favorably with civilian 
   compensation in studies, but these comparisons present limitations
    In comparing military and civilian compensation, CNA's study as 
well as a 2007 CBO study,\15\ found that military pay generally 
compares favorably with civilian pay. CNA found that in 2006, regular 
military compensation for enlisted personnel averaged $4,700 more 
annually than comparable civilian earnings. Similarly, CNA found that 
military officers received an average of about $11,500 more annually 
than comparable civilians. Further, CNA found that the inclusion of 
three military benefits--health care, retirement, and the additional 
tax advantage for military members--increased the differentials by an 
average of $8,660 annually for enlisted servicemembers and $13,370 
annually for officers. A 2007 CBO study similarly found that military 
compensation compares favorably with civilian compensation. For 
example, CBO's report suggested that DOD's goal to make regular 
military compensation comparable with the 70th percentile of civilian 
compensation has been achieved. We note that the major difference 
between the two studies lies in their definitions of compensation. CNA 
asserted, and we agree, that the inclusion of benefits allows for 
comparisons of actual levels of compensation and provides some useful 
comparison points for determining whether servicemembers are 
compensated at a level that is comparable to that of their civilian 
peers, although the caveats that we discuss below should be considered. 
CBO also noted, and we agree, that including benefits can add another 
level of complexity to such analytical studies.
---------------------------------------------------------------------------
    \15\ CBO, Evaluating Military Compensation (Washington, DC: June 
2007).
---------------------------------------------------------------------------
    However, while these studies and comparisons between military and 
civilian compensation in general provide policymakers with some insight 
into how well military compensation is keeping pace with overall 
civilian compensation, we believe that such broad comparisons are not 
sufficient indicators for determining the appropriateness of military 
compensation levels. For example, the mix of skills, education, and 
experience can differ between the comparison groups, making direct 
comparisons of salary and earnings difficult. While some efforts were 
made by CNA to control for age (as a proxy for years of experience) and 
broad education levels, CNA did not control for other factors, such as 
field of degree or demographics (other than age), that we feel would be 
needed to make an adequate comparison. As another example, one approach 
that is sometimes taken to illustrate a difference, or ``pay gap,'' 
between rates of military and civilian pay is to compare over time 
changes in the rates of basic pay with changes in the Employment Cost 
Index.\16\ We do not believe that such comparisons demonstrate the 
existence of a pay gap or facilitate accurate comparisons between 
military and civilian compensation because they assume that military 
basic pay is the only component of compensation that should be compared 
to changes in civilian pay and exclude other important components of 
military compensation, such as the housing and subsistence allowances. 
We note that CBO also previously discussed three other shortcomings of 
making such comparisons in a 1999 report.\17\ Specifically, CBO noted 
that such comparisons: (1) select a starting point for the comparison 
without a sound analytic basis; yet the results of the pay gap 
calculation are very sensitive to changes in that starting point; (2) 
do not take into account differences in the demographic composition of 
the civilian and military labor forces; and (3) compare military pay 
growth over one time period with a measure of civilian pay growth over 
a somewhat different period.
---------------------------------------------------------------------------
    \16\ The Employment Cost Index is a nationally representative 
measure of labor cost for the civilian economy and measures changes in 
wages and employers' costs for employee benefits.
    \17\ CBO, What Does the Military ``Pay Gap'' Mean? (Washington, DC: 
June 1999).
---------------------------------------------------------------------------
10th qrmc's recommendation to include regular military compensation and 
   select benefits when comparing military and civilian compensation 
                           appears reasonable
    The 10th QRMC's recommendation to include regular military 
compensation and select benefits when comparing military and civilian 
compensation appears reasonable to us because it provides a more 
complete measure of military compensation than considering only cash 
compensation.\18\ Given the large proportion of servicemember 
compensation that is comprised of in-kind and deferred benefits, the 
10th QRMC emphasized that taking these additional components of 
compensation into account shows that servicemember compensation is 
generous relative to civilian compensation--more so than traditional 
comparisons of regular military compensation suggest.\19\ The 10th QRMC 
also recommended that in order to maintain the standard established by 
the 9th QRMC's 70th percentile (which includes only regular military 
compensation), DOD adopt the 80th percentile as its goal for military 
compensation when regular military compensation and the value of some 
benefits, such as health care, are included in the analysis. In 
general, when comparing military and civilian compensation, a more 
complete or appropriate measure of compensation should include cash and 
benefits. When considering either a military or a civilian job, an 
individual is likely to consider the overall compensation--to include 
pay as well as the range and value of the benefits offered between the 
two options. The challenge with this approach, as mentioned previously, 
lies in determining how to ``value'' the benefits, and which benefits 
to include in the comparison.
---------------------------------------------------------------------------
    \18\ According to senior officials in the Office of the Under 
Secretary of Defense for Personnel and Readiness' Directorate of 
Compensation, the department has not yet adopted the 10th QRMC's 
recommendation of including benefits in comparing military and civilian 
compensation, thus setting the department's overall compensation goal 
at the 80th percentile of comparable civilian employees.
    \19\ According to 2005 and 2007 GAO reports, about half of active 
duty compensation costs consist of benefits, as compared with about 18 
percent in the private sector and about 33 percent for Federal civilian 
employees. See GAO, Military Personnel: DOD Needs to Improve the 
Transparency and Reassess the Reasonableness, Appropriateness, 
Affordability, and Sustainability of Its Military Compensation System, 
GAO-05-798 (Washington, DC: July 19, 2005), and Military Personnel: DOD 
Needs to Establish a Strategy and Improve Transparency over Reserve and 
National Guard Compensation to Manage Significant Growth in Cost, GAO-
07-828 (Washington, DC: June 20, 2007).
---------------------------------------------------------------------------
    Prior to issuing our report earlier this month the Deputy Under 
Secretary of Defense for Military Personnel Policy provided us with 
oral comments on a draft of the report. The Deputy Under Secretary 
generally agreed with our findings, noting that numerous studies have 
attempted to estimate the value military members place on noncash and 
deferred benefits and that each study has found that identifying 
relevant assumptions, valuing these benefits, and finding appropriate 
benchmarks and comparisons are significant challenges. Noting the 
variation in the results of these studies, the Deputy Under Secretary 
stated that further study is necessary before DOD is willing to 
consider measuring and benchmarking military compensation using a 
measurement that incorporates benefits.
    While comparisons between military and civilian compensation are 
important management measures, they alone do not necessarily indicate 
the appropriateness or adequacy of compensation. Another measure is 
DOD's ability to recruit and retain personnel. We have reported in the 
past that compensation systems are tools used for recruiting and 
retention purposes.\20\ Similarly, in 2009, CBO stated that ultimately, 
the best barometer of the effectiveness of DOD's compensation system is 
how well the military attracts and retains high-quality, skilled 
personnel.\21\ Since 1982, DOD has only missed its overall annual 
recruiting target three times--in 1998 during a period of very low 
unemployment, in 1999, and most recently in 2005. Given that: (1) the 
ability to recruit and retain is a key indicator of the adequacy of 
compensation; and (2) DOD has generally met its overall recruiting and 
retention goals for the past several years, it appears that regular 
military compensation is adequate at the 70th percentile of comparable 
civilian pay as well as at the 80th percentile when additional benefits 
are included. We note that although the services have generally met 
their overall recruiting goals in recent years, certain specialties, 
such as medical personnel, continue to experience recruiting and 
retention challenges. As a result, permanent, across-the-board pay 
increases may not be seen as the most efficient recruiting and 
retention mechanism. In fact, our previous work has shown that use of 
targeted bonuses may be more appropriate for meeting DOD's requirements 
for selected specialties where DOD faces challenges in recruiting and 
retaining sufficient numbers of personnel.\22\
---------------------------------------------------------------------------
    \20\ GAO, Military Personnel: Active Duty Benefits Reflect Changing 
Demographics, but Opportunities Exist to Improve, GAO-02-935 
(Washington, DC: Sept. 18, 2002).
    \21\ CBO, Statement of Matthew S. Goldberg: Long-Term Implications 
of the Department of Defense's fiscal year 2010 Budget Submission 
(Washington, DC: Nov. 18, 2009).
    \22\ GAO, Military Personnel: Observations Related to Reserve 
Compensation, Selective Reenlistment Bonuses, and Mail Delivery to 
Deployed Troops, GAO-04-582T (Washington, DC: Mar. 24, 2004); Military 
Personnel: DOD Needs More Effective Controls to Better Assess the 
Progress of the Selective Reenlistment Bonus Program, GAO-04-86 
(Washington, DC: Nov. 13, 2003); Military Personnel: DOD Needs More 
Data to Address Financial and Health Care Issues Affecting reservists, 
GAO-03-1004 (Washington, DC: Sept. 10, 2003); and Human Capital: 
Effective Use of Flexibilities Can Assist Agencies in Managing Their 
Workforces, GAO-03-2 (Washington, DC: Dec. 6, 2002).
---------------------------------------------------------------------------
                        concluding observations
    In closing, we note that comparisons between military and civilian 
compensation are important management tools--or measures--for the 
department to use to assess the adequacy and appropriateness of its 
compensation. However, such comparisons present both limitations and 
challenges. For example, data limitations and difficulties valuing 
nonmonetary benefits prevent exact comparisons between military and 
civilian personnel. Moreover, these comparisons represent points in 
time and are affected by other factors, such as the health of the 
economy. To illustrate, it is not clear the degree to which changes in 
the provision of civilian health care or retirement benefits affect the 
outcome of comparing military and civilian compensation. In addition, 
valuing military service is complicated. While serving in the military 
offers personal and professional rewards, such service also requires 
many sacrifices--for example, frequent moves and jobs that are arduous 
and sometimes dangerous. Ultimately, DOD's ability to recruit and 
retain personnel is an important indicator of the adequacy--or 
effectiveness--of its compensation.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to respond to any questions that you or members of the 
subcommittee may have at this time.

    Senator Webb. Thank you very much, Ms. Farrell.
    Welcome, Dr. Murray.

   STATEMENT OF CARLA TIGHE MURRAY, SENIOR ANALYST, NATIONAL 
         SECURITY DIVISION, CONGRESSIONAL BUDGET OFFICE

    Dr. Murray. Mr. Chairman, Senator Chambliss, I appreciate 
the opportunity to discuss CBO's analysis of compensation for 
members of the Armed Forces.
    I've provided a written statement for the record which 
gives more detail, and so, I'll simply outline my points here.
    To attract and retain the military personnel it needs, DOD 
must offer a competitive compensation package, one that 
adequately rewards servicemembers for their training and 
skills, as well as for the rigors of military life, 
particularly the prospect of wartime deployment.
    The best barometer of effectiveness of DOD's compensation 
system may be how well the military attracts and retains high 
quality personnel. However, the relationship between specific 
changes in pay and benefits, and the amount of recruiting and 
retention, may not be clear. A variety of factors, including 
economic conditions, may affect DOD's ability to attract and 
retain the force it needs. Therefore, it is difficult to 
determine the appropriate increase in pay solely on the basis 
of patterns of recruiting and retention.
    Another way to determine whether military compensation is 
competitive is to compare it with civilian compensation. This 
testimony will focus primarily on such comparisons, which can 
be useful, but not definitive, in part because of the 
significant differences in working conditions and benefits 
between military and civilian jobs.
    Today, I will address three questions. The first question 
is: how does military cash compensation compare with civilian 
wages and salaries? CBO's most recent analysis for calendar 
year 2006 found that average cash compensation for 
servicemembers, including the tax-free cash allowances for 
housing and subsistence, was greater than that of more than 75 
percent of civilians of comparable age and educational 
achievement. Since then, military pay raises have continued to 
exceed increases in civilian wages and salaries. So, that 
finding has not changed.
    Second, is there a gap between civilian and military pay 
raises over the past few decades? The answer depends on how 
narrowly military cash pay is defined. One frequent method 
compares the cumulative increases in military basic pay with 
civilian pay raises. Applying that method would indicate that 
military pay rose by about 2 percent less than civilian 
earnings since 1982. But, this method does not encompass the 
full scope of military cash compensation. Using a broader 
measure, one which includes housing and subsistence allowances, 
indicates that the cumulative increase in military compensation 
has exceeded the cumulative increase in civilian wages and 
salaries by 11 percent since 1982. That comparison does not 
include noncash and deferred compensation, which would probably 
add to the cumulative difference.
    Third, how would the costs of using bonuses to enhance 
recruiting and retention compare with the costs of adding more 
to basic pay? Changing the basic pay raise that would take 
effect on January 1, 2011, from the 1.4 percent requested by 
the President to 1.9 percent, for example, would increase DOD's 
costs by about $350 million in 2011, and by a total of about 
$2.4 billion through 2015. A larger pay raise would probably 
enhance enlistment and retention, although the effect would be 
small.
    One alternative would be to increase cash bonuses by enough 
to achieve the same retention effects as a higher across-the-
board pay raise. That approach would have a smaller impact on 
DOD's costs, because bonuses can be targeted to servicemembers 
who possess the occupational skills the military needs most. 
Unlike pay raises, bonuses do not compound from year to year or 
affect retirement pay and other elements of compensation.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Dr. Murray follows:]
              Prepared Statement by Dr. Carla Tighe Murray
    Mr. Chairman, Senator Graham, and members of the subcommittee, I 
appreciate the opportunity to discuss the Congressional Budget Office's 
(CBO) analysis of compensation for members of the armed forces. To 
attract and retain the military personnel it needs, the Department of 
Defense (DOD) must offer a competitive compensation package--one that 
adequately rewards servicemembers for their training and skills as well 
as for the rigors of military life, particularly the prospect of 
wartime deployment.
    The best barometer of the effectiveness of DOD's compensation 
system may be how well the military attracts and retains high-quality 
personnel. Between 2005 and 2008, the Services periodically had trouble 
recruiting or retaining all of the high-quality personnel they 
needed.\1\ To address those problems, Congress authorized increases in 
both cash compensation (such as pay raises and bonuses) and noncash 
compensation (such as expanded education benefits for veterans and 
their families). All of the Services met their recruiting and retention 
goals in 2009 and are continuing to do so in 2010. However, the 
relationship between specific changes in pay rates and benefits and the 
amount of recruiting and retention is not clear, and changes in 
recruiting and retention may be too gradual or too ambiguous to guide 
all decisions about compensation. In particular, a variety of factors--
including economic conditions--may have significant effects on DOD's 
ability to recruit and retain personnel during a given period. 
Therefore, it is difficult to determine the appropriate increase in 
compensation solely on the basis of recent patterns of recruiting and 
retention.
---------------------------------------------------------------------------
    \1\ Congressional Budget Office, Recruiting, Retention, and Future 
Levels of Military Personnel (October 2006). Data for later years come 
from DOD's Directorate for Accession Policy and Directorate for Officer 
and Enlisted Personnel Management.
---------------------------------------------------------------------------
    Even when overall goals for recruiting and retention are met, 
shortages or surpluses may exist in specific occupations or among 
people with certain years of service or rank. In those cases, the 
military services have other tools at their disposal. For example, they 
can enhance their efforts to attract recruits and can fine-tune their 
bonus programs to retain existing personnel who possess particular 
occupational skills.
    Another way to determine whether military compensation is 
competitive is to compare it with civilian compensation. This testimony 
will focus primarily on such comparisons--which can be useful but not 
definitive, in part because of the significant differences in working 
conditions and benefits between military and civilian jobs.
    My remarks today will address three questions:

        <bullet> How does military cash compensation compare with 
        civilian wages and salaries?

    CBO's most recent analysis, for calendar year 2006, found that 
average cash compensation for servicemembers (including tax-free cash 
allowances for housing and food) exceeded the median compensation for 
civilians of comparable age and educational achievement. Since then, 
military pay raises have continued to exceed the increases of civilian 
wages and salaries, so that finding has not changed.

        <bullet> Is there a ``gap'' between civilian and military pay 
        raises over the past few decades?

    The answer depends on how narrowly military cash pay is defined. 
One common method of comparison is to calculate the cumulative 
difference between increases in military and civilian pay using 
military basic pay, a narrow measure of cash compensation that does not 
include, for example, tax-free allowances for housing and food. 
Applying that method would indicate that cumulatively, civilian pay 
rose by about 2 percent more than military pay between 1982 and the 
beginning of 2010. But that measure does not encompass the full scope 
of military cash compensation. Using a broader measure that includes 
cash allowances for housing and food indicates that the cumulative 
increase in military compensation has exceeded the cumulative increase 
in private-sector wages and salaries by 11 percent since 1982. That 
comparison excludes the value of noncash and deferred benefits, which 
would probably add to the cumulative difference, because benefits such 
as military health care have expanded more rapidly than corresponding 
benefits in the private sector.

        <bullet> How would the costs of using bonuses to enhance 
        recruiting and retention compare with the costs of adding more 
        to basic pay?

    Traditionally, servicemembers receive an across-the-board increase 
in basic pay each calendar year, and proposals are frequently made to 
boost the rate of increase. Changing the basic-pay raise that will take 
effect on January 1, 2011, from the 1.4 percent requested by the 
President and DOD to 1.9 percent, for example, would increase DOD's 
costs by about $350 million in 2011 and by a total of about $2.4 
billion through 2015, CBO estimates. A larger pay raise would probably 
enhance recruiting and retention, although the effect would be small. 
One possible alternative would be to increase cash bonuses by enough to 
achieve the same recruiting and retention effects as a higher across-
the-board pay raise. That approach would have a smaller impact on DOD's 
costs because bonuses can be awarded only to the types of 
servicemembers the military needs most. Bonuses can also be focused on 
current personnel or potential enlistees who are at the point of making 
career decisions. Unlike pay raises, bonuses do not compound from year 
to year (a higher pay raise in 1 year will cause the following year's 
raise to be applied to a higher base), and bonuses do not affect 
retirement pay and other elements of compensation.
                 the structure of military compensation
    Earnings can be measured in several different ways, but most 
studies begin with cash compensation. For the military, the narrowest 
measure of cash compensation is basic pay. All members of the armed 
services on active duty receive basic pay, which varies according to 
rank and years of service. A broader measure of cash compensation--
called regular military compensation (RMC)--consists of basic pay plus 
servicemembers' basic allowances for housing and subsistence, as well 
as the tax advantage that arises because those allowances are not 
subject to Federal income taxes. All personnel are entitled to receive 
RMC, and DOD has used it as a fundamental measure of military pay since 
at least 1962.\2\
---------------------------------------------------------------------------
    \2\ Department of Defense, Under Secretary of Defense for Personnel 
and Readiness, Report of the 9th Quadrennial Review of Military 
Compensation, vol. 1 (March 2002), p. 29.
---------------------------------------------------------------------------
    While on active duty, servicemembers may also receive various types 
of special pay, incentive pay, bonuses, and allowances that are not 
counted in RMC. Those cash payments help compensate servicemembers for 
unique features of military life. They may be awarded to personnel who 
possess particular skills or undertake hazardous duty, including 
deployment and combat. Personnel may also earn bonus payments when they 
reenlist after completing their contracted term of service, especially 
if they have occupational skills that are in short supply. Because 
those special types of pay are earned irregularly or by a small number 
of specialists, they are generally excluded when comparing military and 
civilian compensation.
    The broadest measure of military compensation includes noncash or 
deferred benefits, such as retirement pay, health care, and veterans' 
benefits. In both the armed forces and civilian jobs, such benefits can 
be sizable and can influence people's decisions about employment, 
including whether to enlist or reenlist in the military. Non-cash 
benefits make up about half of total compensation for the average 
servicemember, CBO estimates--compared with about one-third for the 
average civilian worker. Thus, a measure of compensation that includes 
all noncash and deferred benefits gives a broader and clearer picture 
of the military's entire compensation package and provides a useful 
framework for analyzing servicemembers' cash compensation. However, 
such a comprehensive measure combines funds in different defense 
appropriation titles and in departments other than DOD; thus, it is 
more difficult to use than narrower measures of cash compensation to 
assess a particular department's budget.
            how does military pay compare with civilian pay?
    The results of pay comparisons differ depending on the definition 
of military compensation and the segment of the civilian population 
used in the comparison. Most enlisted personnel join the military soon 
after high school, but they generally receive some college-level 
education while on active duty. (The share of enlisted personnel with 
at least 1 year of college education grew from 32 percent in 1985 to 72 
percent in 2005, CBO estimates.) DOD has asserted that in order to keep 
experienced personnel in the force, military pay must compare favorably 
with the wages of college-educated civilians rather than high school 
graduates. Specifically, DOD's goal has been to make RMC comparable 
with the 70th percentile of earnings for civilians who have some 
college education.\3\
---------------------------------------------------------------------------
    \3\ Ibid. Two years ago, DOD's 10th Quadrennial Review of Military 
Compensation developed a new measure of compensation--called military 
annual compensation (MAC)--that would include selected noncash elements 
and deferred compensation. The review's authors recommended making MAC 
comparable to the 80th percentile of civilian earnings (including 
similar noncash elements). DOD has not adopted the new measure and 
continues to use RMC; see, for example, the statement of Clifford L. 
Stanley, Under Secretary of Defense for Personnel and Readiness, before 
the Subcommittee on Personnel, Senate Armed Services Committee, March 
10, 2010.
---------------------------------------------------------------------------
    CBO estimated that in calendar year 2006, average basic pay for 
enlisted personnel closely matched the 50th percentile of estimated 
earnings for civilians with some college education--in other words, 
roughly half of those civilians had earnings that were higher than 
average basic pay and half had earnings that were lower.\4\ CBO also 
estimated that average RMC (which includes cash allowances and 
associated tax advantages) exceeded the 75th percentile of earnings for 
civilians with some college education, surpassing DOD's goal. Lawmakers 
have continued to authorize military pay raises that exceed the average 
rise in civilian wages and salaries, so those measures of military 
compensation would probably match higher percentiles of civilian 
earnings today. CBO's study also concluded that servicemembers have 
access to a range of benefits not routinely offered in the private 
sector, including free or low-cost health care, housing, education 
assistance, and discount shopping. Other studies of cash and noncash 
compensation have reached similar conclusions.\5\
---------------------------------------------------------------------------
    \4\ Congressional Budget Office, Evaluating Military Compensation 
(June 2007).
    \5\ See Department of Defense, Under Secretary of Defense for 
Personnel and Readiness, Report of the 10th Quadrennial Review of 
Military Compensation, vol. 1 (February 2008); James E. Grefer, 
Comparing Military and Civilian Compensation Packages (Alexandria, VA: 
CNA, March 2008); Government Accountability Office, Military Personnel: 
DOD Needs to Improve the Transparency and Reassess the Reasonableness, 
Appropriateness, Affordability, and Sustainability of Its Military 
Compensation System, GAO-05-798 (July 2005); Beth J. Asch, James Hosek, 
and Craig Martin, A Look at Cash Compensation for Active-Duty Military 
Personnel, MR-1492-OSD (Santa Monica, CA: RAND Corporation, 2002); and 
Congressional Budget Office, Military Compensation: Balancing Cash and 
Noncash Benefits, Issue Brief (January 16, 2004).
---------------------------------------------------------------------------
    Comparisons of military and civilian pay have several important 
limitations. First, working conditions can differ markedly between 
military and civilian jobs. For example, military personnel are 
generally expected to change locations every few years--in addition to 
deploying for specific operations--whereas most civilians can choose to 
remain in the same area throughout their career. Military personnel may 
work longer hours or in more hazardous conditions than civilians do, 
even if their type of occupation is the same. At the same time, 
military life includes features that people may find more attractive 
than comparable civilian jobs. Some military personnel receive greater 
responsibility earlier in their career than civilians do. Job security 
and group solidarity can also be greater for military personnel than 
for civilians. Pay comparisons cannot easily incorporate those 
intangible job characteristics.
    Second, pay comparisons may ignore the value of training and 
education that are provided on the job. DOD generally tries to enlist 
capable young people with high school diplomas or some college 
education and then trains them for military life and for their 
occupational specialty. Civilian employers, by contrast, generally hire 
people who have already been trained, often at their own expense 
(although most large employers offer work-related education 
assistance). In addition, civilian employers are more likely to hire 
people who have more experience. Adding in the value of government-
provided training and education would generally make the noncash share 
of total military compensation even greater relative to civilian 
compensation.
    Third, differences between military and civilian career patterns 
complicate pay comparisons. Because the military ``promotes from 
within,'' pay may need to be higher for new recruits than for civilians 
of similar ages and education levels as DOD tries to compete for the 
best pool of applicants from which to select the best career personnel. 
Also, data on average civilian compensation include the pay of people 
who are successful in their civilian career as well as the pay of 
people who are not. But in the military, the ``up-or-out'' promotion 
system means that the least successful personnel have generally left 
military service before reaching senior levels.
      is there a ``gap'' between military and civilian pay raises?
    Because basic pay makes up the majority of regular military 
compensation, one of the most common comparisons is between changes in 
military basic pay and changes in the employment cost index (ECI) for 
wages and salaries of private-sector workers. In 1981 and 1982, 
relatively large increases in basic pay were enacted to address 
shortfalls in recruiting and retention. For much of the following two 
decades, however, basic pay increased more slowly than the ECI did. 
Some observers have measured the percentage by which the cumulative 
increase in military basic pay since 1982 has fallen short of the 
cumulative increase in the ECI for private-sector wages and salaries, 
referring to that difference as a military ``pay gap.'' By 1998, the 
gap totaled nearly 14 percent (see Figure 1).
    Lawmakers enacted several measures that helped narrow the perceived 
gap. In November 2003, for example, they passed a provision stipulating 
that the increases in basic pay for 2004, 2005, and 2006 exceed the 
corresponding increases in the ECI by 0.5 percentage points.\6\ Each 
year since then, Congress has continued to set the basic-pay raise at 
0.5 percentage points above the increase in the ECI.\7\ As a result, 
the cumulative difference between increases in basic pay and the ECI 
since 1982 has shrunk to a little over 2 percent.
---------------------------------------------------------------------------
    \6\ Section 602 of the National Defense Authorization Act for 
Fiscal Year 2004 (117 Stat. 1498, 37 U.S.C. 1009).
    \7\  For example, the President requested a 2.9 percent increase in 
basic pay for 2010, which equaled the percentage increase in the ECI. 
Congress authorized a 3.4 percent pay raise in section 601 of the 
National Defense Authorization Act for Fiscal Year 2010 (123 Stat. 
2347, 37 U.S.C. 1009).
---------------------------------------------------------------------------
    As a basis for evaluating pay, however, the gap between military 
and civilian raises since 1982 has some significant limitations.\8\ 
First, the ECI is based on a survey that includes a broad sample of 
civilian workers; on average, those workers are older than military 
personnel and more likely to have college degrees. Since 1980, the pay 
of college-educated workers has risen faster than that of high school 
graduates in the civilian sector. Also, the pay of older civilian 
workers has generally grown faster than that of younger workers. 
Because the military mainly recruits young high school graduates, pay 
raises that were smaller than increases in the ECI would not 
necessarily hamper DOD's efforts to attract new personnel.
---------------------------------------------------------------------------
    \8\ CBO produced a technical analysis of those limitations in 1999, 
and they continue to exist today. See Congressional Budget Office, What 
Does the Military ``Pay Gap'' Mean? (June 1999).
---------------------------------------------------------------------------
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Second, the pay-gap calculation focuses on one part of military 
compensation--basic pay--and ignores changes in other cash and noncash 
components. In 2000, besides raising basic pay, lawmakers authorized a 
restructuring of housing allowances that eliminated out-of-pocket 
expenses typically paid by servicemembers (which had averaged about 20 
percent of housing costs).\9\ Other changes included linking housing 
allowances more closely to increases in local housing prices and giving 
servicemembers ``rate protection'' from any declines in those prices.
---------------------------------------------------------------------------
    \9\ Those changes were enacted in section 605 of the National 
Defense Authorization Act for Fiscal Year 2001 (114 Stat. 1654A-147, 37 
U.S.C. 403).
---------------------------------------------------------------------------
    With RMC substituted for basic pay in the comparison, the total 
growth in military compensation since 1982 has exceeded the growth in 
the ECI for private-sector wages and salaries by about 11 percent (see 
Figure 1). Including the value of noncash and deferred benefits would 
probably add to that cumulative difference.
   what are the effects of changing basic pay versus awarding higher 
                                bonuses?
    Increasing basic pay in 2011 will affect DOD's budgetary 
requirements in future years. Pay raises compound from 1 year to the 
next, because a higher raise this year will cause next year's rate of 
increase to be applied to a higher base. Changes in basic pay also 
affect other components of compensation, such as retirement pay. CBO 
estimates that increasing the basic-pay raise that will take effect on 
January 1, 2011, from 1.4 percent, as requested by DOD and the 
President, to 1.9 percent would boost DOD's personnel costs by about 
$350 million in 2011 as well as by a total of about $2 billion over the 
following 4 years (see Table 1).
    A higher pay raise would most likely enhance recruiting and 
retention, but the effect would be small. The annual difference between 
a 1.4 percent increase and a 1.9 percent increase in basic pay for the 
average enlisted member is about $150. CBO estimates that roughly 1,000 
people who would not choose to enlist or reenlist in 2011 if basic pay 
rose by 1.4 percent would do so with the higher raise.
    Alternatively, the same result might be accomplished by increasing 
bonuses for enlistment and reenlistment or by stepping up recruiting 
efforts. A bonus program generally requires smaller increases in 
spending than a basic-pay raise does to achieve the same effect on 
recruiting and retention, for several reasons. Bonuses can be targeted 
toward those servicemembers (or potential recruits) whom the military 
needs most. Bonuses do not compound, as pay raises do, and they do not 
affect retirement pay and other elements of compensation. Bonuses also 
do not involve expending resources on servicemembers who do not have 
the option of leaving in a particular year; they can be focused on the 
years of service in which personnel make career decisions and can be 
curtailed if other factors (such as economic conditions or deployment 
requirements) change. In addition, larger bonuses could create more-
meaningful differences in pay between occupations, which could be a 
cost-effective tool for improving military readiness.
    However, amplifying pay differences between occupations or between 
people at slightly different stages of their career could run counter 
to the longstanding principle of military compensation that personnel 
with similar amounts of responsibility should receive similar pay. 
Also, increasing bonuses rather than adding to basic pay would reduce 
retirement and other benefits for servicemembers relative to what they 
would receive if the extra money was part of basic pay throughout their 
career.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    How much it would cost to attract and retain the same number of 
personnel with bonuses rather than a larger increase in basic pay would 
depend on how the services structured their bonus programs. In any 
event, the lack of compounding means that in 2012 and beyond, virtually 
all servicemembers would have lower overall compensation than they 
would receive with a larger increase in basic pay. That outcome could 
also affect recruiting and retention in future years. If DOD wanted to 
attain the same levels of recruiting and retention as it would achieve 
with the higher basic pay, an augmented bonus program would need to 
continue in future years as well.

    Senator Webb. Thank you very much, Dr. Murray.
    Dr. Hosek, welcome.

  STATEMENT OF JAMES R. HOSEK, DIRECTOR, FORCES AND RESOURCES 
    POLICY CENTER, RAND NATIONAL SECURITY RESEARCH DIVISION

    Dr. Hosek. I would like to thank the committee for the 
opportunity to testify.
    I will address my comments to the usefulness of incentive 
pays, such as bonuses, in influencing career decisions of 
servicemembers.
    To summarize my main points, research consistently finds 
that people are responsive to enlistment and reenlistment 
bonuses. Bonuses expand the recruiting market, channel 
enlistees into hard-to-fill occupations, reduce attrition, and 
increase reenlistment. Because bonuses and other incentive pays 
can be targeted and increased or decreased in value, they can 
be a flexible, cost-effective element of military compensation.
    The health of the AVF depends on maintaining an adequate 
foundation of compensation. The foundational pays of military 
compensation include basic pay, allowances, health benefits, 
educational benefits, and retirement benefits. These pays and 
benefits help to ensure that the Services can recruit, retain, 
and motivate the number and caliber of people they need to meet 
manpower requirements, as well as produce future leaders and 
shape the force. However, it is not cost-effective to pay 
servicemembers only through foundational pays, but through a 
combination of foundational pays and incentive pays.
    The relevance of this observation to policy action depends 
on the state of the economy. In 1999, when unemployment was low 
and jobs were plentiful, recruiting and retention were hampered 
by low military pay, and the basic pay increases enacted at 
that time were an effective response. Today, the economy is 
climbing out of a deep recession, the unemployment rate is 
high, and job opportunities are expected to improve only 
gradually during the coming year. These conditions have helped 
recruiting and retention, and weaken the case for a higher-
than-usual increase in basic pay.
    Enlistment and reenlistment bonuses have been used 
extensively in recent years, and they have helped to stabilize 
recruiting and retention. In the case of enlistment bonuses, 
the average Army enlistment bonus increased from about $3,000 
to $12,000 from fiscal year 2004 to fiscal year 2008. In the 
absence of this increase, high quality enlistments would have 
been about 20 percent lower. If basic pay had been used instead 
of bonuses, the cost to the taxpayer would have been greater. 
Enlistment bonuses tended to decrease attrition, as well. I 
should add that other recruiting resources, such as the number 
of recruiters and advertising, have also contributed to 
recruiting success.
    Reenlistment bonuses have been equally valuable. Our 
analyses show that, by 2006, the growing burden of deployment 
was putting downward pressure on Army and Marine Corps 
reenlistment. Two-thirds of the soldiers and half of the 
marines up for first-term reenlistment had 12 or more months of 
deployment in the previous 3 years. We found that this 
cumulative amount of deployment tended to decrease 
reenlistment. The expanded use and increased generosity of 
reenlistment bonuses, starting in 2005, helped to offset this 
downward pressure and keep reenlistment rates on a fairly even 
course.
    The role of bonuses is not limited to the Active 
components. We are finding that enlistment bonuses are 
effective in increasing enlistment into the Reserve components 
by those who have served in an Active component and who, 
therefore, already have training and experience.
    In closing, I want to note an area where the use of bonuses 
might be improved. This has to do with bonus ceilings; that is, 
the upper limit on the size of the bonus. Some servicemembers 
may be at or near the bonus ceiling because they are at a high 
grade or in a specialty offering a high bonus. In these cases, 
an increase in the bonus means that the member can sign up for 
a shorter term without decreasing the amount of bonus he 
receives. Our empirical evidence confirms this behavior. A 
higher bonus ceiling would remove this undesired effect. More 
generally, there should be flexibility to allow a higher 
ceiling in cases where higher bonuses are needed to sustain 
retention.
    Thank you.
    [The prepared statement of Dr. Hosek follows:]
              Prepared Statement by Dr. James R. Hosek \1\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to Federal, State, or local 
legislative committees; government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
---------------------------------------------------------------------------
        the role of incentive pays in military compensation \2\
---------------------------------------------------------------------------
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT345/.
---------------------------------------------------------------------------
    I would like to thank the committee for the opportunity to testify. 
I will address my comments to the utility of incentive pays in 
influencing career decisions of members of the U.S. military.
    The Armed Forces share a common foundation of military pay. The 
foundation includes basic pay, basic allowance for subsistence, basic 
allowance for housing (or housing in-kind), and a military health 
benefit for servicemembers and their families. Educational benefits 
could also be included, as could contributions toward retirement 
benefits. This foundation of pay performs several functions. It helps 
to ensure that the Services can recruit, retain, and motivate the 
number and caliber of people they need to meet manpower requirements, 
produce a flow of capable future leaders within the enlisted and 
officer ranks, and shape the force so that its experience and grade mix 
are appropriate to the desired force structure.
    The health of the volunteer force depends on maintaining an 
adequate foundation of pay. This seems like an obvious statement, but 
at times the Nation has inadvertently tested its validity. The 
combination of basic pay, basic allowance for subsistence, and basic 
allowance for housing were set high enough at the start of the 
volunteer force in 1973 to enable a successful launch. Yet lower than 
adequate pay increases in the following years led to a recruiting and 
retention crisis at the end of the 70s, and Congress faced the 
alternatives of returning to a draft or restoring military pay to 
competitive levels. Congress chose to restore pay, increasing it a 
total of 26 percent in fiscal years 1980 and 1981. A second test 
occurred as the economy boomed in the late 1990s. Again military pay 
did not keep up with pay in the private sector and strains developed in 
recruiting and retention, though not as severe as in the late 1970s. 
Congress responded in the National Defense Authorization Act (NDAA) of 
2000 with a 4.8 percent increase in basic pay, a restructuring of the 
pay table with higher increases for certain years of service and ranks, 
and a commitment to increase basic pay half a percentage point more 
than the Employment Cost Index in each fiscal year through 2006. The 
importance of this pay action was not that it had to be taken--
ultimately, the volunteer concept cannot survive unless pay is kept at 
levels competitive with the private sector--but that the Nation had 
restored pay and stabilized recruiting and retention before the 
terrorist attack on September 11, 2001 and the ensuing military 
operations in Iraq and Afghanistan.
    An adequate foundation of military pay is necessary for the 
viability of the volunteer force, but it is not cost effective to pay 
servicemembers only though foundational pays. Because market wages 
differ by skill, education, aptitude, and work conditions, it would be 
extremely costly to increase the foundational pays so they were 
competitive for the highest wage individuals. Doing so would mean that 
military pay was higher than needed for everyone else. This point is 
true in general but its relevance to policy action depends on the state 
of the economy. In 1999 when unemployment was low and jobs were 
plentiful, recruiting and retention were hampered by low military pay 
and the increases enacted in NDAA 2000 were appropriate. Today the 
economy is climbing out of a deep recession, unemployment is high, and 
job opportunities are expected to improve only gradually during the 
coming year. These conditions have helped recruiting and retention and 
weaken the case for a higher than usual increase in basic pay.
    Incentive pays help the military compete in the labor market in a 
cost-effective way. Rather than increasing military pay for all, 
incentive pays increase military pay selectively. Incentive pays are a 
means of targeting higher pay to where and when it is most needed to 
ensure an adequate supply of manpower. Because incentive pays are 
targeted, they are less expensive than an across-the-board increase in 
military pay. Some incentive pays such as sea pay or aviation career 
incentive pay are highly stable additions to foundation pay. Other 
incentive pays such as enlistment and reenlistment bonuses can be 
turned on and off as needed, and this flexibility means that they offer 
a fast, well targeted, and temporary increase in pay. Similarly, 
deployment related pays such as hostile fire pay and the combat zone 
tax exclusion are viewed as a just recognition of special sacrifices 
and risk attached to deployment to a hostile area.
    Incentive pays are paid to those people on the brink of enlisting 
or reenlisting who wouldn't have enlisted or reenlisted without getting 
these pays. But they are also paid to those who would have enlisted or 
reenlisted even without the bonus. For instance, all servicemembers who 
reenlist in a specialty covered by a bonus will receive a bonus, though 
some would have reenlisted without a bonus. The fact that some 
individuals are paid more than they need to be paid to reenlist is not 
unique to military incentive pays but is a common feature of labor 
markets. The market-clearing wage is the wage needed to hire or keep 
the worker on the margin and is higher than needed for workers below 
the margin. But all workers receive the market wage because if they 
didn't they could seek work in a different market, and they have no 
incentive to reveal that they would accept less than the market-
clearing wage.
    The fact that incentive pays (or market wages in general) pay some 
workers more than they would be willing to accept should not be seen as 
a flaw. Incentive pays are a way of making military pay competitive in 
a competitive labor market. Without them, losses at the margin would 
escalate and manning in specialized assignments would suffer. For 
example, overall manning in a military specialty such as logistics may 
be in good balance, but the subset of logisticians qualified to perform 
as recruiters or parachutists may be in very short supply. An incentive 
pay motivates logisticians to volunteer for specialized training and 
duty in these particularly challenging or risky duties, payable so long 
as they hold the specialized assignments.
    Enlistment and reenlistment bonuses have been extensively used in 
recent years. This may seem puzzling in view of the major adjustments 
to pay in NDAA 2000 and subsequent increases in basic pay and the basic 
allowance for housing. But despite these pay actions, our analyses 
suggest that the military operations in Iraq and Afghanistan had a 
downward effect on Army recruiting, and the extensive deployments 
supporting these operations had a downward effect on Army and Marine 
reenlistment. However, we also find that the expanded use and higher 
levels of enlistment bonuses helped to counteract the downward trend on 
Army enlistment and the expanded use and higher levels of reenlistment 
bonuses greatly helped to counteract the downward pressure on 
reenlistment of more extensive deployments.
    These analyses are described in a forthcoming RAND report, Cash 
Incentives and Military Enlistment, Attrition, and Reenlistment, MG-
950. In the case of enlistment bonuses, we estimate that a 10 percent 
increase in enlistment bonuses expands the high-quality market for Army 
recruiting by 1.7 percent. While this may seem small, it is useful to 
put this result in perspective. Between the end of fiscal year 2004 and 
the end of fiscal year 2008, the average enlistment bonus in the Army 
increased from about $3,000 to about $12,000. Using our estimated 
model, we predict that in the absence of this increase in enlistment 
bonuses, high quality contracts in the Army would have been about 20 
percent lower, implying that the Army would have enlisted 1,670 fewer 
high-quality contracts per quarter. At the same time, we estimate that 
the Iraq war took a negative toll on Army recruiting, after controlling 
for other factors that were changing at the same time, and that the 
increase in enlistment bonuses expanded the market and helped offset 
this negative effect of the Iraq war on recruiting. We also estimate 
that enlistment bonuses achieved this market expansion at less cost 
than had basic pay been increased instead. That is, if basic pay had 
been increased to generate the additional 1,670 recruits per quarter, 
the cost to the taxpayer would have been greater.
    How effective are reenlistment bonuses? It is useful to think of 
the generosity of a bonus offer in terms of the bonus multiple, or 
step. The amount of the bonus for a 4-year reenlistment is equal to the 
product of monthly basic pay, years of reenlistment, and bonus step. 
Monthly basic pay depends on rank and years of service, the length of 
reenlistment is chosen by the servicemember, and the Service sets the 
bonus step. The fiscal year 2010 basic pay for a corporal (E-4) with 3 
to 4 years of service is $2,094, so the bonus for a 4-year hitch at 
step 1 is $8,376, for example. In the study mentioned above, we 
estimate that a one-step increase in the bonus increased first-term 
reenlistment by 2.5 percentage points in the Army, or from about 40 
percent to 42.5 percent. The estimates for the other services are 2.5 
percentage points for the Navy, 3.6 percentage points for the Marine 
Corps, and 1.6 percentage points for the Air Force. Estimates at 
second-term reenlistment tend to be somewhat smaller: Army, 2.5 
percentage points; Navy, 1 percentage point; Marine Corps, estimate not 
statistically different from zero; and Air Force, 1.5 percentage 
points. These estimates are in line with previous studies.
    To put these reenlistment bonus estimates in perspective, it is 
useful to compare them to the effects of deployment on reenlistment. We 
find that soldiers and marines with 12 or more months of deployment in 
the 3 years before their reenlistment point had lower reenlistment 
rates, as compared to those with no deployment, and by 2006 two-thirds 
of the soldiers and half of the marines at first-term reenlistment had 
12 or more months of deployment. The large portion of personnel with 12 
or more months of deployment coupled with the negative effect on 
reenlistment for those with 12-or-more months threatened to reduce 
reenlistment and imperil unit manning. However, reenlistment bonus 
usage and amounts increased a great deal from 2004 to 2005 and remained 
at higher levels in the following years. For instance, in 2004 
approximately 15 percent of first-term soldiers who reenlisted received 
a bonus, and its average step was about 1.3. In 2005 about 70 percent 
of first-termers who reenlisted received bonuses, and the average step 
was about 1.9, or roughly a 50 percent increase in bonus generosity. 
The percentage receiving a bonus and the average step increased a bit 
further in 2006 and 2007. We estimate that the expanded use and 
increased generosity of reenlistment bonuses was sufficient to offset 
the downward pressure coming from deployments, resulting in a steady 
overall reenlistment rate. (This is reported in How Have Deployments 
During the War on Terrorism Affected Reenlistment? MG-873.)
    Both enlistment and reenlistment bonuses today are paid half up 
front at the time the new term begins and half in annual installments 
over the term. This approach is a sensible compromise.
    Research shows that servicemembers prefer a bonus to be paid in 
full immediately rather than paid in installments, but by paying half 
of the bonus in installments the services create an ongoing incentive 
for the member to stay in service for the entire term. In the Cash 
Incentives report, we find evidence that bonuses induce members to stay 
in service, though the effect is rather modest. Specifically, we find 
that a 10 percent expansion in Army enlistment bonuses reduces first-
term attrition from about 32 percent on average to about 31 percent.
    Bonuses can be used to fine-tune personnel management. For 
instance, the Army offers higher bonuses for certain locations, and is 
using bonuses to match the entry date of new recruits with the 
availability of training seats. Another important use of bonuses is to 
channel recruits into hard-to-fill specialties. The effectiveness of 
bonuses for skill channeling was demonstrated in an enlistment bonus 
experiment (The Enlistment Bonus Experiment, R-3353). That study found 
that holding the total number of enlistments constant, an increase in 
bonuses targeted to hard-to-fill occupations increased enlistments in 
those occupations by 43 percent.
    The role of bonuses is not limited to the Active components. In the 
Reserve components, two types of recruitment bonuses are used, 
enlistment bonuses and affiliation bonuses. The allowable size of these 
bonuses increased markedly in 2006, and in work underway at RAND we are 
finding that these bonuses have been effective in increasing prior 
service enlistment into the Reserve components. The study has not yet 
addressed non-prior service enlistment so we do not have estimates of 
bonus effects for this population.
    There is an area where the use of bonuses might be improved. This 
has to do with bonus ceilings, i.e., the upper limit on the size of a 
bonus. Generally speaking, a more generous bonus creates an incentive 
to sign up for a longer term, but a bonus ceiling can thwart this 
incentive. Some servicemembers may be at or near the bonus ceiling 
because they are in a high pay grade or a specialty offering a high 
bonus step. In these cases, an increase in the bonus step means that 
the member can sign up for a shorter term without decreasing the amount 
of bonus he receives. Our empirical evidence confirms this behavior. A 
higher bonus ceiling would remove this undesired effect. More 
generally, there should be some flexibility to allow a higher ceiling 
in cases where higher bonuses are needed to sustain retention.
    To summarize, research consistently finds that people are 
responsive to enlistment and reenlistment bonuses, and this finding is 
confirmed in our studies and those of others. Bonuses expand the 
recruitment market, are effective in inducing enlistees to select hard-
to-fill occupations, and induce servicemembers to reenlist rather than 
leave for civilian opportunities. Furthermore, our analysis finds that 
bonuses have expanded the market and increased reenlistments in a 
costeffective manner, especially when compared to military pay. In 
other words, if Congress had instead opted to raise pay more to achieve 
the same increase in enlistments and reenlistments, the cost to the 
taxpayer would have been more. Finally, carefully targeted bonuses have 
been helpful in sustaining reenlistment in recent years when the 
burdens of deployment have threatened to decrease it.

    Senator Webb. Thank you very much.
    To all the witnesses, thanks for your testimony. We have a 
tremendous amount of experience at the table right now, from a 
number of different perspectives.
    As I mentioned at the outset, this is, I think, a good 
opportunity for all of us just to take a look at these 
programs. Sometimes we have to even re-explain them to the 
political process, because of the momentum with which they are 
dealt. We rarely break down and say, ``All right, what is this? 
What is this program? How does it help?'' In that spirit, I'd 
like to ask a number of questions, and get the panel's thoughts 
on them.
    The first occurred to me listening to Ms. Farrell and Dr. 
Murray both, talking about the civilian comparability on 
military compensation. Let me just start by saying, when I was 
growing up in the military, the differential truly was the 
other way around. You could compare, say, an O6 with a GS15, 
and, in terms of benefits and long-term benefits, the civil 
servant clearly had a better deal. I don't think that's true 
today. It's probably the other way around today, when you look 
at the protections that are in place.
    Even when my father finally made colonel--and I was long 
gone when that happened--I think he made $14,000. Even if you 
do all the multiples, it's not a whole lot of money. There 
weren't a lot of other incentive pays to go along with that.
    I was on Active Duty when we began the volunteer Army 
concept. I actually was on the Secretary of the Navy's staff in 
1971, when they first started talking about reconfiguring the 
overall pay structure. It was pretty much a bold leap forward. 
It was before they got into these add-ons. But, as all of you 
know, the premise in military compensation, until the creation 
of the volunteer system, was that the lower three enlisted 
ranks and the lower two officer pay levels were paid very 
little, the idea being that that was the citizen soldier, as a 
consequence of a country that had conscription. Then, the 
money, such as it was, went into the career force, to try to 
protect and properly compensate the career force. So, when they 
started the volunteer concept, the first step that they made 
was to dramatically increase the pay scale at the bottom, to 
incentivize people to come in on a voluntary basis.
    Then all these other programs that are now in place, fell 
in incrementally over the years. We saw a lot of it when I was 
in the Reagan administration, in the Pentagon, where it really 
started focusing in on different areas.
    This is still a work in progress, in terms of how we field 
the best military in the world, and how we take care of our 
people.
    The question that came to my mind when I was listening was, 
when we're talking about comparability with the private 
sector--for instance, when the comment was made if you include 
other benefits, there's about an 80th percentile for the 
typical military person--I would like to hear from all of you--
first of all, which benefits are we including when we do that? 
Which benefits are we not? For instance, even on the medical 
side, do we factor in such things as not having to have 
malpractice insurance or to pay for an office? Do we count that 
as compensation when we're looking at comparing what the costs 
would be on the outside? What are we doing on these different 
areas? What are we putting in and what are we leaving out when 
we hit these kinds of numbers?
    Ms. Farrell, you might want to start on that.
    Ms. Farrell. Sure, Senator.
    As I noted, the studies differ in what they include. That's 
the reason you get different results; although at this time, 
the reports that we looked at from my colleagues here all came 
up with similar results showing that the military pay was very 
favorable. The 10th QRMC included select benefits: it was 
healthcare, retirement, and the tax advantage. We're talking 
about a very broad base approach. When you referred to 
malpractice insurance, maybe you're thinking more of a scenario 
that's comparing one occupation for a physician with a 
physician in the private sector. These studies are very 
broadbased, and that's the reason we say that they have 
limitations, because the populations can differ, for example, 
in terms of age and education--usually your private-sector 
population is older than what you have in the military 
workforce, and usually your private-sector population is 
already further ahead in education. Many of our young people 
join the military with the plans to go on and get that 
education. So, you have different populations, in terms of 
demographics that you're reviewing, that places some 
limitations on the methodology.
    But, with that said, we feel that the studies that 
reviewed, with CNA being the backup for the data, with the 10th 
QRMC that included the three select benefits, took a very 
reasonable approach. There could be--there were a couple 
comments that we made on the CNA study, regarding assumptions 
about healthcare and retirement, and some other organization 
could come up with different assumptions. We still think it's 
reasonable.
    One of the assumptions made, for example, about retirement 
involves the discount rate. If someone's going to retire in 20 
years and receive $100, to make if very simple, what is the 
discount rate that would be the present value today? The 
discount rate that CNA used could be a little bit on the high 
side, compared to if a different rate was used. So, there's 
differences in the assumptions that are used for these noncash 
benefits, such as the healthcare--trying to place the value on 
it--as well as the retirement.
    Does that help?
    Senator Webb. That helps.
    Mr. Carr. I should make a point, I think.
    Senator Webb. Mr. Carr.
    Mr. Carr. Military pay, if it's simple and it's 
understood--for example, paystub--we, for years, used regular 
military compensation, which is roughly synonymous with 
paystub. It considers my basic pay, my allowances, and--housing 
allowances, for example--because allowances are not taxable, 
the tax advantage--an enormous amount of time explaining that 
to the soldier, sailor, or marine, so that they can gain some 
cross-comparison. Whether it's true that--and I'll stipulate 
that we're 70 percent against that paystub measurement--or 80 
percent, if we included esoteric things that aren't reflected 
in the paystub. It simply is a means of communicating a 
baseline. Either one is producing the same effect--80 percent, 
if you use the esoteric; 70 percent, if you're not. But, the 
importance is consistency in use.
    So, if we are 70 percent today, and we've used that 
measurement for years and hope to use it into the future, then 
we are communicating about a point at which core retention 
patterns look okay to us. What was the pay level then? We'd 
say, ``The regular military compensation''--because we have to 
account for the tax break--``is at this level, and yes, 
retention was good, and unemployment was that.'' We can 
communicate in much simpler, cogent terms that I think the 
troops would subscribe to, first, because we've talked to them 
in those terms for so long, and, second, because it has to do 
with the paystub. They get that.
    Senator Webb. The question, though, is whether we have the 
right information to truly compare, because there are a number 
of concerns. We hear from the Military Officers Association, et 
cetera, saying that the pay differential for the same type of 
job in the military is less. We need an accurate number. If 
it's less, it's less. If you're factoring all of the different 
pieces in together, and it's good, we should say, ``It's 
good.''
    So, the question, again, becomes, what are we putting into 
this when we make the formula?
    Ms. Farrell, when I was talking about medical insurance, it 
was just one of the things that popped into my mind while you 
were giving your presentation, in that you can't sue a military 
doctor--Federal Tort Claims Act. There are a lot of doctors in 
civilian practice who spend tens, if not hundreds, of thousands 
of dollars in medical malpractice insurance in order to cover 
the possibility of a lawsuit. We, arguably, should factor that 
in when we look at compensation for medical folks.
    Just one of many questions that I would have in terms of 
how sophisticated are we in--should people be concerned about 
these pay levels as they are right now? Maybe they should, 
maybe they shouldn't. But, are we using the right formula?
    Ms. Farrell. Again, we think by going with the 10th QRMC's 
recommendation to include select benefits, that's an advantage 
to DOD, to show how good their package really is and that it 
could be used even as a recruiting or retention tool. We have 
reported in the past through our surveys with servicemembers--
they lacked an understanding of how their pay compared to 
counterparts in the private sector. There are a lot of 
misperceptions out there.
    Granted, DOD has its hands full, because this is such a 
large workforce. They bring in about 180,000 every year. 
They're maintaining 1.2 million servicemembers; it's a vast 
array of occupations. But, when you're doing a broadbased 
comparison of how the military compares to the private sector, 
we firmly believe that the total package should be included. 
The regular military compensation that Mr. Carr mentioned, 
we're not saying, ``Don't look at that.'' Keep that measurement 
of how the cash does compare with the civilian, but also go 
with the recommendation to look at select benefits, to the 
extent possible, because it will give a fuller picture. It will 
help DOD to monitor what is going on so that they can keep pace 
and be competitive with the private sector. It's a good 
recruiting tool, as we said.
    Senator Webb. Dr. Hosek, what do you think about that?
    Dr. Hosek. Various things. The first thing to observe, I 
think, is that the basic elements--what, in the past, have been 
referred to as ``regular military compensation'' for officers 
or enlisted personnel--still constitutes the vast majority of 
their current compensation, even when one considers benefits 
and allowances. That is, it's on the order of 90 percent. What 
that means to me is that it's really important to make sure 
that, whatever we do, we keep track of that and watch it 
carefully.
    The second thing is that probably the most salient benefit 
to military families on Active Duty or Reserve today would be 
the health benefit. That comes not only because the military 
has pledged to care for military servicemembers and their 
families, and follow through with this health benefit--it's a 
fairly comprehensive benefit--but also because the cost of 
similar services in the private sector have risen 
dramatically--at times, upwards of a 40 to 50 percent a year 
increase in cost. Today, I believe, in the private sector, the 
cost of a relatively good healthcare benefit for a family of 
four is around $13,000; whereas at the beginning of the decade, 
it was probably half that. So, the value of the military 
benefit can be thought of in terms of what it would cost a 
military family to obtain comparable healthcare outside.
    I want to, certainly, recognize the fine work that's been 
done by CBO, GAO, and, in this area, but, let me with that 
comment, add that a few years ago before these studies we did a 
study at RAND, trying to place a value on the military 
healthcare benefit, by which we made use of information on 
private-sector claims data for providers, and skill sets, and 
the age and ethnic distribution similar to that in the 
military. To make the story short, we, too, came up with a 
number such that, when you put it in the full context, enlisted 
personnel had a benefit, including basic pays, allowances, 
tax--the nontaxability of the allowance--and the healthcare 
benefit, placing their compensation at around the 80th 
percentile. For officers, I believe it was at around the 90th 
percentile.
    I'll end there, with only an additional final comment, 
that, as you stressed at the beginning, as important as it is 
to look at the specific elements of pay and be clear about what 
we're including and how we're doing it, we always want to be 
able to relate those elements of pay to our recruiting and 
retention outcomes.
    Thank you.
    Senator Webb. Also, if I may, on an issue like healthcare, 
that's a moral contract. It's a moral contract that goes beyond 
benefits, and it goes to the life of an individual who spends a 
career in the military. I can't tell you how many people in my 
lifetime who are career military who point that out while 
they're on Active Duty and after they retire.
    Mr. Carr, how do you develop, for lack of a better term, 
the internal discipline on a lot of these special pays, when 
there's really no business model here? We're doing this if this 
were a business, you would say, ``This is the amount of money 
we have coming in. Unless we take out a loan, we can't get more 
money. This is where we're going to put this money, in order to 
make a productive business work.'' When we're doing DOD, we're 
not doing that. We look at what we need in order to keep the 
country secure; we make decisions. When it goes to a lot of 
these S&I pays--I'm going to ask some questions in a minute 
about some of them--what are the factors that you put in that 
could bring a discipline to the process?
    Mr. Carr. Sir, if we asked any of the Services, ``What are 
you trying to hit with your retention incentives?'', the answer 
is going to be, ``A grade and experience mix, such that I 
produce seasoned noncommissioned and petty officers.'' I say, 
``Okay. Define that, mathematically.'' The answer would be, 
``I'd like to have 50 percent of my enlisted force with fewer 
than 7 years of service, and 50 percent with more than that.'' 
They draw, physically, as I'm sure the chairman has seen, a 
profile that says how many people they want to have in year of 
service 1, 2, 3, 4, 5. Do it for pilots. Do it for--you name 
the skill or the service aggregate.
    So, the question becomes, ``For my inventory, how much does 
that inventory deviate from that ideal line? Where does it 
deviate? How do I prop it up?'' There is a mathematical 
solution to that. It's imperfect, because human behavior cannot 
be perfectly predicted. But, we would know, for the given 
investment, what it seeks to accomplish. By drawing another 
picture--we know who's out there in the force--whether or not 
that gap is being closed.
    So, the empirical knowledge in this area is applied against 
that rigidly defined goal in a disciplined way, with a best 
estimate of what the cause and effect is on the money we're 
going to spend. If we guess wrong, we adjust, because it is, 
after all, a forecast. But, take that through any skill, and it 
pretty much proceeds the same way.
    There's a lot of pays, of course, that do not depend on 
retention--such as recognizing the hazardous exposure of 
service, and so forth. So, there's many others that do that. 
But, I think the chairman's question was, ``When we're trying 
to decide where to put a retention dollar and why we're going 
to put it on that occupation, for that zone, which is expressed 
as a range of years of service,'' the answer is, ``Because 
we're trying to close the gap between two explicit lines.''
    Senator Webb. Can you give us an understanding of 
continuation pay and how it fits into that formula that you 
just expressed? You have aviator career incentive pay (ACIP), 
nuclear officer continuation pay, judge advocate continuation 
pay, engineering and scientific career continuation pay, 
acquisition corps continuation pay, surface warfare officer 
continuation pay; just if you could explain for us the program 
and how it affects what you just said.
    Mr. Carr. I'll knock out surface warfare officer and 
aviator continuation pay pretty much the same way. The question 
is, ``what's your force profile?'' In the late 1980s, we 
overhauled aviation pays. I chaired the study that produced the 
legislation that revised ACIP and then reinvented aviator 
continuation pay (ACP). But, in every case, in every weapons 
system that we were trying to satisfy--and the Navy was the 
most disciplined in this--there was a reason that they wanted 
to move this year-of-service cohort, this experience group, to 
a higher level. It had to do with department-head requirements. 
So, they would say, my department heads on ship--the squadrons 
that are embarked--are weapon-system-specific. I, therefore, 
need X number of department heads who grew up in Prowlers. How 
many do I have in the pipeline? If my number is too short, then 
I pay ACP in whatever measure is required to close that gap. 
The Air Force is similar. It has greater fungibility across 
weapon systems. Whether it's a surface warfare officer or an 
aviator, simply, in those cases, count your department heads 
who are going to pop up at their certain years of service. How 
many people are in the pipeline, in that occupational 
discipline? Am I going to fill them, or am I going to be short? 
If I'm short, then I'm going to cause some people to change 
their behavior so that I can fill them all.
    So, again, it's empirically derived against a very 
specific, tight target.
    Senator Webb. But, the continuation pay goes to everyone 
who is qualified, under those occupational specialties? Would 
it not?
    Mr. Carr. An aviator is going to come in, as the chairman 
knows, having completed their major weapon system training. 
Then, with that is, say, a 9-year Active Duty service 
obligation. So, you're taking the person at that point--up 
until then, there's been no retention choice; the contract 
said, ``You must remain''--and we're focusing on that group of 
people, to stimulate their behavior to carry them from the end 
of the contract, which we all agreed to, incident to entering 
the training, and vault them out for another 6 years. It is 
system-specific, but it's not to all, because we're targeting 
the retention-sensitive years, so it is almost exclusively 
dedicated to those who are approaching their first quit option.
    Senator Webb. But, in that group, it's all.
    Mr. Carr. Yes, sir.
    Senator Webb. The same with how you do the judge advocate? 
As a lawyer here, I'm treading on sensitive ground.
    Mr. Carr. No, you're right, sir. If we were talking about 
an aviator, about pilots--is that they hold that rank of O4 for 
a reason, and they're promising. So, I'm ambivalent as to which 
ones I get, so long as I get so many. I could, however, set 
quality standards for department head and say, ``Only those 
that had these assignments may be considered in the pool I'm 
trying to vault up.'' As a general proposition, yes, sir, 
you're right. For a given experience cohort, take all comers 
within that, considering them to be of homogeneous quality.
    Senator Webb. Same with the Judge Advocate General Corps 
(JAG)?
    Mr. Carr. Same with JAG.
    Senator Webb. We have a problem recruiting JAGs?
    Mr. Carr. The JAGs demonstrated to us, convincingly, that 
there was a shortage in retaining JAGs against the force 
profile. Let me set it up this way.
    If Congress should enact a law that says, ``Pay money for 
this circumstance,'' typically, it says, under regulations 
established by the Secretary of Defense, ``We, in turn, will 
issue a directive that says, `If you think you meet these 
conditions, come see us and we'll discuss it and have a second 
review.' '' If you present evidence that you do have a shortage 
against authorized lawyer billets, and you're not keeping them, 
then, yes, we would be in, I'll call that ``readiness''--and 
say, ``We must keep that number of lawyers,'' and therefore, we 
would pay them in order to fill a specific set of billets that 
would have otherwise demonstrably go unfilled.
    Senator Webb. But, there is no continuation pay for 
infantry.
    Mr. Carr. There is not a continuation pay for infantry 
officers, and the Army did use an incentive to retain captains. 
There can be. I think the chairman's point may be, I suspect 
we're in a tight supply on infantry captains, if the selection 
to major is running as high as it is. Shouldn't we try and 
boost up the number of persons entering the zone for major?
    The Army, a few years ago, for example, said yes and 
offered a continuation bonus to combat arms in order to address 
that very specific shortage. The new battlefield required new 
organization, begat smaller organizations, which, necessarily, 
creates, proportionately, a richer grade structure, and, boom, 
we had a lot of major requirements that we didn't have before 
and some lean captain cohorts that we had to pay some 
incentives to in order to generate the requisite number.
    Senator Webb. As a former infantry rifle platoon and 
company commander, I think the question needed to be asked.
    That's one of the questions that, actually, was being asked 
a lot, back in the 1980s, when you were going to this targeted 
pay, as Dr. Hosek may remember, having been on so many of these 
boards--these quadrennial reports. In fact, I don't know, was 
it General Vessey, someone back there, who said, ``How much do 
you pay a point man in the infantry when things really get bad? 
What kind of a bonus should they get?'' So the perception, from 
the inside out, from people who've done a lot of the hard work, 
seeing some of these continuation pays is that I think that's 
still there, as a matter of fairness, inside the military.
    Mr. Carr. Point taken, sir.
    Senator Webb. Dr. Hosek, you have sat on three quadrennial 
reviews?
    Dr. Hosek. Yes.
    Senator Webb. When was the first?
    Dr. Hosek. I think it was 1992.
    Senator Webb. 1992? What would be your observations on this 
particular area, the specialty pays, as they've evolved from 
that period? Are we on the right track? Is there something else 
we need to be looking at?
    Dr. Hosek. I think, even going back to the 1970s and 1980s, 
and certainly since, there's been a recognition of how 
important special and incentive pays can be, for various 
reasons. I think the evolution, as you mentioned earlier, of 
the increase in these pays is notable. It's really a reflection 
of the fact that the pays have turned out to be a useful, 
flexible, and, I think, on the whole, cost-effective mechanism 
allowing the Services to tailor their compensation to secure 
the people needed for particular occupational areas and 
leadership positions, both enlisted and officer.
    I'm not dismayed in any way, I think, with the way things 
have evolved, in terms of the increase in the numbers of these 
pays. As I mentioned, I think that the foundational pays, that 
I noted in my testimony, still remain of vital importance to 
the health of the force. The suggestion on that has since been 
enacted under the 10th QRMC, to consolidate into, I believe, 
seven categories the proliferating number of special pays that 
had become confusing, is a good move, if only to do a better 
job of communicating what these pays are to our servicemembers, 
Active and Reserve. So, I look forward to that.
    Basically, I think these pays are quite good. I think that 
we do have to--the S&I pays are of different types and serve 
different purposes. For example, the ACIP that you mentioned 
and, for that matter, the pays for JAGs and so forth, I view as 
fairly permanent compensating differentials that reflect 
private market conditions for those skills. Same for 
physicians. It's important that the military be able to get 
physicians, lawyers, et cetera, in order to satisfy its 
requirements. In fact, I think I would emphasize, even more 
than that. To me, we have to go back and ask, ``What would an 
enlisted person or an officer think if they didn't have the 
full cadre of individuals needed to provide military 
capability, if we didn't have officers or enlisted?'' Even 
though they, individually, might not be the beneficiary of 
certain select--certain S&I pays, I think, somehow, that 
they're also willing to recognize and accept the importance of 
pay differentiation in order to ensure that we have a full 
complement of individuals for the purpose of military 
capability. I think that's really the role of these things.
    I've thought about this a fair amount, because, as you 
noted, the infantry point guy--if he comes under fire or is in 
really dangerous conditions, you wonder if we are paying that 
person enough at that time? What do we do to recognize that? We 
don't have spot bonuses to award that sort of thing, and I'm 
not sure we want them.
    Senator Webb. That's sort of where the civilian comparative 
model breaks down, because maybe that--well, actually, there 
are some areas where that skill is marketable on the outside, 
but there's not a lot of people on the outside who aren't doing 
it who would step in to do it. It's sort of an inverse model, 
in a way.
    Dr. Hosek. The bottom line is, we want to set pay so that, 
on net, when people come to making their decisions to stay or 
leave, and, for that matter, to really exert effort and take 
risks on behalf of their country, they're there, and they know 
that the country is providing the compensation, family support, 
healthcare, retirement benefits, and educational benefits that 
they want. The real test of that in our military over time, 
though not necessarily at a particular instant, is whether we 
have gotten, and can keep, the caliber of people we need.
    The market is a real taskmaster in that regard. Even in 
draft years, in the 1960s, and leading up to the advent of the 
AVF in 1973, we had, primarily, an AVF. What we also had was a 
partially drafted force. As you pointed out, absolutely 
correctly, the onset of the AVF involved serious exercise in 
trying to raise the entry-level pay to competitive levels.
    People have always served on a voluntary basis, for the 
most part. Certainly, all servicemembers do so today. That 
means, when they're thinking about entering or thinking about 
leaving the military, they're scouting around to consider their 
outside opportunities. That's the test; that's the source of 
feedback that tells us something about whether we're paying 
people the right amount.
    Thank you.
    Senator Webb. I couldn't agree with you more, and you raise 
an interesting point that people tend to forget. It has two 
different components to it, when you mention that, during the 
Vietnam era, most people were volunteers. Two-thirds of the 
people who served during the Vietnam era were volunteers, and 
73 percent of those who were killed in action were volunteers. 
There's an application in that thought pattern today, in the 
sense that, even though we are a volunteer military, we're not 
an all-career military.
    It's something that I had a number of challenges putting on 
the table when I first came to the Senate, becoming a member of 
this committee, the tendency of a lot of people coming over 
from the Pentagon would simply talk about retention, rather 
than assisting the large number of people, the majority of the 
people who enlist, actually, who leave on or before the end of 
their first enlistment. It took us about a year to get the 
numbers, but the numbers we had before this economic meltdown 
were that 75 percent of the people who enlist in the Army, and 
70 percent of those who enlist in the Marine Corps, leave the 
military on or before the end of their first enlistment. That's 
actually very healthy for the military. It's very healthy for 
the country. It preserves the citizen-soldier concept. It's one 
of the reasons I pushed so hard to get this GI Bill through, 
because the transition period is something that we haven't 
always looked at.
    It also goes to the notion that, aside from these S&I pays, 
we really want to make sure that people who aren't eligible for 
these S&I pays are adequately compensated while they are in the 
military, and properly cared for the rest of their lives.
    I thank you very much for your comment on that.
    Dr. Murray, you've been silent. Would you have any thoughts 
on what we've been talking about?
    Dr. Murray. I would just say that when you ask CBO for the 
cost of military personnel, including cash and noncash benefits 
is important. Sometimes it depends on the question being asked, 
and the context in which it's being framed. When you start to 
include noncash benefits, of course, they do cut across 
different departments, involving the Department of Veterans 
Affairs, et cetera.
    Also, the valuation aspect is very important in analyzing 
the role that compensation plays in peoples' decisions to join 
or stay in the military. So, when I offer cash compensation, 
the value is easily understood. I give you a dollar, you spend 
that dollar on goods and services, and the cost to the 
government is the value that's been received by the 
servicemember.
    I think for all researchers deciding the valuation of 
something that is less easily tangible--counted--things like 
noncash benefits, and the role that those different aspects 
play is much more dependent on how the analysis is done and 
what you choose to include, and so on and so forth.
    Senator Webb. I believe it was your written testimony that 
had the chart on the percentage of military medicine that was 
being provided to retirees. Was that yours? I believe it was 
your testimony, your pie chart.
    It had, I think it was 52 percent of medical care actually 
was going to--of the different programs--were going to retirees 
at this point--and their families, obviously.
    Dr. Murray. That was not in my written testimony.
    Senator Webb. Not in yours?
    Was it in yours, Ms. Farrell?
    Ms. Farrell. We didn't have a chart, but, in terms of 
retirement figures, we had 15 percent of the enlisted would go 
on and be eligible for retirement. Around 47 percent of 
officers would go on and be eligible for retirement.
    Senator Webb. I'll find the chart and get back to you. 
[Laughter.]
    Ms. Farrell. We'll get you a chart, if you want a chart. 
[Laughter.]
    Senator Webb. No, actually, it was in one of the pieces of 
the testimony that I read. I found it really interesting, that 
a majority of the healthcare was going to dependents, retirees, 
et cetera.
    Dr. Murray. That is correct, yes.
    Senator Webb. Senator Begich has arrived.
    Senator Begich. Thank you, sir.
    Senator Webb. Welcome, sir.
    Senator Begich. Thank you very much, Mr. Chairman.
    If I can, I just have just a couple quick questions. Is 
that okay?
    First, just a general question on compensation. If this was 
talked about, I apologize to repeat it. But, because of where 
the economy is today--unemployment--and if I remember the 
information I was reading here, the pay gap between military 
and civilian pay is about 2\1/2\ or so percent. Has there--have 
you had--I'm trying to think how to word this--for the 
increases or the pay that we're trying to make sure that we're 
competitive with, has that pay changed in the private sector 
because the economy has flattened, and therefore, their pay has 
come down? Or is there a real gap that we don't really realize 
yet, because as soon as the economy recovers then there'll be a 
bigger gap? Do you follow what I'm saying?
    Mr. Carr. I do, Senator.
    Senator Begich. Okay.
    Mr. Carr. The private sector wages have gone flat, for 
reasons you understand. Our objective is to parallel that. By 
law, we set a relationship between those two events by saying 
that the annual military pay raise would equal the change in 
the private sector in what's called the ``employment cost 
index''--how much does it cost me to pay all these people in 
these chairs?
    Senator Begich. Sure.
    Mr. Carr. I, each year, sample the same chairs, and I see 
what the change is. So, the military parallels it. Hence, the 
pay raise for this year, proposed in the President's budget, is 
probably on the order of half that is programmed for future 
years in the Defense budget, if all were to hold together.
    So, the economy is flat.
    Senator Begich. Right.
    Mr. Carr. We're, therefore, flat because we are, by law, 
tracking against that, but we're holding our own.
    Senator Begich. Do you think--my assumption is--and, again, 
we saw some good market indicators yesterday and the day before 
housing starts are up and housing loans are up. The consumer 
confidence, which to me is the ultimate measuring stick--all 
this other stuff--I know people say unemployment's important to 
measure, but if the confidence of the consumer is not up, the 
economy will not fully recover. That number has moved, the 
first time; and the number that it's at now is equal to where 
it was in September or so of 2008, which is good. That's a good 
signal.
    So, as the private sector recovers and the job rates or the 
pay rates will start moving up, will we fall into--because the 
way our system works here, it's not the fastest system, to say 
the least--will we be able to track that as fast as the private 
sector will be moving? Because I believe the private sector 
will move much faster than we could ever move. So, the question 
is, can we get there?
    Mr. Carr. I have to say that, in order to do it, yes, 
that's our duty. That's our objective in forecasting the funds. 
If we get it out of line before we would hemorrhage experience 
that we couldn't replace, then we would probably turn to 
reprogramming, because if we have gotten it wrong and we 
thought the economy was going to do this, but it heated up much 
faster, then our resources allocated to retention incentives 
won't be sufficient, because, again, it happened faster than, 
better than we thought. In that case, then we have to look at 
the defense budget in the execution year and find what we're 
going to do to prevent the hemorrhage.
    Senator Begich. Okay. You feel confident enough that, if 
that moment happens--it's nice to have a nice slide, rather--
and a glide up, rather than a spike; but, if it's a spike 
potential, do you feel the system that you work within can deal 
with this in a rapid pace, versus us coming along and saying, 
``Why the heck haven't you done it?'' Do you think--we might 
still do that----
    Mr. Carr. I believe that----
    Senator Begich.--the way we operate here. [Laughter.]
    Mr. Carr.--we can. The great insurance policy that Congress 
has--security blanket that you've placed over retention is the 
construction of our pay table. For military pay, from 1999, 
it's gone up 57 percent, compared to 42 percent in the private 
sector. That's insurance, and I think that's stabilized our 
retention.
    Senator Begich. Gave you the flexibility?
    Mr. Carr. Say again, sir?
    Senator Begich. Gives you the flexibility to sort of----
    Mr. Carr. It gives us a baseline stability, so that we 
don't have to chase the tweaks, and we're not trying 
everything.
    Senator Begich. Gotcha.
    Mr. Carr. So, that baseline stability keeps things settled 
so that where we do have to chase will be relatively few in 
number and we can do that better.
    Senator Begich. Let me ask you one last question. This is 
on base housing and allocations. When you do your studies--and 
I'll just be very parochial here--in Alaska--and when you've 
done your studies, the most recent one, you based part of the 
study, obviously, on vacancies. The timetable you did it was in 
the summer in Alaska, which has very low vacancies. What's left 
is--to be very frank with you, as someone who's been in the 
real estate business for almost 25 years now, it's low quality. 
So, it's not a real market condition.
    On top of that, through the winter here, our utility rates 
have gone significantly up, for a variety of reasons. We have a 
problem with gas supply in South Central. By 2015, we 
anticipate a shortage of gas which is a predominant utility for 
heating which also generates our electricity. So, that has 
spiked. There was a slight decrease, but overall, it's spiked 
in the winter, and probably will stay that way, as well as--
other utility costs have gone up.
    You don't have to answer this right here, because it's very 
Alaskan perspective--I'm just trying to understand how we 
ensure that these soldiers aren't pulling money out of their 
pocket to survive in their housing when--because the formula we 
used was just the wrong timing. In other words, for us, summer 
was probably not the best time to do it. Then the winter set in 
some heavy rate increases.
    Mr. Carr. Whenever an artificiality is introduced that 
serves to the disadvantage, then we have to look to what change 
we're going to do to make that good.
    Senator Begich. Would you be willing to look at this for 
us?
    Mr. Carr. I will.
    Senator Begich. It might be other States having the same 
problem, but for us, just because the way our energy costs are 
there, the higher cost, but also the transient and summertime 
business, we do really fill our apartments up. Then what's 
left, really, is a very low quality. I'm sure I'm going to hear 
from my friends in the rental business that will say, ``Our 
property isn't low quality.'' But, I'm just telling you, after 
25 years in the business, I know.
    Mr. Carr. Sir, I'd be eager to do that.
    [The information referred to follows:]

    The Department contracts Runzheimer, International, an industry 
leader in cost-of-living data collection and analysis, to collect 
housing cost data used in the setting of Basic Allowance for Housing 
(BAH) rates. Runzheimer obtains rental cost data from properties 
selected by the local Military Housing Offices (MHOs), as well as 
properties found in local newspapers, apartment guides, and from local 
real estate professionals.
    The MHOs are directed to provide housing to be priced which is both 
adequate and in safe and secure areas. Unacceptable, low quality 
housing is not included for BAH rate-setting purposes. Rental data are 
collected for a variety of housing types, from April through August. 
Pricing during this period ensures that rents are collected and 
documented during the high demand seasons, when rents are highest.
    Runzheimer collects utility cost data from the American Community 
Survey over a 12-month period. Since the expenses are collected 
throughout the year, highs and lows in seasonal energy costs are 
captured. Housing cost data in the form of rent, utilities, and 
renter's insurance are collected in each military housing area for the 
50 States and the District of Columbia.
    However, if members rent above their median and/or above their 
housing profile, they will have out-of-pocket expenses as BAH is not 
intended to cover every member's total housing costs.

    Senator Begich. Okay. That'd be great.
    Mr. Chairman, I'll leave it at that.
    I really wanted to ask him one question, but I know they 
can't answer it, and that is--because I deal with personnel--
it's been bugging me ever since I heard it--and that is the 
personnel pay system, which I won't bother you with, because I 
know it's out of your realm. But, how we spent half a billion 
dollars and got minimal utilization out of it. But that's 
another question for another day, unless you want to dive into 
that. I don't want to torture you with that issue. But, I think 
we have to figure out how, when we pay our personnel in the 
military, that the complaint levels go down. I know there was a 
great attempt by DOD to solve this problem. But, a huge amount 
of expenditure was laid out with minimal utilization. I know 
there'll be efforts to try to utilize all that information. 
But, it's half a billion-plus in expenditure.
    Someone who's been a former mayor, it can't be that 
complicated. We had police and fire. I'll tell you, that's 
complicated pay scales. For everything they do, from breathing 
to walking onto the soil of a crime scene, there's different 
pay levels you have to incorporate within that 2-week pay 
period. We were able to do it, and every local government does 
it. Why the military couldn't figure this out is beyond me. 
But, you don't have to answer. It's just a rant I just went on, 
and I apologize.
    Thank you, Mr. Chairman.
    Senator Webb. Well, sir, I'd be happy to have a further 
discussion with you about that. If you like, we can put 
together a question that could be sent over to Mr. Carr.
    Senator Begich. That'd be great.
    Senator Webb. Perhaps we could clarify where your concern 
is here.
    Senator Begich. I will do that. We'll work on it and give 
it to you, Mr. Chairman.
    I want to make sure when we spend that kind of money to 
revamp the personnel pay system, that we do it. I just got 
frustrated when I heard at a big committee meeting that it just 
was scrapped. It's hard to explain to taxpayers when you scrap 
a half-a-billion-dollar program.
    Senator Webb. Let's run down where the direction of the 
question would go, and I'll submit it.
    Senator Begich. Thank you, Mr. Chairman.
    Thank you all for being here. Thank you for letting me come 
in late here to give you my two bits.
    Thank you, sir.
    Senator Webb. Thank you, Senator Begich.
    Mr. Carr, I want to ask you a question that is not directly 
related to the hearing today, but you're a target of 
opportunity here, obviously, because it's within your 
jurisdiction and it is within the jurisdiction of the 
committee. I'm trying to get a better overall picture of how 
DOD has evolved over the years. This is a small area, but it's 
something I want to get a clear understanding of.
    When I was on Active Duty, there were 3 million people on 
Active Duty. When I was in the Pentagon, I think there were 
2.14 million. Today, there's about 1.4 million, with, 
obviously, the greatly expanded participation of the Guard and 
Reserve, which I was responsible as Assistant Secretary, for 3 
years, at one point.
    I would appreciate it if you could get me a--on that 
timeline--so, let's say, 1970, 1986, and today--how many 
generals and admirals, by Service and by rank, there were, and 
are, in the United States military. I would think the number--
from what I'm looking at, the number is well more than it was 
when I was in the Pentagon in the 1980s. I would like to better 
educate myself as to what these responsibilities are--where 
these people are now being used in flag billets, with the 
smaller number of people on Active Duty, and also flag levels 
in the Guard and Reserve, in a separate category. I would hope 
that would be pretty easy to put together.
    Mr. Carr. It is, sir.
    [The information referred to follows:]

    I would like to submit for the record the requested General and 
Flag Officer (GFO) ratios for the Active component and the Reserve 
components. Please note that between 1970 and 2000, Active component 
end strength was reduced at a greater rate than the pace of GFOs (55 
percent versus 34 percent). Between 2000 and 2010, Active component end 
strength grew at a slower rate than the number of GFOs (3 percent 
versus 8 percent). This increase in GFOs was largely due to recent 
reforms (2009 and 2010 National Defense Authorization Acts) passed by 
Congress to address joint warfighting requirements. Only a handful of 
in-service authorizations were created during this period and the 
majority were specific to the acquisition community.
    The best methodology for confirming fidelity of the proper number 
of GFO has been the subject of numerous debates. Since World War II, 
there have been 10 documented special studies or reviews of GFO 
requirements. Each used a distinct methodology and ALL recommended 
increases beyond the statutory authority. The use of ratios does not 
offer sufficient fidelity in explaining changes in mission requirements 
of the institution. As a rudimentary example, the deployment of five 
Army brigades (led by a colonel) instead of eight brigades may well 
require the same number of general officers in the parent headquarters. 
This in turn produces a corresponding shift in GFO requirements.
    In 2006, the Department evaluated a number of different ratios to 
include: total Active Duty, officer only, senior leader (SES and GFO), 
capital assets, and joint participation. Each was ultimately considered 
inferior in determining the appropriate number of GFO authorizations. 
This information is detailed in a report to Congress titled, ``General 
and Flag Officer Strategic Review,'' which was the impetus for the 
statutory changes that led to the current structure and number of GFOs. 
On the opposite end of the spectrum is a methodology that involves a 
position-by-position review. The last external study of this type was 
completed in 2003, when the Department undertook a review of all 
general and flag officer billets. This study validated 1,039 Active 
Duty and 591 Reserve GFO requirements, which significantly exceeded the 
statutory limit at the time of 889 Active Duty and 422 Reserve GFO 
authorizations.
    A similar position-by-position internal review was conducted in 
2008, to inform the previously mentioned legislative reforms. This 
review was documented in the previously referenced report to Congress, 
``General and Flag Officer Strategic Review.'' This report specifically 
addressed GFO requirements and the methodologies used to identify the 
appropriate number of GFOs authorized. The resulting legislation 
institutionalized joint GFO positions for the first time in the history 
of the Department, and resulted in joint restricted GFO authorizations. 
The in-service GFO authorizations were reduced by more than 25 percent 
to compensate for these authorizations. A nominal increase did occur 
which elevated the number of joint GFO positions filled from 231 to 
294, allowing the Department to meet joint warfighting demands. This, 
in turn, greatly reduces the need for use of the available emergency 
authorities.

    Senator Webb. Anecdotally, when I was doing a lot of work 
in NATO for Secretary Weinberger, when I was ASD, I came across 
the number--the British Army, in the 1980s, had 145,000 people 
on Active Duty. My recollection is, I think they had 321 
generals. I came back to Al Gray, who was the Commandant, and I 
said, ``We have 200,000 people in the Marine Corps, and we have 
67 generals. What's going on?'' Al Gray made a very famous 
comment. He said, ``Well, they have more bands.'' [Laughter.]
    Mr. Carr. That's not bad.
    Senator Webb. He may not want to have that comment recycled 
today. But, let's just--I'd just like to get an idea of what 
we're doing on the GFOs.
    Mr. Carr. We'll follow up with you, sir.
    Senator Webb. I appreciate all of your coming in to be with 
us today. I think it's really helped. This information will get 
recycled to other Members of Congress sent out for it to 
increase the understanding of these programs.
    I think there should be no doubt in anybody's mind that we 
are very committed to making sure that our military people are 
well compensated. We know how hard they work. We know what 
they're doing. We appreciate it. We will make sure that we 
retain the quality and the expertise of our military, to keep 
them the finest military in the world.
    Thank you very much.
    We are adjourned.
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jim Webb
   education of the value of the total military compensation package
    1. Senator Webb. Mr. Carr, in its report, the Government 
Accountability Office (GAO) discussed the importance of understanding 
the value of the servicemembers' total compensation package and how 
this understanding can be used as a recruiting and retention tool. GAO 
has recommended in the past that the Department of Defense (DOD) 
develop a comprehensive communication and education plan to inform 
servicemembers, recruits, and their families of the value of their pays 
and benefits. Meanwhile, in the 2010 National Defense Authorization Act 
(NDAA), Congress required DOD to establish a comprehensive Web site 
that would allow servicemembers and their families to learn the value 
of their benefits, including survivor and retirement benefits. What 
steps has DOD taken to provide comprehensive education on the value of 
pay and benefits to servicemembers and their families, including the 
value of such benefits as health care, commissary and exchange 
benefits, and child care benefits?
    Mr. Carr. DOD and the Military Services have substantive efforts 
underway, and continue to seek new and responsive mechanisms to educate 
their servicemembers and families on their earned benefits. Efforts 
include a variety of communication formats including: handbooks and 
guides such as the Wounded Warrior Pay and Entitlements Handbook, the 
Guard and Reserve Family Member Benefits Guide, the Mobilization 
Information and Resources Guide, and annual statements of military 
compensation. Furthermore, DOD and the Military Services continue 
providing numerous educational classes and facilitating online 
resources to help raise awareness of these benefits so that 
servicemembers can take full advantage of them. The portal, 
MilitaryOneSource.com, is a comprehensive Web site that provides 
servicemembers a wealth of information about many topics, including pay 
and benefits. This Web site is also linked to each of the Service Web 
sites that provide additional information. For example, My Army 
Benefits (http://myarmybenefits.us.army.mil), one of many resources 
offered by the Military Services about benefits, educates soldiers and 
their families about the wide variety of educational pay and 
compensation and other benefits available to them, even allowing them 
to calculate their pay while on deployment. The Navy's Pay and 
Compensation Calculator at the Stay Navy Web site (https://
staynavytools.bol.navy.mil/PCC/?B3=Launch+Calculator) allows sailors to 
input their current pay and benefits to see how these compare to those 
in the civilian world, showing what a comparable salary would be 
outside the military to be able to enjoy the same benefits, services, 
and standard of living.

 use of employment cost index as benchmark index for military basic pay
    2. Senator Webb. Dr. Murray and Ms. Farrell, in Dr. Murray's 
prepared statement, she stated that using the Employment Cost Index 
(ECI) as the benchmark index for annual military pay raises had its 
limitations, since it measured a population that tended to be older and 
college-educated, a population whose pay has increased more rapidly 
over the past decade than younger high school graduates. Is the ECI an 
appropriate index to use to adjust military basic pay rates annually? 
If not, is there a benchmark that is more appropriate?
    Dr. Murray. Despite its limitations, the ECI provides lawmakers 
with a reasonable benchmark of the growth in civilian wages and 
salaries upon which to evaluate the basic pay raise in a particular 
year. Because of its limitations, however, the decision about the basic 
pay raise can be better informed by supplementing that benchmark with 
data regarding recent recruiting and retention trends, changes in 
noncash benefits, and assessments of how the housing and subsistence 
allowances may change.
    Ms. Farrell. In our April 1, 2010 report,\2\ we noted that using 
the ECI for the purpose of determining the amount of the annual basic 
pay raise for servicemember has both strengths and weaknesses, but is 
generally reasonable to use to adjust such pay annually. It should also 
be noted that basic pay is just one component of the total military 
compensation package. In addition to basic pay, servicemembers also 
receive allowances, tax advantages, as well as deferred and in-kind 
compensation.
---------------------------------------------------------------------------
    \2\ GAO, Military Personnel: Military and Civilian Pay Comparisons 
Present Challenges and Are One of Many Tools in Assessing Compensation, 
GAO-10-661R (Washington, DC: Apr. 1, 2010).
---------------------------------------------------------------------------
    The ECI is a measure of changes in wages and employer costs for 
employee benefits. Created in the mid-1970s, the ECI is published 
quarterly by the Bureau of Labor Statistics and is part of the bureau's 
National Compensation Survey program, which provides measures of 
occupational wages, employment cost trends, and benefit incidence and 
detailed plan provisions. Organizations use the ECI to inform their 
decisionmaking in a variety of ways--including adjusting their wage 
rates to keep pace with what their competitors pay or to adjust wage 
rates in collective bargaining agreements. In addition, the Federal 
Government uses the ECI to inform its decisionmaking. For example, 
Congress included a provision in the NDAA for Fiscal Year 2004 tying 
the annual basic pay raise for military personnel to the ECI.\3\ The 
law contains a provision allowing the President to propose alternative 
pay adjustments to Congress, in certain circumstances, if the President 
deems the standard increase required by the law to be inappropriate.
---------------------------------------------------------------------------
    \3\ Pub. L. No. 108-136, Sec. 602 (2003), codified at 37 U.S.C. 
Sec. 1009. Specifically, the law requires that all eligible 
servicemembers' monthly basic pay be increased annually by the annual 
percentage increase in the ECI, except for in fiscal years 2004, 2005, 
and 2006 when the law required that servicemembers' basic pay increase 
be equal to the annual percentage increase in the ECI, plus an 
additional one-half percentage point.
---------------------------------------------------------------------------
    As noted, our recent work \4\ has found that using the ECI to 
adjust military basic pay annually has both strengths and weaknesses. 
For example, its strengths include the following: the ECI is a 
nationally representative measure of labor costs for the civilian 
economy; it is also produced in a consistent fashion,\5\ using a 
transparent methodology; and it provides separate data series for 
different occupational groups, industries, and geographic areas. With 
regard to its weaknesses, the ECI is not tailored to the specific 
segments of the civilian economy most relevant to the DOD--for example, 
those occupations and industries that the Military Services primarily 
compete with for workers. Also, because the ECI is constructed from 
data collected from surveys of employers, it does not provide data 
about the demographics of the civilian workforce--such as workers' 
education and experience, both of which are important factors that are 
often taken into account when setting employee pay. Nevertheless, we, 
as well as the Congressional Budget Office (CBO),\6\ have previously 
reported \7\ on the challenges of creating more tailored indexes. 
Further, none of the experts with whom we consulted, nor any reports 
published by other organizations that we reviewed during the course of 
our review, suggested that any other existing indexes or data series 
would provide more useful data than those provided by the ECI.
---------------------------------------------------------------------------
    \4\ GAO-10-561R.
    \5\ We do note, however, that adjustments to the methodology have 
been made from time to time. For example, in 2006 the Bureau of Labor 
Statistics changed the way the ECI classified industries and 
occupations to reflect new industry and occupational classification 
systems and rebased the index, among other changes.
    \6\ Congressional Budget Office, Evaluating Military Compensation 
(Washington, DC: June 2007),
    \7\ GAO-10-561R; GAO, Poverty Measurement: Adjusting for Geographic 
Cost-of-Living Difference, GAO/GGD-95-64 (Washington, DC: March 9, 
1995); and GAO, Developing a Consumer Price Index for the Elderly, GAO/
T-GGD-87-22 (Washington, DC: June 29, 1987).
---------------------------------------------------------------------------
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                          thrift savings plan
    3. Senator Burris. Mr. Carr and Dr. Hosek, one benefit that the 
military offers is the Thrift Savings Plan (TSP). However, the military 
does not match contributions to the TSP, even though they are 
authorized to. What is the reason for this and are there plans to 
implement this benefit in the future?
    Mr. Carr. The Department currently has no plans to provide military 
members with matching TSP contributions. There are two reasons for 
this. First, unlike the circumstance for Federal employees under the 
Federal Employee Retirement System (FERS), TSP for military members 
represents an added vehicle for long-term savings, it is not a 
fundamental component of their retirement plan. Thus, matching 
contributions do not fulfill the same purpose as they do for civilians. 
Second, independent studies by RAND and the Center for Naval Analyses 
(CNA) indicate that matching contributions are not effective recruiting 
and retention tools and have a sizable estimated annual cost--$840 
million to $2.8 billion.
    For a military member, the government provides a defined benefit 
retirement plan that is more generous than FERS and is fully funded by 
the government. Unlike the civilian employee under FERS, the military 
member does not contribute to the defined benefit plan and receives 
monthly retired pay immediately upon retirement, but at an earlier age 
with many prime working years ahead.
    Dr. Hosek. I do not know the reason the military does not match 
contributions to the TSP and do not know of plans, if any, regarding 
the implementation of TSP in the future. The NDAA 2000 extended TSP to 
the military and provided for service matching of individual 
contributions. Individual contributions can be 1 to 100 percent of 
basic pay, and 1 to 100 percent of any special or incentive pay 
provided that contributions are also made from basic pay. Total 
contributions must be no more than a stated maximum, e.g., $15,500 in 
2007. According to the Defense Finance and Accounting Service (http://
www.dfas.mil/militarypay/thriftsavingsplantsp/contributionbasics.html), 
NDAA 2000 also allowed uniformed Services to designate critical 
specialties for matching contributions--although no Services have 
chosen to do so. The law stated that servicemembers in these 
specialties must agree to serve on Active Duty for 6 years as a 
condition of eligibility for matching. If eligible, the member may 
receive a Service match dollar-for-dollar on the first 3 percent of 
basic pay contributed and 50 cents per dollar of contribution on the 
next 2 percent of pay, per period. The military TSP is an offshoot of 
the TSP for Federal civilian workers established in 1986. According to 
the Social Security Administration (SSA) (http://www.ssa.gov/policy/
docs/ssb/v63n1/v63n1p34.pdf), employees under the FERS may contribute 
up to 10 percent of their earnings, with Federal Government matching up 
to 5 percent. Also, the Federal Government makes a 1 percent 
contribution to TSP regardless of whether the employee contributes. 
Civil Service Retirement System (CSRS) participants may contribute up 
to 5 percent of their earnings and do not receive any matching. SSA 
reports the following participation rates in the 1990s in TSP by 
income: $10,000 to $19,999, 57 percent; $20,000 to $29,999, 78 percent; 
$30,000 to $39,999, 90 percent; $40,000 to $49,999, 90 percent; and 
$50,000 or more, 96 percent. (These participation rates exclude the 
automatic 1 percent contribution made by the Federal Government for 
employees under FERS.)
    Drawing together some of the above information, I speculate that 
the willingness of Services to match contributions is limited by the 
cost and resources required to administer the matching program for a 
target population of eligible servicemembers that is likely to be 
small. Small, because the members must be in a critical specialty and 
must agree to an Active Duty service obligation of 6 years. These 
eligibility requirements may also be relevant to speculation about the 
recruiting and retention effects of matching. From the perspective of a 
servicemember or a would-be recruit, both the chance of being in a 
specialty designated as critical and the willingness to sign up for 6 
years might be low.
    Obligations of 3 or 4 years are common, but 6-year obligations are 
much less common. Enlistment and reenlistment might not increase much 
in response to the Federal match. The value of the Federal match will 
depend on how much the individual contributes, and it is likely that 
lower income, younger servicemembers would choose not to participate in 
TSP--and hence put a zero value on possible Service match 
contributions--or would participate but contribute a small amount. To 
put this in perspective, a one-step increase in a reenlistment bonus is 
worth roughly $4,000 to a soldier at first-term reenlistment and, we 
estimate, would increase the reenlistment rate in the specialty 
offering the bonus by 2 to 3 percentage points. Suppose the soldier is 
willing to contribute 3 percent of basic pay plus bonus to TSP, for a 
contribution of about $1,000. The match on this would be $1,000 for a 
total contribution of $2,000, and this would produce an effect on 
reenlistment of perhaps 1 to 1.5 percentage points. The effect could be 
smaller because once the money is contributed there is a penalty for 
withdrawing it early (withdrawals are not tax sheltered), so the money 
is not as liquid as, say, money in a savings account. The individual 
might alternatively consider contributing to a Roth IRA, which does not 
entail a service obligation but has no matching.
    From a longer perspective, the expansion of TSP matching to all 
servicemembers rather than only those in designated specialties would 
be a way, if desired, to alter the nature of the military retirement 
system. It is currently a cliff-vested system with vesting at 20 years. 
Most enlistment members, about 85 percent, do not qualify for military 
retirement benefits and leave the military with no vested pension 
contributions apart from the Social Security contributions made on 
their behalf by DOD. About half of military officers do qualify for 
military retirement benefits. The cliff-vesting system creates a strong 
incentive to remain in the military after completing 10 or so years of 
service, and immediate eligibility to receive retirement benefits upon 
vesting creates an incentive to leave military service. As is well 
known, these incentives cause high retention in the 10 to 20 year of 
service range and a noticeable drop in retention around the 20-year 
point. Depending on how it was done, expanding TSP to make 
participation and matching universal could induce more servicemembers 
to stay in service longer on average than they do today and would 
provide all who complete some minimum number of years of service with 
vested TSP retirement benefits. However, this increase in mid-career 
retention might result in too many heading for 20 years under the 
current military retirement benefit system, and to control this 
increase there would probably have to be changes in the regular 
military retirement system to decrease its generosity or greater use of 
separation pay. Issues like these were considered by the 10th QRMC.

    4. Senator Burris. Mr. Carr and Dr. Hosek, in your opinion, would 
matching TSP contributions be an effective recruiting or retention 
tool?
    Mr. Carr. The Department is not convinced providing matching TSP 
contributions would be an effective recruiting or retention tool.
    RAND analyzed a recent Army pilot program offering new, non-prior 
service enlistees matching TSP contributions as an incentive to enlist 
for longer terms or into critical military occupational specialties 
(MOS).
    In the study, there was little evidence that the availability of 
TSP matching contributions increased the likelihood that a soldier 
would select an MOS eligible for the TSP matching contribution program 
as compared to an MOS not eligible for the program. There was some 
evidence that suggested the availability of TSP matching contributions 
may have resulted in longer-term enlistments, however, a number of 
other factors, such as larger enlistment bonuses easily could have 
accounted for this increase. Overall, the Army pilot program achieved 
minimal success, and the cost to provide matching contributions as an 
incentive did not achieve the desired results.
    The Center for Naval Analyses (CNA) also studied the impact on 
retention of providing matching TSP contributions, using discount rate 
analysis. The study identified that providing these matching TSP 
contributions would appeal most to members seeking short-term savings. 
A member who receives a poor performance report would be likely to save 
the maximum amount necessary to receive a full matching contribution in 
anticipation of leaving the military. The TSP matching contributions 
are an incentive to those more likely to leave the military rather than 
stay.
    Dr. Hosek. I would expect the effect of matching TSP contributions 
on recruiting and retention to be small if matching were limited to 
critical specialties and required a 6-year obligation. The effects 
could be much larger if TSP--with matching were universally available 
to servicemembers. Universal TSP with matching and with a required 
service obligation of 6 years--the current obligation--or perhaps 
longer, say 8 or 10 years, could be expected to increase the average 
number of years of service. The effect on recruiting might be small 
because many potential recruits would not be sure they wanted to be in 
the military long enough to vest their TSP match.

           post-deployment and mobilization respite allowance
    5. Senator Burris. Mr. Carr, the Army has a detailed plan for 
payment to all National Guard soldiers who are eligible for 
compensation under the Post Deployment and Mobilization Respite 
Allowance (PDMRA). The Army Deputy Chief of Staff, G-1, is responsible 
for this action and already has the Army National Guard's preliminary 
list of 6,865 eligible individuals. There is a projection of up to 
15,000 Reserve component personnel who may be eligible. The Army 
anticipates that the majority of claims will be paid by March 19, 2010. 
The Secretary of the Army has directed the immediate flow of certified 
portions of the eligible list to the Defense Finance Accounting System 
(DFAS) as soon as they are ready. How many of the projected 15,000 
Reserve component personnel have yet to receive their PDMRA?
    Mr. Carr. As of May 18, 2010, the Army has paid 7,655 soldiers a 
total of $30,717,800 for 153,092 PDMRA days. If the projected estimate 
of 15,000 is accurate, there are approximately 7,345 soldiers still 
eligible to be paid.

                            reserve affairs
    6. Senator Burris. Mr. Carr, in 2001, the Office of the DOD Office 
of Reserve Affairs, in a report for the 2001 Quadrennial Defense Review 
(QDR), outlined a new approach to military service as a continuum 
between full-time duty and service for only a few days a year. The 
report suggested ``a new availability and service paradigm--referred to 
here as a continuum of service--that provides individual servicemembers 
greater flexibility in becoming involved in and supporting the 
Department's mission. In turn, DOD would have greater flexibility in 
accessing the variety of skills required to meet its evolving 
requirements.'' How many Reserve component personnel are affected by 
this policy and what are the projected costs?
    Mr. Carr. The continuum of service concept applies to all military 
servicemembers in the Active component (1.4 million) and the Reserve 
components (851,000 Selected Reservists and 218,000 Individual Ready 
Reservists).
    A comprehensive cost analysis of this policy has not been 
completed. However, the real issue is access to servicemembers and 
reducing the barriers that impede the seamless movement of Total Force 
members between Active and Reserve components. The continuum of service 
capitalizes on the operational experience of the Active, Guard, and 
Reserve components and enhances a return on our training and education 
investment. It creates a system of Reserve component service that 
continues to effectively use each individual's abilities throughout 
their career. Making the best use of our military talent pool, 
particularly in an era of increasingly constrained resources, 
translates to a more capable force at a lower cost.

    7. Senator Burris. Mr. Carr, how does DOD plan to implement the 
continuum of service policy?
    Mr. Carr. The Joint Service Continuum of Service Working Group was 
established to identify and eliminate barriers to fielding capabilities 
by providing seamless transition between Total Force components (Active 
component, Reserve component, and civilians) to fill the Nation's 
requirements. Coordinated actions between Services result in retention 
of experienced and trained individuals and eliminate barriers that 
prevent transition between differing service commitments and between 
military and civilian service.
    The Working Group is addressing the reform of military personnel 
records information management, to include a review of the types of 
information (such as waivers and law enforcement infractions) that 
should be maintained throughout servicemembers' careers. It is also 
addressing the life-cycle management of medical records. The Working 
Group continues to work with the Services on improving the seamless 
transition between the Active and Reserve components.

    8. Senator Burris. Mr. Carr, how does policy support the plan to 
operationalize the Reserve component?
    Mr. Carr. The current policy, DOD Directive 1200.17, establishes 
the overarching set of principles and policies to promote and support 
the management of the Reserve components (RC) as an operational force. 
It outlines the major stakeholders' responsibilities and defines terms 
of reference necessary to accomplish those responsibilities. This 
policy also defines the duration and frequency for orders to Active 
Duty and implements the train-mobilize-deploy model that ensures our 
servicemembers are mission-ready yet able to balance the needs of their 
families, civilian careers, and periodic military service.
    The 2010 QDR also included several themes that support an 
Operational Reserve force. It stressed that RC forces will be required 
to serve in an operational capacity through predictable deployments in 
order to prevail in today's wars and also to fulfill requirements for 
which they are well-suited in the future. In the QDR, the Department 
committed to meeting expectations of National Guard and Reserve men and 
women to periodically serve on Active Duty, be judiciously used, given 
meaningful work to do and provided the right training and equipment to 
complete the mission. It also recognized that using the RC in this way 
will lower overall personnel and operating costs and contribute to the 
sustainability of the Active and Reserve components. Lastly, the QDR 
acknowledged the untapped capability and capacity of the RC and called 
for a comprehensive review of the future role of the RC, to include an 
examination of the balance between Active and Reserve Forces. We 
anticipate the findings from this review will generate recommendations 
for further law, policy, and doctrinal adjustments.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
               sufficiency of pay raise and the pay table
    9. Senator Graham. Mr. Carr, Ms. Farrell, Dr. Murray, and Dr. 
Hosek, the proposed pay raise for fiscal year 2011 is 1.4 percent, but 
this matches last year's rise in the ECI. Increasing this percentage 
would cost an additional $350 million in fiscal year 2011, and much 
more over time, as you have all noted in your testimony. Please explain 
what the impact on the DOD budget would be if Congress directed an 
increase in the pay raise by 1 percent, or half a percent without 
offsets.
    Mr. Carr. Increasing the military pay raise by an additional 1 
percent would cost approximately $680 million for the fiscal year 2011 
base budget and increase fiscal year 2011 Overseas Contingency 
Operation costs by another $60 million. If funding was provided without 
offsets, there would be no impact on DOD's fiscal year 2011 budget. 
However, there would be significant impact on the Defense budget in 
fiscal year 2012 and every year thereafter as the pay raise increase 
continues to compound and crowd out funding for other critical DOD 
programs within a fiscally constrained environment.
    For example, because the pay raise occurs on January 1st each year, 
the $680 million in fiscal year 2011 represents the cost for only 9 
months. Therefore in fiscal year 2012, the full 12-month impact of the 
1 percent increase is over $900 million.
    Ms. Farrell. Any increase in basic pay--whether it is equivalent to 
the ECI or some percentage above the ECI--results in additional near-
term and long-term costs to compensate servicemembers. The NDAA for 
Fiscal Year 2004\8\ included a provision tying the annual basic pay 
raise to the annual percentage increase in the ECI and, for fiscal 
years 2004, 2005, and 2006, the law required that servicemembers' basic 
pay increase be equal to the annual percentage increase in the ECI plus 
an additional one-half percentage point. That law also contains a 
provision allowing the President to propose alternative pay adjustments 
to Congress, in certain circumstances, if the President deems the 
standard increase required by the law to be inappropriate. For fiscal 
year 2011, the President and DOD have requested a 1.4 percent increase, 
which is equivalent to the percentage increase in the ECI.
---------------------------------------------------------------------------
    \8\ Pub. L No 108-136, Sec. 602 (2003), codified at 37 U.S.C. 
Sec. 1009.
---------------------------------------------------------------------------
    In recent years, the additional one-half percentage point has been 
added in order to reduce a perceived gap between military and private-
sector pay. However, as our recent work comparing military and civilian 
compensation asserts, we do not believe that comparing changes in the 
ECI with changes in the rates of basic pay shows there is a difference, 
or pay gap, between the two, or that such comparisons facilitates the 
assessment of how military pay rates compare with what civilian 
employers provide. In our view, and as officials at CBO noted,\9\ such 
a comparison does not reveal a pay gap because, among other reasons, it 
assumes that basic pay is the only component of military compensation 
that should be compared with changes in civilian pay. While basic pay 
represents the largest portion of military compensation, servicemembers 
may also receive allowances for housing and subsistence. By excluding 
these allowances, comparing changes in the ECI with changes in the 
rates of basic pay simply illustrates how a portion of military 
compensation--basic pay--has changed over time.
---------------------------------------------------------------------------
    \9\ Congressional Budget Office, Statement of Carla Tighe Murray: 
Evaluating Military Compensation, CBO (Washington, DC, Apr. 28, 2010); 
CBO, Evaluating Military Compensation (Washington, DC, June 2007); and 
CBO, What Does the Military ``Pay Gap'' Mean? (Washington, DC, June 
1999).
---------------------------------------------------------------------------
    Dr. Murray. CBO estimates that increasing the pay raise to 1.9 
percent, rather than the 1.4 percent requested by the President, would 
cost an additional $350 million in fiscal year 2011, assuming the pay 
raise took effect in January 1, 2011. In fiscal year 2012, DOD 
personnel costs would rise by $490 million, and by a total of about 
$2.4 billion between 2011-2015, CBO estimates. Increasing basic pay by 
2.4 percent would double the effect: it would raise DOD personnel costs 
(relative to a 1.4 percent pay raise) by about $700 million in fiscal 
year 2011 and by a total of about $4.7 billion between 2011-2015.
    Dr. Hosek. I defer to the others as they have developed models for 
such projections.

    10. Senator Graham. Mr. Carr, Ms. Farrell, Dr. Murray, and Dr. 
Hosek, is there a better metric than the ECI to gauge what an annual 
pay raise should be?
    Mr. Carr. The Department believes the ECI provided by the Bureau of 
Labor Statistics is the appropriate metric to gauge the annual 
adjustment to basic pay. This index measures the change in the cost of 
labor in the United States, free from the influence of employment 
shifts among occupations and industries. It is national in scope and, 
like the military, covers a full spectrum of occupations. While some 
variations exist in comparing the military population with the 
population surveyed for the ECI, the ECI provides a broad, reliable, 
and statistically sound measure upon which to base the annual pay 
raise.
    The 11th Quadrennial Review of Military Compensation intends to 
review the adequacy of military basic pay and to compare pay to the 
portion of the civilian population with similar characteristics. 
Currently, the Department uses the ECI for measuring wage growth in the 
private sector. It is possible the 11th QRMC could identify a more 
tailored metric to gauge military pay raise. The 11th QRMC's 
recommendations are expected in May 2011.
    Ms. Farrell. As we have reported \10\ and as noted above, using the 
ECI for the purpose of determining the amount of the annual basic pay 
raise for servicemembers has both strengths and weaknesses but is 
generally reasonable to use to adjust such pay annually. It should also 
be noted that basic pay is just one component of the total military 
compensation package. In addition to basic pay, servicemembers also 
receive allowances, tax advantages, as well as deferred and in-kind 
compensation.
---------------------------------------------------------------------------
    \10\ GAO-10-561R.
---------------------------------------------------------------------------
    The ECI is a nationally representative measure of labor costs for 
the civilian economy and is used by businesses and other organizations 
to, among other things, adjust wage rates to keep pace with 
competitors. In our view, using the ECI to determine the amount of the 
annual basic pay raise has both strengths and weaknesses, but it is 
generally reasonable to use it to adjust basic pay annually. As 
mentioned earlier, the strengths include the following: the ECI is a 
nationally representative measure of labor costs for the civilian 
economy; it is produced in a consistent fashion,\11\ using a 
transparent methodology; and it provides separate data series for 
different occupational groups, industries, and geographic areas. 
However, the ECI is not tailored to the specific segments of the 
civilian economy most relevant to DOD--for example, those occupations 
and industries that the Military Services primarily compete with for 
workers. Also, because the ECI is constructed from data collected from 
surveys of employers, it does not provide data about the demographics 
of the civilian workforce--such as workers' education and experience, 
both of which are important factors that are often taken into account 
when setting employee pay. Nevertheless, we, as well as CBO,\12\ have 
previously reported \13\ on the challenges of creating more tailored 
indexes. Further, none of the experts whom we consulted nor any reports 
published by other organizations that we reviewed during the course of 
our review suggested that any other existing indexes or data series 
would provide more useful data than those provided by the ECI.
---------------------------------------------------------------------------
    \11\ There are adjustments in the methodology from time to time. 
For example, in 2006 the Bureau of Labor Statistics changed the way the 
ECI classified industries and occupations to reflect new industry and 
occupational classification systems and rebased the index, among other 
changes.
    \12\ Congressional Budget Office, Statement of Carla Tighe Murray: 
Evaluating Military Compensation (Washington, DC, Apr. 28, 2010) and 
Evaluating Military Compensation (Washington, DC, June 2007).
    \13\ GAO-10-561R, GAO/GGD-95-64, and GAO/T-GGD-87-22.
---------------------------------------------------------------------------
    Dr. Murray. While the ECI does have some limitations, as discussed 
in the CBO testimony, it is a reasonable benchmark of the increase of 
civilian wages and salaries to use in evaluating the annual basic pay 
raise. Because it is only a benchmark, however, the decision of where 
to set the basic pay raise can also be informed by trends in recruiting 
and retention, recent changes in noncash benefits, and expected changes 
in housing and subsistence allowances.
    Dr. Hosek. The ECI is an objective, well-documented, frequently 
updated measure of employment cost growth in the U.S. economy. It is 
designed to be representative of nationwide employment. In earlier 
research (A Civilian Wage Index for Defense Manpower), my colleagues 
and I critiqued the ECI because it was not designed to be 
representative of the military population. This is important because 
wage trends for workers with age, education, race/ethnicity, gender, 
and occupations characteristics of enlisted and officer personnel are 
not the same as those of the general working population. The research 
proposed an index approach similar in character to that of the ECI but 
designed to be representative of the Active Duty military. The research 
found that over the 1982-1991 period military basic pay grew 11.8 
percent slower than the ECI but only 4.7 percent slower than our 
civilian wage index representative of the military. This is evidence 
that civilian wage trends do vary by worker age, education, et cetera, 
which implies that relying on a broad-gauge measure such as the ECI 
might give an inaccurate picture of whether military pay was keeping up 
with civilian pay. Further, the ECI is not always the best index to use 
in defining the military pay gap. A measure of military/civilian pay 
based on the ECI did a worse job of tracking recruiting and retention 
than one based on our representative index.
    No approach will be perfect. My sense in brief is: (a) continue to 
rely on the ECI, but (b) require that recruit quality and retention 
measures be reported and considered in tandem, and (c) conduct 
periodic--even annual--assessments of military pay using micro data to 
control for the factors mentioned above. The ECI is a convenient 
starting point for a discussion of annual pay raises but not the ending 
point. The fact that it is provided by the Bureau of Labor Statistics, 
an impeccable source that is independent of interest groups, is a 
genuine plus. However, discussions of military pay raises should 
include consideration of recruiting and retention as well as 
comparisons of military pay with the civilian wage distribution for 
workers with comparable characteristics to those of military members. 
CBO currently does such comparisons.

    11. Senator Graham. Mr. Carr, Ms. Farrell, Dr. Murray, and Dr. 
Hosek, several years ago, the Department proposed targeted changes to 
the pay in certain grades with certain longevity, which was designed to 
relieve pay compression, and provide greater incentives for promotion. 
Does the current pay table need adjustment?
    Mr. Carr. The Department believes the changes to the pay table over 
the past several years have achieved the objectives of relieving pay 
compression and providing greater compensation incentives for 
promotion. The current pay table does not need further adjustment in 
this regard.
    The 9th Quadrennial Review of Military Compensation (QRMC) 
evaluated military compensation and determined pay should be 
benchmarked against the 70th percentile of comparably educated 
civilians. In certain places within the basic pay table, basic pay fell 
below the 70th percentile. As a result, the 9th QRMC recommended and 
the Department implemented specific changes in the basic pay table to 
move those grades and years-of-service up to the 70th percentile. The 
9th QRMC recommendations also were designed to relieve pay compression 
and provide greater incentives for promotion.
    Since the review in 2006, we have reevaluated the basic pay table 
every 2 years and concluded military pay across-the-board continues to 
exceed the 70th percentile.
    Ms. Farrell. While we have not previously assessed whether the 
current pay table needs adjustment, we have for over 3 decades reported 
\14\ that the current military compensation package has been the result 
of piecemeal changes and adjustments over time and lacks overall 
guiding principles. Specifically, in 1979, we evaluated DOD's military 
compensation system and concluded that piecemeal adjustments and a lack 
of overall guiding principles of compensation were a problem in 
establishing a basis for evaluating changes to the total compensation 
system. More recently, in 2005, we noted that some of the same 
underlying problems that we identified in 1979--including a lack of 
explicit compensation principles and difficulty in making major changes 
to compensation--still existed.
---------------------------------------------------------------------------
    \14\ GAO, Military Personnel: DOD Needs to Improve the Transparency 
and Reassess the Reasonableness, Appropriateness, Affordability, and 
Sustainability of Its Military Compensation System, GAO-05-798 
(Washington, DC: July 19, 2005) and The Congress Should Act To 
Establish Military Compensation Principles, GAO/FPCD-79-11 (Washington, 
DC: May 9, 1979).
---------------------------------------------------------------------------
    In discussions with DOD, officials indicated that the Department 
previously adjusted the basic pay table in order to make pay at all 
ranks and years of service more in line with the 70th percentile--as 
recommended by the 9th QRMC 2004. That review recommended that regular 
military compensation be set to equal the 70th percentile of comparable 
civilian compensation. At that time, the Department found that for some 
ranks and years of service, compensation was close to the 70th 
percentile, but for other ranks and years of service it was not so 
close. As a result, according to DOD officials, the Department relied 
on targeted pay increases to raise the level of pay for certain ranks 
and years of service in the pay table from about the year 2000 through 
2005. However, according to one of these officials, 2005 was the first 
year in which pay for all ranks and years of service was increased in 
lockstep to bring pay more in line with the 70th percentile.
    Regarding targeted changes to pay, we have reported that across-
the-board pay increases fail to target resources where they are most 
needed and they affect a variety of other costs--such as retired pay. 
Rather, the targeted use of compensation--such as special pays and 
bonuses for particular occupational skills--tends to maximize limited 
resources and help make recruiting and retention gains in needed areas. 
Our prior work \15\ recognizes DOD's ability to use the more than 60 
different special and incentive pays--including reenlistment bonuses 
and hazardous duty pay, as well as other pays for specific duties like 
aviation and medical, and incentives for servicemembers to take certain 
assignments, among others. Because most compensation is determined by 
factors such as tenure, rank, location, and dependent status, these 
special pays and allowances are the primary monetary incentives DOD has 
for servicemembers other than promotions and are used to influence 
certain behaviors, such as extending a service contract or filling 
critical shortage occupations.
---------------------------------------------------------------------------
    \15\ GAO-10-666T, GAO-10-561R, Military Personnel: DOD Needs to 
Establish a Strategy and Improve Transparency over Reserve and National 
Guard Compensation to Manage Significant Growth in Cost, GAO-07-828 
(Washington, DC: June 20, 2007), and GAO-05-798.
---------------------------------------------------------------------------
    Dr. Murray. CBO has not studied this issue in depth. However, 
recent trends in recruiting and retention suggest that the current pay 
table, supplemented by DOD with bonuses where needed, is adequately 
compensating the force for the hardships of military life.
    Dr. Hosek. Targeted increases were done in several years beginning 
with NDAA for Fiscal Year 2000. I do not know whether the pay table 
needs further adjustment. One of the motivations for targeting was to 
ensure adequate incentives and rewards for individuals who showed high 
performance in the military but who, because of their talent and 
expertise, might also have excellent job opportunities in the civilian 
world. Targeted pay raises and relieving pay compression were steps 
toward helping the military keep highly capable members and future 
leaders. Entry characteristics such as education and AFQT are valid 
predictors of early retention, successful completion of initial 
training, and proficiency in performing mission essential tasks, but 
our research at RAND indicates that much of the information about a 
member's fit with the military and performance in the military is 
revealed in service, not at entry. It is important for the military to 
have an incentive structure that works to retain these individuals who 
have distinguished themselves. To determine whether the pay table needs 
further adjustment, it might be useful to study whether the military is 
doing better today, or at least as well as before, in keeping high 
performers.

                        effects of cliff vesting
    12. Senator Graham. Mr. Carr, Ms. Farrell, Dr. Murray, and Dr. 
Hosek, various study groups in recent years have questioned the wisdom 
of the military's traditional 20-year requirement to earn retired pay, 
suggesting that vesting at an earlier milestone in a career--say 10 
years--would more effectively help to achieve DOD's personnel goals. 
However, assuring retention of mid-level personnel beyond their first 
or second terms of service--especially in wartime--would seem to 
justify reliance on this approach. What do you think the effect of 
reducing the requirement for entitlement to retired pay below 20 years 
would be on the ability to retain the personnel we need in leadership 
positions in the Armed Forces?
    Mr. Carr. Reducing the requirement for retired pay entitlement 
below 20 years will have a pronounced impact on retention patterns. The 
20-year vesting requirement creates a strong incentive for personnel 
who have reached 10 to 12 years of service. As a result, the 20-year 
vesting requirement results in significantly greater retention of mid-
grade members than would otherwise occur. To increase retention and 
maintain the desired numbers of mid-grade personnel, the Department 
would need to provide substantial additional bonuses or incentive pays.
    The 20-year vesting also provides an equally strong incentive for 
those members who reach the 20-year threshold to leave. This has 
allowed the Department to minimize the use of involuntary separations 
and avoid the negative impact these separations would likely have on 
force morale. With significant portions of each 20-year cohort leaving 
every year, this ensures senior positions are available for rising 
junior personnel. Therefore, the Department does not support reducing 
the requirement for entitlement to retired pay below 20 years of 
service.
    Ms. Farrell. In the absence of any identified weaknesses in the 
overall recruiting and retention rates, it is difficult to determine if 
problems exist that would be best corrected through changes to the 
current retirement system. Further, our prior work \16\ has shown that 
benefits, especially deferred benefits like retirement, are a 
relatively inefficient way to influence recruiting and retention, as 
compared with cash pay. Efficiency, as defined by DOD, is the amount of 
military compensation--no higher or lower than necessary--that is 
required to fulfill the basic objective of attracting, retaining, and 
motivating the kinds and numbers of Active Duty servicemembers needed. 
However, the efficiency of some benefits is difficult to assess because 
the value that servicemembers place on them is different and highly 
individualized. Therefore, understanding the effect of reducing the 
vesting requirement below 20 years requires an understanding of how 
servicemembers value retirement benefits, in general. Because the 
current military retirement benefit is: (1) a defined benefit plan with 
a 20-year cliff vesting requirement; and (2) a promise of future 
retirement payments made over the remainder of the servicemember's 
lifetime, calculating the value today--the present value--is difficult. 
In calculating the present value of the retirement benefit, two factors 
are critically important: the probability of staying in the military 
until retirement and the discount rate used to calculate the present 
value of retirement.
---------------------------------------------------------------------------
    \16\ GAO-05-798.
---------------------------------------------------------------------------
    DOD's current retirement system is meant to create a strong 
incentive for military personnel who stay beyond 8 to 10 years to 
complete 20 years and leave soon thereafter. Specifically, under DOD's 
current retirement system, according to the Department's Office of the 
Actuary, only 15 percent of enlisted and 47 percent of officers become 
eligible to receive retirement under the current plan that requires 20 
years of service to vest.
    If a military career is viewed as a continuum, retention rates will 
typically rise just before the point at which servicemembers may vest, 
and will subsequently decline on the far side of that point. As noted, 
under the current retirement system, servicemembers vest after 20 years 
and may immediately retire. Thus, moving the vesting milestone from 20 
years to 10 years makes sense if the perceived challenge is getting 
people, who otherwise might have left after 5 years, to stay until 10 
years, and/or getting people to leave after 10 years. However, moving 
the vesting requirement would eliminate a major incentive for 
servicemembers with 10 years of service to stay on until 20 years. 
Therefore, retention rates of experienced servicemembers with 10 years 
of service or more may decline. Lastly, vesting servicemembers at 10 
years is likely to be less powerful in affecting behavior because the 
stakes are lower--specifically, a servicemember who leaves the Service 
at 9 years of service under 10-year vesting forfeits much less than 
someone who leaves after 19 years of service under 20-year vesting. 
However, these effects may differ based on the extent to which changes 
are made to the retirement system--for example, if changes are made 
solely to the vesting requirement but not to the number of years 
required to reach retirement eligibility. Another approach that would 
yield different results would maintain the immediate retirement 
standard at 20 years, but allow servicemembers to vest at an earlier 
point in their careers (e.g., 10 years) and make it a deferred vested 
benefit that servicemembers would receive at, for example, 65 years of 
age.
    It is important, however, to consider all potential effects \17\ of 
such a change. For example, reducing the requirement for vesting 
eligibility would potentially result in higher percentages of officers 
and enlisted servicemembers vesting and thus receiving a retirement 
pension, which could have significant cost implications for the 
Department in the future. Furthermore, the uniformed services are 
unlike nearly all other organizations in that: (1) they have closed 
personnel systems--that is, DOD relies almost exclusively on accession 
at the entry level (E-1 or 0-1), and on its higher-ranking members 
being retained and promoted from lower ranks; and (2) according to DOD, 
there is no private-sector labor market from which the military can 
hire for certain unique occupations--such as an infantry battalion 
commander. By contrast, most other organizations can and do hire from 
the outside at all levels. Thus, the failure to meet recruiting or 
retention goals at lower levels in a given year can have significant 
consequences for a Service's ability to produce experienced leaders for 
years to come.
---------------------------------------------------------------------------
    \17\ In 2005 and 2007, we provided Matters for Consideration that 
asked Congress to consider the long-term affordability and 
sustainability of any additional changes to pay and benefits for 
military personnel and veterans, including the long-term implications 
for the deficit and military readiness. Such a change to the current 
retirement system would most certainly have long-term implications for 
affordability and sustainability. See GAO-05-798 and GAO-07-828.
---------------------------------------------------------------------------
    Dr. Murray. Researchers generally agree that the relatively low 
value that young people place on deferred compensation, combined with 
the relatively low probability that a new recruit will stay for 20 
years, suggests that the recruiting and retention value of the current 
retirement system is lower than that of current cash compensation, 
particularly among those serving less than 10 years. However, the 
promise of retirement pay does encourage personnel who have already 
served for at least 10 years to remain for the full 20-year career; it 
also encourages them to leave soon after, even if they might have 
productively served DOD beyond that time. In addition, some researchers 
argue that DOD is reluctant to involuntarily separate those mid-
careerists, and instead treats them as though they have an implicit 
contract to stay for 20 years. Thus, the current system encourages some 
members to leave too soon, and it encourages others to stay too long. 
Changing the retirement system would alter the force profile, but the 
nature of the change, and the career incentives it would create, would 
depend on the specifics of the proposal.
    Dr. Hosek. The current military retirement system contains strong 
incentives to stay in an Active component until 20 years of service if 
a member has completed 10 or so years of service. The system also has 
strong incentives to leave after 20 years of service. Advantages of the 
system are that the incentives operate automatically; are well known to 
the servicemember and stable over time; are equitable in the sense that 
servicemembers (probably) perceive fairness in having the amount of 
benefit based on years of service and rank, which are well understood 
outcomes in a system with broadly equal ex ante opportunity for 
enlisted personnel and, separately, for officer personnel; and are 
largely independent of the size of the force, meaning that the force 
can be scaled up or down without affecting the servicemember's expected 
benefit so long as promotion opportunities and up-or-out rules remain 
the same. I list these aspects of the current system because each is 
relevant to the question of whether reducing the requirement for 
vesting to below 20 years would affect the ability to retain personnel 
needed in leadership positions.
    Reducing vesting to say, 10 years of service, is not the same as 
reducing the time at which retirement benefits may be drawn. Keeping 
all other features of the retirement system as they are now but 
reducing vesting will increase the value of staying until 10 years. 
This is because today, with vesting at 20 years, a member who leaves at 
10 years has a zero value of retirement benefits, whereas under 10-year 
vesting the value would be positive. Vesting at 10 years therefore 
increases the incentive to stay to year 10 at least and so should 
increase retention to 10 years, and it also increases the incentive to 
enter service. However, because there is no longer a ``lock in'' effect 
to stay until 20 years of service, there is, by comparison, a greater 
incentive to leave after completing 10 years. This can be counteracted 
by introducing an incentive to stay, such as a completion bonus at year 
16. RAND explored complex changes to the compensation system such as 
these for the 10th QRMC, and drawing on the insights of our analysis I 
expect that a decrease in the year of vesting accompanied by a 
completion bonus of sufficient size could maintain the current 
retention profile of the force.
    Still, the question draws attention to wartime--if vested at 10 
years, would servicemembers in wartime be more likely to leave service 
than they would under the current system? I know of no research 
specifically addressing this question. Research on the effect of 
deployment for hostile duty on first- and second-term reenlistment, and 
on junior officer retention, finds that for the most part deployment 
has a positive effect on enlisted and officer retention. The exception 
to this occurs when a servicemember has extensive deployment, e.g., 12 
or more months of hostile deployment in the previous 36 months, in 
which case deployment can have a negative effect on retention. This 
finding takes into account deployment-related pays. As a specific 
example, a negative effect of deployment occurred in 2006 to 2007 in 
the Army, and it was largely offset by the expanded use of reenlistment 
bonuses and an increase in the average amount of the bonuses (How Have 
Deployments During the War on Terrorism Affected Reenlistment?). 
Summarizing, evidence indicates that for the most part the effect of 
hostile deployment on enlisted and officer retention has been positive, 
but extensive deployment can cause a negative. When this has occurred, 
bonuses have been effective in counteracting the negative effect.

           recruiting and retaining health care professionals
    13. Senator Graham. Mr. Carr, there are significant shortages among 
certain health care professionals, coupled with historic low rates of 
acceptance of fully paid health professions scholarships. We knew that 
these problems could not be fixed overnight, and the committee stepped 
in to increase the ceilings on scholarships and update several medical 
and recruiting incentives. How much visibility does your office have 
and what oversight do you exercise into how well the medical community 
and personnel chiefs are doing in effectively recruiting and retaining 
medical personnel?
    Mr. Carr. The Under Secretary of Defense for Personnel and 
Readiness has responsibility for the Department concerning all 
recruiting and retention matters. Many specific program authorities 
have been delegated to the Assistant Secretary of Defense for Health 
Affairs (ASD(HA)). For matters involving the health professions, 
ASD(HA) collaborates with Military Personnel Policy (MPP) to provide 
oversight and develop medical personnel policy guidance for the 
Military Department Secretaries regarding accessing and retaining 
personnel in health professions. The military departments program and 
budget for the necessary funds to recruit and retain their medical 
professionals.
    To ensure oversight, DOD annually convenes the Medical-Personnel 
Executive Steering Committee, made up of the Deputy Chiefs of Staff for 
Personnel and the Surgeons General from each Service. The Department 
and Services review the annual Health Manpower Statistics Report, which 
is published by the Defense Manpower Data Center to check the status of 
medical manning. On a monthly basis, the Health Professions Incentives 
Working Group meets to review medical personnel issues and make 
recommendations to leadership on incremental adjustments to the 
existing financial incentives.

    14. Senator Graham. Mr. Carr, please explain how the incentive pays 
for health care professionals are regulated to help the Services meet 
their recruiting and retention goals. How involved is your office (as 
opposed to the ASD(HA) in ensuring that personnel needs are met?
    Mr. Carr. Deputy Under Secretary of Defense for MPP works closely 
with the ASD(HA) on matters pertaining to military medical force 
management. We rely on bonuses and special pays as critical tools for 
managing the medical force. Each year, the DOD convenes the Health 
Professions Incentives Working Group to make recommendations to 
leadership on incremental adjustments to the existing financial 
incentives for retention under the legislative limits. The Military 
Departments and Public Health Service participate. The process takes 
into account DOD staffing, civilian pay, operational demand, and 
service-specific issues.
    The Office of the ASD(HA) develops the policy and establishes bonus 
and special pay amounts for health care professionals. In matters 
pertaining to recruiting and retention of medical military personnel, 
HA coordinates closely with the office of the Deputy Under Secretary of 
Defense for MPP. MPP is responsible for oversight and policy for 
recruiting and retention matters, with the exception of Reserve 
personnel and health professionals. Approval authority and reporting 
responsibility reside with the Principal Deputy Under Secretary of 
Defense for Personnel and Readiness. Annually, the Department provides 
Congress a report analyzing effects and future use of critical skills 
retention bonuses which includes bonuses for several health care 
professions.

    15. Senator Graham. Mr. Carr, what about retention of health care 
professionals? How much visibility do you have into how the Services' 
personnel chiefs are doing in effectively retaining mid-career 
personnel and what is your assessment of the Services' ability to 
recruit and retain doctors, dentists, nurses, et cetera?
    Mr. Carr. The Office of the Deputy Under Secretary of Defense for 
MPP continuously monitors the retention of mid-career medical personnel 
by using reports from the Services and the annual Health Manpower 
Statistics Report, published by the Defense Manpower Data Center 
(DMDC). This report is used to check the status of medical manning for 
the DOD and provides a fiscal year-end snapshot of the status of 
medical manning as well as historical trend information on medical 
manpower and personnel for managers within the DOD. The report is 
produced in coordination with the ASD(HA), the Assistant Secretary of 
Defense for Reserve Affairs, DMDC, and Service representatives.
    In assessing the data from the Health Manpower Statistics Report, 
the ASD(HA) and Services continually monitor and adjust and expand 
medical special pay plans and bonus structures where significant 
shortages exist for specific physician, dentist, nurse and other allied 
health specialties.
    The DOD uses a comprehensive package of special and incentive pays 
to attract and retain health professionals. Physicians and dentists are 
eligible to receive special and incentive pays consisting of a 
multiyear retention bonus, variable special pay, additional special 
pay, incentive special pay, board certification pay, critical skills 
retention bonuses, critically short wartime specialties, and critical 
skills accession bonuses. Nurses and other health care professionals 
are eligible for accession, board certification, incentive, and 
retention pays and bonuses depending on their specialties and skill. 
The Department recently implemented the special bonus and incentive pay 
authorities for officers in health professions. This authority provides 
DOD the flexibility to react quickly to shortfalls in health care 
profession specialties, and was recently used to provide special pay to 
licensed clinical psychologists and clinical social workers.

                     value of health care benefits
    16. Senator Graham. Dr. Murray and Dr. Hosek, there is widespread 
concern about the sustainability of military health care benefits. 
According to a Congressional Budget Office 2009 report, projections 
indicate that costs for medical care will rise more rapidly than 
overall resources for defense, and require an estimated 13 percent of 
total defense funding by 2026. What is your advice to Congress on how 
to strike an appropriate balance between the need to sustain military 
health care benefits in the future, and the obvious value of this 
benefit in recruiting and retaining needed military personnel?
    Dr. Murray. CBO estimates that under DOD's plans for fiscal year 
2010, the Department's medical funding will grow from $46 billion in 
2010 to $90 billion by 2028, nearly doubling over and above the effects 
of general inflation. More than half of health care spending goes to 
military retirees and their families. However, only about 15 percent of 
enlisted members and about half of officers will serve long enough to 
retire. Thus, most of the current force, including most of those 
serving in Iraq and Afghanistan, will not receive the retiree health 
care benefit.
    Most researchers agree that deferred benefits like retiree health 
care are not valued by younger personnel as highly as current cash 
compensation. Moreover, the military retirement system, in which 
members can receive retired pay only after serving 20 years or more, 
encourages those who have served 10 years or more to stay for a full 
career. In its budget request for 2009, DOD proposed increasing the 
copayments, enrollment fees, and deductibles paid by military retirees 
and their families to levels that reflect the growth seen in civilian 
health care spending. In analyzing the DOD proposal, CBO found that 
charging higher out-of-pocket costs could significantly reduce DOD's 
spending on health care for military retirees and their survivors and 
dependents. Most of the estimated savings would have come from a drop 
in enrollment in TRICARE--current users who would leave the program and 
prospective users who would choose not to enroll. Because some of those 
retired users would switch to other Federal programs, such as the 
services offered by the Veterans Health Administration, savings to DOD 
would be partially offset by increases in other Federal spending.
    Dr. Hosek. TRICARE provides military beneficiaries with 
comprehensive health benefits at no cost for most Active Duty 
beneficiaries and very low cost for retired beneficiaries. While costs 
have increased for all beneficiaries, consistent with the national 
pattern, the biggest share of the increase is attributable to retired 
beneficiaries. The benefit compares favorably with benefits offered by 
civilian employers and the Federal Employees Health Benefits Program, 
and the difference in out-of-pocket costs between TRICARE and employer 
insurance has continued to grow wider. Accordingly, military retirees 
have increasingly passed up the health benefits available to them 
through their employer in favor of TRICARE. The 2007 report of the Task 
Force on the Future of Military Health Care proposed a gradual increase 
in TRICARE's cost-sharing rates for military retirees and suggested 
piloting a new benefit that would augment benefits provided by civilian 
employers--e.g., by covering premium contributions. Careful redesign of 
the retiree benefit would maintain a high level of health coverage for 
these beneficiaries while controlling costs by encouraging use of the 
employer benefits to which they are eligible.
    For all beneficiaries, the cost sharing provisions should be 
carefully reviewed now and regularly in the future to ensure that they 
induce the most appropriate care-seeking behavior. Similarly, it is 
worth considering strengthening the incentives of TRICARE's military 
and civilian network providers to provide cost-effective care. That 
said, research on the demand for health care indicates that individuals 
and families have low sensitivity to the price they pay for health 
care; in more technical terms, the demand elasticity is low, at about 
0.2. This means that changes in cost sharing might have modest effect 
on care seeking behavior--but such changes deserve consideration 
because seemingly small changes might result in billions of dollars of 
savings.
    Another aspect of controlling cost without diminishing the value of 
the health care benefit to servicemembers and retirees is to ensure 
that providers are providing the appropriate amount of care, and the 
care is evidenced-based. The Department of Veterans Affairs (VA), for 
instance, has a reputation for providing high-quality care, and the 
military system may want to adopt the VA's innovative quality 
improvement system. There may be more room for inquiring into the 
efficiency of providers: are they providing too much care, too little 
care (which might result in repeat visits and undetected conditions 
that are very costly to treat in advanced stages), or care that is 
inefficient and therefore too costly?

    17. Senator Graham. Dr. Murray and Dr. Hosek, what do studies 
reveal about the relationship of the value of noncash benefits, such as 
health care, and successful recruiting and retention?
    Dr. Murray. Many researchers view noncash compensation as less 
economically efficient than cash compensation because it restricts the 
way in which people can choose to spend their earnings. For example, an 
economist might argue that on-base fitness centers are economically 
less efficient than a ``fitness allowance'' that can be spent in 
whatever way the employee chooses. To the extent that people value 
greater choice, the recruiting and retention effect of cash allowances 
should be greater than benefits provided in-kind. However, the 
popularity of noncash benefits--both in military and civilian life--may 
stem from the fact that many of them are not taxed (or the tax 
liability may be postponed for many years). Another reason that 
employers might offer noncash compensation is to provide a way of 
screening for or maintaining desirable employee characteristics (e.g., 
physical fitness). In addition, some employers offer a noncash benefit 
if the benefit fosters goodwill or loyalty to the employer. Family-
support benefits may provide that kind of gift effect, if deployed 
personnel value the feeling that their families are being cared for 
while they are away.
    Dr. Hosek. It is difficult to estimate this relationship because, 
over time, the benefit has been relatively stable and the effects of 
the notable benefit changes that have occurred (e.g., TRICARE and the 
2001 benefit changes) are difficult to isolate from other events. I 
know of no evidence about the effects of noncash benefits on recruiting 
and retention; however, I know that Dr. Murray has studied this topic 
and would defer to her knowledge.

            incentives for unmanned aircraft vehicle pilots
    18. Senator Graham. Mr. Carr, the importance of improving 
surveillance capabilities through unmanned aircraft is well-understood. 
Each Service, however, seems to approach the issue of who controls--or 
pilots--such aircraft, and the compensation they receive--differently. 
Please explain how the Office of the Secretary of Defense (OSD) is 
involved in determining what kinds of special pay and bonuses are 
appropriate for this occupational skill and career path?
    Mr. Carr. Secretaries of Military Departments who elect to pay some 
form of special or incentive pay and/or bonus to unmanned aerial 
vehicle (UAV) operators must submit a UAV recruiting and retention 
compensation plan. The plan is then reviewed by the Office of the Under 
Secretary of Defense (Personnel and Readiness) and approved or 
disapproved as appropriate. To date, the Air Force is the only Service 
that has requested UAV-operator incentive pay. After dialogue between 
the OSD and the Air Force, the rationale for the requested incentive 
pay, statutory authorities, levels of pay, et cetera, the OSD approved 
an incentive pay plan that will extend through December 2010. If the 
Air Force determines UAV operators should be paid an incentive pay 
after December 2010, a new recruiting and retention compensation plan, 
or an extension request, must be submitted for approval.
    The basis of approval or disapproval of a Service's UAV recruiting 
and retention compensation plan depends on a multitude of factors, such 
as UAVs flown (size, weight, complexity, et cetera), armed or unarmed 
status, altitude and airspace flown (FAA nationally controlled airspace 
versus restricted battlefield airspace), supply and demand of UAV 
pilots, as well as the technical difficulty of flying the particular 
UAV types and the associated rigor of the UAV training.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                          commissary benefits
    19. Senator Collins. Ms. Farrell, according to a Pentagon survey, 
90 percent of military personnel utilize commissary benefits. Last 
year, the Navy Exchange Service Command generated more than $45 million 
in dividends. These figures seem to indicate that commissary and 
exchange benefits are not especially costly to DOD and that 
servicemembers place a high value on these benefits. How can these 
figures inform the Department in maintaining a competitive cash and 
noncash compensation package for servicemembers and providing it in 
such a way that is affordable to the Department?
    Ms. Farrell. While these figures are informative in terms of 
servicemember use of the commissary and the cost of operating the 
commissary, in the absence of additional data and information on how 
servicemembers value the commissary, these figures cannot appropriately 
inform DOD on affordably maintaining a competitive cash and noncash 
compensation package for servicemembers. We have previously reported 
\18\ that military compensation includes a mix of cash, noncash 
benefits, and deferred compensation, and has been one of the primary 
tools used by DOD to recruit and retain servicemembers since the 
military transitioned to an All-Volunteer Force in 1973. The commissary 
benefit is just one of the noncash benefits available to 
servicemembers. In our recent report,\19\ we noted that 90 percent of 
military personnel responding to the 2007 Status of Forces Survey for 
Active Duty Personnel indicated that they utilize commissary benefits. 
However, while these survey results show that 90 percent--a large 
majority--of respondents reportedly used the commissary, the survey 
does not contain a question that asks about the value the individual 
places on the commissary benefit; therefore, the results of the survey 
could not take into account the value that an individual servicemember 
places on the commissary benefit.
---------------------------------------------------------------------------
    \18\ GAO-10-666T, GAO-10-561R, GAO-07-828, and GAO-05-798.
    \19\ GAO-10-561R.
---------------------------------------------------------------------------
    In addition, the Navy Exchange Service Command is meant to provide 
quality goods and services at a savings and to support quality-of-life 
programs by providing dividends to Navy Morale, Welfare, and Recreation 
(MWR). In 2008, the Navy Exchange Service Command had total annual 
sales of $2.52 billion and generated more than $45 million in dividends 
for MWR quality-of-life programs. While this figure gives an indication 
of the Command's profitability, it does not take into account the value 
that a servicemember places on the benefit. Further, as we reported in 
2005, servicemembers may not understand the full extent (i.e., the 
value) of their benefits--in this case, the commissary benefit.
    As noted previously, DOD's compensation package is a mix of cash 
and noncash benefits--the commissary benefit being one of the noncash 
benefits available to servicemembers. However, in 2005,\20\ we reported 
that DOD's mix of compensation (i.e., the ratio of cash to noncash to 
deferred benefits) was highly inefficient for meeting near-term 
recruiting and retention needs. We further reported that cash pay in 
the present is generally accepted as a far more efficient tool than 
future cash or benefits for recruiting and retention.
---------------------------------------------------------------------------
    \20\ GAO-05-798.

    20. Senator Collins. Mr. Carr, given the rising costs associated 
with salary and health care benefits, is it fair to say that one of 
your goals in developing an effective compensation package for our men 
and women in uniform would be to maximize availability of benefits that 
incur little cost to the Department, but that are also highly valued by 
the Active Duty and retiree community, such as commissary and exchange 
benefits?
    Mr. Carr. Yes. The first and foremost goal of an effective military 
compensation package is to attract, retain, motivate, distribute, and 
ultimately separate the force, both Active and Reserve, required to 
meet the Nation's needs. Within this compensation package, the 
Department strives to provide an appropriate mix of cash, noncash, and 
deferred benefits that meets the goals of the Department as well as the 
needs of military members. This overall package includes benefits such 
as healthcare, commissary, and exchanges.

    [Whereupon, at 11:25 a.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2011

                              ----------                              


                        WEDNESDAY, MAY 12, 2010

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.

                       RESERVE COMPONENT PROGRAMS

    The subcommittee met, pursuant to notice, at 10:02 a.m. in 
room SR-222, Russell Senate Office Building, Senator Jim Webb 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Webb, Hagan, Chambliss, 
and Graham.
    Committee staff members present: Leah C. Brewer, 
nominations and hearings clerk; and Jennifer L. Stoker, 
security clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Gabriella Eisen, counsel; and Gerald J. Leeling, counsel.
    Minority staff members present: Diana G. Tabler, 
professional staff member; and Richard F. Walsh, minority 
counsel.
    Staff assistants present: Jennifer R. Knowles, Hannah I. 
Lloyd, and Brian F. Sebold.
    Committee members' assistants present: Nick Ikeda, 
assistant to Senator Akaka; Roger Pena, assistant to Senator 
Hagan; Clyde A. Taylor IV, assistant to Senator Chambliss; and 
Walt Kuhn, assistant to Senator Graham.

        OPENING STATEMENT OF SENATOR JIM WEBB, CHAIRMAN

    Senator Webb. Good morning. The subcommittee will come to 
order.
    The subcommittee meets this morning to receive testimony on 
the Guard and Reserve programs of the Department of Defense 
(DOD).
    We'll have two panels this morning. The first panel, we'll 
welcome the Honorable Dennis McCarthy, Assistant Secretary of 
Defense for Reserve Affairs; General Craig McKinley, Chief of 
the National Guard Bureau; Lieutenant General Harry Wyatt III, 
Director of the Air National Guard; and Major General Raymond 
Carpenter, Acting Director of the Army National Guard.
    On the second panel, we'll have the Chiefs of the Reserve, 
and we'll introduce them when we bring in the second panel.
    I should point out that we are expecting three consecutive 
roll call votes to begin at any time, and we're going to do our 
best to keep the hearing going rather than having to suspend 
it. That sounds like a vote being called. If we reach the point 
where we can't do that, then we're just going to have to 
declare a recess. But, we'll do our best.
    The Guard and Reserve continue to transform from a Cold 
War-era strategic force to an operational force manned and 
equipped to face both the traditional and asymmetric threats of 
the 21st century. It's a transformation that started well more 
than 20 years ago, when the total force concept replaced the 
force structure that we had during conscription.
    I was a part of this transformation, as many of you know, 
during the Reagan administration. I was the first Assistant 
Secretary of Defense for Reserve Affairs. It was one of the 
great leadership experiences of my life, quite frankly, to have 
put that office online. When we inherited the upgrade, it was 
composed of 14 full-time staff, plus a lot of Individual 
Mobilization Augmentees and others that we were able to use 
from time to time, but we took great care, back in 1984, in 
designing the structure of the staff and trying to put it into 
those functions that were necessary, should we have to mobilize 
and go into a full-out wartime environment. I believe that the 
office has survived the test of time and adapted to the issues 
that we face.
    I used to say, during the first year, when you have all 
seven Guard and Reserve components, all four Active components, 
political appointees and career civilians on one staff, it was 
like trying to hold a meeting in Yugoslavia; there were so many 
different points of view at the table. I see some knowing nods, 
here. [Laughter.]
    But, it's been a great addition to DOD, and we welcome the 
current leadership in those roles, today.
    More than 2 years ago, the Commission on the National Guard 
and Reserve delivered its final report to Congress. One of its 
conclusions was that there is no reasonable alternative to the 
Nation's continued reliance on the Guard and Reserve for 
missions at home and abroad as a part of an operational force. 
The question this raises is whether this level of operational 
use is sustainable in the future. Will the Guard and Reserve 
still be able to recruit and retain the quality individuals 
they need, given their increased operational tempo? How will 
this evolution impact the military's relationship with civilian 
employers?
    The operationalization of the Guard and Reserve also raises 
questions about their capacity to respond to unforeseen events, 
such as Hurricane Katrina or the earthquake in Haiti, which 
require surge capacity and specialized skills that the Active 
components may not be able to provide.
    The use of the Guard and Reserve has increased, in large 
part, to ease the stress on the Active components, but we run 
the risk of overly stressing guardsmen and reservists, who, in 
addition to their military duties, hold down civilian careers.
    After 9 years of overseas commitments, the Guard and 
Reserve remain stressed, including dwell times closer to 1 to 3 
than the stated goal of 1 to 5, and we need to look at these 
issues and many others.
    I have a longer statement that I'm going to submit into the 
record at this point, but, in the interest of time--and also, I 
want to get into the views of our witnesses--I would like to 
just submit this into the record and call on a ranking 
Republican, Colonel Lindsey Graham to give his opening 
statement.
    [The prepared statement of Senator Webb follows:]
                 Prepared Statement by Senator Jim Webb
    The subcommittee meets this morning to receive testimony on the 
Guard and Reserve programs of the Department of Defense.
    We will have two panels this morning. On the first panel, we 
welcome the Honorable Dennis M. McCarthy, Assistant Secretary of 
Defense for Reserve Affairs; General Craig R. McKinley, Chief, National 
Guard Bureau; Lieutenant General Harry M. Wyatt III, Director, Air 
National Guard; and Major General Raymond W. Carpenter, Acting 
Director, Army National Guard.
    On our second panel, we will have the Chiefs of the Service 
Reserves, and I will introduce them when we convene the second panel.
    The Guard and Reserve continue to transform from a Cold War-era 
strategic force to an operational force manned and equipped to face 
both the traditional and asymmetric threats of the 21st century. It is 
a transformation that started more than 20 years ago during the Reagan 
administration, and I bring a definite perspective to the table having 
been privileged to serve for 3 years as the first Assistant Secretary 
of Defense for Reserve Affairs. At the height of the Cold War, my staff 
and I broke new ground in determining if our Guard and Reserve 
components were, in fact, ready and available to be mobilized and 
deployed in the event of major crisis or hostilities.
    More than 2 years ago, the Commission on the National Guard and 
Reserves delivered its final report to Congress. One of its conclusions 
was that there is no reasonable alternative to the Nation's continued 
reliance on the Guard and Reserve for missions at home and abroad as 
part of an operational force. The question this raises is whether this 
level of operational use is sustainable into the future. Will the Guard 
and Reserve still be able to recruit and retain the quality individuals 
they need given their increased operational tempo? How will this 
evolution impact the military's relationship with civilian employers?
    The operationalization of the Guard and Reserve also raises 
questions about their capacity to respond to unforeseen events, like 
Hurricane Katrina or the earthquake in Haiti, which require the surge 
capacity and specialized skills that the Active component may not be 
able to provide. The use of the Guard and Reserve has increased in 
large part to ease the stress on the Active components, but we run the 
risk of overly stressing guardsmen and reservists, who in addition to 
their military duties, hold down civilian careers. The Guard and 
Reserve must be ready and able to meet their missions while retaining 
the character and essence of the citizen soldier.
    After 9 years of continuous combat the Guard and Reserve remain 
stressed, including dwell times closer to 1 to 3 years than the stated 
goal of 1 to 5 years. We must increase the amount of time guardsmen and 
reservists receive between deployments. This is absolutely vital to the 
long-term health and sustainability of the Guard and Reserve. It 
ensures that our reservists and guardsmen remain trained and 
proficient, while providing predictability for their families and 
civilian employers. This predictability and transparency will help 
sustain the morale and mental health of our servicemembers, and allow 
them to plan both their military and civilian careers with a degree of 
surety and predictability that enhances retention. It is good for the 
servicemembers and their families, the military, the civilian sector, 
and for the Nation.
    This subcommittee has over the past several years sponsored or 
supported many initiatives to address the well-being of reservists, 
guardsmen, and their families. Few countries, for instance, offer 
retirement benefits for Reserve or non-regular military service, and of 
those who do, the United States appropriately offers some of the most 
generous, including a retirement pension at age 60 (or earlier under 
certain conditions), health care, survivor benefits, and the full range 
of veteran benefits.
    Over the past several years, Congress continued to enhance and 
expand benefits and programs for guardsmen, reservists, and their 
families. The committee authorized the Yellow Ribbon program, which has 
been a resounding success. In 2006, Congress authorized income 
replacement for members of the Guard and Reserve subject to extended 
and frequent active-duty service. In 2007, Congress extended TRICARE 
eligibility to members of the Selected Reserve. Last year, Congress 
extended TRICARE eligibility to gray-area retirees and increased the 
number of days prior to mobilization that guardsmen and reservists have 
access to health care. In 2008, Congress authorized travel allowances 
for certain members of the Selected Reserve Forced to travel long 
distances to drill. Finally, we enacted the Post-9/11 GI Bill, complete 
with transferability. In recognition of their exceptional service since 
September 11, many guardsmen and reservists are eligible for these 
benefits.
    Nevertheless, work remains to be done. Medical and dental readiness 
of guardsmen and reservists remains a challenge, despite legislation 
over the past two years to help improve it. Suicide rates in the Guard 
and Reserve continue to rise at disturbing rates. We must continue to 
work to integrate the Guard and Reserve with the active duty in a more 
seamless way. I look forward to hearing what challenges and obstacles 
exist that prevent a more seamless integration, what is being done to 
address them, and whether legislation is needed to help that effort.
    Finally, I want to note that we are still waiting for the 
Department's final assessment of the remaining recommendations from the 
final report of the Commission on the National Guard and Reserves that 
was due April 1, 2009. I understand that the Department is implementing 
those recommendations with which it agreed, but we have yet to learn of 
its views on the remainder. At this hearing last year, the acting 
Assistant Secretary of Defense for Reserve Affairs stated that the 
Department's assessment was in the final coordination stages, and that 
we could expect it within weeks. A full year has passed. The 
Department's final assessment of the Commission's recommendations is 
long overdue. Such delinquent reports limit the ability of this 
subcommittee to exercise its oversight functions properly. Absent a 
compelling reason, we cannot tolerate such inordinate delays.
    On our second panel we welcome Lieutenant General Jack C. Stultz, 
Chief of the Army Reserve; Vice Admiral Dirk J. Debbink, Chief of the 
Navy Reserve; Lieutenant General John F. Kelly, Commander, Marine 
Forces Reserve; Lieutenant General Charles E. Stenner, Chief of the Air 
Force Reserve; and Rear Admiral Sandra L. Stosz, Acting Director, U.S. 
Coast Guard Reserve.

    Senator Graham. I move I be promoted. [Laughter.]
    I think I'd lose, two to one. [Laughter.]
    Senator Webb. I think you're looking at the right people on 
the other end of the table for that.

              STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. Yes. Anyway, I know we have to go vote, 
here.
    The legal authorities that you would need to be able to 
activate the Reserves in a less bureaucratic manner, I want to 
hear about that. The Guard and Reserve, as Senator Webb said, 
is an indispensable part of this war effort. Civil affairs, 
military police, you name it, the Guard and Reserves are on the 
front lines of what we need in Iraq and Afghanistan. As you 
build out the 21st century threats, the Guard and Reserve are 
completely indispensable. The Cold War model has to be changed, 
because the Cold War--thank God, we won that; we need to win 
the war we're in now.
    Senator Chambliss has some proposals regarding earlier 
retirement. I couldn't support his idea more. We need to 
deliver for the troops here.
    Secretary Gates is a fine man. Don't even think about 
cutting military pay. That's on the Active Duty side. From the 
Guard and Reserves point of view, you're the best bang-for-the-
buck for the American taxpayer, about 25 cents on the dollar, 
in terms of Active Duty cost, and you hit way above your 
weight. I want to talk to you about--when we have a chance 
here--deploying the National Guard along the border. Is that 
feasible? Do you think that would make a difference, and could 
you do it?
    With that, Mr. Chairman, I'd just end with saying that our 
Guard and Reserve members and their families--we're doing the 
best we can to take care of you. TRICARE has been a good 
addition to the benefit package available to Guard and Reserve 
members and their families.
    America should be very proud of the commitment of the 
citizen soldier. I know I am.
    Thank you.
    Senator Webb. Thank you very much, Senator Graham.
    Secretary McCarthy, welcome.

 STATEMENT OF HON. DENNIS M. McCARTHY, ASSISTANT SECRETARY OF 
                  DEFENSE FOR RESERVE AFFAIRS

    Mr. McCarthy. Thank you, Mr. Chairman, Senator Graham, 
members of the subcommittee. I appreciate the opportunity to 
testify today and to engage with you about the direction and 
the future role of our Nation's Reserve components.
    I'm honored to be present with my colleagues in uniform, 
all seven of the Reserve Chiefs. It's a pleasure to serve with 
them. I know they'd all join me, or will all join me, in saying 
thank you to the subcommittee for everything that you have done 
for the men and women in uniform, both Active and Reserve, and 
DOD civilians.
    As we've all discussed many times, I think we're at a very 
significant point in the history of our Reserve components, 
and, frankly, at a point of great opportunity. I think there's 
three main themes that we ought to touch on, and I'll just 
summarize them.
    First of all, every man and woman serving in uniform today 
has either enlisted or reenlisted since September 11. They've 
made a conscious decision to serve, with full understanding of 
what service in today's environment means. They know it means 
service in combat, they know it means repeated deployments; 
and, for members of the Reserve component, they know that it 
means, not just stress on themselves and their families, but 
also on their employers. Yet, they have continued to make that 
decision to serve.
    Second of all, because we've had over 750,000 Reserve and 
Guard members mobilized since September 11, we have the most 
experienced, best-trained, best-equipped Reserve component 
we've had in anybody's recent memory. But, to sustain this 
force, we need to continue to support the families of those in 
uniform and their employers.
    Third, I think there is an emerging consensus that, even 
after the high demand for forces in Afghanistan and Iraq come 
down, it still makes sense to utilize our Reserve components on 
a rotational basis. We've made a significant investment in 
them. They've made a significant investment. We should continue 
to use that so that we get return on that investment.
    I would say that it's not just indispensable, which it is, 
but it's also a sensible use of this great Reserve component 
that we have. But, to do that, we're going to have to find some 
new ways to do things. As has been mentioned, finding a way to 
assure that we have access, and that those who plan for the use 
of Reserve component forces can make those plans confidently, 
knowing that they will be able to get access to the forces, is 
very important. We need to find a constitutionally sound method 
to authorize that access.
    We need to make progress on this thing that we've been 
talking about for years, the continuum of service, the ability 
of an individual to flow on and off of full-time duty without 
jeopardizing their pay or their medical care.
    We need to find ways to continue to support families and 
employers, and, in particular, support employers so that they 
will continue to support us, as they have so tremendously done 
up until now.
    Almost everything that is in that laundry list of things to 
do relates back to a recommendation that was made by the 
Commission on the National Guard and Reserve, and was approved 
by the Secretary of Defense. Quite frankly, we haven't made as 
much progress in implementing those recommendations as I would 
like, but I guarantee you, we are working hard on that.
    I turn to my colleagues in uniform for their comments, but 
I do look forward, Senators, to answering your questions.
    [The prepared statement of Mr. McCarthy follows:]
             Prepared Statement by Hon. Dennis M. McCarthy
                              introduction
    Chairman Webb, Ranking Member Graham, and members of the 
subcommittee; thank you for your invitation to present the capability 
of America's Reserve component (RC) forces to meet current and future 
operational requirements. This is my first appearance before this 
committee in my current role, and I would like to recap where we've 
been and where I think we need to go. The Senate Armed Services 
Committee has always been very supportive of our National Guard and 
Reserve Forces. On behalf of those men and women, our Citizen Warriors, 
their families and employers, I want to publicly thank you for all your 
help in providing for them as they have stepped up to answer the call 
to duty. We will do everything in our power to merit your continued 
support.
                                preface
    The office I hold was specifically mandated by Congress because of 
recognition that sustaining the Reserve components was essential to the 
success of the All-Volunteer Force. The statutorily mandated mission of 
the Assistant Secretary of Defense for Reserve Affairs (ASD/RA) in 
title 10 section 138 is, `` . . . the overall supervision of Reserve 
component affairs of the Department of Defense.'' I take this 
responsibility very seriously because our Guard and Reserve perform 
vital national security functions and are closely interlocked with our 
States, cities, and communities. I have very specific guidance from the 
Under Secretary of Defense for Personnel and Readiness to focus on the 
readiness of our Reserve components, and to measure our success by our 
contribution to maintenance of the All-Volunteer Force. I know from 
first hand conversations with the men and women who comprise our 
National Guard and Reserve that this is a most welcome message. They 
too are focused on readiness and have every intention of being fully 
ready for whatever mission their country may assign them.
    I believe the goal for the Reserve components should be to become; 
a force that is sustainable, seamlessly integrated with the Active 
components, and complementary in its capabilities to our overall 
national security requirements. Achieving this goal will require a 
coordinated effort between the legislative and executive branches.
                            where we've been
    I try to consistently speak about a few central themes that I 
believe are particularly relevant as the Department actively plans for 
the next few years. But first, let me briefly recap where we've been. 
In recent years, we have seen an unprecedented reliance on the Reserve 
components--since September 11, over 761,000 Citizen Warrior 
mobilizations have occurred; of that number over 232,000 Selected 
Reserve members have been activated two or more times. Their service 
has been magnificent, fully accessible, participating across the full 
spectrum of missions, absolutely outstanding. I have visited the 
CENTCOM AOR several times and have witnessed first-hand the seamless 
integration of our forces in the field.
    During the Cold War, the Reserve components were basically a force 
held in Reserve. The typical RC member trained for approximately 38 
days a year and had little expectation of being mobilized. If he/she 
were called to duty, the expectation was that there would be plenty of 
time to mobilize, train, and deploy--an event that might happen perhaps 
once in a career. I think we can all safely say ``This is not your 
father's, mother's, or even your older brother's Reserve component 
anymore.'' Today's Citizen Warriors have made a conscious decision to 
serve, with full knowledge that their decision may involve periodic 
recalls to active duty under arduous and hazardous conditions. They 
know this is no longer a ``1 week-end a month'' organization, and they 
didn't join up just for the college tuition. Also, it is clear that we 
have left the old model of, ``maybe once in a lifetime mobilization'' 
behind. In the nineties, the Active component (AC) and RC end strength 
drew down, but the world continued to be a dangerous place, so we 
increasingly relied on the National Guard and Reserves to support 
military mission requirements in the first Gulf War, Bosnia, Kosovo, 
Multinational Force and Observers (MFO) Sinai, air operations in and 
around Iraq, as well as daily operational support requirements. Even 
before September 11, we were evolving toward a total transformation in 
the way the Reserve component was being utilized.
    Recognizing this change, the Department set about transforming the 
Guard and Reserve from a purely strategic force to a sustainable 
Reserve Force with both operational and strategic roles. Effective 
management of the Guard and Reserve as an operational force required 
changes in numerous policies, including: mobilization, force structure 
rebalancing, personnel management, training, readiness, equipping, and 
family and employer support. These changes have been critical to our 
success during what is now the largest mobilization of the Guard and 
Reserve since the Korean War, in a war that has lasted longer than 
World War II. It is important to note that in addition to these 
expanded operational capabilities, the Reserve components still provide 
strategic depth to meet U.S. defense requirements across the full 
spectrum of conflict. Additionally, the indisputable fact of high 
enlistment and retention rates in all services and components clearly 
demonstrates this generation's commitment to service; they are 
convinced that their service is valuable, and that it is valued. The 
six DOD Reserve components combined achieved 104 percent of their 
recruiting goal for fiscal year 2009 and retention is high. As a 
result, end-strength expectations are being met.
                           where we're going
    Writing the next chapter in the history of our Nation's use of its 
Reserve components begins with the Quadrennial Defense Review (QDR) and 
other strategic planning processes, to include the findings and 
recommendations of the Commission on the National Guard and Reserves 
(CNGR). The Department continues to work the 53 CNGR recommendations 
the Secretary of Defense approved in his November 2008 memo. While much 
work still needs to be accomplished, there have been several high 
points. This includes improvements in the oversight of equipment 
readiness and transparency of Reserve component procurement funding and 
establishment of the Yellow Ribbon program. The fiscal year 2011 budget 
provides about $50 billion for pay, training, equipping and facilities 
to support the RCs. The funds provide about 43 percent of the total 
military end strength for 9 percent of the total base budget.
    The CNGR recommendations that the Secretary of Defense approved 
will continue to be a high priority for me until they are fully 
implemented. The implementation of those recommendations will enable 
the proper utilization of the National Guard and Reserve, reducing the 
burden on all forces--a Presidential priority. Effective utilization of 
the Guard and Reserve increases the strategic capacity of the Total 
Force. We have authored mobilization policies which institutionalized 
``judicious use'' as the core principle of Reserve component 
participation, and are the foundation of predictability (1-year 
mobilization and 1:5 utilization goals) for the operational reserve. 
This principle is widely supported by military members, families, and 
employers alike.
    Another important concept emphasis in the CNGR is Continuum of 
Service (CoS). This phrase often appears in testimony and documents; 
however, there is little concrete description of what CoS actually is. 
CoS is an important aspect of retention that allows servicemembers to 
easily transfer from one component (Regular, Guard, Reserve, or 
civilian) to another. The CoS program provides greater flexibility and 
predictability for retaining valuable skills over a lifetime of service 
to the Nation. In the future, DOD will seek necessary legislative 
changes to assist in duty status reform.
    CoS initiatives have had a positive impact on our servicemembers. 
The Air Force initiated an on-line CoS Tracking Tool that provides a 
single comprehensive information source for capturing and monitoring 
Total Force CoS initiatives. This tool was incorporated by the Army and 
is now being adapted for use throughout the Department of Defense. 
Based on NDAA-authorization, the Navy initiated a Career Intermission 
Pilot Program allowing a break in service from active duty to the 
Nonparticipating Individual Ready Reserve for up to 3 years for 
personal or professional reasons. The Army and Air Force are now 
implementing this pilot program to retain valuable experience and 
training of our servicemembers who might otherwise be lost to permanent 
separation.
    For Reserve components, CoS is an important force multiplier for 
balancing people and mission to ensure the right member to the fight.
    I would note that the budget supports preparation of both units and 
individuals to participate in missions, across the full spectrum of 
military operations, in a cyclic or periodic manner that provides 
predictability for the combatant commands, the Services, 
servicemembers, their families, and civilian employers; potentially 
increasing the Department's overall capacity while reducing costs.
    We now have a policy of notifying members 180 days prior to 
mobilization whenever possible. The Services are also striving to 
provide alerts to units 1 year or more in advance. In addition, this 
subcommittee helped provide a change in statute which doubled from 90 
to 180 days the period prior to mobilization in which reservists are 
eligible for healthcare. I believe this change will have a positive 
impact on individual medical readiness. As the services perfect their 
rotational readiness models, it will be increasingly common to notify 
units of upcoming missions up to 2 years in advance. We have 
streamlined the mobilization and pre-deployment training processes, and 
these and other changes are sustaining the Reserve components during 
this extensive mobilization period. In addition we are implementing a 
``train-mobilize-deploy'' construct, as opposed the old Cold War model 
of ``mobilize-train-deploy,'' this means that the RCs must be ready, 
manned, trained, medically prepared, and equipped when their scheduled 
availability comes up, and they must be funded accordingly.
    Clearly, your changes in compensation and benefits that recognized 
the increased operational role of the Guard and Reserve, as well as the 
pride they take in serving their country in these challenging times, 
are major factors in improving our abilities to recruit and retain a 
quality force.
    Over the past 8 years, we developed a rebalancing effort in the 
Active and Reserve components that initially transitioned 89,000 
billets in less-stressed career fields to more heavily used 
specialties. From 2003 until now, we have rebalanced over 180,000 
billets and working with the Services, have planned and programmed an 
additional 121,900 billets for rebalancing between fiscal year 2010 and 
2015. Although the amount and type of rebalancing varies by Service, 
key stressed capability areas include: Engineers, Civil Affairs, 
Intelligence, Special Operations, Military Police, Infantry, Aviation, 
Space and Combat Air Superiority. By 2015, we expect to have rebalanced 
over 302,000 billets. Rebalancing is a continuous and iterative 
process. The Department will continue to work closely with the Services 
as they review and refine their rebalancing plans to achieve the right 
mix of capabilities and alignment of force structure. For that reason, 
the QDR and the defense budget will continue the efforts the Secretary 
started, to rebalance the military's forces and programs to meet the 
current threats and to reform the way the Defense Department does 
business. The Under Secretary of Defense for Policy recently testified, 
``If the QDR has a bumper sticker it would be `Rebalance and Reform'.'' 
This will greatly help reduce stress and increase support to the Active 
and Reserve operational force by providing a deeper bench for those 
skills that are in high demand. However, easing the stress on the force 
is more than just rebalancing, judicious use and notification.
    ``Rebalance and Reform'' also means sustaining the readiness of our 
forces. One such program is the Innovative Readiness Training (IRT) 
Program. This program provides mission essential training opportunities 
for our National Guard and Reserve sustainment units while providing a 
critical link between the military and underserved civilian 
communities. The IRT program's focus is to provide a venue for Mission 
Essential Task List (METL) training requirements in engineering, health 
care, diving, and transportation. Each year new training opportunities 
are presented by Federal, State, or local government agencies or 
nonprofits. The IRT program's goal is to strive to ensure a varied and 
challenging menu of training opportunities that result in 
interoperability and ensure readiness training is available for our 
military personnel. Examples of IRT activities include, constructing 
rural roads and runways, small building and warehouse construction, and 
providing medical and dental care to Native Americans, Alaska Natives 
and other medically underserved communities. IRT continues to evolve to 
meet the challenges of DOD transformational priorities to strengthen 
joint warfighting capabilities while ensuring our Nation maintains a 
fully capable National Guard and Reserve.
                            how we get there
    We need a roadmap to list the waypoints, to foster dialog and 
change some widely held traditional beliefs. Extracting full value from 
our Reserve components will require a fundamental shift in the way many 
in DOD currently envision these forces. During the Cold War, military 
planning generally viewed the Guard and Reserve as essentially a 
``force of last resort,'' to be used after all possible Active 
component solutions have been attempted. Going forward, I believe the 
Services should not hesitate to use National Guard and Reserve 
formations as the ``force of first choice'' for requirements for which 
they are well suited. This will require many minds to transition from 
``what was,'' to ``what is,'' then ``what should be.''
    Predictability is perhaps one of the most important keys to tapping 
into the reservoir of Guard and Reserve capabilities. The process by 
which roles and missions are assigned to the Reserve and Guard should 
be characterized by a belief that these forces can, and frequently 
should be, the first choice for recurring or predictable missions 
within their capabilities, because they are and have been fully 
accessible. In this context, predictability encourages anticipatory 
planning--thinking ahead, not just in terms of the type of mission, but 
the timing and duration of the mission as well. Predictable missions 
create lead time for proper planning and training. That kind of 
anticipatory thinking can't be done when the Reserve components are 
used as the ``last option.'' The other important parts of this ``best 
advantage'' equation are the assignment of challenging and relevant 
missions to the National Guard and Reserves, and ensuring that 
resources are available in order to set the conditions for their 
success.
    Using the Reserve components on a rotational basis, especially 
where the cycle can be pointed toward a predictable mission, maintains 
their readiness and expands their availability and capability. The 
rotational availability models in use today--the Army Force Generation 
(ARFORGEN), or Air Force Expeditionary Force (AEF), etc.--are essential 
to ensuring that the Guard and Reserve are trained and ready when 
needed.
    We must also ensure that the visibility, transparency and 
accountability of National Guard and Reserve equipment, from planning, 
programming, and budgeting, through acquisition and fielding, occurs at 
all levels. In addition, resetting the force is absolutely essential 
because it integrates the transformation, reconstitution, rebalancing, 
modernization, and recapitalization into a common action with a focus 
on the contribution to the Services' roles and missions. The Commission 
on the National Guard and Reserves had two specific recommendations to 
address this challenge. The Deputy Secretary of Defense directed, and 
agreed to an implementation plan that we have been executing since 
August 2009. The Reserve component of each military department must be 
properly equipped not just to deploy, but to also sustain itself as a 
trained and ready force. The design of the Reserve component equipping 
strategy is envisioned to procure and distribute required equipment; to 
maintain a degree of readiness that is responsive to the combatant 
commanders' request; while sustaining capabilities to respond when 
called upon here at home. This strategy takes into account the 
Department's support to each State's Homeland Defense mission, while 
maximizing equipment availability throughout the force.
    Our ultimate goal is for the RC to be a ready force, equipped and 
supported with facilities, ranges, and simulators to succeed in 
fulfilling their domestic and overseas missions. Our efforts include 
the development of strategies and processes to ensure RC equipment 
readiness levels are not adversely affected by losses from ``stay-
behind'' equipment, cross-leveling, and reset policies. We are striving 
to ensure the RCs have the right equipment, available in the right 
quantities, at the right time, and at the right place to support the 
``Train-Mobilize-Deploy'' model for an operational reserve. We are 
expanding the use of simulators that increase proficiency while at the 
same time reducing equipment costs and range utilization. An effective 
``Train-Mobilize-Deploy'' force must not encounter modern equipment for 
the first time after mobilization or after arriving in theater. We also 
support the RC in their Homeland Defense and civil support role. This 
is a Total Force responsibility, and one in which we are making 
considerable progress. Identifying and procuring critical dual use 
equipment (equipment that is used in both domestic and war fighting 
missions) is another effort that has realized tremendous dividends. As 
the Department embarks on a new RC equipment strategy, we are working 
hand-in-hand with the Services to improve the transparency of equipment 
from the appropriation of funding to the delivery of that equipment.
    There is a direct correlation between readiness and facilities, 
particularly in the RC. The move from a strategic reserve to an 
operational reserve doesn't change the fact that we owe our Guard and 
Reserve member's quality facilities in which to work and train. The 
fiscal year 2011 Military Construction (MILCON) program request for the 
Reserve components has increased, and will help alleviate some facility 
deficiencies. We continue to pursue joint construction opportunities as 
a way to combine the space and functional requirements of two or more 
Service components into one facility, thereby eliminating the need to 
build separate buildings. The benefits of doing this go far beyond cost 
savings by promoting cooperation, building trust, and providing 
opportunities for joint training.
    Record levels of Guard and Reserve mobilizations over the past 8 
years have highlighted a critical shortfall in facility requirements, 
re-emphasizing the need for meticulous analysis of funding and 
investment in order to fill the capability gap to support rotational 
readiness requirements, such as transient training facilities. The Army 
has developed an Operational Readiness Training Complex (ORTC) concept 
to provide permanent facilities in centralized locations that will 
improve unit cohesion, the efficient use of limited training time, and 
quality of life for members of the Guard and Reserves. The challenges 
in getting priority funding for these ORTCs have prompted us to engage 
with the Army in an analytical effort that documents current transient 
training facility status, assesses the current ORTC implementation 
plan, recommends changes/improvements in design, and develops a 
synchronized strategic communications plan in order to gain support for 
increased and accelerated ORTC funding in the Army budget formulation 
process.
    We can't accomplish any of the foregoing without the support of the 
families and employers of our men and women. That support is critical 
to any endeavor the Department attempts. We have seen that where 
assigned missions are anticipated, planned in advance, and matched with 
the right supportive resources, families and employers will step up to 
support their Citizen Warriors. We must continue to engage and support 
families and employers through well planned and well resourced efforts 
such as: unit family readiness programs, the Yellow Ribbon Re-
integration process, and the National Committee for Employer Support of 
Guard and Reserve.
    The Yellow Ribbon Program (YRP) originates from the 2008 National 
Defense Authorization Act. It is a DOD-wide effort to help National 
Guard and Reserve servicemembers and their families connect with local 
resources before, during, and after deployments, especially during the 
reintegration phase that occurs months after they return home. 
Commanders and leaders play a critical role in assuring that Reserve 
servicemembers and their families attend Yellow Ribbon events where 
they can access information on health care, education/training 
opportunities, financial, and legal benefits. The DOD works in 
conjunction with Federal partners, including the Department of Veterans 
Affairs and the Department of Labor, to provide up-to-date and relevant 
information to servicemembers and their loved ones. This program has 
met with great success and continues to fill a definite need. In fiscal 
year 2009 the Yellow Ribbon Program conducted the following events:

----------------------------------------------------------------------------------------------------------------
                                                              U.S. Marine                 U.S. Air
                                      National    U.S. Army      Corps      U.S. Navy      Force        Total
                                       Guard       Reserve      Reserve      Reserve      Reserve
----------------------------------------------------------------------------------------------------------------
Number of Events..................          906          180          120          145           93        1,444
Servicemembers served.............       54,472       11,701        2,500       18,313        4,115       91,101
Family members served.............       72,316       11,631        3,037       12,757        3,280      103,021
----------------------------------------------------------------------------------------------------------------

    Employer Support of the Guard and Reserve (ESGR) engagement has 
grown significantly in recent years, ESGR's vision is, ``to develop and 
promote a culture in which all American employers support and value the 
military service of their employees with ESGR as the principal advocate 
within DOD.'' The ESGR mission is ``to develop and promote employer 
support for Guard and Reserve service by advocating relevant 
initiatives, recognizing outstanding support, increasing awareness of 
applicable laws, and resolving conflict between employers and 
servicemembers.'' ESGR has a footprint in all 50 States, U.S. 
Territories, and DC with over 4,600 volunteers assisting employers and 
servicemembers on a daily basis. In striving to enhance employer 
support, ESGR relies on recognition programs, including the 
servicemember-nominated Patriot Award and the Secretary of Defense 
Employer Support Freedom Award, where 15 employers are honored for 
their outstanding support of Guard and Reserve servicemembers annually. 
With current ongoing global operations, combat-related and 
humanitarian, the support of employers and families has never been more 
critical to our national defense. The data below shows the improving 
trend of the ESGR programs/activities over the last 3 fiscal years.

                                               ESGR BY THE NUMBERS
----------------------------------------------------------------------------------------------------------------
                                Employers   Servicemembers     USERRA       Cases Mediated     Average Mediated
         Fiscal Year             Briefed        Briefed       Inquiries        (Percent)            in Days
----------------------------------------------------------------------------------------------------------------
2007........................       69,614        232,808         13,116          1,742=73.4                19.9
2008........................      148,463        341,953         13,090          1,899=71.3                14.2
2009........................      162,849        443,833         15,870          1,982=80.1                 6.7
----------------------------------------------------------------------------------------------------------------

    Despite all of the good work done by our National Committee for 
Employer Support and by the Defense Advisory Board for ESGR, I believe 
more must be done. Historically, our efforts in this area have been to 
sustain and maintain existing employment relationships. But in today's 
very tough job environment, some Citizen Warriors return from a 
deployment to find their jobs sharply curtailed or gone entirely. All 
of us involved in the ESGR effort are looking for ways to support job 
development. This will not only help our Citizen Warriors, it will help 
those American businesses that are looking for the kind of high-skill, 
high integrity people who serve in the Reserve and National Guard.
    We also have the unique opportunity to support the President's 
education agenda and manage two youth outreach programs in order to 
achieve our national security objectives. The President's Budget 
request continues to support the DOD STARBASE and National Guard Youth 
Challenge Programs. Both programs leverage the knowledge, experience, 
and skills of our DOD civilian and military members to help prepare our 
youth to become productive and contributing citizens of our society.
    The President has made the learning of science, technology, 
engineering, and math (STEM) a national priority. The DOD STARBASE 
Program supports this effort and provides elementary and middle school 
students with real-world applications of STEM through experiential 
learning, simulations, and experiments. The STARBASE Program utilizes 
instructional modules with high benchmarks linked to State standards. 
Teamwork and goal setting are also integrated into the curriculum. The 
fiscal year 2011 budget will support over 65,000 students participating 
in the program from approximately 1,250 schools and 350 school 
districts, which includes schools from Native American communities in 
Mississippi, Oklahoma, and South Dakota. Since the program's inception, 
over 560,000 youths have attended the program, pre and post testing 
showed a significant improvement in student's understanding and 
interest in STEM, and a desire to pursue further education. Currently, 
there are 60 DOD STARBASE Program sites on military facilities in 34 
states, the District of Columbia, and Puerto Rico.
    Many of you may also be aware of the President's 2020 education 
goal of being first in the world in college completion, and how an 
important piece of work is re-engaging high school dropouts. I am 
working with General McKinley, Chief of the National Guard Bureau, and 
the State Adjutants General to provide oversight, but more importantly 
to support the National Guard Youth Challenge Program so that every 
qualified high school dropout has an opportunity to attend a program. 
The National Guard Youth Challenge Program is currently operating at 32 
sites in 27 States and Puerto Rico, and is one of several ways the 
administration is approaching the dropout crisis. The goal of the 
Program is to improve the education, life skills, and employment 
potential of America's high school dropouts. This is accomplished by 
providing quasi-military based training, supervised work experience and 
advancing the program core components. The core components include 
assisting participants to obtain a high school diploma or equivalent, 
developing leadership qualities, promoting fellowship and service to 
community, developing citizenship, life-coping and job skills, and 
improving physical fitness, health, and hygiene. Since the program's 
inception over 90,000 students have successfully graduated from the 
program, with 80 percent earning their high school diploma or GED. The 
average cost per Challenge student is approximately $16,800. The fiscal 
year 2011 budget will support increasing annual enrollment and/or start 
up new programs in states that have the fiscal resources to match the 
cost-share funding requirements and to sustain the program's viability 
in states that have budget limitations. These two successful DOD youth 
outreach programs provide the Department an opportunity to connect with 
the American public and work with our Nation's most valued resource--
our young people.
                        what constitutes success
    With appropriate advanced planning and proper support, Guard and 
Reserve Forces have the potential to greatly increase the Department's 
capacity both traditional and emerging mission areas. The long term, 
recurring, and predictable nature of many of the requirements we face 
in the contemporary strategic environment are ideally suited for the 
National Guard and Reserve. Such missions include post-hostility 
stabilization tasks, theater security cooperation requirements, and 
engagement activities that are essential to dissuade or deter potential 
foes and build partnership capacity.
    A major factor in shaping the 2010 Quadrennial Defense Review was 
the realization that the complexity of the current security environment 
and the uncertainty of future threats requires the Nation to have `` . 
. . a broad portfolio of military capabilities with maximum versatility 
across the widest possible spectrum of conflicts,'' as Defense 
Secretary Robert Gates testified on 2 February 2010.
    Achieving the defense strategy articulated in the QDR requires a 
vibrant National Guard and Reserve, seamlessly integrated within the 
Total Force. If the National Guard and Reserve are utilized in a 
deliberately planned way, and are seamlessly integrated as members of a 
true Total Force, the Nation will reap the benefits deserved. We must 
recognize:

        <bullet> RC servicemembers volunteered to serve with the 
        expectation that they would be judiciously used, and they do 
        not want to return to being exclusively a ``strategic 
        reserve.''
        <bullet> The National Guard and Reserves are cost-effective. 
        Using a force in its 1 year of ``rotational availability'' 
        permits a 5 year preparation with personnel costs that are only 
        a fraction of a force on full time active duty, and without 
        most of the support infrastructure and sustainment costs of 
        active duty units.
        <bullet> Using the National Guard and Reserve increases Active 
        component dwell to deployment ratio, and helps to sustain that 
        force for future use.
        <bullet> Using the National Guard and Reserve allows us to take 
        full advantage of unique skills and capabilities resident in 
        our Reserve components. Guardsmen and reservists bring valuable 
        professional, technical and managerial skills from the private 
        sector that match well with many current and anticipated DOD 
        requirements.
        <bullet> Homeland Defense and Defense Support to Civil 
        Authorities are Total Force responsibilities. Reserve 
        components, particularly the National Guard, are the center of 
        gravity for DOD Homeland Defense response operations. RC roles 
        continue to evolve in this complex environment, but one thing 
        is certain - the community basis of the Guard and Reserve have 
        them already ``forward deployed'' in this critical AOR. They 
        have the local knowledge necessary to succeed in times of 
        greatest stress on local people and institutions.
        <bullet> We can achieve higher utilization rates of expensive 
        assets by increasing the use of equipment and facilities that 
        are shared between Active and Reserve component units. In 
        particular, increasing the Active and Reserve crew and 
        maintainer ratios of our most modern and expensive aircraft 
        seems to me to make good sense, and could be an immediate 
        benefit.
        <bullet> We must recruit and retain prior-service personnel--a 
        proven capability of both the National Guard and Reserves--
        thereby preserving the expensive training costs invested in 
        these personnel while they served on active duty. This is often 
        an under-appreciated return on investment that must be taken 
        into account when we calculate the cost and value of the 
        Reserve components.
        <bullet> When they are used correctly, there is a cumulative 
        and positive readiness impact on Guard and Reserve Forces that 
        will pay immediate dividends if they are called to respond to 
        an unanticipated contingency and helps the Active components 
        also.
        <bullet> As a community-based force, the Reserve and National 
        Guard provide a unique connection to the American people that 
        facilitates an awareness and engagement on key national 
        security issues. This connection is essential to maintaining 
        the Nation's commitment to our armed forces.
        <bullet> I ask your support of the legislative proposals that 
        will enable the Department to accomplish many of the ideas 
        promoted here:

                <bullet> The extension of bonuses and special pays
                <bullet> Authority to allow servicemembers to designate 
                the best person to travel to Yellow Ribbon events
                <bullet> Special assignment of dual status military 
                technicians
                <bullet> Revised structure and functions of the Reserve 
                Forces Policy Board

    We need your support of those proposals, particularly the increase 
in full-time support which forms an increasingly important part of the 
manning for the Reserve components. With more frequent unit 
mobilizations, the Guard and Reserves need more non-deploying full-time 
positions to perform those enduring ``home station'' administrative, 
maintenance, fiscal and support functions which otherwise are disrupted 
if performed by a military member who must be absent for a deployment. 
The 2010 QDR calls for a comprehensive review of the future role of the 
Reserve component, including an examination of the balance between 
Active and Reserve Forces. Effective use of the Reserve components will 
act as a force multiplier, increasing the capacity and expanding the 
range of available capabilities; thus enhancing and preserving the All-
Volunteer Force. Force multiplication is generated through lower 
overall personnel and operating costs, a right mix and availability of 
equipment, a more efficient and effective use of defense assets, and an 
increased sustainability of both the Active and Reserve components. The 
National Guard and Reserves have capability and capacity to continue if 
properly funded and equipped.
                               conclusion
    As we reinforce policies, implement strategies and continue to call 
upon our Reserve components, we must remember that judicious use is 
still the watchword. The National Guard and Reserve continue to be a 
mission-ready critical element of our National Security Strategy. 
Because our Reserve components will be asked to continue in their role 
as an operational force, we must ensure a Total Force Policy exists 
that supports employment of the Reserve components in both an 
operational and strategic role. Working together, we can ensure that 
the Reserve components are trained, ready, and continue to perform to 
the level of excellence that they have repeatedly demonstrated. Thank 
you very much for this opportunity to testify on behalf of our Guard 
and Reserve.

    Senator Graham [presiding]. Thank you, Mr. Secretary.
    I apologize, I think the best thing for us to do now is to 
recess, because time's about out. I'll go vote. We'll come 
back, and so we'll stand down for a few minutes.
    We'll be in recess. Thank you.
    [Recess.]
    Senator Webb [presiding]. The hearing will again come to 
order.
    I was informed by staff that, Secretary McCarthy, you were 
able to finish your statement and we've not yet begun with 
General McKinley.
    So, General, let me start by saying--I understand there's 
only one statement from the National Guard. Is that correct?
    General McKinley. Sir, I have brief remarks, and I was 
going to let the Directors of the Air and the Army just make 
very brief remarks also.
    Senator Webb. I would encourage them to do so. I was told 
by staff that we only got one written statement.
    General McKinley. I will introduce the two directors, and 
they represent the bulk of our portfolio.
    Senator Webb. So, is there a written statement from either 
of them?
    General McKinley. We have one written statement, and then 
we were going to make three verbal statements.
    Senator Webb. All right.
    General McKinley. Is that okay?
    Senator Webb. Proceed.
    General McKinley. Thanks, Senator.

  STATEMENT OF GEN. CRAIG R. McKINLEY, USAF, CHIEF, NATIONAL 
                          GUARD BUREAU

    General McKinley. Chairman Webb, it's an honor and 
privilege to be here today to discuss the National Guard's 
personnel issues related to its ongoing role as an operational 
force.
    The evolution of today's threat environment has made it 
essential for the National Guard to strike the proper balance 
between operational force and strategic hedge. The asymmetry of 
our adversaries require us to have an adaptable force that is 
capable of efficiently engaging in the current fight while 
maintaining a cost-effective surge capability prepared for 
tomorrow's threat.
    Today, there are about 460,000 members of the Army and the 
Air National Guard. Our strength is good, and our retention is 
even better.
    With me today is Lieutenant General Bud Wyatt, the Director 
of the Air National Guard and a former adjutant general of 
Oklahoma. Also with me is Major General Ray Carpenter, the 
acting Director of the Army Guard from South Dakota, and Major 
General Mike Summeral, Director of our National Guard Joint 
Staff from Alabama, and a former adjutant general.
    As the U.S. Armed Forces continue to conduct operations in 
Iraq, Afghanistan, and elsewhere around the world, units of the 
Army and the Air National Guard are participating as total 
force partners in that effort. I'd like to personally thank 
General Casey and General Schwartz and the Secretaries of the 
Army and the Air Force for including the National Guard in 
their force as planning constructs and all they do for the 
National Guard.
    The National Guard has repeatedly, over the past decade, 
proven itself to be a ready, accessible, and, I would include, 
a reliable force. We have validated the total-force concept by 
showing that the men and women in our formations are ready to 
answer the call, to be mobilized, or, in the case of the Air 
National Guard, to be volunteered to deploy overseas, return 
home, and then become prepared to do it again and again.
    The citizen soldiers and airmen of your National Guard are 
adding value to America every day that they serve. The 
capabilities they bring to bear would not have been possible 
without the strong support of this committee, and we thank you 
all very much for that support, to include your support of 
Yellow Ribbon and other personnel programs that take care of 
soldiers and airmen and their families.
    The most critical part of the proven capability, however, 
is our National Guard men and women. Today's men and women 
volunteer to join or stay in the National Guard, fully 
expecting to be deployed. This shift in expectation is a 
central aspect of the National Guard and, I would argue, with 
my colleagues from the other Reserve components, shift to 
becoming a fully operational force, and no longer merely a 
strategic reserve. Indeed, the soldiers and airmen of your 
National Guard now serve with that expectation, and are proud 
of it. They want to remain central players in the Nation's 
defense, and would, indeed, be resistant to any move to return 
to a role limited to a strictly strategic reserve.
    Overall, we can say that the budget request for fiscal year 
2011 meets the critical needs of the Army and the Air National 
Guard in this era of persistent conflict overseas and the 
ongoing threats to American lives and property here in the 
Homeland.
    One of the longest-running joint programs in the National 
Guard, one which employs both Army and Air National Guard 
capabilities, is the National Guard Counterdrug Program. This 
unique program provides a mechanism under which National Guard 
military experience can be employed to assist civilian law 
enforcement agencies to fight the corrosive effect of illegal 
drugs in American society. Funding for our Counterdrug Program 
is included in the fiscal year 2011 budget request, and we 
would ask for your full support of that request. As we've seen 
with recent incidents along our southwest border, the scourge 
of drugs migrating across our borders constitutes a real 
threat. Consequently, our National Guard Counterdrug Program 
fills a very vital need.
    We are well aware that last year, as it has done in 
previous years, this committee supported significant additional 
funds for that Counterdrug Program to fund capability 
enhancements. Nearly a quarter of the capability of the 
National Guard Counterdrug Program exists today because of 
additional funding provided in the past by Congress.
    I would now like to turn to my colleagues from the Army and 
Air National Guard for their brief verbal comments. To my 
friend and flightmate, Bud Wyatt.

 STATEMENT OF LT. GEN. HARRY M. WYATT III, USAF, DIRECTOR, AIR 
                         NATIONAL GUARD

    General Wyatt. Mr. Chairman and members of the committee, 
thank you very much for the opportunity to discuss issues of 
vital importance that impact----
    Senator Webb. General Wyatt, welcome. Let me just reiterate 
what I said a minute ago. It's my understanding this is the 
first time that there's not been separate written statements by 
all three witnesses from the National Guard.
    General Wyatt. Yes, sir. But, I would assure the chairman 
that my written inputs were included in those of General 
McKinley. I did have input.
    Senator Webb. It's traditional to receive separate written 
statements, and we would expect that. We'd certainly want to 
see that next year.
    General Wyatt. Yes, sir.
    Senator Webb. Thank you.
    General Wyatt. Mr. Chairman, Air National Guard airmen are 
volunteering at unprecedented rates and risking their lives 
daily because they believe strongly in what they're doing for 
their country and their communities.
    Since September 11, 146,000 Air National Guard members have 
deployed overseas, many of them on second and third rotations 
to the combat zones. In the past year alone, we have deployed 
18,366 servicemembers to 62 countries and every continent on 
the face of the Earth, including Antarctica.
    The Air National Guard continues to prove the availability 
and accessibility of the Guard to our Nation and to our 
communities. In the past year, Air Guard members helped their 
fellow citizens battle floods, mitigate the aftermath of ice 
storms, fight wildfires, and provide relief from the 
devastating effects of tsunamis.
    Early last year, Guard members from Kentucky, Arizona, and 
Missouri responded to debilitating ice storms, which resulted 
in the largest National Guard callup in Kentucky's history.
    Last spring, North Dakota, South Dakota, and Minnesota Air 
National Guard members provided rescue relief and manpower in 
response to midwest flooding. Similar efforts continue this 
year, with the recent flooding in Tennessee and surrounding 
areas.
    Last September, the Hawaii Air National Guard sent 
personnel from their Chemical, Biological, Radiological, 
Nuclear, and High-Yield Explosive Enhanced Response Force 
Package (CERFP), a command-and-control element, and a mortuary 
affairs team to American Samoa, in response to an 8.4-
magnitude-earthquake-generated tsunami.
    These are just a few of the examples of how the Air 
National Guard provides exceptional expertise, experience, and 
capabilities to mitigate disasters and their consequences. 
Without the stewardship of your committee, our airmen would 
have an incredibly difficult time doing their jobs and taking 
care of their families. We're thankful for everything that you 
and the committee have done, and continue to do, to let our 
members know that America cares about them and is grateful for 
their service.
    In conclusion, with the continued support of Congress, the 
Air National Guard will continue to develop and field the most 
capable, cost-effective force that serves with pride and 
distinction at home and abroad. It's an honor and privilege to 
be here this morning. I look forward to answering any questions 
that you or the committee may have.
    Thank you, sir.
    Senator Webb. Thank you, General Wyatt.
    General Carpenter, welcome.

 STATEMENT OF MG RAYMOND W. CARPENTER, ARNG, ACTING DIRECTOR, 
                      ARMY NATIONAL GUARD

    General Carpenter. Thank you, sir.
    Mr. Chairman, I am honored to represent more than 362,000 
citizen soldiers in the Army National Guard. As I speak, we 
have over 52,000 of our soldiers deployed, mobilized, and on 
point for this Nation. The sacrifice of those soldiers, their 
families, and their employers is something we must not only 
acknowledge, but certainly appreciate.
    The National Guard of today is a far cry from the one I 
joined. The last 8 years have seen the Guard transform to an 
operational force. The enablers for the Army National Guard 
have been provided and sustained by congressional initiatives, 
and we thank you for your continued support.
    Today, we would like to highlight our requested increase in 
non-dual status technicians. These civilian technicians have 
emerged as being more important, as the Army Guard has shifted 
from being a strategic reserve to being a frequently deployed 
operational force. The President's budget for fiscal year 2011 
requests an increase in Army National Guard non-dual status 
employees from 1,600 to 2,520. We ask the committee to provide 
this increase in its mark of the National Defense Authorization 
Act for Fiscal Year 2011.
    We also want to talk about accessibility today. We feel 
that our deployment numbers speak for themselves. In July 2009, 
mobilizations reached the highest point since 2005, of more 
than 65,000 soldiers. An additional 5,500 soldiers were 
mobilized for other contingency operations in Bosnia, Kosovo, 
Sinai, the Horn of Africa, and also for domestic operations. 
The National Guard has been there when called. We are 
accessible.
    Many have expressed concern about the Army Guard's ability 
to continue to deploy and meet future requirements. I believe 
our personnel numbers answer the question. We continue to 
exceed recruiting goals, and our retention rate averages 110 
percent. The men and women who serve in the Army National Guard 
today do so with full understanding that they are likely to be 
deployed overseas. Some of them join for that very reason. The 
shift in expectation is a central aspect of the National 
Guard's shift to being a fully operational force.
    Today's Army National Guard soldiers join and reenlist with 
the expectation of serving at home and abroad, and they are 
proud of it. I appreciate the opportunity to be here today and 
look forward to your questions.
    [The joint prepared statement of General McKinley, General 
Wyatt, and General Carpenter follows:]
  Joint Prepared Statement by Gen. Craig R. McKinley, USAF; Lt. Gen. 
      Harry M. Wyatt III, USAF; and MG Raymond W. Carpenter, ARNG
                            opening remarks
    Chairman Webb, Ranking Member Graham, distinguished members of the 
subcommittee; I appreciate the opportunity to appear before you today 
to discuss the National Guard's personnel issues related to its ongoing 
role as an operational force. The evolution of today's threat 
environment has made it essential for the National Guard to strike the 
proper balance between operational force and strategic hedge. The 
diversity of our adversaries require us to have an adaptable force that 
is capable of efficiently engaging in the current fight while 
maintaining a cost-effective surge capability prepared for tomorrow's 
threat.
    Today there are about 460,000 members of the Army and the Air 
National Guard. Our strength is good and our retention is even better.
    As the U.S. Armed Forces continue to conduct operations in Iraq, 
Afghanistan and elsewhere around the world, units of the Army and Air 
National Guard are participating as total force partners in that 
effort.
    The National Guard has repeatedly proven itself to be a ready, 
accessible force. We have validated the total force concept by showing 
that the men and women in our formations are ready to answer the call, 
to be mobilized, to deploy overseas, return home, and then become 
prepared to do it again and again.
    The citizen soldiers and airmen of your National Guard are adding 
value to America every day that they serve. The capabilities they bring 
to bear would not have been possible without the strong support of this 
committee, and we thank you all very much for that support.
    The most critical part of that proven capability, however, is our 
National Guard men and women. Today's men and women volunteer to join 
or stay in the National Guard fully expecting to be deployed. This 
shift in expectation is a central aspect of the National Guard shift to 
being a fully operational force and no longer merely a strategic 
reserve.
    Indeed, the soldiers and airmen of your National Guard now serve 
with that expectation and are proud of it. They want to remain central 
players in the Nation's defense and would, indeed, be resistant to any 
move to return to a role limited to strictly strategic reserve.
    In addition, the Department of Defense is moving forward to 
identify a nominee for the position of Director of the Army National 
Guard. Once that occurs we would be most grateful for your support and 
that the Senate move quickly to confirmation.
    Overall, the budget request for fiscal year 2011 meets the critical 
needs of the Army and Air National Guard in this era of persistent 
conflict overseas and ongoing threats to American lives and property 
here in the homeland.
    One of the longest running joint programs in the National Guard, 
one which employs both Army and Air National Guard capabilities, is the 
National Guard Counterdrug Program. This unique program provides a 
mechanism under which National Guard military experience can be 
employed to assist civilian law enforcement agencies to fight the 
corrosive effect of illegal drugs in American society.
    Funding for our counterdrug program is included in the fiscal year 
2011 budget request, and it is important that the program is fully 
funded. The recent incidents along the southwest border and the scourge 
of drugs migrating across our borders constitutes a real threat. 
Consequently, our National Guard counter drug program fills a very 
vital need.
    Below you will find detailed information about personnel matters as 
they pertain to the Air and Army National Guard.
                           air national guard
America's Exceptional Force, Home and Away
    The Air National Guard anchors the Total Air Force team, providing 
trained and equipped units and personnel to protect domestic life and 
property; preserving peace, order, and public safety; and providing 
interoperable capabilities required for Overseas Contingency 
Operations. The Air National Guard, therefore, is unique by virtue of 
serving as both a Reserve component of the Total Air Force and as the 
Air component of the National Guard.
    Upon founding in 1947, the Air Guard served primarily as a 
strategic reserve for the U.S. Air Force. Increasingly and 
dramatically, the Air National Guard has become more of an operational 
force, fulfilling U.S. Air Force routine and contingency commitments 
daily. Since September 11, over 146,000 Guard airmen have deployed 
overseas. A snapshot of U.S. forces at any time shows Air Guard members 
in all corners of the globe supporting joint and coalition forces in 
mission areas such as security; medical support; civil engineering; air 
refueling; strike; airlift; and intelligence, surveillance, and 
reconnaissance.
    By any measure, the Air National Guard is accessible and available 
to the combatant commanders, Air Force and our Nation's governors. 
Currently, the Nation has over 13,000 Air National Guard members 
deployed in Iraq, Afghanistan, and other overseas regions. At 16 alert 
sites, three air defense sectors, and Northern Command, 1,200 Guard 
airmen vigilantly stand watch over America's skies. Amazingly, 75 
percent of our deployed individuals are volunteers, and 60 percent are 
on their second or third rotations to combat zones. Percentages like 
these speak volumes about the quality and sense of duty of America's 
Air National Guard force!
    The Air National Guard supports State and local civil authorities 
with airlift, search and rescue, aerial firefighting, and aerial 
reconnaissance. In addition, we provide critical capabilities in 
medical triage and aerial evacuation, civil engineering, infrastructure 
protection, and hazardous materials response with our Civil Support 
Teams and our Chemical, Biological, Radiological, Nuclear, and high-
yield Explosive Enhanced Response Force Packages (CERFPs).
    In the past year, Air Guard members helped their fellow citizens 
battle floods, mitigate the aftermath of ice storms, fight wild fires, 
and provide relief from the devastating effects of a tsunami. Early in 
the year, Guard members from Kentucky, Arizona, and Missouri responded 
to debilitating ice storms, which resulted in the largest National 
Guard call-up in Kentucky's history. Last spring, North Dakota, South 
Dakota, and Minnesota Air National Guard members provided rescue relief 
and manpower in response to Midwest flooding. In September, the Hawaii 
Air National Guard sent personnel from their CERFP, a command and 
control element, and a mortuary affairs team, to American Samoa in 
response to an 8.4 magnitude earthquake-generated tsunami. These are 
just a few examples of how the Air Guard provides exceptional 
expertise, experience, and capabilities to mitigate disasters and their 
consequences.
    Within the Total Force, the Air National Guard provides 
extraordinary value in terms of delivering the most immediately 
available capability for cost in meeting America's national defense 
needs. In its domestic role, the Air Guard provides capabilities to 
support local emergency responders with life and property saving 
capabilities and expertise in consequence management not usually found 
elsewhere in the Total Force.
    The changing nature of our force and our mission causes us to 
relook the rank structure of our full-time support personnel, 
particularly at the more senior mid-management levels. Specifically, we 
are examining whether we face a growing need for majors, lieutenant 
colonels and colonels as well as Senior Master Sergeants and Chief 
Master Sergeants. The number of airmen we are allowed to have in these 
grades is limited by law.
Best Value for America
    The outstanding men and women of the Air National Guard continue to 
defend American interests around the world. Throughout 2009, the Air 
National Guard projected global presence in a variety of missions in 
regions ranging from the Balkans to Southwest Asia and from Eastern 
Europe to Latin America. We have provided much more than airpower, 
contributing our exceptional capabilities in security, medical, 
logistics, communications, civil support, and engineering, in order to 
support our Nation's national security.
    While the strategic environment has continually changed throughout 
history, the Air Guard has proven itself an adaptive force, able to 
meet any new challenges. One reason for this success is that Guard 
members normally live in the same communities in which they serve 
during times of natural disasters or when called upon to respond to 
national emergencies. Our Guard members know the folks they support 
very well, because they work together, their children attend the same 
schools, and they shop at the same business establishments. Our fellow 
citizens know the local Guard members and their contributions, and 
their appreciation has been illustrated through countless welcome home 
parades and outpouring of support over the years.
    Throughout history, many of the issues our forbearers faced are 
essentially the same issues we face today: aging capabilities and 
declining budgetary resources. The Air National Guard has consistently 
provided the answer in an efficient, cost-effective, community-based 
force that is ready and responsive to domestic and national security 
needs.
Best Value in Personnel, Operations, and Infrastructure
    During the past year, the Air National Guard has deployed 18,366 
servicemembers to 62 countries and every continent, including 
Antarctica. The Air National Guard provides a trained, equipped, and 
ready force for a fraction of the cost. We provide a third of Total Air 
Force capabilities for less than 7 percent of the Total Force budget. 
In all three areas--personnel, operations, and facilities--the Air 
Guard provides the ``Best Value for America.''
    A key Air National Guard efficiency is the part-time/full-time 
force structure mix. The predominantly part-time (traditional) force 
can mobilize quickly when needed for State disaster response missions, 
homeland defense, or when we need to take the fight overseas.
    We have the ability to maintain a stable force with considerably 
fewer personnel moves than the Regular Air Force, which is a critical 
factor in our cost-effectiveness. Traditional National Guard members 
cost little, unless on paid duty status. Some Air National Guard 
efficiencies compared to regular military components include:

        <bullet> Fewer ``paydays'' per year
        <bullet> Lower medical costs
        <bullet> Significantly lower training costs beyond initial 
        qualification training
        <bullet> Virtually no costs for moving families and household 
        goods to new duty assignments every 3 or 4 years
        <bullet> Fewer entitlements, such as basic allowances for 
        housing
        <bullet> Lower base support costs, in terms of services, 
        facilities, including commissaries, base housing, base 
        exchanges, child care facilities, etc.

    The Air National Guard is an operational reserve with surge 
potential, with 2,200 mobilized and 5,700 volunteering per day. If this 
force were full-time active duty, the military personnel budget would 
be $7.62 billion. Air National Guard military personnel pay in fiscal 
year 2009, including military technician pay, was $4.77 billion, for a 
yearly cost savings of $2.85 billion, or a daily cost savings of $7.8 
million.
    Whether compared to another major Air Force command, or even to the 
militaries of other countries, the Air National Guard is an 
extraordinary value. In direct comparison with the militaries of France 
and Italy, for example, our Air National Guard members cost only 
$76,961 per member, while the bills of those countries respectively run 
to $128,791 and $110,787 per member. Further, compared to the U.S. Air 
Force, cost per Air Guard member is less than a fifth of that of the 
Regular Air Force. Comparisons such as these illustrate well the cost 
savings realized with an operational reserve possessing surge 
potential.
    Operational savings are due to the Air National Guard's experienced 
force and lean operating methods. An examination of the Air National 
Guard's F-16 maintenance by Rand Corporation last year highlighted the 
ability of our maintenance personnel to generate double the amount of 
flying hours in a one-to-one comparison of full-time equivalents.
Recruiting and Retention
    Air National Guard Recruiting and Retention programs play a 
critical role in supporting today's fight and how we posture our force 
for the future. The commitment of our field commanders and their 
exceptional recruiters are key factors in recruiting successes. Their 
partnership with the National Guard Bureau has enabled us to remove 
barriers that traditionally prevented the ability to meet end strength. 
The Air National Guard continues to build on that success and has 
focused its efforts to target critical needs.
    As of April 22, 2010, Air National Guard end strength is 108,420. 
The challenge as we move forward is to strike a delicate balance of 
remaining close to end strength while strengthening ``effective'' 
recruiting. We show troubling signs in specific areas of officer 
recruiting (currently 1,500 short) and critically manned mission areas 
including Health Care Professionals, Chaplains, Engineers, 
Intelligence, and Mobility aviators. To compensate for lagging prior 
service numbers, the Air National Guard increased its emphasis on the 
non-prior service market. This required increases in advertising to the 
non-prior service market through radio, theatre, print media and web 
sites, as well as additional recruiters, community presence with store-
front offices and additional advertising dollars. The continued support 
of the Air Force, Department of Defense, and Congress will undoubtedly 
shape the foundation of their success.
    The quality of Air National Guard recruits has not declined and 
their retention rate remains strong at 96.9 percent. The Air National 
Guard saves on average $62,000 in training cost for every qualified 
member retained or recruited. Our focus in this area allows us to 
retain critical skills lost from the Active component and save valuable 
training dollars.
    In 2009, through the use of our 14 In-Service Air National Guard 
recruiters strategically placed at active duty bases, the Air National 
Guard garnered approximately 896 confirmed accessions of a total of 
5,309 accessions. The bonuses and incentive programs are a key 
component to that success.
    Our Air National Guard incentive program is a critical component in 
our Recruiting and Retention efforts and serves to motivate and support 
manning requirements in units with skills that are severely or 
chronically undermanned. It is established to encourage the 
reenlistment of qualified and experienced personnel. Stable funding for 
the Air National Guard Recruiting and Retention program is critical to 
our success.
Airman and Family Readiness Programs
    In focusing on our airmen we must also focus on the most important 
people in their lives--their families. The Air National Guard is a 
wing-centered organization. Our 92 Wing Family Program Coordinators 
around the Nation are at the center of our efforts to ensure our airmen 
and their families receive the support they need.
    In past year we were successful in having these coordinator 
positions upgraded from GS-9 to GS-11. Our coordinators are one-deep 
positions for us, so most of the effort is done through part-time 
support.
    This is one area where we differ dramatically from our Regular Air 
Force counterparts. The Air National Guard does not have Airman and 
Family Readiness Centers as they have on active duty bases. In a 
culture that does not believe in saying ``no,'' our program 
coordinators have more and more piled onto their plates, thereby 
threatening the overall quality of service, if the Air National Guard 
maintains its pace as an operational force.
    Programs like Operation Military Child Care have been very helpful. 
Also, military and community partners like Military OneSource, Military 
Family Life Consultants, and Operation Military Kids, just to name a 
few, are extremely beneficial in meeting the needs of the Guard airmen, 
especially while deployed. Youth Development Camps like Air Force Teen 
Aviation, Air Force Space Camp, and the Air Force Reserve/Air National 
Guard Leadership Summits are huge successes as well. Additionally, this 
year we are conducting training such as Community Healing and Response 
Training, which is part of the Yellow Ribbon Reintegration Program, and 
essential in our suicide prevention efforts.
    For the Air National Guard, we believe maintaining strong family 
support programs are critical to ensuring the overall health of our 
force and our Guard airmen.
Employer Support for the Guard and Reserve
    We must recognize the importance of support for military service by 
families, military leadership and civilian employers. This is referred 
to as the ``Triad of Support.'' It is important to maintain an overall 
climate in which military service is honored and supported. The 
Department of Defense's organization that addresses civilian employer 
support is Employer Support for the Guard and Reserve. Their vision is 
to develop and promote a culture in which all American employers 
support and value the military service of their employees serving in 
the Guard and Reserve. Employer Support for the Guard and Reserve 
accomplishes this by gaining and maintaining employer support for Guard 
and Reserve service by recognizing outstanding support, increasing 
awareness of the law, and resolving conflict through mediation. A 
Statement of Support, a formal statement voluntarily signed by an 
employer, is one way to demonstrate support and acknowledge employer 
rights and responsibilities under the Uniformed Services Employment and 
Reemployment Rights Act. During fiscal year 2009, 54,965 employers 
signed Statements of Support for their employees serving in the Guard 
or Reserve. This is an increase from the 44,861 employers that signed 
Statements of Support in fiscal year 2008. Another indicator of the 
current employer support climate is the number of Uniformed Services 
Employment and Reemployment Rights Act cases requiring mediation. The 
average number of cases mediated has remained consistent over the last 
3 fiscal years: 2007 = 2,374, 2008 = 2,664 and 2009 = 2,475. These 
numbers indicate less than .01-percent of all Selective Reserve members 
who have opened a case to address employer issues. Based on these two 
indicators, it appears American employers are continuing to support 
their employees serving our Nation.
                          army national guard
    Today, 76,949 of our soldiers are mobilized, deployed, and on point 
for this Nation. The sacrifice of those soldiers, their families, and 
employers is something we must acknowledge and appreciate.
    The last 8 years have seen the Guard transform to an operational 
force. The enablers for the Army National Guard--one of the greatest 
forces for good-- have been provided and sustained by congressional 
initiatives. Thank you for your continued support.
    Today we would like to discuss the role of the Army National Guard 
as an operational force. We plan to describe our personnel challenges, 
significant accomplishments, and future operational requirements. Since 
September 11, 2001, the Army National Guard has transformed in several 
ways. The organization is no longer a strategic reserve; we are now and 
have been, for several years, an Operational Force.
Budget Requested Increase in Full-time Non-Dual Status Technicians
    The President's budget for fiscal year 2011 requests an increase in 
funding for Army National Guard non-dual status technicians from 1,600 
to 2,520--an additional 920 positions. We ask the committee to provide 
this increase in its mark of the National Defense Authorization Act for 
2011.
    Non-dual status technicians work primarily in personnel 
administration, contract management, information technology and similar 
support functions with the Army National Guard's frequent 
mobilizations, we find that we need these non-deploying civilian 
technicians to fill critical positions in our generating force. Filling 
these positions with dual-status military members who deploy creates a 
disruption in workflow. Thanks to a special wartime exception, the Army 
National Guard has been able to hire some additional temporary non-dual 
status technicians, but these hires are only on a year-to-year basis. 
Reliance on ``temporary'' technicians, however, causes instability for 
the employees themselves and in the work produced. For this reason we 
are asking for a formal increase in the authorization level of Army 
National Guard non-dual status technicians in the National Defense 
Authorization Act for Fiscal Year 2011.
    Last year, the conference committee directed the Secretary of 
Defense to submit to the defense committees an extensive report on the 
duties of and requirements for National Guard non-dual status 
technicians. We at National Guard Bureau are completing our input to 
that Department of Defense report.
Duties Performed by Non-Dual Status Technicians
    National Guard non-dual status technicians are employed in 
positions that do not have an associated deployable position. These 
positions are typically not inherently military in nature, are lower 
graded, and are not supervisory except when the supervision is over 
other non-mobilization positions. More than 88 percent of non-dual 
status technicians work in the areas of human resources, administrative 
services, financial services, and information technology. More than 95 
percent are in pay grades of GS-12 and below. Non-dual status 
technicians serve in positions that provide continuity of services in 
functional areas that continue to be required especially after large 
scale mobilizations within the State.
Current Authority for Non-Dual Status Technicians
    Under section 10217 of title 10, the Air National Guard and Army 
National Guard are limited to a total of 1,950 non-dual status 
technicians across the two organizations. This limit of the current law 
has been in place unchanged since 1997. The National Defense 
Authorization Act has been annually prescribing the number of positions 
for the Army National Guard and Air National Guard at 1,600 and 350 
respectively.
    As the Army National Guard has transitioned from a strictly 
strategic reserve to more of a frequently and rotationally mobilized 
and deployed operational force both at home and abroad, it has become 
clear that more of the supporting positions at the State level need to 
transition from being held by deployable military members of the 
National Guard to being held by nondeployable civilian technicians. The 
Constitution Reserves to the States the authority of training the 
militia. Consequently it is necessary to provide the States with the 
type of staffing needed to achieve the goal of continuing to produce a 
ready operational force over the long term.
Current and Near-Term Means of Addressing the Technician Shortfall
    The Office of Personnel Management has delegated emergency hire 
authority for temporary non-dual status technicians. Each emergency 
hire technician is not to exceed a 2-year employment period for that 
position. This process is consistent with the stipulations of the 
Extension of Declaration of National Emergency. Using temporary non-
dual status technicians helps fill critical requirements left unfilled 
due to the 1,600 limit for the Army National Guard.
Future Technician Requirements
    The National Guard Bureau is in the process of assessing the 
overall longer-term needs of the force, including both the Army and the 
Air National Guard, to determine whether legislative changes are needed 
regarding non-dual status technicians to manage and support the 
National Guard beyond fiscal year 2011. This effort continues to be 
actively deliberated through processes inside the Department of Defense 
and we will communicate any additional requirements or requests to the 
committee once final determinations are made concerning the long-term 
appropriate levels of non-dual status technicians in the National 
Guard.
Full-Time Support and Active Duty Operational Support
    Adequate full-time support is essential for Reserve component unit 
readiness, training, administration, logistics, family assistance and 
maintenance, and a unit's readiness to deploy.
    Since September 11, 2001, the Army, the Army National Guard, and 
the Army Reserve have maintained a tremendous operational tempo 
(OPTEMPO). This high OPTEMPO has required an increased level of full-
time manning in order to prepare individuals and units for deployment. 
The Army National Guard and the Army Reserve have been able to meet the 
operational needs of the Army through the use of Active Duty 
Operational Support (ADOS) soldiers and other full-time equivalent 
manning, such as temporarily hired military technicians, to bridge 
full-time manning shortfalls.
    As a result it is clear that a robust authorization for Active Duty 
Operational Support is critical to the ability of the ARNG to continue 
its success in meeting Army mission requirements as a fully operational 
force.
Significant Achievements and Adequate Resources
    The intensive use of the Army National Guard over the last 8 years 
demonstrates the value-added role our citizen soldiers render in the 
defense and protection of our Nation at home and the support of the 
Nation's strategic missions abroad. In order to sustain the Army 
National Guard as an operational force and to provide consequence 
management response forces adequate resources are required. Our key 
goals in support of the transition to an operational force are: 
maintain end strength of at least 358,200; train the force to the 
desired levels of proficiency in accordance with the Army Force 
Generation Model (ARFORGEN). Our current manning level enables us to 
meet ARFORGEN readiness goals and provide the logistics train for 
maintaining and improving our infrastructure of buildings and 
equipment. In addition, the Army Equipping Strategy must ensure mission 
readiness, interoperability, and compatibility across all three Army 
organizations: Active Army, Army National Guard, and U.S. Army Reserve. 
As part of our domestic mission requirements, the Army National Guard 
must have a minimum of 80 percent of critical dual use equipment on-
hand and available at all times.
    As stewards of a 373-year militia tradition, we are privileged to 
uphold the institutions and maintain the infrastructure of our national 
readiness. Over 1,400 of our readiness centers are 50 years old or 
older. The Army National Guard requests continued support from the Army 
to provide necessary improvements, including energy saving initiatives 
for our readiness centers and other facilities. Another goal is to care 
for the force by improving soldier medical, dental, and family 
readiness.
    In order to minimize force structure turbulence, we need to retain 
our current key force structure elements of 8 Divisions, 8 Combat 
Aviation Brigades (CABs), 28 Brigade Combat Teams (BCTs) and functional 
brigades while addressing key Homeland Defense and Homeland Security 
requirements.
    The Army National Guard has made significant progress modernizing 
and converting to an operational force. The Army has transformed from a 
division-centric force to a more flexible brigade-centric force and is 
restructuring to create units that are more stand-alone and alike while 
enhancing full-spectrum capabilities. The Army National Guard BCTs are 
structured and manned identically to those in the active Army and can 
be combined with other BCTs or elements of the joint force to 
facilitate integration, interoperability, and compatibility across all 
components. The Army National Guard has transformed more than 2,800 
operating force units to modular designs.
    In fiscal year 2009, 46,220 Army National Guard soldiers were 
mobilized in support of combat operations (Iraq, Afghanistan, and 
Kuwait). Overlapping with soldiers deployed in fiscal year 2008, 
mobilizations reached the highest point since 2005 of more than 65,000 
soldiers. An additional 5,500 soldiers were mobilized for other 
contingency operations in Bosnia, Kosovo, Sinai, and the Horn of Africa 
and also for domestic operations.
    As part of transformation to an operational force, the ARNG 
rebalanced its force by reducing overall Force Structure Allowance 
(FSA) to approximately 350,000 authorizations while Congress maintained 
End Strength at 358,200. The resulting variance between FSA and end 
strength of 8,000 provided the ARNG some flexibility to implement an 
8,000 soldier trainees, transients, holdees and students account within 
the authorized end strength of 358,200 starting in fiscal year 2011. 
The initial program will concentrate on the medically non-deployable 
within the ARNG.
Recruiting
    We achieved our recruiting goals in fiscal year 2009 and we are on 
track to meet our fiscal year 2010 goal of maintaining our 
congressionally authorized end strength of 358,200 soldiers (actual 
strength is 361,904 as of March 31, 2010). We have shifted our focus 
from increasing the quantity of our assigned strength to improving the 
quality of our force. We applaud the leadership of Congress, Governors, 
adjutants general, and our communities for their incredible efforts and 
achievements in helping us build and maintain the Army National Guard 
as our Nation's largest community-based defense force. We are extremely 
proud of the overwhelming response of our patriotic communities and 
most grateful for congressional support to our citizen soldiers.
Stabilize the Force to Build Readiness
    One of the enduring lessons learned from the overseas contingency 
operations is that we need to stabilize and sustain our forces 
mentally, physically, and spiritually. This includes having an 
outstanding full-time support team. Today's full-time personnel are 
major contributors across the full spectrum of Army National Guard 
operations. Meeting the needs of the persistent conflict underscores 
the vital role full-time support personnel have in preparing units for 
the multitude of missions at home and abroad. The ARNG program consists 
of both military technicians and Active Guard Reserve soldiers. full-
time personnel sustain the day-to-day operations of the entire ARNG. 
The readiness levels of Army National Guard units are directly tied to 
the full-time support program. Congress has supported the ARNG full-
time support (FTS) through increased authorization over the last 
several years. Those increases coupled with the soldiers we have put on 
ADOS have allowed the ARNG to increase its readiness and be able to 
continue fighting the overseas contingency operations and become an 
operational force.
    To provide the best support and transition assistance for wounded, 
injured, and ill soldiers, the Army National Guard continued to support 
the Army's warrior transition units and community-based warrior 
transition units. The transition units provide non-clinical support, 
complex case management, and transition assistance for soldiers of all 
components at medical treatment facilities on Active Army 
installations. The community-based warrior transition units provide 
high-quality health care, administrative processing, and transition 
assistance for recuperating Reserve component soldiers while allowing 
them to live at home and perform duties close to their homes and 
families. At the end of fiscal year 2009, the warrior transition units 
managed more than 1,500 Army National Guard soldiers and the community-
based warrior transition units managed more than 900 ARNG soldiers 
throughout the United States.
    The Army National Guard remains committed to supporting the 
families of deployed soldiers throughout the deployment cycle. Every 
soldier needs a support structure and a network of protection that 
includes self readiness, within a circle of family support, within a 
band of unit and community brothers and sisters, and within the larger 
networks of State and national organizations.
    Army National Guard families were supported in numerous ways in 
fiscal year 2009. The National Guard Bureau's Family Program Office 
provided families with training via computer-based modules, centralized 
classes, and locally-provided lectures to help make families self-
reliant throughout the deployment cycle process. The Army Well-Being 
Program established the Army Families Online website, an information 
portal for families of National Guard soldiers. The Department of 
Defense Military OneSource Program provided benefits which include 
counseling services, resources for parents, assistance with consumer 
credit, and online tax return preparation for military families.
    The Resiliency Training Center focuses on prevention through 
proactive marriage workshops and stress-relief training before, during, 
and after deployments. The main goal of the resiliency program is to 
create ``resilient'' servicemembers and families. The mission of the 
program is to provide a continuum of care, including a comprehensive 
range of education, training, and the tools necessary to cope with high 
levels of stress. This includes the skills to identify potential 
problems and the team effort of developing both individual and group 
techniques for surviving and prospering in times of great stress.
    The Resiliency Training Program rolled out several courses in 
fiscal year 2009 by collaborating on their course material with Army 
and Battlemind leaders, leading military personnel and mental health 
experts, and leading researchers in the stress management field. This 
included teaming with course developers from the American Association 
of Emergency Psychiatrists, the Walter Reed Institute for Research, the 
National Defense University, the Military Family Institute at Kansas 
State University, and partnering with the Tragedy Assistance Program 
for Survivors.
    The Resiliency Training Center plans to continue to use all 
available traditional and modern communication tools, including onland 
and online training, Podcasts, web sites, social networking, 
professional speakers and trainers, videos, and small group 
discussions. The Army National Guard has appointed suicide intervention 
officers to every ARNG company nationwide. Each State and territory has 
a trained suicide prevention program manager. Also, each State and 
territory has hired a Director of Psychological Health to provide case 
management and resourcing support for soldiers in crisis.
Soldier and Family Support
    The Army National Guard strives to provide our soldiers and 
families with a continuum of care with a special emphasis on the 
Deployment Cycle Support process.
    Some of our family readiness efforts include Family Assistance 
Centers, the Yellow Ribbon Reintegration Program, the Freedom Salute 
Program, the Strong Bonds Program, and Suicide Prevention training. The 
Army National Guard operates 369 Family Assistance Centers across all 
54 States and Territories. The Family Assistance Centers service all 
components and are strategically placed in each State and Territory to 
overcome geographic dispersion.
    The National Guard Yellow Ribbon Reintegration program provides 
information services, referral, and proactive outreach opportunities 
for soldiers, families, employers, and youth throughout the entire 
deployment cycle: predeployment, deployment, post-deployment, and 
return to civilian life. The Yellow Ribbon program benefits 
servicemembers from all Reserve components.
    The Yellow Ribbon Reintegration program is a flexible soldier and 
family support system that meets the soldier and family readiness needs 
of geographically dispersed families. The Yellow Ribbon Reintegration 
program has hosted 40,421 soldiers and 34,513 family members at 
hometown events so far this fiscal year. In fiscal year 2009, the 
Yellow Ribbon program supported 54,472 soldiers and 72,316 family 
members.
    Fiscal year 2009 was a very active year for the Freedom Salute 
Campaign. As one of the largest Army National Guard recognition 
endeavors in history, the Freedom Salute Campaign publicly acknowledges 
Army National Guard soldiers and those who supported them during the 
President's call to duty.
    The Freedom Salute Campaign is an important tool in the recruiting 
and retention program. The way an organization treats its people is a 
direct reflection of organizational values. The entire Army community 
pays attention to how the ARNG treats returning soldiers. The Freedom 
Salute Campaign increases community awareness throughout the Nation of 
the good work being done by National Guard soldiers. In a recent 
survey, soldiers returning from Operation Iraqi Freedom indicated that 
recognition for their service and sacrifice was one of the most 
important contributing factors in their decision to continue to serve 
in the Guard.
    The Strong Bonds program is a commander's program that is unit-
based and chaplain-led to help soldiers and their families build and 
rebuild strong relationships, especially when getting ready for or 
recovering from a deployment.
    The Army National Guard recently initiated the Job Connection 
Education Program (JCEP). This program improves National Guard force 
stability by advancing member skills at seeking, obtaining, and 
retaining civilian employment, much like the Army Career and Alumni 
Program, but at the local level. A key component of this jobs program 
is its proactive approach to connecting soldiers, and where applicable, 
potential employers, to new and existing Federal, State and Guard 
programs and resources, coordinating job expositions and fairs, and 
conducting seminars, webinars, and workshops. JCEP team members work 
closely with local employers to ensure they are aware of all the 
resources available to them in their effort to hire local Guard 
soldiers. Classroom activities and practical exercises result in 
improved employment and reemployment rates for laid-off, under-
employed, and unemployed Guard soldiers. The JCEP introduces and 
connects soldiers to the evolving Employment Partnership Office efforts 
and the emerging formal relationships between Reserve component and 
private sector businesses with a focus at the local community level. 
The State of Texas is the pilot test site with the first location in 
the Dallas area. This program can be used by Army Reserve soldiers as 
well as National Guard soldiers.
    The Army National Guard is also partnering with the Army Reserve in 
the Employer Partnership Office. The Guard and Reserve soldiers rely on 
a demographic segment that balances two careers. Service in the Army 
National Guard and Army Reserve is vocational in nature and represents 
a motivation to serve in other than an active duty capacity. The Army 
National Guard and Army Reserve cannot exist without citizen-soldiers, 
the bulk of whose livelihoods are provided by civilian employers. Under 
the ARFORGEN concept, all Guard and Reserve servicemembers are 
virtually assured of at least 1 year-long mobilization over the course 
of their careers. This affects small businesses much more than larger 
firms, in addition to the known effects on the soldier and his or her 
family. We recognize that readiness has three dimensions: unit, family, 
and employer. The broad aims of this initiative are threefold: (1) to 
foster employer readiness for mobilization; (2) to make employing and 
retaining Reserve component servicemembers attractive to employers; and 
(3) to identify areas where the Reserve component and civilian 
employers can share costs for benefit programs.
    In order to provide assistance to the soldiers to improve their job 
skills the Army National Guard has started an initiative called--Guard 
Apprenticeship Program Initiative (GAPI). This initiative involves 
partnering with the Department of Labor and coordinating with the 
Department of Veterans Affairs while National Guard soldiers work in 
their civilian jobs and participate in the program. Apprenticeship is a 
training opportunity for ARNG soldiers to earn national certification 
and skills in a specific field while earning wages. In certain cases, 
eligible ARNG soldiers can receive their VA educational benefits while 
they pursue an apprenticeship program. Apprenticeship combines 
classroom studies with on-the-job training supervised by a trade 
professional or supervisor. Apprenticeship training takes 1 to 5 years 
to complete or 2,000 documented workhours to become fully qualified in 
the occupation or trade. Soldiers earn money while they learn on the 
job. This collaboration is essential to the sustainability of the ARNG 
and the vitality of the best-trained and dependable professionals our 
Nation has to offer, which are our volunteer soldiers. This is an 
opportunity to gain civilian employment and certification, while 
serving in the ARNG. This program can also be used by the Army Reserve.
    We must recognize the importance of support for military service by 
families, military leadership and civilian employers. This is referred 
to as the ``Triad of Support''. It is important to maintain an overall 
climate in which military service is honored and supported. DOD's 
organization that addresses civilian employer support is Employer 
Support the Guard and Reserve (ESGR). ESGR's vision is to develop and 
promote a culture in which all American employers support and value the 
military service of their employees serving in the Guard and Reserve. 
ESGR accomplishes this by gaining and maintaining employer support for 
Guard and Reserve service by recognizing outstanding support, 
increasing awareness of the law, and resolving conflict through 
mediation. A Statement of Support, a formal statement voluntarily 
signed by an employer, is one way to demonstrate support and 
acknowledge employer rights and responsibilities under the Uniformed 
Services Employment and Reemployment Rights Act (USERRA). During fiscal 
year 2009, 54,965 employers signed Statements of Support for their 
employees serving in the Guard or Reserve. This is an increase from the 
44,861 employers that signed Statements of Support in fiscal year 2008. 
Another indicator of the current employer support climate is the number 
of USERRA cases ESGR has mediated. The average number of cases ESGR 
mediated has remained consistent over the last 3 fiscal years: fiscal 
year 2007--2,374, fiscal year 2008--2,664, fiscal year 2009--2,475. 
These numbers indicate less than .01 percent of all SELRES have opened 
a case to address employer issues. Based on these two indicators, it 
appears American employers are continuing to support their employees 
serving our Nation.
Reserve Retirement
    The current Reserve Retirement system was implemented in 1949 to 
enhance volunteerism, bolster recruiting, enable unit cohesion all 
while ensuring a ready force available for deployment based on lessons 
learned in World War I and II. Over these 61 years, the system has 
undergone few modifications. Congress recently made a critical shift in 
the retirement program paradigm of an operational reserve when they 
passed legislation authorizing Reduced Retirement Age Eligibility on 28 
January 2008. The Army National Guard will continue to be employed as a 
major operational element of the Army, and as such, citizen soldier 
benefits and entitlements should reflect their continued and often 
extended active duty service.
Medical and Dental Readiness
    The Army National Guard has three primary medical readiness goals: 
deploying a healthy force; deploying the medical force-units; and 
facilitating warriors in transition and family care-beneficiaries.
    In fiscal year 2009, the ARNG Office of the Chief Surgeon received 
funding for the following programs: medical readiness, $126.5 million; 
overseas contingency operations, $9.5 million; and dental treatment, 
$21.2 million. These funds went toward period health assessments, 
immunizations, contracts in support of medical readiness, and 
deployment of 41,500 soldiers who met physical, dental, and mental 
health standards.
    Readiness increased from 35 percent fully-ready in fiscal year 2008 
to 46 percent in fiscal year 2009. This success resulted from increased 
targeted funding and a concerted effort by National Guard Bureau (NGB) 
staff to act as liaisons between NGB and Army medical commands to meet 
funding, manning, and equipment requirements.
    Dental readiness at mobilization stations continued to increase to 
over 90 percent in fiscal year 2009. Funding of $21.2 million and 
National Guard Bureau/State coordination were instrumental in providing 
a drop in dental releases from active duty and soldiers who were 
dentally disqualified. The First Term Dental Readiness Program moved 
forward to phase two with the goal of 95 percent in Dental Fitness 
Category 1 or 2 for soldiers completing advanced individual training. 
Demobilization Dental Reset was implemented by U.S. Army Dental Command 
with a goal of 95 percent in Dental Readiness Category 1 or 2 upon 
release from active duty. To date over 90 percent of ARNG soldiers 
processed by Dental Command facilities have been reset to a dental 
condition of Dental Readiness Category 1 or 2.
    The Army Selected Reserve Dental Readiness System enables dental 
treatment of soldiers throughout ARFORGEN. Program objective memorandum 
(POM) efforts to fund this initiative were successful for fiscal year 
2010 through fiscal year 2015, achieving $1.1 billion in critical 
requirements across the POM years.
ARFORGEN Cycle
    Unit stability in the ARNG is a key enabler of the ARFORGEN model 
to work most effectively. The annual personnel turbulence rate in a 
typical BCT, prior to a Notice of Sourcing, is 15.6 percent. This 
includes gains, losses, transfers in, and transfers out.
    During the Sourcing period of the ARFORGEN cycle, between 6 and 12 
percent of soldiers assigned to units are untrained and cannot be 
deployed by law. These soldiers are new enlistments who have signed up 
for service, but who have not yet completed initial entry training. The 
Army National Guard and Training Doctrine Command (TRADOC) have worked 
hard to alleviate this problem by increasing the capacity for initial 
entry training at the key times that ARNG soldiers are available to 
attend (for example, during the summer months). The training pipeline 
has been reduced by more than 10,000 soldiers.
Accelerated initial training
    Once a unit receives an Alert Order, additional training seats need 
to be made available in order to return Duty Military Occupational 
Skills Qualification (DMOSQ) soldiers that are assigned to that unit. 
On average, new recruits take 11 months to complete initial entry 
training. Our Recruit Sustainment Program (RSP) decreases training ship 
time, as well as pre-training and in-training losses. Since the ARNG 
initiated RSP, the rolling 12-month average number of soldiers lost 
during initial entry training has decreased by 3.6 percent resulting in 
positive control of DMOSQ drop. Training seat availability is directly 
linked to personnel readiness. Additionally, the Recruit Force Pool 
(RFP) reduces the period of time in which non-MOSQ soldiers are holding 
paragraph and line numbers in MTOE units and gives the ARNG the ability 
to target the available seats.
    Upon an Alert Order, units enter the pre-mobilization cycle with 
personnel shortages due to untrained and medically nondeployable 
soldiers occupying positions in the operational force, as well as 
normal attrition. Mobilizing BCTs must cross-level on average 37 
percent of their authorized strength in order to meet mobilization 
requirements. This depletes donor units and creates a cascade of 
unreadiness across the ARNG. The ARNG is working an initiative to 
anticipate so as to better manage this cross-leveling and minimize the 
impact to units preparing for deployment.
        increasing the stability of units prior to mobilization
    Retention incentives to minimize cross-leveling: The Deployment 
Extension Stabilization Pay (DESP) program stabilizes ARNG units from 
the period of sourcing through mobilization. This program has a 
positive impact on unit readiness by reducing cross-leveling and 
attrition well in advance of the unit's mobilization date. By fixing 
end strength at 358,200, each soldier retained by DESP reduces the loss 
rate and simultaneously reduces the requirement for an accession by one 
in addition to stabilizing the unit through the next subsequent 
mobilization. As retention increases, losses and accessions decrease. 
In other words, the ARNG `trades losses' between DESP takers and other 
ETS-eligible soldiers in order to meet programmed losses where end 
strength is fixed at 358,200.
Access to the ARNG
    The Army has determined that it must rely on an operational reserve 
to meet the demands of the Army in today's environment and will need to 
continue to rely on an operational reserve to meet expected near-term 
demands of the Nation. The soldiers in the Army National Guard also 
want to be part of an Operational Force as well. We know this from the 
discussions we have had with our soldiers and their leaders; but more 
indicative are the recruiting and retention rates of Army National 
Guard soldiers. Everyone of our soldiers have had to make a decision to 
either enlist, stay or leave the Army National Guard during the current 
conflict, knowing they will more than likely deploy at least once in 
their initial period of service. As I have stated earlier, the Army 
National Guard continues to meet its authorized end strength of 
358,200. Our current reenlistment rate is 116 percent of our plan. As 
long as our soldiers are doing meaningful missions and provided the 
resources to accomplish those missions, Army National Guard soldiers 
want to continue to be an operational part of the Nation's defense 
solution.
    The Army National Guard is a fully accessible Reserve component of 
the U.S. Army. It has met every request for forces to date. The Reserve 
components provide significant capability to the Department of Defense 
at a very cost effective rate. A number of authorities exist that 
permit the executive branch to access the Reserve component. We are 
working with the Office of the Secretary of Defense and the Army to 
ensure there is a clear understanding of the authorities and the 
policies that allow the exercise of those authorities, particularly in 
light of the current and future operational and funding environment.
    The Army with Congressional support has invested a significant 
amount to bring up the readiness of the Army National Guard. It is 
important to maintain the capabilities of that investment. The 
alternative means a larger Active Force at a considerably higher cost. 
The Army National Guard is better equipped, trained and ready than it 
has ever been in its history. The 12 month mobilization policy enacted 
by the Secretary of Defense goes a long way in protecting the Reserve 
component soldiers and allowing more predictability for mobilizations. 
This is key to our soldiers.
    We need to continue to educate our senior leaders on the capability 
of the Army National Guard and advise them if we are getting over used; 
however, the Army National Guard is committed to the ARFORGEN model. In 
my view, it is able to provide about 55,000 soldiers every year based 
on the rotational rate of 1 year mobilized and 5 years at home.
    Our Nation was built as a militia nation and the Reserve components 
are the tie back to the communities we serve. The Army National Guard 
has provided over 300,000 soldiers to Operations Iraqi Freedom and 
Enduring Freedom. At the height of the Operation Iraqi Freedom surge 
when the Army National Guard had over 90,000 mobilized or deployed 
overseas, more than 50,000 others responded to the support Hurricane 
Katrina recovery efforts within 11 days. This proves that the militia 
concept remains strong in the face of 21st century challenges.
                            closing remarks
    The men and women of the National Guard greatly appreciate the 
cooperation and support you have provided in the past and look forward 
to working with you as we meet today's challenges.
    Thank you for the opportunity to be here today. I look forward to 
your questions.

    Senator Webb. Thank you very much, General Carpenter, and 
all of you, for your testimony.
    I note in the bios that General McKinley and General Wyatt 
both went to SMU. Is there something in the water down there?
    General McKinley. Coincidental, sir. [Laughter.]
    General Wyatt. Sir, I'm actually a couple of years ahead, 
but obviously he's a much faster burner than I am.
    General McKinley. Yes, thanks. [Laughter.]
    Senator Webb. I also notice that General Carpenter studied 
Vietnamese language before he deployed to Vietnam in the Navy.
    General Carpenter. Yes, Senator.
    Senator Webb. [Said something in Vietnamese.]
    General Carpenter. Sir, that was 30 years ago. [Laughter.]
    Senator Webb. We appreciate all of your service, and yours 
as well, Secretary McCarthy.
    General McKinley, it's been, I think, 2 years since your 
position was elevated to a four-star position. You're the first 
four-star to serve in this position. Would you like to tell 
this committee how these changes have affected your role, what 
difference they've made?
    General McKinley. Mr. Chairman, I think what I have sensed 
over the past 14, 15 months in the position is, the position 
has allowed me to enter discussions and forums that were not 
previously afforded my predecessor. To be very specific, I'm a 
member of the Defense Advisory Working Group, which Deputy 
Secretary Lynn chairs. Going through the Quadrennial Defense 
Review (QDR), that was a programmatic session where I was able 
to shape and influence for the 460,000 guardsmen those things 
which I felt were important for the QDR. I've also been 
included by the Chairman, Admiral Mullen, in all of the tank 
discussions. I'm not a voting member, but I'm certainly able to 
offer my best military advice to the Chairman and to the 
Secretary, through the Defense Senior Leadership Conferences 
that Secretary Gates holds to specifically address the needs of 
the National Guard force. That, coupled with the fact that 
Secretary McCarthy and I are working extremely closely 
together, and along with Secretary Stockton, the venues and the 
numbers of meetings, and the number of forums available to me 
now has grown exponentially. To take that into context in DOD, 
that has made a significant improvement in my quality of advice 
to the senior leaders of the Department.
    Senator Webb. Thank you.
    Secretary McCarthy, when I held the position that you have 
right now, I sat on what was then called the Defense Resources 
Board. I'm not sure the same board exists. But, do you sit on 
that board or on an equivalent?
    Mr. McCarthy. Short answer: No, sir. I don't think the 
Defense Resources Board exists. If it does, I'm not aware of 
it. I think that the Defense Advisory Working Group that 
General McKinley mentioned is perhaps a comparable forum today. 
I do not routinely sit on that. Quite frankly, I'm working 
closely with both Under Secretary Stanley, and occasionally 
with Secretary Gates, to figure out what the right level of my 
participation is.
    Senator Webb. The Defense Resources Board, at the time that 
I was in the Pentagon, had input on all budget recommendations 
of all Services at the level of $60 million or higher during 
the formation of the budget. It was very important when this 
position was created that someone overseeing the Guard and 
Reserve programs had that sort of direct input. Is there any 
similar forum where you can have direct input today?
    Mr. McCarthy. No, sir, there is not. Not today.
    Senator Webb. All right. I may have a followup question for 
you on that.
    I'd like to ask General Wyatt and General Carpenter, 
separately, a couple of questions, just datapoints--the 
percentage of the Air Guard and the Army Guard that are prior 
service, and the percentage that are over the age of 40.
    General Wyatt. Senator, we have about a 60 percent prior-
service membership in the Air National Guard. I think that 
question, and the answer, points out the--one of the benefits 
of having an operational and robust National Guard. It is that 
it does allow for the active duty members who want to continue 
serving their country--it affords them the opportunity to do so 
when they, perhaps, make that choice not to serve in a full-
time capacity.
    The second part of your question, sir?
    Senator Webb. The percentage of the Air Guard that is over 
the age of 40.
    General Wyatt. I can't get you the exact percentages, but 
we are an older force, with more experience than the Active 
component. But, if I could take that for the record, sir, I'll 
get you the exact percentages.
    Senator Webb. Actually, what I would request is--Secretary 
McCarthy, if you could get me a breakdown of the Guard and 
Reserve components, in terms of age.
    [The information referred to follows:]

    The average age of Reserve component officer servicemembers (all 
Services) is 40.2 years old (median age is 40.0), while the average 
enlisted age is 30.8 years old (median 28). The average and median ages 
for all Reserve component members (all Services) are 32.2 years old 
(median 30).

----------------------------------------------------------------------------------------------------------------
                       Age                           ARNG     USAR     USNR    USMCR     ANG     USAFR    USCGR
----------------------------------------------------------------------------------------------------------------
Approx. Average Age..............................     30.6     32.1     35.1       26     35.1     36.3     34.7
Percent over age 40..............................     23.6     29.5     38.4      0.9     38.0     43.0     34.0
----------------------------------------------------------------------------------------------------------------


    Senator Webb. When I had your position, it was one out of 
five was over the age of 40. It impacted a lot of policies, 
such as over-40 stress testing and that sort of thing. It's one 
that you would expect, particularly on the aviation side, to 
have a higher number of prior service and a higher age level. 
It's amortizing a very precious asset that you don't have to 
retrain over and over again. But, I'd like to be able to see 
the numbers.
    General Carpenter, do you have data on those two points?
    General Carpenter. Senator, a couple of specific comments 
on your questions.
    One is, we have seen the average age of the force in the 
Army National Guard become younger. That's a function of 
increased deployments and a change in the culture from where we 
were at before September 11. We were an average of over 30 
years old, in terms of our force, and we're now somewhere 
around 29 years of age, and so we've become younger, and it's a 
function of the OPTEMPO.
    The other datapoint that's probably of note here is the 
number of prior service. Before September 11, we recruited a 
lot of prior-service soldiers into our organization, and that 
was one of our mainstays. Frankly, after September 11, what's 
happened is that people leave the Army, and they want to leave 
the entire mobilization piece. They know that the National 
Guard is a mobilizing and deploying force, and so, we have had 
to turn more to the non-prior-service market, in terms of where 
we go to recruit and sustain our end strength.
    Senator Webb. How does that affect your ability to train up 
a ground soldier?
    General Carpenter. Sir, I think the offset of that is the 
mobilization and the deployments that we've seen inside the 
Guard. We have over 60 percent of our soldiers that are combat 
and deployed veterans inside of our formations. Now, we haven't 
seen that kind of a statistic since World War II. So, we have 
not necessarily gotten the experience level that you allude to 
from the Active component coming into our ranks. We've actually 
gotten firsthand experience, in terms of the deploying units.
    Senator Webb. All right.
    General McKinley, I know that Senator Graham is going to 
have some questions on this, but I would be interested in your 
thoughts on the border security and drug interdiction efforts 
that--the different areas where the Guard can participate in 
that.
    Secretary McCarthy, if you had thoughts on that, I'd like 
to hear them, as well.
    But, General McKinley, specifically with the Guard; and if 
Secretary McCarthy has something broader.
    General McKinley. Mr. Chairman, I'm sure you're well aware 
of Operation Jump Start, which my predecessor worked with the 
Department on to put up to 6,000 members of the National Guard 
on the border. It was originally planned for a 1-year event; it 
ended up being 2 years.
    The express mission assignment was to relieve the stress on 
the U.S. Customs and Border Protection Agency so that they 
could hire more agents. From all accounts, that was 
accomplished.
    I have had no personal discussions in the Department on any 
future mission along the southwest border. That doesn't mean 
that our Governors along the southwest border have not sent me 
copies of letters that they've sent to Secretary Gates. We know 
that many of the Governors along the southwest border are 
seeking some support.
    We have small footprints of National Guard forces serving 
today along the border, under the Governors' consent. Those are 
mainly counterdrug personnel assigned to that mission I 
referenced in my opening remarks.
    We have had preliminary planning sessions to discuss 
capabilities that we might afford. But, without specific 
tasking, I would offer my personal opinion that any future 
mission involving National Guard would be different; the 
circumstances are different, the complexities along the border 
have changed dramatically since Operation Jump Start. But, 
personally, I've not been involved in any discussions. I know 
that Secretary Napolitano, Secretary Gates, and their staffs, 
have had some discussions. But, until given official tasking, I 
think it would be premature for me to speculate on any specific 
missions that the National Guard can perform, other than to 
say, the Governors are interested in seeking that support.
    Senator Webb. Thank you.
    Secretary McCarthy?
    Mr. McCarthy. Senator, the most direct responsibility for 
this is really in the lane of Assistant Secretary Paul 
Stockton, Homeland Defense. But, he and I work extremely 
closely together, and one of the things that I believe is--best 
states current policy is that the requirements on the border, 
as we see them right now, are law enforcement rather than 
military. So, I don't believe that there is any plan--and I 
talked to Secretary Stockton as recently as Monday of this 
week--I don't think there's any current plan or inclination to 
change that assessment.
    Senator Webb. I have about 3 minutes before the second vote 
ends. What I'm going to do is--since Senator Graham isn't back, 
I'm going to have to interrupt the hearing again. When I come 
back, I think what we'll do is just get the second panel up, 
except, Secretary McCarthy, I'd like for you to stay so I can 
follow up on some of the DOD policy.
    Gentlemen, thank you very much for your testimony. We may 
have some followup written questions. But, we appreciate the 
data that we requested.
    Again, my best to all of the men and women who are serving 
under your jurisdiction.
    I'll be back after the second vote. [Recess.]
    Senator Graham [presiding]. Ladies and gentlemen, I want to 
apologize, but Senator Webb is voting. I just voted. I'm going 
to have to leave; he'll come back. But, we'll get this done.
    So, where were we?
    Voice. The first panel was dismissed. However, Secretary 
McCarthy was asked to stay.
    Senator Graham. Okay.
    Voice. So we're ready for opening statements.
    Senator Graham. Let's start with the next panel, starting 
with the Army and working our way downstream.

 STATEMENT OF LTG JACK C. STULTZ, USAR, CHIEF OF ARMY RESERVE; 
       AND COMMANDING GENERAL, U.S. ARMY RESERVE COMMAND

    General Stultz. Yes, sir. In the interest of time, because 
I know that we are trying to be as concise as possible, we have 
submitted our written statement, and I would just say that, on 
behalf of the 208,000 soldiers that are in uniform for the Army 
Reserve today, first and foremost, thanks for the support that 
we're getting from Congress, in terms of our compensation, in 
terms of our medical, in terms of the other benefits, in terms 
of the ability to be trained and ready when the Nation needs.
    We do have, as I mentioned, 208,000 soldiers, which puts us 
in a situation today of being 3,000 over what our authorized 
end strength is. That is a reflection of the tremendous success 
we've had in recruiting, but also the tremendous success we've 
had in retention. Our retention goals right now are at 124 
percent.
    Senator Graham. How much do you think that's due to the job 
situation?
    General Stultz. Sir, I think there is a portion of that 
that is economically-related. But, I would submit to you, I 
think a lot of it is due, in fact, that the soldiers we have 
today in the Army Reserve feel good about what they're doing--
--
    Senator Graham. Great.
    General Stultz.--serving their Nation. All they're asking 
me is, really, when I get around the world, traveling--and I've 
been in 11 countries since January, visiting Reserve soldiers 
that are on duty for this Nation, and they tell me two things. 
Number one, ``Give me some predictability because I do have a 
civilian job''----
    Senator Graham. Right.
    General Stultz.--``I do have a family.'' Number two, 
``Don't waste my time. If you're going to use me, use me. If 
you're going to train me, train me.''
    Senator Graham. Fair enough.
    General Stultz. Yes, sir.
    [The prepared statement of General Stultz follows:]
              Prepared Statement by LTG Jack Stultz, USAR
    Against the backdrop of the second longest war in our Nation's 
history and the longest ever fought by an All-Volunteer Force, the Army 
Reserve continues to be a positive return on investment for America. 
The fiscal year 2009 $8.2 billion Army Reserve appropriation 
represented only 4 percent of the total Army budget, yet we supply the 
Army seven to eight brigade-size elements. Since September 11, 2001, 
the Army Reserve mobilized 183,144 soldiers, and now has 29,000 
deployed in support of Army missions. We supply the Army with 87 
percent of its Civil Affairs capability, 65 percent of its 
Psychological Operations, and 59 percent of its Medical support--to 
highlight a few of our top contributing specialized functions. Compared 
to the cost of expanding the full-time force, the small investment in 
the Army Reserve provides security at home and fights terrorism abroad. 
We respond to domestic disasters and participate in security 
cooperation operations while protecting national interests around the 
globe. In support of contingency operations, we foster stability in 
underdeveloped nations where conditions are ripe for terrorists to gain 
a foothold.
    The events of September 11, 2001 forever changed the way in which 
the Army Reserve provides combat support and combat service support to 
the Army and to the Joint Forces. Operational demands for Army Reserve 
support have been heavy and enduring. The reality is, current 
operations are consuming Army Reserve readiness as fast as we can build 
it, but Congress' support for the Army Reserve in recent years has gone 
far toward both meeting current demands and reshaping the Army Reserve 
for future national security requirements.
    As sustained operational demands on the Army Reserve became heavier 
after September 11, it became ever apparent we could no longer function 
as a part-time strategic reserve. Based on the operational requirements 
outlined for the Army Reserve in the 2010 Quadrennial Defense Review, 
and while fighting two wars, we continue our efforts to fully 
transition from a strategic reserve to an operational force, based on 
current resourcing and mission requirements. An operational Army 
Reserve is a good return on investment for America because now we are 
in a stronger position to provide the Army with predictable, trained, 
equipped, and ready forces to meet global and contingency requirements. 
What remains is an ongoing effort to sustain an operational posture, 
with a fully functioning Army Force Generation model--that receives 
full funding.
    Thanks to Congress' leadership, we have made great progress in a 
number of initiatives required to complete Army Reserve transformation. 
We have re-organized operational commands to better support theater 
requirements, opened new training centers, and restructured training 
commands to support the total force. Through Base Realignment and 
Closure (BRAC), we have closed scattered facilities in favor of more 
efficient, multi-service Reserve centers. Through the Army Reserve 
Enterprise process, we are restructuring our strategic and operational 
efforts to maximize productivity, efficiency, and responsiveness in 
four Enterprise areas: Human Capital, Materiel, Readiness, and Services 
and Infrastructure.
    We have identified ``Five Imperatives'' to facilitate Army Reserve 
continued transformation to a stronger and more capable operational 
force. They are Shaping the Force, Operationalizing the Army Reserve, 
Building the Army Reserve Enterprise, Executing BRAC, and Sustaining 
the Force.
                           shaping the force
    As we look ahead, we know that building the right force is crucial 
for success. In 2010, we will leverage human capital management 
strategies to better shape the force into a more affordable and 
effective Army Reserve capable of supporting national security 
objectives and our combatant commanders' warfighting needs. We are 
developing a more precise human capital strategy to meet our Nation's 
future military needs by ensuring the right people, with the right 
skills, in the right units, are in place at the right time.
    In today's competitive recruitment environment, incentives matter 
because they allow the Army Reserve to sustain and shape the force. We 
achieved our fiscal year 2009 end strength due to the hard work and 
dedication of our recruiters and our soldiers. We also attribute this 
success to the recruiting and retention initiatives that support the 
Army Reserve's manning strategy. These include the Army Reserve 
Recruiter assistant Program that promotes strength from within by 
recognizing and rewarding those soldiers, family members, and 
Department of the Army civilians working for the Army Reserve who bring 
talent to the team. The second is enlistment bonuses, which help us 
recruit the critically short/high demand Military Occupational 
Specialties. In fiscal year 2009, our focused incentives increased Army 
Reserve End Strength. As we met the objective, it became evident that 
not all of our new soldiers possessed the skill sets needed to support 
the Army Reserve structure while also fulfilling our wartime 
requirements.
    Successful recruiting added an abundance of soldiers in the lowest 
three pay grades, but recruiting new soldiers as privates and second 
lieutenants cannot fill the thousands of mid-grade noncommissioned and 
commissioned officer vacancies that currently exist. Despite excellent 
retention results, these shortages continue.
    U.S. Army Reserve authorizations for Medical Corps, Dental Corps, 
and the Specialist Corps have not changed much materially for 2000-2009 
(2614 vs. 2572), but the inventory has decreased dramatically from 165 
percent of authorized end strength in 2000 to the current 89 percent in 
2009. This attrition has come predominately at the expense of its 
senior providers with more than 20 years of clinical experience in a 
military environment who now represent only 9 percent of Medical Corps 
inventory, 17 percent of Dental Corps inventory and 11 percent of the 
current Specialist Corps inventory. In the coming year, we must do more 
to retain these uniquely qualified medical providers and seek to build 
a system that incentivizes these most skilled clinicians.
    Our recruitment efforts will focus on more prior-service recruits 
who are slightly older and bring more experience than most first-term 
soldiers. These experienced soldiers can fill shortages among mid-level 
commissioned and noncommissioned officers. Targeted incentives have 
been crucial to rebuilding our end strength and addressing critical 
shortages in some grades and job specialties. Continuing these 
incentives allows the Army Reserve to shape the force to better meet 
the requirements of our National security strategy and to give 
soldiers, families, and employers stability and predictability.
    Ensuring a Continuum of Service (COS) is a human capital objective 
that seeks to inspire soldiers to a lifetime of service. Active (full-
time) and Reserve (part-time) military service are two elements of 
valuable service to the Nation. Continuum of Service provides Active 
and Reserve components some of the means necessary to offer soldiers 
career options while maintaining capability for the Operational Force. 
COS also recognizes the tremendous cost of accessing and training each 
servicemember and seeks to avoid unnecessary replication of those 
costs. To reach our objective, it is our intention to work with Army to 
propose recommended changes t current statutes and policies that will 
ease restrictions on statutes limiting Reserve component soldiers from 
serving on active duty.
                   operationalizing the army reserve
    Our status as an Operational Force means that the Army Reserve is 
no longer a force in waiting--we are an Operational Force in being. We 
can continue providing that positive return on investment to the Nation 
when the Army Reserve is given the proper resources to succeed.
    The Army Reserve plays a vital operational role in overseas 
contingency operations and will for the foreseeable future. Since 
September 11, 185,660 Army Reserve soldiers have mobilized in support 
of Operation Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF); 
33,754 have mobilized more than once. In 2009, the Army Reserve 
mobilized 39,150 soldiers to support combatant commanders' requests for 
forces. We execute a readiness strategy to deploy highly ready units 
and soldiers to support OIF and OEF requirements. This readiness 
strategy synchronizes those strategic planning and resourcing actions 
necessary to generate sufficient manning, training, and equipping 
levels to meet combatant commander mission requirements. The Army Force 
Generation process allows for a structured progression of increased 
unit readiness over time, and provides the Army recurring access to 
Army Reserve trained, ready, and cohesive units, which translates to 
predictability for soldiers, their families, and employers. In effect, 
ARFORGEN drives the battle rhythm of the Army Reserve.
    ARFORGEN works for the Army Reserve. It has enduring qualities that 
have been apparent in providing support to emergencies such as 
Hurricane Katrina and the Haiti earthquake relief efforts, for training 
soldiers in Afghanistan, to supporting the African Contingency 
Operations Training and Assistance Program with training and equipment 
for selected militaries engaged in humanitarian or peace operations. 
The Army Reserve seeks continued support from Congress to be an 
effective responder to missions such as these.
    Within the transformation process, we realigned our force structure 
to meet the Army's global mission requirements in both the Operational 
and Generating Force categories. The Army Reserve is ready to take on 
additional missions as the Department of Defense and U.S. Army validate 
emerging requirements. Authorized growth in end strength will enable 
the Army Reserve to activate validated units to meet these emerging 
requirements and maintain the number of units we have in our ARFORGEN 
process. Plans reflect an increase of 1,000 to 205,000 spaces of 
Authorized End Strength (ESA) to provide the Army Reserve capability to 
meet emerging mission requirements within our ability to operate the 
force.
    Full-time support personnel comprise a select group of people who 
organize, administer, instruct, recruit, and train our people; and who 
maintain supplies, equipment, and aircraft. They also perform other 
functions required on a daily basis to maintain readiness in support of 
operational missions. Without these critical soldiers and civilians, 
the Army Reserve could not function as an Operational Force.
    Although resourced to the Department of the Army ``High Risk'' 
funding methodology (meets minimal acceptable risk in support of a 
strategic reserve force), it is imperative that future planning ensure 
full-time support is fully resourced as an operational reserve. 
Adequate resourcing is critical in meeting the readiness requirements 
of the Army Force Generation (ARFORGEN) model.
    The current full-time support model remains a strategic reserve 
legacy. Key legislative and policy modifications are required to change 
personnel support processes. Manpower models and programming processes 
require review and modifications to provide flexibility and rapid 
response adjusting resources amid changing priorities across the 
ARFORGEN process.
    Our Active Guard Reserve (AGR) and Military Technician (MT) 
programs provide the bulk of full-time support at the unit level. They 
provide the day-to-day operational support needed to ensure Army 
Reserve units are trained and ready to mobilize within the ARFORGEN 
process. The AGR and MT programs are vital to the successful transition 
to--and sustainment of--an operational reserve. The Army Reserve 
requires added flexibility in its hiring practices to sustain its 
commitments to ARFORGEN. We must take action to create a new category 
of Non-Dual Status Technician, which allows retention and direct hire 
of personnel from outside the Selected Reserve. This new capability 
will allow us to support non-mobilizing/deploying organizations while 
authorizing Dual Status Military Technicians to meet conditions of 
employment with a military assignment anywhere within the Selected 
Reserve. We are working with Army to relax legacy full-time support 
policies in order to provide flexibility in the reallocation of 
resources within AFORGEN cycle.
    As an Operational Force, the Army Reserve must have the most 
effective and sustainable equipment for soldiers and units at the right 
place and at the right time. The Army Reserve supports the Army 
Equipping Strategy of Cyclical Readiness, which means all units are 
equipped based on their position in the ARFORGEN process and their 
mission--regardless of component. The Equipment Readiness levels 
increase as units move through the ARFORGEN process from the RESET to 
the Available Phase. Those units that are within the RESET phase will 
have a chance to reintegrate soldiers and families, then organize, man, 
equip, and train as a unit. As the units move to the Train/Ready phase, 
they will be resourced from 80 percent growing to 90 percent; and once 
the units enter the Available Phase, they are resourced to ensure 90 
percent plus equipment readiness. To maximize collective and individual 
training opportunities for our units in the ARFORGEN process on high 
demand/low density systems, the Army Reserve must address the challenge 
with small pools of current generation systems. Additionally, while the 
Army Reserve units in the Reset Phase should have minimal specific 
equipping expectations; the Army Reserve is identifying equipment 
requirements that a unit can properly maintain at a Reserve Unit Home 
Station while sustaining soldiers and training readiness. We are 
thankful to Congress for helping us meet this goal with National Guard 
and Reserve Equipment Appropriation (NGREA) funding. These funds 
greatly add toward operationalizing the Army Reserve by supporting Army 
Modularity, Homeland Defense/Homeland Security, and the Army Force 
Generation cycle with a fully modern and interoperable force. With 
continued NGREA funding, we will be able to train our soldiers on the 
latest combat equipment before they deploy into harm's way.
                          sustaining the force
    The Warrior-Citizens of the Army Reserve and their families embody 
a lasting commitment to serve America. The Army Reserve recognizes the 
strain of this era of persistent conflict on soldiers and families. We 
know family readiness is inextricably linked to mission readiness, 
recruitment, and retention. Operationalizing of the Army Reserve 
creates a requirement for an enduring level of support. As the Army 
Reserve transforms, so must family programs. Our way ahead includes 
realignment actions to: support the Army Reserve Enterprise management 
approach, sustain services to soldiers and families in the 
expeditionary force, standardize existing programs and services across 
the Army Reserve, and build partnerships with Army families and 
communities. Our end state is to optimize programs and services to 
connect soldiers and families to the right service at the right time.
    The cornerstone of our planning effort is to ensure the integration 
of Family Support services with the ARFORGEN process. By doing so, we 
ensure that our Warrior-Citizens and their families have solid programs 
that are ready for execution any time during the training and 
deployment cycle. Appropriate resourcing will allow us to assess 
structure requirements, staffing needs, and develop effective processes 
that ensure the consistent delivery of programs and services that meet 
the needs of ARFORGEN and especially for those of our geographically 
dispersed customers.
    The Army Reserve Family Programs Virtual Installation Program is an 
exciting new initiative that ensures the same services provided to 
Active component soldiers are available to all servicemembers and their 
families not living close to a military installation. Leveraging assets 
we have on hand is allowing us to test the program through a series of 
pilots located in selected communities. Funding for this priority will 
allow us to expand Virtual Installation within Army Strong Community 
Centers around the country and overseas.
    We must continue to increase the quantity and quality of support 
for Army Reserve children and youth. We can increase opportunities for 
youth to develop leadership skills and strategies for coping with 
separation. Teen panels provide forums for our youth to propose 
solutions for concerns that affect their lives during mobilization and 
deployment. Additional online teen deployment classes support youth 
living in the ``new normal'' of repetitive deployments. With additional 
resources, we will work with our community partners to expand childcare 
for geographically dispersed families and respite care for mobilized 
families.
    This year we provided new opportunities for children of Army 
Reserve families to attend camps. While the Department of Defense (DOD) 
``Purple Camps'' were a great initiative, they distributed 
opportunities among all military communities in DOD. This resulted in 
fewer opportunities for Army Reserve children than needed. 
Additionally, Army Reserve children are usually unable to travel, and 
require activities located in areas near their homes. By operating our 
own camps, we increased these opportunities to Army Reserve families in 
their communities and tailored them to our communities. The goal of the 
program is to prepare Army Reserve soldiers and their family members 
for mobilization, sustain families during deployment, and reintegrate 
soldiers with their families, communities, and employers upon release 
from active duty. The Army Reserve Yellow Ribbon Reintegration Program 
(YRRP) provides information, services and support, referral, and 
proactive outreach to Army Reserve soldiers and their families through 
all phases of the deployment cycle. The program includes information on 
current benefits and resources available to help overcome the 
challenges encountered with Army Reserve mobilization and 
reintegration.
    The Army Reserve successfully launched its Yellow Ribbon 
Reintegration Program. We have coordinated with other military 
agencies, Federal/State/local government agencies, community 
organizations, and faith-based organizations to provide robust, 
preventive, proactive programs for soldiers and their families. 
Elements of the program include promoting preparedness through 
education, conducting effective family outreach, leveraging available 
resources, and supporting the All-Volunteer Force. During fiscal year 
2009, the Army Reserve executed more than 250 Yellow Ribbon events, 
serving some 12,000 redeploying soldiers and 12,000 family members. In 
interviews conducted by the Office of the Secretary of Defense, 
soldiers and family members reported positive experiences with the Army 
Reserve Yellow Ribbon Reintegration Program.
    The challenge to the Army Reserve remains to develop, improve, and 
sustain the mental, spiritual, and emotional health that fosters 
resilient soldiers and families.
    We are moving out aggressively to mitigate the effects of 
persistent conflict and build a strong, resilient force. Multi-symptom 
conditions including those signature wounds not visibly apparent (for 
example: Post-Traumatic Stress Disorder and Traumatic Brain Injury, 
exist for soldiers with military service in Southwest Asia. We will 
work with Health Affairs and the other Services to continue to provide 
the care necessary for the wounds from the current conflicts.
    We appreciate the resources that Congress has provided to date to 
further programs such as the new GI Bill and TRICARE. The benefit of 
TRICARE Reserve Select provides our soldiers and families peace of mind 
knowing that if a soldier decides to better him/herself career-wise 
with the skills gained while deployed, medical care will not be a worry 
if he or she decides to change careers.
    We are teaming with civilian industry to shape the Army Reserve 
into America's premier reservoir of shared military-civilian skills and 
capabilities through our Employer Partnerships programs. Through these 
mutually beneficial alliances with businesses that share our valuable 
human capital, we can strengthen soldier-employees, families, 
employers, and communities.
    We seek to identify locations where our soldiers can simultaneously 
add value to both the civilian workforce and the Army Reserve. This 
effort ties into our objective of achieving a continuum of service for 
soldiers who want the option to transition from Active and Reserve 
components, and vice versa, to provide soldiers flexibility with their 
career objectives, while allowing the Army Reserve to retain the best 
talent and critical skills capability.
                       enterprise transformation
    Using an enterprise approach to managing our internal processes, we 
add value to the Army by applying a holistic approach to managing our 
resources and shape the force into what is beneficial for the Army 
Reserve and supports the needs of the Army. By ``shape the force,'' I 
mean taking a fresh approach to how we recruit and retain the best and 
brightest, and positioning them in the right place, in the right job, 
and at the right time.
    The Army Reserve Enterprise consists of four core management areas: 
Human Capital, Readiness, Materiel, and Services & Infrastructure. To 
optimize the enterprise we must: Attract and retain the very best 
Warrior Citizens to serve our Nation (Human Capital), Prepare, train, 
and equip soldiers (Readiness); provide our soldiers with the latest 
mission ready modular force equipment, (Materiel); provide for the 
well-being of our soldiers, families, Army civilians, and employers 
while providing training and unit facilities and secure, redundant 
communications (Services and Infrastructure). Working together, these 
core management areas enable the Army Reserve enterprise to realize its 
ultimate goal: predictable, trained, and ready units--the essential 
components that define Capability.
                      base realignment and closure
    We have facility responsibilities at more than 1,100 Reserve 
Centers and the installations of Fort McCoy, Fort Buchanan, and Fort 
Hunter-Liggett installations. We also are responsible for significant 
training areas at Jolliet, Devens Reserve Forces Training Area, and 
Parks Reserve Forces Training Area. Moving toward completion of the 
current BRAC cycle of 2005, the Army Reserve military construction 
priority is to complete the remaining projects budgeted at $357 million 
for fiscal year 2010. In addition to BRAC, we will implement 26 
construction projects at a cost of $318 million supporting the 
transformation of the Army Reserve from a strategic reserve to an 
Operational Force. Our construction effort supports the realignment of 
the field command organizations into Operational Supporting Commands. 
In fiscal year 2011, the Regional Support Commands will invest $577 
million in base operations and $344 million in maintenance and repair 
of facilities that allows mission accomplishment for the Operational 
Commands.
    We are committed to minimizing turbulence to soldiers and their 
families while providing the most effective and efficient trained and 
ready units and forces to meet world-wide requirements. We must 
maintain current levels of predictability while making plans to 
increase it. The Army Force Generation process allows for a structured 
progression of increased unit readiness over time, and provides the 
Army recurring access to Army Reserve trained, ready, and cohesive 
units. While our commitment in Iraq may draw down, the requirement for 
forces to commit to other global missions will only increase. In 2010, 
we will work with Congress to ensure we obtain the necessary resources 
to sustain a viable Army Force Generation cycle that supports global 
commitments and new missions.
    Thank you.

    Senator Graham. Admiral Debbink.

STATEMENT OF VADM DIRK J. DEBBINK, USN, CHIEF OF NAVY RESERVE; 
               AND COMMANDER, NAVY RESERVE FORCE

    Admiral Debbink. Senator Graham, thank you for the 
opportunity to appear before you this morning.
    I definitely want to start out by expressing my 
appreciation for the support of this Congress for the 65,671 
members of the Navy Reserve sailors and their families.
    Of course, my written testimony will go into great length 
describing the programs that we utilize to ensure the Navy 
Reserve is a ready and capable force, responsive to the needs 
of the Navy/Marine Corps team and joint forces for both 
strategic depth and operational capabilities, while providing 
the necessary support to our sailors and their families, and 
also showing our appreciation for our sailors' employers' 
support.
    As the Chief of Naval Operations, Admiral Gary Roughead, 
has said: ``We are one Navy with an Active component and a 
Reserve component.'' As I testify this morning, Navy Reserve 
sailors are operating in every corner of the world, shoulder to 
shoulder with Active Duty sailors, as well as airmen, 
coastguardsmen, marines, soldiers, and, I think, importantly, 
interagency personnel.
    On any given day, more than 30 percent of your Navy Reserve 
is providing support to DOD operations. The Navy Reserve is 
ready now, anytime, anywhere, as our motto and our sailors 
proudly claim.
    [The prepared statement of Admiral Debbink follows:]
            Prepared Statement by VADM Dirk J. Debbink, USN
                            i. introduction
    Chairman Webb, Senator Graham, and distinguished members of the 
Personnel Subcommittee, thank you for the opportunity to speak with you 
today about the capabilities, capacity, and readiness of the dedicated 
men and women who serve in our Navy's Reserve component (RC). I offer 
my heartfelt thanks for all of the support you have provided these 
great sailors.
    I have now had the honor of serving as the Chief of Navy Reserve 
for 22 months. In that capacity, I am privileged to work for more than 
65,671 sailors in our Navy's RC, an elite fighting force which recently 
celebrated its 95th birthday. I am continuously amazed and humbled by 
the daily sacrifices our Reserve sailors are making for our Nation and 
our Navy. Witnessing such great deeds helps me to focus on the services 
that I can provide to each of them: to ensure they are given real and 
meaningful work every day they are on duty; to ensure that they receive 
every practical material and organizational advantage to support them 
in their work; and to provide their families and employers with the 
proper support to honor and ease their sacrifices.
    Our Navy needs, and our sailors deserve, the best Navy Reserve 
possible, and today's Navy Reserve is as strong and as relevant as it 
has ever been. Our success is a direct result of the dedication and 
professionalism of our sailors, which is a reflection of the tremendous 
support those sailors receive from their families and civilian 
employers.
    Last year, the Navy Reserve adopted an official Force Motto: 
``Ready Now. Anytime, Anywhere.'' This motto is our pledge to our 
shipmates, our Navy, and our Nation and serves as the guiding principle 
of the Navy Reserve Strategic Plan. In that Plan, the mission of the 
Navy Reserve is defined: ``to provide strategic depth and deliver 
operational capabilities to our Navy and Marine Corps team, and joint 
forces, from peace to war.'' As Chief of Navy Reserve, I can report 
without reservation that our Navy Reserve sailors accomplish this 
mission every day.
    The Navy Total Force is aligned with and supports the six core 
capabilities articulated in the Maritime Strategy and is managed by 
Navy leadership to enable the Chief of Naval Operation's priorities: 
(1) build tomorrow's Navy; (2) remain ready to fight today; and (3) 
develop and support our sailors, Navy civilians, and their families. 
The Navy Reserve is integral to the Navy Total Force--we stand 
shoulder-to-shoulder with our Active Duty component executing full 
spectrum operations that represent every facet of our Navy's Global 
Maritime Strategy. Within this Total Force framework, I would like to 
take this opportunity to update you on the programs that support the 
Chief of Naval Operations' focus areas, while also highlighting some 
key contributions from Navy reservists in 2009.
                     ii. care for our warrior force
    This country owes a great debt to the men and women who have gone 
in harm's way in support of contingency operations around the globe and 
it is our obligation to provide them not just with every opportunity to 
succeed while deployed, but also with the means to reintegrate once 
they return from overseas.
    Secretary of Defense Robert Gates has stated, ``apart from the wars 
in Afghanistan and Iraq, my highest priority as Secretary of Defense is 
improving the outpatient care and transition experience for troops that 
have been wounded in combat.'' The Navy Reserve takes this commitment 
to heart and is setting a higher standard every day for the care and 
well-being of our Wounded Warriors. In 2009, we completed implementing 
programs recommended in the Naval Inspector General's Navy Reserve 
Wounded Warrior Care report, highlighted by the functional stand-up of 
the Reserve Policy and Integration organization (M-10) within the 
Bureau of Medicine and Surgery (BUMED). This organization provides 
BUMED with a Reserve perspective related to medical policies and issues 
impacting the Total Force. We continue to provide exceptional service 
to sailors assigned to the Navy's Medical Hold (MEDHOLD) units. These 
units provide necessary medical and non-medical case management to the 
Navy's RC Wounded, Ill, and Injured (WII) population. For those sailors 
and Coast Guardsmen who are seriously wounded, ill, or injured, the 
Navy Safe Harbor program is the Navy's lead organization for 
coordinating non-medical care for the warrior and their family members. 
Through proactive leadership, MEDHOLD helps RC WII members return to 
service and their communities, and Safe Harbor provides individually 
tailored assistance designed to optimize the successful recovery, 
rehabilitation, and reintegration of our shipmates.
    Superior care is not reserved for injured sailors alone. Medical 
research indicates that health concerns, particularly those involving 
psychological health, are frequently identified during the months 
leading up to and following return from an operational deployment. 
Current Navy programs, such as Operational Stress Control Training, the 
Psychological Health Outreach Program, and BUMED's Wounded, Ill, and 
Injured Warrior Support, are designed to align with critical stages of 
the deployment cycle.
    An integral component of Force Health Protection calls for ensuring 
all servicemembers are fit to deploy, and Navy has improved the 
screening procedures for mobilizing sailors to ensure they are 
medically able to meet theater requirements. For example, the Medical 
Readiness Reporting System (MRRS) has improved tracking of each 
sailor's suitability for Area of Responsibility-specific expeditionary 
assignments. In addition, annual Physical Health Assessments (PHA), 
coupled with the new, standardized consolidated pre-deployment 
screening and local line support will streamline screening requirements 
while maintaining fidelity on issues which impact medical readiness. 
Early screening and associated fitness determinations help alleviate 
unnecessary stress on our sailors and provides supported commands with 
a steady stream of well-prepared and able workforce. We are also 
actively engaged in implementing the new legislation that makes 
reservists eligible for Tricare coverage up to 180 days before a 
mobilization event. We are thankful to Congress for their work in 
providing this benefit to our mobilizing servicemembers.
    Sailors returning from overseas mobilizations are encouraged to 
attend a Returning Warrior Workshop (RWW), which is the Navy's 
``signature event'' within the Department of Defense (DOD) Yellow 
Ribbon Reintegration Program (YRRP). In the 8 years since September 11, 
the overwhelming majority of Reserve sailors mobilized to active duty 
have deployed as Individual Augmentees (IAs). Deployed apart from their 
parent unit and often assigned duties which differ greatly from their 
primary specialty, these combat zone deployments can be uniquely 
stressful. The RWW is a dedicated weekend for sailors to reconnect with 
spouses, significant others, and each other following an IA deployment. 
Staged at a high-quality location at no cost to the participants, the 
RWW employs trained facilitators to lead Warriors and their families/ 
guests through a series of presentations and tailored break-out group 
discussions that address post-combat stress and the challenges of 
transitioning back to civilian life. Additionally, my goal is to have a 
Navy Flag Officer in attendance at every RWW to make a visible 
statement of Department of the Navy support for this valuable program. 
A total of 47 RWWs have been held as of 1 May 2010, attended by 3,376 
military personnel and 2,617 guests/family members. The fiscal year 
2011 budget supports up to another 25 events. Pioneered by the Navy 
Reserve, these workshops are now available for all Navy IAs. RWWs are a 
true success story in honoring our sailors and their families. It is 
one of my top priorities to ensure this program continues to have both 
the full support of Navy leadership and the widest possible 
participation by all returning sailors.
    RWWs serve as a key component of the Navy Reserve Psychological 
Health Outreach Program. Outreach teams assigned to each Navy Region 
Reserve Component Command facilitate the RWWs and engage in other 
critical aspects of the Deployment Health Assessment (DHA) process. 
DHAs are regularly scheduled encounters used to screen servicemembers 
prior to and after deployment and to facilitate appropriate 
psychological care. The DHA process supports the DOD health protection 
strategy to deploy healthy, fit, and medically-ready forces; to 
minimize illnesses and injuries during deployments; and to evaluate and 
treat physical, psychological, and deployment-related health concerns. 
The process is designed to identify stress injuries and other health 
concerns requiring further assessment or treatment as appropriate. The 
Navy Reserve now has dedicated mental health professionals and 
associated assets available to provide psychological health services 
for the Navy and Marine Corps Reserve communities. Providing 
psychological health assessment services for deploying reservists will 
assist in identifying potential stress disorders and facilitate early 
intervention before these disorders accelerate to a more critical 
``injured or ill'' stage, keeping Navy and Marine Corps reservists 
psychologically healthy for continued retention in the Reserves and for 
future overseas and CONUS mobilizations. Also recently established as 
part of the YRRP, the Pre-Deployment Family Readiness Conference 
(PDFRC) utilizes Psychological Health outreach teams to provide 
education and information to ensure that sailors and their families are 
ready for the rigors of deployment and the challenges of family 
separation.
    Additionally, Navy's formalization and emphasis of the Operational 
Stress Control (OSC) Program is working to de-stigmatize psychological 
health issues, which can improve sailors' participation in valuable 
psychological health programs for those in need. The Navy Reserve team 
is a charter member of the OSC Governance Board. The Psychological 
Health Outreach teams provide the OSC Awareness brief during periodic 
visits to Navy Operational Support Centers (NOSCs) across the country. 
As of 1 April 2010, the psychological health outreach team members have 
made 225 visits to NOSCs, providing the Operational Stress Control 
Awareness brief to over 23,400 reservists and staff personnel.
    Finally, and although not solely related to mobilized sailors, the 
Navy Reserve has aligned closely with the Chief of Naval Personnel on 
programs that detect and help individuals who are at risk of suicide. 
Families, often the first people to notice a desperate change in a 
sailor, are included in programs such as the PDFRC and the RWW. A 
Suicide Event Report (SER) is completed on all actual or attempted 
suicides, regardless of duty status, which has provided a more complete 
picture of the problems afflicting all Navy sailors. In every instance 
where the chain of command knows of a Navy reservist who has attempted 
suicide, either in a duty or non-duty status, the reservist is referred 
to the Navy Reserve Psychological Health Coordinators for follow-up and 
referral to the appropriate mental health care services. The 
aforementioned OSC Awareness briefs provided by the Psychological 
Health Outreach teams also include Suicide Prevention briefs.
                iii. progress in programs for our people
    The Navy Reserve Strategic Plan defines the vision for the Navy 
Reserve as follows: ``Our vision for the Navy Reserve is to be a 
provider of choice for essential naval warfighting capabilities and 
expertise, strategically aligned with mission requirements and valued 
for our readiness, innovation, and agility to respond to any 
situation.'' During the last 8 years, the Navy Reserve has demonstrated 
the ability to continue sustained and valuable contributions to the 
Total Force, in the full spectrum of missions, at home and abroad, and 
as both an operational and strategic force. We continue to forge ahead 
with ideas and programs that will allow us to continuously contribute 
to the strategic aims of the Navy and the Joint Force.
    As defined in the Strategic Plan, one of the three Focus Areas for 
the Navy Reserve is to enable the Continuum of Service (CoS). CoS 
reflects the reality of our Navy. As our Chief of Naval Operations, 
Admiral Gary Roughhead, states, ``we are one force today. One Navy, 
with an Active component and a Reserve component.'' CoS initiatives 
provide for seamless movement between the Active component (AC), RC, 
and civilian service, while delivering operational flexibility and 
strategic depth at the best value for the Navy. Responding to the CoS 
philosophy, we recruit sailors once and retain them for life through 
variable and flexible service options that provide a career continuum 
of meaningful and valued work.
    Not long ago, we spoke of creating active duty ``on ramps'' and 
``off ramps.'' Today, a better analogy is that we're all on the same 
career highway, and during our career we may wish to change lanes 
several times, moving from Active to Reserve and back. Our commitment 
to our sailors is to make these lane changes easier and faster.
    CoS is forcing us to think differently and make big changes in the 
way we do business. Changing our culture might be the hardest part. Too 
often we think the only way to have a Navy career is by serving on 
active duty alone. Our Navy Reserve gives Navy sailors many other 
possible ways to have a full Navy career
    There were many important accomplishments associated with our CoS 
efforts in fiscal year 2009. Beginning last year, the Career Management 
System-Interactive Detailing (CMS/ID) allowed our AC career counselors 
to assist sailors transitioning from active duty to consider Reserve 
units in the location where they planned to live. This is a good 
example of how an effective career development program can be a 
fantastic opportunity for Sailors to Stay Navy for Life. Additionally, 
sailors in selected ratings and designators are informed about their 
eligibility for bonuses of up to $20,000 for affiliating with the Navy 
Reserve in the specialties we need most.
    Our Perform to Serve (PTS) program has given AC sailors avenues for 
continued service in the AC Navy, primarily through transitions from 
overmanned rates into undermanned rates. Last fall, Navy expanded this 
program to allow AC sailors the option to affiliate with the RC in 
their current rate to continue their Navy career. Integrating Reserve 
opportunities early into the sailor's transition process demonstrates 
the AC's commitment to CoS initiatives.
    One of the most exciting developments supporting CoS is the new 
Career Transition Office (CTO) within Navy Personnel Command. The goal 
of the CTO is to counsel sailors before they leave active duty and 
through the transition process in order to help them to take full 
advantage of the opportunities in the Navy Reserve. By engaging our 
fully qualified, world-wide assignable personnel before they leave 
active duty, we can turn a personnel loss into a retention transaction 
without the need to involve a Navy recruiter. We started with officers 
transitioning from AC to RC, and immediately reaped success by nearly 
doubling Navy Veteran officer affiliation rates from 28 percent to 55 
percent. We have recently expanded the program to include enlisted 
sailors who elected the Selected Reserve (SELRES) option in PTS. In the 
future, the CTO will handle all officer and enlisted transitions from 
AC-to-RC and RC-to-AC, except mobilizations.
    Expanding our CoS efforts is one of my top priorities for fiscal 
year 2010. In the upcoming year, we will further our participation in 
the World Class Modeling initiative sponsored by the Chief of Naval 
Personnel to anticipate Navy warfighting needs, identify associated 
personnel capabilities, and recruit, develop, manage, and deploy those 
capabilities in an agile, cost-effective manner. Additionally, we will 
place Reserve information in the Navy Retention Monitoring System to 
provide enhanced reporting and analysis capabilities for retention 
metrics.
    With regard to educating a ready and accessible force, we thank 
Congress for its support of the Post-September 11 GI Bill. The 
opportunity to transfer post-secondary education funds to a spouse or 
child is a significant benefit for our sailors and their families. 
Since implementation on 1 August 2009, over 3,899 Reserve members have 
been approved for transferability. We will continue to assess the 
impact of transferability on enlisted and officer retention.
    Another focus area for the Navy Reserve is to deliver a ready and 
accessible force. Reserve support for contingency operations in the 
Central Command Area of Responsibility (AOR) is one of the most 
critical elements in the success our forces have experienced throughout 
Operation Iraqi Freedom (OIF) and Operation Enduring Freedom (OEF). In 
fiscal year 2009, Navy Mobilization Processing Sites (NMPS) processed 
more than 7,400 sailors for long-term active duty service. Of those 
sailors, over 6,100 were mobilized to support Operation Iraqi Freedom 
and Operation Enduring Freedom in combat, combat support, and combat 
service support missions; the remaining 1,300 were on Active Duty for 
special work orders providing valued support throughout the Fleet.
    In fiscal year 2010, Navy will continue to improve advance 
notification of personnel for upcoming mobilizations, with a goal of 
consistently providing at least 180 days prior notification for all 
recurrent and rotational mobilization assignments. Further, the Navy 
Reserve will continue to leverage the already robust Total Force 
Command IA Coordinator (CIAC) program at all NOSCs in order to optimize 
the frequency, quality, and depth of communications with mobilized 
reservists and their families throughout the deployment cycle. The CIAC 
program, complemented by the extraordinary efforts of our command and 
unit leadership teams, is significantly increasing quality of life for 
our deployed warriors and their families. Also, full-time, long-term 
support of Navy and Joint Flag Officer requirements by reservists will 
help expand the expertise and knowledge of the Navy, and I thank you 
for the increased ability for Reserve participation in those 
assignments due to the legislation passed as part of last year's 
National Defense Authorization Act (NDAA).
    The Navy Reserve executed the Navy Reserve Personnel (RPN) and 
Operations and Maintenance (OMNR) accounts, valued at $3.2 billion, at 
99.9 percent in fiscal year 2009. The force executed nearly $150 
million in discretionary Reserve Personnel funding in support of 
missions world-wide, including $98 million in Active Duty for Training 
(ADT) funding--a 32 percent increase over fiscal year 2008--
contributing 311,345 man-days of on-demand expertise to our Navy and 
Marine Corps team and Joint Forces. This operational support is a 
critical enabler to the Navy as Navy reservists provide full-time 
excellence through part-time and full-time service. In fiscal year 
2011, the budget requests $1.94 billion in baseline RPN, to include 
$190 million in discretionary RPN, and $1.37 billion in baseline OMNR 
appropriations.
    In addition to personnel support, Navy Reserve units and hardware 
contribute to Navy's warfighting effort across multiple mediums, in 
missions ranging from combat operations or combat support operations, 
to logistics support around the globe, to training and readiness 
facilitation for soon-to-be-deploying units. The wide spectrum of 
missions that can be completed with Reserve units is in keeping with 
the third of our focus areas: Provide Valued Capabilities. Even when a 
Reserve unit itself is not mobilizing, our focus is centered on 
guaranteeing that sailors are ready to provide necessary capabilities 
to the supported combatant commander.
    In fiscal year 2010, it is one of my top priorities to ensure the 
use of long-term budgeting processes to ensure sufficient Operational 
Support funding to meet Navy and Joint Force requirements. Demand for 
the services of our talented sailors has never been greater, and we 
must solidify our access to the ADT dollars used to fund this on-demand 
expertise. Navy Reserve sailors can be incredibly cost-effective, but 
there is a cost, and that cost must be incorporated in any long-term 
plan. This means planning and budgeting for the Navy Reserve to do the 
part-time work of the Navy.
    Some of the Navy's work is ideally suited for the RC. For example, 
billets that require specialized skill sets on a periodic and 
predictable basis are the billets where the Navy Reserve can deliver 
great value on an ongoing basis while at the same time providing 
critical strategic depth in case of emergency. By working closely with 
the Navy to identify and quantify the work for the Navy Reserve, we can 
ensure the Fleet receives the support it requires and our sailors will 
have real and meaningful work, delivering full-time excellence through 
part-time and full-time service.
    The Office of the Secretary of Defense (OSD) designated the Navy 
Reserve as the lead agency for managing the RC Foreign Language/Culture 
Pilot Program. This exciting new program encourages our Reserve sailors 
to take classes at institutions of higher learning to expand their 
awareness of critical foreign language and cultures. Incentivizing our 
sailors' natural desire to learn will foster understanding across 
cultural lines which will shape our force for the better. Bonuses are 
awarded based on performance which can add up to $5,000 for strategic 
languages and cultural areas studied which are in high demand within 
DOD.
    The Navy continues to strive for ``Top 50 Employer'' recognition 
and the Navy Reserve is in lock-step with those efforts. Top 50 
organizations encourage innovation and focus on performance while 
taking care of their people through programs and policies that support 
a culture of trust, respect, communication, and collaboration. 
Maintaining a work environment that is conducive to quality work and 
leads to equal treatment of all personnel is paramount to the success 
of any organization. Sexual assault is a detractor from a healthy work 
environment, and it will not be tolerated in the Navy. The Navy Reserve 
participates in the Navy's Sexual Assault Prevention and Response 
(SAPR) Cross Functional Team to ensure compliance with the Navy's Total 
Force SAPR program instructions, policies, and procedures. Navy 
leadership continually communicates a ``Not in my Navy'' stance towards 
Sexual Assault through the ranks.
    The policies focused on enhancing the quality of life in the Navy 
have paid dividends for the Force. fiscal year 2009 marked the second 
consecutive year Navy attained enlisted and officer recruiting goals in 
both Active and Reserve components. In the Reserve, enlisted recruiting 
was at 100.6 percent of goal; officer recruiting finished at 107.7 
percent of goal. Not only did Navy find the quantity of recruits 
necessary to meet requirements, but the measured educational 
achievement of our recruits was at the highest level in years. SELRES 
retention numbers were equally strong, with attrition rates 
approximately 20 percent improved from fiscal year 2008 totals. There 
is still room for improvement in SELRES Officer strength, and numerous 
initiatives are underway to get SELRES Officer communities ``healthy'' 
by 2014, including targeted Officer affiliation and future retention 
bonuses, the increase of accession goals, refinements in the CTO 
process, and development of retention measurements and benchmarks. The 
value of recruiting incentives and special pays has been critical to 
every success the Force has enjoyed in this arena, and I thank you for 
providing us with the tools necessary to populate the Navy Reserve in 
the right manner while working towards the fiscal year 2011 budgeted 
end strength of 65,500. Bonuses have helped shape the ``Fit versus 
Fill'' successes of recent years; however, for certain enlisted wartime 
skills sets and in the officer inventory in general, the Navy Reserve 
requires the help bonuses provide to continue to meet recruiting and 
retention goals.
                             iv. way ahead
    In addition to the continuing attention to the programs and 
policies listed above, there are several other topics that have 
priority status this fiscal year to enhance our force-wide 
effectiveness, make it easier for each of us to serve, and to fully 
support our deploying members and their families.
    Foremost among my list of priorities is to achieve resolution on a 
path to fielding a Total Force Future Pay and Personnel System (FPPS). 
The Navy and Navy Reserve currently have separate pay and personnel 
systems, designed and built in an era when sailors rarely mobilized or 
transitioned between components. With the present system, it can take 
weeks to properly transition a sailor from one pay and personnel system 
to another. This creates a barrier to realizing our CoS goals.
    FPPS would enable sailors to transition quickly and seamlessly on 
and off active duty without the commensurate delays and confusion 
regarding pay and benefits. The Navy Total Force goal is to transition 
a sailor from one component to another within 72 hours. Navy leadership 
understands the urgency of resolving this issue, which impacts every 
sailor. I am confident that in fiscal year 2010, we will make 
considerable progress towards this goal.
    Another top priority this year is to ensure Navy has the funding 
allowing the RC to perform directed missions. In addition to working 
through the long-term budgeting process needed to pay for our sailors, 
we are fully engaged in the development of Naval Aviation Plan 2030 to 
ensure that the valued capabilities delivered by the Navy Reserve are 
properly resourced.
    Navy Reserve aviation trains the Fleet, moves the Fleet, and when 
needed, surges to the fight. Twenty-eight squadrons, 8 Fleet 
Replacement Squadron Augment Units (SAUs), and 17 Chief of Naval 
Aviation and Training SAUs provided more than 70,000 flight hours in 
fiscal year 2009, including 80 percent of the Navy's direct and 
indirect Fleet operational support. Our four adversary squadrons 
provided 76 percent of Navy capacity, and the Fleet Logistics Support 
Wing provided 100 percent of the shore-based Navy Unique Fleet 
Essential Airlift with an average weekly cost avoidance of $655,000. 
These assets provide strategic surge capacity and maintain warfighting 
readiness at a lower cost, both in terms of payroll and airframe life, 
than AC squadrons. Navy Reserve's lower Fatigue Life Expenditure has 
provided Navy inventory managers increased options that have been a 
valuable part of Naval Aviation's recapitalization plan generally, and 
of P-3Cs and F/A-18s in particular.
    Historically, Reserve aircraft have been procured via a combination 
of routine procurement processes, the use of National Guard and Reserve 
Equipment Appropriations (NGREA), Congressional buys, and the transfer 
of aircraft from the AC to the RC as new production aircraft enter the 
Total Force inventory.
    Current aviation procurement trends will challenge RC aviation 
capabilities as the Navy Reserve continues to recapitalize assets. 
Priorities include completing the C-40A (airlift) procurement and 
recapitalizing the electronic attack capability that is fully 
integrated into the Airborne Electronic Attack (AEA) deployment plan 
that has provided 12 years of combat deployments in support of COCOM 
requirements. I am very appreciative of Congress' support for the 
purchase of three C-40A aircraft in the last two budgets. The C-40A 
provides twice the range, twice the cargo load, and twice the Ready for 
Tasking (RFT) days of the C-9B it replaces. The overall burdened hourly 
operating cost of the C-9B is $8,147/flight hour versus the C-40A cost 
of $6,141/flight hour. As a result, a $42 million per year cost 
avoidance will be realized by completing C-40A procurement and retiring 
the 15 remaining C-9Bs.
    The fiscal year 2011 budget also supports the creation of a fourth 
Riverine Squadron for the Navy Expeditionary Combat Command (NECC). 
This additional unit was expressly addressed in the most recent 
Quadrennial Defense Review, and recognizes the unique skills and 
capabilities that the joint forces desire for current operations. NECC 
is manned equally by AC and RC personnel.
    We will continue to utilize NGREA as available to meet the needs of 
the Navy. NGREA has been a high impact capital infusion for the Navy 
Reserve since its inception in 1981, but has taken on added importance 
in recent years. While the Navy Reserve's NGREA service allocation has 
decreased from 11.3 percent in 2004 to 5.0 percent in 2009, the 
appropriation has been instrumental in resourcing the capability of the 
NECC and has bolstered the recapitalization of critical RC equipment in 
both Naval Aviation and the Surface Navy. In fiscal year 2009, the Navy 
Reserve executed NGREA funding to equip the Maritime Expeditionary 
Support Force, Explosive Ordnance Disposal, Naval Construction Force, 
Naval Expeditionary Logistics Support Group, Naval Aviation and Surface 
Warfare units with: tactical and armored vehicles; Civil Engineering 
Support Equipment; communications equipment; Table of Allowance 
equipment; aviation modernization upgrades; and Rigid Hull Inflatable 
Boats. I am thankful for the $55 million NGREA allocated to the Navy 
Reserve for fiscal year 2010.
    Secretary of the Navy Ray Mabus has committed the Navy and Marine 
Corps to meet bold, ambitious goals to advance Navy's energy strategy. 
The Navy Reserve, in cooperation with the Naval Installations Command, 
is committed to providing the Secretary an innovative and agile RC that 
can and will be a significant force multiplier in the pursuit of these 
goals.
    Navy Reserve Military Construction and Facilities Sustainment, 
Restoration and Modernization (FSRM) projects will be stringently 
evaluated for efficient use of energy and water, use of new and 
emerging energy technologies, employment of innovative strategies and 
best practices, use of renewable energy sources, and energy-efficient 
mobility. Large-scale, comprehensive organizational efforts will be 
made in the use of energy efficiency and management tools. All Navy 
Reserve Military Construction and FSRM projects will incorporate 
conservation measures and environmental stewardship practices into 
their design and execution. The focus will be to reduce the cost and 
environmental impact of Navy Reserve construction projects by advancing 
energy efficiency and water conservation, promoting the use of 
distributed and renewable energy, and improving utility management 
decisions at all Reserve facilities.
    Additionally, these energy goals can be helpful in facilitating 
transformation of the force; for example, completion of C-40A fleet 
logistics squadron recapitalization will offer a 13.2 percent fuel 
consumption reduction over the aging C-9B. Fuel savings in excess of 
43,300 barrels per year will be realized when the C-9s are finally 
retired.
    The Navy Reserve is an agile, innovative force, and in no arena is 
that description more apt than in the realm of Information Dominance. 
Navy Reserve has engaged in a directed, efficient transition from 
legacy systems and has successfully piloted state of the art solutions 
that are currently in use and will be used by the Fleet of the future. 
Continued use of this responsive Force as the Navy's' test platform is 
critical in successfully deploying the latest technology in the most 
timely and cost effective manner possible.
    The threat posed to the government from aggressive actors in the 
cyber arena grows every day, and the Navy is engaged in actions to keep 
our country's systems protected. Key to the Cyber Manpower Strategy is 
the development of an RC Surge capability. The vision is to transition 
current Cyber manpower into Reserve Cyber Units that would serve in 
this capacity. Also, an enhanced direct-commission program would allow 
for increased accession of Cyber specialists. Finally, the Navy is 
considering a Civilian Cyber Augment Force: an ``on call'' team of 
experts that can provide strategic relevance and depth to the Navy as 
the cyber environment changes and technical progress is made. Civilian 
experts and consultants can be rapidly hired under existing authorities 
to meet the emerging critical requirements of Fleet Cyber Command/
Commander 10th Fleet. We feel this effort can open unexplored areas of 
expertise in support of Navy's Cyber vision and mission execution.
                             v. conclusion
    Since September 11, more than 63,000 mobilization requirements have 
been filled by SELRES personnel, along with an additional 4,600 
deployments by FTS sailors in support of the ongoing conflicts in Iraq, 
Afghanistan, and the Horn of Africa. On any given day, more than 20,000 
Navy reservists, or about 30 percent of the Force, are on some type of 
orders providing support to global operational requirements of Fleet 
Commanders and COCOM global operational requirements. Our Navy Reserve 
Force--65,671 sailors--are forward deployed in support of coalition 
forces, at their supported commands around the world, or in strategic 
reserve and ready to surge 24/7 if and when additional Navy Total Force 
requirements arise.
    I am proud to be a Navy reservist, and I am humbled by the 
commitment of the men and women of our Navy Reserve. It is very 
rewarding and fulfilling to stand shoulder to shoulder with the Navy's 
AC as we meet our Nation's call to duty. I am honored to receive the 
support of Congress on key initiatives, such as providing TRICARE 
eligibility to ``gray area'' retirees. Although I readily admit my 
bias, there has never been a better time to be part of the Navy-Marine 
Corps team, and our Navy Reserve is clearly an integral part of the 
this hard-working, high-spirited, and amazingly capable force.
    The Navy's ability to be present in support of any operation, in 
war and peace, without permanent infrastructure in the area of 
operations, is a key advantage that will become even more important in 
the future. Our Navy remains the preeminent maritime power, providing 
our Nation with a global naval expeditionary force that is committed to 
global security, while defending our homeland as well as our vital 
interests globally. The Navy Reserve's flexibility, responsiveness, and 
ability to serve across a wide spectrum of operations clearly enhances 
the Navy Total Force, acts as a true force multiplier, and provides 
unique skill sets towards fulfilling Navy's requirements in an 
increasingly uncertain world.
    On behalf of the sailors, civilians, and contract personnel of our 
Navy Reserve, we thank you for the continued support within Congress 
and your commitment to the Navy Reserve and our Navy's Total Force.

    Senator Graham. What's your biggest challenge, as a head of 
the Navy Reserve?
    Admiral Debbink. Our biggest challenge right now, today, is 
our pay and personnel system and our travel claim system, sir. 
We're working hard to develop an integrated pay and personnel 
system, the Future Pay and Personnel System, as it's called. We 
appreciate the opportunity to move off of the DIMHRS.
    Senator Graham. Are you going to get us some ideas about 
how to fix that?
    Admiral Debbink. Yes, sir. We're working right now on a 
number of alternatives, analysis of alternatives. We think we 
have a couple of solutions that we're very close to being able 
to implement.
    Senator Graham. Okay.
    Admiral Debbink. We believe it'll take probably until at 
least 2012 for initial operating capability.
    Senator Graham. Will you need legislative action to change 
it, or can you do it internally?
    Admiral Debbink. We can do it internally, sir.
    Senator Graham. Okay.
    Admiral Debbink. We simply need the funding to be able to 
do it, of course.
    Senator Graham. From the recruiting/retention point of 
view, are you similar to where the Army's at?
    Admiral Debbink. Yes, sir, we're doing very well, overall, 
with our recruiting and our retention. The challenges we have 
right now are in our medical programs--specialty medical 
officers and Nurse Corps. Two challenges there are, we have 
very few coming off Active Duty, which is a primary source of 
recruiting for us, as well as, I think all of us have 
experienced the same problems with medical. Otherwise, we're 
doing very well.
    Senator Graham. Thank you.
    General Kelly.

 STATEMENT OF LT. GEN. JOHN F. KELLY, USMC, COMMANDER, MARINE 
       FORCES RESERVE; AND COMMANDER, MARINE FORCES NORTH

    General Kelly. Sir, good morning. It's certainly an honor 
to be here this morning and to appear----
    Senator Graham. Congratulations, by the way.
    General Kelly. Thank you, sir.
    A couple of details, sir. I command 39,600 drilling 
reservists, and an additional 55,000 Individual Ready Reserve 
(IRR) reservists, in 83 locations around the country. In the 6 
months I've been in command, my sense is, the strength of the 
Marine Corps Reserve is that it has a relatively large number 
of prior-service marines that serve.
    Senator Graham. How much do you depend on the Active Duty 
going to the Reserve for your recruiting? How big a part of 
that?
    General Kelly. On the officer side, it's almost 100 
percent. We've had some shortfalls, recently, that we're making 
up with a couple of small programs----
    Senator Graham. So, 100 percent of the Marine Corps Reserve 
officers are former Active Duty people.
    General Kelly. Have had some length of--at least 4 years 
Active Duty.
    Senator Graham. So, with a downturn economy, General Kelly, 
does that present problems? People are less likely to get off 
Active Duty?
    General Kelly. No, sir. In fact, the problem we had, in 
terms of maintaining officer numbers, is that when the Marine 
Corps was growing--and it's just completed that--up to 
202,000----
    Senator Graham. Right.
    General Kelly.--the encouragement was to stay in the Marine 
Corps. So, the pool of individuals getting off Active Duty just 
wasn't there; they were staying in the Marine Corps. In fact, 
we were going into the Reserve, encouraging reservists to also 
go back on Active Duty.
    Senator Graham. Okay. So, you really don't have a problem 
with that. You have the opposite problem.
    General Kelly. Right. Exactly right.
    Senator Graham. Okay.
    General Kelly. To just finish up, I've experienced a total 
force Marine Corps, we don't think in terms of reservists and 
Active Duty. I know all of the other Services do that, as well. 
I would just end with--because I know time is of the essence--
that the recruiting is good, troops are good and happy, and so 
are the families.
    I stand by to answer your questions, sir.
    [The prepared statement of General Kelly follows:]
           Prepared Statement by Lt. Gen. John F. Kelly, USMC
    Chairman Webb, Ranking Member Graham, and distinguished members of 
the subcommittee, it is my honor to report to you on the state of the 
Nation's Marine Corps Reserve.
    I assumed command of Marine Forces Reserve (MFR) and Marine Forces 
North (MFN) in October of last year; however, these past months have by 
no means been my first experience with the Reserve component (RC). Over 
my many years as a Marine, but particularly over the course of three 
tours totaling nearly 3 years in Iraq, I have served with and fought 
alongside Marine reservists and know first hand the mettle of these men 
and women. My appearance here today represents my first opportunity to 
share with you my assessment of these tremendous marines, and to 
outline my priorities for the Force going forward and as we work toward 
a better, more complete understanding of what the operational reserve 
means for the defense of the Nation and in the support of our 
international partners.
    First and foremost Marine Forces Reserve continues to be an 
integral element of the Marine Corps' ``Total Force.'' We share the 
culture of deployment and expeditionary mindset that has dominated 
Marine Corps culture, ethos and thinking since our beginning more than 
2 centuries ago. All marines stand eternally ready to answer the 
Nation's 911 call and as our charter requires, is to ``be most ready 
when the Nation is least ready.'' The Reserve component is trained, 
organized and equipped in the same way the Active Forces are, and 
consequently we are interchangeable and forever leaning forward to 
deploy as the Nation requires. The Commandant of the Marine Corps 
recently stated that Marine Forces Reserve can be ``whatever the Nation 
needs it to be,'' an operational or a strategic reserve. Sustained 
combat operations and worldwide theater security cooperation and 
training commitments over the last 9 years more than suggest the 
essential need for the Reserves to continue focusing at the operational 
vice strategic end of the continuum. Indeed, in the just-published U.S. 
Marine Corps Service Campaign Plan 2009-2015, Marine Forces Reserve is 
tasked no less than five times to train, organize and equip for 
participation as an ``operational reserve'' within the Corps' Total 
Force. The marines themselves, most of whom came to the Nation's colors 
after September 11 and have deployed deep into harms way, prefer this 
model and do not desire to assume lives as so called ``weekend 
warriors.'' This high level of flexibility, responsiveness and elan is 
only possible by the ever deepening bench of combat tested and uniquely 
qualified citizen ``Soldiers of the Sea.'' I am humbled daily by my 
interactions with these magnificent young Americans. Like their active 
duty brothers and sisters they sacrifice so much of their time, and so 
much of themselves, to protect and serve this Nation. The way they 
balance their family responsibilities, and civilian lives and 
occupations--and still stay Marine--amazes me. They do it with 
humility, without fanfare, and with a sense of pride and dedication 
that is consistent with the great sacrifices of marines of every 
generation. They continue to affirm the Commandant's conviction that 
today's marines are cut from the same cloth as those who fought 
conspicuously upon the battlefields of our Corps' long history.
                    i. today's marine corps reserve
    The Commandant has said the Marine Corps Reserve will be whatever 
the Nation needs it to be. In the last decade, the Nation has needed 
its Marine Reserves to be continuously engaged in combat operations in 
Iraq and Afghanistan and in regional security cooperation and crisis 
prevention activities. This tempo has built a momentum among our 
warfighters and a depth of experience throughout the ranks that is 
unprecedented in generations. The Marine Corps Service Campaign Plan 
calls for the employment of an operational reserve no less than 5 
times. Understanding that we are fighting a transnational enemy and 
that partner nations will continue to seek our training and mentoring 
capabilities, I expect our Marine reservists to be in great demand 
during the coming years in a sustained manner. We are prepared to 
provide that persistent capacity. Our Commandant has further stated 
that marines, Active or Reserve component, join the Marine Corps to do 
the things they are now doing--deploying and winning our Nation's 
battles. The nature of the fight in Afghanistan for instance, is 
particularly suited to our Marine Reserves. It is a thinking man's 
fight that requires solutions at the grassroots level, where our 
marines operate best, among the population, as evidenced by our combat 
prowess in Iraq and humanitarian assistance today in Haiti. Our 
successes in Iraq were hastened by the types of individuals we have in 
our ranks, who were utilizing civilian skills in ways not necessarily 
anticipated, but ultimately pivotal to the success in Al Anbar. That 
maturity, creativity and confidence is what an operational reserve 
brings to the fight. Your Marine Corps Reserve is more highly-trained, 
capable, and battle-tested than at any time since the Korean War. As an 
integral part of the Total Force Marine Corps, it blends seamlessly 
into the gaining force regardless of whether marines come as individual 
augments, detachments, or as operational units.
    As of January 31, 2010, more than 54,000 Reserve marines have 
executed over seventy thousand mobilizations in support of Overseas 
Contingency Operations (OCO) since September 11, 2001. The vast 
majority of these marines deployed to the U.S. Central Command area of 
responsibility. One-hundred percent of Marine Corps Reserve units at 
the battalion and squadron level have either been activated in their 
entirety or activated task-organized detachments. Again, the vast 
majority deployed to the U.S. Central Command area of responsibility. 
Without going into too many specifics, 4,000 marines and sailors--
citizens from Texas, California, Missouri, Nevada, Utah, Maryland, and 
Virginia--from the 4th Marine Division deployed to both war zones and 
went a long way to achieving success in al Anbar Province, Iraq and 
training security forces in Afghanistan. Thousands of other division 
marines also deployed in support of Combatant Commander Theater 
Security Cooperation initiatives to South America, Eastern Europe, 
Asia, Africa, Australia, and various Pacific island nations. This year 
will be no different with exercises planned for Norway, Peru, Belize, 
Uganda, Estonia and Morocco, and again in various nations in Asia and 
the Pacific islands.
    Our Reserve aviators of the 4th Marine Aircraft Wing are no less 
busy supporting Marine and joint training requirements here in the 
United States, as well as deploying fighter and helicopter squadrons to 
the war zones and Horn of Africa, and supporting Combatant Commander 
initiatives across the globe as well. Of particular note the Total 
Force Marine Corps has had to rely heavily on the 4th Marine Aircraft 
Wing in support of the Marine Corps Aviation Transition Strategy. 
Modernizing from, in some cases, 40 plus year-old legacy aviation 
systems, to the leap ahead capabilities inherent in the V-22 ``Osprey'' 
and the Joint Strike Fighter, we have had to temporarily transfer 
manpower, airframe, and support structure to the Active component. 
Beginning in 2014, Marine Forces Reserve will commence the process of 
transitioning to the new systems and capabilities, but in the mean time 
is in total support of the overall Total Force modernization efforts.
    The third Major Subordinate Command of the Reserve component is 4th 
Marine Logistics Group. Anyone who understands the Marine Air Ground 
Task Force (MAGTF) concept knows full well the ground fighters of the 
division, and aviators of the wing, go nowhere without the logistics 
professionals in the Group. In addition to service in both wars, and 
every 1 of the 57 events--large and small--that have contributed so 
mightily to all the combatant commanders' efforts across the globe, 
there were 2 special endeavors I want to highlight. The first was the 
command element's service as operational logistic providers in the 
Korean Theater last April during exercise Key Resolve, made necessary 
by a dearth of joint logistics capability due to the demands of Iraq 
and Afghanistan, and particularly the additional expeditionary demands 
of transitioning Marine forces in large numbers out of Iraq and into 
Afghanistan. The second is the increased support provided to various 
Maritime Prepositioning Exercises, again made necessary by wartime 
demands experienced by the Total Force.
    Unique inside the Marine Corps is the Mobilization Command 
(MOBCOM), of Marine Forces Reserve. As the increased use of the 
Individual Ready Reserve (IRR) has grown over the last several years, 
so too has the workload of Mobilization Command. During the last fiscal 
year, more than 900 sets of mobilization orders were issued with a 
total of 653 IRR marines reporting for activation. MOBCOM also 
processed more than 9,400 sets of shorter duration orders. Mobilization 
Command developed and participated in family readiness programs that 
are particularly difficult within the IRR construct. Initiatives like 
the congressionally-mandated ``Yellow Ribbon Programs'' seek to provide 
support to families from initial call up through return and 
demobilization. Additionally, Mobilization Command conducted regional 
IRR musters, often partnering with other government agencies like the 
Department of Veterans Affairs, to maintain required annual contact 
with marines once they have left active service but still ``owe'' the 
Nation Reserve time.
    Let me touch again on one of the important planning mechanisms for 
an operational reserve. Our Force Generation Model, developed and 
implemented in October 2006, continues to provide long-term and 
essential predictability of future activations and deployments. The 
Model provides my marines, their families, and just as importantly 
their employers, the capability to plan their lives 5 or more years 
out. It enables them to strike the critical balance between family, 
civilian career, and service to the Nation, while allowing employers 
time to manage the loss of valued employees. The Force Generation Model 
also assists service and joint force planners in maintaining a 
consistent and predictable flow of fully capable Marine Corps Reserve 
units. Internal to the Marine Corps this flow of fully trained and 
capable Reserve units has proven essential in reaching the Secretary of 
Defense established target of a 1:2 dwell for our Active component. The 
Model is a relatively simple management tool based on 1-year 
activations, to 4-plus years in a non-activated status. This makes 
continued programmed utilization of the Reserve component sustainable 
at 1:5 over the long term and supports the momentum about which I spoke 
in my introduction.
    Predictable activation dates, mission assignments and geographical 
destination years out now permits me to orient training on core mission 
requirements early in the dwell period, then transitioning training 
focus to specific mission tasks once the unit is 12-18 months from 
activation.
    In each of the past 3 years, between the wars in the Middle East 
and South Asia, and theater security cooperation activities to include 
mobile training teams conducting ``Phase Zero'' operations, nearly one-
third of our 39,600 marines have deployed outside the continental 
United States both in an activated and non-activated status. In fiscal 
year 2009 alone, 7,500 marines were activated and deployed in support 
of the war in Iraq and Afghanistan, and an additional 5,800 were sent 
overseas to many locations on several continents in support of joint 
and combined theater security cooperation exercises.
    For the second year in a row Marine Forces Reserve stateside will 
sponsor exercise ``Javelin Thrust'' in June focusing on Marine Air-
Ground Task Force (MAGTF) core competency training. The scenario of 
this year's event is tailored to the current operating environment, and 
participating units have been identified consistent with their future 
deployment schedule as defined by the Force Generation Model. The end 
state of the exercise (Javelin Thrust) is that the headquarters staffs 
of the participating organizations (regiments, aircraft groups, 
battalions, and squadrons) are prepared for activation and are provided 
an in-depth roadmap to guide future pre-activation training. 
Additionally, individuals serving on those staffs will receive training 
allowing them to take their place as individual augments on a MAGTF or 
joint staff overseas, while other individuals in those units will be 
prepared for activation and the conduct of pre-deployment training. 
Last year's Javelin Thrust was the first large scale MAGTF exercise 
involving all three Major Subordinate Commands (Division, Wing and 
Marine Logistics Group) in 6 years. The 2009 distributed operations 
Afghan scenario also allowed other Department of Defense (DOD) agencies 
to participate and to test advanced technologies and transformational 
concepts. This year's exercise will also be conducted aboard 
installations throughout the Western United States with both virtual 
and real world aspects to the exercise.
                             ii. personnel
    The Selected Marine Corps Reserve is comprised of marines in 
Reserve units, those in Active Reserve status, Individual Mobilization 
Augmentees, and those in initial training. When taken together, these 
various categories of marines form the inventory of the 39,600 
authorized end strength in the Selected Marine Corps Reserve.
    Although we continue to enjoy strong volunteerism there has 
recently been some slight degradation in our ability to maintain 
authorized end strength. We were above 100 percent of our authorized 
end strength during fiscal years 2002-2005. There was a very slight 
drop to 99.71 percent in fiscal year 2006. In fiscal years 2007 and 
2008 percentages of authorized end strength dropped to 97.36 and 94.76 
percent--shortfalls of 1,044 and 2,077 individuals--respectively. This 
past fiscal year (2009), end strength improved to 97.25 percent. This 
is within the mandated 3 percent of authorization. When the 138 marines 
who had served on active duty for more than 3 of the last 4 years were 
taken into account, our shortfall increased to 3.1 percent (1,228). The 
dip below authorized strength experienced in 2007 and 2008 was 
predicted at the time due in large measure to the pressure put on the 
recruiting and retention of individuals to serve in the Active Force as 
the Marine Corps built to 202,000 active duty marines. Now that the 
202,000 goal has been met and surpassed well ahead of schedule, we are 
now institutionally focusing on Reserve recruiting and retention 
efforts to maintain required Reserve component end strength. For fiscal 
year 2010, we project an end strength of 39,266, a shortfall of less 
than 1 percent (prior to accounting for marines who have served on 
active duty for more than 3 of the last 4 years). The bonus and 
incentive programs that you provide for recruiting and retention will 
remain essential tools to continue achieving this goal.
    The Total Force Marine Corps will undoubtedly continue to rely 
heavily upon augmentation and reinforcement provided by Marine Forces 
Reserve. I believe our authorized end strength of 39,600 is still an 
appropriate number and will consequently drive recruiting and 
retention. This number provides us with the marines we require to 
support the Force, and achieve the Commandant's goal of a 1:5 
deployment-to-dwell ratio in the Selected Marine Corps Reserve.
    The Marine Corps - Navy Reserve Team is as strong as ever. In the 
past year the Navy ensured Marine Reserve units were fully manned and 
supported with Program 9 (U.S. Navy personnel in support of Marine 
Forces) and HSAP (Health Service Augmentation Program) personnel during 
all phases of the deployment (pre, operational, post). More 500 Navy 
personnel were sourced to staff Marine Forces Reserve units deploying 
to Iraq and Afghanistan, as well as numerous joint/combined exercises. 
These individuals focused almost entirely on providing medical, dental 
and religious services. The Navy Mobilization Office works with my 
headquarters, as well as with the four major subordinate commands, 
sourcing 100 percent of all requirements. As the demand increases 
throughout the forces, Program 9/HSAP support commands a high level of 
attention to fulfill not only Marine Corps missions, but Army and Navy 
missions as well. I am confident this process will continue ensuring 
Marine Forces Reserve units are supported with qualified Program 9 and 
HSAP personnel to accomplish the mission.
    The Marine Corps is unique in that all recruiting efforts--officer, 
enlisted, Active and Reserve component, and prior-service--fall under 
the direction of the Commanding General, Marine Corps Recruiting 
Command. This approach provides tremendous flexibility and unity of 
command in annually achieving Total Force recruiting objectives. Like 
the Active component, Marine Corps Reserve units rely primarily upon a 
first-term enlisted force. Recruiting Command achieved 100 percent of 
its recruiting goal for non-prior service recruiting (4,235) and prior 
service recruiting (4,501) in fiscal year 2008. It also exceeded its 
recruiting goal for non-prior service recruiting (5,296) and exceeded 
100 percent of its goal for enlisted prior service recruiting (3,862) 
during fiscal year 2009. As of January 31, 2010, 2,359 non-prior 
service and 1,397 enlisted prior service marines have been accessed, 
reflecting 46 percent of the annual enlisted recruiting mission for the 
Selected Marine Corps Reserve. We fully expect to meet our Selected 
Marine Corps Reserve recruiting goals again this year.
    The Selected Marine Corps Reserve Affiliation Involuntary 
Activation Deferment Policy was implemented during June 2006. The 
policy allows a Marine who has recently completed a deployment with an 
active unit an option for a 2-year deferment from involuntary 
activation if they join a Selected Marine Corps Reserve once they leave 
active duty. The intent of the 2-year involuntary deferment is to allow 
transitioning marines the opportunity to participate in the Selected 
Marine Corps Reserve, while at the same time giving them a break and an 
opportunity to start the process of building their new civilian career.
    Officer recruiting remains our most challenging area. Historically, 
the Active component has been the exclusive source of lieutenants and 
captains for the Reserves. This arrangement has paid tremendous 
dividends. Responding to the critical challenge of manning the Reserves 
with quality company grade officers, we have implemented three 
commissioning initiatives that focus exclusively on officer accessions 
for the Reserve component: Reserve Enlisted Commissioning Program 
(expanded to qualified active duty enlisted marines as well); 
Meritorious Commissioning Program-Reserve (open to individuals of 
either component holding an Associates Degree or equivalent in semester 
hours); Officer Candidate Course-Reserve (OCC-R). Since 2004 these 3 
programs have produced a total of 190 lieutenants for the Reserves with 
OCC-R being the most successful of the 3, producing 161 officers. The 
program focuses on ground billets with an emphasis on ground combat and 
combat service support and within specific Reserve units that are 
scheduled for mobilization. The priority to man units with these 
officers is once again tied to the Force Generation Model.
    All commanders and senior enlisted leaders across the force are 
tasked to retain quality marines through example, information and 
retention programs, and mentoring. This takes place across the Marine 
experience and not just in the final days of a marine's contract. For 
those approaching the end of their current contracts--Active or Reserve 
component--they receive more focused counseling on the tangible and 
intangible aspects of remaining associated with, or joining, the 
Selected Marine Corps Reserve.
    With Congress' help, affiliation bonuses, officer loan repayment 
and other initiatives have effectively supported our efforts to gain 
and retain the very best. The Commandant and certainly all of us in 
Marine Forces Reserve, greatly appreciate the continuance of all of the 
many programs that help us recruit and retain the best young men and 
women this Nation produces.
                             iii. equipment
    As mentioned previously we are as good today as we have been since 
at least the Korean War, if not World War II. This level of proficiency 
as warfighters is due, in large part, to the amount and frequency of 
combat the Reserve Forces have accumulated over the past 9 years while 
serving as an operational reserve. In addition, the quality of our 
equipment is on par with that of the active duty. Therefore, it is 
imperative we spend the relatively small amount required to maintain 
our operational reserve and provide a reasonable return on that 
investment. The end result is a better trained and more capable force 
than ever operating alongside our active duty brethren on the ground, 
in the air, and at sea. To achieve and maintain this high level of 
readiness and proficiency we have like all of DOD relied heavily on 
supplemental funding in the Overseas Contingency Operational account. 
As we move forward it is in the best interests of the Nation to not 
lose these historically high levels of proficiency. The current strong 
and operationally competent Reserve component has cost us much in lives 
and budgetary treasure to achieve over the last 9 years.
    As part of the Total Force, Marine Forces Reserve has two primary 
equipping priorities. The priority is to equip units and individuals 
set to deploy, and the second is to ensure units that are accomplishing 
normal training within the first 2-3 years of their dwell cycle have 
what they need in training allowance. We will always continue to 
provide those next into the fight all that they need in the latest 
generation of individual combat and protective equipment, and unit 
suites, to fight, accomplish the mission, and come home with the fewest 
number of casualties possible. Those not as close to deploying overseas 
to combat will also continue to be equipped with the best of everything 
and tailored specifically to whatever is next in their lives as defined 
by the Force Generation Model.
    The Marine Corps approaches equipment procurement and fielding from 
a Total Force perspective with the Reserve component treated in exactly 
the way as the three active Operational Marine Forces organizations. In 
many cases we have achieved lateral fielding when Active and Reserve 
component organizations are receiving equipment sets simultaneously. 
Again, fielding is prioritized by who is next to the fight. If they 
need it to train with post-deployment, they have it, otherwise in some 
cases they will pick it up in theater in the normal transfer of 
equipment that has marked the way the Marine Corps has done business 
since 2003.
    The National Guard and Reserve Equipment Appropriation (NGREA) 
allows me to mitigate any equipment deficiencies here in CONUS. For 
fiscal year 2009, Marine Forces Reserve received two sources of NGREA 
funding totaling $62.4 million. By providing the flexibility to 
purchase or accelerate the fielding of mission essential equipment, our 
units are better trained during pre-deployment and integrate 
effectively once they get in theater.
    As the Commandant consistently states, our number one focus will be 
the individual Marine and Sailor in combat. Ongoing efforts to equip 
and train this most valued resource have resulted in obtaining the 
latest generation individual combat and protective equipment: M16A4 
service rifles, M4 carbines, Rifle Combat Optic scopes, Lightweight 
Helmets, enhanced Small Arms Protective Insert plates, Modular Tactical 
Vests, and the latest generation Flame Resistant Organizational Gear 
(FROG.) Every member of Marine Forces Reserve has deployed fully 
equipped with the most current authorized Individual Combat Clothing 
and Equipment to include Personal Protective Equipment. The decisions 
regarding what they deploy with are made by commanders with a great 
deal of combat experience, and nothing is left to chance. However, as 
personal protective equipment has evolved over the years of this 
conflict there is now so much equipment and it is so heavy that the way 
we fight is adversely impacted. In particular the infantrymen are so 
heavy, in some cases carrying more than 100 pounds of equipment; they 
are more beasts of burden than they are agile hunters. It is not simply 
a matter of reducing the weight of individual items as these only add 
up to marginal weight savings, but hard decisions about what they carry 
and how much they carry are essential.
    The Commandant's unit equipping priority for Marine Corps Reserve 
units inside their dwell periods is to provide sufficient equipment to 
train with, but not burden the organizations with so much gear that 
they use all of their training time or unit funds maintaining it. We 
call this a Reserve unit's Training Allowance (TA.) This TA is the 
amount of equipment required by each unit to conduct home station 
training. Our goal is to ensure that the Reserve TA contains the same 
equipment utilized by the Active component. It is imperative that our 
units train with the same equipment they will utilize while deployed. 
The Marine Corps Reserve maintains a training allowance at each of its 
Reserve centers. As a whole, we are adequately equipped to effectively 
conduct training.
    NGREA funding from 2009 continues to be used to purchase much 
needed Light Armored Vehicles, ruggedized command and control laptops, 
aircraft systems and survivability upgrades and continued procurement 
of the Logistics Vehicle Replacement System Cargo variant.
    Marines are exceptionally good stewards of American taxpayer 
dollars, and the public property procured by those monies. In order to 
sustain an inventory of current equipment necessary to conduct home 
station training several resources and programs are utilized. The first 
is the routine preventive and corrective maintenance performed locally 
by user and organic maintenance personnel. Second, we have expanded 
ground equipment maintenance efforts, which rely largely on contracted 
services and depot-level capabilities. Third is our reliance on Marine 
Corps Logistics Command mobile maintenance teams providing preventive 
and corrective maintenance support to all 183 Marine Reserve sites 
across the Nation. This partnership provides a uniquely tailored Repair 
and Return Program. Fourth, we are intimately involved in the Marine 
Corps Enterprise Lifecycle Maintenance Program rebuilding and modifying 
an array of principal end items as required. Finally, we field the 
Corrosion Prevention and Control Program. Cumulatively all of these 
initiatives have resulted in a Marine Forces Reserve ground equipment 
readiness rate of 97 percent. Our 4th Marine Aircraft Wing ``mission 
capable'' rate in 2009 was 73 percent which is consistent with recent 
year rates and with the Active component rate of 71 through November 
2009.
                              iv. training
    The reality today is that the Reserve component has transitioned 
from what was considered a strategic reserve, to what is today the 
``operational reserve.'' Forever gone are the days when Reserve marines 
were considered mere ``weekend warriors'' and held in Reserve to 
reinforce the Active Force when it experienced catastrophic casualties 
from a World War III scenario against the former Soviet Union. For the 
last 9 years our Reserves have been a fully integrated force, routinely 
deployed to fight in Iraq and Afghanistan, and to execute theater 
cooperation engagement operations around the world at the behest of the 
combatant commanders. From all of these experiences we have captured 
important lessons that we have put to immediate use in improving every 
facet of our training. In this regard, one of the most exciting areas 
where we are continuing to transform the depth and scope of our 
training remains the cutting-edge arena of Modeling and Simulations 
Technology.
    Marine Forces Reserve is fielding several immersive complex digital 
video-based training systems, complete with the sights, sounds and 
chaos of today's battlefield environments. These systems are 
particularly important considering the limited training time and 
facilities available to our commanders. Last year we completed the 
fielding and upgrading of the Indoor Simulated Marksmanship Trainer-XP 
(ISMT). These simulators make it possible for the marines to ``employ'' 
a variety of infantry weapons (pistols through heavy machineguns) in 
rifle squad scenarios. These simulators now serve as regional training 
centers and more are planned. The Virtual Combat Convoy Trainer-
Reconfigurable Vehicle System provides invaluable pre-deployment 
training for the drivers or all makes and models of tactical vehicles. 
The conditions of terrain, road, weather, visibility and vehicle 
condition can all be varied, as can the combat scenario (routine 
movement, ambush, IED, etc.) The simulator is a mobile, trailer-
configured platform that utilizes a HMMWV mock-up, small arms, crew-
served weapons, 360-degree visual display with after-action review/
instant replay capability. We are now preparing to accept the fourth 
generation of this system, with student throughput doubling.
    Another simulation technology being fielded is the Deployable 
Virtual Training Environment (DVTE.) The DVTE also provides small-unit 
echelons with the opportunity to continuously review and rehearse 
command and control procedures and battlefield concepts in a virtual 
environment. All of this provides individual, fire team, squad and 
platoon-level training associated with patrolling, ambushes and convoy 
operations. Additional features include supporting arms upgrades (for 
virtual combined arms indirect fire and forward air control training), 
combat engineer training, small-unit tactics training, tactical foreign 
language training and event-driven, ethics-based, decision-making 
training. It is important to recognize the key role Congress has played 
in the fielding these advanced training systems, all of which have been 
rapidly acquired and fielded with supplemental and NGREA funding.
                             v. facilities
    Marine Forces Reserve is comprised of 183 sites in 48 States, the 
District of Columbia, and Puerto Rico. These facilities consist of 32 
owned sites, 151 tenant locations, 3 family housing sites, and a Marine 
barracks. In contrast to Active Duty installations that are normally 
closed to the general public, our Reserve sites are openly located 
within civilian communities. This arrangement requires close partnering 
with state and local entities nationwide. Thus, the condition and 
appearance of our facilities may directly influence the American 
people's perception of the Marine Corps and the Armed Forces.
    DOD policy and the use of standardized models for Marine Forces 
Reserve Facilities Sustainment, Restoration, and Modernization (FSRM) 
dollars have greatly improved funding profiles for our Reserve 
Facilities over the last several years. We are experiencing some of the 
best levels of facility readiness due to increased funding in the last 
three years, complemented by the addition of $39.9 million in stimulus 
dollars from the American Recovery and Reinvestment Act of 2009.
    We have repaired and upgraded sites across the country with 
projects continuing to completion in 2011. Between the BRAC 2005 and 
our normal Military Construction of Naval Reserve (MCNR) Program, we 
will have replaced over 35 of our 183 Reserve Centers in the next 2 
years. This represents the largest movement and upgrade in memory for 
the Marine Corps Reserve.
    MARFORRES research and investment for the last 2 years in energy 
efficiency, sustainability, and renewable energy is coming to fruition 
this fiscal year. Every new FSRM renovation project or MILCON is 
targeted for energy efficiency and sustainability aspects in accordance 
with policy and Leadership in Energy and Environmental Design (LEED) 
guidelines. We recently commissioned our first LEED Silver building at 
Camp Lejeune (the first in the Marine Corps) and are anticipating 
completion this year of our first LEED Silver rehabilitation project 
for 4th Combat Engineer Battalion in Baltimore, MD (a potential first 
for the Marine Corps as well). All of our MILCON projects from fiscal 
year 2009 on will comply with directives to achieve LEED silver or 
higher as funding profiles allow. We will be conducting energy 
assessments of all our 32 owned sites this fiscal year along with 
preparation of smart metering technology for each to enhance 
conservation and management. The MARFORRES approach combines 
efficiency, conservation, and renewable aspects to achieve optimal 
return on investment. We have six active solar projects underway this 
year with all coming on line within the next 12 months. Our six wind 
turbine projects are under suitability and environmental evaluations. 
If findings support, they will start coming on line within 18 months at 
an anticipated payback of as little as 8 years. Marine Forces Reserve 
is working with the National Renewable Energy Lab to produce a sound 
renewable energy plan for all Marine Forces Reserve locations. Our 
investment and implementation of these technologies provides energy 
security, efficiency, and cost avoidance for our dispersed sites. The 
visibility of our projects in heartland of America and cities across 
the Nation provides tangible evidence of our commitment to the future.
    Marine Forces Reserve Facilities Sustainment, Restoration, and 
Modernization (FSRM) program funding levels continue to address 
immediate maintenance requirements and longer-term improvements to our 
older facilities. Sustainment funding has allowed us to maintain our 
current level of facility readiness without further facility 
degradation. Your continued support for both the MCNR program and a 
strong FSRM program are essential to addressing the aging 
infrastructure of the Marine Corps Reserve. The MCNR program for 
exclusive Marine Corps construction must effectively target limited 
funding to address at least $132 million in deferred construction 
projects of our aging infrastructure. Increases in our baseline funding 
over the last 6 years have helped to address these deferred projects 
substantially. Over 27 percent of the Reserve centers our marines train 
in are more than 30 years old and of these, 55 percent are more than 50 
years old. Past authorizations have improved the status of facilities 
in the 30 to 50 year range and continued investment will allow for 
further modernization. The $35 million in additional MCNR funding this 
fiscal year has allowed MARFORRES to commence several additional 
projects.
    The Base Realignment and Closure (BRAC) 2005 continues to move 
forward and the Marine Corps Reserve will relocate 12 units to 
consolidated Reserve centers this fiscal year. Marine Forces Reserve is 
executing 25 of the Marines Corps' 47 BRAC directed projects to include 
the only closure; Mobilization Command in Kansas City, MO, is moving to 
New Orleans, LA. Of these 25 BRAC actions, 21 are linked to Army and 
Navy military construction projects. Our BRAC plans are tightly linked 
to those of other Services and government agencies as we develop 
cooperative plans to share Reserve centers and coexist in emergent 
joint bases such as Joint Base Maguire-Dix-Lakehurst. All remaining 
Marine Corps Reserve BRAC projects are on track for successful 
completion with the directed timelines for closure.
    Of special note is the movement of Headquarters, Marine Forces 
Reserve and consolidation of its major subordinate commands in New 
Orleans. This unique BRAC project, integrating State, local, and 
Federal efforts, is now well underway for the new headquarters compound 
and tracking for on time completion. The State of Louisiana is 
providing construction dollars for the new headquarters facility and 
saving the Federal Government more than $130 million. The Department of 
the Navy is providing the interior finishings and security 
infrastructure in accordance with the lease agreement. This building 
will incorporate multiple energy and environmentally friendly processes 
to meet LEED certifiable standards. Marine Forces Reserve is working 
with the Department of Energy's Federal Energy Management Program to 
maximize the sustainability and energy efficiencies of the buildings 
and compound. Upon completion and certification, this building and its 
surrounding acreage will become the newest Marine Corps Installation: 
Marine Corps Support Facility, New Orleans.
    Our Marine Forces Reserve Environmental Program employs the 
Environmental Management System (EMS), which uses a systematic approach 
to ensure that environmental activities are well managed and 
continuously improving. Additionally, Marine Forces Reserve has 
initiated a nationwide program to reduce hazardous waste production and 
ensure proper disposal at our centers. Our Green Box Battery Program 
was responsible in fiscal year 2009 for recycling over 2 tons of 
various types of batteries alone. MARFORRES Environmental undertook 
steps to replace the recycling equipment with completely operable, 
fully recycling systems. Through fiscal year 2009, wash rack recycling 
systems at 16 Reserve center sites have been replaced. This project has 
saved over 650,000 gallons of water and cost savings of $500,000, not 
to mention the enhanced risk avoidance to our national water 
infrastructure. Marine Forces Reserve is updating all environment 
baseline surveys of our owned sites to ensure we are current in all 
aspects of caring for our Nation's resources.
                          vi. health services
    The most important part of any Marine organization is of course the 
marines, sailors, civilian marines, and families who shoulder the 
burden of defending our country every day. Taking care of them is a 
sacred trust. This begins with arduous training for combat, and 
equipping them with the best equipment in the world to do the job once 
deployed to the fight. It then extends to providing the best health 
care possible to them and their loved ones. Our routine health services 
priority is to attain and maintain Individual Medical and Dental 
Readiness goals as set by DOD. In 2009, individual medical and dental 
readiness for our marines and sailors was 68 percent and 77 percent 
respectively. This represents a 5 percent improvement over the previous 
year.
    The Reserve Health Readiness Program (RHRP) is the cornerstone for 
individual medical readiness. This program funds contracted medical and 
dental specialists to provide health care services to units 
specifically to increase individual medical and dental readiness. In 
the near term Navy medicine supports through various independent 
contracted programs such as the Post Deployment Health Reassessment 
(PDHRA), and the Psychological Health Outreach Program. The first 
identifies health issues with specific emphasis on mental health 
concerns which may have emerged since returning from deployment, while 
the Psychological Health Outreach Program addresses post deployment 
behavioral health concerns through a referral and tracking process. 
Worthy of mention in the area of mental health is our full 
participation in a very recent initiative designed and ruthlessly 
monitored by our Commandant and assistant Commandant, in an effort to 
get at the tragedy of suicide. Our Warrior Preservation Program, run by 
senior staff officers and noncommissioned officers has trained 239 
instructors who will return to their home units and reinforce the 
important lessons they received. We conducted training for all of our 
personnel at each of our units and I have as the Commander, filmed my 
own message on this topic and prominently displayed it on our public 
website.
    TRICARE remains a key piece of our medical support programs, 
providing medical, dental and behavioral health services. Members of 
the Selected Reserve qualify for and may enroll in TRICARE Reserve 
Select, which provides TRICARE Standard coverage until the member is 
activated. While on military duty for 30 days or less a reservist who 
does not choose TRICARE Reserve Select coverage is covered under Line 
of Duty care. Upon activation, and during any applicable early 
identification period, the reservist is covered by TRICARE Prime and 
may choose to enroll eligible family members in TRICARE Prime, Prime 
Remote or Standard. When deactivated, a reservist who mobilized in 
support of overseas contingency operations is eligible for 180 days of 
TRICARE transitional health plan options. With your support these DOD 
programs will continue to provide reservists and their family members' 
important medical benefits as they transition on and off active duty 
status
                          vii. quality of life
    Our Commandant has affirmed that our Corps' commitment to marines 
and sailors in harm's way extends to their families at home. As part of 
Marine Corps reforms to enhance family support, we are placing full-
time Family Readiness Officers (FROs), staffed by either civilians or 
Active Duty marines, at the battalion/squadron level and above to 
support the Commandant's family readiness mission. As you might imagine 
an organization spread across the Nation and overseas has unique 
challenges, but communication technologies, improved procedures and 
processes have worked to more effectively inform and empower family 
members including spouses, children and parents who often have little 
routine contact with the Marine Corps and live far from large military 
support facilities. The installation of full-time Family Readiness 
Officers at the battalions and squadrons bridges many gaps and 
overcomes many challenges unique to the Reserve component. It is a low 
cost solution with a significant return on investment and I urge the 
continued support of this critical program.
    We fully recognize the strategic role our families have in mission 
readiness, particularly with mobilization preparedness. We prepare our 
families for day-to-day military life and the deployment cycle by 
providing education at unit family days, pre-deployment briefs, return 
and reunion briefs, and post-deployment briefs. To better prepare our 
marines and their families for activation, Marine Forces Reserve is 
fully engaged with OSD to implement the Yellow Ribbon Reintegration 
Program, much of which we have had in place for quite some time. We are 
particularly supportive of Military OneSource, which provides our 
reservists and their families with an around-the-clock information and 
referral service via toll-free telephone and internet access on 
subjects such as parenting, childcare, education, finances, legal 
issues, deployment, crisis support, and relocation.
    Through the DOD contract with the Armed Services YMCA, the families 
of our deployed Reserve marines are enjoying complimentary fitness 
memberships at participating YMCA's throughout the United States and 
Puerto Rico. Our Active Duty marines and their families located at 
Independent Duty Stations have access to these services as well.
    The Marine Forces Reserve Lifelong Learning Program continues to 
provide educational information to servicemembers, families, retirees, 
and civilian employees. More than 1,100 Marine Forces Reserve personnel 
(Active and Reserve) enjoyed the benefit of Tuition Assistance, 
utilizing more than $3 million that funded more than 3,900 courses 
during fiscal year 2009. The Marine Corps' partnership with the Boys 
and Girls Clubs of America and the National Association for Child Care 
Resources and Referral Agencies continues to provide a great resource 
for servicemembers and their families in accessing affordable child 
care, before, during, and after a deployment in support of overseas 
contingency operations. We also partnered with the Early Head Start 
National Resource Center Zero to Three to expand services for family 
members of our reservists who reside in isolated and geographically-
separated areas.
    Managed Health Network is an OSD-contracted support resource that 
provides surge augmentation counselors for our base counseling centers 
and primary support at sites around the country to address catastrophic 
requirements. The Peacetime/Wartime Support Team and the support 
structure within the Inspector-Instructor staffs at our Reserve sites 
provide families of activated and deployed marines with assistance in a 
number of support areas. Family readiness directly impacts mission 
readiness and your continued support of these initiatives is deeply 
appreciated.
         viii. casualty assistance and military funeral honors
    Casualty assistance remains a significant responsibility of Active 
component marines assigned to our Inspector--Instructor and Site 
Support staffs. Continued operational efforts in Afghanistan and Iraq 
have required that these marines remain ready at all times to support 
the families of our marines fallen in combat abroad or in unforeseen 
circumstances at home. By virtue of our geographic dispersion, Marine 
Forces Reserve personnel are best positioned to accomplish the vast 
majority of all Marine Corps casualty assistance calls and are trained 
to provide assistance to the family. Historically, Marine Forces 
Reserve personnel have been involved in approximately 90 percent of all 
Marine Corps casualty notifications and follow-on assistance calls to 
the next of kin. There is no duty to our families that we treat with 
more importance, and the responsibilities of our Casualty Assistance 
Calls Officers (CACOs) continue well beyond notification. We ensure 
that our CACOs are adequately trained, equipped, and supported by all 
levels of command. Once a CACO is designated, he or she assists the 
family members in every possible way, from planning the return of 
remains and the final rest of their marine to advice and counsel 
regarding benefits and entitlements. In many cases, our CACOs provide a 
permanent bridge between the Marine Corps and the family, and assist 
greatly in the process of grieving. The CACO is the family's central 
point of contact and support, and is charged to serve as a 
representative or liaison to the media, funeral home, government 
agencies, or any other agency that may become involved.
    Additionally, Marine Forces Reserve units provide significant 
support for military funeral honors for our veterans. The active duty 
site support staff members, with augmentation from their Reserve 
marines, performed more than 12,700 military funeral honors in 2009 (91 
percent of the Marine Corps total.) We anticipate providing funeral 
honors to more than 13,000 Marine veterans in 2010, even as projected 
veteran deaths slowly decline. Specific authorizations to fund Reserve 
marines in the performance of military funeral honors have greatly 
assisted us at sites such as Bridgeton, MO; Chicago, IL; and Fort 
Devens, MA, where more than 10 funerals are consistently supported each 
week. As with Casualty Assistance, we place enormous emphasis on 
providing timely and professionally executed military funeral honor 
support.
                             ix.conclusion
    Your Marine Corps Reserve is operational and fully committed to 
train and execute the Commandant's vision for the Total Force. The 
momentum gained over the past 9 years, in Iraq, Afghanistan and in 
support of theater engagements around the globe remains sustainable 
through coordinated focus, processes, and planning.
    In everything we do, we remain focused on the individual marine and 
sailor in combat. Supporting that individual requires realistic 
training, proper equipment, the full range of support services and 
professional opportunities for education, advancement and retention. 
That is our charge. You should know that the patriots who fill our 
ranks do so for the myriad reasons familiar to those who wear this 
uniform and those who sustain us. Yet reservists serve while balancing 
civilian careers and outside responsibilities, often at significant 
personal cost. Your continued unwavering support of the Marine Corps 
Reserve and associated programs is greatly appreciated. Semper Fidelis.

    Senator Graham. Okay. Thank you.
    General Stenner.

 STATEMENT OF LT. GEN. CHARLES E. STENNER, JR., USAF, CHIEF OF 
  AIR FORCE RESERVE; AND COMMANDER, AIR FORCE RESERVE COMMAND

    General Stenner. Senator Graham, I am pleased to be here 
today on behalf of the 70,000 reservists. We are, in fact, I 
believe, a very strong strategic reserve that we leverage on a 
daily basis to provide the operational force around the world.
    Senator Graham. What percentage of aircrews in the air 
right now are reservist?
    General Stenner. Percentage of aircrews in the----
    Senator Graham. The nonfighter force--in transportation, 
airlift, and refueling.
    General Stenner. Yes, sir. I'll get you exact percentages--
--
    [The information referred to follows:]

    The percentage of aircrews in the air right now that are reservists 
in the nonfighter force (transportation, airlift, and refueling) is 22 
percent.

    General Stenner.--but, we have roughly--between the Guard 
and Reserve, depending on the actual airframe, whether it's 
130s or KC-135s, anywhere from 40 to 60 percent of that 
capability.
    Senator Graham. I hope people understand what you just 
said. Between 40 and 60 percent of the people flying KC-135s 
are reservists or Guard members. Is that correct?
    General Stenner. I'll get you the exact numbers, sir, but 
it's a fairly significant----
    Senator Graham. Same for the 130 force?
    General Stenner. Yes, sir. Actually a little larger in the 
130 force.
    Senator Graham. Okay. What about the transport side, the C-
17s?
    General Stenner. Same thing, sir. Part of the Air Force 
Reserve--we have 43,000 of our 70,000 folks that are associated 
with the air mobility piece of the house.
    Senator Graham. What percentage of the Reserve flying 
component has reached their 2-year activation limit, but still 
continue to serve voluntarily? Do you know?
    [The information referred to follows:]

    11 percent of the officers in the Reserve flying component have 
reached their 2-year activation limit. Of that number, 95 percent 
continue to serve voluntarily after demobilization.
    17 percent of enlisted aircrew members in the Reserve flying 
component have reached their 2-year activation limit. Of that number, 
95 percent continue to serve voluntarily after demobilization.

    General Stenner. Sir, I will get you the exact numbers that 
have reached the limit, but we are 80 percent volunteers right 
now. We have 20 percent that we----
    Senator Graham. The point I'm trying to make is that we 
have statutory limitations on how often you can be called up. I 
think--is that 2 years? Is that right? No?
    General Stenner. On a specific mobilization authority, 2 
years is the limit.
    Senator Graham. Okay. So, at the end of the day, a lot of 
these people could hold their head up high and walk away, 
basically say, ``I've done my time.'' They continue to serve 
voluntarily. Is that correct?
    General Stenner. That is absolutely true. We have higher 
retention on those that have served than we have on those that 
have not had an opportunity to----
    Senator Graham. I just want us to understand, structurally, 
as a nation, that we have statutes that we've blown by the cap, 
and people continue to serve, which is a testament to them, but 
we need to figure out how to address this problem. Okay?
    General Stenner. Yes, sir.
    Senator Graham. Anything else from the Air Force's point of 
view, in terms of retention?
    General Stenner. Retention is very good, sir; and 
recruiting is very good. We're growing. We are an Air Force 
Reserve that's growing in all new mission sets, so we have 
added a few recruiters, but we have no problem bringing the 
folks in. They want to serve.
    Senator Graham. Are most of your reservists people coming 
from Active Duty?
    General Stenner. No, sir. We're getting--60 percent of our 
folks are prior service, 40 percent are nonpriors.
    Senator Graham. Okay, great.
    [The prepared statement of General Stenner follows:]
      Prepared Statement by Lt. Gen. Charles E. Stenner, Jr., USAF
    Mr. Chairman and distinguished members of the committee, I 
appreciate the opportunity to appear before you today and discuss the 
state of the Air Force Reserve.
    The 21st century security environment requires military services 
that are flexible--capable of surging, refocusing, and continuously 
engaging without exhausting their resources and people. Moreover, the 
21st century fiscal environment is becoming ever-more constrained as 
threats by rising nations and pressing national interests compete for 
limited resources.
    In this challenging environment, the Air Force Reserve has never 
been more relevant. Reserve airmen continue to support our Nation's 
needs, providing superb operational capability around the globe. We 
have sustained this operational capability for nearly 20 years--at high 
operations tempo for the past 9 years. The Air Force Reserve is 
accomplishing this while still providing a cost-effective Tier 1 ready 
force to the Nation available for strategic surge or ongoing 
operations.
    Speaking of ongoing operations, U.S. Air Force C-130 aircrews were 
among the first U.S. military to respond to the earthquake disaster in 
Haiti, on the ground in Port Au Prince within 24 hours of the 
earthquake. This quick response was not simply fortuitous, but the 
result of planning, preparedness, and readiness. This rapid-response 
capability is available 24/7, 365 days a year through Operation Coronet 
Oak.\1\
---------------------------------------------------------------------------
    \1\ In addition to Haitian relief support through Operation Coronet 
Oak, Air Force Reserve ISR personnel provided exploitation support to 
assess the damage and focus relief while Air Force Reserve airlift crew 
saved lives with much needed medical, water, and food supplies flown 
into Haiti. Air Force Reserve members in fact planned, commanded and 
exploited Global Hawk derived exploitation missions in order to provide 
situational awareness on infrastructure status and guide relief efforts 
during one of the worst earthquakes to hit Haiti on over 200 years. The 
professional expertise and capabilities of these seasoned citizen 
airmen demonstrates the flexibility and service inherit in the men and 
women of the Air Force Reserve as they shifted from supporting combat 
operations to humanitarian relief.
---------------------------------------------------------------------------
    Since 1977, the Operation Coronet Oak mission has been manned 
primarily by Air Force Reserve and Air National Guard crews who rotate 
every 2 weeks, year-round. Crews from the Regular Air Force now perform 
about one-third of the mission. These Operation Coronet Oak crews are 
postured to respond within 3 hours of notification to any crises 
requiring airlift support within the U.S. Southern Command area of 
responsibility.
    This predictable-rotational mission allows reservists to perform 
real-world operational missions and still meet their obligations to 
their full-time civilian employers. Like Air Expeditionary Force (AEF) 
rotations, this operation leverages the Tier 1 readiness of Air Force 
Reserve airmen in a way that works for the combatant commander, and the 
reservist. Equally important, when Air Force Reserve airmen are not 
training or performing an operational mission--they are not being paid; 
yet they remain ready to respond to any crisis within 72 hours should 
they be called upon. In this resource-constrained environment in which 
manpower costs are placing downward pressure on our budgets, I believe 
this full-time readiness/part-time cost is a great use of taxpayer 
dollars.
    This next year brings new challenges and opportunities. Air Force 
Reserve airmen are being integrated into a wider variety of missions 
across the full spectrum of Air Force operations. Indeed, the 
Department of Defense (DOD) is considering using reservists from all 
Services to perform missions utilizing their unique civilian skill 
sets.
    The challenges we face are not unique to the Air Force Reserve or 
the Air Force as a whole. Each of the Military Services is being asked 
to shift capability and capacity across the spectrum of conflict--
including irregular warfare--and to resource accordingly. Each has been 
asked to shift focus away from major weapon systems acquisitions and to 
the current fight.\2\
---------------------------------------------------------------------------
    \2\ In Operations Enduring and Iraqi Freedom, Reserve C-130 crews 
flew over 9,800 hours in fiscal year 2009; Reserve F-16 and A-10 crews 
flew over 5,400 hours. The Air Force Reserve provides 24 crews and 12 
fighter aircraft to USCENTCOM in their regularly scheduled rotations 
for the close air support mission.
---------------------------------------------------------------------------
    To do so, all three components of the Air Force must continually 
strive to improve the capability provided to the warfighter. Each 
service component must examine its existing business practices and 
explore new processes to make optimal use of personnel, platforms, and 
monetary resources. The Air Force Reserve is helping lead the way in 
improving Air Force capability as we approach fiscal year 2011 and 
beyond.
    As the Nation looks for ways to strengthen its organizations and 
integrate all of the untapped resources it will need in facing the 
challenges of the 21st century, we submit that a model by which 
ordinary people, dedicated to serving their country in ways that meet 
both their needs and the needs of the Nation, is already manifest in 
the U.S. Air Force every day--in the extraordinary Americans of the Air 
Force Reserve.
    I'm proud to serve alongside these great airmen and as Chief and 
Commander of the Air Force Reserve, I have made a promise to them that 
I will advocate on their behalf for resources and legislation that will 
allow them to serve more flexibly in peace and war with minimum impact 
to their civilian careers, their families and their employers. I will 
work to eliminate barriers to service, so that they can more easily 
serve in the status that meets their needs and those of the Air Force. 
I will work to efficiently and effectively manage our Air Force Reserve 
to meet the requirements of the joint warfighter and the Nation.
                        recruiting and retention
    Over the last 9 years, the Air Force Reserve has exceeded its 
recruiting goals and is on track to meet fiscal year 2010 recruiting 
and end-strength goals. Our success in great part has been due to the 
accessions of experienced Active component members upon completion of 
their active duty commitments. Indeed, recruiting highly-trained 
individuals is essential to lowering the training costs for the Air 
Force Reserve. For some of our most critical specialties, affiliation, 
and retention bonuses have provided a greater return on investment 
versus recruiting non-prior service airmen. However, due to lower 
regular Air Force attrition rates, we no longer have the luxury of 
large numbers of experienced airmen leaving Active service.
    As the Air Force Reserve builds end strength to meet the needs of 
new and emerging missions, we are facing significant recruiting 
challenges. Not only will the Air Force Reserve have access to fewer 
prior-service airmen; but, we will be competing with all other Services 
for non-prior service (NPS) recruits. In fact, our non-prior service 
recruiting requirement has nearly doubled since the end of fiscal year 
2007. To improve our chances of success, we have increased the number 
of recruiters over the next 2 years.
    Air Force Reserve retention is solid with positive gains in all 
categories in fiscal year 2009, after rebounding from a slight annual 
drop from fiscal year 2006-fiscal year 2008. Both officer and enlisted 
retention are up; enlisted retention has returned to the fiscal year 
2006 rate. Career airman retention is at its highest level in the last 
5 years.
    Some of this success can be attributed to implementing several 
retention-focused initiatives such as developing a wing retention 
report card tool and General Officer emphasis on retention during base 
visits. With Air Force Reserve retention at its best for the last 3 
years, this renewed focus on retention is expected to ensure that rates 
continue on a positive trend.
    We can't take all the credit for this success. Congress has 
generously responded to our requests for assistance with improved 
benefits such as the Post-9/11 GI Bill, inactive duty training (IDT) 
travel pay, and affordable TRICARE for members of the Selected Reserve.
    To date, under the conditions of the Post-9/11 GI Bill benefit, the 
Air Force Reserve has processed over 4,400 transferability requests 
impacting nearly 7,000 dependents. Under the Individual Duty Training 
travel pay benefit, more than 5,100 Air Force reservists have received 
this benefit. This has helped us address those critical duty areas 
where we have staffing shortages.
    Since October 2007 when the three-tier TRICARE plan was eliminated, 
the Air Force Reserve has seen an increase in covered lives from 4,541 
to 14,982 through January 31, 2010, equaling a 330 percent increase in 
program usage. The current coverage plan has made TRICARE more 
accessible and affordable for members of the Selected Reserve at a 
critical time when healthcare costs are rising. In addition to these 
new benefits, the Air Force Reserve has taken advantage of the many 
tools that you have provided us including the bonus program, the Yellow 
Ribbon Program, and our Seasoning Training program.
    The Bonus program has been pivotal to recruiting and retaining the 
right people with the right skills to meet combatant commander 
warfighting requirements. The Air Force Reserve uses the Bonus Program 
to fill requirements on our ``Critical Skills List.'' Those skills are 
deemed vital to Air Force Reserve mission capability. Development of 
these skills usually requires long training courses and members who 
have these skills are in high demand within the private sector. We are 
able to offer a wide menu of bonuses for enlistment, reenlistment, 
affiliation, and health professionals.
    Our Yellow Ribbon Reintegration Office is up and running and fully 
implementing DOD directives. Our program strives to provide guidance 
and support to the military members and their families at a time when 
they need it the most, to ease the stress and strain of deployments and 
reintegration back to family life. Since the standup of our program 
from August 2008 to December 2009, we have hosted 113 total events 
across 39 Wings and Groups. 4,515 reservists and 3,735 family members 
attended these events reflecting a 67 percent program usage rate for 
members deployed during this timeframe. From event exit surveys and 
through both formal and informal feedback, attendees indicated positive 
impressions, expressing comments about feeling ``better prepared, (and) 
confident following events.''
    Designed to build a ``ready force,'' our Seasoning Training Program 
allows recent graduates of initial and intermediate level specialty 
training to voluntarily remain on active duty to complete upgrade 
training. The results have been a larger pool of deployable reservists 
at an accelerated rate through this program. As a force multiplier, 
seasoning training is ensuring the Air Force Reserve maintains its 
reputation for providing combat-ready airmen for today's joint fight. 
The Seasoning Training Program is also proving beneficial for 
recruiting, training, and retaining members in the Air Force Reserve. 
This program is a success story and one that we will build on in the 
next year.
    The Air Force Reserve is working hard to increase reservists' 
awareness of benefits and incentives associated with their service. 
reservists are taking advantage of these programs because they are 
having their intended effect. These programs are helping to create the 
sustainable and predictable lifestyle that our members need to continue 
to serve in the Air Force Reserve.
    I am confident that as we act on not only our Air Force Reserve 
priorities, but also on those of the Air Force and DOD with the 
continued support of this committee and Congress, we will be able to 
continue to meet the needs of combatant commanders and the Nation with 
a viable operational and strategic Air Force Reserve.
 maintain a strategic reserve while providing an operational, mission 
                              ready force
    The Air Force Reserve is first and foremost a strategic reserve 
leveraged to provide an operational, mission ready force in all mission 
areas.\3\ Air Force Reserve airmen accomplish this by training to the 
same standards and currencies as their Regular Air Force counterparts. 
As indicated at the outset, Air Force Reserve airmen continue to 
volunteer at high levels and provide superb operational capability 
around the globe, serving side by side with the joint team. These 
airmen provide the insurance policy the Air Force and the Nation need: 
a surge capability in times of national crises. In fact, the Air Force 
Reserve is currently mobilizing our strategic airlift resources and 
expeditionary support to assist surge requirements in Afghanistan.\4\
---------------------------------------------------------------------------
    \3\ Airmen of the Selected Reserve are mission-ready, capable of 
performing ongoing operations. Collectively, they have met the 
operational needs of the Air Force for decades--largely through 
volunteerism, but also through full-time mobilization. Between 1991 and 
2003, reservists supported the no-fly areas of Operations Northern and 
Southern Watch. Since the attacks on 11 Sept 2001, 54,000 reservists 
have been mobilized to participate in Operations Enduring Freedom, 
Noble Eagle, and Operation Iraqi Freedom--6,000 remain on active duty 
status today. It is a fact that the Air Force now, more than any other 
time, relies on members of the Reserve and Guard to meet its 
operational requirements around the globe.
    The Air Force Reserve maintains 60 percent of the Air Force's total 
Aeromedical Evacuation (AE) capability. Reserve AE crews and operations 
teams provide a critical lifeline home for our injured warfighters. Our 
highly trained AE personnel fill 43 percent of each AEF rotation and 
augment existing USEUCOM and USPACOM AE forces in conducting 12 Tanker 
Airlift Control Center tasked AE channel missions each quarter--all on 
a volunteer basis.
    In 2009, the men and women of our Combat Search and Rescue (CSAR) 
forces have been heavily engaged in life saving operations at home and 
abroad. Since February, airmen of the 920th Rescue Wing at Patrick Air 
Force Base (AFB), FL, and their sister units in Arizona and Oregon, 
flew over 500 hours and saved more than 200 U.S. troops on HH-60 
helicopter missions in support of U.S. Army medical evacuation 
operations in Iraq and Afghanistan. While mobilized for 14 months in 
support of combat missions abroad, the 920th continued to provide 
humanitarian relief in response to natural disasters at home, as well 
as provide search and rescue support for NASA shuttle and rocket 
launches. In addition, the 39th Rescue Squadron (HC-130s), also at 
Patrick AFB, flew rescue missions in Africa and provided airborne CSAR 
support during the rescue of the Maersk Alabama's Captain from Somalian 
pirates.
    The Air Force Reserve provides 100 percent of the airborne weather 
reconnaissance (hurricane hunting) capability for DOD. Throughout the 
year, the Citizen Airmen of the Air Force Reserve's 53rd Weather 
Reconnaissance Squadron ``Hurricane Hunters'', a component of the 403rd 
Wing located at Keesler AFB in Biloxi, MS, fly over 1,500 operational 
storm hours. The Hurricane Hunters have 10 WC-130J Super Hercules 
aircraft that are equipped with palletized meteorological data-
gathering instruments. They fly surveillance missions of tropical 
storms and hurricanes in the Atlantic Ocean, the Caribbean Sea, the 
Gulf of Mexico and the central Pacific Ocean for the National Hurricane 
Center in Miami. The unit also flies winter storm missions off both 
coasts of the United States and is also used to perform advanced 
weather research missions for the DOD and the National Oceanic and 
Atmospheric Administration (NOAA). The lifesaving data collected makes 
possible advance warning of hurricanes and increases the accuracy of 
hurricane predictions warnings by as much as 30 percent.
    In addition to our hurricane mission, the Air Force Reserve 
provides 100 percent of the aerial spray mission in support of the 
Federal Emergency Management Agency, the Centers for Disease Control, 
and state public health officials. Air Force Reserve aircrews and C-
130s from the 910th Airlift Wing, Youngstown Air Reserve Station, OH, 
sprayed more than a million storm ravaged acres of land with pesticides 
to control the spread of disease.
    Our intelligence, surveillance and reconnaissance professionals are 
providing critical information as they answer the Nation's call to 
service. Since September 11, 2001, 1,079 intelligence personnel have 
deployed in support of world-wide contingency missions to include 
Afghanistan and Iraq. For the foreseeable future, Reserve intelligence 
professionals will continue to be deployed throughout the combatant 
command theaters, engaged in operations ranging from intelligence 
support to fighter, airlift, and tanker missions to ISR operations in 
Combined Air Operations Centers and Combined/Joint Task Forces as well 
as support to the National Command Authority, such as, Defense 
Intelligence Agency, National Security Agency, and National Geospatial-
Intelligence Agency.
    These are but a few examples of the dedication and contributions 
our Air Force Reserve airmen have made and will continue to make around 
the clock, around the world, each and every day.
    \4\ Our Reserve community continues to answer our Nation's call to 
duty with large numbers of volunteer reservists providing essential 
support to combatant commanders. Forty-six percent of the Air Force's 
strategic airlift mission and 23 percent of its tanker mission 
capability are provided by Reserve airmen. We currently have over 450 
C-17, C-5, KC-135, and KC-10 personnel on active duty orders supporting 
the air refueling and airlift requirements.
---------------------------------------------------------------------------
    The Air Force Reserve is a repository of experience and expertise 
for the Air Force. Air Force Reserve airmen are among the most 
experienced airmen in the Air Force. Air Force Reserve officers average 
roughly 15 years of experience, and enlisted members average 14 years 
of experience, compared to 11 years and 9 years for Regular Air Force 
officers and enlisted, respectively. In fact, roughly 64 percent of Air 
Force Reserve airmen have prior military experience.
    Reserve airmen are a cost-effective force provider, comprising 
nearly 14 percent of the total Air Force authorized end strength at 
only 5.3 percent of the military personnel budget. Put differently, Air 
Force Reserve airmen cost per capita is 27.7 percent of that of Regular 
Air Force airmen, or roughly 3.5 Reserve airmen to 1 Regular airman.\5\
---------------------------------------------------------------------------
    \5\ Fiscal year 2008 budget, figures derived from Automated Budget 
Interactive Data Environment System (ABIDES), the budget system 
currently in use by the Air Force and recognized as the official Air 
Force position with respect to the Planning, Programming and Budget 
Execution (PPBE) system. Inflation data used for any constant dollar 
calculations were based on average ConsumerPrice Index for All Urban 
Consumers (CPI-U) rates for the past 10 years: roughly 2.6 percent 
average annual rate of inflation. Medicare Eligible Retirement Health 
Care (MERHC) is an accrual account used to pay for health care of 
Medicare-eligible retirees (age 65 and beyond). Cost per capita figures 
were derived dividing cost of Selected Reserve program by Selected 
Reserve end-strength. When MERHC figures are included, the cost of Air 
Force Reserve airmen to Regular Air Force airmen increases to 30.4 
percent.
---------------------------------------------------------------------------
    However, we cannot take for granted the high level of commitment 
our reservists have thus far demonstrated. We must do our best to 
ensure their continued service. Accordingly, we are undertaking 
enterprise-wide actions to make Air Force Reserve service more 
predictable.
    In the Air Force Reserve, we are revising our management structures 
and practices to eliminate redundancies associated with mobilizing and 
deploying reservists to meet combatant commanders' requirements. The 
intent is to create an integrated process that will be more responsive 
to the needs of reservists, provide them greater predictability, make 
participation levels more certain, and ultimately provide combatant 
commanders with a more sustainable operational capability. This is 
still a work in progress.
    At the Pentagon, the Air Force Reserve is examining its processes 
to improve Reserve interaction among the Air Force Headquarters staff 
to better support the Chief of Air Force Reserve, the Chief of Staff of 
the Air Force, and the Secretary of the Air Force in discharging their 
service responsibilities. Through the Air Reserve Personnel Center, the 
Air Force Reserve is also taking action to improve Reserve and Air 
National Guard personnel administrative and management capabilities. 
Collectively, these actions will contribute to the overall health of 
the strategic reserve and improve the sustainability of the Air Force 
Reserve and the Air Force operational capability required by the 
warfighters in this new century.
          preserve the care and viability of the reserve triad
    Reservists have relationships with three basic entities: family, 
civilian employer, and military employer--what I like to call ``The 
Reserve Triad.'' Helping our airmen preserve these relationships is 
critical to our sustainability. In this year of the Air Force family, 
our policies and our actions must support the viability of these 
relationships--especially the one reservists have with their families. 
Open communication about expectations, requirements, and opportunities 
will provide needed predictability and balance among all three 
commitments.
    To that end, we are now consistently and actively surveying Reserve 
and Regular airmen to better understand why they come to serve and why 
they stay. We are continually learning and gaining a better 
understanding of attitudes toward service and issues associated with 
employers and family. From their feedback, I can better advocate for 
benefits that help us recruit and retain airmen for the Air Force 
Reserve.
    Military Services must be flexible: capable of surging, refocusing, 
and continuously engaging without exhausting resources and people. That 
is sustainability. Approaching fiscal year 2011 and beyond, it is 
imperative that we preserve the health of our strategic reserve and 
improve our ability to sustain our operational capability. Going 
forward, we need to continuously balance capabilities and capacity 
against both near-term and long-term requirements.
    Clearly, in a time of constricted budgets and higher costs, in-
depth analysis is required to effectively prioritize our needs. We must 
understand the role we play in supporting the warfighter and 
concentrate our resources in areas that will give us the most return on 
our investment. Optimizing the capability we present to the warfighter 
is a top priority, but we must simultaneously support our airmen, 
giving them the opportunity to have a predictable service schedule and 
not serve more than they can sustain.
              broaden total force initiative opportunities
    As weapons systems become increasingly expensive and more capable, 
their numbers necessarily go down. Aging platforms are being retired 
and not replaced on a one-for-one basis. The Air Force is required to 
make the most of its smaller inventory. To this end, the Air Force 
Reserve, Air National Guard, and Regular Air Force are integrating 
across the force, exploring associations wherever practical. The Air 
Force is aggressively examining all Air Force core functions for 
integration opportunities.\6\
---------------------------------------------------------------------------
    \6\ The Air Force uses three types of associations to leverage the 
combined resources and experience levels of all three components: 
``Classic Association,'' ``Active Association,'' and ``Air Reserve 
Component Association.''
    Under the ``Classic'' model, so-called because it is the first to 
be used, a Regular Air Force unit is the host unit and retains primary 
responsibility for the weapon system, and a Reserve or Guard unit is 
the tenant. This model has flourished in the Military Airlift and Air 
Mobility Commands for over 40 years. We are now beginning to use it in 
the Combat Air Forces (CAF): our first fighter aircraft ``Classic'' 
association at Hill AFB, UT, attained Initial Operational Capability in 
June 2008. This association combined the Regular Air Force's 388th 
Fighter Wing, the Air Force's largest F-16 fleet, with the Air Force 
Reserve's 419th Fighter Wing, becoming the benchmark and lens through 
which the Air Force will look at every new mission. The 477th Fighter 
Group, an F-22 unit in Elmendorf, AK, continues to mature as the first 
AFR F-22A associate unit. This unit also achieved Initial Operating 
Capability in 2008 and will eventually grow into a two-squadron 
association with the Regular Air Force.
    The Air Force Reserve Command is establishing its first 
Intelligence, Surveillance and Reconnaissance Group Association at 
Langley AFB, VA, this year. This Group and assigned Intelligence 
Squadrons of Reserve airmen will partner with the Regular Air Force to 
provide operational command and control of units delivering real time, 
tailored intelligence to combat forces engaged in missions in Iraq and 
Afghanistan, with data derived from theater Predator/Reapers, Global 
Hawks and U-2s, in partnership with the Total Force team. The Air Force 
has also programmed additional associate intelligence squadrons for 
Beale and Langley AFBs for distributed support to global ISR operations 
to include EUCOM, and PACOM theaters. Once these units have reached 
full operational capability, Air Force Reserve exploitation and 
analysis surge capacity of Remotely Piloted Aircraft (RPAs) will be 
approximately 10 percent of the Air Force's capability based on 65 
orbits. Additional Command and Control Intelligence, Surveillance, and 
Reconnaissance capability is being stood up with an AFRC associate Air 
Force Forces Command unit at Beale AFB, CA, to support PACOM and one at 
Hurlburt AFB, FL, to support SOCOM global Special Operations Forces. 
These new capabilities create a strategic reserve force ready to 
respond to the call of our Nation, capable of being leveraged as 
operational crews ready and willing to support the Regular Air Force in 
everyday missions around the world. This model has proven itself and is 
the basis for the growth of associations over the last 5 years.
---------------------------------------------------------------------------
    Over the past 40 years, we have established a wide variety of 
associate units throughout the Air Force, combining the assets and 
manpower of all three components to establish units that capitalize on 
the strengths each component brings to the mix. We recently partnered 
with Air Mobility Command to create three more active associate flying 
squadrons in 2010 and beyond. About 500 regular airmen will associate 
with Air Force Reserve flying units at Keesler AFB, MS (C-130J); March 
Air Reserve Base, CA (KC-135); and Peterson AFB, CO (C-130H) by 
2012.\7\
---------------------------------------------------------------------------
    \7\ Under the ``Active'' model, the Air Force Reserve or Guard unit 
is host and has primary responsibility for the weapon system while the 
Regular Air Force provides additional aircrews to the unit. The 932nd 
Airlift Wing is the first ever Operational Support Airlift Wing in the 
Air Force Reserve with three C-9Cs and three C-40s. Additionally, the 
Air Force Reserve will take delivery of an additional C-40 in fiscal 
year 2011, appropriated in the fiscal year 2009 Consolidated Security, 
Disaster Assistance and Continuing Appropriations Act. This additional 
C-40 will help to replace the three C-9Cs, which are costly to maintain 
and fly. To better utilize the current fleet of C-40s at the 932nd, the 
Air Force created an Active Association. We also are benefitting from 
our first C-130 Active Association with the 440th AW at Pope AFB.
    Under the ``Air Reserve Component (ARC)'' model, now resident at 
Niagara Falls Air Reserve Station (ARS) in New York, the Air Force 
Reserve has primary responsibility for the equipment while the Guard 
shares in the operation of the equipment and works side by side with 
the Reserve to maintain the equipment. The Air National Guard has 
transitioned from the KC-135 air refueling tanker to the C-130, 
associating with the 914th Reserve Airlift Wing. The 914th added 4 
additional C-130s, resulting in 12 C-130s at Niagara ARS. This ARC 
Association model provides a strategic and operational force for the 
Regular Air Force while capitalizing on the strengths of the Air 
National Guard and Air Force Reserve. Additionally, in this case it 
provides the State of New York with the needed capability to respond to 
State emergencies.
    The Air Force Reserve has 9 host units and is the tenant at 53 
locations. There are currently more than 100 integration initiatives 
being undertaken by the Air Force and Air Reserve components.
---------------------------------------------------------------------------
    But associations are not simply about sharing equipment. The goal 
is to enhance combat capability and increase force-wide efficiency by 
leveraging the resources and strengths of the Regular Air Force, Air 
National Guard, and Air Force Reserve while respecting unique component 
cultures in the process. To better accommodate the Air Force-wide 
integration effort, the Air Force Reserve has been examining its 4 
decades of association experience. With Regular Air Force and Air 
National Guard assessment teams, we have developed analytical tools to 
determine the optimal mix of Reserve, Guard, and Regular forces in any 
given mission. These tools will give the Air Force a solid business 
case for associating as we go forward.
                       air force reserve manpower
    The Air Force is balancing Reserve Forces across the full spectrum 
of conflict. We are leveraging the experience of reservists to 
alleviate stressed career fields. We are improving our ability to 
retain experienced airmen by providing them a means to stay in the 
Service following any life-changing decisions they make regarding full-
time participation. Over the next decade, the Air Force Reserve will 
grow into many new mission areas, including nuclear enterprise, 
intelligence, surveillance, reconnaissance, unmanned aerial systems, 
space, and cyberspace.
    However, rebalancing a force can take time, and the fight is now. 
To meet the more pressing needs of the Air Force, such as easing strain 
on stressed career fields and taking on new mission sets, the Air Force 
Reserve is growing by 2,100 airmen in fiscal year 2010. This will bring 
Air Force Reserve authorized end strength to 69,500. By fiscal year 
2013, Air Force Reserve end strength is planned to grow to 72,100.
    These manpower increases are placing a premium on recruiting 
highly-qualified and motivated airmen and providing them the necessary 
training. The Air Force Reserve recruiting goal for fiscal year 2010 is 
10,500. While we met our goal of 8,800 new airmen for fiscal year 2009 
in August, nearly 2 months before the end of the fiscal year, our 
forecast models indicate we will continue to face challenges in both 
recruiting and retention.
    Each of these measures--Total Force Integration (TFI), expanding 
into new mission areas, rebalancing of forces, and, where needed, 
increasing manpower--will help the Air Force more closely align force 
structure to current and future DOD requirements, as well as provide 
increased capability to the combatant commanders.
                    air force reserve modernization
    The Air Force Reserve is an organization of extraordinary working 
people, wedded to the fabric of our great Nation. Our Citizen airmen 
support all Air Force mission areas in air, space, and cyberspace. They 
are trained to the same standards and readiness as their Regular 
component peers and are among the most highly-experienced members of 
the U.S. Air Force.
    A number of trends continue to influence dependence on Air Force 
Reserve Forces to meet the strategic and operational demands of our 
Nation's defense: sustaining operations on five continents plus surge 
efforts in Iraq and Afghanistan and the resulting wear and tear on our 
aging equipment; increasing competition for defense budget resources; 
and increasing integration of the three Air Force components.
    The Air Force leverages the value of its Reserve components through 
association constructs in which units of the three components share 
equipment and facilities around a common mission. Increasing 
integration of all three Air Force components requires a holistic 
approach be taken when modernizing. To ensure our integrated units 
achieve maximum capability, the precision attack and defensive 
equipment the Air Force Reserve employs must be interoperable not only 
with the Guard and Regular component, but the joint force as well.
    As Chief of the Air Force Reserve, I am dedicated to ensuring that 
Air Force reservists have the training and equipment available to them 
required to provide for our Nation's defense. I appreciate the 
attention and resources provided to the Reserve thus far, and I ask for 
your continued support.
    The National Guard Reserve Equipment Account (NGREA) appropriation 
has resulted in an increase in readiness and combat capability for both 
the Reserve and the Guard. For fiscal year 2010, the Air Force Reserve 
Command received $55 million in NGREA appropriations. This resulted in 
the ability to purchase critical warfighting requirements for Reserve-
owned equipment including critical upgrades to targeting pods, aircraft 
defense systems for C-5s and C-130s, and personnel protective equipment 
like security forces tactical weapons. These new capabilities are 
directly tied to better air support for our soldiers and marines in 
Iraq and Afghanistan. NGREA funding has helped the Air Force Reserve to 
remain relevant in today's fight as well as the ability to remain ready 
and capable in future conflicts. We truly appreciate and thank you for 
your support with this critical program.
         military construction and infrastructure modernization
    Along with challenges in modernizing our equipment, we face 
challenges modernizing our infrastructure. During the fiscal year 2011 
budget formulation, both the Regular Air Force and the Air Force 
Reserve took risk in military construction in order to fund higher 
priorities. Over time, this assumption of additional risk has resulted 
in a continuing backlog exceeding $1 billion for the Air Force Reserve. 
I would be remiss if I didn't take this opportunity to sincerely thank 
you for the $112 million that we received in last fiscal year's 
military construction appropriation. This allowed us to address some of 
the most dire needs that exist in our backlog.
    We will continue to work within the fiscal constraints and mitigate 
risk where possible to ensure our facilities are modernized to provide 
a safe and adequate working environment for all of our airmen.
                               conclusion
    Mr. Chairman and members of this committee, I am excited to have 
these roles as Chief of the Air Force Reserve and Commander of the Air 
Force Reserve Command. I take pride in the fact that when our Nation 
calls on the Air Force Reserve, we are trained and ready to go to the 
fight. As a strategic reserve, over 68,500 strong, we are a mission-
ready Reserve Force serving operationally throughout the world every 
day with little or no notice.
    As we approach fiscal year 2011 and beyond, it is clear the Air 
Force Reserve will play an increasingly vital role in meeting national 
security needs. The actions we initiated in 2009 and those we advance 
in 2010 will preserve the health of the Air Force Reserve but also help 
Congress address the more pressing issues we will face as a Nation in 
the years to come.
    I sincerely appreciate the support of this committee for the 
authorization and legislation it provides to our readiness and combat 
capability. I desire to continue working with each of you on the 
challenges facing the Air Force Reserve, the Air Force, and our Nation. 
Thank you.

    Senator Graham. Admiral Stosz.

  STATEMENT OF RADM SANDRA L. STOSZ, USCG, ACTING DIRECTOR OF 
             RESERVE AND TRAINING, U.S. COAST GUARD

    Admiral Stosz. Good morning, Senator Graham. On behalf of 
the 8,000 Coast Guard reservists, I am pleased to have this 
opportunity to appear before you today to discuss the Coast 
Guard Reserve, its contribution to national defense and 
homeland security, and the issues that face the men and women 
of our Reserve Force.
    Thank you for including the Coast Guard Reserve when 
considering armed service personnel issues, and for your 
continued support of our military men and women.
    Our Reserve component serves as a responsive and flexible 
force multiplier at home and abroad. In addition to our 
mobilization capability under title 10, the integration of our 
Active and Reserve components in the 1990s enables us to 
respond quickly when and where operational reserve Forces are 
needed, aided in part by the unique authority vested in the 
Secretary of Homeland Security under title 14.
    Recently, in response to the earthquake in Haiti, the USCGC 
Forward arrived on scene within 24 hours, while Coast Guard 
reservists prepared to mobilize, pending presidential recall 
authorization under Title 10. Port Security Unit (PSU) 307 
deployed just 48 hours after receiving that recall notification 
to provide port safety and security in Port-au-Prince and 
nearby Haitian ports. As a deployable surge capability, the 
Coast Guard Reserves PSU force package was vital to ensuring 
the safe passage of relief supplies and shipping commerce.
    Senator Graham. Admiral, we have your written statement. To 
all of you, Haiti was a major effort, and I couldn't be more 
proud of the Active and Reserve components helping the people 
of Haiti.
    Admiral, from your point of view, what's your biggest 
challenge to keep these 8,000 people retained, and recruit in 
the future?
    Admiral Stosz. Senator, I think our biggest challenge is to 
keep them well-trained and well-equipped. We use operational-
unit training and equipping. Our Reserves augment----
    Senator Graham. Do you have ships in the Reserve units that 
are specific to Reserves?
    Admiral Stosz. No, we don't. Except for our PSU force 
packages, our Reserves are individual augmentees that go out 
and augment our operational Coast Guard stations. They use the 
equipment at those stations.
    The only problem we have is, Reserves stationed in the 
Great Lakes in the wintertime, we have to deploy them down 
somewhere warm to train on the boats that they need to keep 
their qualifications up. So probably our biggest challenge is 
keeping that training going with a geographically constrained 
workforce, when you also have the employment challenges of an 
employer, where you can't send them on temporary assigned duty 
for that long, to get the training somewhere else, outside that 
geographical area.
    Senator Graham. The equipment problems in the Coast Guard 
seem pretty serious to me. We have an aging fleet.
    Admiral Stosz. Yes, sir, our aging fleet. But, our small 
boats are much newer, so our capital cutters, the bigger ships 
that reservists don't serve in, are the aging assets, and our 
new smaller boats are the boats that our reservists man and 
deploy.
    Senator Graham. But, your recruiting and retention is okay 
right now?
    Admiral Stosz. Yes, sir. We have 87 percent enlisted and 93 
percent officer retention.
    Senator Graham. Okay.
    [The prepared statement of Admiral Stosz follows:]
             Prepared Statement by RADM Sandra Stosz, USCG
    Good afternoon, Chairman Webb, Senator Graham and distinguished 
members of the Senate Armed Service Subcommittee. It is a pleasure to 
have this opportunity to appear before you today to discuss the Coast 
Guard Reserve; its contribution to national defense and homeland 
security; the issues that face the men and women of our Coast Guard 
Reserve; and the Coast Guard's ability to sustain our current high 
quality staffing.
    As one of the five Armed Forces of the United States, the Coast 
Guard has a long and distinguished history of service at home and 
abroad as a military, maritime, multi-mission service that is always 
ready for all threats and all hazards. Because of its mix of military 
and civil law enforcement authorities, the Coast Guard is uniquely 
positioned to serve as the lead Federal agency for maritime homeland 
security and response to natural and man-made disasters, while acting 
as a supporting agency for national defense.
    Founded in 1941, the Coast Guard Reserve is the force multiplier 
for the operational Coast Guard. During the last decade, we have 
completely integrated our Selected Reserve Force into Active component 
units. Over 80 percent of our 8,100-member Selected Reserve Force is 
directly assigned to Active Duty Coast Guard shore units, where 
reservists hone readiness skills through classroom instruction and on-
the-job training side by side with their active duty counterparts. The 
remainder of our Selected Reserve Force is dedicated primarily to 
supporting defense operations, the majority of whom are assigned to our 
eight deployable Port Security Units (PSUs). The principal mission of 
the PSUs, which are staffed by both Active and Reserve duty personnel, 
is to support the combatant commanders in strategic ports of 
debarkation overseas. The remaining personnel are assigned to 
Department of Defense (DOD) units, such as the Maritime Expeditionary 
Security Squadrons and combatant commanders' staffs.
                       operation unified response
    Over the past 2 decades the Coast Guard has focused on an 
integrated workforce with deployable force packages. In support of the 
recent earthquake recovery efforts in Haiti, the Coast Guard Cutter 
Forward arrived on scene within 24 hours of the earthquake; PSU 307, 
augmented by individuals with select specialties from several other 
PSUs, deployed, for approximately 8 weeks, as a unified force to 
provide port safety and security in Port-Au-Prince and nearby Haitian 
ports. The Coast Guard Reserve's PSU force package was vital to 
ensuring the safe passage of relief supplies and shipping commerce in 
the port and surrounding waters of Haiti.
                              integration
    The 8,100 operational reserve personnel act as a surge capability 
ready and able to respond to any national or domestic contingency. They 
responded magnificently to the attacks of September 11, 2001, and all 
contingency operations that have followed. Since 2001, there have been 
over 6,900 cumulative recalls of Coast Guard reservists under title 10 
of the United States Code. Reservists have served at home as part of 
the Coast Guard's Maritime Homeland Security mission--usually as part 
of PSUs--and overseas in direct support of the combatant commanders--in 
early 2003, at the height of Operation Iraqi Freedom, approximately 
half of Coast Guard personnel deployed overseas were reservists.
                           post-september 11
    Since September 2001, when we embarked on the largest mobilization 
of Coast Guard reservists since World War II, we have redoubled our 
efforts to ensure a Reserve Force with the right people, skills and 
training for the missions of the 21st century. We have examined our 
systems for recruiting, training, mobilizing and demobilizing 
reservists to identify and close readiness gaps. More significantly, we 
undertook a comprehensive review of the Coast Guard Reserve; upon 
completion, our Commandant, Admiral Thad Allen, issued a policy 
statement that embodies the three core strategic functions of the 
Reserve Force: maritime homeland security; domestic and expeditionary 
support to national defense; and domestic man-made or natural disaster 
response. The Reserve Employment and Analysis Working Group has further 
developed this policy statement into employment doctrine that will 
focus on training and augmentation.
                                title 14
    None of this post-September 11 activity represents a radical change 
for the Coast Guard Reserve, but rather an affirmation of the vital 
role our reservists play as the Coast Guard's operational surge force. 
One key component of this ready surge force is availability and 
accessibility of individuals for mobilization. As with members of the 
other Reserve components, our men and women are subject to involuntary 
mobilization under Title 10 for national security contingencies. 
However, unlike members of the other Reserve components, Coast Guard 
reservists can also be involuntarily mobilized for up to 60 days at a 
time for domestic contingencies, including natural and manmade 
disasters and terrorist attacks. This unique authority provided under 
title 14 has been used over a dozen times since the 1970s to mobilize 
Coast Guard reservists for a wide range of emergencies ranging from the 
1980 Mariel Boat Lift to floods, hurricanes and other natural 
disasters.
    In 2005, this special authority was used by the Secretary of 
Homeland Security to allow the Coast Guard to mobilize approximately 
700 reservists for Hurricanes Katrina and Rita, providing a ready force 
for rescue and recovery operations in New Orleans and other stricken 
areas of the Gulf Coast. It was used again in 2008 for nearly 70 
members in response to Hurricanes Gustav and Ike. In all, members of 
the Coast Guard Reserve mobilized under Title 14 for Hurricanes Katrina 
and Rita performed nearly 20,000 person-days of duty in support of 
Coast Guard rescue and recovery operations. Most served alongside their 
active-duty counterparts as individual augmentees. For instance, 
several reservists assigned as Coast Guard Investigative Service 
special agents were mobilized to augment active-duty and civilian 
agents deployed to New Orleans, Baton Rouge, and Gulfport, where they 
provided armed security for senior officials and personnel disbursing 
cash to Coast Guard staff. In addition to individual augmentees, the 
Coast Guard also activated two PSUs to provide physical security in New 
Orleans and Gulfport and to aid in the distribution of relief supplies. 
These activities are a testament to the ability of our reservists to 
mobilize when and where needed to increase Coast Guard forces 
responding to an emergency.
    The Coast Guard and Maritime Transportation Act of 2006 expanded 
the Secretary of Homeland Security's Title 14 recall authority to 
permit mobilization of Coast Guard reservists ``to aid in prevention of 
an imminent serious natural or manmade disaster, accident, catastrophe, 
or act of terrorism.'' Other language included in the bill extended the 
limits on the period of recall to not more than 60 days in any 4-month 
period and to not more than 120 days in any 2-year period. This 
significantly enhanced our ability to mitigate major natural disasters 
and thwart terrorist attacks by enabling us to bring Coast Guard 
reservists on active duty even before disaster strikes.
                         organization structure
    A major component of the Coast Guard's success in responding to 
disasters is the Coast Guard's decentralized command and control 
structure. The authority and responsibility to move forces, including 
reservists, establish response readiness levels, and direct operations 
is vested in the regional District and Area Commanders. This provides 
the most direct oversight of operations at the field level and avoids 
delays in executing our missions. However, the most important factor 
contributing to the Coast Guard's effectiveness in disaster response is 
the fact that our forces are engaged in this type of mission on a daily 
basis. As the Nation's maritime first responder, Coast Guard men and 
women--Active, Reserve, civilian, and auxiliary--plan for, train, and 
execute missions every single day.
                             an armed force
    The Coast Guard possesses several unique features that help to 
integrate its efforts with those of the DOD, other Federal agencies, 
the National Guard, and State and local authorities. As an Armed Force, 
our communications systems, planning processes, personnel training and 
even our command structures have much in common with the DOD Services. 
Coast Guard commanders can be either supported or supporting commanders 
for military operations, with extensive experience working in and with 
DOD Joint Task Force Headquarters. This capability allows for easy 
integration of forces and unity of effort when working together during 
major catastrophes. Today, we enjoy our closest relationship with DOD 
since World War II, with numerous active duty and Reserve personnel 
assigned at our combatant commands and various other DOD organizations.
                              joint forces
    The Coast Guard maintains excellent working relationships with all 
of the Armed Forces, providing support and leveraging expertise through 
mutual agreements. At Marine Corps Base Camp Lejeune, NC, the Coast 
Guard has partnered with the Marine Corps to develop the Coast Guard 
Special Missions Training Center, which is tasked to provide training, 
doctrine, and testing/evaluation in support of mission requirements of 
the Coast Guard, Navy, and Marine Corps operational forces. The Special 
Missions Training Center offers specialized courses for Coast Guard 
Reserve deployable units, and inclusion of Coast Guard personnel in 
formal training conducted by the Navy and Marine Corps.
    In today's joint environment, the spirit of cooperation and common 
purpose is exceptionally high. The Coast Guard welcomed the opportunity 
in February 2010 to participate in Patriot Hook when PSU 312, working 
jointly with the 452nd Air Lift Control Flight, leveraged the 
opportunity to complete required underway live-fire, anti-swimmer 
grenade training, and personnel and equipment movement by land and air. 
During the 4-day exercise, held at San Clemente Island, CA, the U.S. 
Air Force transported over one-half million pounds of cargo from 
various airfields to San Clemente Island.
    As I report to you here today, 120 members of PSU 312 are deployed 
to Southwest Asia as an integral part of the Navy's Maritime 
Expeditionary Squadron, providing vital water and shore-side security 
for ports of strategic importance in Kuwait and Iraq.
                              interagency
    In addition to our work with DOD, the Coast Guard works on a daily 
basis with other Federal, State, and local partners. The Coast Guard's 
port, waterway and coastal security mission requires the Coast Guard to 
interact daily with State and local law enforcement and emergency 
response organizations, exercising command structures and building the 
trust critical to effectively executing an emergency response. Coast 
Guard Captains of the Port provide a critical link through Local 
Emergency Planning Committees, Area Maritime Security Committees, 
Harbor Safety Committees, Area Planning Committees, Regional Response 
Teams and other venues that allow the Coast Guard to build close 
relationships with key partners in disaster response. Because of the 
integrated nature of the Coast Guard, individual reservists play a key 
role in these efforts. Their dual status as Coast Guard members and 
residents of their local communities frequently enables them to 
leverage organizational and personal relationships that yield 
immeasurable benefits during a crisis situation.
          commission on the national guard and reserve (cngr)
    The Coast Guard has participated from the start of the Commission 
on the National Guard and Reserve process, providing both a dedicated 
staff member as well as testimony to the Commission, participating in 
each of the factfinding sessions. Upon completion of the study, the 
Coast Guard worked with the Office of the Assistant Secretary of 
Defense, Reserve Affairs in evaluating the impact of the Commission's 
95 recommendations. The Coast Guard continues to participate in follow-
on work groups with the other Reserve components as well as the Office 
of the Assistant Secretary of Defense, Reserve Affairs as the Services 
work to implement many of the Commission's recommendations.
                               workforce
    The Coast Guard takes a unique approach to staffing a Reserve Force 
by performing both Reserve and Active Duty recruiting through a single 
Recruiting Command. The Coast Guard Reserve supplements recruiting 
offices with reservists on Active Duty (Temporary Active Reserve 
Recruiters) under the concept that reservists are best suited to 
recruit reservists. In addition to the Reserve recruiters, the 
Recruiting Command has found success in the use of In Service Transfer 
Teams to ensure that all Active Duty personnel being released from 
active duty are briefed on the benefits of the Coast Guard Reserve and 
offered an opportunity to affiliate with assignment.
                           improved benefits
    The Post-9/11 GI Bill, implemented in 2009, offers our reservists 
who have served extensively on active duty since September 11, 2001, an 
important benefit that will improve the education and professionalism 
of our already stellar workforce. This benefit has also contributed to 
current retention rates, which remain high and virtually unchanged from 
fiscal year 2009.
    The 2010 National Defense Authorization Act, along with changes to 
DOD and Coast Guard policy, provide continued improvements in benefits 
for members of the Coast Guard Reserve. Authority was extended to the 
service secretaries to provide our dedicated reservists with legal 
assistance for an extended period of time following their release from 
mobilization orders, which will assist them in resolving issues that 
may have occurred while they were deployed. Early TRICARE benefits 
increased from 90 days to 180 days, providing early access to TRICARE 
medical and dental care when members are notified of upcoming 
mobilizations, and thereby improving reservists' readiness. The new 
TRICARE Retired Reserve benefit will provide our retirees with health 
care options during the period where they do not yet qualify for 
TRICARE Reserve Select or TRICARE Standard at age 60.
    The Coast Guard Reserve often operates in a joint environment with 
its sister Service, the Navy. The two Services are working to implement 
joint instructions for the Yellow Ribbon Reintegration Program, which 
will ensure demobilized reservists are properly transitioned to 
civilian employment.
    The 2008 National Defense Authorization Act authorized early 
retirement benefits for eligible reservists who serve on active duty 
during a period of war or national emergency, including Active service 
under various sections of Title 10, and Title 32 in the case of 
National Guard reservists, for incidents or a National Special Security 
Event as designated by the Secretary of Homeland Security. Active 
service under Title 14 was inadvertently omitted as qualifying service 
supporting the same incidents where National Guard service would 
qualify.
                               retention
    Retention in the Coast Guard Reserve is at 93 percent for officers 
and 87 percent for enlisted personnel in fiscal year 2010. These 
retention rates have held solid for a number of years, indicating that 
members see the Coast Guard Selected Reserve as an attractive option 
and, once they join, they want to continue serving.
                     employer support/job security
    The Coast Guard is actively engaged with Employer Support of the 
Guard and the Reserve (ESGR). Each year, the Coast Guard Reserve 
actively encourages reservists to nominate their employers for the 
Secretary of Defense Freedom Award. These concerted efforts have 
resulted in a substantial increase in nominees over previous years.
                               next steps
    The Coast Guard has demonstrated its ability to prepare for and 
respond to a wide range of contingencies, including natural disasters 
and a terrorist attack, while executing more routine missions, such as 
maritime law enforcement and search and rescue. To continue to meet 
these challenges, the Coast Guard continuously examines best practices 
and takes steps to adapt. In 2008, the Coast Guard Reserve Program 
developed an initiative called the Reserve Force Readiness System, 
which is aimed at increasing readiness of Coast Guard Reserve Forces. 
Under the Reserve Force Readiness System, many billets have been 
realigned at the operational level providing improved oversight, day-
to-day management, and readiness of our Reserve Forces. This new 
organizational construct also provides additional leadership 
opportunities for senior reservists (officer & enlisted), provides 
increased mentorship and training for junior personnel, and optimizes 
the placement of Full Time Support personnel.
    The Coast Guard is the Nation's premier maritime law enforcement 
agency with broad, multi-faceted jurisdictional authority. It is on 
behalf of the men and women of the Coast Guard that I thank you for 
your continued support of the Coast Guard and the Coast Guard Reserve.
    Thank you for the opportunity to testify today. I look forward to 
your questions.

    Senator Graham. I have just a few minutes until I have to 
vote and--we have your written statements. I don't mean to cut 
this short, but, at the end of the day, we have to find out 
what the real problems are, how are you doing, why are you 
doing so well, and what's likely to change.
    Mr. Secretary, tell me about the legal structure, in terms 
of accessing the Guard and Reserves. What does Congress need to 
do, with the administration, to change that dilemma? Am I right 
about the 2-year limit? You can be called up for 2 years----
    Mr. McCarthy. No, sir.
    Senator Graham.--involuntarily, right?
    Mr. McCarthy. No, sir, not exactly.
    Senator Graham. How does that work?
    Mr. McCarthy. There is a 2-year limitation, but it's 
interpreted to be 2 years of consecutive service. So, you can't 
involuntarily mobilize a member of the Guard or Reserve for 
more than 2 years, consecutively, but the interpretation that 
we are using is that there is no cumulative limit.
    But, you're absolutely right that----
    Senator Graham. I'm not so sure that's the intent. Maybe 
not. You could serve for 20 months, 10 times?
    Mr. McCarthy. I'm sorry, you can serve for----
    Senator Graham. Could you call----
    Mr. McCarthy.--20----
    Senator Graham.--could you call somebody up for 20 months 
and get 2 years--that doesn't count toward the 2 years, right?
    Mr. McCarthy. 20 months is not----
    Senator Graham. Not 24----
    Mr. McCarthy.--exceed the 2-year----
    Senator Graham.--yes.
    Mr. McCarthy. Not 24.
    Senator Graham. Yes.
    Mr. McCarthy. But, the interpretation that we've used since 
September 11 has been that the 2-year limit was consecutive 
rather than cumulative.
    Senator Graham. From the military point of view, here, most 
people understand that? Or do they care? From the Army's point 
of view.
    Admiral Debbink. Yes, sir. The Secretary of Defense came 
out with a policy on the 12-month mobilization, which I think 
did the most for us, in terms of putting some structure around 
the question you're asking, because the question was, is the 24 
months concurrent, consecutive, or cumulative? I think, 
Secretary Gates now has said the mobilization period will be 12 
months. Then, the goal is to get a 1 to--currently, a 1 to 4 
ratio, and eventually a 1 to 5 ratio, so that the soldier would 
know, 12 months every 4 to 5 years.
    Senator Webb [presiding]. I guess I came in in the middle 
of this discussion, so I'm not quite sure where it's going.
    Let me pick up on a couple of things that I was talking 
about before, just to begin my questions.
    First, Secretary McCarthy, the 2009 National Defense 
Authorization Act required the Secretary of Defense to submit 
to Congress a strategic plan to enhance the role of the 
National Guard and Reserves no later than April 1, 2009. This 
plan was to include an assessment of the findings of the 
Commission on the National Guard and Reserves (CNGR), as well 
as an assessment of certain legislative proposals, particularly 
the National Guard Empowerment and State National Defense 
Integration Act of 2008.
    On March 25, 2009, your predecessor testified: ``A detailed 
description of the actions being taken by the Department in 
response to the recommendations made by the Commission is 
contained in the report required by section 906 of the National 
Defense Authorization Act for Fiscal Year 2009, which will be 
submitted to Congress next month.''
    Despite numerous requests for this report, we still have 
not received it. This report is considered by many to be 
critical for Congress to carry out its oversight. Can you tell 
us where that report is?
    Mr. McCarthy. Yes, sir. First of all, with regard to the 
timeliness of the report, I'm absolutely defenseless. I know we 
are way late. I've signed out a new report, differently, 
entirely, from the one that was previously prepared, and it is 
being staffed in the Pentagon right now. I know that sounds 
exactly like what Tom Hall said a year ago. I will tell you, 
sir, that the CNGR report is, if not my highest priority, it's 
one of my highest priorities, in terms of implementing it, and 
implementing it effectively.
    When I looked at the state of our implementation plan, when 
I arrived in July, I realized that we had not made anywhere 
near the progress of substantive implementation. We had a lot 
of process, but we didn't have much substance. We have worked 
hard on that, and I think that you will see, when we do get 
this report to you, that there has been substantive progress on 
many issues, there's hard work on others, and that we are 
taking the CNGR report with 100 percent seriousness.
    Senator Webb. Do you know when we're going to receive it?
    Mr. McCarthy. Sir, I would hope that it will be to you 
within the month. It is a big, thick report. It's staffing 
around the Pentagon right now. I checked on it, right before I 
came over here, and I'm hopeful that we will have it to you 
within the month.
    Senator Webb. Thank you.
    For all of the Reserve component heads, the questions that 
I asked of the people in the Guard, I would like to reiterate, 
that we'd like to get some demographic data, as well, on the 
different Reserve components--prior service, percentage over 
the age of 40, and percentage of those who were in other-than-
organizational billets. General Stultz, you and I had a 
discussion about that yesterday when you visited. Just to get 
the demographics of the Guard and Reserve down so that we can 
have a way to understand the population
    [The information referred to follows:]

    The average age of Reserve component officer servicemembers (all 
Services) is 40.2 years old (median age is 40.0), while the average 
enlisted age is 30.8 years old (median 28). The average and median ages 
for all Reserve component members (all Services) are 32.2 years old 
(median 30).

----------------------------------------------------------------------------------------------------------------
                       Age                           ARNG     USAR     USNR    USMCR     ANG     USAFR    USCGR
----------------------------------------------------------------------------------------------------------------
Approx. Average Age..............................     30.6     32.1     35.1       26     35.1     36.3     34.7
Percent over age 40..............................     23.6     29.5     38.4      0.9     38.0     43.0     34.0
----------------------------------------------------------------------------------------------------------------


    Senator Webb. General Stultz, what percentage of the Army 
Reserve has deployed?
    General Stultz. Sir, it's somewhat of a moving target, but 
right now approximately--if you use the latest figures we have, 
it's around 50 percent. Now, that sounds like we haven't used 
half the force, so there's this plethora of people out there. 
When we take the numbers and say, ``Okay, let's look at--of the 
ones that haven't deployed, where are they?'' First and 
foremost, there's about 14,000 to 15,000 that are in initial 
military training; those are the new recruits. There's another 
15,000 to 20,000 that are preparing to deploy; they just 
haven't gotten there yet. There's another percentage that are 
in some kind of status, on a medical hold or something else. It 
gets down to--there's around 52,000 soldiers that I have in my 
208,000 right now that are available and have not deployed.
    Furthermore, when you break that down--and I don't mean to 
get into too much detail, but we study this all the time, 
because the question comes up--of that 52,000, 86 percent are 
E-5 or below. It's a lot of our young soldiers that are new 
recruits, and they are dispersed throughout the force, so it's 
not as if I can assemble an MP company or a transportation 
company out of this 50,000. Our force is very seasoned and very 
used.
    What we have done is, we've arrayed the Army Reserve across 
a 5-year model to give our soldiers, number one, 
predictability, but, number two, to give the Army 
predictability about what kind of capacity and capability we 
can give you each year. The problem is, that's a supply-based 
system; we're reacting to demand right now, where the demand is 
higher than the supply.
    But, we keep very, very tight control over how many of 
those soldiers are out there that are available that we have 
not used.
    Senator Webb. Thank you.
    General Kelly, would you have a number on that for the 
Marine Corps?
    General Kelly. It's very, very high, sir. First of all, all 
of the battalions and squadrons have been overseas, 100 
percent. Considering turnover and whatnot--in each one of those 
units today, 70 percent of the marines have deployed overseas. 
The ones that haven't, simply because they've just joined the 
unit and they're just forming on the rotation. So, it's very, 
very, very high.
    Majors and above, virtually 100 percent have gone overseas 
at least once--many, multiple times--either as individual 
augments or parts of units. What we find is, when another 
unit--as we get ready to deploy someone, we have a great many 
volunteers that want to switch units, get into that unit to go 
back over again. So, it's a very, very high percentage. 
Frankly, we don't see any strain on the force, the way it's 
working.
    Senator Webb. Admiral Debbink?
    Admiral Debbink. Sir, we have approximately 65,671 in the 
Navy Reserve today. We've deployed over 66,000 mobilizations 
since September 11. That accounts for about 45,000 sailors. 
Some have done two, three, and four pumps.
    Having said that, with a flow through the force over the 
last 9 years, we have approximately 26,000 that are available 
today for mobilization.
    Senator Webb. So, of the total number in the Navy Reserve 
today, how many have deployed?
    Admiral Debbink. I'll get back to you on that.
    [The information referred to follows:]

    26,284 of 54,140 (48 percent) of the current members of the Navy 
Selected Reserve have deployed in support of the Overseas Contingency 
Operations.

    Senator Webb. A snapshot.
    Admiral Debbink. Yes, sir.
    Senator Webb. Okay.
    General Stenner?
    General Stenner. Sir, I will also get back with you on the 
exact numbers.
    [The information referred to follows:]

    The total number of Air Force Reserve members who have deployed is 
currently 39,351. Approximately 55 percent of our total current force 
has deployed.

    General Stenner. I would like to just put a little bit of a 
context on this one, as well.
    We have, on any given day, roughly 7,000 folks on orders; 
2,600 to 3,000 of those are deployed to the AOR. But, when you 
look at remotely piloted aircraft, when you look at the 
command-and-control--there's a lot of deployed in place, folks 
who are on orders, but they're right here in the CONUS. So, 
folks who have done their job are the folks who are staying 
with us, the retention piece; and I'll get you the demographics 
on how that works out.
    Senator Webb. Thank you.
    Admiral Stosz?
    Admiral Stosz. Senator, we have augmentees that augment 
Active Duty Coast Guard units. When they are recalled, they, 
generally speaking, become part of the total force. Eighty 
percent of our reservists serve as part of the total force when 
they're augmented. We do have our PSUs that deploy overseas to 
serve as part of the Maritime Expeditionary Security Squadron; 
and those units go one at a time, and there's about 120 people 
in each of those. I'll have to get you the exact figure, sir, 
on how many Reserves we've deployed overseas in recent years.
    [The information referred to follows:]

    31 percent of personnel assigned to the Coast Guard Selected 
Reserve are mobilized and deployed in support of domestic operations 
and Overseas Contingency Operations.

    Senator Webb. Recognizing at the outset that each one of 
these components has its own personality and its own way of 
conducting operations, it's a question that varies, just in 
terms of the way people are used, I fully recognize that, going 
in. But, I'd be curious to see the data on it.
    There's been a lot of discussion about the impact of these 
multiple deployments on employer relations. I know, General 
Stultz, you and I had a long discussion about some of the 
innovations that--putting in place in the Army Reserve. I'm 
curious to hear thoughts on where this issue is in the other 
components, and what might be done.
    General Kelly, I'll start with you.
    General Kelly. The first program, the Marine For Life 
Program, has proven effective, certainly since General Jones 
implemented it, some years ago. Other aspects of employer 
engagement have been very positive. In fact, we're all plugging 
into, now, Jack Stultz's program, in terms of reaching out to 
employers. So, within the Marine Corps Reserve right now, very 
little strain, in terms of jobs and employers and that kind of 
thing.
    The one thing that I've learned, that I wasn't aware of 
before and does concern me, is, as these men and women deploy 
overseas, the one thing we can't capture--and they don't 
complain about it, but--is the opportunity lost. They're 
overseas when an opening comes up that they would normally at 
least have the opportunity to bid on, that would raise them up 
in the company. The employers can't wait, in many cases, for 
them to come back, and they're exactly the kind of an employee 
they'd want to have advanced. I was not aware of that before. I 
don't think there's any way to get our arms around that, other 
than to just hope. I find this is the case, that the employers 
are doing the best they can to hold these positions open.
    Senator Webb. Very good.
    Admiral?
    Admiral Debbink. Sir, we believe that our employers remain 
very supportive of our Navy reservists. We know that over 85 
percent of those who deploy return back to their jobs. We hear, 
anecdotally, about issues and problems; but, every time we 
drill down into it--and I try to make employer visits in all of 
my travels--I hear nothing but strong support, provided that, 
when we employ our reservists, that we're validating the billet 
that we're sending them to, and that we're giving them real and 
meaningful work to do, so when they come back, they report back 
to their employer that, ``I was well utilized.''
    The other thing that we're trying very hard to do is to 
stay to a 1 to 5 dwell, because that's also our promise to the 
sailor, his or her family--and to the employers.
    Senator Webb. General?
    General Stenner. Sir, we have a very strong employer-
relations/family-relations program that goes along with all of 
our units. We have ``Boss Lifts.'' We have a strong 
relationship with the Employer Support in Guard and Reserve 
(ESGR) Freedom Awards. The anecdotal evidence that we get is 
that the employers are doing a fantastic job, making up 
differences in pay, and, in some cases, full pay and allowances 
for folks who are on orders. It's part of the fabric of how 
we're doing this Nation's business.
    If I were to suggest anything, though, sir, I'd say that 
the Uniformed Services Employment and Reemployment Rights Act 
that was created many years ago wasn't necessarily written for 
the operational force that we have right now; it was written 
for that strategic reserve. Some of the numbers in there, and 
some of the nuances--it might be helpful if we could take a 
look at that and perhaps help our employers out in that 
respect--as well as our military members.
    Senator Webb. Admiral?
    Admiral Stosz. Mr. Chairman, when we recall our Reserves, 
oftentimes it's for shorter periods of time, as they're 
integrated in for hurricane relief, or Haiti, or, now, the 
Deepwater Horizon oil spill. So, it's not much of a time that 
they're gone from their jobs that--the ones that deploy 
overseas are a smaller percentage. We haven't had any problems 
with our employers that have come to my level. We, in fact, had 
15 of our reservists put in their employers for the Freedom 
Award last year. So, we do local outreach in our communities, 
and our reservists are probably spread far and abroad, more so 
than most of the other Services, to small towns. We do the 
small town local outreach, and it seems to be working.
    Senator Webb. General Stultz, I didn't mean to overlook 
you, since we had a long discussion yesterday. But, you've been 
something of a groundbreaker in this area.
    General Stultz. Yes, sir. The employer program--we started 
out--and, as I mentioned earlier, it's kind of snowballed on 
us, so now we have included all of the Reserve components as 
part of that--really has been a success story for us, because 
what we're finding, and what we have raised to the awareness of 
the business world, is, we have a treasure of talent, a 
treasure of talent in the Reserve components, that are drug-
free, they're physically fit, they're morally fit, they've been 
given leadership, they've been given responsibility, they've 
been given self-confidence. It's a tremendous workforce out 
there, and, in a lot of cases, we've given them skill sets that 
apply in that civilian sector. So now the civilian business 
world is waking up to that and saying, ``Wow, we really haven't 
taken advantage of this workforce out there.''
    For us, in the military, we can translate those civilian 
skills back into the military, because, in a lot of cases, if 
that engineer is working in the civilian workforce, he's 
probably working state-of-the-art, probably levels higher than 
the Active Army engineer force is working, because they just 
don't have that same level of technology. Especially, we see 
that on the medical side.
    We're getting that embracing, now, from the civilian 
workforce of saying, ``Let us take advantage of your soldiers. 
Bring us your talent.'' We have the partnerships with over 
1,000 companies now across America who have said, ``We want to 
use the Reserve components as our force of choice for the 
workforce.''
    I am a little concerned that, as General Stenner said, what 
the employers tell me is, ``Okay, we want to partner with you, 
but we need some predictability to run a business.'' In today's 
environment, we have a lot of soldiers who are volunteering for 
duty. So, those employers say, ``You told me he was only 
calling him up once every 4 years, but he just came back, and 
now he's gone again. How can I run a business?'' So some of 
those situations, we have to take a look at. As General Kelly 
said, we're also seeing--I get resignations from officers every 
month who have completed their mandatory service obligation and 
have decided to get out. I read each one of those, the 
individual's statement as to why they're leaving the Service. 
In a lot of cases, it's family issues, it's other things like 
that, but, in some cases, they're saying, ``I don't think I'm 
going to have the opportunity to reach the level, in my 
civilian job, if I stay in the Reserve, because of the 
commitment. I'm going to be taken away and miss 
opportunities.'' So, there are still concerns in that--the 
employer world, of: Are we, in some cases, not maintaining 
faith with the employers, in terms of our predictability, 
because of our volunteer situation? Then, second, are we not 
maintaining faith with our soldiers, in terms of, ``They're not 
going to get, necessarily, all the opportunities in their 
civilian job''? So, it's not a perfect world.
    Senator Webb. Secretary McCarthy, would you have an 
overarching thought on that?
    Mr. McCarthy. I'd just second everything that people have 
said. I congratulate the Chiefs on this initiative; and General 
Kelly, in particular.
    But, I think that the world is changing. The idea of a 
rotationally available Reserve, whether there is a war on or 
not, or whether there's a hot war on or not, is going to change 
the way we relate to employers. Everything that we've done, 
historically, in ESGR has been about sustaining existing 
employment relationships. That's very, very important, and it 
has to continue.
    We have to broaden, though, what we do in the ESGR to think 
about creating employment relationships, as well as sustaining 
the existing ones. We're focused on that.
    As everybody has said, people come back, they have 
increased skills, they have increased capacity, they have 
increased confidence, and the job they left may not be the one 
they want to go back to. Many will come back and take advantage 
of the GI Bill, improve their education. Again, the job they 
left may not be the one that they want, because of their new 
education. We have to figure out a way to accommodate that.
    The only other thing I would say is, I think we also have 
to understand that, if you want to have a career in this new 
era of Reserve, that's going to have some influence on what 
kind of employment. In the days when it was 1 weekend a month 
and 2 weeks in the summer, that could be accommodated to just 
about any kind of employment. A rotationally available force 
may have to reshape the way they think about their own personal 
employment if they want to make a career in that sort of a 
force. That's going to be a transition force.
    Senator Graham. Is there anything--and I don't mean to 
interrupt, but that's a good thought.
    Senator Webb. No, it's your turn.
    Senator Graham. Is there anything, legally, we can do, in 
terms of if we're going to go to that model, which makes sense 
to me, quite frankly, given where we're at and the threats we 
face, then do we need to adjust our laws?
    Mr. McCarthy. Sir, there are a number of things that are 
working their way through the Department's legislative 
generation process. I won't get into details, but I do think 
that there is an area of opportunity for us, relative to health 
care.
    One of the things that, for many, many years, we've talked 
about, in terms of this continuum of service--on-again/off-
again service--is maintaining the continuity of family health 
care. If we can figure out a way to combine what we're doing 
with TRICARE Reserve Select and employer needs with regard to 
furnishing health care, there may be an opportunity for us to 
help both employers and Reserve component members. But, the 
specifics of that are very complicated. There's a lot of people 
over there working on it. But, I think that, in the not-too-
distant future, this may be something that the Department will 
want to talk to Congress about.
    Senator Webb. Thank you.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    Thanks, all of you.
    Under the current law, servicemembers that receive 
educational assistance in the form of an ROTC scholarship, or 
that graduate from one of our service academies, are still 
eligible for full educational benefits under the post-9/11 GI 
Bill. However, members of the Selected Reserve that received 
educational assistance under Chapter 1606 of the Montgomery GI 
Bill prior to receiving a commission and serving on Active Duty 
are not similarly entitled to 4 years of benefits under the 
post-9/11 GI Bill.
    My question for all of you is, are the Reserve components 
concerned that the significant disparity in benefits may 
dissuade college students who are interested in a commission 
from participating in the Selected Reserves while attending 
college?
    Mr. McCarthy. Senator Hagan, I'll just try to take----
    Senator Hagan. Okay.
    Mr. McCarthy.--just very, very generally, and then let the 
Chiefs hit the specifics.
    I think that we all recognize that, as we work into the 
post-9/11 GI Bill, there's probably some adjustments that need 
to be made. I know that a number of them are being looked at. 
I'm not familiar with the specific one that you've mentioned, 
but it sounds like something that we should be, and perhaps 
are, looking at.
    I think that, overall, everybody is tremendously pleased 
with the post-9/11 GI Bill, but we recognize that there are 
probably some adjustments that need to be made going forward.
    General Stultz. I'd just speak from the Army's perspective. 
I kind of echo what Secretary McCarthy said. I don't know the 
specific details of the situation you're explaining. I do know 
that the post-9/11 GI Bill has been a huge benefit. As we 
conduct townhall meetings, there are several things soldiers 
say: the retirement, they're concerned about that; the 
education benefits now, for their families, so they see this as 
enabling them to give something to their families; and the 
continuum of health care. Those are the three big issues that 
they say--if we can solve those--I think we can pay for a lot 
of those, because we will not have to pay the retention 
incentives and some of the other incentives, to the degree that 
we're paying now, because the incentive for being in the 
Reserve and staying in the Reserve is going to be education 
benefits, health care benefits, and retirement benefits.
    Senator Hagan. Anybody else, on that particular issue?
    I've actually talked to individuals, and I know that the 
post-9/11 GI Bill is generous to a vast majority of 
servicemembers; and I hear from people all the time how pleased 
they are with the funding that they're getting to go back to 
school. But, there are certain groups within the armed services 
that, based upon the programs that they entered through, are 
not fully served under the legislation as it's currently 
written, despite providing this--these individuals providing 
the same military service as their counterparts.
    I'm actually looking at introducing a bill on this pretty 
soon which aims to address, I think, just this act of disparity 
and this issue. So, hopefully we'll be hearing a little bit 
more about it.
    There's also a tremendous cost associated with recruiting 
and retaining--recruiting and training our servicemembers, 
which becomes even more pronounced when replacing midgrade 
noncommissioned and commissioned officers.
    General Stultz, I was wondering, are there statutory or 
policy changes that can be implemented, with respect to 
continuum of service, that would make it easier for Reserve 
component soldiers to voluntarily serve on Active Duty?
    General Stultz. I think most of it is policy, not statute. 
But, I think the--and General Debbink can--or, Admiral 
Debbink--I'm promoting him to the Army side----[Laughter.]
    Admiral Debbink and I were talking earlier about this, that 
the Navy, for instance, in the Navy Reserve and the Active 
naval component, have come much further than we have, in my 
opinion, on the Army side, in a continuum of service, where we 
have made it fairly easy for servicemembers to move from 
Reserve into the Active Force, but we have not made it as easy 
for the servicemember to move from the Active back into the 
Reserve Force.
    One of the things that we're working with Secretary 
McCarthy's office, and with the G-1, and other personnel in the 
leadership of the Army is, we truly have to get a continuum of 
service, where soldiers can flow from Active into the Reserve, 
to take a knee into the Individual Ready Reserve (IRR) to 
further take a knee, if they want to, and then be able to have 
the confidence to flow back into the Active Force, if the 
opportunity is there, because in some cases, there's not a 
need, and the Active Force simply says, ``I can't take any more 
of these.'' But, if the opportunity is there, to flow back and 
maintain that continuum of service.
    The other thing that we've discussed, and I know I've 
talked with Senator Graham about, is in the retirement. I would 
like to see a system where we reward soldiers who are eligible 
to retire in the Army Reserve--they have their 20 years of 
service--but we retain them past that 20 years of service by 
lowering, eventually, their retirement age, because, again, 
that is a retention tool that doesn't have an immediate cost. 
It has a long-term cost, but we retain that talent that we've 
invested so heavily in.
    Currently, with the operational tempo, a soldier gets his 
20 years of service, he may not be able to draw his retirement 
for another 25 years, and there's no incentive for him to stay, 
except that his love of his country and his love of the 
Service. But, he has to confront that spouse at home and say, 
``Why are you re-upping when they're not going to give you 
anything except another deployment?'' Somehow, we have to put 
something out there.
    When I talk to soldiers about, ``What if we rewarded you 
for staying beyond 20 by lowering your retirement age?'' That 
rings home to them. Now, the caveat I've put on them is, 
selective retention that you may not get to stay as long as you 
want if you haven't served your country and done your education 
and physically fit and all the other requirements.
    Senator Hagan. Sure.
    General Stultz. So, the fact that we may be able to put a 
carrot at the end of the table here for you, you're going to 
have to earn it.
    Senator Hagan. Thank you. I look forward to continuing to 
work with you as your command is relocated to Fort Bragg.
    General Stultz. Yes, ma'am.
    Senator Webb. Thank you, Senator Hagan.
    Senator Hagan. Thank you.
    Senator Webb. Just let me, as the Chair, make a couple of 
comments.
    First, also, as the person who wrote the GI Bill, and then 
who worked hard with Senator Graham to put some of these other 
provisions in that, we know there's places where we need to 
refine it, there were two original intentions when it came to 
the Guard and Reserve components. First of all, was to include 
them for the first time in a GI Bill. It never happened before. 
We've done that, and then, there was a big discussion with 
respect to ROTC scholarship programs, service academy programs, 
where the initial period of service was actually a payback for 
having received an education. So, the question was, do you 
double count that first 5 years of Active service for a GI Bill 
when the education had already been the result of the Federal 
Treasury? So, that's an issue, it sounds to me, like you were 
asking a question about here, with the ROTC programs and the 
Reserve.
    Just as a matter of clarification, General Stultz, I've 
never heard the IRR termed the ``Inactive Ready Reserve.''
    General Stultz. Individual.
    Senator Webb. Individual Ready Reserve. I mean, it--I hear 
this a lot, and I think it's important----
    General Stultz. Yes, sir.
    Senator Webb.--to clarify it. That's basically a SELRES 
without it being in a unit. It led to a question that I wanted 
to ask both you and General Kelly, and that is, what percentage 
of today's IRR do you consider to be of the physical quality to 
be deployed?
    General Stultz. Yes, sir, we have come great strides, in 
terms of getting our hands around the IRR in the Army. As you 
may know, the IRR for the Army does not belong to the Army 
Reserve, it belongs to the Active Army; it's under Human 
Resources Command for the Army. We help administer the program.
    What we started--and it's part of the initiatives that you 
started, years ago, I think, when you were Secretary of the 
Navy--is, the muster formations. In the past 2 to 3 years----
    Senator Webb. Actually, when I was Assistant Secretary of 
Defense, we did----
    General Stultz. Yes, sir.
    Senator Webb.--the first call-up of the IRR--1-day call-
ups, just to try to get the addresses down and get a physical 
and get people 1-day pay, travel, and proceed, find out where 
they are, see if they're actually a mobilizable asset.
    General Stultz. Yes, sir. We, in the past 2 to 3 years, 
have really gotten very active in the musters around the 
country. We've gotten very good results in the muster 
formations. We have improved our overall accountability and our 
overall readiness in the IRR, but we've also seen the numbers 
in the IRR decline significantly as people elected to get out 
of the IRR, didn't realize they were in the IRR, because they 
had not resigned their commissions, in some cases. So, the IRR 
numbers for the Army Reserve--or, for the Army right now, that 
we're overseeing, is about 68,000, where it used to be several 
hundred thousand.
    Senator Webb. Yes.
    General Stultz. So those numbers have gone down. But, the 
individuals that are there, we feel very confident that they're 
available for service, if needed.
    Senator Webb. General Kelly?
    General Kelly. Yes, sir. Senator, I have 55,000 in the 
Marine Corps IRR. They essentially belong to me; I manage them. 
My Mobilization Command is very aggressive in, as you've 
described, contacting them periodically, bringing them in for a 
day. Actually, for what we really need them to come in for, it 
takes about 20 minutes; and that is, to look at them and make 
sure they haven't grown their hair too long, they haven't grown 
a beard, and they haven't put on too much weight.
    We use the rest of the day, though, actually, to bring an 
awful lot of agencies in--the VA and people like that--where 
they weren't so interested in meeting with these folks of 
various agencies, they would just--when they decided to get out 
of the Marine Corps--they were just intent on getting out--as 
young men and women--just wanting to start something new. When 
we bring them in for these musters, they're very, very 
interested at that point. As I say, we bring in various job 
search agencies--the police, recruiters, everybody. We have a 
very, very high response, and those that come in--the people 
that do this to--with thousands of these IRR marines every 
year--as a general rule, they remain in pretty good shape. As I 
say, an awful lot of them do respond.
    During the war, we've involuntarily called up 3,800. I 
think, as of today, there's probably zero. There were a few 
residual that were getting off. All of them that we called up, 
in the period starting about 5 years ago, all came to the 
colors ready to go, and were in very good shape. Very, very few 
of them did we have to not bring on. They were all candidates 
to bring back on. Very few of them had any problems with the 
police or medical or whatever. So, it's a good program. Another 
part of the IRR, of course, is when people can't drill anymore, 
but want to stay associated, affiliated, they'll drop to the 
IRR; and then periodically we'll go looking for them, and 
they'll come out of the IRR and either become individual 
augmentees or start drilling again. So, it's kind of an in-and-
out thing. Overall, very successful.
    Senator Webb. Good, thank you.
    Senator Graham, do you have any comments?
    Senator Graham. Yes. It's been a great hearing. Thank you, 
Mr. Chairman.
    One last thought and then I'm going to have to run. You all 
have been very informative.
    Mr. Secretary, this idea of mobilization and the way the 
law works, apparently the Coast Guard has a different system. I 
think we need to look long and hard at finding a way to call 
people in from the Reserves to Active Duty for limited periods 
of time without presidential consultation, because we're more 
in an operational mode than ever. I would just challenge the 
Department to sit down with us and find a way to adjust these 
laws to make it more flexible for our reservists to be able to 
be utilized, because, as General Stultz said, that they want to 
be used if they're going to be trained. I want to make sure 
they can be used in a logical way.
    So I look forward to getting your input as to how to change 
the law, because I think the law needs to be changed, quite 
frankly.
    Mr. McCarthy. We're anxious to work with you on that, sir, 
because getting access under this new paradigm of rotational 
availability is high on, I think, everybody's priority list.
    Senator Graham. Right. Thank you.
    Thank you, Mr. Chairman.
    Senator Webb. Good. Thank you, Senator Graham.
    I'd like to express my appreciation to all of you for your 
testimony today, and for the leadership that you are bringing 
to your different components.
    We will have follow-on questions. The hearing record will 
be kept open until close of business tomorrow, in case other 
Senators have questions for the record.
    I appreciate your testimony and also having had to wait for 
us today.
    We are adjourned.
    [Questions for the record with answers supplied follow:]
                 Question Submitted by Senator Jim Webb
                          reserve demographic
    1. Senator Webb. General McKinley, General Wyatt, General 
Carpenter, General Stultz, Admiral Debbink, General Kelly, General 
Stenner, and Admiral Stosz, please provide demographic data on the 
actual numbers of Guard and Reserve members in your Service that are 
prior service, the number that are more than 40 years of age, and the 
number of those who are assigned to an organizational billet. The 
numbers should include Individual Mobilization Augmentees (IMAs).
    General McKinley. Of the 363,357 soldiers in the Army National 
Guard, 154,287 (43 percent) came to us with prior service backgrounds. 
There are 77,213 (21 percent) soldiers over the age of 40. Currently, 
321,750 (89 percent) soldiers are assigned to MTOE units.
    Of the 108,386 airmen in the Air National Guard (ANG), 43,858 (40.5 
percent) came to us with prior service backgrounds. There are 70,419 
(65.0 percent) airmen over the age of 40. Currently 108,836 (100 
percent) airmen are assigned to an organizational billet.
    General Wyatt and General Stenner. The requested Air Force Reserve 
(AFR) demographic data is as follows: There are 41,827 Air Force 
reservists that are prior service. Included in this number are 7,041 
reservists who are IMAs. There are 27,846 Air Force reservists over 40 
years of age. Included in this number are 4,731 reservists who are 
IMAs. All Air Force reservists are assigned to an organizational 
billet.
    General Carpenter and General Stultz. All members in the Army 
Reserve (USAR) Selected Reserve (SELRES) are assigned against 
organizational billets. The USAR does not have an ``assigned not 
joined'' category, and does not command the Individual Ready Reserve.

----------------------------------------------------------------------------------------------------------------
                                                                      Assigned             Percent of Assigned
----------------------------------------------------------------------------------------------------------------
Total SELRES................................................                  207,660
Age 40 & Over...............................................                   56,013                        27
Prior Service...............................................                   69,967                        34
----------------------------------------------------------------------------------------------------------------

    Of the 363,357 soldiers in the Army National Guard, 154,287 (43 
percent) came to us with prior service backgrounds. There are 77,213 
(21 percent) soldiers over the age of 40. Currently, 321,750 (89 
percent) soldiers are assigned to MTOE units.
    Of the 108,386 airmen in the ANG, 43,858 (40.5 percent) came to us 
with prior service backgrounds. There are 70,419 (65.0 percent) airmen 
over the age of 40. Currently 108,836 (100 percent) airmen are assigned 
to an organizational billet.
    Admiral Debbink.

      (a) 72 percent (46,964 of 65,671) of the Navy Reserve had prior 
service in the Armed Forces when they affiliated with the Reserves.
      (b) 27 percent (17,431 of 65,671) of the Navy Reserve is older 
than 40 years of age.
      (c) 82 percent (42,717 of 53,542) of Navy Selected reservists are 
assigned to an organizational billet.

    General Kelly. 3,186 officers and 6,704 enlisted SELRES members 
have previously served in the Active component.
    2,812 members are more than 40 years of age.
    33,298 members are assigned to an organizational (Selected Marine 
Corps Reserve unit or IMA) billet. An additional 2,282 are assigned to 
the AR program.
    Admiral Stosz. Currently, 31 percent of personnel assigned to the 
Coast Guard SELRES are mobilized and deployed in support of domestic 
operations and Overseas Contingency Operations (OCO).
                                 ______
                                 
            Questions Submitted by Senator Roland W. Burris
                               diversity
    2. Senator Burris. General McKinley, the National Guard is the 
largest Reserve component force in our military, but its diversity has 
the worst actual numbers and percentages of minorities and women in the 
colonel and general officer ranks. Particularly the Army National Guard 
and the fills in the full-time positions are much worse. Explain to me 
why this situation exists?
    General McKinley. I share your concern in ensuring our military, in 
particular the National Guard, has representation in our senior ranks 
that reflects the diversity of the population we serve. The conflicts 
we are currently facing, as well as the environments that our men and 
women in uniform will face in the future, clearly indicate that 
diversity in thought, in perspective, and in experience is and will 
remain critical for success in conflict prevention and on the 
battlefield.
    In the past fiscal year, minority membership in the National Guard 
stood at over a quarter of our assigned strength. Seven percent of 
National Guard General Officers (GOs) are women, 5 percent are Black/
African American, and 3 percent are Hispanic. In regards to colonels, 
nearly 10 percent of National Guard colonels are women, 5 percent are 
Black/African American, and 5 percent are Hispanic.
    The National Guard leadership is committed to increasing the 
diversity across our entire force, and will continue to focus efforts 
on recruiting, retaining, mentoring, and promoting up through the ranks 
a sufficiently diverse pool of officers from which to select our most 
senior leaders.

    3. Senator Burris. General McKinley, what are your plans to 
increase diversity within the senior ranks of the National Guard?
    General McKinley. The National Guard has taken several major steps 
to ensure that diversity is an active and critical component of the 
culture of the Guard. I have created the office of the Special 
Assistant for Diversity to provide oversight and guidance to National 
Guard leaders, at all levels, to aid in the creation and implementation 
of diversity strategies. In addition, I have formed the Joint Diversity 
Advisory Council (JDAC) made up of TAGs, ATAGs, Senior Enlisted, Junior 
Enlisted, both Army Guard and Air Guard. The National Guard Bureau's 
Joint Diversity Advisory Council's mission is to initiate and support 
those activities that increase diversity and promote cultural 
competency among all members of the National Guard by fostering a 
learning environment that accepts and bridges the gaps between persons 
of all cultures, genders, and religious differences in today's 
multicultural world.

                            joint qualified
    4. Senator Burris. General McKinley, General Stultz, Admiral 
Debbink, and General Kelly, there has been a lot of emphasis on joint 
operations, and the Reserve components are far behind the Active 
components in getting their officers joint qualified. Current 
statistics show that the Reserve components only have 1.1 percent of 
their eligible officers qualified in joint operations, whereas the 
Active components sit at almost 47 percent. This is largely due to the 
fact that the Reserve components only began participating in the Joint 
Qualification System in October 2007. However, some emphasis on getting 
officers joint qualified is clearly needed. Explain your plan for 
getting officers in your Service joint qualified.
    General McKinley. We agree with your assessment of the importance 
of getting National Guard Officer Joint qualified. There are several 
factors that impact joint qualification opportunities for National 
Guard officers. A significant factor is the limited number of joint 
positions available for assignment of National Guard officers in which 
to earn the joint credit. Presently, there are 124 Joint Duty 
Assignment List (JDAL) positions designated for National Guard 
officers. Other opportunities exist in the form of mobilization tours 
and perhaps limited Active Duty tours for our officers to be assigned 
against Active component positions.
    There is an additional piece of the equation for obtaining joint 
qualification, and that piece is education. In order to enhance our 
ability to attain joint qualification for our officers we need an 
increase in the availability of the Joint Professional Military 
Education II (JPME) awarding courses. With the completion of the JDAL 
assignment and JPME I and II, we can ostensibly produce 41 joint 
qualified officers per year though the Standard-JDAL Path.
    Once we have established Joint Force Headquarters (JFHQs) on the 
Joint Manning Documents a few Traditional/M-Day State positions may 
become JDAL billets. Incumbents of these positions would need to serve 
in these JDAL positions for a total of 6 years in order to earn the 
required points to become joint qualified. We are working with the 
Chairman of the Joint Chiefs of Staff and his staff to expand our 
opportunities for fully developing joint qualified officers. For 
example, the Reserve officer timeline is being reviewed to determine if 
there is a way to reduce the timeline without diminishing the integrity 
of ``joint qualification''. Furthermore, we're seeking increased 
educational opportunities in order for National Guard officers to 
participate in programs along side of our Active component 
counterparts.
    Through a combination of joint duty assignments, mobilizations, and 
utilization of limited existing educational opportunities, we have 
managed to improve our joint qualification status over the past 3 
years. Over 114 National Guard officers have been granted some 
experience points through the self-nomination process. Also 35 members 
have been granted Level II Joint Qualification and 25 members have been 
awarded the Joint Qualification Officer Designation. With the increase 
of additional JDAL positions and JPME II awarding school quotas, we can 
improve these numbers.
    General Stultz. Although much still needs to be completed to 
significantly increase the joint qualification rates for USAR officers, 
some important steps have been taken towards that goal.
    In March 2008, the Reserve Component Officer Joint Qualification 
Program Guidance was published. This established two paths for 
traditional Reserve officers to become qualified in joint operations. 
Through this program, Reserve officers can accumulate joint credit via 
a Standard Duty Assignment (S-JDA) path or the Experience Joint Duty 
Assignment (E-JDA) path. The S-JDA credit comes from assignments on the 
Joint Duty Assignment List (JDAL), while the E-JDA credit comes from 
joint experience gained while in positions not on the JDAL or from 
appropriate civilian experience. The E-JDA path is critical for 
traditional reservists, who typically gain joint experience from 
periodic or temporary joint assignments.
    The importance of joint qualification is being communicated by 
several methods. We have delivered several strategic communications to 
all USAR officers explaining the process to apply for joint credit, and 
promotion boards are being instructed to consider joint qualification 
in determining the best-qualified officers.
    One of the challenges to increasing joint qualification across the 
USAR is the current lack of Troop Program Unit (TPU) positions on the 
JDAL. Additionally, a final determination has not been made on the tour 
length requirement for TPU soldiers to receive S-JDA credit. Finally, 
the USAR is attempting to identify TPU positions eligible for E-JDA 
that are not associated with deployments.
    Joint qualification ensures that leadership has the critical 
thinking skills and experience to conceive and apply joint solutions to 
the 21st century battlefield. We will continue to take the necessary 
steps to increase the number of USAR officers qualified in joint 
operations.
    Admiral Debbink. JPME education is the foundation of the Joint 
Qualification System and Navy Reserve has funded 100 percent of our in-
residence quotas (70 total for JPME I/II enrollment) in fiscal year 
2010. Additionally, we have funded distance learning courses (500 
personnel) for JPME phases I and II annually. Of note, we also seek out 
and regularly fill unfilled Active component quotas in the various JPME 
phase I and II courses. In fiscal year 2011, we requested and received 
10 additional in-residence quotas per year and will continue to offer 
these joint education opportunities and others to our sailors in the 
future.
    OCO over the past several years have given Reserve officers, both 
full-time support (FTS) and SELRES, more opportunities to become a 
Joint Qualified Officer (JQO) through experience tours. With the 
implementation of the Joint Qualification System Experience Review 
Process, Reserve officers have been able to gain parity with Active 
officers in receiving credit for their joint experiences while on 
Active Duty. Since October 2007, the approval ratings for joint credit 
submitted for panel review for Navy Active and Reserve officers is at 
85.7 percent and 85.2 percent, respectively. Of the total 39 Navy 
Active and Reserve officers who have attained JQO status via the 
Experience Review Process, 22 (56.4 percent) are from the Active 
component and 17 (43.6 percent) are from the Reserve.
    For SELRES, joint qualification is more challenging because of the 
present requirement to serve for 72 months in a Standard Joint Duty 
Assignment (S-JDA) position. The Navy Reserve is working with the 
Office of the Secretary of Defense (OSD), the Joint Staff and the other 
Services to develop policies that will enable SELRES officers to attain 
joint qualifications within the construct of their existing annual 
service requirements. One of the recommended policy changes is to 
decrease S-JDA tour lengths for drilling reservists to provide members 
with increased flexibility. However, this will require SELRES officers 
to serve in more than one joint assignment to meet JQO requirements.
    Today, most SELRES officers are achieving JQO through experience 
credit for qualifying joint experiences. However, as operational 
requirements change or are reduced, this will impact our members' 
ability to achieve the requirements of JQO Levels II, III, and IV 
through the experience track. Because of this, it is imperative more 
SELRES Joint Duty Assignment List (JDAL) billets are identified to 
enable Reserve officers to qualify via the standard path. The Services 
are expecting the next JDAL, scheduled for release in late summer, will 
contain many Joint Staff headquarters SELRES positions. These positions 
will aid in providing SELRES officers with opportunities to qualify for 
JQO designation through the S-JDA process in the future, but more 
Reserve component JDAL billets are still necessary to provide a viable 
part time path to JQO for Reserve component officers.
    General Kelly. We continue to emphasize the importance of having 
our Reserve officers become joint qualified. The first step in our plan 
is for all field grade Reserve officers to complete Phase I of JPME 
qualification. We ensure our Reserve officers have several 
opportunities to complete JPME I by offering both resident and non-
resident courses. Resident courses provide the opportunity for the 
individual reservist to participate in the full-length 10 months of 
course work. Resident courses are challenging for the Reserve component 
officers to attend. We currently receive 16 school seats from the four 
Service Command and Staff colleges; however, the limiting factor is the 
ability of the Reserve officer to be able to take 9 to 10 months off 
from civilian employment to attend a full-length school. While use of 
resident courses has been challenging, we have seen success in 
increasing the rate of JPME I qualified Reserve officers through our 
non-resident weekend seminar program. This fully funded program offers 
Reserve officers an opportunity to attend monthly seminars at one of 16 
different locations across the country.
    While not in great number, we also receive school seats and 
encourage attendance at JPME II accredited resident programs at the 
Service War Colleges and combined (JPME I & II) programs at the 
National War College, Industrial College of the Armed Forces, and the 
Joint Advanced Warfighting School. Again, the issue is more of time for 
the Reserve officer. We will need to explore additional opportunities 
for our Reserve officers to receive JPME II as the Marine Corps 
currently does not have a seminar program for JPME II.
    The most challenging issue with Reserve officers obtaining the 
Joint Qualification is finding the billets and the time to serve either 
2 years in a full time or a cumulative 3 years in a Joint Duty 
Assignment--Reserve. Without a change to this requirement for Reserve 
officers, we do not foresee our rate of fully joint qualified officers 
increasing dramatically.

    5. Senator Burris. General McKinley, General Stultz, Admiral 
Debbink, and General Kelly, have you budgeted for joint qualified in 
the Program Objectives Memorandum?
    General McKinley. Yes, we have budgeted for Joint qualified 
courses. There are a number of courses in the Army National Guard 
(ARNG) program which provide joint certification or credit. Seat 
allocations for joint courses are determined at an annual Structure and 
Manning Decision Review. The joint courses for professional education 
(JPME) are the following:

        <bullet> Resident Intermediate Level Education Course (JPME 
        level I)-- 40 seats/year
        <bullet> Resident Army War College (JPME level II)-- 17 seats/
        year
        <bullet> Joint Advanced Warfighting School (JPME level II)--one 
        seat every other year
        <bullet> Reserve Component National Security Issues Seminar (2 
        Joint Qualification Points)--25 seats/year
        <bullet> Reserve Component National Security Course (2 Joint 
        Qualification Points)--25 seats/year

    The ARNG does not program for, or receive seat allocations for 
Advanced JPME; we receive limited seats from Human Resources Command 
during the current year.
    General Stultz. Yes, the USAR has programmed the school seats 
necessary to support the educational requirements for the joint 
qualified designation.
    Admiral Debbink. Yes; the joint education programs are high on our 
priority list, and we have budgeted for the JPME quotas as part of our 
RPN discretionary funds. Additionally, we have funded and budgeted for 
the Naval War College distance learning materials from OMNR funds.
    General Kelly. Joint qualified can be achieved in two different 
ways: (1) through attendance at a formal PME school and PCS to a 3-year 
joint billet; or (2) attendance at a formal PME school plus 3 years 
cumulative time in joint billets. COMMARFORRES does not have any direct 
resourcing responsibilities with regard to the joint qualification of 
the Reserve component. Conversely, TECOM budgets/programs for all joint 
PME formal schooling to include associated temporary assigned duty and 
M&RA budgets/programs for all associated PCS to joint billets.

    6. Senator Burris. Secretary McCarthy, General McKinley, General 
Wyatt, General Carpenter, General Stultz, Admiral Debbink, General 
Kelly, and General Stenner, in 2001, OSD, Reserve Affairs, in a report 
for the 2001 Quadrennial Defense Review, outlined a new approach to 
military service as a continuum between full-time duty and service for 
only a few days a year. The report suggested ``a new availability and 
service paradigm--referred to here as a continuum of service (COS)--
that provides individual servicemembers greater flexibility in becoming 
involved in and supporting the Department's mission. In turn, the 
Department would have greater flexibility in accessing the variety of 
skills required to meet its evolving requirements.'' What are your 
thoughts on the COS initiative?
    Secretary McCarthy. The Department of Defense (DOD) is committed to 
an effective COS. Faced with the competing demands of providing an 
affordable national defense and maintaining the all-volunteer character 
of the military, we must find an approach that facilitates the 
maintenance of a balanced Total Force. The Reserve components must 
provide a trained and cost-effective expansion force, ready to augment 
and reinforce the Active component, in time of war and in support of 
other contingencies.
    Statutory policies and directives, as well as cultural, financial, 
and technological factors, often impede the seamless movement of Total 
Force members between components. In combination, these factors can 
constitute barriers that seriously diminish the capacity of the 
Department to acquire and retain the personnel and skills needed today 
and in the future.
    The goal of the COS is to dissolve the lines between Active 
component and Reserve component duty so movement from one to the other 
status offers optimum operational flexibility. The COS also facilitates 
different levels of part-time affiliation that are more consistent with 
how Guard and Reserve members are currently being utilized.
    General McKinley. In many ways, both the COS and the 
Operationalization of the Reserve Component concepts are essentially a 
reflection of the modern reality in the National Guard. These concepts 
help the National Guard Bureau shape our strategic planning, 
particularly in terms of utilization and development of our human 
capital, our soldiers and airmen. In the National Guard, our principal 
effort related to the COS is an initiative focused on Senior Leader 
Development. Key leaders from both the Army and ANG from across the 
Nation have been helping to generate new policy initiatives to ensure 
that our assignment, education, and promotion policies all facilitate 
the repeated changes in duty status--from traditional guardsman to 
mobilized soldier or airman to Active Guard and Reserve (AGR) and 
back--that are required in order to sustain our support of OCOs. These 
initiatives both touch every member of the National Guard, but not in a 
negative way. Every Guard soldier or airman in our all-volunteer 
organizations has either joined the Service or made a decision to 
reenlist or extend at some point following September 11. Our force 
consists of soldiers and airmen who have chosen to be a part of an 
operational force. The policy initiatives aren't intended to ask more 
of them, but rather will ensure that we maximize opportunities for 
their growth and development in support of operational requirements. 
The COS ready set for the National Guard means that members of the 
National Guard have a broader exposure to point qualification training, 
assignments, and immersion in positions of increased exposure and 
familiarization of multiple service duties (both Title 10 and Title 
32). Additionally, the alignment of authorities for call to duty are 
broader with a range of purposes. Today the National Guard has 27 duty 
statuses that require new orders for the specific purpose of duty. Each 
of these purposes must be aligned with either title 10 or 32 and we 
propose that once a member is called to duty in either title 10 or 
title 32 status that a range of purposes could be proposed with one 
single call to duty order thus reducing the complexity of systems of 
record and cascading pay and entitlement changes. While the COS 
initiative could remove barriers, we must continue to balance the 
demands of our soldiers and airmen in relationship to their time away 
from employers and family. Both of these are absolutely critical so 
they must be carefully considered when reviewing readiness training and 
further development of our force. We will carefully consider this 
stewardship and fragile balance of demands.
    General Wyatt and General Stenner. The COS initiative is an 
initiative we support, and we have to get it right. Moving between 
total force components can be difficult. Airmen often encounter 
barriers when transitioning between the AFR, ANG, and the regular Air 
Force. The depth and breadth of the skills of our highly trained, ready 
force means nothing if our airmen are not accessible.
    The COS initiative is our consolidated, Total Force effort to 
increase that accessibility by eliminating barriers to participation 
and exploring creative, innovative paths to service. Through this 
initiative, the AFR seeks to remove the barriers to service which 
encumber the seamless movement between duty statuses required to 
support total force operations. Two examples of barriers that the COS 
initiative is working to address include streamlining the accession 
process from military to civilian government employment and easing a 
member's transition between components without jeopardizing pay or 
medical care.
    With the removal of barriers like these, the COS initiative can 
promote the development of a total force human resource management 
system that retains highly skilled airmen for a lifetime of service. 
This also means making sure people who leave the Active component have 
an option to continue serving in the AFR as part of a COS.
    The AFR is 100 percent behind each Total Force initiative and is an 
active team member at the COS table. We are diligently working to 
continue to identify the existing barriers so we can eliminate those we 
can and minimize the rest.
    General Carpenter. In many ways, both the COS and the 
Operationalization of the Reserve Component concepts are essentially a 
reflection of the modern reality in the National Guard. These concepts 
help us to shape our strategic planning, particularly in terms of 
utilization and development of our human capital, our soldiers and 
airmen. In the National Guard, our principal effort related to the COS 
is an initiative focused on Senior Leader Development. Key leaders from 
both the Army and ANG from across the Nation have been helping to 
generate new policy initiatives to ensure that our assignment, 
education, and promotion policies all facilitate the repeated changes 
in duty status---from traditional guardsman to mobilized soldier or 
airman to Active Guard and Reserve (AGR) and back--that are required in 
order to sustain our support of OCOs. Frankly, these initiatives both 
touch every member of the National Guard, but not in a negative way. 
Every Guard soldier or airman in our all-volunteer organizations has 
either joined the Service or made a decision to reenlist or extend at 
some point following September 11. Our force consists of soldiers and 
airmen who have chosen to be a part of an operational force. The policy 
initiatives aren't intended to ask more of them, but rather will ensure 
that we maximize opportunities for their growth and development.
    General Stultz. Ensuring a COS is a human capital objective seeking 
to inspire soldiers to a lifetime of service. An effective COS would 
allow an individual to serve a career seamlessly transitioning between 
Active (full-time), Reserve (part-time), or civilian status based on 
both the needs of the Army and the needs of the individual. As national 
security demands and personal circumstances change, the soldier's 
status could change without severing his or her military affiliation. A 
COS would provide the Army's personnel management system maximum 
flexibility allowing the Army to leverage talent, military and civilian 
skills, experience and expertise at the right place and time for 
maximum impact. A fully functioning continuum would be cost effective, 
reducing recruiting, retention, transition and training costs. 
Establishing a truly functional COS requires modifying policies, 
processes, and some statutes to define training and professional 
development, career benefits (compensation, entitlements), transition 
requirements, and management procedures. The Army currently is moving 
incrementally toward a COS. The end-state is to maintain a 
comprehensive system of human capital management (COS) utilizing the 
best talent available to ensure national security. Achieving the end-
state will require the cooperative efforts of the Army, DOD, and 
Congress.
    Admiral Debbink. The Chief of Naval Operations, Admiral Roughead, 
has described COS as a strategic imperative. Navy's vision is a 
personnel management system that allows us to recruit sailors once and 
retain them for life through variable and flexible service options 
providing a career continuum of meaningful and valued work. COS allows 
the ability to change lanes easily from Active to Reserve and back 
again which will pay significant dividends for both our people and the 
Navy. COS will: help improve life-work balance and flexibility for our 
military personnel; improve retention and fit; and decrease recruiting 
costs by allowing recruiters to focus on people joining the Navy for 
the first time, instead of re-recruiting our veterans. The COS value 
proposition is a ready, relevant, and cost-effective workforce that 
provides both operational flexibility and strategic depth at the most 
value to the Navy.
    General Kelly. MARFORRES generally supports efforts to improve the 
COS, but believes these efforts need to be tailored to each Service's 
unique requirement. Currently (as provided by RA) the Marine Corps has 
no official position regarding this question.

    7. Senator Burris. Secretary McCarthy, General McKinley, General 
Wyatt, General Carpenter, General Stultz, Admiral Debbink, General 
Kelly, and General Stenner, how many Reserve component personnel are 
affected by this policy and what are the projected costs?
    Secretary McCarthy. The COS concept applies to all military 
servicemembers in the Active component (1.4 million) and the Reserve 
components (851,000 Selected reservists and 218,000 Individual Ready 
reservists).
    A comprehensive cost analysis of this policy has not been 
completed. Individual legislative proposals supporting this initiative 
are forthcoming and will include cost estimates when applicable. The 
remaining issue is access to servicemembers and reducing the barriers 
that impede the seamless movement of Total Force members between 
components. The COS capitalizes on the operational experience of the 
Active Guard and Reserve components and enhances a return on our 
training and education investment. Making the best use of our military 
talent pool, particularly in an era of increasingly constrained 
resources, translates to a more capable force at a lower cost.
    General McKinley. The COS is a human capital strategy rather than a 
program or policy, as a result the National Guard Bureau cannot at this 
time provide the number of Reserve component personnel that would be 
affected or a projected cost. However, this strategy would impact the 
majority of Reserve component personnel. For example, there are 
multiple barriers that cause interruptions in pay, benefits, and 
entitlements when Reserve component members transition the continuum of 
Active, Reserve, civilian, and inactive service. Removing these 
barriers would go a long way toward achieving the goal of retaining and 
effectively employing highly qualified military members throughout 
their careers.
    General Wyatt and General Stenner. Since 2007, the Air Reserve 
Personnel Center (ARPC) has processed approximately 583 joint 
applications (480 in the Joint Management Information System and 103 in 
the legacy system). Of the 583, only 13 officers are fully Joint 
Officer qualified (level III) while 34 are level IIs. Our numbers are 
low because all eligible Reserve officers have not yet applied. We are 
diligently communicating joint requirements and application processes.
    We are focusing our efforts on increasing the number of AFR 
positions on the Joint Duty Assignment Listing (JDAL) as well as slots 
in joint education schools. We are reviewing AFR billets (Active Guard 
and Reserve, IMA, and traditional reservists) that the joint matters 
definition and collaborating with combatant commanders' (COCOM) staffs 
to address those eligible for JDAL inclusion. This allows us to make 
the best use of existing resources and appropriately acknowledge the 
individuals working in those positions doing joint work. This effort is 
accompanied by pursuit of the training slots which must/should go with 
the JDAL billets in order to get our officers formal joint 
qualifications. Lastly, we have a deliberate methodology to move our 
younger officers--in particular our developmental education graduates--
into joint experiences early in preparation for future opportunities as 
senior officers.
    To date, the costs have been negligible. We are working with the 
COCOMs to re-designate already funded full-time and part-time billets 
into the JDAL. The only other costs at this time have been the manpower 
costs associated with administering this program, which equates to 
approximately three full-time equivalents. These costs have been 
absorbed into executing our existing personnel programs.
    General Carpenter and General Stultz. The COS is a human capital 
strategy rather than a program or policy, as a result the National 
Guard Bureau cannot at this time provide the number of Reserve 
component personnel that would be affected or a projected cost. 
However, this strategy would impact the majority of Reserve component 
personnel. For example, there are multiple barriers that cause 
interruptions in pay, benefits, and entitlements when Reserve component 
members transition the continuum of Active, Reserve, civilian, and 
inactive service. Removing these barriers would go a long way toward 
achieving the goal of retaining and effectively employing highly 
qualified military members throughout their careers.
    Admiral Debbink. Because the COS is a key element of a 
comprehensive personnel management strategy that provides service 
options to both Active and Reserve component sailors, every sailor in 
the Navy Total Force is affected by COS initiatives. COS is not a 
Reserve-centric imperative.
    Although initially there are costs associated with realignment of 
personnel and programs to support COS efforts, it is anticipated that 
the benefits of these initiatives when realized will be fiscally 
positive. Specifically, the COS value proposition benefits recruiting 
and training efforts, reducing costs as sailors are afforded flexible 
service options to seamlessly transition between Active component and 
Reserve component. COS will help our Navy more efficiently retain the 
talents of a skilled and ready workforce and provide a career continuum 
of meaningful and valued work. COS will ultimately allow an individual 
to have the option to serve over the course of a lifetime.
    General Kelly. We are unable to provide an accurate answer to this 
question within the allotted timeframe. This question will require 
detailed analysis by the Service Level Headquarters.

    8. Senator Burris. Secretary McCarthy and General McKinley, how 
does DOD plan to implement the COS policy?
    Secretary McCarthy. The Report of the Commission on the Guard and 
Reserve included 14 recommendations on the COS. In responding to these 
recommendations, the Department has made significant progress on the 
establishment of a joint duty career path for Reserve officers and 
enlisted members. The Department is developing a civilian skills data 
base to allow Reserve component members to enter and receive credit for 
civilian training and skills.
    Additionally, a Joint Service COS Working Group was established to 
identify and eliminate barriers to fielding capabilities by providing 
seamless transition between Total Force components (Active component, 
Reserve component, and civilians) to fill the Nation's requirements. 
Coordinated actions between Services result in retention of experienced 
and trained individuals and eliminate barriers that prevent transition 
between differing service commitments and between military and civilian 
service.
    The Working Group is addressing the reform of military personnel 
records information management, to include a review of the types of 
information (such as waivers and law enforcement infractions) that 
should be maintained throughout servicemembers' careers. It is also 
addressing the life cycle management of medical records. The Working 
Group continues to work with the Services on improving the seamless 
transition between the Active and Reserve components. As an example, 
Navy's Perform to Serve Program now has a SELRES option, whereby a 
member being released from Active Duty can affiliate into the Reserve 
component without having to process through recruiting.
    General McKinley. At the National Guard Bureau we will continue to 
work with DOD to implement a COS policy. Current ongoing initiatives 
supporting the COS strategy would significantly improve smooth 
integration of the Reserve component into the Total Force and enhance 
unity of effort thus improving overall military readiness. Several 
legislative or policy changes are under consideration that would better 
enable the Reserve component to serve as an operational force.

    9. Senator Burris. Secretary McCarthy and General McKinley, how 
does policy support the plan to operationalize the Reserve component?
    Secretary McCarthy. The DOD Directive 1200.17, published in October 
2008, established the overarching set of principles and policies to 
promote and support the management of the Reserve components as an 
operational force. It outlines the major stakeholders' responsibilities 
and defines terms of reference necessary to accomplish those 
responsibilities. The current policy based on this directive defines 
the duration and frequency for orders to Active Duty and implements the 
train, mobilize, deploy model that ensures our servicemembers are 
mission ready yet able to balance the needs of their families, civilian 
careers, and periodic military service.
    General McKinley. While the COS strategy is a broad concept under 
development rather than a policy per se, the strategy is critically 
important to continued success in operationalizing the Reserve 
component. Current ongoing initiatives supporting the COS strategy 
would significantly improve smooth integration of the Reserve component 
into the Total Force and enhance unity of effort thus improving overall 
military readiness.
                                 ______
                                 
               Questions Submitted by Senator John McCain
               force structure for the air national guard
    10. Senator McCain. General Wyatt, on June 26, 2009, the Air Force 
formally announced force structure realignments for fiscal year 2010, 
including the following for the Arizona ANG at Davis-Monthan Air Force 
Base: ``The 214th Reconnaissance Group has an increase of 217 drill 
positions to meet validated MQ-1 shortfalls. Total impact is an 
increase of 217 drill positions.'' From this statement, the Air Force 
clearly identified a need to meet validated MQ-1 (also known as the 
Predator) mission shortfalls. What is the current status of the 
increase of 217 positions for the 214th?
    General Wyatt. The original Air Force fiscal year 2010 Force 
Structure Announcement (FSA) that went public on 26 Jun 09, errantly 
reflected a +217 drill positions for the 214th Reconnaissance Group 
(RG). These were holdover positions that were the result of attempting 
to place manpower back into Arizona when the fiscal year 2010 Combat 
Air Forces (CAF) Redux was going to result in the loss of 30 F-16s from 
the 162 Fighter Wing in Tucson. When that force structure reduction for 
Tucson was later reversed by OSD, the 217 drill positions added to the 
214 RG Unit Manning Document were placed back at Tucson. This 
correction was made and reflected in the 21 Sep 09 version of the FSA. 
The increase of 217 positions at the 214 RG was to increase their 
capability beyond the one Combat Air Patrol (CAP) they currently fly. 
The 214 RG is sufficiently manned to fly their current Unit Type Code 
(UTC) tasking of one steady state MQ-1 CAP. No additional manpower 
resources are currently scheduled to be added to the 214 RG.

    11. Senator McCain. General Wyatt, is the ANG taking part in an Air 
Force study to determine the objective manning authorizations for an 
MQ-1 squadron? If so, can you give me an update on this action?
    General Wyatt. The NGB is in the process of developing a manpower 
study plan to validate the MQ-1 manpower requirement with the goal of 
completing the study by end of fiscal year 2010. Additionally, we have 
developed a ``model'' Unit Manning Document (UMD) for implementation at 
each of our MQ-1 units, incorporating distilled lessons learned from 
over 4 years of MQ-1 operations. Our goal is to standardize each of our 
existing units to this model, as well as ensure that each new unit is 
designed in accordance with the model UMD. This will ensure that units 
are manned efficiently and able to meet sustained operational demands.

    12. Senator McCain. General Wyatt, when will a final determination 
be made on the number of positions to be added to the 214th?
    General Wyatt. While the Air Force would like to increase the 
capacity at the 214th beyond their current 1 CAP UTC, fiscal 
constraints on manpower resources have prohibited an increase in 
capacity at the 214 RG without offsetting ANG manpower from other valid 
mission sets in the State of Arizona.

          facilities and infrastructure for the national guard
    13. Senator McCain. General McKinley, I am aware that over half of 
the 3,300 readiness centers (formerly known as armories), across the 
country needed to train 358,000 ARNG members are rated as inadequate to 
support their assigned mission by the Adjutant Generals in each State. 
The substandard conditions of these facilities, as well as locations 
that do not reflect current demographic trends, impact the ability to 
train and quickly respond to State requirements as well as Federal 
missions. Are you comfortable that the amounts proposed in the current 
Future Years Defense Plan to invest in readiness centers?
    General McKinley. The current Future Years Defense Program contains 
only a fraction of what is necessary in both military construction 
(MILCON) and Operations and Maintenance Restoration and Modernization 
to appropriately locate and adequately refurbish ARNG readiness centers 
to a standard that enables a 21st century Army National Guard 
operational reserve. The ARNG has a 14.2 million square foot shortfall 
in Readiness Centers. If the current level of funding in the Future 
Years Defense Program is sustained over the next decade, the average 
age of readiness centers will increase from 40 years to 50 years and 
will not address the current square footage shortfall. These readiness 
centers do not support training an operational force because they were 
designed and built prior to 1960, with lower training requirements, 
fewer personnel, and less equipment.

    14. Senator McCain. General McKinley, what is the National Guard 
Bureau doing to address this issue?
    General McKinley. The National Guard Bureau works with all 54 
States and Territories to work around solutions to its operational 
challenges. Facilities are being refurbished with modest migrations 
from ARNG Operations and Maintenance, Facilities Sustainment funds 
focused on those facilities that are most at need. An analytical 
process is used to identify the most pressing MILCON requirement, which 
determines the distribution of funding. We coordinate our requirements 
with the Army and Secretary of Defense and communicate the impacts of 
lack of funding.

    15. Senator McCain. General McKinley, how would you assess the risk 
to the mission from the conditions of readiness centers?
    General McKinley. I would characterize the risk as moderate and 
increasingly dire as the MILCON investment is redirected to other 
priorities. Buildings are brick and mortar, and unlike the soldier that 
adapts to adversity, will fail if not adequately cared for. Recruiting 
is adversely effected because most our facilities were built in 1960 
and earlier, and American demographics shifted the recruiting base away 
from those facilities. These older facilities do not have the 
infrastructure or size to accommodate today's training simulators and 
equipment to train an operational force.

    16. Senator McCain. General McKinley, what can be done to improve 
the usefulness of readiness centers to meet the needs of the Guard and 
each State?
    General McKinley. ARNG Readiness Centers provide unique 
capabilities to the State and community. With approximately 3,000 
Readiness Centers in virtually every community across the Nation, the 
ARNG provides not only a place for soldiers to drill but also a 
facility that often hosts events for soldiers and their families as 
well as other community activities. Many can serve as a shelter to 
large numbers of civilians in the event of natural or man-made 
disasters. Furthermore, since Readiness Centers are traditionally 
located in the heart of the community, they allow a location for 
National Guard soldiers to quickly assemble and draw equipment in order 
to support domestic support operations. Readiness Centers can also 
serve as logistics centers and resource distribution points for 
interagency crisis response.
    The age of current National Guard facilities threatens rapid 
response capability. The average age of a Readiness Center is 41 years 
old. Forty percent of all Readiness Centers are over 50 years old and 
don't meet space standards for administration, classrooms, supply, and 
maintenance.
    The ARNG needs significant investment in Readiness Centers in terms 
of both MILCON and O&M Restoration and Modernization funding. Worn out 
or obsolete Readiness Centers need to be replaced, and in many cases, 
new facilities should be opened near population centers that can 
support the authorized force structure. Other Readiness Centers can be 
refurbished and continue to be used for a few more decades. Building 
new facilities and refurbishing existing facilities, especially with 
energy saving features, will result in a more efficient, more prepared 
force that will support the mission as well as the local communities.
    Many Readiness Centers lack the space and quality currently 
authorized. This limits multi-agency operations and impacts 
organizational capabilities and effectiveness, specifically the ability 
to store equipment on site and allow rapid response to incidents. As a 
result, many do not meet existing requirements for storage space. In 
cases where facilities do not meet code requirements (Americans with 
Disabilities Act, restrooms for females, and sufficient parking), this 
reduces their ability to serve as community-based shelters. Many 
Readiness Centers are not optimally sited for emergency response, due 
to population shifts since the buildings were constructed.
    Many ARNG Training Sites rely on World War II wood barracks for 
billeting and lack authorized administrative/classroom facilities that 
would allow training on homeland defense and OCO tasks. Many of these 
facilities lack proper support for the IT requirements of today's 
technologically-oriented military. Also, many of these facilities have 
not kept pace with an evolving Army and do not have adequate 
administrative spaces for current manning/staffing requirements, or 
classroom space to efficiently train soldiers.
    Many of the older vehicle maintenance facilities do not have the 
capacity to adequately service today's inventory of vehicles, resulting 
in lower vehicle operational readiness rates that degrades collective 
training and vehicle availability in the event of an emergency. 
Maintenance bays are too small to accommodate larger vehicles. Cranes 
and lifting devices do not have the capacity to lift larger motors. 
Storage is inadequate to hold the size and quantity of spare parts 
required to maintain these vehicles. Parking surfaces around the 
maintenance facilities are too small to store all of the assigned 
vehicles. Also, new ARNG equipment has increased demand for space to 
store vehicles and parts.
    The ARNG has recently taken up the challenge to bring the older 
facilities ``up to code'' and make them energy efficient. Also, when 
the ARNG builds a new facility, the goal is to use innovative and 
sustainable building strategies. Recent ``green'' accomplishments 
include energy saving initiatives along with the reduction of hazardous 
waste.
    The Arizona Guard is using the Earth's natural insulation to heat 
and cool their 5,200 square-foot ECO-building. The building is burrowed 
into the ground within walls of recycled tires filled with compacted 
earth. The building also has an atrium that is designed to provide 
abundant natural light. The roof has cisterns that collect rain water-
runoff. On the grounds the facility has 18-kilowatt photovoltaic wind 
turbines. The State has a central energy control system that controls 
the indoor climate of the ECO building as well as many other public 
buildings across the State.
    The Michigan Guard revamped their re-painting facility to use non-
toxic paints and paint stripping processes. They switched from a 
solvent-based paint to a water-based paint and shifted from a hazardous 
working environment to one that is virtually pollution free for the 
environment and for the workers. They also shifted from a toxic paint 
stripping process to a water-based solution using high-pressure water 
jets. By filtering and regenerating waste water, they reduced waste to 
about 2 to 3 pounds per vehicle.
    The Colorado Guard has a new Army Aviation Support Facility 
constructed primarily from recycled and locally-made materials. The 
facility is lighted almost entirely by sunlight during day time 
operations. The facility uses roof runoff to irrigate drought-resistant 
plants. The facility also has a unique modular design that accommodates 
a full-time staff of 70 and ``expands'' to handle the drill weekend 
staff of 350 soldiers.
    The Minnesota Guard has a new model for readiness centers with 
Federal, State, and community missions. Ten of Minnesota's 63 readiness 
centers are designed as ``hybrid'' training and community centers. 
These hybrid centers have amenities such as ice rinks, gyms, banquet 
halls, and exhibition space.
    The Hawaii Guard has taken an interagency approach breaking ground 
with a new facility they will share with the USAR and the Hawaii Office 
of Veterans Services. This facility will make use of photovoltaic 
panels to help reduce energy usage and costs.
    The New Mexico Guard is building a 30-module 54-kilowatt 
photovoltaic solar farm. This solar project will not only reduce the 
amount of electricity bought from the service provider but will also 
reduce the amount of greenhouse gases generated by the consumption. The 
New Jersey Guard recently completed a 170-kilowatt photovoltaic car 
port. This car port takes underutilized space to provide shelter for 
parked vehicles and generates electricity for some of Sea Girt training 
site facilities. The renewable energy produced will reduce 
approximately 165 tons of greenhouse gas emissions annually.
    Projects include the construction of a new Readiness Center in 
Owensboro, KY, to replace a building whose foundation is in danger of 
failing due to severe long-term ground water infiltration. The 
construction of the second and final phase of a Regional Training 
Institute in Bangor, ME, is currently using inadequate World War II era 
facilities. A new construction project supplies potable water to the 
Mead, NE, training site because existing water supply infrastructure is 
outdated and undersized for demand. Infrastructure site work to stops 
the erosion caused by the rising level of an adjacent lake at Camp 
Grafton in North Dakota.
    In light of the critical importance of our Readiness Centers, the 
ARNG plans to conduct a nationwide assessment of our facilities so that 
we can prioritize our efforts in terms of current infrastructure 
conditions and mission requirements. The results of this planned study 
should ensure optimal return on the investment made in these 
installations.

       proposed funding for facilities for the air force reserves
    17. Senator McCain. General Stenner, the AFR has almost 3,000 
facilities at 63 locations supporting 71,000 personnel and 348 
aircraft. With all these facilities and operations, the President's 
budget for fiscal year 2011 proposes only one MILCON project for the 
AFR, a $3.4 million maintenance facility at Patrick Air Force Base, FL, 
at a cost of $3.4 million buried in the total amount of $1.5 billion 
requested for Air Force MILCON. Why is there only one MILCON project in 
the President's budget request?
    General Stenner. During fiscal year 2011 budget formulation, the 
three components of the Air Force (Active Duty, AFR, and ANG) took risk 
in current mission MILCON to fund other essential priorities. The Air 
Force decision was to fund the top current mission priority for each 
Major Command plus new mission requirements. The AFR top current 
mission priority is included in the budget request, and there were no 
new mission requirements for this year which resulted in the one MILCON 
project for the AFR.

    18. Senator McCain. General Stenner, is this a fair and accurate 
reflection of your requirements?
    General Stenner. One current mission MILCON project per year beyond 
this budget year will not allow the AFR to recapitalize our 
infrastructure at an acceptable rate. The AFR currently has over a $1.2 
billion backlog. Reserve component facilities directly correlate to 
readiness as well as quality of life.

    19. Senator McCain. General Stenner, are AFR facilities really in 
such great shape that practically no MILCON funding is needed to 
address facility conditions?
    General Stenner. No, this level of funding for one project was a 
risk taken to fund other priorities. One project per year beyond this 
fiscal year will not allow recapitalization of our aging facilities and 
will substantially increase our current $1.2 billion backlog.

    20. Senator McCain. General Stenner, in your opinion, is the Air 
Force taking steps to correct this disparity?
    General Stenner. The Air Force plans to look much more closely at 
the distribution of MILCON funding in the upcoming Program Objective 
Memorandum (POM) to ensure that all three components' requirements are 
equitably addressed.

          base realignment and closure implementation progress
    21. Senator McCain. General Kelly, Base Realignment and Closure 
(BRAC) 2005 created many challenges for our Reserve Forces. How would 
you assess your Service's progress in implementing BRAC requirements?
    General Kelly. Marine Forces Reserve is executing 25 of the 47 
Marine Corps BRAC Projects. MARFORRES is currently planning for 
successful completion of all BRAC closures and moves by BRAC deadline 
of September 15, 2011. All projects have final siting approval with 
majority under construction. Of special note are the closure of 
Mobilization Command in Kansas City and consolidation with other 
headquarters elements of MARFORRES at the Federal City Project in New 
Orleans. The Marine Compound in New Orleans has recently been 
designated as Marine Corps Support Facility, New Orleans and the 
project is currently ahead of schedule with opening planned for June 
2011. Currently, 3 of the 25 projects (Akron, OH; Lehigh Valley, PA; 
and Brunswick, ME) are being tracked for completion in fourth quarter 
of 2011. These three projects are being managed closely by MARFORRES, 
Navy BRAC Program Managers, and HQMC to seek on-time execution, but 
mitigation plans are be developed for any further slippage to 
accommodate closure and movement into alternate facilities if required. 
Funding tails for operations and maintenance post BRAC are being 
refined and updated for inclusion in future budget submissions.

    22. Senator McCain. General Kelly, as the Commander, Marine Forces 
Reserve, and Marine Forces North, can you please tell me about the U.S. 
Marine Corps' long-term commitment to New Orleans and your vision for 
your headquarters and continued presence there?
    General Kelly. New Orleans has long been a Marine Corps town, and 
we intend to continue this strong relationship with the city and the 
region. The greater New Orleans area is an important strategic port for 
the country because of the Mississippi River, so it is imperative we 
have a strong military presence here. We are proud it is a strong 
Marine Corps presence.
    First, we are constructing the Marine Corps Support Facility, a 
411,320-square foot building at the Federal City campus located in 
Algiers. This $175 million building will house the MARFORRES and 
MARFORNORTH staffs, and will be a permanent fixture of the Marine 
Corps' ongoing commitment to the people of New Orleans. We expect to 
have our troops permanently occupying the facility around June 2011.
    Another strong commitment to New Orleans is exemplified by the 
proposed $1.5 million repair and renovation of Quarters A, located near 
the Marine Corps Support Facility on the Mississippi River. This will 
be the permanent home of Commander, Marine Forces Reserve, which is a 
three-star billet. It has been home to the past two Marine Forces 
Reserve Commanders, and I intend to continue this tradition.
    We have a solid connection with the people of New Orleans, as 
evidenced by our robust community relations program. My Marines are 
volunteering their time rebuilding homes in the Ninth Ward, 
constructing playgrounds for children across town, working in the 
wetlands, and collecting Christmas toys for the underprivileged. I 
envision that connection will grow stronger over the years as the 
Marine Corps continues to call New Orleans home.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
               force structure for the air national guard
    23. Senator Graham. General Wyatt, on May 11, 2010, the Air Force 
issued its fiscal year 2011 Force Structure Announcement under which 
the 169th Fighter Wing at McEntire Joint National Guard Base is 
scheduled to lose one WC-130H from backup aircraft inventory (BAI) due 
to mission requirements. I understand that Florida and Louisiana are 
also scheduled to lose one C-130 each. I am very concerned with this 
move as South Carolina, Louisiana, and Florida are hurricane States. In 
addition, these aircraft continue to provide critical support to the 
Department of Homeland Security, Drug Enforcement Administration, 
Federal Emergency Management Agency, South Carolina Civil Support Team, 
National Guard, and the Air Force. Why take away 100 percent of these 
three hurricane States' airlift capability, by completely removing this 
capability, does this compromise any facet of their mission?
    General Wyatt. The decision to move these BAI aircraft to other 
higher priority mission needs was an Air Force Corporate Process 
decision in the fiscal year 2011 Adjusted Program Objective Memorandum 
(APOM). These three aircraft represent 2 percent of the entire ANG C-
130 Tactical Airlift fleet and only 1.5 percent of the total ANG 
airlift capability. We believe our remaining capability will be more 
than sufficient to respond to the Governor's request for assistance to 
a State emergency.
    The ANG still will continue to have enormous airlift capacity in 
the south to support natural or man-made disasters:

    <bullet>  8 C-130s each at Savannah, GA; Nashville, TN; and Little 
Rock, AK
    <bullet>  8 C-5s at Memphis, TN
    <bullet>  8 C-17s Jackson, MS
    <bullet>  4 C-27Js at Meridian, MS, with their conversion in fiscal 
year 2012

    24. Senator Graham. General Wyatt, what percentage of all ANG 
airlift missions did these three aircraft fly in the past year?
    General Wyatt. In 2009, 12,935.5 Mission Ready Airlift (MRA) hours 
were flown; the three Fighter Support Aircraft (FSA) flew 275.1 of 
those hours. Given this data, the Fighter Support Aircraft flew 2.13 
percent of the MRA missions. Current 2010 data:

    <bullet>  Total MRA hours flown: 6,296.7
    <bullet>  FSA hours flown: 216.7
    <bullet>  Percent of overall missions for FSA: 3.44

    25. Senator Graham. General Wyatt, what percentage of the flying 
hours flown by these three aircraft in the past year were actual 
operational missions as opposed to training missions?
    General Wyatt. All missions flown by these aircraft utilize ANG 
flight training hours, whether they are supporting a mission or 
proficiency/training flights. Typically, these missions are broken down 
into MRA, local training, unit- or State-directed, border patrol, and 
Hurricane Relief for tracking purposes. In 2010, the three aircraft 
have flown 357.6 hours, of which, 56 hours were dedicated to local 
training and aircrew proficiency, with 301.6 hours dedicated to other 
mission sets.
2009 Data:
    <bullet>  695.1 hours flown by the three aircraft
    <bullet>  121.9 hours for training/proficiency
    <bullet>  573.2 hours for other mission sets

    26. Senator Graham. General Wyatt, what savings do these three 
planes save the American taxpayer in travel and transportation costs 
for the supported Fighter Wings, the ARNG, and the National Guard 
Bureau?
    General Wyatt. The Fighter Support Aircraft represent a very small 
percentage of overall ANG airlift capacity and MRA hours. We believe 
our remaining airlift capability will be more than sufficient to meet 
the Governor's request for assistance to a State emergency. Any 
realized cost savings lost by the departure of these aircraft, is more 
than outweighed by the need to realign the tactical airlift fleet of 
aircraft and retire costly legacy aircraft.

    27. Senator Graham. General Wyatt, how many C-130s are there in the 
BAI? Assuming there are dozens of aircraft in the C-130 BAI, why remove 
these three planes from performing vital homeland security missions or 
responding to natural disasters and not utilize three planes from the 
BAI?
    General Wyatt. There is currently one C-130 BAI and five WC-130 BAI 
in the ANG inventory for fiscal year 2011. BAI aircraft are not funded 
in the budget and are intended to be spare aircraft for regular C-130 
units. These six aircraft represent just 4 percent of the entire ANG C-
130 Tactical Airlift Fleet. In the event of a homeland security 
incident or natural disaster, the ANG stands ready to meet any request 
for assistance that exceeds any impacted State's organic 
responsibility. The ANG stands ready to respond to any Governor's 
request for assistance to a State emergency.
    Since 2007, the three aircraft have flown a total of 2,803.1 hours 
under the following mission sets:

      Mission Ready Airlift - 1,014.8 hours
      Unit/State directed - 1,190.1 hours
      Border Patrol - 194.5 hours
      Training/proficiency - 404.7 hours
      Hurricane Relief - 8.0 hours
      NGB Directed - 11.0 hours

              access under existing laws to reserve units
    28. Senator Graham. Secretary McCarthy, in your written testimony, 
you state your view that the National Guard and Reserve should be ``the 
force of first choice, for requirements for which they are well 
suited.'' We need to know more about the impediments to achieving this 
goal so that rapid--but equitable--access to the Reserve components can 
be achieved. Do you think the current mobilization authorities are 
sufficiently flexible and are changes in legislation needed?
    Secretary McCarthy. I believe that current mobilization authorities 
are fairly flexible but may present an impediment to future use of the 
Reserve component as an operational force in some situations. We are 
actively studying alternative proposals to either request new 
legislation or suggest modifications of existing legislation.

    29. Senator Graham. Secretary McCarthy, how would you approach the 
task of creating activation authority, short of a Presidential call up, 
that balances the need for readiness and response with dwell time and 
recognition that reservists must be able to stand down?
    Secretary McCarthy. I agree that any proposed authority needs to 
provide a balance between the servicemember's need for dwell time, 
their response and readiness posture, and our Nation's operational 
requirements.
    I support the idea of an access authority to support continued 
future use of Reserve component capabilities as an operational force. 
This authority will need to provide assured access that creates 
confidence with the gaining force commander that the Reserve components 
are reliable sourcing solutions for predictable missions.
    We are exploring the possibility of requesting that Congress create 
a limited access authority short of a Presidential call up, or, perhaps 
revising the wording of the existing Presidential call up that 
facilitates the balanced, judicious, and prudent use of the Reserve 
components as an operational force in our Nation's future worldwide 
security strategy.

    30. Senator Graham. Secretary McCarthy, is the best approach to do 
this solely on a voluntary basis, through service agreements or do we 
need a more flexible involuntary call up?
    Secretary McCarthy. We believe the best approach is to rely on 
volunteerism as an effective way to muster certain capabilities on very 
short timelines. Service agreements are one possible way to increase 
the effectiveness of volunteer duty over a broader set of capabilities. 
We want to ensure a commitment to predictable and periodic obligated 
service as a condition of membership in selected Reserve units. 
However, when we cannot execute our Nation's security mission solely 
based on volunteers, we may require some type of mandatory call up.

    31. Senator Graham. Secretary McCarthy, what do you see as the most 
significant obstacle to realizing a truly operational reserve in the 
post-OCO steady state?
    Secretary McCarthy. DOD worldwide deployments have forced all of 
the Services to acknowledge the fact that the Reserve components are an 
operational force that bring essential capabilities to the battlespace. 
Even an evolutionary paradigm shift, such as the change in our Reserve 
component's expectations of utilization, encounters various levels of 
support. There needs to be a fully embraced cultural shift that 
recognizes that the Reserves are a force of first choice. To 
successfully bring about this shift we need assured access to the 
Reserve units, breeding confidence in the gaining force commander.

                        recruiting and retention
    32. Senator Graham. General McKinley, General Wyatt, and General 
Carpenter, your written testimony indicates that recruiting and 
retention in the National Guard is good, but that there are shortfalls 
in the medical area. Please discuss how each of the Army and ANG are 
doing in recruiting top quality personnel and retaining soldiers and 
airmen in the critical skills you need.
    General McKinley. The ARNG has initiated a medical recruiting 
initiative that targets medical professionals. The goal of the program 
is to initiate a viral marketing effect of recruitment, in which newly 
accessed medical, dental, and physician assistant students assist in 
peer-to-peer recruitment. In addition, the ARNG continues to 
aggressively improve retention of health care professional through 
programs such as the Health Professional Loan Repayment Plan, and 
Retention Bonus programs, which provide incentives from $5,000-25,000 
depending on the critical health specialty.
    The ARNG has also initiated specific programs aimed to address 
shortages in other critical skills. The Military Intelligence Readiness 
Improvement Program commenced in 2004 as the cornerstone of the 
Director of the ARNG's Military Intelligence ``Get Well Plan.'' The 
success of the Military Intelligence Readiness Improvement Program far 
surpassed expectations and contributed significantly to the increase in 
Military Intelligence Personnel Readiness throughout the ARNG.
    In addition, the Low Density Recruiting Program was created to 
address the challenges within other High-Demand/Low-Density Military 
Occupational Skills (MOS), and to more appropriately define expansion 
outside of the Military Intelligence Career Management Field. The key 
component of the program is the ability to facilitate the assignment of 
duty MOS qualification to soldiers with limited geographical 
constraints.
    The Low Density Recruiting Program also works as a tool to retain 
critical personnel in qualified positions who would otherwise require 
training in a different MOS due to the location of their residence in 
respect to the location of their assigned unit.
    General Wyatt. The ARNG has initiated a medical recruiting 
initiative that targets medical professionals. The goal of the program 
is to initiate a viral marketing effect of recruitment, in which newly 
accessed medical, dental, and physician assistant students assist in 
peer-to-peer recruitment. In addition, the ARNG continues to 
aggressively improve retention of health care professional through 
programs such as the Health Professional Loan Repayment Plan, and 
Retention Bonus programs, which provide incentives from $5,000-25,000 
depending on the critical health specialty.
    The ARNG has also initiated specific programs aimed to address 
shortages in other critical skills. The Military Intelligence Readiness 
Improvement Program commenced in 2004 as the cornerstone of the 
Director of the ARNG's Military Intelligence ``Get Well Plan.'' The 
success of the Military Intelligence Readiness Improvement Program far 
surpassed expectations and contributed significantly to the increase in 
Military Intelligence Personnel Readiness throughout the ARNG.
    In addition, the Low Density Recruiting Program was created to 
address the challenges within other High Demand Low Density Military 
Occupational Skills (MOS), and to more appropriately define expansion 
outside of the Military Intelligence Career Management Field. The key 
component of the program is the ability to facilitate the assignment of 
Duty MOS Qualification to soldiers with limited geographical 
constraints. The Low Density Recruiting Program also works as a tool to 
retain critical personnel in qualified positions who would otherwise 
require training in a different MOS due to the location of their 
residence in respect to the location of their assigned unit.
    In regards to the ANG, the advertising branch of the ANG, the 
Recruiting and Retention Directorate, will be launching a precision 
advertising campaign aimed at generating leads to fill critical Health 
Professionals vacancies nationwide. The advertising mediums being 
utilized for this campaign are online search engine marketing and 
online banner ads. All interested individuals will click through to a 
newly designed Health Professional specific landing page www.goang.com/
hp, providing a single source opportunity sharing platform with 
tracking on the effectiveness of the ads. The projected launch of this 
program is July 2010.
    General Carpenter. The ARNG has initiated a medical recruiting 
initiative that targets medical professionals. The goal of the program 
is to initiate a viral marketing effect of recruitment, in which newly 
accessed medical, dental, and physician assistant students assist in 
peer-to-peer recruitment. In addition, the ARNG continues to 
aggressively improve retention of health care professional through 
programs such as the Health Professional Loan Repayment Plan, and 
Retention Bonus programs, which provide incentives from $5,000-25,000 
depending on the critical health specialty.
    The ARNG has also initiated specific programs aimed to address 
shortages in other critical skills. The Military Intelligence Readiness 
Improvement Program commenced in 2004 as the cornerstone of the 
Director of the ARNG's Military Intelligence ``Get Well Plan.'' The 
success of the Military Intelligence Readiness Improvement Program far 
surpassed expectations and contributed significantly to the increase in 
Military Intelligence Personnel Readiness throughout the ARNG.
    In addition, the Low Density Recruiting Program was created to 
address the challenges within other High Demand Low Density Military 
Occupational Skills (MOS), and to more appropriately define expansion 
outside of the Military Intelligence Career Management Field. The key 
component of the program is the ability to facilitate the assignment of 
Duty MOS Qualification to soldiers with limited geographical 
constraints.
    The Low Density Recruiting Program also works as a tool to retain 
critical personnel in qualified positions who would otherwise require 
training in a different MOS due to the location of their residence in 
respect to the location of their assigned unit.

    33. Senator Graham. General McKinley, General Wyatt, and General 
Carpenter, what, specifically, is the National Guard doing to improve 
its recruiting and retention of health care professionals?
    General McKinley. The ARNG has initiated a medical recruiting 
initiative that targets medical professionals. This program will place 
newly accessed medical, dental, and physician assistant students on T-
32 Additional Duty Operation Support (ADOS) orders to serve as ARNG 
Medical and Dental Student Recruiters (ASRs) for 1,094 days or the 
completion of their educational program. These positions will be 
available on a first-come, first-served basis and students in all 
States and Territories will be able to participate.
    The goal of this program is to initiate a viral marketing effect of 
recruitment in which the student recruiters assist in peer-to-peer 
recruitment. All ARNG student recruiters will be missioned, and 
performance of this mission will impact orders renewal. Newly 
identified personnel recruited would be afforded the opportunity to 
participate in the ARNG Student Recruiters Programs. The annual cap of 
newly appointed members of the ARNG student recruiters force would be 
200 accessions, with a total program limit of 600.
    The ARNG also continues to aggressively improve the retention of 
health care professional through its current retention programs. This 
includes the Health Professional Loan Repayment Plan, and Special 
Retention Bonuses, where incentives range from $5,000-25,000 depending 
on the critical health specialty.
    The ANG also offers cash bonus, loan repayment, and residency 
stipend to Health Professionals in order to fill critical wartime 
specialties. The Recruiting Operations branch of the ANG Recruiting and 
Retention Directorate has implemented a comprehensive training program 
to improve the officer recruiting and accession process throughout the 
ANG. This training is provided to recruiters, retainers, personnel 
specialists, medical service corps officers, and all others who have a 
role in the Health Professional recruiting and accession process.
    General Wyatt. The ARNG has initiated a medical recruiting 
initiative that targets medical professionals. This program will place 
newly accessed medical, dental, and physician assistant students on T-
32 ADOS orders to serve as ASRs for 1,094 days or the completion of 
their educational program. These positions will be available on a first 
come, first served basis and students in all States and Territories 
will be able to participate.
    The goal of this program is to initiate a viral marketing effect of 
recruitment in which the student recruiters assist in peer-to-peer 
recruitment. All ARNG student recruiters will be missioned, and 
performance of this mission will impact orders renewal. Newly 
identified personnel recruited would be afforded the opportunity to 
participate in the ARNG Student Recruiters Programs. The annual cap of 
newly appointed members of the ARNG student recruiters force would be 
200 accessions, with a total program limit of 600.
    The ARNG also continues to aggressively improve the retention of 
health care professional through its current retention programs. This 
includes the Health Professional Loan Repayment Plan, and Special 
Retention Bonuses, where incentives range from $5,000-25,000 depending 
on the critical health specialty.
    The ANG also offers cash bonus, loan repayment, and residency 
stipend to health professionals in order to fill critical wartime 
specialties. The Recruiting Operations branch of the ANG Recruiting and 
Retention Directorate has implemented a comprehensive training program 
to improve the officer recruiting and accession process throughout the 
ANG. This training is provided to Recruiters, Retainers, Personnel 
Specialists, Medical Service Corps Officers, and all others who have a 
role in the Health Professional recruiting and accession process.
    General Carpenter. The ARNG has initiated a medical recruiting 
initiative that targets medical professionals. This program will place 
newly accessed medical, dental, and physician assistant students on T-
32 ADOS orders to serve as ASRs for 1,094 days or the completion of 
their educational program. These positions will be available on a first 
come, first served basis and students in all States and Territories 
will be able to participate.
    The goal of this program is to initiate a viral marketing effect of 
recruitment in which the student recruiters assist in peer-to-peer 
recruitment. All ARNG student recruiters will be missioned, and 
performance of this mission will impact orders renewal. Newly 
identified personnel recruited would be afforded the opportunity to 
participate in the ARNG Student Recruiters Programs. The annual cap of 
newly appointed members of the ARNG student recruiters force would be 
200 accessions, with a total program limit of 600.
    The ARNG also continues to aggressively improve the retention of 
health care professional through its current retention programs. This 
includes the Health Professional Loan Repayment Plan, and Special 
Retention Bonuses, where incentives range from $5,000-25,000 depending 
on the critical health speciality.

    recommendations of the commission on national guard and reserves
    34. Senator Graham. Secretary McCarthy, you have indicated that 
implementing the recommendations of the Commission on National Guard 
and Reserves (CNGR) that have been approved by Secretary Gates is among 
your highest priorities. We have been visited by some of the 
commissioners and were glad to see that you have called on them to 
assist you in this regard. Could you discuss how you plan to go about 
this task and what you view as the most pressing actions that need to 
be taken?
    Secretary McCarthy. The Commission published their final report and 
there were 53 recommendations in the report that the Secretary of 
Defense accepted for action. Implementing these approved action plans 
is among my highest priorities. In order to ensure proper execution of 
these plans, I have restructured my office and assigned a single point 
of contact to further the CNGR implementation efforts and related 
strategic initiatives. Many of the actions called for by the Secretary 
of Defense have already been completed and others have continued down 
their multiyear implementation cycles. The Department's major 
accomplishments include:

        <bullet> We published DOD Directive 1200.17, Managing the 
        Reserve Components as an Operational Force, providing the basis 
        for initial strategic planning. It was essential in setting the 
        vision and outlining the nine principles to guide the 
        management of the Reserve component as an operational force.
        <bullet> Reserve units are part of force generation models that 
        will allow more predictability to Reserve component members.
        <bullet> U.S. Pacific Command, U.S. Northern Command, and The 
        National Guard Bureau have published various Concept of 
        Operations Plans for support to Civil Authorities.
        <bullet> Early access to TRICARE has been extended up to 180 
        days prior to activation.
        <bullet> DOD established the Yellow Ribbon Program office to 
        coordinate post-deployment reintegration efforts with the Guard 
        and Reserve.

    We plan to continue to stay in touch with stakeholders who are 
committed to fully integrating the Reserve components into the Total 
Force. Future efforts include:

        <bullet> Identification and elimination of cultural prejudices 
        that stand in the way of continued Total Force integration.
        <bullet> Ensuring that Reserve component readiness issues are 
        programmed and funded in the future.
        <bullet> Ensuring adequate support is available to the families 
        and employers of Reserve component members. Longer advance 
        notice for mobilizations will lead to less friction and better 
        preparation for Reserve component members, their families, and 
        employers.

         medical and dental readiness of the reserve components
    35. Senator Graham. General Carpenter, we know that historically 
maintaining medical and dental readiness for the Reserve and Guard has 
been a significant challenge--especially for the ground forces. DOD 
reported that for fiscal year 2008, only 60 percent of the ARNG met the 
Individual Medical Readiness standard. How would you assess the ARNG 
progress in achieving individual medical readiness goals?
    General Carpenter. To date, 63 percent of the ARNG meets DOD 
Individual Medical Readiness standards. From fiscal year 2008 to the 
end of fiscal year 2009, the Army Fully Medically Ready percentage 
increased from 35 percent to 46 percent. The ARNG Dental Readiness GO 
rate at the mobilization platforms has increased from 74 percent in 
fiscal year 2008, to 84 percent in 2010 year to date. The increase can 
be attributed to early and sustained individual soldier medical 
readiness screening through the use of annual Soldier Readiness 
Processing (SRP) events. These SRPs include Periodic Health 
Assessments, dental screening and identification of all Dental 
Readiness Class (DRC) 3 soldiers, and their overall Medical Readiness 
Classification (MRC) 3 issues. MRC 3 issues are documented and 
aggressively case managed to include correction of identified DRC 3 
issues using the Army Selected Reserve Dental Readiness System.

    36. Senator Graham. General Carpenter, what percent of ARNG members 
are currently nondeployable due to medical or dental conditions?
    General Carpenter. Twenty-three percent of ARNG soldiers are 
medically nondeployable, while 11 percent are nondeployable due to 
dental conditions. Issues affecting medical readiness are documented 
and aggressively case managed, including correction of identified 
dental readiness issues using the Army Selected Reserve Dental 
Readiness System. A pilot program slated to begin in fiscal year 2011 
identifies select deploying Medical Readiness Classification 3 soldiers 
for correction and treatment of a deployment limiting medical 
condition.

 mental health outreach for members of the guard and reserve and their 
                                families
    37. Senator Graham. General Carpenter, we know that as many as 15 
percent of our servicemembers who have deployed are returning with some 
kind of mental health need, and that extends to family members as well. 
In the face of a shortage of mental health providers nationwide, are we 
able to meet the needs of members of the Reserve and their families in 
this important area?
    General Carpenter. Yes, currently the ARNG and their families have 
access to contracted civilian behavioral health providers at no cost 
through Military Family Life Consultants, Military OneSource, Directors 
of Psychological Health and various non-profit organizations. The 
Department of Veterans Affairs and Vet Centers continue to expand their 
services and outreach. TRICARE has behavioral health providers, which 
ARNG soldiers can access through the Transitional Assistance Management 
Program, and their families can access through TRICARE Reserve Select.

    38. Senator Graham. General Carpenter, some say that embedding 
counselors within Reserve and Guard units is an effective approach. Do 
you agree? What works and what doesn't?
    General Carpenter. The Army continues to improve the equipment on 
hand (EOH) rates as well as the modernization levels for both the ARNG 
and the USAR. The Army sees this as critical to the transformation of 
the Reserve component from a strategic to an operational reserve. The 
Army Equipping Strategy identifies equipping goals for units as they 
progress through the Army Force Generation (ARFORGEN) cycle. These 
equipping goals apply equally across all three components--Active, 
ARNG, and USAR.
    Beginning in fiscal year 2006, the Army significantly increased its 
investment in ARNG equipment, allocating approximately $28.7 billion 
for new procurement and recapitalization between fiscal year 2006 and 
fiscal year 2010. Of particular significance, the ARNG was fully 
equipped with Single Channel Ground and Airborne Radio System 
(SINCGARS) radios and UH-60 Blackhawk helicopters in fiscal year 2009 
and is on track to complete fielding of M4 rifles by the end of fiscal 
year 2010. However, the Blackhawk fleet is still only partially 
modernized and current funding efforts will not produce a modernized 
fleet until the end of fiscal year 2025. Despite the increased 
investment since fiscal year 2006, the ARNG still has critical 
shortfalls and modernization gaps in the truck fleet, helicopter fleet, 
and digital enablers. In addition to supporting OCO, this equipment is 
critical to supporting the ARNG's Homeland Defense/Defense Support to 
Civil Authorities (HLD/DSCA) missions.
Modernization
    The Army is committed to equipping soldiers going into harm's way 
with the most capable systems possible. This equipping strategy applies 
to Reserve component units as well as Active component units and is 
designed to modernize the USAR and ARNG on par with the Active 
component.
Transparency
    The ``CNGR''--also known as the ``Punaro Commission''--provided DOD 
with a set of recommendations designed to improve the operational 
readiness of National Guard and Reserve Forces. Two of the 
recommendations (CNGR #42 and #43) directed DOD to increase the 
transparency of equipment requirements, funding, procurement, and 
delivery. Over the past year, the Army has significantly improved 
transparency within its equipment procurement and distribution 
processes.
    Based on the current Army Equipping Strategy, the Army's commitment 
to equipping soldiers going into harm's way with the most capable 
systems possible and the significant increase in transparency, I am 
confident the ARNG is receiving modern equipment which is compatible 
with the Active component.

          priority for funding of medical and dental readiness
    39. Senator Graham. General Carpenter, despite the importance of 
medical and dental readiness, at the end of the day, my sense is that 
funding for medical and dental readiness does not compete well with 
other priorities, such as training and equipment and that the real 
solution is day-in, day-out leadership within Reserve and Guard units. 
What is the best solution to ensure that funding for readiness includes 
and improves medical and dental readiness?
    General Carpenter. The question can be addressed by increasing 
funding to the appropriate level at a fixed amount not to be reduced 
within the fiscal year by internal taxes or external Department of the 
Army directed bills. The ARNG also needs additional full-time medical 
personnel at the State level to identify and case manage soldiers 
considered non-deployable due to medical and dental issues.

              access under existing laws to reserve units
    40. Senator Graham. General Stultz, Admiral Debbink, General 
Stenner, and General Kelly, in written testimony, you echo General 
McCarthy's view that the Reserve should be ``the force of first choice, 
for requirements for which they are well suited.'' But you note that we 
need better access to the unique units and capabilities in the Reserve 
in a timelier manner. Please comment on this and be specific. We need 
to know what your concerns are and how to address them.
    General Stultz. Yes, I do believe the Nation could and should reap 
more benefits from increased use of the USAR, specifically in 
operations requiring extensive CS/CSS capabilities.
    Our recent history has shown us that such capabilities are 
oftentimes required in unexpected places with little or no advanced 
warning. Our Army's rapid deployment capability is sufficient to show 
timely responsiveness; but, primarily depending on the Active component 
to demonstrate national will in such instances puts us at risk of 
unnecessarily straining the force, especially if such capabilities are 
required in multiple places. To provide the Nation (and our Army) with 
flexibility and accessible depth enables us to maximize the unique 
capabilities of the USAR to help the combatant commander to build 
partner nation capacity and/or protect and sustain human life anywhere 
on the globe. From my perspective, this can be efficiently accomplished 
through legislation that permits the Secretary of Defense to quickly 
activate reservists for unexpected or last minute requests for 
assistance that, if responded to in a timely manner, can go a long way 
in advancing U.S. interests abroad. This permissive authority would 
also have to be supported by legislation that results in the provision 
of supportive services to the soldier and the soldier's family as soon 
as the soldier is notified of a pending mobilization and deployment.
    Admiral Debbink. My specific concerns are:

    (1)  The need to establish the legal authority to most effectively 
delegate access to the Reserve components.
    (2)  The need to plan for sustainable funding in a post-OCO 
environment that will ensure the Services have adequate resources to 
access the strategic depth and operational capabilities of their 
Reserve components.

    Authorities to access the Reserve component during rapidly emerging 
situations, (humanitarian assistance, disaster response, as well as 
other low-intensity crises) should be considered. Amending title 10 to 
create a new statute that allows the President to delegate authority 
through the Secretary of Defense to the Secretaries of the Services, 
the ability to respond to requirements with the most appropriate and 
accessible Forces from either the Active component or Reserve 
component, would permit better access allowing the Reserve component to 
fill the requirements for which they are best suited.
    We should review our budgeting practices for operations in a post-
OCO environment. While the current budget combined with associated OCO 
supplementals support the present use of the Navy Reserve, we should 
plan and budget for the level, sustainable funding of both the required 
training and operational employment of certain elements of the Navy 
Reserve.
    General Stenner. From a legal perspective, the current proposed 
legislative change addressing the legal constraints of the use of Air 
Reserve Technicians (ARTs) will help provide better access to the 
unique units and capabilities in the Reserve in a timelier manner; 
specifically, the need for flexibility in ART assignments. We must be 
able to place/assign ARTs outside of the traditional unit construct at 
all levels of command and in the IMA program. We also need more 
flexibility to deploy ARTs.
    The second current legislative proposal relating to ART Mandatory 
Separation Dates (MSD) will also help provide better access to the 
unique units and capabilities in the Reserve in a timelier manner. 
Under existing law, the AFR is mandated to extend an ART officer or 
enlisted member's MSD to age 60 at the election of the ART. This 
severely limits career advancement in the ART world. We have proposed a 
change to the law that would give the commander the discretion to 
extend the MSD.
    General Kelly. The Marine Corps has not hesitated to employ the 
Reserves operationally and we concur with the premise that the Reserves 
should not be the ``force of last resort'' as viewed during the Cold 
War. Predictability is significant to tapping into Reserve 
capabilities. The Marine Corps Reserve can be the first choice for 
recurring or predictable missions within their capabilities as we've 
demonstrated with success over the last 8 years. The Marine Corps has 
embraced that premise by ensuring that Marine Corps Reserve 
capabilities are an integral part of the available operating forces 
through our Force Generation Model. We're really not talking about 
unique capabilities or units, but the unique nature of combat tested 
and highly trained Marine reservists who bring with them a wide range 
of civilian experiences and skills. The Reserve's unique nature makes 
it a great complement to our Total Force when conducting stability 
operations in Iraq and Afghanistan as well as performing worldwide 
theater security cooperation and training commitments.
    The current authorities and policies in place for OCO work well and 
allow the needed predictability we desire. However, authority to access 
the Reserve for other operational missions is another matter. Concern 
has been raised within the Defense establishment whether the current 
authorities can justify involuntary mobilization, the key to 
predictability, for missions outside of OCO. The Marine Corps, as well 
as the other Services, are examining the question of access. Without an 
appropriate authority to maintain non-OCO access to the Reserve 
component, we will be unable to meet the great demand for the Marine 
Corps Reserve to meet our training and mentoring capabilities so vital 
to partner nation engagement. A new authority may be needed which will 
require a change to our current laws regarding mobilization. Of course, 
continued use of an operational reserve beyond OCO supplemental funding 
will require appropriate programming within the Marine Corps and DOD to 
ensure adequate funding for the right balance of Active component/
Reserve component employment.

    41. Senator Graham. General Stultz, Admiral Debbink, General 
Stenner, and General Kelly, do you think the current mobilization 
authorities are sufficiently flexible or are changes in legislation 
needed?
    General Stultz. No, current mobilization authorities are not 
sufficiently flexible. Legislative changes are needed. The type of 
changes I envision are those which permit the Army to mobilize the USAR 
for: domestic emergencies; generating force operations; and overseas 
contingency missions which provide our soldiers an opportunity to 
perform security cooperation missions and/or training exercises in a 
predictable and cyclical manner. Limiting mobilizations to warfighting 
type situations is a major barrier to our transition from a strategic 
reserve into an operational force (per one of the CNGR 
recommendations).
    Admiral Debbink. I believe that the Services need additional 
authorities delegated to them in order to access their Reserve 
components during and for operations other than war or national 
emergencies. A major paradigm shift has taken place with regard to the 
utilization of our Reserve Forces. Current authorities do not allow us 
to deploy reservists in the regular, rotational work of the Services. 
Providing access to the Reserve component to complete these missions 
will help increase the efficiency and capability of the Total Force, 
and will enhance the Reserve component's ability to be the force of 
first choice for DOD requirements around the globe.
    General Stenner. From a legal perspective, the current mobilization 
authorities are sufficiently flexible and no legislative changes are 
needed at this time. The issue is that historically, the current 
mobilization process as identified in the Global Force Management 
Implementation Guides (GFMIG), has not been adhered to resulting in 
confusion mobilizing Reserve Forces. AFR Command proposes to educate 
the Regular Air Force (Active component) on the proper authorities and 
process for mobilizing reservists and require adherence to using the 
proper authorities and the process requirements.
    General Kelly. If we are to truly operationalize our Reserve 
component to support the combatant commanders within the full range of 
military operations after the current authority to involuntarily 
activate has expired, changes to legislation will be required. Current 
authorities lack the flexibility to employ an operational reserve post-
OEF as there is not an authority that permits involuntary activation of 
units for more than 2 weeks without an authorization from the commander 
in chief. The Services require the ability to involuntarily activate 
units in accordance with their Force Generation models in order to 
provide predictability for the reservist and cohesive capabilities for 
the Combatant Commanders.

    42. Senator Graham. General Stultz, Admiral Debbink, General 
Stenner, and General Kelly, how would you approach the task of creating 
activation authority, short of a Presidential call up, that balances 
the need for readiness and response with dwell time and recognition 
that reservists must be able to stand down?
    General Stultz. I would identify various categories for which such 
activations should be appropriate. A few things that come to my mind 
are: domestic emergencies, augmenting the Army's stateside training 
support base, and perhaps helping the combatant commands, in 
coordination with U.S. embassies, strengthen the capacity of partner 
nation's security forces.
    Additionally, I would consult key stakeholders from throughout our 
Employer-Army Reserve Partnership program to determine the type of 
conditions that would be favorable to them, as it relates to acceptable 
frequencies and durations of short-term deployments. I would also 
attempt to find out from them if there were any feasible incentives 
that could help mitigate whatever disruptions would result from call-
ups that were not of the Presidential call up variety.
    Lastly, I would consult with the families of our Force, and the 
type of information I would seek would be very similar to what I would 
want from the employers: conditions and possible incentives.
    Once complete, I would analyze what's fiscally feasible, and 
legally practical, and then work through the Army's OCCL to develop a 
recommendation that had been reconciled with the Army's human capital 
strategy as it relates to recruiting and retention activities.
    Admiral Debbink. I would approach this task by amending Title 10 to 
create a new statute that allows the Secretary of Defense to delegate 
authority to the Secretary of the Services to recall to Active Duty 
members of the Ready Reserve for a pre-designated set of specific 
missions and a period of not more than 365 days in any 5-year period. 
Notification requirements would be in accordance with current policies 
addressed in DOD Instruction 1235.12 ``Accessing the Reserve 
Components.''
    General Stenner. Although not a legal question, one thought would 
be to ensure the AFR has input into the assets to be activated prior to 
activation to adequately assess the balance between the readiness and 
response and dwell time.
    General Kelly. We need to ensure Reserve component force generation 
models continue to be used as dwell period calculators. When utilized, 
these models provide predictability for Service headquarters, 
servicemembers, families, and employers. We also need to ensure that 
when we recall reservists involuntarily, it is consistent with the 
Guidance for the Employment of the Force priorities and OSD utilization 
rules. Furthermore, we must provide meaningful opportunities for the 
reservist. We view Security Force Assistance and Theater Security 
Cooperation Phase Zero operations as meaningful and existing within the 
``full spectrum of conflict.'' These operations are wholly suitable for 
mobilizing Reserve capabilities to support, but should not require a 
Presidential recall.

    43. Senator Graham. General Stultz, Admiral Debbink, General 
Stenner, and General Kelly, is the best approach to do this solely on a 
voluntary basis, through service agreements or do we need a more 
flexible involuntary call up?
    General Stultz. I believe an activation authority that's in tune 
with readiness, response, and stand-down requirements is best achieved 
through a more flexible involuntary call up process. The myriad of 
unpredictable challenges to our national interests, should prompt us to 
realize that the timely and enduring use of our force, both Active and 
Reserve components, should not be confined to instances warranting a 
presidential call-up. In light of the far-reaching implications behind 
future activation of Reserve Forces, and an understanding that the USAR 
primarily mobilizes units, not individuals, I feel additional volunteer 
service agreements would be neither mission nor cost effective. 
Instead, I think Congress should empower the SECDEF with the capability 
to initiate actions to assemble, and prepare for activation, a relevant 
and capable force mix to preserve or promote our national interests at 
home or overseas. The value of such autonomy would be easily validated 
whenever the United States had to quickly send the proper military 
capabilities to either prevent or mitigate the effects of a natural 
disaster in a foreign country.
    Admiral Debbink. I believe the best approach is to provide the 
necessary authority for the Services to have routine access to the 
operational elements of the Reserve components. For many capabilities, 
the Reserve component complements the capabilities of the Active 
component, and is the best source for some capabilities. Our reservists 
are all volunteers. When they choose to affiliate with an operational 
unit, they expect to perform Active Duty service in support of the 
country, and they want to be involved in DOD operations globally.
    General Stenner. My belief is that a voluntary basis is the best 
approach. A more flexible involuntary call-up may negatively affect 
recruitment and retention.
    General Kelly. A more flexible involuntary call up should be 
enacted. To fully recognize the potential of the Reserve component as a 
non-OCO operational force, involuntary mobilization authority is 
required to support CCDR requirements across ``the full spectrum of 
conflict.'' Involuntary mobilization authority is required to preserve 
the integrity of Reserve component force generation models because when 
volunteers are cross-leveled between several units, the mission 
readiness of remain-behind units suffer. When a deploying unit's 
personnel and equipment do not originate from within, the mission 
readiness of units that provide volunteers and equipment suffer. This, 
in turn, jeopardizes the reliability of force generation models and 
eliminates the predictability they provide to service headquarters, 
servicemembers, families, and employers.

    44. Senator Graham. General Stultz, Admiral Debbink, General 
Stenner, and General Kelly, we are consistently told the Reserve 
components are more cost effective than the Active Forces. What funding 
challenges do you foresee in realizing an operational reserve?
    General Stultz. To fully operationalize, the USAR will increase 
readiness by reducing the number of post-mobilization training days 
needed to deploy and therefore, increase the amount of time units spend 
boots-on-the-ground for a given mission. To accomplish this goal, the 
USAR foresees the following resourcing challenges in base funding: 
increases in Operational Tempo (OPTEMPO); military pay associated with 
increased pre-mobilization training days as a part of the ARFORGEN 
process; enhancements to the Combat Support Training Centers and 
Medical Regional Training Sites; and increases in flexible full-time 
equivalent support.
    Admiral Debbink. While current budgets and associated OCO 
supplementals support present use of the Navy Reserve, the future 
construct we envision will demand continued sufficient resourcing of 
Fleet support. Current DOD appropriations are pressurized, and 
operational support funding is viewed as ``discretionary.'' Maintaining 
level, sustainable, and adequate funding for the operational elements 
of the Navy Reserve will be a key component of the successful 
implementation of this initiative.
    General Stenner. The operational reserve concept of operations 
necessitates a significant investment in readiness assurance training. 
It's extremely important for Reserve personnel to have ready access to 
state-of-the-art equipment with which to train, and that adequate 
funding be made available to ensure optimum levels of readiness for all 
assigned personnel. One of the largest funding challenges the AFR faces 
is to ensure training requirements are funded adequately to ensure 
members are qualified and ready for deployments. We must ensure mission 
qualified reservists are available and ready for deployment.
    As currently appropriated, the Reserve Personnel, Air Force, (RPA) 
appropriation is for ``training'' reservists. It is not intended to be 
used to perform missions tasked by the Active Duty component. Reserve 
support to the Active Duty component is to be funded through the 
Military Personnel Appropriation (MPA). We are concerned that as the 
AFR becomes more ``operational'', that our increased support activity, 
and funding requirements, will increase costs in MPA, adding further 
stress to an already challenged appropriation. Ultimately, either more 
MPA funding will be needed, or language must be added to clearly and 
specifically allow supporting the Active Duty component using the RPA.
    Finally, the activities associated with an operational reserve 
require additional funding for manpower and facility space for the 
Reserve headquarters, including the issuance of MPA days along with 
travel and per diem supporting the Active Duty taskings.
    General Kelly. Unquestionably the Reserve Forces are more cost 
effective to maintain. This is due primarily to the reduced manpower 
cost. The Reserve Forces are trained, manned, and equipped to the same 
standards as the Active component. For the vast majority of Reserve 
marines, this is accomplished through 48 drills and a 2-week annual 
training period, equating to a paycheck for 62 days a year. Reserve 
Operations and Maintenance costs are somewhat reduced, based on 
supporting the reduced time reservists are actually in a duty status. 
However, the majority of Reserve operations and maintenance costs are 
non-discretionary (i.e. utilities, facilities sustainment and 
maintenance, maintenance of equipment, etc.). Because we train to the 
same standards as our Active component counterparts, Reserve Forces can 
be integrated into the Total Force very quickly and with minimal 
``specialized'' training. Once activated to fulfill Active component 
missions, the Reserve Forces costs are practically the same as the 
Active component. These are incremental cost in that they are above and 
beyond what is programmed in the Active Duty appropriations to support 
the authorized end strength.
    However, history has proven there are no significant savings in the 
Reserve appropriations, due to activations, unless they are activated 
for an entire year. This is primarily because once notified of the 
intent to activate, Reserve marines accelerate their drills and annual 
training periods to prepare for upcoming activations.

    45. Senator Graham. General Stultz, Admiral Debbink, General 
Stenner, and General Kelly, are there any hidden costs that could 
reduce your Reserve Force's cost effectiveness?
    General Stultz. As a strategic reserve, no. However, there will be 
some costs associated with an operational reserve. Costs include 
medical care before and after mobilization; potential increases in 
Veterans Affairs benefits; post deployment support to soldiers and 
their families; and increases in the overall equipment level of certain 
units. Yet, even with these additional costs for an operational 
reserve, the USAR continues to remain a cost effective force.
    Admiral Debbink. There are no hidden costs.
    General Stenner. Increased readiness ultimately equals increased 
costs. Expediting the process of fully training, qualifying, and 
certifying each individual as quickly as possible, as the AFR is 
determined to do, also increases expenses. The most prominent funding 
issue is the amount of additional support and ``hands on'' time 
required to make sure each reservist is current and fully qualified. 
Many AFR specialty areas are technologically complex and require 
demonstrated proficiency in order for the individual to be considered 
deployment-ready. The legacy missions in the AFR are being supplanted 
by even more challenging requirements in the Air Force's new array of 
emerging organizations, and the need for substantial training drives 
increased costs. Unlike previous eras, Active Duty personnel with the 
requisite skills are not generally available, so the training 
requirements are consequently much greater.
    Additionally, operating costs for Reserve wings located on Active 
Duty and joint installations are increasing as the additive support 
required for reservist qualification and currency training leads to 
increased charges for common support from the Active Duty hosts. The 
host installations have placed limits and restrictions on standard 
services that ultimately increase Reserve expenses and reduce that cost 
effectiveness.
    General Kelly. Major end items are purchased as Total Force 
requirements from the Procurement Appropriation. Due to lead time for 
delivery of these items and changing priorities, it is difficult to 
determine what portion of the Procurement account (outside NGREA), 
which directly supports the Reserves on an annual basis.

    46. Senator Graham. General Stultz, Admiral Debbink, General 
Stenner, and General Kelly, what do you see as the most significant 
obstacle to realizing a truly operational reserve in the post-OCO 
steady state?
    General Stultz. I see funding as the most significant obstacle to 
realizing a truly operational reserve. I mean, we've been effectively 
functioning in this capacity for over 8 years and what has enabled us 
to do all that is required as an operational force: the manning, 
equipping, and training has been provided through a string of budgetary 
supplementals. As an active participant in the Army's budget 
preparation efforts, it is not difficult to see that the Army's base 
budget has minimal capacity to absorb and sustain the costs associated 
with fielding a truly operational reserve. Conventional wisdom suggests 
there is a direct relationship between OCO funding and increased 
utilization of the Reserve component. It only follows that, if OCO 
funding is decreased, the operational tempo that we equate to an 
operational reserve will also decrease. So, I see funding (followed 
closely by current mobilization authorities) as the most significant 
obstacle to realizing a truly operational reserve.
    Admiral Debbink. The most significant obstacle will be ensuring 
appropriate policies and legislation are in effect to allow the 
Services to keep faith with the members, families, and employers of the 
Reserve Forces. Our success in any endeavor, from OCO support to the 
implementation of an operational reserve in the post-OCO environment, 
depends on the strength of the support our reservists and their 
families receive from the military and their civilian employers. By 
providing predictable rotations of active service and ensuring the 
assignment of meaningful work for those periods, the Services will be 
better positioned to maintain readiness and retention levels.
    General Stenner. The higher costs in a fiscally constrained 
environment, ability to recapitalize worn out equipment, and need to 
mirror Active Duty requirements via acquisition programs are the 
largest obstacles to a truly operational reserve.
    The higher costs associated with operational reserve use, as 
opposed to use as a strategic reserve, is due to the generally higher 
rank and experience level of our units. The higher experience and ranks 
of our units translates into higher pay costs when used in an 
operational reserve mode.
    The higher rates of use of equipment in an operational reserve will 
lead to a more rapid retirement of older aircraft and equipment. Once 
again, in a fiscally constrained environment recapitalization may pose 
challenges.
    Active Duty aircraft are updating their equipment with new weapons, 
defensive systems, and communications gear. As new equipment is 
outfitted on Active Duty aircraft, the AFR will need to match these 
improvements to maintain combat readiness and interoperability. This 
too will pose challenges for the operational reserve Air Force.
    General Kelly. Funding an operational reserve from baseline service 
budgets as OCO supplemental funding diminishes. Operational reserve 
funding will likely compete with other service programs and 
requirements, primarily Military Personnel Marine Corps funding as it 
relates to the Marine Corps' Active component end strength.

                           medical readiness
    47. Senator Graham. General Stultz, in a DOD report on the 
individual medical readiness of Reserve Forces, it stated that only 57 
percent of USAR personnel met deployment-ready standards, with 
mobilization-disqualifying dental conditions being the prime reason for 
the low percentage. Despite the importance of medical and dental 
readiness, at the end of the day, my sense is that funding for medical 
and dental readiness does not compete well with other priorities, such 
as training and equipment and that the real solution is day-in, day-out 
leadership within Reserve and Guard units. What is the best solution to 
ensure that funding for readiness includes and improves medical and 
dental readiness?
    General Stultz. Command emphasis and adequate funding have improved 
medical and dental readiness within the USAR.
    Dental readiness has historically been one the lagging indicators 
for overall medical readiness. The Army Selected Reserve Dental 
Readiness System (ASDRS) is an example of prioritizing the utilization 
of medical readiness funding. Implementing the ASDRS program increased 
dental readiness from 52 percent on Oct. 1, 2008 to 63 percent on Oct. 
1, 2009 to 70 percent on May 1, 2010.
    As far as demonstrating an overall return on investment, medical 
readiness improved from 24 percent on Oct. 1, 2008 to 45 percent on 
Oct. 1, 2009 to 58 percent on May 1, 2010. As a result of this 
demonstrated improvement, funding for USAR medical readiness has 
competed well in the POM and is expected to be funded to achieve the 
DOD standard for medical readiness in fiscal year 2012.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                              retired pay
    48. Senator Chambliss. Secretary McCarthy, as you know, I have been 
a strong supporter of allowing qualifying duty performance since 
September 11, 2001, to be counted towards early receipt of retired pay. 
I noticed in your statement that you said ``we must recruit and retain 
prior-service personnel.'' If we were to pass a provision allowing 
qualifying duty since September 11, 2001, to be counted towards early 
receipt of retired pay, what effect do you believe that may have on 
recruiting and retention of prior-service personnel in the Reserve and 
what effect might such a provision have on force shaping of the Guard 
and Reserve in general?
    Secretary McCarthy. Currently, we have not fully reviewed the 
impact of early receipt of retired pay on recruiting and retention on 
prior-service reservists. The 11th Quadrennial Review of Military 
Compensation will review the retirement system and its force shaping 
impact as part of its comprehensive analysis of National Guard and 
Reserve compensation. I am well aware that the Reserve retirement 
system is a significant issue for the members of the National Guard and 
Reserve and we are carefully examining this system.

                           reserve readiness
    49. Senator Chambliss. General Carpenter, in terms of training, how 
are you doing with respect to having up-to-date equipment that you can 
train on?
    General Carpenter. New equipment is coming to the ARNG today at an 
unprecedented rate; the fielding of new equipment requires initial user 
level training. When fielding new equipment, such as a digital command 
and control system to a unit, the Product Manager is required to 
conduct training for the unit; usually the training is done through the 
New Equipment Training (NET) process and is the initial step in 
fielding equipment. NET provides basic level training for operators, 
maintainers, and unit leadership, and provides the foundation for 
further refined collective training at the unit level.
    Part of the ARNG's issue with respect to equipping is the 
timeliness that we receive new equipment. The ARFORGEN cycle is 
designed for units to progressively build readiness in order to be 
operationally available to meet the needs of the Nation on a rotational 
basis. In order to achieve the required readiness levels, unit training 
is designed to become progressively more complex and intense. Equipment 
must be programmed and scheduled to be fielded by units early in their 
respective ARFORGEN cycles in order to facilitate, rather than 
interrupt, the training plans. If a unit receives equipment late in the 
ARFORGEN cycle, critical training events are interrupted and may be 
canceled in order to complete the fielding process. That training must 
then be made up later, most likely at a mobilization station, resulting 
in additional post-mobilization training time and less time that the 
unit will spend deployed in theater.

    50. Senator Chambliss. General Carpenter, I know there are efforts 
to ensure that the Reserve component have access to equipment 
compatible with the Active component, but are you confident that our 
soldiers in the National Guard and Reserve are getting these items?
    General Carpenter. The Army continues to improve the EOH rates as 
well as the modernization levels for both the ARNG and the USAR. The 
Army sees this as critical to the transformation of the Reserve 
component from a strategic to an operational reserve. The Army 
Equipping Strategy identifies equipping goals for units as they 
progress through the ARFORGEN cycle. These equipping goals apply 
equally across all three components--Active, ARNG, and USAR.
    Beginning in fiscal year 2006, the Army significantly increased its 
investment in ARNG equipment, allocating approximately $28.7 billion 
for new procurement and recapitalization between fiscal year 2006 and 
fiscal year 2010. Of particular significance, the ARNG was fully 
equipped with SINCGARS radios and UH-60 Blackhawk helicopters in fiscal 
year 2009 and is on track to complete fielding of M4 rifles by the end 
of fiscal year 2010. However, the Blackhawk fleet is still only 
partially modernized and current funding efforts will not produce a 
modernized fleet until the end of fiscal year 2025. Despite the 
increased investment since fiscal year 2006, the ARNG still has 
critical shortfalls and modernization gaps in the truck fleet, 
helicopter fleet, and digital enablers. In addition to supporting OCO, 
this equipment is critical to supporting the ARNG's Homeland Defense/
Defense Support to Civil Authorities (HLD/DSCA) missions.
Modernization
    The Army is committed to equipping soldiers going into harm's way 
with the most capable systems possible. This equipping strategy applies 
to Reserve component units as well as Active component units and is 
designed to modernize the USAR and ARNG on par with the Active 
component.
Transparency
    The CNGR--also known as the ``Punaro Commission''--provided DOD 
with a set of recommendations designed to improve the operational 
readiness of National Guard and Reserve Forces. Two of the 
recommendations (CNGR #42 and #43) directed DOD to increase the 
transparency of equipment requirements, funding, procurement, and 
delivery. Over the past year, the Army has significantly improved 
transparency within its equipment procurement and distribution 
processes.
    Based on the current Army Equipping Strategy, the Army's commitment 
to equipping soldiers going into harm's way with the most capable 
systems possible and the significant increase in transparency, I am 
confident the ARNG is receiving modern equipment which is compatible 
with the Active component.

    51. Senator Chambliss. General Carpenter, are they able to become 
familiarized with these items at home before they step foot into Iraq 
or Afghanistan and see them for the first time?
    General Carpenter. ARNG soldiers get the appropriate time to become 
familiarized with the new equipment, but we don't always get enough 
time to be proficient enough to realize the full capability of the new 
system.
    Proper training with new equipment has three phases. First, the 
actual operators of the equipment must be trained in basic operation 
and maintenance. Second, the squad or section must be trained in 
integrating the new equipment into the performance of training tasks. 
Finally, as the unit conducts higher-level collective training, the 
various pieces of new equipment are integrated into the unit's 
operations.
    The ARFORGEN design includes time for progressive training to 
ensure that units properly utilize new equipment while deployed. When 
fielding of new equipment occurs late in the ARFORGEN cycle, or even 
after mobilization, this progressive building of proficiency on the new 
equipment is delayed and sometimes lost. Individual operators may have 
a basic understanding of how to operate their equipment, but the unit 
is not sufficiently training in employing the equipment's full 
capability.
                                 ______
                                 
            Questions Submitted by Senator George S. LeMieux
                            reserve training
    52. Senator LeMieux. Secretary McCarthy, what is the status of the 
tire removal training project in fiscal year 2010 and what are the 
plans for this continued training activity in fiscal year 2011?
    Secretary McCarthy. In October 2009, Dr. Kenneth Banks, Marine 
Resource Program Manager for Broward County, was notified that the 
Services did not select the Osbourne Reef Tire project as a training 
venue for fiscal year 2010. The Services select the projects based on 
specific training requirements and priorities. None of the Services 
have selected the reef project as a training project in 2011.
    For 3 years, fiscal year 2007 to fiscal year 2009, military dive 
and boat crews have volunteered to conduct a training mission off the 
coast of Fort Lauderdale, FL, to assist Broward County with the 1977 
failed Osbourne Reef Tire project. During the 3 years that training was 
conducted, over 40,000 tires of the 2,000,000 dispersed throughout 36 
miles of ocean floor were removed. The Innovative Readiness Training 
(IRT) has been a very successful program to provide voluntary real 
world pre-deployment training venues for military units while 
benefiting underserved communities throughout the United States.

    53. Senator LeMieux. Secretary McCarthy, can you provide me with a 
status report on the IRT program in the fiscal year 2010 and highlight 
projects in the State of Florida and explain how the fiscal year 2011 
budget request and the National Defense Authorization Act dovetail with 
your plans in Florida for fiscal year 2011?
    Secretary McCarthy. There are no IRT projects being conducted in 
Florida during fiscal year 2010. Broward County was the only entity in 
the State of Florida that submitted a request for military support 
under the IRT program in fiscal year 2010. Broward County was notified 
in October 2009 that none of the Services had selected the Osbourne 
Reef Tire Project as a training venue for fiscal year 2010. IRT is a 
voluntary program which the Services can use for alternative training; 
as such, none of the Services have selected the Osbourne Reef Tire 
project as a training venue for 2011. No other communities or non-
profits in the State of Florida requested support in accordance with 
the IRT program for fiscal year 2011.
    Section 2012, title 10 U.S.C., DOD Directive 1100.20 and Service 
instructions authorize units or individuals to provide support to non-
DOD organizations. The Services have the opportunity to review many 
training venues submitted by communities and determine those that will 
meet the mission essential task list training requirements of the 
military personnel. This voluntary training alternative for meeting 
military mobilization readiness requirements has assisted communities 
throughout the United States with infrastructure development and 
medical care.

    [Whereupon, at 11:33 a.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
